<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2012 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 112-80, Part 7]
[From the U.S. Government Publishing Office]



                                                  S. Hrg. 112-80, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 

               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1253

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2012 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR FISCAL YEAR 2012, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

              MARCH 30; APRIL 6, 13; MAY 11; JUNE 3, 2011


         Printed for the use of the Committee on Armed Services





                  U.S. GOVERNMENT PRINTING OFFICE
68-090                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                 E. BENJAMIN NELSON, Nebraska, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
MARK UDALL, Colorado                 ROGER F. WICKER, Mississippi
MARK BEGICH, Alaska                  ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
      Strategic Forces Programs of the National Nuclear Security 
                             Administration
                             march 30, 2011

                                                                   Page

D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, and Under Secretary for Nuclear 
  Security, Department of Energy; Accompanied by Hon. Donald L. 
  Cook, Deputy Administrator for Defense Programs, National 
  Nuclear Security Administration, Department of Energy; ADM 
  Kirkland H. Donald, USN, Deputy Administrator for Naval 
  Reactors, and Director, Naval Nuclear Propulsion, National 
  Nuclear Security Administration, Department of Energy; Michael 
  R. Anastasio, Director, Los Alamos National Laboratory; George 
  H. Miller, Director, Lawrence Livermore National Laboratory; 
  and Paul J. Hommert, Director, Sandia National Laboratories....     5

                           Strategic Systems
                             april 6, 2011

Benedict, RADM Terry J., USN, Director of Strategic Systems 
  Program, U.S. Navy.............................................   127
Kowalski, Lt. Gen. James M., USAF, Commander, Air Force Global 
  Strike Command, U.S. Air Force.................................   131
Chambers, Maj. Gen. William A., USAF, Assistant Chief of Staff 
  for Strategic Deterrence and Nuclear Integration, U.S. Air 
  Force..........................................................   138

                   Ballistic Missile Defense Programs
                             april 13, 2011

O'Reilly, LTG Patrick J., USA, Director, Missile Defense Agency..   175
Roberts, Bradley H., Ph.D., Deputy Assistant Secretary of Defense 
  for Nuclear and Missile Defense Policy.........................   182
Macy, RADM Archer M., Jr., USN, Director, Joint Integrated Air 
  and Missile Defense Organization, The Joint Staff..............   190
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   200

                                 (iii)
                        Military Space Programs
                              may 11, 2011

Schulte, Hon. Gregory L., Deputy Assistant Secretary of Defense 
  for Space Policy...............................................   247
Zangardi, John A. Ph.D., Deputy Assistant Secretary of the Navy 
  for Command, Control, Communications, Computers, Intelligence, 
  Information Operations, and Space..............................   252
Helms, Lt. Gen. Susan J., USAF, Commander, Joint Functional 
  Component Command for Space, U.S. Strategic Command............   256
Formica, LTG Richard P., USA, Commander, U.S. Army Space and 
  Missile Defense Command/Army Forces Strategic Command..........   260
Titley, RADM David W., USN, Oceanographer and Navigator of the 
  Navy, Director, Maritime Domain Awareness and Space............   266
Hyten, Maj. Gen. John E., USAF, Director, Space Programs, Office 
  of the Assistant Secretary of the Air Force for Acquisition....   267
Shelton, Gen. William L., USAF, Commander, Air Force Space 
  Command........................................................   270
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   278

                         U.S. Strategic Command
                              june 3, 2011

Kehler, Gen. C. Robert, USAF, Commander, U.S. Strategic Command..   326


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

      STRATEGIC FORCES PROGRAMS OF THE NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

    The subcommittee met, pursuant to notice, at 2:38 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Nelson, Shaheen, and 
Sessions.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Jennifer L. Stoker, 
security clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Roy F. Phillips, professional staff member.
    Minority staff members present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Hannah I. Lloyd and Brian F. 
Sebold.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Ben Nelson; Chad Kreikemeier, assistant to 
Senator Shaheen; and Lenwood Landrum, assistant to Senator 
Sessions.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Nelson. This is the first of the Strategic Forces 
Subcommittee hearings in review of the fiscal year 2012 budget 
request.
    I'm going to go ahead and start with my opening statement. 
I think my ranking member is on his way.
    We have hearings now scheduled for April 6, which will 
address the strategic systems, bombers, intercontinental 
ballistic missiles (ICBM), and submarine launched ballistic 
missiles (SLBM); for April 13, which will address ballistic 
missile defense programs; and on May 4, which will address 
national security space programs.
    Today, we have with us Mr. Tom D'Agostino, the 
Administrator of the National Nuclear Security Administration 
(NNSA). With Mr. D'Agostino are Dr. Donald Cook, the Deputy 
NNSA Administrator for Defense Programs, and Admiral Kirkland 
Donald, Deputy NNSA Defense Administrator for Naval Reactors. 
We also have the directors of the three NNSA National 
Laboratories: Dr. Michael Anastasio, Director of Los Alamos 
National Laboratory (LANL); Dr. George Miller, Director of the 
Lawrence Livermore National Laboratory (LLNL); and Dr. Paul 
Hommert, Director of the Sandia National Laboratories.
    We welcome you all to the hearing.
    I would note that this is the first time that Admiral 
Donald and Dr. Cook have testified before the subcommittee. 
Sadly, this will be the last time that Dr. Anastasio will 
testify before the Senate Armed Services Committee in his 
capacity as Director of LANL, having announced his retirement, 
later this summer. You have had a long and distinguished 
career, and we wish you all the best in your future endeavors 
and thank you for all your service.
    Last year, the Armed Services Committee, and the Senate as 
a whole, devoted considerable time and effort to consideration 
of the New Strategic Arms Reduction Treaty (START). The Senate 
Armed Services Committee alone held 11 hearings and briefings 
on the subject. The debate on the floor went on for almost 2 
weeks before the New START treaty was ratified. One of the 
major issues discussed by the committee and the Senate was the 
ability of NNSA to maintain the nuclear weapons stockpile 
safely, securely, and reliably into the future.
    A part of that debate and discussion was the overall well-
being and funding of the nuclear complex, particularly, the new 
facilities that were needed at NNSA Y-12 facility in Oak Ridge, 
TN, and at LANL. Parts of this complex were described as 
``decrepit'' by the bipartisan Strategic Posture Commission. I 
would note that each of these new facilities--the Uranium 
Processing Facility (UPF) at Y-12, and the new facility to 
replace the current Chemical and Metallurgical Resource 
Replacement (CMRR) facility, at Los Alamos--are multibillion-
dollar facilities. The Government Accountability Office has put 
the NNSA on its high-risk list as a result of the difficulties 
that NNSA has had delivering major construction, and other 
projects, on scope, schedule, and budget. We look forward to 
hearing how NNSA will position itself to successfully deliver 
two new multibillion projects, both of which will be under 
construction at the same time.
    The long-term ability of the NNSA laboratories to provide 
the technical support to the stockpile was also a topic of 
considerable discussion. Over the 5 years prior to 2010, 
funding for nuclear weapons work was substantially reduced. The 
labs went through significant layoffs. The result was a system 
that was beginning to lose its technical capability to support 
the stockpile for the long term.
    To sustain the abilities of the nuclear weapons complex, 
President Obama laid out a 10-year plan last fall which 
included substantial annual increases in funding for fiscal 
years 2011, 2012, and beyond.
    From the $6.4 billion appropriated for weapons activities 
in fiscal year 2010, the fiscal year 2011 funding was to be $7 
billion, and the fiscal year 2012 budget request is $7.4 
billion. This increase was to continue over the 10-year period. 
Some Senators argue that even these substantial increases 
weren't enough, and voted against the New START treaty.
    With the Continuing Resolution (CR), the long-term funding 
for NNSA isn't clear and, based on the proposals coming from 
the House of Representatives, could be substantially less than 
the funding requested by the President for both 2011 and 2012. 
One of the main issues of the hearing today will be the impact 
of the current funding uncertainty and the projected funding 
levels on the ability of NNSA to maintain the nuclear 
stockpile.
    The Nuclear Posture Review (NPR) determined that it was 
essential for the United States to maintain a triad of nuclear 
delivery system: bombers, land-based ICBMs, and the submarine-
launched ICBMs. To sustain the triad into the future, the NPR 
outlined the need for replacement programs for the current 
bomber fleet and a replacement for the Ohio-class ballistic 
missile submarines. The Office of Naval Reactors, which Admiral 
Donald heads, is a dual-entity of the NNSA and Department of 
the Navy, with responsibility for the design, development, 
operations, maintenance, and disposal of the nuclear propulsion 
plants on naval surface ships and submarines.
    One of the primary ongoing missions of the Office of Naval 
Reactors is the development of a new reactor for the Ohio-class 
replacement ballistic missile submarines. The funding requested 
in the fiscal year 2011 and 2012 budgets is critical to keeping 
the reactor design process in sync with the overall design of 
the submarine.
    Admiral Donald, we also look forward to discussing with you 
the impacts of the current funding situation on the Ohio-class 
replacement, as well as the other work of your offices.
    I thank you all.
    Now, it's my pleasure to turn this over to my good friend 
and ranking member, Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. It is a great 
pleasure for me to work with you. You know how much I respect 
and admire your leadership. I think, together, we'll do our 
best to fulfill our responsibilities to the taxpayers and to 
the security of America.
    This hearing focuses on the President's fiscal year 2012 
request for NNSA. Never has a nuclear weapons complex faced a 
turning point as significant, I think, as the one before us 
today. As highlighted by the bipartisan Perry-Schlesinger 
Strategic Posture Commission, a commission that I helped put 
the language in to create, both physical and intellectual 
infrastructure are ``in serious need of transformation and 
require significant attention and investment. After years of 
neglect, the infrastructure has degraded to the point where we 
decide to recapitalize or forego the ability to certify and 
produce safe, secure, and reliable weapons.'' Today's hearing 
provides an opportunity to discuss the 2012 budget, assess its 
adequacy, and deliver a credible deterrent that is safe, 
secure, and reliable.
    So, I welcome the commitment that the President has made 
for modernizing the nuclear weapons complex. While we may 
disagree on the likelihood that we'll have a nuclear-free world 
sometime in the future, the President has clearly recognized 
that the world we live in today requires a strong nuclear 
deterrent and that efforts toward reducing the size of the 
stockpile depend on a modernized weapons complex, a robust 
ability to produce, refurbish, and replace legacy weapons with 
weapons that are safer, more secure, and reliable.
    The 1251 report that's part of the New START Treaty was a 
key first step in ensuring the future viability of the complex. 
But, it was only a first step. A long-term sustained commitment 
that spans future administrations and Congresses alike is 
essential. Now, that's not always easy to do, to maintain a 
long-term defense project like this.
    I am, however, already concerned that some in Congress have 
forgotten the national security importance of the weapons 
complex, and have neglected to appropriate what seems to be the 
necessary amount of funds for 2011. In fact, in the most recent 
full-year fiscal year 2011 appropriations bills, the House 
appropriators cut the fiscal year 2011 budget by $312 billion, 
and the Senate appropriators cut the weapons program by $185 
billion. After countless hours of debate to fully fund the 
administration's 10-year-plus proposal during this Treaty 
debate, this failure to recognize the national security 
importance of complex modernization, I think, is disappointing. 
Hopefully, I'm wrong, and you can do the job without as much 
money as we originally thought. But, I'm worried about it.
    Going forward, I intend to advocate for the restoration of 
the funds necessary to meet the goals that we set when we 
worked on the treaty together. The construction projects at Y-
12 and LANL are the foundations of the modernization effort, 
and are the key enabler to a long list of warhead Life 
Extension Programs (LEP) over the next 20-plus years. I look 
forward to hearing more about these programs, understanding how 
NNSA intends to ensure that both facilities are delivered on 
time and on cost.
    Cost is a big question on these projects, to me. In the 
report that accompanied the New START Treaty, and has since 
been updated, the current cost estimate for the CMRR is a range 
between $3.7 and $5.8 billion. That's a lot of money. Alabama's 
general fund budget is $2 billion a year. The cost estimate for 
the UPF is between $4.2 and $6.5 billion. Together, these 
buildings would cost between $7.9 and $12.3 billion. If 
necessary, okay. That's what we have to do. It's critical to 
our defense, so we have to do it. But, I don't think it's wrong 
for Congress to ask some questions about those high figures.
    When it was released last year, the NPR included some 
troubling language that threatens to restrict the tools 
necessary for our weapons designers to design weapons with the 
highest degree of safety, security, and reliability. According 
to the NPR, warhead LEPs will ``give strong preference to 
options for refurbishment or reuse,'' thus restricting the 
ability of the labs to pursue the benefits associated with the 
replacement option.
    I remain concerned by this guidance, and associate myself 
with the concerns raised by 10 distinguished former lab 
directors who stated, in a letter to the Secretaries of Defense 
and Energy, that the NPR ``will stifle the creative and 
imaginative thinking that typified the excellent history of 
progress and development at the National Laboratories.'' I 
think that's a serious point that we must consider.
    I look forward to hearing what steps have been taken to 
ensure our weapons designers will not be restricted from 
utilizing the tools necessary for developing the most credible, 
safe, secure, reliable stockpile possible.
    Thank you, Mr. Chairman, and the witnesses.
    Senator Nelson. Well, thank you, Senator Sessions. It's 
always a pleasure to work with you.
    Senator Shaheen, do you have any opening remarks?
    Senator Shaheen. No, thank you.
    Senator Nelson. Okay. Mr. D'Agostino, I understand that you 
will present an oral opening statement on behalf of the panel. 
I would note that your prepared statement, as well as the 
statements of the three lab directors, will all be included in 
the subcommittee hearing record. Please proceed.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
   NUCLEAR SECURITY ADMINISTRATION, AND UNDER SECRETARY FOR 
  NUCLEAR SECURITY, DEPARTMENT OF ENERGY; ACCOMPANIED BY HON. 
  DONALD L. COOK, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, 
NATIONAL NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY; 
  ADM KIRKLAND H. DONALD, USN, DEPUTY ADMINISTRATOR FOR NAVAL 
  REACTORS, AND DIRECTOR, NAVAL NUCLEAR PROPULSION, NATIONAL 
NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY; MICHAEL 
R. ANASTASIO, DIRECTOR, LOS ALAMOS NATIONAL LABORATORY; GEORGE 
 H. MILLER, DIRECTOR, LAWRENCE LIVERMORE NATIONAL LABORATORY; 
  AND PAUL J. HOMMERT, DIRECTOR, SANDIA NATIONAL LABORATORIES

    Mr. D'Agostino. Thank you, Chairman Nelson, Senator 
Sessions, Senator Shaheen. It's a real pleasure to have the 
opportunity to address you today on a variety of investments 
that the President's proposing in the future for our Nation's 
nuclear security enterprise.
    I'd like to begin by thanking all of the Senators on the 
committee for your continued support of our program, the 
Department of Energy (DOE), the NNSA, as well as the 35,000 men 
and women who work every day to keep our Nation safe.
    We couldn't do our work without strong bipartisan support 
and, from my standpoint, the engaged leadership by Congress. 
It's absolutely critical, and this is actually what we've seen 
over the past number of years, in moving forward.
    I'd also like to take a few moments to discuss our role in 
providing response to the tragic events in Japan. Mr. Chairman, 
the earthquake and tsunami that struck Japan on March 11, 2011, 
causing significant damage to the Fukushima Daiichi nuclear 
powerplant. Some of the radioactive materials have been 
released as a result of the damage. First and foremost, our 
thoughts and prayers are with the people of Japan during this 
very difficult time.
    To assist in the response, we've deployed over 45 people 
and more than 17,000 pounds worth of equipment, including 
NNSA's aerial measuring system and consequence management 
response teams. Our response teams are on the ground and 
they're utilizing their unique skills and expertise and 
equipment to help with our partners in Japan.
    Since arriving in Japan, NNSA teams have collected and 
analyzed data gathered from more than 130 hours of flights 
aboard Department of Defense (DOD) aircraft and thousands of 
ground-monitoring points to get actual data on the ground and 
pass that information back to the Government of Japan.
    But, in addition to that, in order to ensure that this 
information is available to every single government agency, 
we've been moving this information throughout the government, 
as well as posted information online at our Web site, 
energy.gov, so members of the public can see this information 
themselves, evaluate it for themselves, and be informed. We'll 
continue to monitor this situation. We continue to provide 
detailed technical support for the Japanese; in fact, on a 
daily basis. It changes dramatically on a daily basis.
    DOE is also monitoring activities throughout--with a 
nuclear incident team that we have manned 24/7, with our naval 
reactors, as well. We get together and exchange data. We report 
our assets at our National Laboratories to provide ongoing 
predictive atmospheric monitoring capabilities based on a 
variety of different scenarios.
    It's important to note that all of the data that we have 
seen to this point reaffirms what the President has said from 
the beginning, that we do not expect any harmful levels of 
radiation from Japan to reach the United States.
    Mr. Chairman, I come before you today to discuss the 
President's fiscal year 2012 budget request. I do so at a time 
when the capabilities NNSA offers the Nation, and indeed the 
world, are on display in real time. The resources President 
Obama is requesting for fiscal year 2012 make a critical 
investment in the future of the nuclear security enterprise 
which will allow us to continue to implement his nuclear 
security agenda and respond to global crises like the one in 
Japan.
    Despite the challenging economic times facing our country, 
President Obama has requested $11.8 billion for NNSA, up from 
$11.2 billion in 2011. As I see it, the budget request can be 
broken down into three key themes.
    First, we're investing in the future. This budget request 
reflects the President's commitment, made last November, to 
invest more than $85 billion over the next decade to assure the 
safety, security, and effectiveness of our nuclear stockpile 
and to modernize the nuclear security infrastructure and 
revitalize the science and technology base that supports the 
full range of nuclear security missions that we have. It 
provides $7.6 billion for the weapons activities account to 
support our efforts to leverage the best science and technology 
and research in the world to maintain our deterrent and 
modernize the infrastructure that supports the deterrent. This 
will enable us to enhance our surveillance of the stockpile, 
proceed with key LEPs for the B61 and the W78 weapons systems, 
and continue to design the UPF at Y-12 National Security 
Complex, and the CMRR facility at LANL. These two facilities 
will provide the necessary capabilities that are absolutely 
critical to maintaining the Nation's expertise in uranium 
processing and plutonium research. Investing in a modern 
nuclear security enterprise is critical to our Stockpile 
Stewardship Program (SSP), but it also supports the full range 
of NNSA's nuclear security missions.
    Which brings me to the second theme in this request, which 
is implementing the President's nuclear security agenda. 
President Obama has made strengthening nuclear security and the 
nuclear nonproliferation regime one of his top priorities. As 
he said in his speech in Prague in April 2009, the threat of a 
terrorist acquiring and using a nuclear weapon is the most 
immediate and extreme threat we face. This budget makes the 
investments needed to continue to implement the President's 
nuclear security agenda.
    To power the nuclear Navy, President Obama has requested 
$1.1 billion for NNSA's naval reactors program. The NPR 
highlighted the need to build a replacement for the Ohio-class 
submarine, which will start to be retired from Service in 2027. 
Our fiscal year 2012 request continues the design work on the 
propulsion unit for that Ohio-class replacement submarine in 
order to meet the Navy's required procurement date of 2019.
    This budget request also includes critical investments in a 
modern and sustainable spent nuclear fuel infrastructure at the 
naval reactor site at the Idaho National Laboratory. This will 
allow us to move fuel away from wet to dry storage, and 
ultimately, to dispose of it, while we maintain the capacity 
necessary to receive spent fuel generated during a sustained 
intense period of fuel handling at our shipyards.
    Finally, the budget request seeks the resources to refuel 
the land-based prototype reactor in upstate New York.
    These are all critical elements of the President's nuclear 
security agenda defined in the national security strategy and 
in the NPR.
    Mr. Chairman, we recognize that this request for increased 
investments in the nuclear security enterprise comes at a time 
of acute financial challenges to our Nation. We recognize that 
we have the need to be effective stewards of the taxpayers' 
money.
    This brings me to the third key theme outlined in this 
budget, and that is our commitment to improving the way we do 
business and manage our resources, including budget resources, 
people resources, projects, and our infrastructure. I realize 
that you, the ranking member, and all members of this committee 
have many competing requirements. While I believe that nothing 
is more important than our shared responsibility to ensure our 
Nation's security, I also recognize that it's my responsibility 
to assure you that we can manage those resources wisely. That's 
why we are working with our management and operating partners 
to streamline our governance model to devote more resources to 
critical mission work and maximize our ability to complete our 
missions safely and securely, and do that in a cost-effective 
way. We're making sure that we have the right contracting 
strategy in place. We are improving our project management by 
ensuring we have qualified project managers leading our major 
projects, setting costs and schedule baselines on construction 
projects when design work is 90 percent complete, subjecting 
those estimates to rigorous independent reviews, and placing 
renewed focus across our enterprise on project management. 
That's why we recently created a new Policy and Oversight 
Office for managing major projects that reports directly to me 
and my office to make sure that this project management 
responsibility gets the high level of management attention it 
deserves.
    We're continuing to find innovative ways to save money 
across our enterprise. Take, for example, our supply-chain 
management center. Since 2009, it has used new technologies and 
pooled purchasing power to drive efficiencies across our 
enterprise. The result has been more than $213 million in 
auditable cost savings in the last 3\1/2\ years.
    All of this is part of our effort to create one NNSA, a 
true partnership between all of our programs and all of our 
Management and Operations (M&O) partners across the country to 
fulfill our common mission. We must break down our stovepipes, 
work collaboratively across our programs and organization, make 
sure our headquarters, site offices, and M&O partners are 
coordinated, and leverage all of our resources to meet a common 
objective, ultimately making the world a safer place.
    Taken together, these steps will ensure that we have a 
modern 21st-century nuclear security enterprise that is safer, 
more secure, more efficient, and organized to succeed, and an 
enterprise that can address broader national security needs.
    We're already realizing positive benefits as a result of 
our work. Last year, our Kansas City plant won the Malcolm 
Baldrige Award for quality. Since October, two NNSA projects 
have won separate Project Management Institute (PMI) awards, 
including our Global Threat Reduction Initiative that became 
the first Federal project to ever win PMI's Distinguished 
Project Award. That's the vision outlined in this budget 
request. It supports our full range of NNSA missions and, more 
importantly, invests in the infrastructure, in the people, in 
the science and technology and engineering required to fulfill 
our missions.
    I look forward to working with you and the members of the 
committee.
    With that, we'd be happy to take any questions that you may 
have.
    [The prepared statements of Mr. D'Agostino, Dr. Anastasio, 
Dr. Miller, and Dr. Hommert follow:]
            Prepared Statement by Hon. Thomas P. D'Agostino
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, thank you for the opportunity to testify regarding our 
nuclear security posture and the President's fiscal year 2012 budget 
request for the National Nuclear Security Administration (NNSA).
    I am pleased to be joined at the table by Dr. Don Cook, Deputy 
Administrator for Defense Programs and Admiral Kirk Donald, Director 
for Naval Nuclear Propulsion. We are also pleased to have the Directors 
of the National Laboratories--Dr. Michael Anastasio from Los Alamos 
National Lab, Dr. George Miller from Lawrence Livermore National Lab, 
and Dr. Paul Hommert from Sandia National Laboratories--join us for 
this hearing.
    The NNSA has the important mission to enhance global security 
through nuclear deterrence, nonproliferation, counterterrorism, naval 
nuclear propulsion, and national leadership in science and technology. 
Today I am going to focus on how we at NNSA are: (1) investing in the 
future of the nuclear security enterprise, (2) implementing the 
President's nuclear security agenda, and (3) improving the way we do 
business and manage our resources from the standpoint of the status of 
the nuclear stockpile and supporting infrastructure. These key mission 
areas are interdependent, and the men and women who support them make a 
direct contribution to advancing national and international security.
    Now more than ever, we must remain vigilant in ensuring that 
nuclear security programs and activities are properly managed in this 
tough budget climate. The national consensus that has developed 
following the Nuclear Posture Review (NPR) and the New START treaty 
ratification on the need to modernize our arsenal and promote all 
aspects of nuclear security across the spectrum of deterrence, 
proliferation prevention, counterterrorism and response further 
underpins the need to execute this mission responsibly and effectively.
          the nuclear security policy context and nnsa's role
    The policy context remains one in which the advancement of global 
nuclear security is a priority. When President Obama revealed his 
vision for reducing nuclear dangers and moving toward a world without 
nuclear weapons, he made clear that ``as long as these weapons exist, 
the United States will maintain a safe, secure and effective arsenal to 
deter any adversary, and to guarantee that defense to our allies.''
    NNSA has been implementing the NPR guidance to ensure a safe, 
secure and effective arsenal and promote global nuclear security. With 
the entry into force of the New START treaty we are able to project 
what the stockpile will look like, to plan an integrated program that 
meets established military requirements, and to modernize the stockpile 
and infrastructure to support a leaner, modern 21st century Nuclear 
Security Enterprise.
    The ratification of the New START treaty brought the administration 
and Congress together on the need to modernize the Nation's nuclear 
arsenal, and to provide greater resources to the science and technology 
missions, the aging physical infrastructure, and the people that 
support our strategic deterrent. We have agreed with the Russian 
Federation and within the United States to decrease the number of 
operationally deployed nuclear weapons, but we must not lose sight of 
the commitment needed to maintain the current stockpile and ensure it 
is safe, secure and effective. The President's budget requests in 
fiscal year 2011 and again in fiscal year 2012 reflect this commitment 
in the clearest and most comprehensive terms.
                21st century nuclear security enterprise
    While NNSA's primary mission is to maintain and deliver the 
Nation's nuclear deterrent to the Department of Defense, the expertise 
and tools used to accomplish that task have resulted in a multitude of 
other national security applications. The network of laboratories, 
production plants and sites that make up the Nuclear Security 
Enterprise evidences not only a shift from the Cold War capacity-based 
nuclear weapons complex, but a vision for preserving and enhancing one 
of our Nation's greatest national assets.
    This shift from a weapons complex into a nuclear security 
enterprise is about making adjustments to the program in order to 
prevent and respond to current and emerging global threats, 
particularly in relation to countering a wide-ranging set of nuclear 
threats such as preventing--or minimizing the impact of--the explosion 
of an improvised nuclear device or radiological dispersal device. It is 
about staying ahead and advancing cutting edge science and technology 
to carry out this mission.
                           budget highlights
    The President's fiscal year 2012 budget request provides $11.78 
billion to invest in a modern, 21st century nuclear security 
enterprise, implement the President's nuclear security agenda, and 
improve the way the NNSA does business and manages its resources.
    The fiscal year 2012 request represents an increase of 5.1 percent 
over the $11.2 billion requested for fiscal year 2011, reflecting a 
commitment to investing in a modern enterprise that can support the 
full range of nuclear security missions. The request highlights the 
vital role NNSA plays in implementing the President's nuclear security 
agenda and the broad, bipartisan consensus that has developed regarding 
the role NNSA plays in enhancing our Nation's security and the 
resources needed to get the job done.
Investing in the Future
    Secretary of Energy Chu and I work closely with Secretary of 
Defense Gates and other Defense Department (DOD) officials to ensure 
that NNSA remains focused on a strong interagency partnership that 
meets our national security requirements and promotes NNSA's 
sustainability. As a result, the President's request includes $7.6 
billion for the Weapons Activities appropriation, an 8.9 percent 
increase over the President's fiscal year 2011 request and a 19.5 
percent increase over the fiscal year 2010 appropriation to invest in 
the future of the nuclear security enterprise. These resources will 
support, among other things, the operation and construction of the 
modern research facilities needed to do cutting edge science and 
attract the next generation of nuclear security experts. It continues 
implementation of the President's commitment to invest $85 billion over 
the next decade to sustain the nuclear deterrent and to modernize the 
infrastructure that supports it, as well as to implement the agenda 
outlined in the NPR, the Stockpile Stewardship and Management Plan, and 
the updated Section 1251 Report submitted to Congress.
    NNSA's budget request also includes associated out-year projections 
in the Future-Years Nuclear Security Program that identifies resources 
needed to meet the continuing requirements for significant long-term 
investments in the deliverables, capabilities, and infrastructure of 
the enterprise.
    These resources will help us invest in a modern, 21st century 
Nuclear Security Enterprise that can sustain the stockpile and support 
our full range of nuclear security missions. With these investments, 
NNSA will be able to continue to move toward an enterprise that is 
safer, smaller, more secure, more efficient, more sustainable, and more 
adaptable.
    The request includes an increase of 3.1 percent over the fiscal 
year 2011 level to protect and advance the scientific capabilities at 
the U.S. national security laboratories and a 21 percent increase for 
infrastructure improvements, including continuing work on the Uranium 
Processing Facility (UPF) at the Y-12 National Security Complex and the 
Chemistry and Metallurgy Research Replacement facility (CMRR) at Los 
Alamos National Laboratory. These capital projects are key elements for 
ensuring safe, secure, and reliable uranium and plutonium capabilities 
for nuclear security and other important missions.
    To power the nuclear navy, the budget request includes $1.2 billion 
for the NNSA's Naval Reactors program, an increase of 7.8 percent over 
the President's fiscal year 2011 request. The programs in this 
appropriation support the U.S. Navy's nuclear fleet. Specifically, the 
request supports the administration's decision to recapitalize the sea-
based strategic deterrent. The Ohio-class ballistic submarines, the 
most survivable leg of the Nation's strategic deterrent, are reaching 
the end of their operational life. The request will enable Naval 
Reactors to continue reactor plant design and development efforts begun 
in 2010 for procurement of long-lead reactor plant components in 2017, 
in support of Navy procurement of the first Ohio Class submarine 
replacement in 2019. Providing the Ohio-class replacement a life-of-
the-ship reactor core will require substantial advances in 
manufacturing technology to provide new cladding and a new fuel system. 
The request also supports the refueling of a land based prototype 
reactor, providing a cost effective test platform for these new 
technologies.
    Increased funding is also requested for the Spent Fuel Handling 
Recapitalization Project, which will replace the over 50-year old 
Expended Core Facility as the location for naval spent nuclear fuel 
receipt, inspection, dissection, packaging, and secure dry storage. 
Fiscal year 2012 funding continues the conceptual design for the 
facility, equipment, and related systems, as well as continues meeting 
the National Environmental Policy Act's requirements and project 
oversight (e.g., engineering procurement and construction management). 
Detailed project engineering and design work will commence in fiscal 
year 2013 and construction will commence in fiscal year 2015.
    These vital projects will replace facilities that date back to the 
dawn of the Cold War with modern facilities that can support the full 
range of nuclear security missions--including maintaining the nuclear 
deterrent, preventing proliferation, securing vulnerable nuclear 
material, powering the nuclear Navy and providing the Nation with the 
best emergency response and counterterrorism capabilities possible. 
They will also ensure that NNSA continues to work with the Department 
of Defense and other interagency partners to keep the Nation safe.
Implementing the President's Nuclear Security Agenda
    The fiscal year 2012 budget request also provides the resources 
required to continue to work toward the President's commitment to 
secure the most vulnerable nuclear material around the world within 4 
years, a key national security goal. The budget request includes $2.5 
billion for Defense Nuclear Nonproliferation in fiscal year 2012 and 
$14.2 billion over the next 5 years to reduce the global nuclear threat 
by detecting, securing, safeguarding, disposing, and controlling 
nuclear and radiological material worldwide, as well as promoting the 
responsible application of nuclear technology and science. Working 
together across the nuclear security enterprise, and in collaboration 
with our colleagues in a range of U.S. agencies, as well as with 
international organizations and partners in over 100 countries, we 
carry out these efforts globally on a daily basis.
    This request reflects the significant accomplishments of NNSA's 
nuclear nonproliferation programs and seeks the resources needed to 
complete the President's goals and prepare to respond to new 
challenges. This budget request provides the resources required to meet 
commitments secured from international partners during the 2010 Nuclear 
Security Summit to remove all remaining highly enriched uranium (HEU) 
from Belarus, Ukraine, Mexico, and other countries by April 2012, 
expand our efforts to prevent nuclear materials trafficking, encourage 
global implementation of higher standards for the physical protection 
of nuclear material and nuclear facilities and work with the Defense 
Department to improve international nuclear security cooperation.
    The request of $2.5 billion is a decrease of 5.1 percent from the 
President's fiscal year 2011 Request, but an increase of 19.6 percent 
over the fiscal year 2010 appropriation. This 5.1 percent or $138 
million decline flows logically from the fiscal year 2011 request which 
was `front loaded' to accelerate the effort to secure vulnerable 
nuclear materials within the President's stated timeframe. Even with 
this decrease, the NNSA's budget request remains consistent with our 
overall strategy to ensure that programs supporting the President's 
commitment to lead an international effort to secure the most 
vulnerable nuclear materials around the world in 4 years are fully 
funded in the Request. The Global Threat Reduction Initiative efforts 
related to radiological material, as well as the International Nuclear 
Material Protection and Cooperation program's activities to enhance the 
ability of our foreign partners to detect nuclear smuggling at border 
crossings and in Megaports have been prioritized to accelerate nuclear 
material lockdown efforts. The decrease in the request for Fissile 
Materials Disposition reflects the completion of long-lead procurements 
for the MOX and Waste Solidification projects, as well as the decision 
to defer funding associated with the $400 million U.S. pledge for the 
Russian Surplus Fissile Materials Disposition program until agreement 
is reached on milestones for the program. Prior Year unobligated 
balances of $30 million associated with contingency funds for 
construction under the Elimination of Weapons Grade Plutonium 
Production Program are proposed for cancellation, due to the program's 
anticipated completion of CD-4 activities in the June 2011 timeframe.
Improving the Way NNSA Does Business
    In 2010, the NNSA observed 10 years of major accomplishments since 
its inception. We have secured and removed hundreds of nuclear weapons-
worth of nuclear material around the world; we have built the world's 
fastest supercomputers and largest laser; we have pushed the frontiers 
of science and discovery on a daily basis; and we maintain an aging 
stockpile to ensure that it will remain a safe and effective deterrent. 
In the next decade, we have major projects to complete: the First 
Production Unit of the life extended B61 by 2017; addressing the W78 
Life Extension Program and the potential commonality with the W88; and 
completing the design and construction of our plutonium and uranium 
capability at CMRR and UPF by 2020, with operations by 2023 and 2024 
respectively. We also continue to reduce our security footprint by 
consolidating nuclear missions and materials. We are on track to 
complete removal of Category I/II Special Nuclear Materials from the 
Lawrence Livermore National Laboratory by the end of 2012, which will 
enable NNSA to reduce security risks and costs there.
    We recognize that the fiscal year 2012 request for increased 
investments in the nuclear security enterprise comes at a time of acute 
financial challenges for our Nation, and we recognize the need to be 
effective stewards of the taxpayer's money. We have made a series of 
management decisions and put in place reforms and reorganizations to 
better reflect a 21st century mission and prepare us for the next 10 
years of the NNSA.
    Consistent with the President's commitment to deliver on critical 
national nuclear security missions at the best value to the American 
taxpayer, the fiscal year 2012 budget request will enable NNSA to 
continue to improve the way it does business and manages resources. The 
President's budget request for Federal oversight and staff included in 
the Office of the Administrator appropriation is $450.1 million, an 
increase of 0.4 percent over the fiscal year 2011 request and an 
increase of 7 percent over the fiscal year 2010 appropriation.
    To maintain congressional support for NNSA's programs, the 
enterprise has a responsibility to work together as ``One NNSA,'' a 
fully integrated enterprise that operates efficiently, is organized to 
succeed, that performs its work seamlessly, and speaks with one voice. 
This ``One NNSA'' needs to be a true partnership among Headquarters, 
the Site Offices and our Management and Operations (M&O) partners. We 
are working from the senior management level to ensure all 35,000 
employees develop a culture where we all work in a more integrated and 
interdependent fashion.
    Changing the way NNSA does business is an important part of the 
effort to transform a Cold War nuclear weapons complex into a 21st 
Century Nuclear Security Enterprise. NNSA simply cannot expect Congress 
to support major investments in its programs and its facilities unless 
the enterprise can demonstrate that the Department of Energy is a 
responsible steward of the taxpayer's money.
    NNSA needs to do better, which is why the Federal sector leadership 
is working with its M&O partners to streamline the enterprise 
governance model in order to devote more resources to critical mission 
work and maximize NNSA's ability to complete its mission safely and 
securely.
    NNSA is making sure that it has the right contracting strategy in 
place. The agency is improving its project management by, for example, 
ensuring that NNSA no longer sets cost and schedule performance 
baselines on construction projects until design work is 90 percent 
complete, ensuring it has the right leadership teams in place, and 
performing independent cost reviews. NNSA has also created a new policy 
and oversight office for managing major projects, the office of 
``Acquisitions and Project/Construction Management.'' The new office 
reports directly to the Administrator. This will help ensure that 
project management gets the high level focus it requires. In addition, 
we are moving to Federalize pilots for our secure transportation 
program in order to gain efficiencies and maintain operational control. 
Finally, as the Facilities Infrastructure and Recapitalization Program 
comes to an end, we will create the Capabilities Based Facilities and 
Infrastructure activity to continue to focus on maintaining the 
infrastructure we have.
    We are already beginning to see results. NNSA is increasingly 
recognized for its efforts to be an effective steward of tax dollars. 
For example, since 2007, NNSA's Supply Chain Management Center has 
saved $213 million by using pooled purchasing power to drive 
efficiencies across the enterprise. In the last year NNSA's Kansas City 
Plant won the prestigious Malcolm Baldrige Award, America's highest 
honor for innovation and performance excellence. Two other NNSA 
programs were recognized with Project Management Institute (PMI) 
awards. In 2010, the Global Threat Reduction Initiative became the 
first Federal project to receive PMI's Distinguished Project Award, 
while the National Ignition Facility at Lawrence Livermore National 
Laboratory received PMI's project of the year.
                               conclusion
    Our Nation has carefully evaluated its security needs in an 
international landscape that remains challenging and uncertain. NNSA 
has charted a path forward that shows our unwavering commitment to the 
Nation's security and enhances our formidable capabilities to address 
broader security challenges.
    The NNSA is a technically based organization with a strong nuclear 
heritage that serves as the base for our contribution to a wide range 
of national security solutions. NNSA is rooted in the management of our 
Nation's nuclear weapons stockpile, the application of nuclear energy 
for naval propulsion and its nonproliferation programs. Additionally, 
NNSA capabilities support a broad range of U.S. and international 
activities that address existing dangers, identify and prepare for 
future challenges, and advise the U.S. Government and our international 
partners on nuclear security matters.
    This 5 year budget request takes the NNSA well into its second 
decade and strengthens the capabilities that are integral elements of 
our nuclear deterrent. Our challenge is to retain the essential 
capabilities and to identify and develop those needed for the future.
                         appropriations detail
    Following are more detailed descriptions of each of the four 
specific NNSA appropriations.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
              Prepared Statement Dr. Michael R. Anastasio
                              introduction
    Chairman Nelson and Ranking Member Sessions, I would like to thank 
you for your invitation to appear before the subcommittee on the 
``challenges and tasks confronting the laboratories in fiscal year 2012 
and the out-years.'' I am pleased to appear today along with National 
Nuclear Security Administration (NNSA) Administrator Tom D'Agostino, 
Director for Naval Nuclear Propulsion Admiral Kirk Donald, Deputy 
Administrator for Defense Programs Dr. Don Cook, and my fellow 
laboratory directors from Lawrence Livermore and Sandia National 
Laboratories. I am currently in my 31st year in the weapons program and 
in my 9th year as a laboratory director, having served first as 
director of Lawrence Livermore and now since 2006 at Los Alamos (LANL). 
As you likely know, I will be retiring as director this summer, and I 
wanted to take this opportunity to thank this committee for all its 
support of the Laboratory and the NNSA mission over the years.
    Los Alamos is one of the Nation's two nuclear weapons design 
laboratories. Although the Laboratory and its mission evolve over time, 
the primary focus of LANL remains to ensure the U.S. nuclear weapons 
stockpile is safe, secure, and effective. More broadly, Los Alamos is a 
national security science Laboratory. We conduct work in the national 
interest in a broad range of areas including nonproliferation, support 
to the intelligence community and homeland security, and energy 
security and the science that underpins all these mission areas.
    Per the request of the subcommittee, I will focus my remarks today 
on the health and vitality of the Laboratory as it relates to our 
ability to meet the national security requirements of the Nation. Since 
I last appeared before the U.S. Senate in July 2010 much has happened 
here in Washington which will potentially have profound impacts on the 
future of Los Alamos. With the passage of the New START treaty last 
December and the preceding debate on the health of the United States' 
nuclear weapons complex and strategic stockpile, a baseline strategy 
was formed.
    The administration announced a nuclear policy in the form of its 
Nuclear Posture Review (NPR) in April 2010 and a budget outline to 
support it, through the so-called 1251 Report, which was released in 
May 2010 and then updated later that year in November. Along with my 
colleagues from Livermore and Sandia, we issued a statement on the NPR 
in April, parts of which I include here: ``We believe that the approach 
outlined in the NPR, which excludes further nuclear testing and 
includes the consideration of the full range of life extension option's 
(refurbishment of existing warheads, reuse of nuclear components from 
different warheads and replacement of nuclear components based on 
previously tested designs), provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''
    I addressed these issues further in my testimony before this 
Committee in July 2010, where I stated in general that I was encouraged 
by the policy, and I said further that I viewed, ``the NNSA's fiscal 
year 2011 budget request as a positive first step . . . '' However, I 
added that, `` . . . I have concerns about sustaining the focus and an 
appropriate budget over the several decades for which it will be 
required.'' As I will discuss further in my testimony today, this 
continues to be a concern.
    The three laboratory directors were once again asked our opinion of 
the updated 1251 Report, when it was released in November 2010. In 
response to a December 2010 letter from the Chairman and Ranking Member 
of the Senate Foreign Relations Committee, the three of us stated that 
``We are very pleased by the update to the 1251 Report, as it would 
enable the laboratories to execute our requirements for ensuring a 
safe, secure, reliable and effective stockpile under the Stockpile 
Stewardship and Management Plan.'' We continued further that, ``We 
believe that, if enacted, the added funding outline in the Section 1251 
Report update--for enhanced surveillance, pensions, facility 
construction, and Readiness in Technical Base and Facilities (RTBF), 
among other programs--would establish a working funding level for a 
balanced program that sustains the science, technology and engineering 
base.''
    I recognize, however, that in the interim, the country is now 
confronting some very significant financial challenges. My comments 
today recognize that situation and are cognizant that all Federal 
programs will be facing budget constraints in the months and years 
ahead.
   health and vitality of the laboratory in support of the national 
                                mission
    When I testified before the Senate last July, the focus of my 
remarks was on the ability of the Laboratory to execute the new 
national strategy based on the funding in the President's fiscal year 
2011 budget submission. At the subcommittee's behest, I would like to 
outline what I believe are key elements for maintaining a healthy and 
vital Los Alamos, one that can support the national needs of the 
country. At the fundamental level, the Laboratory needs the best 
scientists, engineers, technicians and support staff that can work in 
multi-disciplinary teams on national security science challenges facing 
the country. In order for us to be able to attract and retain the best 
people, I believe that the following elements form a strong foundation 
for the Laboratory:

        <bullet> A strong national commitment to compelling national 
        security missions;
        <bullet> Stable and adequate funding;
        <bullet> Diverse and broad cutting-edge scientific programs, 
        which attract the best and brightest scientific talent; and
        <bullet> Tools, facilities and infrastructure to accomplish the 
        above, such as: the Los Alamos Neutron Science Center (LANSCE), 
        the proposed Matter Radiation Interactions in Extremes (MaRIE) 
        facility, and exascale computing, among others.

    If all the above elements are in place, the Nation will be able to 
reap the benefits of a healthy Los Alamos. As director, I am 
responsible to ensure that this is as true 15 years in the future as it 
is today, even though no one can predict what then will be the 
compelling challenges facing the country. I will address the current 
status of each of these elements below.
  strong national commitment to compelling national security missions
    The Obama administration in April 2010 released its NPR that 
updated the Nation's nuclear weapons policy. One of the five key 
objectives of the NPR was ``sustaining a safe, secure, and effective 
nuclear arsenal.'' The NPR discussed that this would be accomplished by 
studying ``options for ensuring the safety, security, and reliability 
of nuclear warheads on a case-by-case basis, consistent with the 
congressionally-mandated Stockpile Management Program. The full range 
of LEP [Life Extension Program] approaches will be considered: 
refurbishment of existing warheads, reuse of nuclear components from 
different warheads, and replacement of nuclear components.'' The NPR 
provided further detail on the fact that the ``U.S. nuclear stockpile 
must be supported by a modern physical infrastructure . . . '' and that 
the ``science, technology and engineering base, vital for stockpile 
stewardship as well as providing insights for non-proliferation, must 
be strengthened.''
    The NPR was followed by a program plan and funding profile (the 
revised 1251 Report) with an accompanying request for substantial 
funding increases in the fiscal year 2011 and fiscal year 2012 budget 
submissions. These policies and plans commit the NNSA's national 
security enterprise to an aggressive body of work for the next 20+ 
years that includes completion of the current Life Extension Program 
(LEP) for the W-76, starting studies to complete LEPs of the B61, W78, 
and W88 and the construction of the Chemistry and Metallurgy Research 
Replacement facility (CMRR) at Los Alamos and the Uranium Production 
Facility (UPF) at the Y-12 plant.
    The workforce at LANL is excited and energized to meet these 
challenges which are daunting. Certifying the stockpile in the absence 
of the ability to test (the last U.S. nuclear test was in 1992) has 
provided one of the greatest technical challenges to ever face the 
nuclear weapons complex and led to the creation of the science-based 
Stockpile Stewardship Program (SSP). At a high level, the SSP is 
critical both to the annual assessment of the stockpile, as well as to 
maturing the next generation of tools and technologies that will 
support certification of future LEPs. It requires powerful experimental 
capabilities to probe key questions facing an aging stockpile, as well 
as the most capable supercomputers in the world to integrate our new 
knowledge from experiments and validate this through comparison with 
the data that we have from our underground test history.
    I want to stress that we have learned a great deal about the 
science and engineering of weapons and the detailed phenomena that have 
to occur for a weapon to function properly. Contrary to what some have 
argued, we are definitely not ``done'' with science--there are many 
significant areas of work that remain to be done. There are critical 
open questions that remain to be solved to retain our confidence in the 
stockpile, and we cannot fully predict the scientific challenges that 
are still ahead as it continues to age and goes through modernization. 
As a nuclear weapons enterprise, we need to be fully utilizing the 
tools of Stockpile Stewardship that are now online, ranging from the 
Dual Axis Radiographic Hydrodynamic Test (DARHT) facility and LANSCE at 
Los Alamos, to the National Ignition Facility (NIF) at Livermore.
    We also need to continue what will likely be a decade long march to 
the next level of supercomputing performance, known as ``exascale 
computing.'' One of the largest successes of Stockpile Stewardship has 
been our advances in supercomputing capability, and specifically our 
ability to model the complex phenomena that occur in a weapon. What we 
have discovered is that with each improvement in simulation 
performance, we see greater fidelity and develop an improved 
understanding, as well as a further awareness of what we still do not 
understand. Thus, moving to the next generation of computing is not a 
luxury or simply speed for the sake of speed. It is essential to our 
understanding of the challenges we face with the stockpile, in 
particular as we move further away from our underground test 
experience.
    If funded according to the profile in the 1251 Report, this program 
of work constitutes national commitment to a compelling national 
security mission.
                             stable funding
    Stable funding is another sign to the workforce that there is a 
national commitment to the mission. In the national security science 
area and weapons activities in particular, scientists of necessity 
become involved in classified research and development (R&D). 
Consequently, they disappear from the traditional forums of publication 
and conferences that lead to advancement in their fields and once out 
of sight it is very difficult to find opportunities to reenter this 
very competitive arena. Before forgoing this career path, scientists 
must judge if there is an opportunity for a career over several decades 
and the best of them have many other choices available. A national 
commitment and stable funding to go with it are essential elements to 
enable that personal decision.
    For a laboratory like Los Alamos, stable funding allows 
institutional workforce planning to ensure that the right mix of skills 
with the right mix of experience are available to the programs to 
execute work today and into the future. With funding uncertainty and 
the associated worries about downsizing coupled with pay freezes, 
increased contribution to pension and medical plans, the best of our 
workforce is difficult to retain. Currently for Los Alamos, with the 
uncertainty in the fiscal year 2011 and fiscal year 2012 budgets, I 
don't know what actions I should be taking--increasing the size of the 
workforce or decreasing the size of the workforce.
   broad and diverse science portfolio that can attract the best and 
                               brightest
    Over the years, I have engaged the national leadership about my 
concern that the scientific capability that underpins the nuclear 
weapons program has been squeezed by eroding funding, increasing costs 
for facilities and security, and uncertainty over the future of the 
program. This squeeze has impacted our ability to advance the science 
to address the gaps in our understanding that must be closed for our 
continued confidence in the nuclear deterrent. For example, we have had 
to forgo some areas of research and have not fully utilized our major 
experimental facilities like DARHT, LANSCE, and NIF. Additionally, we 
have not consistently provided the most capable diagnostics and 
instruments for our research. It is the knowledge developed from this 
broad range of experimentation that is essential to validate our 
simulation tools that forms the basis for confidence through the 
science-based SSP.
    In order to mitigate the consequences of these shortfalls in 
support for our scientific capabilities, we have consciously found 
funding from other sponsors that utilize some of the same science as 
that needed by the weapons program, and in that way sustain and enrich 
our capabilities that reside in the more than 2,500 Ph.Ds that are the 
core of our science base. For instance, our technical staff does work 
that is competitively selected for the Department of Energy's (DOE) 
Offices of Science and Nuclear Energy, and NNSA's Office of Nuclear 
Nonproliferation, that is, of course, very important in its own right. 
Our researchers fare well in these competitions as they are recognized 
as among the top scientists in the country, by numerous measures, 
including the number of peer-reviewed publications. These non-weapons 
programs serve to both attract top scientists to the Laboratory, and 
they also build up fundamental scientific capability that can then be 
further leveraged and applied to our core weapons program work.
    In the case of Los Alamos, the intellectual seed corn has to be 
attracted and incentivized to join our staff because of our remote 
location and the heavy recruitment of U.S. citizens with technical 
degrees from large corporations and research universities. As a March 
25, 2011, New York Times article highlighted, we have tough competition 
from today's Silicon Valley that can provide high salaries, stock 
options and free iPads to new recruits. The good news is that typically 
once we get the scientific talent to the Laboratory, they tend not to 
leave because of the diverse set of scientific opportunities we are 
able to offer. This is particularly true when our early-career 
scientists develop a better understanding of our national security 
missions in nuclear weapons, conventional explosives, materials 
research, radiography, intelligence activities, and actinide chemistry 
and plutonium science, to name just a few.
    One common example of the path that many of our employees take from 
newly hired postdoctoral candidate to highly trained weapons engineer 
or designer can be found at our linear accelerator LANSCE. LANSCE is a 
DOE national user facility, the largest such facility at an NNSA site, 
as measured by the number of visits. LANSCE is a perfect microcosm of 
the overall Laboratory. The facility is a proton accelerator supported 
by NNSA. This single accelerator, however, among other things supports 
Office of Science-funded work at our neutron scattering facility (Lujan 
Center) and our isotope production facility; Weapons Activities work at 
a proton radiography center, as well as at the Weapons Neutron Research 
facility; and work for the Office of Nuclear Energy. A new physicist 
will be hired to do unclassified science at LANSCE on the fundamentals 
of materials, for instance, and then over time they have the 
opportunity to start working on elements of our classified national 
security activities. The people who remain in the program do so because 
they believe in its scientific challenge and importance.
    This same underlying science that supports the weapons program is 
applied to other real national challenges, whether it is analyzing data 
from radiation detectors in Japan to help understand the status of the 
reactors and spent fuel rods or responding to the Gulf of Mexico 
crisis. For example, our staff experienced in radiography were able to 
immediately deploy to the Gulf of Mexico last year and quickly develop 
a new capability to x-ray the Deep Horizon blowout preventer. At more 
than a mile beneath the surface, we provided imagery using a sealed 
source to help national decisionmakers better understand what was 
occurring inside that device.
                  tools, facilities and infrastructure
    The Nation has invested billions of dollars over many decades in 
the scientific tools, facilities and infrastructure at Los Alamos. The 
reality, though, is that much of that infrastructure has aged, and more 
than 50 percent of our facilities are more than 40 years old. Los 
Alamos has been working closely with NNSA to build strategies that 
update the site's aging infrastructure.
    A key element of that infrastructure, in terms of the required 
national capability, is the replacement facility for the Chemistry and 
Metallurgy Research facility that was completed in 1952 and was 
discovered years later to reside on a seismic fault. The CMRR will 
provide the infrastructure required for the Nation's ongoing plutonium 
work, just as the Uranium Production Facility (UPF) at Y-12 will 
provide the Nation's ability to work with uranium. The currently 
operating plutonium and uranium facilities have both served our country 
well over the last 60 years. However, with evolving safety and security 
standards, these aging buildings now need to be replaced with more 
efficient structures designed to meet modern-day requirements.
    It is important to recognize, especially when I look at the overall 
health and vitality of the Laboratory, that the infrastructure needs at 
Los Alamos are much broader than just CMRR. Clearly, CMRR will be one 
of the biggest line-item projects in front of this subcommittee, but 
other smaller investments will be required that will help maintain the 
science at the Laboratory. One example of this is LANSCE. We have been 
working with this subcommittee, as well as with NNSA to ensure a path 
forward for the enhanced maintenance of this machine that supports not 
only NNSA's Defense Programs, but also our efforts with DOE's Offices 
of Science and Nuclear Energy. We have been charting a path with DOE 
and NNSA for the future of LANSCE and a follow-on materials science 
capability called MaRIE. As I discussed earlier, it is the broader set 
of science programs that enable us to attract the next generation of 
scientists. Absent these types of tools, we will be hard pressed to 
accomplish our recruitment goals.
                               challenges
    We at Los Alamos, like most Americans, appreciate the significant 
fiscal constraints we are facing as a nation. However, I am 
increasingly concerned about the final outcome of the fiscal year 2011 
budget process and whether proposed reductions below the 1251 baseline 
will be enacted, and if so, whether that will be a trend into fiscal 
year 2012 and beyond. At Los Alamos alone, the differential in funding 
shifts that may arise from the current debate in Congress amounts to 
the equivalent of 20 percent of our annual budget. Absorbing such a 
contraction beyond fiscal year 2011 would undoubtedly result in 
workforce actions, not to mention the destabilizing effect that would 
take years to correct.
    Pressure from mounting pension requirements and on carryover 
balances have left very little flexibility remaining should our budget 
fall below the 1251 Report guidance. This concern is compounded, if not 
amplified, by the proposed funding reductions to the DOE's Science and 
Energy programs and NNSA's Nuclear Nonproliferation programs which 
would have significant negative impacts on the capabilities supporting 
the weapons program at Los Alamos, and the overall health of the 
Laboratory. As I discussed above, our research base is very broad, and 
we have significant crosscutting activity that provides additional 
support apart from the weapons program. A significant loss of funding 
in these areas will have impacts on our R&D workforce in the areas that 
the weapons program has not been able to fully support. It is the 
aggregate expertise and varied capabilities derived from multiple 
sources that comprise this great institution's technical strength in 
addressing issues of national importance.
    In addition, the re-commitment to the nuclear weapons enterprise 
embodied in the NPR has, I believe, engendered a sense of stability and 
dedication in our workforce over the past year. To reverse course and 
curtail our modest hiring efforts at this point will result in losing 
that momentum and, I predict, will result in a drain of technical 
experts via retirements and the pursuit of careers in institutions that 
can offer that stability. I would offer that the people, infrastructure 
and science that underlie our nuclear defense represent an expertise 
that warrants stability over the long term, independent of short-term 
fiscal constraints.
                               conclusion
    With all the turmoil and uncertainty in the world, now more than 
ever, the Nation needs a strong national defense. Los Alamos is proud 
of the contributions we have made for more than 65 years, providing 
innovative and effective science and engineering to confront a broad 
range of the country's evolving security challenges. For our nuclear 
deterrent, the Nation has a clear policy together with a program of 
work and a funding profile for its execution. Regrettably, at the same 
time, the Federal budget is under tremendous strain. The uncertainty in 
the budget process and its eventual outcome puts that policy and 
program, as well as the health of the Laboratory, at risk. The 
disconnect between the budget, on the one hand, and the policy and 
program on the other, leads to instability and the inability to 
ultimately meet the goals.
    Los Alamos is prepared, as always, to do its very best to deliver 
on our missions with our most creative science and engineering. 
However, aligning the budget with a program balanced across near-term 
goals and the underlying science will be essential for success. If the 
budget cannot support the current program then the policy framework and 
program to carry it out must be revisited.
    Mr. Chairman, I again want to thank you for the opportunity to come 
before the subcommittee and outline my concerns. I would be happy to 
answer any questions you might have.
                                 ______
                                 
              Prepared Statement by Hon. George H. Miller
                            opening remarks
    Mr. Chairman and members of the subcommittee, thank you for your 
continuing support for the Nation's Stockpile Stewardship Program. I am 
George Miller, Director of the Lawrence Livermore National Laboratory 
(LLNL). We are one of the Department of Energy's (DOE) National Nuclear 
Security Administration (NNSA) nuclear design laboratories responsible 
for helping sustain the safety, security, and effectiveness of our 
strategic deterrent.
    The Nation not only depends on the success of our efforts in 
stockpile stewardship but also leverages the capabilities of the NNSA 
Laboratories to develop innovative solutions to major 21st century 
challenges in nuclear security, international and domestic security, 
and energy and environmental security.
                                summary
        <bullet> I believe that the program outlined in the President's 
        budget request for fiscal year 2012 provides a measured 
        approach to meeting the mission needs and sustaining the 
        capabilities and deterrent value of the Nation's nuclear 
        security enterprise through investments in a skilled, 
        knowledgeable, and able workforce; advanced scientific 
        facilities and production facilities; and a safe, secure, and 
        effective stockpile.
        <bullet> The tools of stockpile stewardship are being 
        effectively applied to assess and, where necessary, refurbish 
        and sustain our Nation's nuclear deterrent. Your investment in 
        ``flagship'' capabilities in high-performance computing and the 
        National Ignition Facility at LLNL are producing excellent 
        results.
        <bullet> It is important that we continue to move forward with 
        refurbishing the aging stockpile. The inevitable changes that 
        we detect through our surveillance and assessment programs 
        increase risk with every year and must be mitigated. In 
        particular, it is imperative that we begin the study of options 
        for refurbishing the W78 warhead to address evolving issues 
        identified in the annual assessment of this weapon system.
        <bullet> High-performance simulations accomplished using the 
        tools available today have demonstrated that still unresolved 
        issues will require exascale-level computing to continue to 
        stay on top of the stockpile concerns and challenges ahead. 
        Achieving exascale computing is a technically challenging 
        endeavor, similar to the effort in the 1990s to develop 
        terascale computing. This new capability will have other 
        positive impacts on our country's national security and 
        competitiveness. I am pleased that a program to initiate this 
        effort is included in the President's budget request and 
        strongly urge support for an aggressive research and 
        development effort to create the technologies necessary to 
        achieve and apply exascale computing.
        <bullet> The science, technology, and engineering capabilities 
        that are the foundation of the Stockpile Stewardship Program 
        and the core capabilities of the NNSA Laboratories have been 
        successfully leveraged to help solve some of the country's most 
        important and urgent issues in defense, energy, and 
        environment.
        <bullet> The national investment in the Stockpile Stewardship 
        Program has produced impressive science, technology, and 
        engineering capabilities at the NNSA Laboratories that should 
        be carefully nurtured and preserved. However, like all 
        treasures, if these assets are neglected, they and the key 
        personnel that we rely on will disappear very quickly. I 
        believe that they deserve your careful consideration as the 
        country faces both very difficult budget decisions and a 
        challenging future in a dangerous world.
                              introduction
    I am here to provide my technical assessment of the NNSA weapons 
program activities as outlined in the President's fiscal year 2012 
budget request and of the ability of our Laboratory to sustain 
capabilities and fulfill mission requirements. The request reflects the 
need to deal with an aging stockpile and ensure the long-term health of 
the Nation's nuclear security enterprise by making substantial 
investments in a skilled workforce, facilities, and life-extension 
program activities. My testimony will focus on activities at Livermore 
and the importance of the budgeted investments to allow our Laboratory 
to accomplish the missions assigned to us. Without a healthy nuclear 
security enterprise, the Nation puts in jeopardy the safety, security, 
and effectiveness of the nuclear deterrent over the long run as well as 
the ability of the NNSA Laboratories to apply outstanding science, 
technology, and engineering to a wide range of important national 
security challenges.
    The Nation's nuclear security strategy requires a stable and 
measured Stockpile Stewardship Program that is supported by the long-
term commitment of successive administrations and Congress with 
sufficient funding to meet mission requirements. The President's 
proposed budget increase reverses the declining trend of the last 
several years and restores funding to a level sufficient to 
reinvigorate and sustain the Nation's program. These investments are 
urgently needed--in the face of enormous overall budget pressures--in 
all three major areas of stockpile stewardship: (1) life extension 
programs; (2) modernization of facilities and infrastructure; and (3) 
the science, technology, and engineering base. In my view, delays in 
providing adequate funding has both immediate, short-term consequences 
and raise longer-term sustainment issues.
                        life extension programs
    It is very important that we address the specific issues discovered 
in our aging stockpile through the surveillance program and the review 
processes supporting our annual assessments before these concerns 
worsen. The role of any Life Extension Program (LEP) is to fix issues 
that impact--or will soon impact--overall system effectiveness and take 
actions that will extend the stockpile life. Failure to address these 
issues can have immediate and drastic consequences for the viability of 
the deterrent our national security strategy relies on.
    Included in the request is funding for the Life Extension Study of 
the W78 Air Force Minuteman III ICBM warhead. This effort is vitally 
needed. $26 million was requested in fiscal year 2011 to begin a 6.1 
Phase study to identify and evaluate the LEP. I am concerned because 
the start of the 6.1 Phase study has been delayed. In fiscal year 2012, 
the administration requested $51 million to continue W78 LEP 
development in the 6.2/6.2A Phase (feasibility, planning, and costing 
studies). The official NNSA guidance designates LLNL as the lead 
nuclear design laboratory for the W78 LEP.
    It is important to begin the study activities on the W78 warhead 
because today it constitutes the majority of the ICBM leg of the triad 
and it has been deployed on the Minuteman III for more than 31 years. 
The warhead is currently beyond its planned service life and it will 
take a 10-year effort to study and then refurbish the necessary 
systems. We need to address concerns identified in surveillance of W78 
units and reported in annual assessments. There are issues with 
material aging and compatibility, which can impact components within 
the nuclear explosive package. Los Alamos National Laboratory (LANL) 
has been monitoring W78 aging characteristics and has assessed that 
aging ``has not affected the safety, reliability, or performance of the 
W78 to date;'' however, ``the condition is progressive and beyond 
current predictive capabilities.'' LLNL has concurred with these 
concerns in our peer review role as part of the annual assessment 
process. An important function of the study is to evaluate the 
different approaches available to refurbish the warhead--as were 
outlined in the Nuclear Posture Review--and assess the impacts of 
including additional safety and security features.
             modernization of facilities and infrastructure
    Infrastructure modernization projects account for the largest 
portion of the proposed budget increase, and two of the projects are 
particularly high in cost and high in priority: the Chemistry and 
Metallurgy Research Replacement Nuclear Facility at LANL and a new 
Uranium Processing Facility at the Y-12 Plant in Oak Ridge, TN. I fully 
support these modernization projects and urge that as the cost 
baselines are further defined, any cost changes that occur be 
accommodated without upsetting the overall delicate balance of the 
Stockpile Stewardship Program.
               science, technology, and engineering base
    The fiscal year 2012 President's budget request for science, 
technology, and engineering capabilities is, in my view, prudent but 
constrained and austere: the level of activity will be less than that 
in fiscal year 2007. This level of capability provides the fundamental 
stockpile stewardship activities that permit surveillance, assessments, 
experiments, and computer simulations to ensure the aging stockpile and 
the refurbished weapons are safe, secure, and effective.
Weapons Surveillance
    Weapons surveillance activities aim to predict and detect the 
effects of aging and other stockpile issues. The programmed increase in 
funding is vitally needed to step up the rate of stockpile surveillance 
and become more proficient at detecting and predicting potential 
problems early enough for our smaller complex to take measured action 
within limited resources. This area has suffered over the last few 
years and more sophisticated tools are needed to study how aging alters 
the physical characteristics of weapon materials and how these changes 
affect weapon effectiveness and safety.
Assessments
    The Stockpile Stewardship Program includes a comprehensive set of 
activities to annually assess each weapon system and to address issues 
that arise. It is particularly important for processes to actively 
engage both centers of nuclear design expertise--LLNL and LANL--to 
provide independent assessments. In all areas of importance, advice 
from more than one independent source is crucial to the decisionmaking 
process. Our assessments require rigorous scientific and engineering 
demonstration and evaluation and are benefiting from the development of 
Uncertainty Quantification, a methodology that is increasing the rigor 
of weapon certification and the quality of annual assessments.
Experiments and Simulations
    Because we do not perform nuclear tests, simulations are a major 
tool for providing assessment of the stockpile. These simulations 
require experimental validation, which in the absence of nuclear 
testing, is provided by very sophisticated non-nuclear experiments. 
Through these experiments and simulations, Laboratory scientists and 
engineers improve their understanding of nuclear weapon performance and 
exercise the necessary base of specialized skills in support of 
stockpile stewardship.
    There remain several key areas, such as energy balance and boost 
physics, where we still lack adequate knowledge. Predictive Capability 
Framework campaigns utilize our advanced stockpile stewardship tools to 
fill gaps in knowledge about nuclear weapon performance relevant to 
existing or expected issues about stockpiled weapons. These activities 
integrate the use of state-of-the-art high-performance computers, high-
fidelity simulation models, and data gathered from state-of-the-art 
experimental facilities. This cutting-edge research provides both the 
basis for stockpile stewardship and the tools by which the Laboratory 
experts make judgments about the health, safety, security, and 
effectiveness of the stockpile.
    Overall, LLNL conducts a wide range of experiments in support of 
the Stockpile Stewardship Program. For example, to enhance weapons 
surveillance, we developed and applied state-of-the-art radiographic 
methods to evaluate the health of the high-explosive system used to 
initiate weapon detonation. In fiscal year 2010 we also conducted 
important hydrodynamics experiments at the Contained Firing Facility at 
LLNL and at the Dual-Axis Radiographic Hydrodynamics Test Facility at 
LANL and many types of experiments to better understand material 
properties at extreme conditions. These include experiments at the 
National Ignition Facility.
    I will focus on high-performance computing and activities at the 
National Ignition Facility, which illustrate the outstanding work at 
our Laboratory in support of stockpile stewardship and the challenging 
science and technology efforts required for the Stockpile Stewardship 
Program.
               high-performance computing and simulations
    Since the Stockpile Stewardship Program began in 1985, the NNSA 
weapons laboratories--working closely with industry--have made 
remarkable strides in high-performance computing. Our initial goal was 
to have a machine that could perform 100 trillion floating point 
operations per second (teraflops) available within a decade. Through a 
very concerted effort, the community achieved that goal, which provides 
the capability projected to be the minimum threshold for initial 3D 
simulations of weapons performance. With simulations on the 100-
teraflops IBM Purple, we observed important phenomena that had never 
been seen before. We also learned that to accurately simulate these 
phenomena we needed supercomputers that perform much better and 
modeling techniques that are significantly more powerful and capable.
    Computer technology has since advanced by about a factor of 10 
(1,000 teraflops or 1 petaflops). Currently China leads the world with 
a 2.5-petaflops machine. The expanding international interest in 
supercomputing superiority is indicative of the technology's great 
value in advancing science and technology on many fronts and 
accelerating product development in industry.
    Improved high-performance computing capabilities are to better meet 
stockpile stewardship challenges. To better understand phenomena in 
areas such as boost, improvements in both the physics models and 
resolution are required. Model improvements, in turn, necessitate 
further advances in computing: 1,000-petaflops technology (1 exaflops) 
is required. Exascale computing is also needed to fully implement 
Uncertainty Quantification, the formal methodology to increase the 
rigor of LEP weapon certification and the quality of annual 
assessments. The methodology requires thousands of three-dimensional 
weapon simulations to be run to estimate uncertainties. Simulations 
with today's capability tell us that we need better resolution, better 
physics models, and the running of many more simulations than possible 
with today's machines to reach the level of understanding and analysis 
required to fulfill mission needs.
Sequoia
    Through the NNSA ASC program, Livermore and IBM are poised to make 
the next major advance in supercomputing. Delivery of the 20-petaflops 
IBM Sequoia is to begin in December 2011. Sequoia's processing speed is 
equivalent to every person on Earth completing 3 million calculations 
per second. This nearly-factor-of-10 leapfrog advance over current 
capabilities is based on third-generation IBM BlueGene technology. 
Unclassified science calculations will be performed on Sequoia in 2012, 
transitioning after these tests to classified use in 2013.
    Since 2009, researchers have been using Dawn, a 500-teraflops 
initial delivery system for Sequoia. All three NNSA Laboratories run 
cutting-edge weapons science problems on Dawn and use the machine to 
prepare codes for use on Sequoia. For example, LANL performed the 
largest ever high-resolution turbulence simulations and uncovered new 
phenomena related to important open questions. The results are being 
used to improve physics models under development within Advanced 
Simulation and Computing. Sandia has been testing and improving the 
speed at which some of the key algorithms in their large simulation 
codes will run on Sequoia's 1.6 million processors.
    Among other applications, LLNL scientists are developing new tools 
on Dawn to study complex laser-plasma interactions and to predict and 
interpret the results of experiments at the National Ignition Facility. 
More generally, in preparation for Sequoia's arrival, we are making 
significant progress in the development of algorithms that will run 
efficiently on the machine's architecture, applications that are 
tolerant to the many ``faults'' that can be expected in long runs using 
over a million processors, tools to analyze and help balance the 
workload among processors, debugging methodology, and a variety of data 
visualization and interpretation tools.
Exascale Initiative
    I am very pleased to note that the fiscal year 2012 President's 
budget request includes $126 million to support start of an exascale 
initiative in an effort to sustain U.S. leadership in supercomputing to 
support DOE/NNSA missions. This is a joint effort between NNSA and 
DOE's Office of Science. The path forward beyond the 20-petaflops IBM 
Sequoia toward exascale computing offers exciting opportunities to 
address a wide range of vital national needs, but it presents 
tremendously difficult technical challenges. We are working with DOE 
and NNSA leadership, other laboratories, and industry to size and scope 
the technical work program.
                     the national ignition facility
    The National Ignition Facility (NIF) is the world's premier laser 
facility. Since the facility's dedication in May 2009, NIF with its 192 
laser beams has performed exceptionally well. It is proving to be a 
remarkably reliable and precise system. Citing groundbreaking technical 
achievement and exemplary project management, the Project Management 
Institute (PMI) named NIF as the 2010 Project of the Year. PMI honored 
NIF for ``pushing beyond the state-of-the-art'' and lauded the effort 
as ``a stellar example of how properly applied project management 
excellence can bring together global teams to deliver a project of this 
scale and importance efficiently.''
    NIF is the focal point for the National Ignition Campaign (NIC). 
The purpose of NIC is to determine the feasibility of fusion ignition 
and transition NIF from a construction project to routine experimental 
operations for weapons and basic science by the end of fiscal year 
2012. With respect to fusion, NIC has two major goals: execution of DT 
ignition experiments starting in fiscal year 2010 for the purpose of 
demonstrating ignition and development of a reliable, repeatable 
ignition platform for weapons physics, basic science, and energy 
research by the conclusion of NIC at the end of fiscal year 2012. A 
national program, NIC includes as partnering institutions the three 
NNSA Laboratories, the University of Rochester Laboratory for Laser 
Energetics, and General Atomics. The NIC team has established 
collaborations with the Atomic Weapons Establishment in United Kingdom, 
Commissariat ` l'Energie Atomique in France, Massachusetts Institute of 
Technology, Lawrence Berkeley National Laboratory, and many others.
    The campaign is guided by the NIC Execution Plan (currently, NIC EP 
Revision 4), which describes the scope, schedule, and budget for the 
campaign. NIC is an exceedingly complex, frontier science and 
engineering project. Adjustments to the optimal path forward are made 
based on information learned from experiments. Accordingly, NIC 
accomplishments and plans are scrutinized by several external high-
level committees: the NNSA Ignition Review Panel chaired by DOE 
Undersecretary for Science Steve Koonin, the NIC Technical Review 
Committee chaired by former Oak Ridge National Laboratory Director Al 
Trivelpiece, and the LLNL Directorate Review Committee chaired by 
former NNSA Administrator General John Gordon, USAF, Ret. The NIC 
reviews have been very positive and encouraging.
The Ignition Campaign
    There have been a number of important successes at NIF. In the 
hohlraum energetics campaign, the NIC team demonstrated that the 
interaction between the laser beams and the target could be 
satisfactorily controlled and that the conditions necessary to implode 
the hydrogen fuel could be achieved. Creation of the proper implosion 
conditions was a major concern of the original National Academies of 
Science Study that led to the construction of NIF.
    We have also demonstrated the integration of all of the subsystems 
needed for ignition. Cryogenically cooled ignition targets with a layer 
of solid tritium, hydrogen, and deuterium have been successfully 
created and imploded. One shot in particular achieved a record-setting 
1.3 x 1014 neutrons in a purposely low-yield configuration.
    NIC continues to make excellent progress and the results of 
implosion experiments are very encouraging. We continue to learn much 
from the experiments and see no ``show stoppers.'' We are optimistic 
about success in achieving fusion ignition but mindful that NIC is an 
extremely challenging undertaking that is at the frontiers of science 
and technology. Current plans are to complete the current fusion 
ignition and burn campaign in spring or summer of 2012.
Stockpile Stewardship and Science Experiments
    In late February-March 2011, we conducted the most recent series of 
highly successful campaigns of high-energy-density physics experiments 
in support of stockpile stewardship on NIF. One campaign focused on 
radiation transport to gather data to validate the capability of our 
physics simulation codes to model phenomena very important to weapon 
performance. Altogether, 16 experiments were performed in 11 shot days. 
These included the first experiments performed that included 
diagnostics to provide time-resolved radiographic data. Preliminary 
comparisons of data taken are in reasonable agreement with pre-shot 
predictions. A second campaign focused on developing and using a 
technique for gathering equation-of-state data to characterize the 
properties of highly compressed (but unheated) materials--in this case, 
tantalum and carbon. Gathered data from such experiments are needed for 
scientific advances that underpin both stockpile stewardship and 
planetary science. These experiments are important steps on the path 
toward transforming NIF to a national and international user facility 
in fiscal year 2013.
             nuclear nonproliferation and counterterrorism
    A key aspect of our nuclear security efforts is applying our 
expertise in nuclear weapons science and technology, nuclear sensors 
and detection, and arms control verification technologies to programs 
in the NNSA Office of Defense Nuclear Nonproliferation. For example, to 
help secure vulnerable weapons-useable and radiological materials, 
Livermore-led teams have been recovering radioisotopic thermonuclear 
generators, which contain highly radioactive heat sources, from remote 
areas of Russia. Additionally, we are developing advanced technologies 
to detect nuclear and radiological materials. Two of the technologies 
received R&D100 Awards, the Oscars of invention, in 2010. Complementing 
these efforts is a program focused on nuclear counterterrorism.
    The Laboratory provides both technical support to ongoing arms 
control negotiations and technology development. Livermore's 
underground nuclear explosion monitoring program is a longstanding 
nonproliferation program that provides the technical underpinning for 
both the domestic and international monitoring needed to uncover 
clandestine underground nuclear tests. We couple data from global 
seismic networks with LLNL's supercomputing capability to interpret the 
seismic data and model the earth, thereby improving U.S. capability to 
detect possible proliferation. This program also has strong links to 
international seismic safety and science engagement activities.
  importance of people and program growth to the health of stockpile 
                              stewardship
    Long-term success in stockpile stewardship fundamentally depends on 
the quality of people in the program. If the Nation is not confident in 
the expertise and technical judgments of the stewards, the Nation will 
not have confidence in the safety, security, and effectiveness of our 
nuclear deterrent. The specialized technical skills and expertise 
required for nuclear weapons work take a long time to develop through 
hands-on experience and mentoring by our very best. Program stability--
based on sustained bi-partisan support and sufficient funding over the 
long term--is critically important to executing a balanced, integrated 
Stockpile Stewardship Program. We welcome the support provided by the 
administration and Congress on the importance of the NNSA Laboratories' 
work in maintaining the U.S. nuclear deterrent.
Program Leverage
    An important benefit of a strong Stockpile Stewardship Program is 
that this foundational program enables the NNSA Laboratories to meet 
broader national security objectives by applying their unique 
capabilities and multidisciplinary approach to problem solving. With a 
focus on national security, the NNSA Laboratories are a vital part of 
the Nation's science and technology infrastructure. We partner with 
non-NNSA components of DOE, the Department of Defense, the Intelligence 
Community, the Department of Homeland Security, and many other agencies 
such as the National Aeronautics and Space Administration and the 
National Institutes of Health. In particular, nuclear weapons expertise 
at LLNL is directly applicable to the nuclear security challenges of 
proliferation and terrorism. Other areas of national defense, domestic 
and international security, and energy and environment security also 
benefit from the Laboratory's broad scientific and technical base and 
international leadership in areas such as high-performance computing.
    These activities also further strengthen our science and technology 
workforce, add vitality to the Laboratory, and spin new ideas and 
additional capabilities into and out of the weapons program and other 
national security programs. Very importantly, they serve as a pipeline 
to bring top talent to LLNL so that we continue to provide the Nation 
with outstanding stockpile stewards. A broader base of national 
security programs at the NNSA Laboratories can never be a substitute 
for a strong Stockpile Stewardship Program. Likewise, these programs 
are not a distraction from our defining mission and responsibilities to 
sustain the Nation's nuclear deterrent.
    Continuing to foster partnerships between Livermore and the broader 
national security community is a key component of our strategy for 
helping solve the country's most important problems and sustaining 
science and technology excellence and intellectual vitality at the 
Laboratory. I am very concerned about the possibility of drastic 
reductions in the investments in science and technology broadly across 
Federal departments and agencies in these times of very constrained 
budgets. Investments in science, technology, and engineering provide an 
important spark of innovation that is a basis for our country's 
national security, energy and environmental security, and continuing 
economic competitiveness.
Leveraging High-Performance Computing
    I emphasize the importance of high-performance computing in my 
testimony because it is a cornerstone of the Stockpile Stewardship 
Program, a core strength of our laboratory, and critical to many of our 
programs for non-weapons-program sponsors. Some of our recent 
accomplishments provide a sense of the breadth of our high-performance 
computing activities and the many program areas they support:

        <bullet> Support in response to environmental emergencies. The 
        DOE's National Atmospheric Release Advisory Center (NARAC) at 
        LLNL is providing timely, state-of-the-art, predictions of 
        fallout from the damaged nuclear reactors after the recent 
        earthquake/tsunami in Japan. As the hub of the Department of 
        Homeland Security's Interagency Modeling and Atmospheric 
        Assessment Center (IMAAC), NARAC also provided plume 
        predictions of the fire on the Deepwater Horizon oil platform 
        and forecast the particulates that might be released from 
        surface-oil burns.
        <bullet> Persistent surveillance. Laboratory scientists 
        developed an innovative data-processing ``pipeline'' designed 
        to help the Department of Defense monitor tens of square 
        kilometers of terrain from the skies and provide combat support 
        by detecting in real time potentially important events in 
        streaming video data.
        <bullet> Third-generation conventional munitions. LLNL is using 
        state-of-the-art engineering codes, advanced design 
        capabilities, and expertise in materials to pursue, with the 
        Department of Defense, development of third-generation 
        munitions that are more effective against precision targets 
        while, at the same time, limiting collateral damage. This 
        effort represents a superb example of the power of high-
        performance simulation: a munitions program went from concept 
        to completion of qualification testing in 10 months, providing 
        significant advantages to the warfighter.
        <bullet> Nuclear test monitoring. Laboratory seismologists 
        developed improved 3D models of seismic wave travel time, 
        greatly increasing the accuracy with which seismic events can 
        be located and the ability to differentiate earthquakes and 
        nuclear explosions.
        <bullet> Cyber security and intelligence support. Livermore has 
        developed advanced methods for gleaning information from 
        extremely large-scale relational databases (graphs) and 
        analyzing networks together with fast, accurate tools for 
        large-scale text analysis.
        <bullet> Microbial detection. Expertise in bioinformatics 
        enabled Laboratory researchers to develop microbial detection 
        array with 388,000 probes that fit on a glass slide, able to 
        detect or identify more than 2,000 viruses and 900 bacteria 
        within 24 hours.
        <bullet> Aerodynamic drag reduction for semi-trailer trucks. 
        Simulations with LLNL's fluid dynamics codes identified 
        critical drag-reduction regions around semi-trailer trucks, 
        with results verified by full-scale wind tunnel tests. Properly 
        placed drag reduction devices could increase semi-trailer truck 
        fuel efficiency by as much as 12 percent.
        <bullet> Award-winning software tools. Livermore researchers 
        have developed advanced tools--including several R&D100 Award 
        winners--for solving linear equations, debugging and compiling 
        programs, and visualizing extremely large data sets that are 
        made available to and downloaded thousands of times per year by 
        the user community.
        <bullet> Fusion energy. New developments at LLNL in lasers and 
        materials technologies could provide a much shorter path to 
        carbon-free energy.
        <bullet> Directed energy. Laboratory researchers are developing 
        exciting new capabilities in lasers that could have important 
        impacts on national security.
        <bullet> Carbon capture. Laboratory scientists are using 
        supercomputers to design small-molecule catalysts that can be 
        adapted to capture CO2 from power-plant emissions.
                            closing remarks
    Again, I thank the subcommittee for its continuing support for the 
Nation's Stockpile Stewardship Program and the terrific people at the 
LLNL. As I have stated, I believe that the program outlined in the 
President's budget request for fiscal year 2012 provides a measured 
approach to meeting the mission needs and sustaining the long-term 
health of the Nation's nuclear security enterprise through investment 
in a skilled workforce, facilities, and the stockpile.
    The investments will help us move forward refurbishment programs in 
response to inevitable changes in aging weapons that require our 
attention. In particular, initiating the study of the options for 
refurbishing the W78 warhead is urgently needed.
    The heart of our successful Stockpile Stewardship Program is our 
skilled workforce, who are the current generation of a worthy line of 
stewards in the service of our Nation. I have emphasized the importance 
of investing in the workforce and the tools that Laboratory scientists 
and engineers are effectively applying to assess and refurbish the 
nuclear deterrent. Our accomplishments in the areas of NIF experiments 
and high-performance computing are particularly noteworthy. In both 
areas, future opportunities are very exciting, and in particular, I 
urge that the Nation undertake a forceful effort in exascale computing 
because of its importance to stockpile stewardship and, more broadly, 
the Nation's security and economic future.
    With sustained support for the Stockpile Stewardship Program, our 
Laboratory can best serve the country as a broad-based national 
security laboratory, developing innovative solutions to major 21st 
century challenges in nuclear security, international and domestic 
security, and energy and environmental security.
                                 ______
                                 
               Prepared Statement by Dr. Paul J. Hommert
                              introduction
    Chairman Nelson, Ranking Member Sessions, and distinguished members 
of the Senate Armed Services Subcommittee on Strategic Forces, thank 
you for the opportunity to testify. I am Paul Hommert, President and 
Director of Sandia National Laboratories. Sandia is a multiprogram 
national security laboratory owned by the U.S. Government and operated 
by Sandia Corporation \1\ for the National Nuclear Security 
Administration (NNSA).
---------------------------------------------------------------------------
    \1\ Sandia Corporation is a subsidiary of the Lockheed Martin 
Corporation under Department of Energy prime contract no. DE-AC04-
94AL85000.
---------------------------------------------------------------------------
    Sandia is one of the three NNSA laboratories with responsibility 
for stockpile stewardship and annual assessment of the Nation's nuclear 
weapons. Within the U.S. nuclear weapons complex, Sandia is uniquely 
responsible for the systems engineering and integration of the nuclear 
weapons in the stockpile and for the design, development, and 
qualification of nonnuclear components of nuclear weapons. While 
nuclear weapons remain Sandia's core mission, the science, technology, 
and engineering capabilities required to support this mission position 
us to support other aspects of national security as well. Indeed, there 
is natural, increasingly significant synergy between our core mission 
and our broader national security work. This broader role involves 
research and development in nonproliferation, counterterrorism, energy 
security, defense, and homeland security.
    My statement today will provide an update since my testimony of 
July 15, 2010, before the Senate Armed Services Committee. Starting 
from an overall perspective of the nuclear weapons program and the 
challenges facing us since the beginning of the Cold War, I will refer 
to the following major issues: (1) the U.S. nuclear stockpile 
assessment, (2) the life extension programs (LEPs) with emphasis on the 
B61 LEP, and (3) the status of the capability base needed to support 
our mission. All these issues will be viewed within the context of the 
administration's request to Congress for the fiscal year 2012 budget.
                     major points of this testimony
    1. It is my view that we are now entering a new era for the U.S. 
nuclear deterrent. The nuclear weapons enterprise must address for the 
first time the following three imperatives: continuing to further the 
tools of stewardship, upgrading production infrastructure, and 
importantly, modernizing the nuclear stockpile. Such an environment 
creates funding demands not seen in recent decades, and it will require 
rebalancing the program, along with continued emphasis on strong 
program management.
    2. The most immediate stockpile challenge is the B61 life 
extension. In the context of my responsibilities, it is my judgment 
that the full nonnuclear scope of the B61 must be executed on the 
proposed schedule. Both the current scope and the schedule are 
demanding and can be achieved only by continuing the accelerating 
effort called for by the current program.
    3. Our nuclear weapons competencies impact our broader national 
security work. In turn, to sustain and sharpen those competencies, 
Sandia relies on this broader work. The symbiotic relationship between 
the nuclear weapons and broader national security missions prevents 
insularity and creates a challenging, vigorous scientific and 
engineering environment that attracts and retains the new talent that 
we need. Such an environment is essential to succeed against the 
challenges we now face.
               perspective of the nuclear weapons program
    It is my view that we are now entering a new era for the U.S. 
nuclear deterrent. The nuclear weapons enterprise must address for the 
first time the following three imperatives: continuing to further the 
tools of stewardship, upgrading production infrastructure, and 
importantly, modernizing the nuclear stockpile. Such an environment 
creates funding demands not seen in recent decades, and it will require 
rebalancing the program, along with continued emphasis on strong 
program management. Our nation has been and continues to be fully 
committed to the U.S. nuclear deterrent as reflected by the near- and 
long-term nuclear weapons policy outlined in the National Posture 
Review (April 2010). The contribution of Sandia National Laboratories 
is crucial to the success of the next era of the U.S. nuclear 
deterrent.
    The current nuclear stockpile was largely developed, produced, and 
tested in the 1970s and 1980s, during the Cold War. It was the time of 
the arms race, as new nuclear systems were frequently being developed 
and fielded.
    After the 1992 moratorium on underground testing, the nuclear 
weapons program went into its next phase, science-based stockpile 
stewardship. For the first 15 years of this program, creating the 
scientific tools and knowledge required in the absence of underground 
nuclear testing was a compelling grand challenge for the U.S. nuclear 
weapons program. At Sandia, the primary challenge following the 
moratorium was to find best solutions for sustaining, assessing, and 
certifying the stockpile against a full range of environments--most 
notably, the numerous radiation environments our products must survive. 
The advanced tools and deeper scientific understanding we developed 
have been applied to our annual assessment of the stockpile, to 
stockpile maintenance activities such as replacement of limited-life 
components, and to the qualification of the W76-1 life extension 
program. Science-based stockpile stewardship has been immensely 
successful in generating the required scientific competencies and 
resources, but it was not accompanied by a broad-based effort to extend 
the lifetime of the nuclear arsenal.
    Now, some 20 years since the end of the Cold War, we have a 
stockpile that has become significantly smaller and older. Considering 
our insights into and the average age of the stockpile, we have clearly 
reached a point at which we must conduct full-scale engineering 
development and related production activities to extend the service 
life of the nuclear arsenal. This work can be accomplished only by 
relying on the tools of stewardship and a revitalized, appropriately 
sized production capability. Let me restate that, in my view, the 
nuclear weapons enterprise has never before faced the combined need to 
further stewardship, address production infrastructure, and 
importantly, modernize the stockpile.
    As we enter the new era of the nuclear deterrent, I am pleased to 
see that a clear strategic direction has been outlined for U.S. nuclear 
weapons policy in the Nuclear Posture Review and that a collective 
guidance for implementation has been provided through the Stockpile 
Stewardship and Management Plan, the updated section 1251 report, and 
the administration's fiscal year 2012 budget request to Congress. The 
strategic direction for the nuclear weapons policy is also consistent 
with the New START, which was ratified by the U.S. Senate in December 
2010 and the Russian Federation Duma in January 2011. In this context, 
we are actively positioning Sandia to fulfill its responsibilities in 
support of the Nation's nuclear deterrent. We are confident in our 
ability to do so.
    In their totality, the documents describing the future of the U.S. 
nuclear deterrent represent a well-founded, achievable path forward, 
which I understand and support. However, we must recognize that a 
significant body of work is required to sustain a strong nuclear 
deterrent into the next two decades, and we must ensure that the 
resources are commensurate with the requirements and expectations. 
Specifically, I can be confident that, as an institution, we are 
positioned to execute stockpile management and deterrence policy to the 
priorities delineated in the policy documents referred above if the 
fiscal year 2011 budget is appropriated at the level of the 
administration's request. Furthermore, the overall fiscal year 2012 
weapons activities budget, if authorized and fully appropriated as 
requested by the President, will provide the basis for continuing the 
program consistent with national policy. This level of funding reflects 
a national commitment to strengthening the security of our country and 
allies by sustaining a smaller nuclear stockpile that is safe, secure, 
effective, and reliable. Deviation from this funding, however, will 
impact the scope and/or schedule of the life extension programs.
                 the u.s. nuclear stockpile assessment
Mission and Product Space
    Sandia is responsible for the systems engineering and integration 
of the nuclear weapons in the U.S. stockpile, and it is the nonnuclear 
component design agency for NNSA. The components that we design ensure 
that the weapons will perform as intended when authorized through the 
U.S. command and control structure, and that they remain safe and 
secure otherwise. These critical functions are provided through our 
core products of arming, fuzing, and firing systems (AF&Fs), neutron 
generators, gas transfer systems, and surety systems. As we prepare to 
execute these responsibilities for 21st century strategic deterrence, 
we are facing new challenges.
    While many critical tools were developed in the stewardship era, 
full-scale engineering development was almost entirely absent during 
this period. In addition, since we last put a system such as the B61 
into the stockpile, the technologies on which nonnuclear components 
rely have changed dramatically. Thus we must ensure that a new 
generation of component and system engineers is prepared to work to the 
exacting standards of nuclear weapons and that we can fully adapt to 
and take advantage of new technologies. I am confident that Sandia is 
prepared to meet these challenges due in no small measure to the fact 
that, over the past 20 years, work we have done in other national 
security arenas has allowed us to attract and train the talent that 
will bring new technology to high-consequence high-reliability 
engineering applications. In the decade since we began design on the 
W76-1 LEP, one additional challenge has grown in complexity. Sandia's 
products must also be robust against cyber risk. We believe it is vital 
to assess cyber risk and develop technologies to manage this risk for 
the next generation of life extension programs. All these realities 
bear directly and significantly on Sandia's responsibilities as we 
embark on the next era of the nuclear deterrent.
Stockpile Surveillance and Assessment
    Stockpile surveillance and assessment play a crucial role in 
assuring the nuclear deterrent. Through these activities, we develop 
knowledge about the safety, security, and reliability of the stockpile. 
This knowledge provides the technical basis for our annual assessment 
findings and is reported to the President through the annual assessment 
process. Through this process, we have been, and remain, able to assess 
the Nation's stockpile as safe, secure, and reliable. The Department of 
Energy fiscal year 2011 Congressional Budget Request places high 
priority on stockpile surveillance. I strongly agree with this 
emphasis, but there is important further work to be done. Specifically, 
the surveillance transformation plan was established to better align 
our surveillance program with the challenges of an aging and smaller 
stockpile. My fiscal year 2010 stockpile assessment letter to the 
secretaries of energy and defense and to the chairman of the Nuclear 
Weapons Council noted the need for a strong focus to complete 
surveillance transformation, which aims to shift the program from being 
reactive to becoming predictive and thus allowing us to better 
anticipate stockpile performance degradation and to schedule required 
actions.
    Today we are surveilling a stockpile for which most of the weapons 
were designed at a time when long design life was not typically a high-
priority design requirement. The radar for the first B61 bomb, for 
example, was originally designed for a 5-year lifetime; today there are 
B61s in the stockpile with components manufactured in the late 1960s. 
It is a credit to our stockpile stewardship program that we have the 
technical knowledge base to support continued confidence in these 
weapon systems as they age. However, our surveillance efforts, coupled 
with the fact of the age of the stockpile, indicate that it is 
imperative that we begin to execute on replacing the aging components 
as the lead time for these activities will be 5 to 10 years on a 
system-by-system basis.
                      the life extension programs
The B61 Life Extension Program
    The most immediate stockpile challenge for sustaining the deterrent 
is to extend the service life of the B61 bomb under expansive product 
requirements and a demanding schedule. The primary driver for the 
schedule of the B61 LEP is the fact that critical nonnuclear components 
are exhibiting age-related performance degradation. Another driver for 
the schedule is the deployment of the F35 Joint Strike Fighter, which 
requires a new digital interface for the B61. Specific component 
issues, as well as the overall age of the system, lead me to conclude 
that we need to approach this LEP with a resolute commitment to address 
end of life, degradation, and technology obsolescence to ensure long-
term safety, security, and effectiveness.
    Notably, the scale and complexity of this LEP will be much larger 
than that of the W76 Trident II SLBM warhead LEP, which is now in 
production. To extend the lifetime of the B61 with a first production 
unit in 2017, full appropriation of the fiscal year 2011 funding 
requested by the administration is critical. We must complete the 
design definition in fiscal year 2011 to create a firm understanding of 
system requirements and thus fully establish future-year funding needs. 
Total cost estimates for the B61 LEP are subject to change until the 
design definition and requirements are finalized at the end of fiscal 
year 2011.
    To overcome technology obsolescence, it is important that we 
develop new technologies to insert into the B61. That is why we are 
conducting considerable technology maturation work in fiscal year 2011. 
Technology maturation is a rigorous approach Sandia applies to 
developing new technologies, from the earliest conceptual designs 
through full-scale product realization and ultimately to insertion into 
the stockpile. We use a construct of technology readiness levels, first 
implemented at the Department of Defense and then NASA, and we 
implement a series of technical and programmatic reviews to ensure that 
the maturity level of new technologies is understood and associated 
risks are effectively managed before the new technologies are used in a 
life extension baseline design. For the B61 LEP, we have more than 40 
product realization teams designing components and subsystems and 
maturing technologies. We are aggressively staffing this program to 
accomplish our objectives on the current schedule. In July 2010, we had 
a core of approximately 80 staff on the B61 project. Staffing levels 
are now more than 3 times that number and will continue to increase. We 
are planning to have a core of 400 staff on the project by the end of 
fiscal year 2011. These staffing levels are enabled by fiscal year 2011 
funding provided through the continuing resolutions. However, should 
fiscal year 2011 funding deviate significantly from the current levels, 
we will not be able to sustain staffing levels, and the scope and/or 
schedule of the project will have to be adjusted.
    The B61 LEP schedule and scope are also, of course, heavily 
dependent on the appropriated funding in fiscal year 2012 and beyond; 
multiyear sustained funding is required to bring this program to 
successful completion. The success of the B61 LEP also requires the 
necessary support for the nuclear explosive package agency (Los Alamos 
National Laboratory) and the production complex.
Other Life Extension Programs
    The B61 LEP is one in a series of programs with timelines extending 
to 2035 that have been documented in the Stockpile Stewardship and 
Management Plan. Among them are the W88 ALT, the W78 LEP, and likely a 
weapon system associated with long-range stand-off delivery vehicles.
    Funding for the W88 ALT has been identified in the updated Section 
1251 Report. Sandia is pursuing work on the W88 ALT, which involves 
replacing the AF&F system and the neutron generators.
    The Nuclear Posture Review recommended ``initiating a study of LEP 
options for the W78 ICBM warhead, including the possibility of using 
the resulting warhead also on SLBMs to reduce the number of warhead 
types'' (p. xiv). Although the Department of Energy fiscal year 2011 
Congressional Budget Request includes funding for a W78 LEP with 
completion of a first production unit in 2021, work for this program 
has not been authorized by the continuing resolution under which we are 
operating. Should the W78 LEP be authorized, Sandia is ready to support 
the warhead systems engineering and integration effort and to fully 
leverage the work done on the recently completed feasibility study for 
a common integrated AF&F system. Using an envelope of the requirements 
for the W78 and the W88, and even the W87 and the U.K. system, our 
study concluded that this approach was technically feasible, including 
improvements in safety and security enabled by miniaturization of 
electronics. Savings in weight and volume, at a premium in reentry 
systems, can be used for those additional safety and security features. 
The study results have been briefed to the Nuclear Weapons Council and 
are being used to inform decisions regarding the scope, schedule, and 
interplay between the W78 and W88 life extensions. Such an approach 
offers the potential for significant cost savings for the overall 
Department of Defense and Department of Energy nuclear weapons 
enterprise.
Our Capability Base Supports the Mission
    Over the next 25 years, we will rise to meet the challenges of a 
demanding program described in the Stockpile Stewardship and Management 
Plan, but we also must establish the basis for long-term stability. For 
Sandia, stability should be viewed in the context of three pillars: 
infrastructure, broad national security work, and workforce.
Essential Infrastructure and Capabilities
    Sandia's capabilities are essential to its full life cycle 
responsibilities for the stockpile: from exploratory concept definition 
to design, development, qualification, testing, and ultimately to 
ongoing stockpile surveillance and assessment. Let me point out a few 
examples.
    The NNSA complex transformation plan designated Sandia as the Major 
Environmental Test Center of Excellence for the entire nuclear weapons 
program. Our facilities and equipment in this area are extensive: (1) 
20 test facilities at Sandia-New Mexico; (2) the Tonopah Test Range in 
Nevada; and (3) the Weapon Evaluation Test Laboratory in Amarillo, TX. 
We use environmental test capabilities to simulate the full range of 
mechanical, thermal, electrical, explosive, and radiation environments 
that nuclear weapons must withstand, including those associated with 
postulated accident scenarios. In addition to these experimental and 
test facilities, Sandia's high-performance computing capabilities are 
vital tools for our mission responsibilities in stockpile surveillance, 
certification, and qualification, and they have proved to be 
indispensable in our broader national security work.
    I am very pleased that Test Capabilities Revitalization Phase 2 
funding has been requested in the fiscal year 2012 weapons activities 
budget. This funding will enable us to renovate our suite of mechanical 
environment test facilities, many of which were commissioned in the 
1950s and 1960s. These facilities are essential to support the design 
and qualification of the B61 life extension and subsequent LEPs.
    Across the nuclear weapons complex, there is a shortage of funding 
for infrastructure, maintenance, and operation upgrades included in the 
Readiness in the Technical Base of Facilities program. However, 
mentioned in the updated Section 1251 Report is the Tonopah Test Range 
in Nevada, one example that I want to highlight not so much as a 
funding issue but as an essential mission requirement. Starting in 
fiscal year 2013, development flight tests must be conducted at the 
Tonopah Test Range for the B61 life extension.
    Another capability that Sandia stewards for the nuclear weapons 
program and also for the Department of Energy's nonproliferation 
payloads is the microelectronics research and fabrication facility, 
where we design and fabricate an array of unique microelectronics, as 
well as specialty optical components and microelectromechanical system 
devices. This capability includes a national ``trusted foundry'' for 
radiation-hardened microelectronics. We have been providing 
microelectronic components to the nuclear stockpile at the highest 
level of trust since 1978 and to the Department of Energy's 
nonproliferation payloads since 1982. In 2009, Sandia received Class 1A 
Trusted Accreditation (the highest level of accreditation) from the 
Department of Defense for Trusted Design and Foundry Services and is 
the only government entity with this accreditation for both design and 
foundry operations. We must recapitalize the tooling and equipment in 
our silicon fabrication facility, much of which dates back about 15 
years in an industry where technology changes almost every 2 years. 
Recapitalization will ensure production of the radiation-hardened 
components required by the B61 LEP and W88 ALT; this facility is the 
only source for the key microelectronics required for the life 
extension work specified. Recapitalization must begin soon in order to 
eliminate the risk of running existing equipment to failure. Sandia is 
therefore working with NNSA on a 4-year funding plan to stage the 
retooling (starting in fiscal year 2013). We have plans for meeting 
programmatic requirements with a staged funding profile.
    I mentioned earlier the need to continue strengthening the tools of 
stewardship. Let me mention two such areas for Sandia. First, a stable 
funding position is essential for the material science that underpins 
the broad range of materials for nonnuclear components in order to move 
to a more predictive basis for an older, smaller stockpile and prepare 
for the life extensions. We continue to work with NNSA to ensure 
adequate prioritization for nonnuclear components material science in 
fiscal year 2012 and out-year budgets. Second, I am pleased to see 
budget stability being brought to the area of radiation hardness. As I 
discussed in my July 2010 testimony, I believe this is an essential 
element of our strategic nuclear deterrent. We continue to advance the 
scientific basis for confidently certifying the stockpile to radiation 
hardness requirements in the absence of nuclear testing. We are also 
pursuing intrinsically radiation-hardened designs for use in future 
life extensions such as the W88 ALT and W78 LEP.
Synergy between Our Nuclear Weapons Mission and Broader National 
        Security Work
    Today's national security challenges are highly diverse. The NNSA 
laboratories are contributing solutions to the complex national 
security challenges. Indeed, as mentioned in the Stockpile Stewardship 
and Management Plan Summary, ``while NNSA nuclear weapons activities 
are clearly focused on the strategic deterrence aspects of the NNSA 
mission, they also inform and support with critical capabilities other 
aspects of national security'' (p. 7). In turn, to sustain and sharpen 
these competencies, Sandia relies on its broader national security 
work. The symbiotic relationship between the nuclear weapons and 
broader national security missions prevents insularity and creates a 
challenging, vigorous scientific and engineering environment that 
attracts and retains the new talent that we need. Such an environment 
is essential to succeed against the challenges we now face. The 
following examples highlight the way in which this symbiotic 
relationship works.
    Sandia developed synthetic aperture radar (SAR) technology, which 
was made possible by our extensive design and development work for 
radars for nuclear weapon fuzing. This technology has been enhanced and 
is currently used by the Department of Defense. The extensive SAR work 
has sharpened our radar design competencies and kept Sandia aligned 
with advances in radar technology, such as radar frequency integrated 
circuits. We are now applying these modern technologies to the design 
of the replacement radar for the B61 LEP.
    Another example is our work in cyber security. Sandia's 
responsibilities for nuclear weapons include weapon system 
architectures and components to support the highest standards of 
command and control--U.S. nuclear weapons must always work when 
authorized by the President, and never work otherwise. Our technical 
expertise in this area was the foundation for contributions to broader 
national security problems associated with cyber threats. In turn, our 
life extension work will take advantage of the modern, state-of-the-art 
capabilities developed for broader national security.
    A third example demonstrates how these synergies have worked within 
the NNSA family of programs. For the past 10 years, Sandia has been 
leveraging the unique capabilities of our microelectronics research and 
fabrication facility for Defense Nuclear Nonproliferation. In this 
effort, we designed, developed, and deployed the next generation of 
satellite-based treaty monitoring technology, called the ``enhanced 
optical sensor.'' In turn, we have used the advancements of the Defense 
Nuclear Nonproliferation satellite project in the nuclear weapons 
program.
    Finally, I want to acknowledge an important step in 
institutionalizing the relationship between the nuclear weapons and 
broader national security missions. In July 2010, NNSA, the Department 
of Homeland Security, the Department of Defense, and the Office of the 
Director of National Intelligence have signed a governance charter, 
which provides a framework for the participating agencies to coordinate 
shared, long-term planning for the science, technology, and engineering 
capabilities of Department of Energy national laboratories that will 
contribute to the Nation's broader national security missions.
Workforce
    Our talented people are our most fundamental capability. Given the 
scope and nature of our work, it is mandatory to continue attracting, 
retaining, and training a highly capable workforce. To do so, we must: 
(1) ensure that our work is aligned with the national purpose; (2) 
create a climate of innovation and creativity that inspires our 
workforce; and (3) create a balanced work environment that is both 
responsive to the fiscal realities of our times and attractive to the 
talented staff we need in the future.
    Today we are facing a number of challenges. Currently, 37 percent 
of the experienced technical staff in Sandia's weapon system and 
component design organizations are over the age of 55. Their remaining 
careers will not span the upcoming life extension programs. This 
reality puts a premium going forward on stable commitment to the LEPs. 
The life extensions provide opportunities for our new technical staff 
to work closely with our experienced designers: from advanced concept 
development to component design and qualification, and ultimately to 
the production and fielding of nuclear weapon systems. Finally, fiscal 
realities have forced us to reduce costs by addressing the funding 
liabilities in our pension program, restructuring the healthcare 
benefits, and simplifying internal processes. All these actions were 
necessary, but in my view, they can go no further without compromising 
our ability to attract and retain.
    At Sandia, we are focused on creating an environment that reflects 
our management's vision for success by coupling the experience acquired 
from our past work with new tools and modern technologies. Such an 
environment will foster innovation and provide foundational technical 
and scientific strength to support the stockpile over the long term. 
The multidisciplinary team we are assembling for the B61 LEP reflects 
this environment in which the powerful stewardship tools we acquired in 
the past are being adapted to meet future needs and the latest 
technologies and innovative designs are coupled with the rigor that 
comes from experience.
                              conclusions
    As stated in the Nuclear Posture Review, ``as long as nuclear 
weapons exist, the United States will maintain a safe, secure, and 
effective nuclear arsenal'' (p. iii). As we enter the new era of the 
nuclear deterrent, I am pleased to see that a clear strategic direction 
has been outlined for U.S. nuclear weapons policy in the Nuclear 
Posture Review and that a collective guidance for implementation has 
been provided through the Stockpile Stewardship and Management Plan, 
the updated Section 1251 Report, and the administration's fiscal year 
2012 budget request to Congress. The strategic direction for the 
nuclear weapons policy is also consistent with the New START, which was 
ratified by the U.S. Senate in December 2010 and the Russian Federation 
Duma in January 2011. In this context, we are actively positioning 
Sandia to fulfill its responsibilities in support of the Nation's 
nuclear deterrent. We are confident in our ability to do so.
    The documents referenced above represent a well-founded, achievable 
path forward, which I understand and support. However, we must 
recognize that a significant body of work is required to sustain a 
strong nuclear deterrent into the next two decades, and we must ensure 
that the resources are commensurate with the requirements and 
expectations. Specifically, I can be confident that, as an institution, 
we are positioned to execute stockpile management and deterrence policy 
to the priorities delineated in the policy documents referred above if 
the fiscal year 2011 budget is appropriated at the level of the 
administration's request. Furthermore, the overall fiscal year 2012 
weapons activities budget, if authorized and fully appropriated as 
requested by the President, will provide the basis for continuing the 
program consistent with national policy. This level of funding reflects 
a national commitment to strengthening the security of our country and 
allies by sustaining a smaller nuclear stockpile that is safe, secure, 
effective, and reliable. Deviation from this funding, however, will 
impact the scope and/or schedule of the life extension programs. The 
fact that the three national security laboratory directors were invited 
to speak before you today and answer your questions is a clear 
indication of the leadership role of Congress in authorizing a path 
forward for U.S. nuclear deterrence.

    Senator Nelson. Thank you.
    In the interest of time, we asked you to sort of 
consolidate all the statements here, but I would like to take 
the opportunity to ask each of you what might be your major 
concern or primary issue that you might like to address at this 
point, in case we don't raise a question about it.
    Why don't we start over on this side. Dr. Hommert?
    Dr. Hommert. Thank you, Mr. Chairman.
    In my written testimony, I raised three issues. The first 
is something that has already been mentioned, that we're at a 
very pivotal time with respect to the program and the multiple 
demands of maintaining the strength of our science base. The 
need to execute the LEPs, and the need to have the 
infrastructure commensurate with that, is creating a very 
substantial demand on the system. I think we have to look at 
that very actively. We have to demand the highest standards of 
project management, as Tom has alluded to. But, it is a very 
fundamental shift of the state of our weapons program, to take 
on that breadth of commitment.
    The second thing I'll mention that's most immediate, for us 
at Sandia, is the execution of the B61 LEP. The target First-
Production Unit (FPU) date for that is 2017. To be at an FPU in 
that timeframe, that's right upon us now. So, the urgency of 
the resolution of the fiscal year 2011 budget, where we're 
staffing up now to hold to that timeframe, is an immediate 
issue for us at our laboratory. As an example, we need to be 
flight testing development units in 2013. So, there's very 
little time for us to adjust, if we're to hold that schedule. 
Very important issue.
    The last thing I would just highlight is an issue of 
sustaining the people competence, long term, for the 
institution and in support of the deterrent, and to highlight--
I think this is true for all of the laboratories--the 
importance of the broader national security work that we do and 
what I would call the mutual reinforcing value of the work we 
do in other national security challenge areas to interplan and 
strengthen the basis of our workforce for supporting a nuclear 
deterrent, going forward. That's an important issue that I 
think now has become almost inseparable from how we would 
support the deterrent, going forward.
    So, thank you.
    Senator Nelson. Thank you.
    Dr. Miller.
    Dr. Miller. Thank you very much, Mr. Chairman, for inviting 
us today, and for your continuing support of these critically 
important national programs.
    The main points I'd like to summarize are, first that the 
fiscal year 2011 and fiscal year 2012 budgets that have been 
submitted by the President for your consideration are good 
first steps. As many of us have mentioned, I think the critical 
issue is sustaining those budgets over successive 
administrations and successive Congresses, is critical to the 
long-term prospect of putting the nuclear deterrent on a firm 
footing.
    The tools that you have so wisely invested in, are now 
being effectively used to assess the stockpile today. It's 
critically important that we move forward and take the 
necessary actions that we learn from those assessments. In the 
case of an issue that LLNL is concerned about, it's getting on 
with a study to look at how we might refurbish the ICBM 
warhead, the W78. It is aging. We know there are issues. We 
just need to get on with a study to tell us and you, the 
decisionmakers, what options are the best ways of refurbishing 
this warhead so that it can continue to provide the deterrence 
that is so important.
    The final area that I would again emphasize is the 
importance of the science and technology that is derived from 
our NNSA mission, and the way in which that is leveraged to 
help the laboratories work on some of the country's most 
important problems. These are issues from supporting our 
warfighters in Afghanistan and as Administrator D'Agostino 
mentioned support of national and international emergencies, 
like what happened in the Gulf and what has happened in Japan, 
and at the other end of the spectrum, working to help defend 
this country against terrorists and cyberthreats.
    So, this is a very precious resource, in my view. In these 
very difficult budget times, I think it deserves your careful 
consideration. In my judgment, it's critical not only for 
national security, but also for the economic future of this 
country.
    Senator Nelson. Admiral Donald?
    Admiral Donald. Mr. Chairman, Ranking Member Sessions, and 
Senator Shaheen, thank you very much for allowing me to appear 
before you today and discuss my program, the Naval Reactors 
Program.
    I would start off, first and foremost, by just 
acknowledging that what I spend the bulk of my time doing--I 
wake up every morning and go to bed every evening with my 
charter, and that is the safe and effective operation of naval 
nuclear propulsion plants. I don't think it should be lost on 
anyone that we operate 103 reactor plants. We operate them 
around the world, globally. We are welcome in over 150 ports 
worldwide. The reason we are able to do that, and including 
operating in the vicinity of cities in the United States, is 
that people trust us. They trust us because of our record of 
success. They trust us to deal with small problems before they 
become big problems, and to also be open and transparent with 
them, as far as how our program operates, and to ensure that 
we're doing good technical work.
    The success of the program: We've been around now for over 
60 years. We've been operating reactor plants at sea since 
1955, when Nautilus went to sea. We've steamed 145 million 
miles safely without a reactor accident, without a radiological 
incident that effects the environment or people. That record is 
attributable to a couple of things; first and foremost, 
technical expertise and the devotion to the work that we do. 
But, as much as anything, it has been the very strong and 
committed support from this subcommittee and from Congress in 
general. It allows us the latitude to do the technical work 
that we need to do and to work on small problems before they 
become big problems, and again, a key to our success.
    Mr. D'Agostino has highlighted three key projects that 
we're starting right now in support of national security. Those 
are certainly challenging projects. We understand that. But, 
it's also certainly within our expertise and experience to be 
successful in those projects. We've completed ship designs; 
most recently, the Virginia is the new class of submarine at 
sea, is held up as the hallmark of acquisition programs in the 
United States Navy right now. We're completing another design 
for the A-1B reactor plant; this is for the CVN-78, the Gerald 
R. Ford. So, we know how to do these things, and are ready to 
do it.
    What's critical right now, though, is, we're in the early 
stages of these very complex projects. The funding, early on, 
is critically important, because now we're setting design 
parameters, we're setting operational concepts for these plants 
that will, for the large part, define what the cost, schedule, 
and capabilities of these plants will be by the time they 
arrive at sea, when the first Ohio replacement goes to sea in 
2029. We're doing that right now. Since our equipment tends to 
be the first that has to be there for the construction start in 
2019, we are really in the very meat of the work to do to 
define what this plant is going to look like and what it's 
going to cost.
    That is where I would ask for your consideration, looking 
at our budgets, looking at the request that we've made, to 
ensure that we get off to a good start on these projects, that 
we have the design maturity that will guarantee success, and 
that we will be successful in what it is we go about doing.
    Thank you very much for your time.
    Senator Nelson. Thank you.
    Dr. Cook.
    Dr. Cook. My principal issue, concern, and direction is to 
execute the national strategy that was outlined in the NPR, the 
Stockpile Stewardship and Management Report, something we call 
the section 3113 report, 1251 report, as you mentioned, and now 
a ratified New START Treaty.
    As the program has changed, we've modified our program 
structure and management structure for execution. As you look 
at the President's budget, you'll see a 3.1-percent increase in 
science and weapons activities, a 4.8-percent increase in 
stockpile support, and a 21-percent increase in infrastructure. 
The reason for that ties to many of the things that you've 
mentioned and problems that we're well aware of across the 
complex.
    So, to name a few. Although we often talk in terms of 
projects, the UPF at Y-12 and the CMRR facility at LANL, in 
fact, these are basic capabilities for the Nation. One deals 
with uranium components, one deals with plutonium components 
and the necessary underpinning of science, technology, and full 
manufacturing. For example, when one really looks at UPF, it is 
a factory. It's not just a building. It's the basic capability 
of the Nation for dealing with uranium components. At LANL, 
it's not only a facility we're putting in place for actinide 
research and development, but will have the plutonium stores 
for the Nation. It will allow us to use other capabilities in a 
more effective way.
    I mentioned the management structure. In order to enable 
effective execution, we've asked the management and operations 
contractors, both at Y-12 and at LANL, who have parent 
companies who are, in fact, experienced and capable in nuclear 
areas, Bechtel and BWXT, to name just a few. That is based on 
the fact that we know we have to do these new builds. They are 
capability builds, but they're new nuclear builds, and they 
have to be done to modern safety and security standards.
    This all ties into stockpile deliveries for DOD. While, a 
few years ago, we had just one LEP in operation--and we still 
do, that's the full build of the life-extended W76 warhead that 
goes out to sea--we, today, have, also, the B61 study--the 
engineering prestudy and the cost study that we'll complete at 
the end of this year. We have requested approval to begin the 
study for the W78 warhead, as Dr. Miller mentioned, and look 
for adaptable interoperability we could have in two legs of the 
deterrent.
    That's quite a set of things. There are certainly other 
things, such as high explosives pressing at Pantex, which we 
have turned on to execute. But, that's what's on our screen.
    Thank you, sir.
    Senator Nelson. Thank you.
    Dr. Anastasio.
    Dr. Anastasio. Mr. Chairman, Senator Sessions, Senator 
Shaheen.
    First, let me thank you, Mr. Chairman, for your kind 
remarks in your opening.
    I would just like to personally thank this committee for 
not only all the support the NNSA missions have received over 
many years, but also LANL and myself, personally. I really 
appreciate the support of this committee. So, thank you for 
that.
    When I think about LANL, my number-one thought is about the 
general role of the laboratory. We're a national security 
science laboratory, and the thing that I worry the most about 
is, are we a healthy, vital institution to carry out our 
missions and responsibilities? As we've heard, those are clear, 
from the NPR that flow down through Stockpile Stewardship and 
Management plan and the budget profile the administration has 
submitted. The question before this committee and Congress is, 
is there funding available, in these difficult times the 
country faces, to fund this activity?
    For me, as lab director, one of the special 
responsibilities we all have is not only, ``Can we carry out 
our mission today?'' but will we be able to do that 15 or 20 
years from now, as well. Of course, that's all about, not only 
``Do we have adequate funding now?'' but also we have a stable 
funding profile that we can plan to, so that we can make sure 
that the workforce is available that has all the special 
diverse and deep capabilities that are necessary to meet these 
mission requirements that are so challenging technically?''
    Of course, the budget's been under some stress for some 
time. We have been working hard to try to mitigate that budget 
stress, and you've heard some of the strategies. Not only can 
we take the science and engineering that's so important for the 
nuclear weapons program, and use it to support other critical 
national missions around nonproliferation or countering 
terrorist threats, Intelligence Community work, DOD support, et 
cetera--not only can we do that, but we've also designed the 
efforts that we go after with other sponsors to supplement the 
science and technology base of the laboratory that the core 
program, and Mr. D'Agostino's program, is not fully able to 
support. So, we've tried to mitigate the constraints he has on 
his budget by seeking funds from other sponsors to help support 
that fundamental capability.
    So, when I think about the future, it's not only, ``Do we 
have adequate funding?''--the challenge that you face for the 
NNSA programs--but, it's even the broader spectrum of national 
security programs that this Congress is contemplating that will 
really impact the health and vitality of the institution and 
our ability to carry out our mission today and well into the 
future.
    Thank you, sir.
    Senator Nelson. Thank you.
    We'll begin 8-minute rounds for questioning.
    My first question relates to weapons funding and gets right 
to the heart of it. It goes to, once again, Dr. D'Agostino and 
Dr. Cook. Under the CRs, the weapons activities budget request 
for fiscal year 2011 for NNSA was provided. This is a 
substantial increase, some $625 million above the fiscal year 
2010 funding level. On the other hand, there is now talk that a 
permanent budget for the balance of fiscal year 2011 may be 
$200 to $300 million lower than the fiscal year 2011 budget 
request, the level at which the weapons program has been 
operating. What impact would a reduction in fiscal year 2011 
funding have on the weapons activities programs, given that 
we're now half way through the fiscal year?
    Mr. D'Agostino. I'll be glad to start, sir. I'd ask Don to 
follow up.
    Senator Nelson. That would be fine.
    Mr. D'Agostino. It would have a significant impact, Mr. 
Chairman. Our ability to execute funds effectively depends a 
great deal on knowledge of the path forward. We're blessed to 
have the President request it and Congress follow, and allow us 
to proceed at the President's request in this area. Even with 
this uncertainty, Don has been executing, with the 
laboratories, to work on the program that we have requested and 
that the Senate has allowed us to move forward with.
    There is this uncertainty, of course, when we look at the 
debates that happen back and forth. It tends to color the 
ability to plan and has me thinking about, ``Well, should I 
hire up in order to do the B61 work at Sandia?'' For example--
the many tens, and even hundreds, of people that are required 
to put this in place. Because, if it doesn't come through, I 
might have to fire them. This kind of cycling is very bad for 
the workforce. It's very inefficient. At the lower levels 
themselves, if we ended up with a lower level, of course--what 
would be authorized and appropriated--then, of course, we would 
have to start making some very significant cuts, because we've 
started the year at this higher rate.
    Don, you might be able to provide some more specifics.
    Dr. Cook. Yes. My answer, sir, would be that it would be a 
substantial change from where we are. With the anomaly in the 
CR, we have chosen not to waste time. We have a number of 
weapon systems that are operating beyond their original design 
lifetime. The infrastructure projects that we must execute 
across the board are at very key and sensitive steps in design, 
preparing for execution. The hiring has been going on. The 
national strategy has been made clear. So, at this point--and 
particularly now shortly close to halfway through the fiscal 
year--in fact, any reduction would have a very substantial 
effect.
    Senator Nelson. The effect of halfway through the year is, 
of course, doubling the impact, also catching you in the middle 
of hiring decisions, no ability to plan until we know what the 
number would be. So, we would appreciate you making that clear 
for the record.
    My colleague has also indicated a concern about that. We're 
going to engage in cuts, we need to know exactly what we're 
doing, and we have to do it in a responsible way, consistent 
with what decisions we've made and expectations we have 
following the New START treaty ratification, as well.
    Admiral Donald, we're going to talk a little bit about 
naval reactors funding. The fiscal year 2012 funding level for 
the Office of Naval Reactors is approximately $127 million 
below the fiscal year 2011 request and the amount available for 
your office under the CR. Can you explain to us what impact 
this CR has had on Office of Naval Reactors development work 
for the Ohio-class replacement reactor? Are there other areas 
where the CR is impacting the naval reactors?
    Admiral Donald. Yes, sir. What it has meant, so far, as I 
discussed in my earlier statement, is, it's put us behind, as 
far as the work that we're doing to do the concept development 
and the design work to prepare ourselves to get into 
construction of key components and to do the work we need to do 
to make sure that design is mature at the time we start 
construction in 2019.
    Specifically, on the Ohio replacement program, this is the 
design for the reactor plant, and I have to be in 
synchronization with the Navy as they're designing the rest of 
the ship, and as I am designing, from the Navy side, the 
remainder of the steamplant that goes with it. So, there's a 
very closely coupled relationship here. If I get out of sync 
with them, then that will not only potentially delay the ship, 
it'll also increase cost.
    When we look at where we are right now, if I were held at 
the CR level, our estimate is, is that we'd be looking at a 6- 
to 9-month delay in the delivery of the ship. Now, that's a 
long way out, but if you look at the compression of the 
schedule and what we have to do between now and 2019, compared 
to what we have done in the past, on Virginia, on the Ford 
aircraft carriers, we are pretty comfortable in saying that 
will be a delay of somewhere between 6 to 9 months.
    Similarly, on the Navy side, if there were reductions in 
funding on the Navy side that remained in the CR for the rest 
of the year, you looked at the entire ship, you would be 
talking to a 1- to 2-year delay, potentially, in the delivery 
of the ship.
    There are also personnel costs associated with that, and 
hiring. We would not be able to hire, our estimate right now 
is, somewhere on the order of 100 to 150 people to support the 
designers that we'd need to get in place to do that work. You 
can't ramp that up overnight, because these are highly 
technically sophisticated individuals. They need experience in 
what they're doing. We're in the middle of a demographic change 
in our business, where we have a lot of senior folks ready to 
retire. We want to transfer that knowledge over to the younger 
folks and help them become more effective at what they're doing 
in the design work.
    Then we would be looking at potentially having to lay 
people off, both in the shipyards and in our laboratories. Our 
estimate, if we stayed at the CR level, would be somewhere on 
the order of 50 people. That would just be the beginning of 
where we would start.
    So, it's a significant impact. Again, very early in the 
design work, where there are really two key technical 
challenges that we're looking at in this design. The first is, 
we want to build a reactor plant--a reactor core that will last 
for the life of the ship. This is a 40-plus-year ship. We've 
done life-of-the-ship cores for Virginia-class at 33 years. 
We've never gone to 40. You would ask, ``Why would you want to 
do that?'' If we can do that and eliminate that lengthy 
refueling overhaul in midlife, like we do for the Ohios right 
now, then the potential exists that we would not have to have 
as many Ohio replacements right now as we do Ohios. We have 14. 
We would be looking to buy 12 of those ships instead of 14, 
because you've bought more operational availability if it's not 
sitting in the shipyard. There are technical challenges to 
that. We believe we are capable of meeting that challenge. 
That's key to this early design work that we're doing.
    The second thing we're putting on this ship is an electric 
drive. We're changing the propulsion mode from the standard 
steam turbine reduction to electric drive. What that brings you 
is enhanced quieting. In a submarine, stealth is everything. A 
deterrent is not really a deterrent if people can find it. So, 
we want to make sure it cannot be found. Given the fact that 
this ship will be operating out to 2080, we feel that it's 
necessary to make the investment upfront in this stealth 
technology to ensure that it is a viable asset well into the 
future, long after we're gone from this business.
    So, those two key technical challenges, the importance of 
the early investment in the design, that's where I'm concerned. 
If I can't get that investment now, and get those parameters 
and that design work done now, and the right people in place, 
puts that at risk.
    Senator Nelson. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you very much.
    It's difficult to overstate the fiscal crisis this Nation 
is in. Admiral Mullen has said it's the greatest threat to our 
national security--our debt. This year, we will spend $3.8 
trillion and we'll bring in $2.2 trillion. Forty cents of every 
dollar is borrowed that we're spending today. People know that 
I believe in a strong Defense Department, so the reporters, 
first thing they want to ask is, ``Well, is the Defense 
Department immune, Senator Sessions? You want to cut everything 
else. But, is Defense Department immune?'' DOD is not immune. 
I'm just telling you, and neither is DOE. DOE came forward with 
a budget request for next year of 9.5-percent increase. They're 
not going to get a 9.5-percent increase. We don't have the 
money.
    What would happen in a private world? Since I'm the ranking 
Republican on the Budget Committee and I'm living with these 
numbers every day, forgive me; but you have to get in your head 
that things have changed. That's all I'm telling you, that 
things have changed. The ability to go first-rate on everything 
we did and be able to proceed and pay big salaries and bonuses 
and build new buildings and all--of course, I guess the weapons 
complexes haven't seen a lot of increases in a long time, 
there's no doubt about it. That's why we have to go forward. 
But, every dollar has to be fought for, Mr. D'Agostino. If you 
can build a building for a little less, you have to do it.
    So, to follow up a little bit on the Chairman's question, 
the House CR version calls for a $312-million reduction; the 
Senate's; $185 million. Can you give us any more information 
about how much could be sustained and how much can't be 
sustained to reach your mission? Because I am of the long-term 
view, I think that all of you share, that we have diminished 
the weapons complex for a very, very long time, and it's at a 
very dangerous stage. We made a national commitment. The 
President made a commitment as part of this START Treaty.
    What can we do? What can you tell us about how much you 
have to have to stay on track without doing damage to the 
program and ending up costing more than otherwise would be the 
case?
    Mr. D'Agostino?
    Mr. D'Agostino. Yes, sir. I might start, and then, as you 
wish, I'll let our colleagues add in, as well.
    You had talked specifically about the $312 million and the 
$185 million numbers, the differences, maybe, between House and 
Senate at various stages of the bills. One is a 50-percent 
reduction to our plans on increases and----
    Senator Sessions. Fifty-percent reduction of what, now?
    Mr. D'Agostino. The $312 million is about 50 percent of the 
$624 million that was requested, the difference between----
    Senator Sessions. Six---the 624 increase.
    Mr. D'Agostino. Yes, sir.
    Senator Sessions. All right.
    Mr. D'Agostino. Right.
    Senator Sessions. See, the American people are getting a 
little confused about all this.
    Mr. D'Agostino. Right.
    Senator Sessions. You get an increase of 600 and you reduce 
that increase to 300, and you say you have a cut. I guess you 
have--since we started the year at the higher number, I guess 
you can say that. But, the way our budget projections work is 
that somebody projects it's going to increase it 3 percent, and 
you say we're only going to increase 2 percent; they say that's 
a cut. But, to the average American, that's not a cut.
    Mr. D'Agostino. I understand, Senator. As you mentioned, we 
are digging ourselves out of a hole.
    Senator Sessions. But, you only get half as much increase 
as you hoped to get.
    Mr. D'Agostino. As a result of that, we won't be able to do 
the type of program we put forward that we believe is necessary 
for the NPR, specifically in three broad areas. We can delve 
into the details as we have time to.
    The first area is our work on the stockpile itself. At a 
50-percent reduction--and, of course, we've been spending at 
the higher rate, as authorized in the CR, so it is--it has a 
magnifying effect--will result in significant changes to our 
B61 life extension work, just to carry that particular problem 
forward, this life extension is absolutely critical if we're 
going to get the system modernized in place so that it 
continues to support the Nation from fiscal year 2017 and 
beyond. So, if we don't do this life extension work that we 
have planned, it will have a grave impact on our ability to 
maintain that particular warhead for our stockpile, which DOD 
and the President both believe is necessary to do. That's a 
huge upfront impact.
    Senator Sessions. So, no money invested in that except for 
the new money that you got?
    Mr. D'Agostino. Certainly, we have existing money to 
maintain the B61, which is what we call surveillance work. It's 
like lifting the hood and looking inside the warhead and 
maintaining it. But, our ability to move forward with the life 
extension in time to meet our 2017 date will be impacted, and 
we would have to scale back significantly the type of work, and 
do the bare minimum necessary on that particular warhead.
    The other significantly large area--that's an example in 
directed stockpile work--that would be impacted, I believe, is 
our ability to bring on board, for the Nation, a uranium and 
plutonium capability. It will be impacted. It'll be pushed out 
a few years. These are what have been called projects, but 
which Dr. Cook correctly describes as national capabilities. I 
believe the committee understands that these aren't just 
capabilities to take care of our stockpile. They are, at a 
minimum, that. They are a lot more than just taking care of our 
stockpile. These are the capabilities that are absolutely 
critical in order to work with plutonium and uranium, which is 
absolutely necessary for us to do nuclear counterterrorism work 
and do the nuclear nonproliferation work which many--including 
myself--feel is part of our integrated national security--our 
nuclear security mission space. All of this ties together.
    We want to get out of buildings and capabilities that were 
put in place in 1952. Even if we proceed at the President's 
requested level, we'll have been in these facilities for close 
to 70 years, as a matter of fact, because the capability won't 
come on board for another 10 years or so. So, moving forward is 
absolutely essential in order for us to maintain our stockpile 
and to maintain the nuclear security work.
    I've talked plenty. If you will, sir, I'd like Dr. Cook to 
provide some background.
    Senator Sessions. All right.
    Dr. Cook. I'll add a few words. Let's see, the difficulty 
is that, at the same time, we must replace 60-year-old 
capabilities in special nuclear materials, uranium and 
plutonium. We have weapon systems that are now operating beyond 
their original design lifetimes. The President's fiscal year 
2012 request is for the 20th year in which we have had a 
moratorium on underground testing. So, if I start with one 
point, it is, we must effectively put the complex to work, that 
waiting further, not investing, is a clear decision to take on 
additional risk in all three areas that I mentioned. Those are 
fairly severe.
    Now, if I can look to hope at all here, it is that we can 
reform our management practices, as the Administrator said, 
improve the way in which we're doing work. So, we're looking at 
the industrial suppliers--I've already mentioned the parent 
companies of LANL and Y-12, people who bring to the government 
sector the best industrial practices. We're already moving 
forward to directives reform, reform of the DOE directives in 
which we are seeking to adopt consensus standards--ISO-2000, 
ISO-9000, ISO-14000. I'll state an assertion that, in many 
areas, not nuclear areas, is a better way to go to improve 
speed, efficiency, and the conduct of all work. We can clearly 
improve our management disciplines.
    But, the core issue I'd start with is, if we don't 
effectively put the complex to work, all aspects--research and 
development, project development, rebuilding the capabilities, 
and mainly manufacturing warheads, but based only on the 
previously tested designs, with no new military capabilities or 
requirements--that is clear. That's national policy. Waiting 
will not make it better. I'm sure you understand that. But, we 
could improve some of our business practices.
    Senator Sessions. Admiral Donald.
    Admiral Donald. I wouldn't want to walk out of here and 
leave you with the impression, Senator Sessions, that we don't 
understand the significance of the fiscal problem that we face. 
But, also, I want to leave you also knowing that we view it as 
our obligation to do the best that we can to operate as 
efficiently as we possibly can. If you look at our budgets over 
the last--really, since I've been in this job now, 6\1/2\ 
years, we've been relatively flat, essentially adjusted for 
inflation. Even within that budget, we took on the project to 
put our spent-fuel handling capability in place so that we 
could transition from wet fuel storage in Idaho to dry fuel 
storage to keep us in compliance with our Idaho agreements that 
we entered into in the mid-1990s. We did that within our budget 
and didn't come and ask for any additional funding to do that. 
That came at a price, though, because the assumption was, if we 
were tasked with new projects, we'd have to come to you and ask 
you for some additional resources. What you see in our increase 
in funding--the $125 million between fiscal year 2002 and 
fiscal year 2011, and then the additional into fiscal year 
2012--really reflects those three projects that Mr. D'Agostino 
had mentioned. We're working against the clock on all three of 
those projects. The Ohio replacement, I've already mentioned, 
if we make decisions today to delay, it'll have the impact in 
2029, when a replacement ship is not there to cover for the one 
that went out in 2027. The prototype refueling, I'm working 
against physics, because the fuel is being depleted in that 
prototype right now. Not only is that where we're going to do 
the derisking of the technology to build a core for Ohio 
replacement, but that also is going to provide the training 
platform for one-third of our nuclear operators that go out 
into the fleet. So, I need to go and replace that capability, 
as well.
    Then finally, the spent fuel handling facility in Idaho--I 
have a water pit out there that has 25 metric tons of spent 
fuel in it, and some parts of it are over 50 years old. It 
needs to be replaced. It's not at current code. It's not 
particularly efficient. From our perspective, technically, it's 
not a situation we want to live with much longer in the future.
    That's the timeline that we're working to and why we've 
come to you to ask you for this assistance for these programs.
    Senator Sessions. Well, it's $84 billion over 10 years on 
total program, and that's a lot of money. We just need you to 
be thinking any way possible to keep those numbers at as 
reasonable level as possible. But, the United States of America 
cannot not have a reliable nuclear arsenal. It is not 
acceptable. So, we have to find the money. I hope that you 
won't take the view that some government people seem to take 
sometimes that, ``I'm not going to affect any efficiencies. You 
either give me money or I won't do the new project you want me 
to do.'' But, no business operates that way, what businesses 
have to wrestle with every day. Families have to make priority 
choices, and we're asking you to do that because I want to 
protect this program.
    I do think $300 million is clearly too much of a reduction, 
Mr. Chairman. Hopefully we can figure out a way not to go that 
far.
    Senator Nelson. Thank you, Senator Sessions.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for being here this afternoon.
    Mr. Chairman, I know that the Emerging Threats and 
Capabilities Subcommittee normally handles the nonproliferation 
portfolio, but it's come up a little bit in testimony, and so I 
would like to raise the issue here and follow up on some of the 
budget questions.
    As you pointed out in your testimony, Mr. D'Agostino, 
President Obama, in talking about the threat to this country, 
pointed out that a nuclear weapon in the hands of terrorists is 
probably the biggest threat that we all stay up nights worrying 
about. I was really horrified to see that, according to 
International Panel on Fissile Materials, the global stockpile 
of highly enriched uranium, which is the easiest material for 
terrorists to use to make a nuclear weapon, in 2010 was enough 
to make more than 60,000 nuclear weapons. So, given the 
insecure nature of these materials around the world, clearly 
this is a threat that we should all take very seriously.
    While I appreciate, and know that you all do, the need to 
address efficiencies in our budget, and to deal with the 
country's debt and deficit, I am concerned about the proposal 
in the House's budget that would have cut $600 million from 
nuclear nonproliferation programs. I wonder if you, Mr. 
D'Agostino, or any of the other panel members, could speak to 
what that would mean, in terms of what would not get done if 
that cut is realized.
    Mr. D'Agostino. Okay. Thank you, Senator Shaheen. 
Absolutely. There is clearly a connection between these 
investments in the weapons activities account of the 
subcommittee's jurisdiction and how it impacts other elements 
of NNSA. The Defense Nuclear Nonproliferation Program 
absolutely counts on Y12, for example, in order to be able to 
have a place for this highly enriched uranium that we're 
bringing back to be processed, characterized, put in a 
situation so it can eventually be used as part of the national 
stockpile to support the naval reactors program for propulsion 
out into the future, as well as be available for downblending 
into low-enriched uranium to turn this into, ultimately, 
electricity for peaceful uses here in this country. So, these 
investments in the weapons account are directly connected to 
the nonproliferation program. I think that's an important 
point. I think the subcommittee understands that.
    I'm deeply concerned with the reductions in the 
nonproliferation program. Again, these are reductions from the 
request as Senator Sessions has pointed out--because what we 
are in the process of doing is implementing an aggressive but 
important program to lock down nuclear materials worldwide in 4 
years. We don't do it by ourselves, of course. We do this in 
partnership with over 100 countries. But, we do require 
expertise from this country. Work that happens at Sandia, LANL, 
and LLNL, in fact, provide the core expertise in order to say, 
``What's the best security system to design in Russia? Or--and 
how do we put it in place? How do we know that it is actually 
in place and working as it should be?'' So, these laboratories 
provide the foundational element of that. That $600 million 
would have a direct impact on our ability to implement the 
security--what we call first line of defense--secure the 
material in place. It would also have an impact on our ability 
to convert research reactors from highly-enriched uranium to 
low-enriched uranium, a plan that we have laid out. We've 
converted 70 reactors so far, but there are many more research 
reactors that we know exist that we have a plan laid out to 
convert these research reactors from HEU to LEU. It would 
impact the ability for us to put radiation detectors at 
seaports, land border crossings, airports, and the like.
    Obviously, if we are faced with a reduction, if you will, 
from our original plan, we will seek to fund the highest-
priority work, the most important work, first. But, an element 
of maintaining nuclear security isn't just doing the security 
work in place, it's making sure that other nations who are in 
the process of bringing civil nuclear power do so in a way with 
the appropriate nuclear safeguards in place. So, we have an 
element of our program that is designed in order to help other 
nations have the right nuclear safeguards in place.
    I believe it would have a significant impact on our 4-year 
lockdown effort. I think this is the effort where we have a 
very clear direction that everyone feels is an important 
direction to go to. That's essentially where we are right now.
    Senator Shaheen. Thank you.
    Do we have a limit on our time?
    Senator Nelson. Eight minutes.
    Senator Shaheen. Okay.
    Dr. Miller, you talked about your concern that we may lose 
some of the best scientists and technicians if we're not able 
to ensure future funding and a commitment to the program. I 
wonder if you feel like we're currently investing enough in our 
future workforce, and what kinds of things we ought to be doing 
to ensure that we can attract the best and the brightest people 
to the program.
    Dr. Miller. Thank you very much, Senator.
    Picking off of the recent conversations with Senator 
Sessions and yourself at the laboratories--LLNL, in 
particular--we have reduced the overall staffing at the 
laboratory by about 2,000 people over the last 5 years.
    Senator Shaheen. Two thousand out of how many?
    Dr. Miller. Out of about 8,000. So, there were 8,000.
    Senator Shaheen. Wow.
    Dr. Miller. There are about 6,000 now.
    Two years ago, I testified that I thought we were in danger 
of losing the fundamental science, technology, and engineering 
capability that the country relied on. That decline was 
stabilized in 2010. We have seen, again in my words, modest 
increases. Dr. Cook talked about 3 percent. That's only a 
slight--a percent increase or so above the rate of inflation, 
but it is positive. We have begun, under the CR and the 
President's planned budgets for 2011 and 2012, we have started 
growing that back to a level that, in my judgment, would be 
sustainable over the long term. The same issue would occur if 
there were substantial cuts in the nonproliferation program. 
Again, these are substantial investments in fundamental people 
that provide the technical capability to build radiation 
monitors, and provide advice to the government.
    In my view, as I testified 2 years ago, the most important 
part of securing the talent at the laboratory is that the 
scientists and engineers understand that they have a stable 
future. They are very highly trained, very highly technically 
qualified, and they want to be assured that they can work on 
some of the country's most important problems. If they can, we 
don't have difficulty hiring them, nor do we have difficulty 
retaining them. But, when there are budget ups and downs and 
uncertainties, that's when we have difficulty.
    My judgment is, as Dr. Anastasio talked about earlier, one 
of my fundamental responsibilities is the long-term health of 
the laboratory so it's capabilities are there when the country 
needs them to apply to whatever the country's most important 
problems are. For me to do that, the most important thing is 
stability and national consensus on what we're doing. I think 
we have the national consensus in the Congressional Bipartisan 
Commission that has been referred to, the NPR, and now the 
START treaty. We have that consensus. What we need now is to 
fund the programs that support that policy.
    Senator Shaheen. Thank you. My time is up.
    Senator Nelson. Thank you, Senator.
    Let's take a second and talk about extending the 
replacement facilities, and what that implication is, in terms 
of being able to deal with a $100 million shortfall in 2011 and 
whatever we might face in 2012. Admiral Donald, in looking at 
replacing the facility that you have under your authority, we 
have 40.6 million for conceptual design, and that would be a 
new spent-fuel building to support the NR program. In fiscal 
year 2012, the request for conceptual design is $53.8 million. 
The construction wouldn't start until 2013. What would be the 
implications, in terms, first, of fiscal impact, and then the 
second implication, in terms of what it would do to our 
national security if this were to be extended 1 or 2 years into 
the future?
    Admiral Donald. This is our spent-fuel facility in Idaho. 
All of the spent fuel, when we refuel aircraft carriers and 
submarines, or defuel them at the end of their lives, this fuel 
is shipped by rail to this facility. What we do is, we put it 
in a large water pit and it cools down for a period of time. We 
also examine it to make sure it's performing the way it was 
designed to perform. Then we process it for dry storage, to be 
in compliance with the agreements that we have with the State 
of Idaho, for all spent fuel to be out of wet storage by 2023.
    So, the issue with this facility right now is, as I've 
mentioned before, it's aging. Most parts of it are 50 to 40 
years old. It is not in compliance with current code. In fact, 
it has cracks in it. We know that for a fact. We manage those 
cracks, and we deal with it. It does have some seismic 
liabilities that we manage. But, from a point of view of just 
stewardship, this is a facility that, in fact, needs to be 
replaced.
    There's another element, as well, in that we are in a very 
intense period of fuel handling in our shipyards that's being 
driven by the Nimitz-class aircraft carriers. They're all 
coming in for their midlife refuelings. They're heel-to-toe. 
Right now, the USS Theodore Roosevelt is completing hers. Next 
will be USS George Washington. We will be heel-to-toe in these 
refuelings now for a very long time, all the way out through 
the retirement of the most recent ship, 50 years from now. 
There will be one in some sort of a fueling availability. We 
have to be able to move that fuel out of the shipyards. To do 
that, you have to have an efficient and capable facility. It 
has to be configured to take the fuel as it is designed when it 
comes out of a ship.
    We have had to, because of this heel-to-toe refueling, 
redesign how we take the fuel out, reconfigure it into a new 
system, and the facility has to be redesigned to accept this 
new fuel. Otherwise, I would have aircraft carriers backing up 
in the shipyards. They wouldn't be available to do what they're 
supposed to do. Or, we could have fuel that we have no place to 
put.
    So, the target is 2020. That's when I have to have the new 
facility in place. The construction starts in 2015. The 
construction design starts in 2013.
    What we're talking about in a delay is, it's really a day-
for-day, because it's a fairly structured process of design, 
design maturing, and then buying the pieces, the heavy 
equipment that you need to go do this. So, you're talking about 
slipping out beyond 2020. When that happens, we're going to 
have to have another place to put that spent fuel from the 
aircraft carriers.
    The best way we would do that would be with new shipping 
containers--more additional shipping containers. Each one of 
these shipping containers costs about $22 million. For a 
Nimitz-class aircraft carrier, that's nine shipping containers 
that you would need. So, that's a $200 million bill that you'd 
be talking about if we couldn't get the facility done by 2020, 
for each Nimitz-class aircraft carrier that comes for 
refueling.
    That's the timeline that we're on, the impact that we're 
talking about. Then, there's a day-to-day impact of just doing 
work in an aging facility. Things break, and you have to go and 
fix them. It results in inefficiencies in how we deal with our 
business.
    So, I think that should capture it for you, the subject of 
your questions.
    Senator Nelson. Let's talk just a second about the delays 
in the naval reactors. The construction project to receive and 
handle M-290 spent-fuel shipping containers is about a year 
late. Would these be the shipping containers that you're 
talking about?
    Dr. Cook. Yes, sir, they are.
    Senator Nelson. They're a year late. The most recent 
schedule indicated that the approval would start construction 
CD-3 in the second quarter of fiscal year 2011. That ends 
tomorrow--or, it begins--second quarter fiscal starts tomorrow. 
No, I guess it ends tomorrow. Can you give us some idea of the 
delay? Because, if there's already a shortfall, in terms of 
what we're looking at, in terms of money to be able to do, does 
this delay just add to that problem?
    Admiral Donald. Well, where we are--the CD-0 was--that was 
completed in 2009, I believe it was--CD-1, we have--we want to 
complete by fiscal year 2012--the end of fiscal year 2012. 
Because of the delays in funding we've seen so far, we are, in 
fact, behind in the design. We've been able to--at least to 
date, because the numbers have been relatively low, we have 
been able to continue some of the fundamental work. We're 
engaged, right now, in the environmental impact statement and 
the concept design work, and continuing that. But, really, this 
year and in 2012 is when we have to get the work completed to 
make the selection at CD-1 of the type of facility, what it's 
really going to look like, where it's going to be located, and 
how it's actually going to work--be configured to do the work 
that we need it to do. So, this is really a crucial point in 
the design, because you do set the basic parameters that define 
the cost and schedule for the rest of the program.
    Senator Nelson. Mr. D'Agostino, I am one who has been very 
interested in the efficiencies initiative at DOD. Secretary 
Gates has directed all elements of that Department to identify 
efficiencies that can be reutilized. I heard earlier 
discussion--I think Dr. Cook said--about efficiency and 
management programs and what you can do. Could you identify, 
maybe, for us some of the efficiencies that perhaps--a project 
that has been identified for the next 5 years. Have you gotten 
to the point where you can do that?
    Mr. D'Agostino. Yes, sir. I mentioned one in my oral 
statement. We talked about the supply chain management center. 
This is something that I started in 2007, when we realized the 
way we were operating whereas, more or less--and this isn't 
quite a fair statement--I mean, there are no completely 
independent sites, but eight sites. We felt there were great 
efficiencies to be achieved by operating as an integrated and 
interdependent organization, where we would look to drive 
efficiencies in not having three capabilities to do the same 
thing, but dropping us down to one or two capabilities, when 
it's--where we need redundancy for a national capability, then 
we would have that. At that time, we felt we could go from 35 
million square feet--take 9 million square feet off of our 35-
million-square-feet enterprise of buildings and things like 
that. So, we have 9 million square feet of space that we're 
moving out of.
    Another area of efficiency that we hope to implement, and 
have implemented part of the way, is to reduce the amount of 
security space that we have to protect in our enterprise, to 
consolidate nuclear materials to fewer geographic locations and 
to fewer sites within those geographic locations. Because, the 
fewer locations that we have to protect, the less expensive it 
is to maintain. As a result of those efficiencies, more 
recently, we've been able to take our $765 or $770 million 
security budget and drop it down to, like, about $22 million or 
so.
    At Y12, we plan on going from 150 acres of high security 
space, ultimately to 15 acres of high security space. That 
shift--and this is where this uranium processing capability 
that we want to shift into--will allow us to move forward and 
save what we believe is a total of $200 million of operating 
expenses, both in security costs per year, as well as operating 
efficiencies, by getting the whole enterprise right-sized, if 
you will, leaving, kind of, the cold-war enterprise behind us, 
and shifting to a much smaller, more integrated future 
enterprise. Those are the macro pieces that we have before us.
    There are a number of other specific initiatives we have, 
looking forward. One of them is to look at putting together a 
common work breakdown structure. This is something that Dr. 
Cook is implementing in the weapons program. We're looking at 
linking the formulation of the budget to the execution of the 
budget in a real way. We've brought into our organization some 
folks that have direct budget formulation and execution 
experience from OMB. Phil Calbos is here in the room. He really 
understands this work, and he works for Dr. Cook directly in 
this particular area.
    I'm optimistic. I could talk for a while, but you probably 
don't want me to.
    Dr. Cook. If I could add--and give you one past one and one 
future one.
    A past one that we had in this year. We knew that, when we 
got the training and the tooling in place at Pantex, that we 
would be able to do some of the disassembly work more rapidly 
and completely safely. That was proven. So, we had a target of 
number of disassemblies, and the Pantex operation, with the 
training and the tooling in place, exceeded that target--in 
fact, there was another 26 percent--so, 126 percent on 100--and 
in a year in which there was a major flood at Pantex; if you 
recall, more than 10 inches of rain on a very bad day in the 
city of Amarillo, and the ground couldn't absorb that much 
rain. In our programs, we're taking account of that effect. 
We're using efficiencies to make sure that we can recover from 
that.
    Now, that's the past. I said there was a future. When you 
look at the--it often is called ``common''--we really mean 
``adaptable and interoperable'' study for the ICBM warhead, the 
W78 and the SLBM warhead, the W88. Provided that we can get 
authorization to move ahead on that, we have the potential to 
save cost and to have interoperability in the arming and 
fusing--arming, fusing, and firing units, that Dr. Hommert 
could address, or in the nuclear explosive packages, that Dr. 
Miller or Dr. Anastasio could address. What we do know is, if 
we don't do that work in a joint way, it's going to cost more, 
and so, some of this may be cost avoidance. It doesn't matter. 
It's still cost savings in the end.
    Mr. D'Agostino. Admiral Donald may have one, as well, if 
you have time, sir.
    Admiral Donald. Yes, sir. The Ohio replacement has been one 
that we've obviously been focused on here for several years 
now. But, in the name of efficiencies, one of the issues is, we 
work through DOD's acquisition process. We were the first 
program through that new process that Dr. Carter headed up. 
But, we were challenged to drive the cost of that ship down. As 
far as our part was concerned, one of the key decisions that 
was made, that helped us in that regard, was the decision to go 
from 20 missile tubes to 16 missile tubes. Because, what that 
allowed us to do was to downrate the propulsion power that was 
needed. So, obviously, it's a smaller reactor that you would 
need. But, what it also allowed us to do was to go back--the 
size fell into the envelope where we could go back and use 
components that we had already designed for the Virginia-class 
and bring those into this design--not have to do it over 
again--but, several of the mechanical components, to use those 
over again. It enabled us to drive the costs of that propulsion 
plant down and rely on proven technology that's--pumps and 
valves and things like that don't change like electronics do. 
So, we're pretty comfortable putting that in a ship that will 
be around til 2080. But, we were allowed to do that.
    Senator Nelson. Well, in the absence of my colleagues, 
perhaps I'll just continue.
    Last March, when we held subcommittee hearings, we were 
focused on the protective forces that guard the nuclear weapons 
and materials at DOE sites. Mr. D'Agostino, are you suggesting 
that you've been able to consolidate some of those sites, which 
now means that the actual cost of security for those has been 
reduced?
    Mr. D'Agostino. Yes, sir. The security costs have been 
reduced. We are also looking, very much so, at other 
opportunities to go forward even more. Dr. Miller and Dr. 
Anastasio are quite familiar with our joint effort to look at, 
instead of the Nation maintaining two separate plutonium 
capabilities to deal with large quantities of plutonium 
material, one at LLNL and one at LANL, we've decided to 
consolidate to one plutonium capability, and it's a national 
capability. It doesn't belong to LANL. It belongs to the 
Nation. But, both laboratories can work in one particular 
facility. That effort to reduce the amount of plutonium--we 
have a commitment to get this done by 2012--will allow us to 
change the size and the nature of the security forces at LLNL. 
Dr. Miller may be able to add to that, if he'd like.
    There are other things that we're doing in the security 
area. We're pushing towards common uniforms, for example, which 
get the security force together in a particular fashion to 
essentially show that this is a cohesive unit. Even though 
they're managed under different contracts, there are 
opportunities to drive some commonality there.
    We're using what I would call life extension activities for 
the security vehicles that we have in place. We're using 
technology to put in long-range detection capabilities and look 
out, further out, and rely less on humans, if you will, and 
guards--guns and gates--and put technology into the picture. 
We're introducing this in our training capability.
    All of these things have saved tens of millions of dollars 
a year. Brad Peterson, who runs that particular activity, 
working with the labs and our production plants, have been able 
to do that. That's why they've--we've been able to reduce it. I 
keep challenging Brad in this area. I do think that, as we get 
to fewer sites with large quantities of nuclear material, there 
are some further opportunities.
    But, we can't do it in a way that this whole purpose is 
just to drive costs down. I mean, in--or, to try to spend less 
money. We obviously want to make sure the security--as we're 
making these changes, we don't lose that kind of operational 
focus that we've had in the past.
    Senator Nelson. Now, the goal is, obviously, to create the 
best security at the most reasonable cost.
    Mr. D'Agostino. Yes, sir.
    Senator Nelson. So, I understand that. It's obvious that 
the primary goal here is to protect the materials and the 
weapons. So, we'll have to deal with that.
    In December, NNSA made a significant change in the way you 
manage the aviation program of the source of Office of Secure 
Transportation (OST). As part of this change, the DOE aviation 
program will have increased oversight responsibilities for the 
NNSA program, in lieu of the FAA. Is there a plan that's in 
place for DOE Aviation Office to oversee this NNSA program? Dr. 
Cook, would that be your area?
    Dr. Cook. Yes, it is my area, sir.
    If I could address some of the driving factors and where we 
are, I'd like to do that.
    The focus that we have in the aviation area is looking 
forward to the LEP work that we have to the material moves, 
whether they're special nuclear materials or not, and to the 
limited-life component exchanges that are required across the 
country. In order to focus on the efficiency and the 
effectiveness, we've taken a look across the board at the OST 
and have concluded--and we had a plan to replace our aging 
fleet of three DC-9s with 737s that would still be used 
airplanes, but would have perhaps only 10 years of life on 
them. We're part way through that effort. One of the DC-9s has 
been sold. Two 737s have now been acquired. In parallel with 
that, we're looking at the equipping contracts, the maintenance 
contracts, and the nature of the pilots. We also have taken the 
opportunity to sell aircraft that we no longer needed. We've 
sold a couple of Twin Otters and one other airplane, and are 
focusing now on those things that tend to be inherently Federal 
functions. Specifically, the aviation fleet for OST will be 
focused on moving the emergency response teams for radiological 
or nuclear threats effectively and as rapidly as we have in the 
past. As far as maintenance, given that we're going to have 
different aircraft, three 737s, rather than three DC-9s--we 
intend to competitively place the maintenance contract that is 
currently in place. Given the future need, we've taken a look 
at the nature of the pilots, although there are a small number 
of pilots, 15 or fewer, to operate around-the-clock and have 
the emergency response capability. We're looking at whether it 
makes sense to Federalize those pilots, or not.
    There are different standards that the FAA requires for 
different types of aircraft flights and different missions. We 
are working hand-in-hand with the FAA. We also work with the 
Office of Aviation Management within DOE, but outside NNSA, and 
I've given you the base for looking forward with this. The core 
objective here is to focus the activity that we have even more 
tightly on the mission, while we replace the aircraft, and then 
put in place the maintenance contracts for future years and for 
pilots to do that.
    Senator Nelson. Going back to the question about the 
security guards, has--have you addressed the--Mr. D'Agostino--
the need to deal with the retirement issue for the Guards? Are 
we having some sort of a program that--perhaps an accelerated 
401k program--some system of reduction of that guard force?
    Mr. D'Agostino. Yes, there was a report that had 29 
recommendations in it to address, frankly, a whole waterfront, 
if you will, of security guard issues that had cropped up over 
the previous 5 years. We've worked our way through 14 of those 
recommendations, I think smartly, dealing with making sure that 
there was a career path and a progression with those guards. In 
fact, we didn't do it just with ourselves. We made sure that we 
had security guard representation to identify these areas and 
work through these.
    We're now dealing with, if you will, the second half of 
those. We're undertaking a study right now. Some of them have 
to do with the question of whether there should be a 20-year 
retirement. What are the differences between a security force 
that's a static security force around a fixed location, versus 
a dynamic security force, such as the OST discussion we were 
just having earlier, that's moving about? How equivalent is 
that to the U.S. military, which has the 20-year retirement? 
These are the more difficult and more challenging questions, 
the ones that you've described, and we're looking at how to put 
that forward.
    But, I think what we have is a path forward, with the 
unions' representatives that are there, to kind of address 
these 29 recommendations systematically, and work our way 
through them. We haven't finished the job. Right now, we're in 
the process of comparing the different types of retirement 
systems.
    Senator Nelson. The retirement systems could be different, 
depending upon the requirements for the employment and what's 
required for employment. In other words, what kind of 
background, what kind of education requirement there might be 
as part of the job. So, I would think that would be a good 
thing to work on, because of the--it looks to me like you're 
going to be seeing a further reduction, at some point along the 
way, and having that taken care of upfront is almost always 
better than dealing with it after the fact.
    Mr. D'Agostino. Yes, Mr. Chairman. I think, with respect to 
the security guard force, what we've observed--because we do 
have a few different models across our enterprise, and we're 
looking to drive--taking the best approaches out of each of 
these models. One of the main concerns is, particularly for 
those particular guards that are in a very active, what we 
call, a fighting position, is, we want to make sure that if 
they end up getting hurt--the knee hurts; that they aren't now, 
all of a sudden, laid off. We've observed that there's some 
value to have the security guards be actually a part of the M&O 
contractor workforce. That way, if there's a difficulty in 
meeting the physical requirements to continue in this position, 
they can be retrained and stay and have a full career, if you 
will, and serving our country as an active worker in the M&O 
contract.
    We're very much in tune to that. The guard force, 
particularly, is concerned about making sure they're not in a 
position of, ``Well, if you get hurt, then, I'm sorry, you've 
lost your job.'' We definitely don't want that.
    Senator Nelson. Dr. Anastasio, I don't want you to think 
that your trip here was not worthwhile, not having asked very 
many questions.
    Dr. Anastasio. Every trip here is worthwhile, Senator.
    Senator Nelson. Is there anything that we haven't asked 
here that we should have asked or would be important for us to 
have asked, as you think about the budget issue, trying to cut, 
not slash, appropriate reductions, recognizing any cut has some 
implication? What we want to do is avoid the unfortunate 
implications, or the unfortunate consequences, of something 
that was not well thought through.
    Dr. Anastasio. Yes sir, I'd have a few comments along those 
lines. First, as far as efficiencies we've been talking about, 
of course, not only at the administration's level, at the 
Federal level, that the laboratories were working on that, too. 
As an example, last year, in fiscal year 2010, at LANL, we 
increased our purchasing by $209 million, and we did that with 
fewer staff. So, we were able to get a lot more work done, and 
actually were able to downsize the staff.
    The laboratories really made great strides in improving our 
efficiency. In the hearing we had last summer, I was worried 
about the pension system, and one of the ways we've been 
dealing with the pension system is to use some of the savings 
that we've accrued. That's available for us to put not back 
into science, unfortunately, but at least to cover the pension 
costs.
    You ask about what would happen with delay of major 
facilities. I had a few thoughts on the CMRR facility, what 
would happen with the delays there. Senator Shaheen talked 
about nonproliferation. Just a reminder that this facility, the 
CMRR facility, is where all the inspectors from the IAEA that 
go around the world that look at nuclear facilities, we bring 
them out to Los Alamos and train them. That's the facility that 
that's done in. So, again, it's a multi-use facility, a 
national capability, as Mr. D'Agostino said.
    With a delay, of course we'll have to continue to operate 
in our old facility, which right now is almost 60 years old. It 
happens to be literally on top of an earthquake fault--not the 
best place for a nuclear facility. We have a reminder of that 
with what's going on in Japan.
    By delaying it, also we put at risk when we'll be able to 
increase the capacity for pit production at the laboratory. The 
LEPs that we have planned are going to require some pits to be 
made even with the reuse of existing pits, we may run out of 
them. So, it's building more of the same pits that we already 
have in the stockpile. Of course, the CMRR facility will not 
build pits, but all the samples that are taken to qualify a new 
pit are used in the existing facility. We don't have the 
capacity or the efficiency to get that done in time. So, if we 
are delayed with CMRR, then that's going to delay the time 
we'll be available.
    Of course, the other thing we do is--the facility is 
separated from our pit production facility, and then we're 
shipping samples of plutonium around on the road. So by doing 
that, of course, that's a security risk. By bringing a new 
facility online, we'll reduce our security posture.
    Then the most important thing, perhaps, is--of course, any 
delay in a project ultimately costs you money. So, if we delay 
the start and the process of this facility, it means, in the 
end, the integrated costs--although in 1 year you might save 
money, over the life of the project, it's going to cost you 
money.
    So, I think those are some of the difficult challenges that 
Congress has to face. I think the simple version is, if you 
think of this in a project space, saving money this year may 
well cause you to spend more money in the long run.
    The other pieces we've harped on are--or, not harped on, 
but emphasized with you--is the people issue. Right now, our 
workforce sees pay freezes, sees increased contributions to 
pensions, increased costs of medical care, and now an uncertain 
budget. They've been very excited about the new commitment that 
the country has made. There's exciting consensus to work on. 
But, at the same time, these uncertainties make the younger 
ones start to wonder, is there a career here for them? We 
understand the challenges that the country faces, but if we can 
have a stable-looking budget out into the years, whatever level 
it's at, whatever the country can afford--and if it's too 
different than the one we've talked about, ultimately I think 
we have to go back to the policy and say, ``If the country 
can't afford this program, then perhaps we have to go rethink 
the policy and come up with a policy framework that the country 
can afford.'' I'm not sure I know what that is, but that's the 
sort of challenge that you face.
    Thank you, sir.
    Senator Nelson. Thank you.
    I'll ask the same question of everyone else. Is there 
something that we should have asked, or something you would 
like to add, after all the discussion so far?
    Dr. Hommert?
    Dr. Hommert. I have a few quick comments.
    Just to continue a theme that Dr. Anastasio highlighted 
about cost efficiencies and our sensitivity to that. At Sandia, 
in the last year, we took decisions in our pension and our 
medical benefits and in cost efficiencies that have reduced the 
cost of our labor base by approximately $1 billion over this 
decade. The positive news in that is that our workforce has 
gone through that. They remain dedicated. We did not see an 
uptick in losses due to that, in part, because of their 
excitement about the program that they see the national policy 
laying out in front of them. So, again, I echo that, if that 
changes, that could have a different impact.
    Then, the last thing I'll say is to return to, I think, 
really the question that Senator Sessions raised about, Well, 
what are our options if we cannot afford? I'll focus it on the 
B61 for a moment. It's important to understand that every day--
that the 61 is older than any other bomb system we've ever had. 
We're in unchartered territory. It--whatever budget the country 
can afford, our commitment is that we will work to minimize 
risks of sustaining that weapon and ensuring its safety, 
security, and reliability. But, there'll be limits to how much 
we can control that risk, either in schedule or in the scope of 
what we do. It will require a possible relook at policy. I hope 
that won't be the case. We will work diligently to extract 
every bit of efficiency for the funds you can authorize to 
execute that. But, it is a bit, again I'll emphasize, of 
uncharted territory for us on that weapon system.
    Thank you.
    Senator Nelson. Thank you. That is clearly something we 
have to keep in mind. The irony is inescapable, that a year ago 
we were making certain that the administration would ask for 
enough money. Now we're talking about--it's too much, because 
we can't afford it. It's an inescapable irony. I do understand 
it. I would imagine that employees and those who are committed 
to the project might think that Washington has a bit of a 
sleight of hand: now you see it, now you don't.
    Thank you all for your candid comments. We appreciate it.
    This hearing is now adjourned.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator E. Benjamin Nelson
                    safety of naval nuclear reactors
    1. Senator Nelson. Admiral Donald, the Nuclear Navy has had an 
exemplary safety record over its almost 60 years of operations. 
Nevertheless, the recent events in Japan, a country with as much 
expertise in nuclear power as anyone, have taught us that even 
redundant redundancies can fail. What actions are you taking to 
reassure yourself that appropriate emergency contingencies and plans 
are in place and that these contingencies would avert a tragedy?
    Admiral Donald. There are no immediate changes planned to how U.S. 
naval reactors used onboard submarines and aircraft carriers are 
operated as a result of the Fukushima nuclear power plant failures. 
However, as we have done in response to other major accidents, nuclear 
or otherwise, the U.S. Navy will assess and implement lessons learned 
from the event that can be applied to further strengthen the U.S. naval 
nuclear propulsion program. I have already initiated an assessment of 
the implications of the Fukushima reactor accident to the Naval Nuclear 
Propulsion Program.
    U.S. nuclear powered warships have safely operated for more than 50 
years without experiencing a single reactor accident or release of any 
radioactivity sufficient to harm human health or have an adverse effect 
on the environment. U.S. naval reactors have an outstanding record of 
over 146 million miles safely steamed on nuclear power, and they have 
amassed over 6,300 reactor-years of safe operation.
    Because of their military-unique missions, naval reactors are 
significantly different from commercial nuclear reactors. All nuclear 
powered warships are designed to survive wartime attack and allow the 
warships to continue to fight while protecting their crews against 
hazards. Survivability requires rugged designs, well-developed damage 
control capabilities, and redundant systems that also provide enhanced 
safety capability in the event of natural disasters.
    The earthquake and subsequent tsunami in Japan caused an extended 
loss of electrical power which resulted in the inability to properly 
cool the reactor cores at the Fukushima Daiichi site. Unlike the 
Fukushima nuclear power reactors, U.S. naval reactors have long-term 
decay heat removing capability that depends only on the physical 
arrangement of the reactor plant and on the nature of water itself 
(natural convection driven by density differences), not on electrical 
power, to cool the core. This is one example of the means available to 
nuclear-powered warships that assure, even in the unlikely event of 
multiple failures, naval reactors would not overheat and the fuel would 
not be damaged by heat produced in the reactor core.
    Further, there are multiple barriers that work to contain 
radioactivity on nuclear powered warships. Naval nuclear fuel contains 
fission products and prevents their release into the coolant loop 
during normal operations. Although commercial power reactors have 
similar barriers, barriers in nuclear powered warships are more robust, 
resilient, and conservatively designed. For example, U.S. naval nuclear 
fuel is solid metal, unlike the ceramic nuclear fuel used in commercial 
power reactors. U.S. naval nuclear fuel is designed for battle shock 
and can withstand combat shock loads 50 times the force of gravity 
without releasing fission products. This is greater than 10 times the 
earthquake shock loads used for designing U.S. commercial nuclear 
plants.
    Notwithstanding the enhanced capability of nuclear powered warships 
to survive natural disasters and continue to operate safely, other 
factors serve to mitigate the impacts of natural disasters on these 
ships. The fact that a moored nuclear powered warship sits in the water 
serves as a buffer against the ground forces felt during an earthquake; 
the earthquake forces on a moored nuclear powered warship, even those 
like the March 11 earthquake, would not be severe.
    Commercial nuclear power plants are designed to operate at high 
power levels for long periods to produce electricity. Because naval 
reactors are designed for warships, they are smaller and have a much 
lower power rating than commercial reactors. The rated power levels of 
the largest naval reactors are less than one-fifth of a large 
commercial reactor plant. Additionally, naval reactors typically 
operate at a fraction of their full power levels, since ships usually 
operate at speeds less than their maximum. Furthermore, because naval 
reactor power level is primarily set by propulsion needs when the ship 
is at sea, naval reactors are normally shutdown shortly after mooring 
and they are usually started up only shortly before departure. As a 
result of these facts, the amount of radioactivity potentially 
available for release from a reactor core of a U.S. nuclear powered 
warship moored in a port is typically less than about 1 percent of the 
levels for a typical commercial reactor. Naval cores also have 
significantly less heat buildup from fission product decay to be cooled 
when the reactors are shutdown. In addition, the reality that nuclear 
powered warships can be moved is a safety option that is not available 
to land-based nuclear facilities.
    U.S. nuclear powered warship crews are rigorously trained to 
respond immediately to any emergency in the ship. Naval operating 
practices and emergency procedures are also well-defined and rigorously 
enforced. The fact that the crew works in close proximity to the 
reactor ensures vigilant monitoring of even the smallest change in 
plant status. This is part of what we call ``Defense in Depth'' and is 
an element of our overall culture of maintaining high standards for 
design, manufacturing and operations--addressing small problems 
aggressively before they become larger ones. Because of the rugged 
design of the reactor plant, multiple safety systems, and fully trained 
and capable crew, the safety of U.S. nuclear powered warships is 
extremely high. In order for an accident that affects the operation of 
the ship or the crew to happen, the ship must simultaneously experience 
numerous unrealistic equipment and operator failures. Even though such 
an accident scenario is extremely unlikely, the U.S. nuclear powered 
warships and their support facilities are required to simulate such 
situations as they conduct meaningful training. In the extremely 
unlikely event of a problem involving the reactor of a U.S. nuclear 
powered warship, the U.S. Navy would initiate necessary actions to 
respond to the situation and could call on other U.S. national response 
assets if necessary.

                   nuclear safety at the laboratories
    2. Senator Nelson. Dr. Anastasio, Dr. Miller, and Dr. Hommert, what 
have each of you done to ensure that your emergency contingencies and 
plans are adequate, and that they will operate as designed to avert a 
nuclear incident at any of the nuclear facilities at your labs?
    Dr. Anastasio. Los Alamos is committed to maintaining the highest 
safety standards at all of its facilities. All Los Alamos National 
Laboratory (LANL) nuclear facilities are required to have an in-depth 
safety analysis in place that reviews postulated accident scenarios and 
puts in place appropriate controls to prevent and mitigate such 
situations. This includes very severe scenarios which can include a 
combination of events, such as a large seismic event coupled with a 
facility-wide fire which is the most severe event postulated for the 
plutonium facility at LANL. As a result of these analyses, LANL has 
initiated a series of safety improvement activities to address 
identified issues such as implementing: strict controls over 
combustible materials to reduce the chance of a fire; seismic cut-off 
switches for electrical power to non-safety systems to eliminate a 
seismically-induced electrical fire; repacking nuclear material into 
robust containers to survive appropriate impacts and fires; upgrading 
the fire suppression, air handling and filtration systems, and storage 
infrastructure, and minimizing the nuclear material that is being 
processed at any given time. Additionally, in 2007 LANL adopted an 
updated site-wide seismic hazard analysis standard which incorporates 
new geologic data. Since that time, LANL has been conducting detailed 
structural analyses of its nuclear facilities using this updated 
hazards to identify potential structural issues that would result from 
a large seismic event. LANL is now completing these analyses and has 
identified some additional areas that will be reinforced to improve 
performance.
    For the 3 active nuclear facilities (WETF, CMR, and PF-4) 11 drills 
and/or exercises were conducted last year. Each drill/exercise is 
evaluated and observations are documented to develop lessons learned to 
be shared with response, operations, facilities, and programmatic 
science staff. We also include first responders from the community to 
participate in these drills. All issues are tracked and corrected per 
the site corrective actions process.
    With regard to emergency response, each facility or facility 
complex at LANL has a written plan that evaluates the response in the 
event of an accident and describes the specific actions to be taken for 
each potential scenario. Last year LANL performed over 45 drills and 
exercises designed to test the responses to a variety of accident 
scenarios such as spills, fires (including Wildland fire), criticality 
accidents, severe personnel injuries, transportation accidents, and 
facility-specific events.
    Dr. Miller. Safe and secure operations are a top priority at 
Lawrence Livermore National Laboratory (LLNL). We have comprehensive 
programs to protect the health and safety of our workforce and rigorous 
policies governing conduct of operations to ensure the safe operation 
of our high explosives and nuclear facilities. These critical 
activities are funded by the National Nuclear Security Administration's 
(NNSA) Readiness in Technical Base and Facilities (RTBF) program. 
Finally, we constantly review ourselves to keep up with best practices 
and welcome the oversight provided by the NNSA in this area.
    Nuclear safety at the Laboratory is vigorously pursued and 
continually reviewed against a wide variety of accident scenarios to 
ensure we take a very conservative approach to protecting the 
environment, our workers, and the public. Routine nuclear safety 
operations include:

        <bullet> Frequent review of operations protocols. LLNL's 
        continuity of operations program was reviewed and updated in 
        2010 to consider catastrophic events.
        <bullet> Current safety documents analyze operational hazards, 
        hazards from external events, and natural phenomena hazards to 
        determine which safety systems would be required to stay 
        operational during such events. Comprehensive maintenance and 
        testing programs ensure continuous operability. Consistent with 
        Federal regulations, safety documentation is continuously 
        reviewed by LLNL and U.S. Government oversight organizations to 
        ensure that, as changes are made or new information received, 
        hazards are evaluated and appropriate reliable controls are 
        maintained to avert nuclear incidents.
        <bullet> Critical safety systems (e.g., those safety systems 
        relied upon to protect the general public) are intentionally 
        redundant by design for selected active components, and fail-
        safe modes are designed with seismic and other credible natural 
        phenomena hazards in mind. These systems are examined 
        frequently to ensure their functionality and operability.

    Dr. Hommert. Sandia National Laboratories has two nuclear research 
reactor facilities: The Annular Core Research Reactor (ACRR) and the 
Sandia Pulsed Reactor Facility/Critical Experiments (SPRF/CX). The ACRR 
is an open-pool research reactor, similar to those used at universities 
with capability for Pulse and Steady-State Operation. It is used to 
support Sandia National Laboratories' Nuclear Weapons Strategic 
Management Unit stockpile stewardship activities and external 
customers. SPRF/CX is a laboratory scale research reactor used to 
explore the physics of commercial nuclear reactors.
    The nuclear facilities were examined pursuant to Department of 
Energy (DOE) Safety Bulletin 2011-01, ``Events Beyond Design Safety 
Basis Analysis'' issued by Secretary Chu on March 23, 2011. The review 
showed that the time-integrated fission power associated with ACRR and 
SPR-CX is sufficiently low to preclude the need for electrical power 
for post-emergency core cooling or any other safety system action. The 
review also found that radionuclide inventories at the facilities are 
so low that safety class systems are not required. Public and worker 
consequences for the full spectrum of accidents have been extensively 
analyzed in previously approved safety documents. Emergency response 
plans were also reviewed. Sandia is participating in the DOE-wide 
lessons-learned process to identify specific and systemic safety gaps 
and mitigate any gaps discovered. To date, Sandia has not identified 
any significant gaps in hazard protections or emergency response that 
would require immediate actions to ensure the safety of the public, 
workers or the environment. Nevertheless, Sandia continues to emphasize 
worker and public safety and continuously improve our emergency 
preparedness procedures. We are working to guard against complacency.

                       health of the laboratories
    3. Senator Nelson. Dr. Anastasio, Dr. Miller, and Dr. Hommert, as I 
mentioned in my opening statement, there was a lot of discussion on the 
amount of weapons funding for the labs during the New START treaty 
debate. What was not discussed much is the breadth of the work that the 
labs carry out, beyond weapons work, and how this non-weapons work is a 
key element in maintaining world-class science and engineering. Could 
each of you describe the percentage of your lab's annual budget that is 
nuclear weapons activities, and describe the work that comprises the 
balance of the budget and why this work is important?
    Dr. Anastasio. LANL's core mission is to ensure the continued 
safety, security, and effectiveness of the Nation's nuclear deterrent. 
Los Alamos is more broadly a national security science laboratory. 
Engaging in this broader work is vital to the long-term health of the 
Laboratory and to our ability to address future national security 
missions. In fiscal year 2011, 56 percent of our operating budget is 
NNSA weapons program activities, 7 percent is associated Safeguards and 
Security, 9 percent is NNSA nonproliferation funding, 8 percent of our 
budget is from DOE environmental management (for cleanup activities), 7 
percent is from DOE science and energy programs, and 13 percent is work 
for other agencies, the majority of which are other Federal national 
security agencies (Department of Homeland Security (DHS), Department of 
Defense (DOD), and the Intelligence Community).
    Much of the non-weapons work is still associated with nuclear 
security and leverages directly on expertise developed to sustain the 
Nation's deterrent. Essentially all of the non-weapons activity is at 
Los Alamos because of sponsor selection, i.e. whether Los Alamos is the 
sole provider or part of a team with other labs, a sponsor made the 
decision to fund this activity rather than others. Those activities 
make important, often critical contributions to national interests.
    While the core nuclear weapons program provides a majority of the 
capabilities (both scientific and personnel), these broader scientific 
security missions allow LANL to sustain and develop the science, 
technology, and engineering that enable us to respond to unplanned 
technical challenges both now and into the future. As an example, last 
year our staff experienced in radiography was able to immediately 
deploy to the Gulf of Mexico to quickly develop a new capability to x-
ray the Deep Water Horizon blow out preventer. At more than a mile 
beneath the ocean surface, we provided imagery using a sealed source to 
help national decisionmakers better understand what was occurring 
inside that device.
    In addition, engagement with this broad range of different 
challenges helps extend key science, technology, and engineering at Los 
Alamos that is essential to our long-term core mission. Competitive 
selection and awards also help demonstrate to allies and potential 
adversaries that our technical capabilities remain world-class. 
Finally, the open science at Los Alamos supports a strong student and 
postdoctoral research program that is essential for our pipeline of the 
Nation's top science and engineering talent. Last year, Los Alamos 
hosted over 1,300 summer students, as one example.
    Dr. Miller. The NNSA laboratories have exceptional staff covering a 
broad range of scientific, technical and engineering capabilities-as 
well as unique, world-class facilities, which are leveraged to develop 
innovative solutions to major 21st century challenges in 
nonproliferation, intelligence, defense, homeland security and 
counterterrorism, and energy technology and climate science.
Nonproliferation
    With globalization and worldwide interest in expanding nuclear 
power, proliferation challenges are evolving and covering a wider 
geographic area. LLNL has made important contributions to NNSA's 
mission in monitoring for signatures of proliferation activity, 
addressing problems posed by legacy materials and capabilities in the 
Former Soviet Union (FSU), providing technologies and experts to 
enhance nuclear safeguards through the International Atomic Energy 
Agency, and engaging with the international community to promote U.S. 
Government nonproliferation goals and objectives. Nonproliferation 
activities have broadened to address new regional challenges beyond the 
FSU through international cooperation and engagement and through 
enhanced monitoring and detection technologies. This work provides the 
technical basis for expanding the benefits of nuclear power without 
expanding the nuclear threat.
    An example of LLNL contributions to nuclear signatures detection is 
nuclear explosion monitoring. For more than a decade, LLNL 
seismologists have used available seismic data to develop empirical 
corrections to seismic event processing algorithms to adjust for 
specific source and monitoring station location. Today, with high-
performance supercomputers, seismologists can capture three-dimensional 
earth structure to calculate these corrections with physics-based 
models for any source-receiver pair. This will enable more precise 
detection, location, and identification of explosions, potentially 
anywhere on the globe, and even at the low energy releases that might 
occur from a weapon development test. Development of new monitoring 
methods with three-dimensional earth models can proceed using current 
supercomputer capability, however, exacale computing is required to 
make these new techniques operational. Exascale computing will not only 
improve our country's ability to monitor nuclear explosions but will 
also allow researchers to better define seismically active faults where 
small earthquakes may occur.
Intelligence
    The NNSA laboratories have a long and distinguished history of 
support to the Intelligence Community. The LLNL intelligence program is 
strongly focused on the activities of nuclear-capable states, 
unsafeguarded and clandestine programs and terrorist groups, cyber 
threats and countermeasures, and biological and chemical weapon 
development and deployment efforts. LLNL's intelligence support relies 
on our diverse, multidisciplinary professional staff, drawing in 
experts from across the Laboratory. For example, several insights and 
advances in the cyber security program have been informed by experience 
gained through LLNL's high-performance computing efforts. The 
contributions of the NNSA laboratories cut across the entire spectrum 
of the U.S. Government's efforts in prevention, deterrent, defense, 
consequence management, and related areas where detailed technical 
knowledge provides decision advantage.
    The Counterproliferation Analysis and Planning System (CAPS) is an 
example of decision support that LLNL has provided military planners 
for actual and potential operations against over 37,000 facilities that 
support or could support the production of weapons of mass destruction 
(WMD). CAPS is used by over 1,500 planners and operators on a daily 
basis. Chosen in 1998 by then Secretary of Defense Cohen to be the 
preferred planning tool for use by U.S. Armed Forces to combat WMD, 
CAPS has played a significant role in supporting operations during the 
Kosovo conflict, Operation Enduring Freedom, and Operation Iraqi 
Freedom. CAPS engineers provide in-depth assessments of WMD facilities 
to include isolating critical nodes, assessing the potential for 
collateral damage from interdiction attempts, and quantifying those 
signatures that can reflect real-time operations under way at selected 
sites. The engineering staff at CAPS also provides a daily technical 
reach-back capability that responds to hundreds of requests for 
assistance from troops presently engaged in combat.
Defense
    For more than 6 decades, our military has benefitted from the depth 
and breadth of integrated, systems-level solutions developed at the 
NNSA laboratories. Beyond stewardship of the Nation's nuclear 
stockpile, the three NNSA laboratories provide high value to DOD in 
munitions, explosives science and engineering, and conventional weapons 
design; directed energy systems; cyber and network sciences; 
intelligence, surveillance, and reconnaissance; operational warfighter 
support; countering the nuclear threat; nuclear weapons effects 
predictions and analysis; countering the chemical and biological 
threat; and space systems. Two examples of defense missions where LLNL 
is currently engaged are:

         Third Generation Conventional Munitions: The Laboratory was 
        tasked by DOD to develop a next generation conventional 
        munition with a more precise lethal radius, thus significantly 
        mitigating collateral effects concerns in close air support or 
        peacekeeping operations. We successfully combined and applied 
        our high explosives expertise with our unique understanding of 
        case materials and our High Performance Computing (HPC) 
        capability to model and simulate the new munition, resulting in 
        a significantly reduced concept to product timeline (10 months 
        from concept to qualifications testing), providing the 
        warfighter with a focused lethality weapon.
         The Diode Pumped Alkali Laser (DPAL): Sponsored by DOD, DPAL 
        is a leap-ahead technology that will provide a laser that is up 
        to 500 times more lethal per kilogram than any other currently 
        demonstrated or contemplated laser weapon, thus enabling the 
        deployment of high energy laser capabilities on a broad array 
        of platforms. These advances take advantage of LLNL's rich 
        history of laser science and technology development.

Homeland security and counterterrorism
    The NNSA laboratories' role in homeland security and 
counterterrorism began nearly 30 years ago with the formation of the 
Nuclear Emergency Search Teams (NEST) and related nuclear threat 
assessment activities. Today, LLNL's efforts cover a wide range of 
programs and sponsors, from threat and risk assessments, to detection 
of threat materials, to understanding and mitigating the consequences 
of attacks, to forensic analysis, to aiding in the attribution of 
responsibility for WMD attacks. Our work encompasses chemical, 
biological, radiological, nuclear, and high-explosive threats. Today's 
programs take advantage of significant historical investments by the 
NNSA in key infrastructure and most importantly in our 
multidisciplinary technical staff. Together these capabilities provide 
a major component of the Nation's defenses against the catastrophic 
threat posed by the malicious use of weapons of mass destruction.
    An example of LLNL support for homeland security and disaster 
response is the National Atmospheric Release Advisory Center (NARAC). 
NARAC has been on call since the Three Mile Island incident of 1979. 
NARAC can deliver an initial prediction to Federal, state, and local 
responders of the fate and atmospheric transport of hazardous materials 
for almost any kind of release in 5 to 15 minutes; it responds to 
roughly 25 events in a typical year (and simulates, for the purpose of 
exercises, 10,000 more). Right now, NARAC is applying LLNL's computing 
capabilities in support the U.S. response to recent events in Japan. As 
the hub of the Department of Homeland Security's Interagency Modeling 
and Atmospheric Assessment Center (IMAAC), NARAC also provided plume 
predictions of the fire on the Deepwater Horizon oil platform and 
forecast the particulates that might be released from surface-oil 
burns. NARAC and IMAAC are unique capabilities to the Nation that take 
advantage of LLNL's expertise, and exceptional computational and 
modeling capabilities.
Energy technology and climate science
    The NNSA laboratories develop and deploy science, technology, and 
operational protocols to increase utilization of our Nation's large and 
secure Reserves of conventional and unconventional fossil fuels while 
safely reducing carbon dioxide emissions through innovations in carbon 
capture and long-term geologic sequestration. In addition, the NNSA 
labs have made seminal contributions to climate science, including 
participation in the Intergovernmental Panel on Climate Change. At 
LLNL, scientists are working on programs to expand the use of renewable 
energy through innovative technology, improved efficiency, new 
resources, systems integration, and reduced costs; deliver climate 
simulations at the regional scale to understand the critical processes 
that drive climate change; develop advanced nuclear fuels and reactor 
systems that are proliferation-resistant and provide for expanded safe, 
secure, carbon-free, cost-competitive nuclear power; and provide 
science and advanced technology needed to effectively store nuclear 
waste for long times or eliminate the nuclear waste altogether. 
Specific examples of LLNL efforts in energy and climate are:

         Energy, Water, and Carbon Dioxide Flow Diagrams LLNL 
        specialists produced the first diagrams illustrating U.S. 
        energy use. Portraying U.S. energy resources and their ultimate 
        use, these diagrams, called energy flow charts, help 
        scientists, analysts, and other decisionmakers to visualize the 
        complex interrelationships involved in powering the Nation. 
        Today, flow diagram concept has been extended to cover water 
        use and carbon dioxide emissions, in reports that separately 
        cover the 50 states and 136 countries.
         The Program for Climate Model Diagnosis and Intercomparison 
        (PCMDI): Established in 1989, LLNL's DOE-sponsored PCMDI is an 
        internationally recognized research group that focuses on 
        understanding climate change and analyzing and diagnosing the 
        performance of climate models. The climate research community 
        relies on PCMDI to help organize and manage internationally-
        coordinated modeling studies. Through a PCMDI-led federated 
        alliance of major data centers, output from the world's climate 
        models is made freely accessible to thousands of researchers 
        who evaluate the models and analyze their projections of future 
        climate change. This widespread scrutiny of climate models is 
        accelerating advancement of climate science and provides a 
        multi-model perspective that has been a basis for reaching 
        robust conclusions in major assessments of climate science 
        (e.g., the reports of the Intergovernmental Panel on Climate 
        Change).

                             FUNDING SUMMARY
------------------------------------------------------------------------
                                                            Fiscal Year
                                            Fiscal Year    2011  Percent
                                           2010  Percent       Funds
                                             Funds In       Anticipated
------------------------------------------------------------------------
Nuclear Weapons.........................              64              66
Nonproliferation........................               6               6
Defense and Intelligence................              14              13
Homeland and Counter Terrorism..........               7               7
Energy Technology and Climate Science...               4               4
Other Basic Science.....................               5               4
                                         -------------------------------
                                                     100             100
------------------------------------------------------------------------

    Dr. Hommert. Nuclear Weapons activities are Sandia's core mission, 
and in fiscal year 2011, comprise 47 percent of our total budget. We 
have other important missions that address a broad spectrum of U.S. 
national security needs. These other mission areas include Defense 
Systems and Assessments (30 percent); Energy, Climate and 
Infrastructure Security (12 percent); and, International, Homeland and 
Nuclear Security (11 percent).
    Our work in these other mission areas has direct national security 
impact for our customers, and is conducted in a way that is mutually 
reinforcing of the capabilities and competencies required for our core 
nuclear weapons mission. Often a unique Sandia capability is leveraged 
to address common or similar interagency needs. For example, in fiscal 
year 2011 the $44 million investment by the nuclear weapons program in 
our microelectronics/microsystems capabilities enables $119 million in 
project work for a number of national security agencies.

    4. Senator Nelson. Dr. Anastasio, Dr. Miller, and Dr. Hommert, if 
as set forth in the Continuing Resolution (CR), the funding for the 
nonproliferation programs of the NNSA is at or slightly above the 
fiscal year 2010 levels, does this also impact the health of the labs?
    Dr. Anastasio. NNSA's office of defense nuclear nonproliferation 
performs critical science for national security, drawing upon the 
entire national R&D enterprise. These programs solve problems 
associated with very real threats against the Nation. The capabilities 
and expertise that support these programs require substantial long-term 
investment. NNSA's nuclear nonproliferation budget has increased from 
$2.13 billion in fiscal year 2010 to an estimated $2.27 billion in 
fiscal year 2011, after rescissions. The administration's fiscal year 
2012 request of $2.54 billion demonstrates a commitment to harness the 
power of technology to address real challenges in nonproliferation 
research and development. Technological advances such as next 
generation nuclear detection capabilities and methods to detect foreign 
nuclear materials and weapons production facilities and processes are 
among the advances gained by investment in this area. We are working 
within the bounds of the current appropriation, but budgetary cuts 
would severely limit science and technology momentum against constantly 
evolving terrorist threats.
    Dr. Miller. As the question points out, the NNSA's Defense Nuclear 
Nonproliferation total budget under the Continuing Resolution for the 
rest of fiscal year 2011 is slightly above the fiscal year 2010 
appropriation. Because of uncertainties in some large budget items at 
other NNSA sites (the Satellite Program and the National Center for 
Nuclear Security), the Nonproliferation R&D budgets for activities at 
LLNL and other laboratories currently are significantly less than their 
fiscal year 2010 levels. Assuming the successful resolution of those 
uncertainties we expect to receive approximately the same amount of 
funding in our nonproliferation programs as last year, but we will 
likely receive it late in the year. We are planning now to make sure 
that these late-arriving funds are obligated against our programmed 
deliverables.
    Dr. Hommert. The funding for nonproliferation programs under the CR 
does not currently impact the health of Sandia. However, if funding is 
sustained at these levels in the out years, or if the amount of funding 
that Sandia receives from NNSA is decreased from current levels, an 
erosion of capability will occur at Sandia, both in the quality of 
staff and, more significantly, their experience. This will negatively 
impact the Nation's ability to obtain critical technical support for 
addressing current treaty obligations and objectives as well as for 
accomplishing key policy objectives in future negotiations.

    5. Senator Nelson. Dr. Anastasio, Dr. Miller, and Dr. Hommert, is 
the same true for reductions in science funding for DOE as well as 
reductions at DHS?
    Dr. Anastasio. DOE is the largest funder of physical science in the 
United States, and support at Los Alamos in science is essential to the 
health of our open, peer-reviewed science and key experimental user 
facilities. DHS is also an important sponsor at Los Alamos. This 
funding allows Los Alamos to develop prototype technologies that 
leverage our innovations to protect the public from threats to the 
homeland. These non-weapons programs serve to both attract top 
scientists to the laboratory and build up fundamental scientific 
capability that can be further leveraged and applied to LANL's core 
weapons program work. Depending on the level of cuts in these programs, 
the impact on the Laboratory and the Nation could be significant. We 
recognize that funding for these and other agencies is constrained and 
in each case we work with the sponsoring programs to offer those 
agencies excellent technical options to address their mission 
priorities within the available budget.
    Dr. Miller. Impact on projects funded from the DOE Office of 
Science (SC) is not known for certain at this time. However, the 
reductions to the SC budget appear to be small. Specific impacts will 
depend on how the available budget is allocated throughout the DOE 
laboratory complex.
    SC program provides funding for the following LLNL R&D activities:

        <bullet> Fusion Energy Sciences - research in experiments, 
        theory, and modeling in magnetic fusion energy science; high 
        energy density laboratory plasmas; and fusion technology and 
        materials.
        <bullet> Advanced Scientific Computing Research - development 
        of advanced numerical methods for solving complex physics 
        applications on high performance computers, basic research on 
        the tools and methods necessary to allow scientists to 
        effectively use the current and next generation of high 
        performance computers, and technologies that increase our 
        insight and understanding into massive scientific data sets. 
        This research is particularly synergistic with LLNL NNSA 
        missions and long-term strategic objectives; particularly as 
        they pertain to the development and use of simulation and 
        exascale computing environments.
        <bullet> Biological and Environmental Research - includes 
        analysis of different climate models; the Program for Climate 
        Model Diagnosis and Intercomparison, which is an 
        internationally recognized research group at LLNL that focuses 
        on understanding climate change, developing assessment methods 
        and maintaining large data bases widely shared by the climate 
        modeling community, and analyzing and diagnosing the 
        performance of climate models; research on cloud and aerosol 
        physics and atmospheric chemistry; microbial systems biology 
        relevant to both biofuel development terrestrial carbon 
        sequestration; the biogeochemistry of the subsurface reactive 
        transport of plutonium; and the development of an artificial 
        retina. These programs lie at the scientific core of the LLNL's 
        mission to advance the energy and environmental security of the 
        Nation.
        <bullet> Basic Energy Sciences - fundamental investigations in 
        the fields of materials science, chemical sciences, 
        geosciences, and biomaterials. This includes research efforts 
        in the areas of materials science at ultrafast timescales, 
        actinide science, radiation-resistant materials for advanced 
        energy applications, nanoscale materials science, and materials 
        characterization for geosciences. This work is aligned with the 
        Laboratory's long-term strategic objectives in support of 
        national and energy security mission needs.
        <bullet> High Energy Physics - includes fundamental research in 
        advanced detector development, dark matter searches, the 
        properties of neutrinos and the search for the Higgs and 
        supersymmetry, as well as theoretical investigations of physics 
        beyond the standard model. The scientists engaged in this 
        research apply their skills and expertise across the span of 
        programmatic work at LLNL which include nonproliferation, 
        stockpile stewardship, homeland security, the National Ignition 
        Facility (NIF) and the HPC facilities.
        <bullet> Nuclear Physics - fundamental research in a broad 
        range of topics including theoretical work spanning the range 
        from quantum chromodynamics, to ab initio nuclear structure and 
        reaction theory, to fissioning heavy nuclear systems. 
        Experimental efforts include neutrinoless double-beta-decay 
        searches, the elucidation of nuclear structure off of 
        stability, and the study of relativistic heavy ion collisions 
        at both the Relativistic Heavy Ion Collider and the Large 
        Hadron Collider. These programs complement the national 
        security work; the same scientists support homeland security 
        activities in attribution, stockpile stewardship and the NIF.
Department of Homeland Security
    Details on the budgetary impact to LLNL's fiscal year 2011 funding 
from the DHS are still unknown at this time. Current funding to LLNL 
from DHS S&T is about $48 million, and DHS S&T's budget for research 
and development has been reduced by about 20 percent from fiscal year 
2010. While DHS S&T has yet to make key decisions on their R&D 
priorities for fiscal year 2011, LLNL expects some changes in 
priorities from their original plan that might result in reductions to 
LLNL's R&D program.
    LLNL has ongoing scientific and engineering projects in several 
important areas including explosives/aviation security, bio detection 
and bio forensics, bio threat awareness, chemical agent science and 
chemical forensics, response and recovery, and transit infrastructure 
protection.
    Examples of LLNL DHS funded research include:

        <bullet> Explosives/Aviation Security: LLNL's scientists and 
        engineers support a broad range of research and development 
        programs in explosives and aviation security including: 
        understanding the properties of homemade explosives, developing 
        detection technologies for aviation security applications 
        including both passenger check point and checked baggage 
        screening, testing of screening technologies in support of 
        TSA's technology acquisition programs, and modeling and 
        simulation of aircraft vulnerabilities to a broad range of 
        homemade explosive threats. These R&D programs are critical to 
        the development and deployment of effective aviation security 
        technologies at our Nation's airports.
        <bullet> Biodetection and Bioforensics: LLNL's biosecurity 
        research and development programs include: development of 
        biodetection signatures to detect virulence genes in multiple 
        biological pathogens, development of underlying technologies to 
        support Gen-3 biowatch, development of integrated bioforensics 
        database to support bioforensics analysis, and operation of the 
        DHS BioKnowledge Center, which is focused on providing a deep 
        understanding of the risks and countermeasures associated with 
        current and future bio threats.
        <bullet> Chemical Agent Science and Chemical Forensics: LLNL's 
        chemical security programs include: development of 
        comprehensive understanding of the fundamental mechanisms of 
        chemical agents including novel threat agents and development 
        of an integrated experimental and high-performance computing-
        based modeling capability to predict the effects and 
        degradation of chemical agents. These R&D programs are critical 
        to mitigating the impact of future chemical weapons-related 
        terrorist events.
        <bullet> Weapons of Mass Destruction (WMD) Restoration 
        Projects: LLNL brings unique technical capabilities and 
        operational experience to multiple WMD restoration projects. 
        These programs support critical partnerships with multiple 
        Federal, state and local agencies as they work to improve our 
        Nation's resiliency and facilitate the recovery from a WMD 
        attack.

    DHS, DOE and NNSA have made significant investments in LLNL's 
infrastructure dedicated to Homeland Security S&T challenges. Unique 
facilities for explosives research, development, test and evaluation 
are in place at LLNL to ensure the development and assessment of the 
effectiveness of the current and next-generation of explosives 
screening technologies designed to counter the emergent threat of home-
made explosives (HMEs). This infrastructure is critical to supporting 
TSA's acquisition of screening technologies for aviation security. In 
addition, LLNL operates the only select-agent research facility at the 
BSL-3 level at the DOE national laboratories. This capability is 
fundamental to our understanding of human pathogens and enables 
research and development in their detection, characterization and post-
event remediation. LLNL also has the safe and secure infrastructure 
needed to synthesize and characterize small quantities of chemical 
weapons including novel threat agents. This secure research and 
development environment is critical in developing a predictive 
capability for mitigating the impacts of novel chemical weapons agents.
    Dr. Hommert. Based on the final fiscal year 2011 budget that was 
passed by Congress and signed by President Obama, Sandia's budget for 
Office of Science activities is expected to be $55 million, a reduction 
of $6 million or roughly 10 percent from the fiscal year 2010 level. 
This will reduce our ability to pursue research in areas of Basic 
Energy Sciences, Advanced Scientific Computing Research, and Fusion 
Energy Sciences. Our research in these areas creates the ideas and 
future innovations for advanced energy technologies and national 
security applications, and supports the overall health of the 
laboratories. While we realize that the Nation is in a difficult 
budgetary period, a reduction in our science budget makes it difficult 
to attract and retain the best and the brightest of the Nation's 
scientists and engineers, and this puts at risk our support of critical 
national security needs.
    The fiscal year 2011 budget of $688 million for the DHS Science and 
Technology (S&T) Directorate reflects a reduction of 20 percent 
relative to the fiscal year 2010 level of $863 million. Because DHS S&T 
has not yet fully distributed these cuts across existing or planned 
programs, specific impacts are not yet known. Our current assumption is 
that Sandia will receive a proportional negative budget impact of 
approximately $5 million.
    Looking forward, the new fiscal year 2012 House spending bill 
approved by the House Appropriations Homeland Security Subcommittee on 
May 13, 2011, includes an additional 40 percent cut to DHS S&T. While 
these cuts are not at a scale to impact the overall health of Sandia, 
they will have enormous negative implications on the ability of the 
United States to reap the operational benefits of innovative new 
technologies in the homeland security arena.

        uranium processing facility and the plutonium laboratory
    6. Senator Nelson. Mr. D'Agostino, the Uranium Processing Facility 
(UPF) in Tennessee, and the new plutonium facility, the Chemical and 
Metallurgical Research Replacement (CMRR) facility at the LANL, are 
technically complex, new, multi-billion facilities. These are also the 
last two large, new facilities slated for the weapons complex, 
completing a plan put in place almost 20 years ago to modernize major 
production and research facilities. In November of last year, the 
Government Accountability Office (GAO) issued a report on the UPF, 
which made several recommendations specific to the UPF, but was also 
applicable generally to NNSA management of large construction projects. 
One of the issues raised by GAO was the maturity of new technologies. 
GAO's view is that prototypes of new technology should be successfully 
demonstrated in an operating environment prior to the start of 
construction. This level of maturity is a Technical Readiness Level 7 
(TRL-7) on a scale of 1 to 10. This scale is widely used by DOD. Will 
the new technologies at the UPF and the CMRR be at a TRL-7 as 
recommended by GAO at the start of construction of UPF and CMRR? If 
not, why not?
    Mr. D'Agostino. NNSA continually monitors and evaluates technology 
readiness levels for new processes in UPF in alignment with best 
practices as identified in the GAO review. The UPF project is being 
planned and executed in accordance with the recently updated DOE Order 
413.3B, Program and Project Management for the Acquisition of Capital 
Assets, which requires significant critical technology element 
modification subsequent to CD-2. NNSA is encouraging achievement of a 
TRL-7 prior to CD-3 as a recognized best practice. However, in 
instances where a lower readiness level of development is acceptable, 
because of our robust understanding of the technology, we will 
recognize the risks of proceeding with demonstrating the technology at 
the next lower level and ensure appropriate contingencies are 
identified.
    DOE agrees that achieving TRL-7--demonstration of a prototype in an 
operational environment--is a level of technological maturity that 
constitutes low risk for starting a product development program but has 
determined that Technical Readiness Assessments coupled with Technology 
Maturity Plans are also an acceptable way to manage and mitigate 
technology risk when there are very low quantities of each type of 
technology. In contrast to DOD's air, sea and sub-surface weapons 
platforms, where large production quantities of new critical 
technologies must operate in mobile, extreme and very dynamic 
environments, UPF technologies exist only in UPF, are stationary and 
will operate in a stable, known environment. Further, demonstration 
with actual Special Nuclear Material in an operational environment 
would require construction of essentially the final system. For these 
reasons, a lower technology level (TRL-6, demonstration of prototype 
with simulate material in an operational environment) is acceptable in 
this instance, given the cost/benefit associated with further 
development of each individual new technology. Appropriate rationale 
and contingency will be incorporated into the baseline where a project 
technology is short of TRL-7.

    7. Senator Nelson. Mr. D'Agostino, you have committed to having the 
design for the UPF and the CMRR 90 percent complete before the 
construction project baseline for cost and schedule is established. 
Under the DOE construction management order, construction projects must 
receive senior level approval at certain critical decision (CD) 
milestones. These milestones are CD-0, CD-1, etc. CD-2 is the milestone 
where the cost and schedule baseline is established. CD-3 is the start 
of construction. At which milestone will the cost and schedule 
baselines be set for UPF and CMRR?
    Mr. D'Agostino. The cost and schedule baselines for UPF and CMRR 
will be set at the CD-2 milestone. NNSA has committed to having UPF and 
CMRR projects at a minimum 90 percent design completion prior to 
seeking CD-2. NNSA will have greater confidence and less risk of 
exceeding performance baselines with this advanced level of maturity in 
design at CD-2. Both projects are currently planning to request CD-2 
approval for the full project scope in fiscal year 2013.

    8. Senator Nelson. Mr. D'Agostino, will NNSA do an Independent Cost 
Estimate (ICE) for each project before CD-2?
    Mr. D'Agostino. Yes. In accordance with DOE 413.3B, an External 
Independent Review (EIR) is required as part of CD-2 approval. For 
projects such as UPF and CMRR that are greater than $100 million, an 
ICE is a required component of the EIR and must validate the proposed 
total project costs. The EIR, conducted by the Office of Engineering 
and Construction Management (within DOE, but accountable to the 
Secretary and completely independent of the NNSA), must validate the 
proposed scope, cost and schedule baselines as a condition of CD-2 
approval.

    9. Senator Nelson. Mr. D'Agostino, in the National Defense 
Authorization Act (NDAA) for Fiscal Year 2011, there is a provision, 
section 3114, which requires NNSA to report to Congress when the 
baseline is established for a major project. From that baseline, 
Congress and the NNSA will measure progress. Will CD-2 serve as the 
baseline for purposes of section 3114?
    Mr. D'Agostino. Yes, the baseline will be approved at CD-2 for the 
purposes of Section 3114 of the NDAA. CD-2 is the milestone where 
project scope, cost and schedule baselines are established and approved 
by the Acquisition Executive.

    10. Senator Nelson. Mr. D'Agostino, GAO also recommended that once 
the baseline cost and schedule is established, the NNSA Administrator 
must ensure that the baseline is ``consistent with NNSA's future years 
budget and spending plan prior to approval of . . . critical decision 
2.'' Will GAO's recommendation be followed for the UPF, CMRR, and the 
new Naval Reactors Expended Core Facility (ECF)?
    Mr. D'Agostino. NNSA will establish budget requests and spending 
plans for UPF, CMRR, and the new Naval Reactors ECF to support the 
projects' cost, scope, and schedule as part of baseline approval at 
Critical Decision-2. NNSA is seeking as much certainty as possible in 
securing a budget profile and spend plan once the projects have been 
baselined, and will emphasize the importance of maintaining these 
budgets and spend plans until project completion. In the case of UPF 
and CMRR, NNSA's current project execution plan aligns with the 10 year 
budget profiles outlined in the Section 1251 Report of the NDAA for 
Fiscal Year 2011.

    11. Senator Nelson. Mr. D'Agostino and Dr. Anastasio, is there 
anything specific in the design of the UPF or the CMRR facilities that 
you are reviewing in light of the events in Japan?
    Mr. D'Agostino. Yes. UPF and CMRR are being designed in accordance 
with modern seismic design standards for nuclear facilities. 
Nevertheless, NNSA has retained independent seismic experts to study 
these projects for risks similar to the Japan event.
    Dr. Anastasio. The CMRR Nuclear Facility design is based on a very 
significant seismic event determined using geological analysis. The 
design was based on the most recent seismic hazard analyses (2007 and 
2009 revision). This includes very severe scenarios which include a 
combination of events, such as a large seismic event coupled with 
laboratory fires, the most severe event postulated for a facility of 
this type. In line with recent guidance from the Secretary of Energy, 
LANL is conducting a thorough evaluation of the seismic hazards coupled 
with other accident scenarios as factors in the CMRR facility design. 
As the design for the facility continues to mature the results of 
accident evaluations will continue to be incorporated as engineering 
inputs to structural, facility systems and equipment design criteria.

            replacement of the idaho expended core facility
    12. Senator Nelson. Mr. D'Agostino and Admiral Donald, last year 
the Office of Naval Reactors (NR) requested $40.6 million for 
conceptual design for the replacement building for the new ECF in 
Idaho. This new facility would be a new spent fuel building to support 
the NR program. In fiscal year 2012 the request for conceptual design 
is $53.8 million. The actual construction project would not start until 
2013. What is the anticipated total project cost for this new facility?
    Mr. D'Agostino and Admiral Donald. The Total Project Cost for the 
Spent Fuel Handling Recapitalization Project (SFHP) is estimated to be 
$1,249 million, and will recapitalize the over 50-year-old ECF as the 
location for naval spent nuclear fuel receipt, packaging, and secure 
temporary dry storage. This estimate of the Total Project Cost is based 
on scoping studies conducted for a range of alternatives that could 
provide the required capabilities. Actual costs to design and fabricate 
similar equipment used at the ECF were considered in forming the basis 
of the approximate $400 million cost estimate for the required 
equipment. The cost estimate also includes approximately $650 million 
for the construction of new facilities as well as potential cost saving 
measures, such as modification of existing facilities for continued use 
with new facilities. Also included is approximately $200 million of 
Other Project Costs that include items such as conceptual design, 
National Environmental Policy Act (NEPA) work, analysis, safety 
oversight, development of procedures and manuals, training, general 
facility engineering startup support, and technical support. This Total 
Project Cost estimate has been reviewed by industry experts with 
experience in delivering large, complex construction project associated 
with nuclear material handling.
    Included within the scope of the SFHP:

        <bullet> Evaluation and selection from existing technology and 
        processes for spent nuclear fuel handling.
        <bullet> Design and delivery of a facility and facility systems 
        in which the spent nuclear fuel handling will be performed.
        <bullet> Design and delivery of infrastructure specifically 
        needed to support spent nuclear fuel handling operations (power 
        distribution substations, rail service to new facilities, 
        etc.).
        <bullet> Design and delivery of equipment needed for handling 
        spent nuclear fuel.
        <bullet> Design and delivery of equipment needed for packaging 
        and disposal of waste generated during spent nuclear fuel 
        handling operations.
        <bullet> Ability to perform initial cursory external visual 
        examinations.
        <bullet> Test, operating, and preventive maintenance 
        procedures, and drawings for the spent fuel handling process 
        systems, equipment, facilities, and facility systems.
        <bullet> Personnel training and development of training 
        programs for the facilities, facility systems, and spent 
        nuclear fuel handling equipment.
        <bullet> Project management.
        <bullet> Support services needed for the project.
        <bullet> Management for subcontracts supporting the design and 
        construction of the facilities, facility systems, and spent 
        nuclear fuel handling equipment needed for this project.
        <bullet> Reports and submittals, including those submittals 
        required for Critical Decisions.
        <bullet> NEPA analyses and actions.

    Full funding in the early years of the project remains critically 
necessary to ensure that the facility and equipment are sufficiently 
defined such that requests for fiscal year 2013 Project Engineering and 
Design funds and fiscal year 2015 Construction funds are fully 
justified and support the overall project schedule.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    A breakdown of the costs for labor and materials and subcontracts 
is provided below.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    13. Senator Nelson. Mr. D'Agostino and Admiral Donald, would that 
amount include the demolition of the old facility?
    Mr. D'Agostino and Admiral Donald. The project cost of the SFHP 
does not include the demolition of the current ECF. The current ECF 
mission includes the unloading, examination, processing and temporary 
dry storage of spent nuclear fuel, in addition to the examination of 
irradiated material from the Idaho National Laboratory Advanced Test 
Reactor. All of these aforementioned operations must continue while the 
SFHP is constructed and placed into operation. For example, ship 
refuelings will continue to require that spent nuclear fuel is unloaded 
from the limited number of spent fuel shipping containers available, 
and critical core examinations necessary to validate fuel performance 
must continue. Consequently, an inventory of spent nuclear fuel and 
irradiated materials will exist in ECF at the time SFHP becomes 
operational. It is impractical and cost-prohibitive to move the spent 
nuclear fuel present in ECF to SFHP to complete processing operations 
for dry storage in the new facility. In addition, there are a number of 
important core examinations underway later this decade that must not be 
interrupted in support technical decisions for the operating fleet. Due 
to these factors, final disposition of ECF will be deferred until after 
the completion of the currently identified ECF mission.

    14. Senator Nelson. Mr. D'Agostino and Admiral Donald, can NNSA 
afford another expensive building?
    Mr. D'Agostino and Admiral Donald. The SFHP will recapitalize the 
over 50-year-old ECF as the location for naval spent nuclear fuel 
receipt, packaging, and secure temporary dry storage. Naval Reactors' 
ability to continue work in Idaho is dependent upon a viable, efficient 
fuel-handling infrastructure. Although the ECF continues to be 
maintained and operated in a safe and environmentally responsible 
manner, further deterioration of the infrastructure could profoundly 
impact the Naval Reactors mission. Uninterrupted receipt of naval spent 
nuclear fuel is vital to the timely, constant throughput of ship 
refuelings and return of these warships to full operational status. If 
an interruption in ECF operations were to extend over long periods, the 
ability to sustain fleet operations would be negatively impacted since 
there would be no capacity available to receive naval spent fuel, 
thereby tying up shipping containers and halting defueling operations. 
Completion of the recapitalization of the spent nuclear fuel 
infrastructure is needed by 2020 to support the Navy's tight refueling 
and defueling schedule for nuclear-powered aircraft carriers. A delay 
to delivery of this new facility will result in costly and time-
consuming workarounds (e.g. procurement of additional spent fuel 
shipping containers and associated equipment) or delays to the 
defuelings of nuclear powered warships.
    In this constrained funding environment, Naval Reactors recognizes 
the need for prudent project management to constrain costs. Naval 
Reactors will leverage its extensive project management experience to 
do exactly that. The Program routinely manages significant projects, 
such as the design and construction of the Virginia-class submarine and 
the Ford-class aircraft carrier reactor plants. Naval Reactors also 
routinely manage large ship projects, including nuclear powered 
aircraft carrier and submarine refueling overhauls. These efforts 
include the planning and scheduling of the refueling; design and 
development of specialized equipment; planning and technical approval 
of shipyard facilities and equipment; transportation and handling of 
spent fuel, and reviewing and approving detailed procedures for conduct 
of refueling operations. Additionally, Naval Reactors has managed the 
development, operation, and maintenance of over 25 classes of nuclear 
powered submarines and three classes of nuclear powered aircraft 
carriers; as well as the design, construction, operation, and 
maintenance of eight land-based prototypes. The Naval Reactors 
professionals that are assigned to the SFHP have many years of Naval 
Reactors project management and oversight experience.
    In addition, the SFHP is being managed consistent with DOE Order 
413.3B (Program and Project Management for the Acquisition of Capital 
Assets) as implemented by Naval Reactors. The Program is also 
capitalizing on established requirements and lessons learned from 
management of our Navy projects, including the use of formalized 
nuclear safety, refueling equipment, and refueling system design 
processes. These combined processes, along with the rigorous budgeting 
and accountability processes routinely employed by Naval Reactors, 
ensures capability of executing a project of this size.
    Finally, Naval Reactors has contracted with an experienced 
Engineering, Procurement, and Construction Management contractor and is 
leveraging relevant experience through our prime contractor, Bechtel 
National Inc.

    15. Senator Nelson. Mr. D'Agostino and Admiral Donald, will the ECF 
have a design that is 90 percent complete by CD-2?
    Mr. D'Agostino and Admiral Donald. The SFHP is being managed 
consistent with DOE Order 413.3B (Program and Project Management for 
Acquisition of Capital Assets). Consistent with that order, the 
preliminary design will be 100 percent complete by CD-2. The 
preliminary design provides the detail needed to provide a reasonable 
assurance that the design will be implementable within the approved 
performance baseline. Consistent with DOE Order 413.3B, the fully 
completed preliminary design will form the basis of the Performance 
Baseline which is approved at CD-2.

    16. Senator Nelson. Mr. D'Agostino and Admiral Donald, will the 
project baseline for the ECF for the purposes of section 3114 be 
established by CD-2?
    Mr. D'Agostino and Admiral Donald. Yes. Naval Reactors approval of 
the SFHP CD-2, Performance Baseline, will establish the SFHP project 
cost and schedule baseline, consistent with the requirements of DOE 
Order 413.3B, Program and Project Management for the Acquisition of 
Capital Assets. CD-2 approval requires that the design be sufficiently 
mature to provide a reasonable assurance that the design will be 
achievable within the approved performance baseline. The SFHP 
Performance Baseline will include the key project performance, scope, 
cost, and schedule parameters, and will be provided to the 
congressional defense committee in accordance with section 3114 of NDAA 
for Fiscal Year 2011.

    17. Senator Nelson. Mr. D'Agostino and Admiral Donald, will an ICE 
be performed for the ECF?
    Mr. D'Agostino and Admiral Donald. Yes, Naval Reactors will perform 
ICEs prior to CD-1 and prior to CD-2, consistent with DOE Order 413.3B, 
Program and Project Management for the Acquisition of Capital Assets. 
The ICEs will help validate that the program estimates are well-
documented, comprehensive, accurate, and credible by ensuring that the 
included costs are reasonable and that no costs were omitted, that they 
reflect a realistic schedule with technically-reasonable assumptions, 
and that risks and uncertainties are appropriately accounted for and 
quantified.

    18. Senator Nelson. Mr. D'Agostino and Admiral Donald, will all new 
technologies be TRL-7 at construction start, as well as CD-3?
    Mr. D'Agostino and Admiral Donald. The SFHP will not pursue new 
technologies since the fundamental technology to unload, examine, 
process, and package naval spent nuclear fuel currently exists. While 
Naval Reactors does not use technology readiness levels to manage its 
technical efforts, the Program judges that the technologies included in 
the SFHP to be equivalent to a level 8 (total system completed, tested, 
and fully demonstrated). This assessment is based on the fact that the 
design of the spent fuel handling and processing equipment for the SFHP 
uses technology that has been demonstrated in existing equipment that 
is currently operating in a production environment at the ECF. The SFHP 
is being designed to improve the production capacity of the existing 
ECF infrastructure and will integrate lessons learned from over 50 
years of operating within the current ECF.

       delays in naval reactors m-290 idaho facility construction
    19. Senator Nelson. Admiral Donald, the construction project at the 
NR Idaho facility to receive and handle M-290 spent fuel shipping 
containers is about a year late, both in the start of construction and 
in the start of operations. The most recent schedule indicated that the 
approval to start construction, CD-3, would be in the second quarter of 
fiscal year 2011. What was the reason for the delay and has the delay 
resulted in increased costs?
    Admiral Donald. As part of the fiscal year 2010 budget request, 
Naval Reactors requested money for the ECF M-290 Receiving/Discharge 
Station. At that time, the project was scoped only to modify (e.g., 
installation of larger capacity crane) the current ECF to allow the 
receipt and handling of M-290 shipping containers. Although the 
performance baseline for the project was not yet established, Naval 
Reactors included in the budget request documentation outlining a 
schedule, in which construction was scheduled to begin (CD-3) in the 
first quarter of fiscal year 2010. The fiscal year 2010 budget request 
also identified the need for a separate Naval Reactors Facility (NRF) 
Storage Overpack Complex in fiscal year 2011.
    After the fiscal year 2010 budget request was submitted, Naval 
Reactors recognized it could not meet its spent fuel handling 
requirements under this arrangement. Specifically, the Program would 
not be able to concurrently conduct two significant program missions in 
ECF:

    (1)  Return of spent naval fuel from the Idaho Nuclear Technology 
and Engineering Center (INTEC)
    (2)  Aircraft carrier refueling/defuelings using the M-290.

    If left unchanged, this would have had a direct negative impact to 
both the State of Idaho settlement agreement and operational needs of 
the nuclear aircraft carrier fleet.
    Accordingly, Naval Reactors modified the construction plan to 
ensure the Program could continue to meet its spent fuel handling 
requirements. Rather than modify the existing ECF as originally 
planned, Naval Reactors determined the mission required a new facility 
for the receipt and handling of M-290 shipping containers. That 
facility, the ECF M-290 Receiving/Discharge Station project, would also 
incorporate the NRF Storage Overpack Complex project identified above. 
This single Major Construction Project (MCP) will eliminate workflow 
conflicts and will provide the capability for concurrent receipt of 
fuel from INTEC and receipt and handling of M-290 shipping containers.
    The current or revised scope of the project and schedule was 
outlined in the fiscal year 2011 budget request to Congress. That 
schedule indicated that CD-2 would be completed in the first quarter of 
fiscal year 2010. CD-2, including the new performance baseline for the 
project, was approved on 30 November 2009. This approved performance 
baseline states that CD-3 will occur in the second quarter of fiscal 
year 2011. CD-3 for the project was approved by Naval Reactors on 25 
April 2011. In addition, the project is within the cost estimate 
included in the performance baseline.

    20. Senator Nelson. Admiral Donald, has construction approval been 
received? If not, why not?
    Admiral Donald. Yes, construction approval (CD-3 (Start of 
Construction)) for the M-290 Receiving/Discharge Station (CSRF/OSE2) 
rail siding was provided in the first quarter fiscal year 2011. The CD-
3 for the CSRF/OSE2 facility has been approved by Naval Reactors on 25 
April 2011.

    21. Senator Nelson. Admiral Donald, what is the status of the 
design, is it 90 percent complete as is the NNSA requirement?
    Admiral Donald. The 100 percent final design for the ECF M-290 
Receiving/Discharge Station (CSRF/OSE2) has been submitted by the 
contractor. Construction began on the project in fiscal year 2011 with 
approval of the CD-3 for the CSRF/OSE2 rail siding. The CD-3 for the 
CSRF/OSE2 facility was approved by Naval Reactors on 25 April 2011.

    22. Senator Nelson. Admiral Donald, is this considered a new start 
and thus construction cannot begin under the CR?
    Admiral Donald. The ECF M-290 Receiving/Discharge Station is not 
considered a new start and construction may begin under a Continuing 
Resolution. Identified as a MCP since fiscal year 2008, this project 
received $545,000 in fiscal year 2008, $300,000 in fiscal year 2009, 
and $3,236,000 in fiscal year 2010 in project engineering and design 
(PED) funding. The project received an additional $6,264,000 in fiscal 
year 2010 to support long-lead procurement of a 310 ton crane with a 75 
ton auxiliary hook.
    The PED funds provided Architect-Engineering services for the ECF 
M-290 Receiving/Discharge Station construction project, allowing the 
project to proceed from conceptual design into preliminary design and 
final design. The design effort assured project feasibility, defined 
the scope, provided detailed estimates of construction costs based on 
the approved design and working drawings and specifications, and 
provided construction schedules, including procurements.

                           protective forces
    23. Senator Nelson. Mr. D'Agostino, last March, the Strategic 
Forces Subcommittee held a hearing on the protective forces that guard 
the nuclear weapons and materials at DOE sites. The majority of these 
sites are NNSA sites. It was clear from that hearing that NNSA and DOE 
needed to look at the career path options for these highly trained 
forces, particularly with respect to retirement eligibility. The 
rigorous physical requirements of these forces merit the possibility of 
a 20-year retirement program along the lines of some law enforcement, 
military, and NNSA courier retirement programs. Shortly after that 
hearing, DOE was supposed to provide an implementation plan to address 
the retirement and other issues. This report was not submitted until 
January of this year and it did not include a plan, just a recitation 
of the issues and a promise to study the options again. This issue has 
been unresolved for over 3 years. The current contracts for the Guard 
forces expire in just over a year and it is possible that the forces 
will strike if these issues are not resolved. One site did have a 
strike over these issues when the last contract expired. The DOE 
representative at the March hearing testified that the issue needed to 
be resolved promptly. But here we are 1 year later and with the issue 
still unresolved. It is important to ensure that the nuclear materials 
and weapons continue to be protected. When is NNSA planning to resolve 
this retirement issue for the protective forces?
    Mr. D'Agostino. NNSA and the Department as a whole continue to 
evaluate all measures that seek to enhance career longevity for 
contractor protective force employees. In furtherance of its goal to 
study retirement benefit options for protective force employees, NNSA 
commissioned a study to evaluate costs associated with a variety of 
different benefit options for contractor protective force employees. 
The study evaluated three benchmark retirement plans as the first step 
toward understanding the costs and comparative benefits associated with 
each type of plan. The three benchmark design alternatives were: (1) 
the Hanford Multi-Employer (Defined Benefit) plan applicable to the 
Guards union; (2) a Defined Contribution plan similar to the one 
offered to certain contractor employees at Lawrence Livermore National 
Laboratory; and (3) the Nuclear Materials Couriers Plan, which includes 
elements of both Defined Benefit and Defined Contribution plans. A 
fourth ``Notional Alternative Plan,'' which mirrors the Couriers' plan 
but excludes some of the more costly features, was also included in the 
analysis.
    To be clear, the protective force members are employees of the 
contractors, not NNSA. The contractor protective force employees at all 
but one of the NNSA sites are represented by labor unions. Accordingly, 
any changes to existing benefits plans would have to be agreed to 
during the collective bargaining process between the contractor and the 
union representing the protective force employees. Therefore, the study 
that was performed provides objective cost estimates for the 
liabilities that the government would be responsible for reimbursing 
pursuant to its contracts with NNSA contractors if the protective force 
employees were to participate in benefit plans that resemble the 
benchmark plans.
    The study has been completed, and NNSA senior management is 
conducting a thorough review of the report. The Department owes its 
stakeholders, the taxpayers, and all potentially affected employees 
deliberate and careful consideration of these options.

    24. Senator Nelson. Mr. D'Agostino, my understanding is that there 
is a way to address this by establishing an accelerated 401K system. 
Would you look into this and report to us, before the time we mark up 
the National Defense Authorization Bill for Fiscal Year 2012, as to how 
we might fix this issue?
    Mr. D'Agostino. As part of the Department's protective force career 
options initiative, DOE and NNSA have encouraged protective force 
contractors and unions to offer ideas and concepts as to how career 
longevity and retirement options might be addressed, and we continue to 
receive input from these sources. One NNSA contractor and the 
protective force union at that site have discussed an ``accelerated 
401(k) system'' and this option will be included in the broader 
Departmental discussion of this issue as details of this notional plan 
emerge. All legal and feasible options that are brought to the 
Department's attention will be considered by DOE management. If the 
full accelerated 401(k) proposal is presented to the NNSA before the 
markup the fiscal year 2012 defense authorization bill, we will report 
to you on this recommendation.

                                aviation
    25. Senator Nelson. Mr. D'Agostino and Dr. Cook, in December, NNSA 
made a significant change in the way it manages the aviation program of 
the Office of Secure Transportation. As part of this change, the DOE 
Office of Aviation will have increased oversight responsibilities for 
the NNSA program in lieu of the Federal Aviation Administration (FAA). 
Is there a plan in place for the DOE Office of Aviation to oversee the 
NNSA program?
    Mr. D'Agostino and Dr. Cook. There will be no change to the manner 
in which the DOE Office of Aviation Management will conduct its 
responsibilities. Currently, OST is studying a move to Federalize 
pilots. Based on the outcome of this study, the FAA will conduct the 
appropriate surveillance of OST's aviation program pursuant to FAA 
regulations.

    26. Senator Nelson. Mr. D'Agostino and Dr. Cook, the FAA had 
previously determined that the NNSA served in both a civil and public 
function and thus had to comply with part 119. Has FAA approved the 
NNSA plan to move away from FAA regulations under part 119?
    Mr. D'Agostino and Dr. Cook. NNSA's Office of Secure Transportation 
continues to operate both public and civil flights and will comply with 
applicable sections of Part 119 and all other applicable FAA 
regulations. As such we will operate under Part 125 as approved by the 
FAA. Public flights are conducted to support the agency's governmental 
function such as moving Limited Lifetime Components. All other flights 
are considered civil unless approved otherwise by the FAA 
administrator. An example of a civil flight would be to move passengers 
to training. All civil flights must be cost justified and compared to 
commercial air transport before utilizing government aircraft for civil 
flights. Historically over the last 3 years, approximately 90+ percent 
of our flights are public.

    27. Senator Nelson. Mr. D'Agostino and Dr. Cook, I would note that 
the explanatory statement accompanying the NDAA for Fiscal Year 2011 
said with respect to the operation of the Secure Transportation Asset 
(STA) aircraft:
    The Secretary of Energy and the Administrator of the NNSA are 
directed to consult with the FAA to determine whether the operations of 
the STA aircraft are public or civil operations, or a combination, and 
the appropriate equivalency standard under which the STA aircraft 
should be operated, maintained, and managed. In addition, the Secretary 
and the Administrator are directed to submit a report to the 
congressional defense committees that sets forth the FAA determination, 
the ability of the NNSA to meet the requirements of the DOE orders if 
NNSA will operate as a self-regulated entity, and whether the DOE 
Office of Aviation is capable of conducting FAA like oversight and 
inspections. This report should be completed before 737 operations 
begin.
    When do you expect 737 operations to begin?
    Mr. D'Agostino and Dr. Cook. NNSA's Office of Secure 
Transportation's (OST) Aviation Program will comply with the applicable 
portions of FAA regulations found at 14 C.F.R. (Aeronautics and Space) 
and 41 C.F.R. 102-33 (Management of Government Aircraft). Flight 
Operation of the aircraft is expected to begin in August 2011. Mission 
support availability expected to begin on 1 December 2011.

    28. Senator Nelson. Mr. D'Agostino and Dr. Cook, when will the 
report be submitted to Congress?
    Mr. D'Agostino and Dr. Cook. NNSA will comply with the requirements 
as set forth by the FAA. The FAA accepted a letter of application from 
NNSA that outlines our proposed operating construct to operate under 
Part 125 of 14 CFR. NNSA sees no operational, management or legal 
constraints that would result in a denial of authorization. At this 
point the only limiting factor before final consideration by the FAA is 
the hiring of pilots. NNSA owns one aircraft and is currently 
finalizing the acquisition of the second. At that point NNSA will have 
adequate information and direction from the FAA and can submit a report 
shortly thereafter.

              computational and experimental capabilities
    29. Senator Nelson. Dr. Anastasio, Dr. Miller, and Dr. Hommert, all 
of the experimental tools that were identified when the Stockpile 
Stewardship Program (SSP) was established are now operational. Have you 
considered what experimental tools might be needed in the future?
    Dr. Anastasio. The experimental tools, DARHT, and Los Alamos 
Neutron Science Center at Los Alamos, and NIF at Lawrence Livermore 
that were first identified when the SSP began some 15 years ago are 
just beginning to provide remarkable data that scientist and engineers 
are using to better understand and evaluate the safety, security, and 
effectiveness of the Nation's nuclear deterrent. Contrary to what some 
have suggested, we are definitely not ``done'' with science. There are 
many significant areas of work that remains to be done. There are 
critical open questions that remain to be solved to retain our 
confidence in the stockpile and we cannot fully predict the scientific 
challenges that are still ahead as it continues to age and goes through 
modernization.
    As we seek to sustain the deterrent and improve our understanding 
of the Nation's aging stockpile through the SSP, LANL believes that 
future mission needs require investment in new and more capable 
experimental facilities and computational capabilities. As an example, 
we are examining materials in extreme environments, exploiting in situ, 
transient measurements to study materials in relevant dynamic and 
irradiation extremes. Constructing such a facility would revolutionize 
material performance in extremes by conquering ``the micron 
frontier''--the domain in which materials microstructure and defects 
dominate performance AND our predictive capability for the stockpile is 
the weakest--and advancing the transition from observation and 
validation of materials performance to prediction and control of 
materials functionality.
    LANL has engaged the weapons science community including our 
colleagues at LLNL and Sandia as well as in the UK, and the broader 
scientific community to define such a facility and is currently 
performing a pre-conceptual design study for a facility that we call 
MaRIE, for Matter-Radiation Interactions in Extremes, including the 
identification of scientific and systems requirements, analysis of 
alternatives that would meet those requirements, and trade studies that 
would assess the cost-risk-benefits of a variety of technical options. 
LANL believes that a facility such as MaRIE would provide needed 
dynamic observations of microstructure to the SSP, validating 
theoretical descriptions and ultimately yielding control of materials 
needed to reduce cost and increase confidence in the stockpile. MaRIE 
provides not only multiple, simultaneous in situ measurements of multi-
granular materials with sub-granular resolution, but also synthesis 
capabilities to predictively design high performing materials for these 
environments as well as multiple probes of materials mixing in 
extremes, a known consequence of materials damage and failure.
    Dr. Miller. From an experimental point of view, the most important 
thing right now is to provide the funding to adequately utilize the 
tools we have established, such as the Dual Axis Radiographic 
Hydrodynamic Test Facility (DARHT), the NIF, and the Joint Actinide 
Shock Physics Experimental Research (JASPER) facility; requirements for 
additional experimental facilities have not emerged from our research. 
An area in which additional capability is need is HPC and simulation.
    There remain key areas, such as boost physics, where we still lack 
adequate knowledge. Predictive Capability Framework campaigns utilize 
our advanced stockpile stewardship tools to fill gaps in knowledge 
about nuclear weapon performance relevant to existing or expected 
issues about stockpiled weapons. These activities integrate the use of 
state-of-the-art high-performance computers, high-fidelity simulation 
models validated by data gathered from state-of-the-art experimental 
facilities. This cutting-edge research provides both the basis for 
stockpile stewardship and the tools by which the Laboratory experts 
make judgments about the health, safety, security, and effectiveness of 
the stockpile.
    In addition to the experimental facilities we rely on, we need to 
continue to advance our HPC capabilities to provide the weapons program 
with computing platforms for modeling and simulation (M&S) at the 
exascale level. To assure that NNSA's future mission critical needs are 
met, a decadal, sustained R&D investment is necessary to advance 
supercomputing to exascale-class platforms (1 x 10 \18\ or 
1,000,000,000,000,000,000 floating point operations per second)-
supercomputers on the order of 1,000 times more powerful than the 
fastest in existence. Current petascale supercomputing has manifestly 
improved M&S capabilities, but users remain limited by speed or length 
of run time in performing calculations, or inability to perform 
adequate uncertainty analyses of complex systems. A central R&D 
challenge is power consumption. If the current HPC technology were used 
and the number of processors simply scaled up, an exascale machine 
would take hundreds of Megawatts of power costing tens of millions of 
dollars annually to operate--making the machine more expensive to 
operate than procure. Therefore, significant technological innovations 
are needed to improve efficiency--gains approaching the order of 100--
will be necessary to reach an optimal next-generation exascale 
platform.
    The NIF is a critical experimental facility required to meet the 
Nation's stockpile stockpile stewardship goals and validate our 
computational models. It is very important that the NIF be funded at a 
level consistent with the current implementation plan to meet required 
deliverables and maximally benefit from the investments made in the 
facility and its operation. The SSP relies on NIF for ignition and non-
ignition experiments.
    NIF has been operational since the facility's dedication in May 
2009. NIF with its 192 laser beams has performed exceptionally well. It 
is proving to be a remarkably reliable and precise system.
    NIF is the focal point for the National Ignition Campaign (NIC). 
The purpose of NIC is to determine the feasibility of fusion ignition 
and transition NIF from a construction project to routine experimental 
operations for weapons and basic science by the end of fiscal year 
2012. With respect to fusion, NIC has two major goals: execution of DT 
ignition experiments starting in fiscal year 2010 for the purpose of 
demonstrating ignition and development of a reliable, repeatable 
ignition platform for weapons physics, basic science, and energy 
research by the conclusion of NIC at the end of fiscal year 2012.
    There have been a number of important successes at NIF. In the 
hohlraum energetics campaign, the NIC team demonstrated that the 
interaction between the laser beams and the target could be 
satisfactorily controlled and the conditions necessary to implode the 
hydrogen fuel could be achieved.
    We have also demonstrated the integration of all of the subsystems 
needed for the ignition. Cryogenically cooled ignition targets with a 
layer of solid tritium, hydrogen, and deuterium (THD) have been 
successfully created and imploded. One shot in particular achieved a 
record-setting 1.3 x 10 \14\ neutrons.
    NIC continues to make excellent progress and the results of 
implosion experiments are very encouraging. We continue to learn much 
from the experiments and see no ``show stoppers.'' We are optimistic 
about success in achieving fusion ignition but mindful that NIC is an 
extremely challenging undertaking that is at the frontiers of science 
and technology. Current plans are to complete the current fusion 
ignition and burn campaign in spring or summer of 2012.
    NIF also executes ``non-ignition'' experiments in support of the 
SSP. In late February-March 2011, we conducted the most recent highly 
successful campaigns of high-energy-density physics experiments in 
support of stockpile stewardship on NIF. One campaign focused on 
radiation transport to gather data to validate the capability of our 
physics simulation codes to model phenomena. Altogether, 16 experiments 
were performed in 11 shot days. These included the first experiments 
performed that included diagnostics to provide time-resolved 
radiographic data. Preliminary comparisons of data taken are in 
agreement with pre-shot predictions. A second campaign focused on 
developing and using a technique for gathering equation-of-state data 
to characterize the properties of highly compressed (but unheated) 
materials-in this case, tantalum and carbon. Gathered data from such 
experiments are needed for scientific advances that underpin both 
stockpile stewardship and planetary science.
    Dr. Hommert. The challenging work necessary over the next two 
decades to extend the lifetimes of key weapon systems in the US nuclear 
arsenal will require application of the new experimental facilities and 
tools created during the Science-Based Stockpile Stewardship era, and 
will also require upgrades and recapitalization for a number of legacy 
capabilities. Several key investments are required in order for Sandia 
to successfully execute our warhead systems engineering and integration 
responsibilities and our design and qualification activities for non 
nuclear components and subsystems. Some of our major environmental test 
facilities were first commissioned in the 1950s, and they must be 
upgraded to modern standards to support the design and development 
testing for the B61 Life Extension Program (LEP). Facility and 
equipment enhancements are needed at the Tonopah Test Range where we 
will perform critical development flight testing of the B61 LEP. Sandia 
will provide critical radiation hardened microelectronics for upcoming 
LEPs and ALTs. Our capabilities are officially accredited with 
``trusted'' status for both the design and manufacture of 
microelectronics, which is critical in an age of growing cyber threat 
concerns about microelectronic supply chain surety. Our silicon fab 
facility requires recapitalization because the tooling is 10-15 years 
old, and this is an industry where the technology turns over every 
couple of years. Of 137 tools in the silicon fab, more than 25 percent 
have only 3rd party support, and another 25 percent have no OEM support 
or spare parts. The recapitalization must begin soon to address the 
ever-increasing risk of running existing equipment to failure.
    The unique pulsed power capabilities associated with Sandia's Z 
facility are advancing our understanding of the performance of 
nonnuclear components in extreme radiation environments, and providing 
valuable Equation of State experimental data for the physics labs in 
the critical area of dynamic material response. We also apply this 
expertise in High Energy Density Physics more broadly to the 
diagnostics and experimental design needs of the National Ignition 
Campaign and the Predictive Capabilities Framework.

    30. Senator Nelson. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
underpinning all of the experiments and past nuclear tests are the 
world's leading computational and modeling capabilities, which have 
been developed by NNSA. The ability to model the performance of nuclear 
weapons using the new experimental data and past data from the days of 
nuclear testing is essential to maintaining the nuclear weapons 
stockpile, safely, securely, and reliably into the future. How 
important is this computation capability to your work?
    Dr. Anastasio. The computational capability to model and understand 
the performance of nuclear weapons is essential to our work, and it 
always has been. One of the largest successes of the Stockpile 
Stewardship has been our remarkable advances in supercomputing 
capability, and specifically our ability to model the complex phenomena 
that occur in a weapon. What we have discovered is that with each 
improvement in simulation performance. We see greater fidelity and 
develop an improved understanding as well as further awareness of what 
we still do not understand. Thus moving to the next generation of 
computing (exascale) is not a luxury or simply speed for the sake of 
speed. It is essential to our understanding of the challenges we face 
with the stockpile, in particular as we move further away from our 
underground test experience.
    Dr. Miller. HPC serves as the integrating element of the SSP and 
has been instrumental in the success of the SSP to date. The 
significant resources the country has expended over the past few 
decades in HPC have proven to be a very worthwhile investment. Nuclear 
weapons are highly engineered 3-D systems with complex materials that 
change over time. HPC simulations of stockpile performance, security, 
and safety help identify problems in the stockpile, assess the impact, 
and devise solutions. Without HPC, the SSP would not have been 
successful in sustaining confidence in the safety, security, and 
effectiveness of the U.S. nuclear stockpile in the absence of nuclear 
testing. However, there are still unresolved issues that require 
continued growth in our HPC capabilities to exascale computing in order 
to stay on top of stockpile concerns and meet future challenges. 
Achieving exascale computing is a technically challenging endeavor, 
similar in magnitude to the effort expended in the 1990s to develop 
terascale computing. This greatly increased capability will have other 
positive impacts on our country's national security and 
competitiveness. I am pleased that a program to initiate this effort is 
included in the President's Budget Request and strongly urge support 
for an aggressive research and development effort to create the 
technologies necessary to achieve and apply exascale computing.
    Dr. Hommert. Computational capabilities, which encompass both 
engineering simulation codes and high performance computational 
platforms, are essential tools in meeting our stockpile modernization 
and stewardship commitments over the coming decades. As our Nation 
moves towards a smaller stockpile, confidence in the safety, security, 
and effectiveness of the arsenal must be characterized more rigorously 
through quantification of margins and uncertainties (QMU) of these 
engineered systems. Computational simulation allows us to create age-
aware performance models and thereby predict the future impacts of 
fundamental materials aging mechanisms on stockpile performance. This 
predictive understanding provides lead time for decisions on required 
stockpile actions. HPC capabilities are also important to our coverage 
of environmental requirements for the stockpile. While it is not 
possible to perform physical tests in all of the environments and 
credible scenarios that a weapon could potential encounter during its 
lifecycle, computational simulation can simulate these environments and 
inform our technical understanding. Computational simulation plays a 
significant role in many lifetime extension program activities 
including: environments definition, engineering design and integration, 
and systems qualification. It is critical that our computational tools 
and platforms provide the confidence and credibility required to inform 
high-consequence stockpile decisions.

    31. Senator Nelson. Dr. Anastasio, Dr. Miller, and Dr. Hommert, is 
the development of the capability keeping pace with stockpile 
requirements?
    Dr. Anastasio. Since the advent of the SSP, the increase in our 
computational capabilities has been impressive. What we have discovered 
is that with each improvement in simulation performance we see greater 
fidelity and develop an improved understanding as well as further 
awareness of what we still do not understand.
    With this increased capability, Los Alamos and the other national 
nuclear laboratories have been able to deal with stockpile maintenance 
for the past 18 years and have been able to introduce additional margin 
into the nuclear weapons systems where possible. The national 
laboratories have also been able to more accurately quantify the 
uncertainties associated with nuclear weapons as they age. However, 
after a decade and half of stockpile maintenance we have exhausted many 
of the maintenance options certifiable with our current computational 
capability.
    Throughout this process, we have been able to identify 
computational infrastructure and code improvements advancements needed 
to accurately understand the physics and chemical changes occurring in 
the stockpile as it ages or to further understand options available for 
future LEPS. From these examinations, it is clear that higher levels of 
computational power are required to assess and certify the current and 
future stockpile. This will require greater investments (platforms and 
codes) than is projected in the FYNSP. An enhanced computational 
capability that allows us to advance the scientific understanding of 
our maintenance options in the absence of nuclear testing is required. 
This will increase the number of options available to us as we maintain 
the stockpile, ensuring that we keep pace with stockpile requirements.
    Dr. Miller. In terms of experimental tools, additional tools are 
not required at this time. However, providing adequate funding to fully 
utilize the existing tools such as the DARHT, the NIF, and the JASPER 
facility is essential. In the HPC and simulation area, the additional 
capability of exascale computing and simulation platforms is necessary.
    The SSP has been extraordinarily successful in maintaining the 
nuclear deterrent without needing to resort to underground testing. 
Through our success in coupling advanced HPC simulation capabilities 
with data gathered from nuclear weapons science experimental facilities 
like LLNL's Contained Firing Facility and LANL's DARHT facility and 
high energy density physics data from NIF, we have largely resolved the 
energy balance anomaly. We now have a key piece of the puzzle to attack 
the many resulting science challenges and LEP design issues. We are 
also moving forward to complete the second keystone of SSP, developing 
a fundamental understanding and predictive capability for boost.
    Nuclear weapons are highly engineered 3-D systems with complex 
materials that change over time. The accumulation of small changes that 
are inherent in component aging, material compatibility issues, and 
refurbishment of aging components, take our warheads away from their 
original designs whose safety and reliability were certified in the era 
when nuclear tests were still being conducted. Recently identified 
warhead issues (that were not identified when certain warheads were 
first introduced into the stockpile) further complicate assessments. 
These factors increase uncertainty in the performance of existing 
warheads, but have not undermined weapon certification. Experience has 
shown that at least one major new and unanticipated issue is discovered 
about every 5 years.
    SSP is focused upon an extraordinary challenge: predicting how a 
nuclear weapon changes in time with quantified uncertainties. We do not 
currently have the computing power needed to simulate weapons 
performance in 3-D at the required resolution while incorporating the 
needed detailed physics and age-aware material models. Additionally, we 
do not have the computing power to conduct the tens of thousands of 
high-resolution 3-D simulations needed to quantify the uncertainty in 
our predictions. Today's available technology forces us to choose 
between simulating weapon performance in 2-D with high resolution and 
physics fidelity or simulating in 3-D. While 2-D simulations were 
sufficient to establish the physical principles behind aging effects, 
applying that understanding to the stockpile requires high-fidelity 3-D 
simulations. Therefore, a new architecture enabling exascale computing 
is needed.
    Dr. Hommert. The challenge we face going forward is the application 
of the powerful computational stockpile stewardship tools to the now 
urgent life extension needs of the stockpile. Our design and 
development work for multiple LEPs over the coming decades will rely 
extensively on our engineering simulation capabilities. We must sustain 
the investment in computational tools to ensure that capacity keeps 
pace with the LEP design workload as we integrate these new tools into 
the design process. The scope and complexity of Sandia's 
responsibilities for warhead systems engineering and integration, and 
non nuclear component design, requires state of the art computational 
capabilities. The competency base in computational science that 
underpins these capabilities is strengthened by the NW program research 
in this area, and effectively applied to broad national security needs 
associated with cyber threats. The extensive and growing national 
security challenges in this area will drive the need for continued 
investments to transition codes and computational platforms to exascale 
architectures expected over the next decade.
                                 ______
                                 
              Question Submitted by Senator Jeanne Shaheen
                            nuclear testing
    32. Senator Shaheen. Mr. D'Agostino, is there any technical reason 
for the United States to resume nuclear explosive testing in the 
foreseeable future? Why or why not?
    Mr. D'Agostino. Currently, there are no known technical reasons for 
the United States to resume nuclear explosive testing in the 
foreseeable future. As a result of our successful Stockpile Stewardship 
and Management Program, NNSA has been able to maintain and enhance the 
safety, security, and effectiveness of the U.S. nuclear weapons 
stockpile without resuming nuclear explosive testing. We are now in the 
20th year of the underground testing moratorium, and the need for 
science-based stockpile stewardship is greater than ever. Our weapons 
systems are beyond their original design lifetimes, and while we have 
been able to certify them as safe, secure and effective, the stockpile 
contains some components that are based on technologies up to 60 years 
old and those components must be replaced and re-certified. Our ability 
to continue to certify the stockpile over the longer term requires a 
sophisticated physics-based understanding of the weapons, science-based 
tools that provide new means, other than underground tests, to solve 
complex problems, and predictive capabilities to reduce uncertainties. 
Furthermore, each of those pieces requires advanced computing 
capabilities to support them. We have made significant advancements in 
these areas in the past two decades; however, challenging goals remain 
such as achieving ignition at the NIF and providing a physics-based 
predictive capability for the stockpile. The success of the Stockpile 
Stewardship and Management Plan--in particular the infrastructure and 
human capital investment components--will allow NNSA to continue to 
maintain and enhance the safety, security, and effectiveness of the 
U.S. nuclear weapons stockpile without resuming nuclear explosive 
testing.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
  chemistry and metallurgy research replacement facility and uranium 
                          processing facility
    33. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, as I mentioned in my opening remarks, the 
construction projects at Y-12 in Tennessee and LANL in New Mexico are 
the foundation of the complex-wide modernization plan and are the key 
enabler to the many future LEP efforts. Together, cost estimates for 
these facilities range between $7.9 and $12.3 billion. What is driving 
the cost?
    Mr. D'Agostino. UPF and CMRR are modern and highly sophisticated 
nuclear facilities where unique and highly complicated operations will 
be conducted on sensitive materials. Safety and security standards for 
modern nuclear facilities require robust infrastructure, one-of-a-kind 
equipment and rigorous validation that all components meet 
specifications and operate appropriately under established adverse 
conditions. These factors have driven costs above traditional 
construction projects.
    Dr. Cook. I agree with Mr. D'Agostino and add that, at 50 percent 
design, these projects are still in preliminary maturity. As their 
designs have matured these projects have acquired better definition of 
how the requirements for seismic ground motion, nuclear quality 
assurance, and security affect the design. We will not set the 
performance baseline for cost and schedule until the engineering design 
has reached 90 percent completion. Their scheduled completion is more 
than 10 years from now, and cost estimate ranges include appropriate 
contingency to address known uncertainties.
    Dr. Anastasio. The CMRR facility will support many programs 
involving plutonium and other actinides. Those programs include direct 
support for the stockpile, nonproliferation and counter-proliferation 
programs, counter-terrorism programs, energy programs, and plutonium 
science. To meet the mission requirements, these facilities must be 
designed to safely and securely handle and control nuclear material not 
only for the personnel working in the facility and for the public, even 
in major postulated and coupled accidents, such as earthquakes. The 
CMRR facility is being designed for personnel to safely handle all 
forms of plutonium, including bare metal. We expect these facilities to 
serve a broad array of national security programs over many decades. In 
addition, we must protect significant quantities of nuclear materials. 
These requirements have driven us to a design with multiple, redundant 
safety systems and security features.
    Dr. Miller. I would respectfully defer to my colleagues at the NNSA 
for specific information on the cost estimates for the UPF at Y-12 and 
the Chemistry and Metallurgy Research Replacement (CMRR) facility at 
LANL. However, I would observe that the type of work performed by NNSA 
often requires very complex, one-of-a-kind facilities. The nature of 
these one-of-a-kind facilities makes out-year budgeting quite 
challenging. For these types of facilities, it is very important to 
provide flexibility and appropriate contingencies that reflects the 
various elements of uncertainty within each project.
    Dr. Hommert. I defer to Mr. D'Agostino, Dr. Anastasio, and the 
institutions accountable for executing these MCPs.

    34. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, why do these facilities cost so much?
    Mr. D'Agostino. UPF and CMRR are modern and highly sophisticated 
nuclear facilities where unique and highly complicated operations will 
be conducted on sensitive materials. Safety and security standards for 
modern nuclear facilities require robust infrastructure, one-of-a-kind 
equipment, and rigorous validation that all components meet 
specifications and operate appropriately under established adverse 
conditions. These factors have driven costs above traditional 
construction projects.
    Moreover, the nuclear facility construction industry has been 
inactive for many years and there are no comparative construction costs 
that indicate the UPF and CMRR costs are above market price. NNSA 
acknowledges that the UPF and CMRR facilities are costly because they 
are unique and modern nuclear facilities that are being designed to 
modern nuclear, safety and security standards. As their designs have 
matured these projects have acquired better definition of how the 
requirements for seismic ground motion, nuclear quality assurance, and 
security affect the design. We will not set the performance baseline 
for cost and schedule until the engineering design has reached 90 
percent completion. Their scheduled completion is more than 10 years 
from now, and cost estimate ranges include appropriate contingency to 
address known uncertainties.
    Dr. Cook. I agree with Mr. D'Agostino.
    Dr. Anastasio. The CMRR facility (and likewise, the UPF) must be 
able to perform the assigned mission programs for multiple decades in a 
safe and secure manner. To meet the mission requirements, these 
facilities must be designed to safely and securely handle and control 
nuclear material not only for the personnel working in the facility but 
also for the public, even in major postulated accidents. The CMRR 
facility is being designed for personnel to safely handle all forms of 
plutonium, including bare metal. Dealing with special nuclear materials 
such as plutonium requires high levels of security and safety, 
requiring multiple, redundant safety systems and security features. All 
of these requirements tend to increase the facility cost.
    Dr. Miller. The NNSA facilities are one-of-kind facilities that 
have never been built anywhere in the world before in most cases. 
Regardless of the design and engineering challenges these projects 
present, I believe they are absolutely critical to our national 
security. Without both the stockpile stewardship research and 
development centers and production facilities, the country would not be 
able to support our nuclear deterrent. I fully recognize that they are 
costly, but I would also maintain that they are critical to our 
national security.
    Dr. Hommert. I defer to Mr. D'Agostino, Dr. Anastasio, and the 
institutions accountable for executing these MCPs.

    35. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, when does NNSA plan to have better confidence 
in the cost and schedule for these buildings?
    Mr. D'Agostino. NNSA will gain more confidence in the cost and 
schedule for UPF and CMRR as the designs mature. The design is maturing 
at a rate of approximately 1 percent-2 percent per month. Both projects 
are on schedule and will be ready to establish project cost and 
schedule baseline (CD-2) in fiscal year 2013 after they have achieved 
90 percent design completion. I will only approve the baselines once 
the project teams have sufficiently demonstrated and DOE support 
offices have validated that the projects can be delivered at the CD-2 
specified level of cost, schedule, and defined scope.
    Dr. Cook. I agree with Mr. D'Agostino and add that a requirement of 
CD-2 approval includes an External Independent Review and ICE that 
supports, and provides additional confidence in, the proposed cost and 
schedules.
    Dr. Anastasio. The next major step in the CMRR NF will be when the 
performance baseline is set at 90 percent complete, currently planned 
for mid-fiscal year 2013.
    Dr. Miller. I understand that the NNSA has worked diligently to 
address this very question and is moving toward obtaining more frequent 
ICEs during the critical decision process, as well as hiring and 
training professional large scale project managers. I would 
respectfully defer to NNSA for a more detailed answer.
    Dr. Hommert. I defer to Mr. D'Agostino, Dr. Anastasio, and the 
institutions accountable for executing these MCPs.

    36. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, what steps are being taken to ensure that 
taxpayers' dollars will be spent wisely and that the buildings will 
come in on time and at cost?
    Mr. D'Agostino. The UPF and CMRR project teams are continually 
being challenged to identify cost effective opportunities while meeting 
all operational, safety, and security requirements. NNSA has supported 
numerous internal and external reviews to identify cost savings and 
validate that the requirements are current and support mission 
deliverables. NNSA will continue to challenge the projects to find more 
savings and to ensure that the proposed costs are appropriate for all 
elements of the projects' scope.
    Dr. Cook. I agree with Mr. D'Agostino. As an example of our 
commitment, DOD is currently conducting an independent review of CMRR 
and UPF to validate the costs of the project scopes. NNSA has 
established that the upper ends of the cost range estimates represent 
the maximum Total Project Costs for the projects, and that cost growth 
beyond these figures will not be supported. If the costs trend toward 
the upper end of the cost estimate ranges, NNSA is prepared to make 
scope adjustments as needed to maintain mission capabilities. As 
detailed in the DOE/DOD Memorandum of Agreement on DOD's funding for 
NNSA, another approach if costs increase is to slip schedules to the 
right.
    Dr. Anastasio. Los Alamos recognizes that the Nation is confronted 
with very serious financial challenges and is committed to spending 
taxpayers' dollars wisely. We have assembled a strong team to design 
and construct this facility. I personally evaluate the CMRR project and 
we have driven the budgeted cost of this facility down over the last 
year. In addition, we support a large number of reviews that evaluate 
our plan and have learned from lessons from other MCPs.
    Dr. Miller. I understand that the NNSA has worked diligently to 
address this very question and is moving toward obtaining more frequent 
ICEs during the critical decision process, as well as hiring and 
training professional large-scale project managers. I would 
respectfully defer to NNSA for a more detailed answer.
    Dr. Hommert. While, as indicated above, we are not directly 
involved in the detailed cost and schedule planning for these 
facilities, we strongly support the NNSA decision to apply rigorous 
project management tools and approaches to these MCPs. At Sandia, we 
are proud of our track record in completing MCPs ahead of schedule and 
under budget (for example with our MESA facility in 2007) and if called 
upon, we stand ready to support the NNSA with our relevant experience 
in this area.

    37. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, if Congress were to not provide funding for 
CMRR and UPF, what are some of the anticipated consequences to the 
nuclear stockpile and weapons complex?
    Mr. D'Agostino. Delaying UPF and CMRR places our ability to execute 
the current LEP schedule at a high risk--that risk will continue to 
increase every year. Nuclear component work would need to be performed 
in existing facilities like Building 9212 at Y-12 and the Chemistry and 
Metallurgy Research (CMR) Facility at Los Alamos. However, the safety, 
security, and environmental issues associated with the aging existing 
facilities are mounting, as are the costs of addressing them. NNSA 
manages the risks associated with the aging facilities and will 
continue to do so, but as the facilities and their equipment continue 
to age, the ability to maintain them will diminish. NNSA will of course 
exhaust all options for keeping these facilities open until a new UPF 
and CMRR have been constructed. However, in the event that either of 
these facilities had to be shut down due to safety, security, or 
environmental concerns, the loss of work force and critical skills 
would be considerable, and it would likely be extremely expensive to 
restart operations. If there are delays in delivery of the CMRR and 
UPF, significantly more maintenance and infrastructure improvement 
measures would be needed in the existing facilities, at a significant 
cost, to avoid a potential shut down and ensure NNSA can meet delivery 
schedules for LEPs.
    For the manufacture of plutonium pits, the current CMR facility has 
limited analytical capability, and the PF-4 vault is inadequate. 
Therefore, NNSA will not be able to achieve the required 80 pits per 
year rate until the new CMRR facility is in operation. This capability 
is required for the W78 LEP by 2021.
    Dr. Cook. I agree with Mr. D'Agostino.
    Dr. Anastasio. We cannot continue to operate the current CMR 
facility forever because of inherent safety risks of a 60+ year old 
facility that will continue to increase into the future. Los Alamos has 
already closed three wings of CMR by transferring mission work to TA-55 
and curtailing other activities. The CMRR facility will support many 
programs involving plutonium and other actinides for decades to come. 
Those programs include direct support for the stockpile including 
support to the pit production activities in TA-55/PF4, weapons complex, 
nonproliferation and counterproliferation programs, counterterrorism, 
energy programs, and plutonium science. Impacts can be significant, 
including the inability to support these required mission programs.
    Dr. Miller. The fiscal year 2011 and 2012 budgets represent a 
positive first step toward reversing the recent declining budget trends 
and revitalizing the nuclear weapons complex necessary to maintain the 
U.S. nuclear deterrent. The requested budget increase for the NNSA 
Weapons Activities account balances the funded program of work across 
the three primary areas in the SSP: (1) the science and technology that 
underpins our understanding of an aging stockpile and supports a 
reinvigorated surveillance program; (2) the LEPs that are necessary to 
keep the systems safe, secure and effective; and (3) the modernization 
of the facilities and infrastructure. Funding shortfalls in any one of 
the three primary areas of SSP will likely impact the other elements of 
SSP. For instance, if Congress were not to provide funding for the CMRR 
facility and the UPF, the LEPs would be impacted. More specifically, 
the availability of CMRR could affect the extent to which new safety 
and security features are introduced into the stockpile, the 
performance margin of the LEP, and the interoperability between systems 
like the W78 and W88.
    Dr. Hommert. The Stockpile Stewardship and Management Plan (SSMP) 
assumes the availability of these facilities in the early to mid 2020s. 
A fundamental change to the SSMP plan for the stockpile would be 
required if Congress decided not to provide the required funding. An 
alternative approach for ensuring U.S. capabilities for working with 
Special Nuclear Materials (SNM) would need to be developed and funded.

    38. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, given the long list of LEPs over the next 20-
plus years, how could a delay in the construction of CMRR and UPF 
impact future LEPs?
    Mr. D'Agostino. Delaying UPF and CMRR places our ability to execute 
the current LEP schedule at a high risk--that risk will continue to 
increase every year. Nuclear component work would need to be performed 
in existing facilities like Building 9212 at Y-12 and the CMR Facility 
at Los Alamos. However, the safety, security, and environmental issues 
associated with the aging existing facilities are mounting, as are the 
costs of addressing them. NNSA manages the risks associated with the 
aging facilities and will continue to do so, but as the facilities and 
their equipment continue to age, the ability to maintain them will 
diminish. NNSA will of course exhaust all options for keeping these 
facilities open until a new UPF and CMRR have been constructed. 
However, in the event that either of these facilities had to be shut 
down due to safety, security, or environmental concerns, the loss of 
work force and critical skills would be considerable, and it would 
likely be extremely expensive to restart operations. If there are 
delays in delivery of the CMRR and UPF, significantly more maintenance 
and infrastructure improvement measures would be needed in the existing 
facilities, at a significant cost, to avoid a potential shut down and 
ensure NNSA can meet delivery schedules for LEPs.
    For the manufacture of plutonium pits, the current CMR facility has 
limited analytical capability, and the PF-4 vault is inadequate. 
Therefore, NNSA will not be able to achieve the required 80 pits per 
year rate until the new CMRR facility is in operation. This capability 
is required for the W78 LEP by 2021.
    Dr. Cook. I agree with Mr. D'Agostino.
    Dr. Anastasio. Future plans for LEPs will require replacement pits 
to be produced in the TA-55/PF4 building. While CMRR will not produce 
pits, this facility does provide the science to ensure that TA-55 pits 
meet the exacting chemistry and material properties needed to ensure 
the pits will function as designed. As such, a delay in CMRR 
construction creates significant delays in completion of delaying 
future LEPs.
    Dr. Miller. A delay in CMRR and/or UPF could impact the range of 
options under consideration for the upcoming LEPs. Today, the 
production complex is capable of producing components for weapons 
refurbishments. However, the facilities that CMRR and UPF will replace 
are more than 50 years old, oversized, increasingly obsolete, and 
costly to maintain. They are also safety, security, and environmental 
concerns. When completed, both CMRR and UPF will be able to operate 
more efficiently in support of the nuclear weapons enterprise. While 
the B61-12 is independent of CMRR and UPF construction, a delay in CMRR 
could have an impact on replacement or reuse design options for the W78 
LEP. The availability of CMRR could affect the extent to which new 
safety and security features are introduced into the stockpile, the 
performance margin of the LEP, and the interoperability between systems 
like the W78 and W88.
    CMRR's original construction completion date has been pushed out to 
the early 2020s according to the current schedule. LANL and LLNL 
continue to work with NNSA to ensure that sufficient capability for 
plutonium R&D is available to accommodate the workload of the complex 
to support the LEPs while CMRR is under construction. These same R&D 
capabilities are also required should the country need to characterize 
and/or attribute a nuclear terrorism related event. The country has no 
other capable facilities outside of the NNSA design laboratories.
    Dr. Hommert. The current sequence and timing of the LEPs called for 
in the Nuclear Posture Review (NPR) and documented in the SSMP would 
not be achievable, and would need to be revised. Delays in the LEPs for 
certain systems could impact our confidence in the state of health of 
the US nuclear deterrent.

    39. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, what is being done with respect to conducting 
an ICE for each facility?
    Mr. D'Agostino. Both UPF and CMRR project teams have ongoing ICEs 
being performed. The GAO has performed an independent review of the UPF 
project, and the UPF project team retained the US Army Corp of 
Engineers (USACE) to conduct an ICE for the project. The USACE results 
are being examined and compared to the project team's cost estimate to 
reconcile differences. The GAO has initiated a review of the CMRR 
project. The cost range estimates for CMRR and UPF are being 
independently validated by the DOD's Cost Analysis and Program 
Evaluation (CAPE) group.
    Furthermore, in accordance with DOE 413.3b, an External Independent 
Review (EIR) is required as part of CD-2 approval. For projects such as 
UPF and CMRR that are greater than $100 million, an ICE is a required 
component of the EIR and must validate the proposed total project 
costs. The EIR, conducted by the DOE's Office of Engineering and 
Construction Management, must validate the proposed scope, cost and 
schedule baselines as a condition of CD-2 approval.
    Dr. Cook. In addition, an independent cost reasonableness review 
was conducted on both projects in July 2010. The cost reasonableness 
review concluded that the process and steps that were being exercised 
to establish cost estimates is appropriate. Also, the former Office of 
Cost Analysis conducted an ICE on UPF and an initial review of CMRR. 
All reviews--the ones cited by the Administrator and myself plus others 
to be done as the cost estimates mature--will be considered in the 
final budgeting for both projects.
    Dr. Anastasio. We continue to support a large number of reviews of 
the CMRR, including DOD, Defense Nuclear Facilities Safety Board 
(DNFSB), GAO, and Independent Cost Evaluations (ICE). We expect to 
support comprehensive ICE reviews as the project proceeds to baselining 
in 2012 and 2013. In addition, the project will continue to support 
reviews throughout the Construction Execution Phase.
    Dr. Miller. I would respectfully defer to my colleagues at the NNSA 
for specific information on the cost estimates for the UPF at Y-12 and 
the CMRR facility at LANL.
    Dr. Hommert. I defer to Mr. D'Agostino, Dr. Anastasio, and the 
institutions accountable for executing these MCPs.

    40. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, in what way will CMRR and UPF influence U.S. 
Strategic Command's (STRATCOM) requirements for the overall size of the 
stockpile?
    Mr. D'Agostino. As described in the NPR, the non-deployed stockpile 
currently includes more warheads than required to hedge against 
technical or geopolitical surprise, due to the limited capacity of the 
NNSA complex to conduct LEPs for deployed weapons in a timely manner. 
Progress in restoring NNSA's production infrastructure will allow these 
excess warheads to be retired along with other stockpile reductions 
planned over the next decade.
    Dr. Cook. I agree with Mr. D'Agostino.
    Dr. Anastasio. The CMRR facility will support many programs 
involving plutonium and other actinides. Those programs include direct 
support for the stockpile, weapons complex, nonproliferation and 
counter-proliferation programs, counter-terrorism, energy programs, and 
plutonium science. It is important to note that CMRR will not produce 
pits but will provide the science to ensure that pits manufactured at 
TA-55/PF-4 meet the exacting chemistry and material properties needed 
to ensure the pits will function as designed. STRATCOM's current, and 
projected stockpile size requirements will be supported, as required 
with manufacturing in TA-55/PF-4 building. While the CMRR facilities 
size is capability based, a small capacity for the stockpile is 
inherent in the capability base.
    Dr. Miller. This question is best answered by STRATCOM. I would 
note that even though today the production complex is capable of 
producing components for warhead refurbishments, the facilities that 
the CMRR facility and the UPF will replace are more than 50 years old, 
oversized, increasingly obsolete, and costly to maintain. They are also 
safety, security, and environmental concerns. Confidence in and 
demonstrated performance of the production complex is clearly important 
in the sizing of the stockpile with respect to its ability to respond 
to future strategic policy uncertainties and the need to protect 
against technological failures in the stockpile itself.
    Dr. Hommert. These facilities are part of the NNSA plan for a 
responsive infrastructure. In principle, a responsive infrastructure 
could enable a smaller hedge force which would be consistent with a 
smaller overall stockpile.

    41. Senator Sessions. Mr. D'Agostino, Dr. Cook, Dr. Anastasio, Dr. 
Miller, and Dr. Hommert, without these facilities, would NNSA be able 
to meet STRATCOM's current warhead requirements?
    Mr. D'Agostino and Dr. Cook. Should NNSA not have access to the 
capabilities in the planned new facilities, the ability to produce 
uranium components and conduct analysis for pit certification would be 
limited to rates existing today, which would erode as the existing 
facilities decay. Our ability to support the stockpile and the planned 
LEPs would be jeopardized. Without UPF and CMRR, it's not a question of 
whether these capabilities would be lost, but only when. Although NNSA 
is taking all measures to continue to operate the existing facilities, 
their age and single point of failure capability raise the costs of 
safe operation each year and will eventually exceed NNSA's ability to 
keep them operational.
    Furthermore, CMR presently enables the National Laboratories to 
conduct surveillance of plutonium components in the stockpile. Should 
the facility become unusable, it will negatively impact our ability to 
assess and certify the status of the current stockpile.
    Dr. Anastasio. Without these facilities, STRATCOM's requirements 
for extended life warheads starting with the W78 LEP will be 
significantly impacted if the replacement option is selected by the DOD 
and funded by Congress.
    Dr. Miller. Today, the production complex is capable of producing 
the required components for current warhead refurbishments underway. 
However, the facilities that the CMRR facility and the UPF will replace 
are more than 50 years old, oversized, increasingly obsolete, and 
costly to maintain. They are also safety, security, and environmental 
concerns. When completed, both CMRR and UPF will be able to provide 
components more efficiently. A delay in CMRR and/or UPF could impact 
the range of options for the upcoming LEPs and the ability of LEPs to 
meet new military requirements.
    Dr. Hommert. The current NNSA plan calls for these facilities to 
become operational in the 2020s. In the near term, the stockpile can 
and will be maintained with existing facilities to meet requirements. 
However, these facilities will be needed to meet anticipated future 
requirements.

                      ssbn(x) life of hull reactor
    42. Senator Sessions. Admiral Donald, what is the current 
technology readiness level for the life of hull reactor anticipated for 
the SSBN(X)?
    Admiral Donald. Naval nuclear reactor designs are evolutionary 
rather than revolutionary. The reactor for Ohio Replacement SSBNs will 
incorporate technologies that provide greater energy and a longer 
lifetime than any previous submarine core.
    Initial development of the materials required to achieve the life-
of-ship core were part of previous research, design and manufacturing 
efforts. The knowledge gained from these efforts identified the 
additional steps needed to be ready for production. Naval Reactors is 
confident in the feasibility of the life-of-ship core and will validate 
this through rigorous testing and manufacturing demonstrations. A final 
decision on the core material for Ohio Replacement is planned to be 
made in February 2012 based on manufacturing demonstrations to date.
    While Naval Reactors has not historically used technology readiness 
levels to manage its technical efforts, the Program judges that the 
life-of-ship core technology would represent a level 5 (component and/
or breadboard validation in a relevant environment). This assessment is 
based on the fact that a prototype test cell incorporating the new 
material has been inserted in an operating, land-based reactor plant. 
Manufacturing development at the ship-production scale needs to be 
demonstrated.

    43. Senator Sessions. Admiral Donald, how are the requirements for 
the life of hull reactor design for SSBN(X) different from those in 
current Virginia-class submarines?
    Admiral Donald. SSBNs spend more time at sea than SSNs in order to 
meet the requirements for strategic patrols. Ohio Replacement will also 
be designed for a life of 42 years, vice 33 for Virginia. The Ohio 
Replacement core will operate at sea for more than twice as many days 
as Virginia's core. In order to achieve this increase in energy and 
lifetime demand, Naval Reactors is designing a core with new materials 
based on previous research. A more detailed, classified briefing can be 
provided.

    44. Senator Sessions. Admiral Donald, I understand that the current 
milestone and decision point for determining the technical feasibility 
of developing a life of hull reactor for SSBN(X) is in February 2012. 
If it is determined that a life of hull reactor for the SSBN(X) is not 
possible, how will that impact the overall number of boats required to 
meet STRATCOM requirements?
    Admiral Donald. The resources in our DOE budget are based on 
completing the additional development needed to ensure success of 
production of a life-of-ship core in Ohio replacement. Without a life-
of-ship core, two additional ships will be required to meet STRATCOM's 
requirements, thereby costing taxpayers approximately $10 billion in 
ship construction.

    45. Senator Sessions. Admiral Donald, would additional boats be 
required to compensate for refueling?
    Admiral Donald. Yes. Without a life-of-ship core, two additional 
ships will be required to meet STRATCOM's requirements, thereby costing 
taxpayers approximately $10 billion in ship construction.

    46. Senator Sessions. Admiral Donald, in the House-passed version 
of H.R. 1, the fiscal year 2011 full year CR, the Energy and Water 
Subcommittee of the House Appropriations Committee cut the President's 
fiscal year 2011 NR budget by $103 million. What is the anticipated 
impact of that reduction?
    Admiral Donald. The $103 million cut proposed in H.R. 1 grew to 
$111 million in P.L. 112-10 signed by President Obama on 15 April 10. 
The impacts of that $111 million cut are as follows:

        <bullet> a 6- to 9-month delay to the Ohio Replacement Program 
        and resultant loss of synchronization with the Navy's work on 
        the ship.
        <bullet> staffing reduction of over 50 contractors at shipyards 
        and Naval Reactors' laboratories.
        <bullet> deferral in planned hiring of 150 contractors at 
        shipyards and Naval Reactors' laboratories.
        <bullet> deferral in Ohio Replacement reactor plant component 
        design subcontract placements.
        <bullet> a reduction in pension contributions.
        <bullet> other impacts to Naval Reactors, including deferral of 
        previously planned General Plant Projects (GPP).
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                              pantex plant
    47. Senator Cornyn. Mr. D'Agostino, on July 7, 2010, the Pantex 
Plant was impacted by a severe thunderstorm, causing significant 
flooding throughout the plant, as well as equipment and facility 
damage. Pantex received $8.8 million in fiscal year 2010 for flood 
recovery efforts. It is my understanding that Pantex requires an 
additional $17.2 million for repair and recovery efforts, as well as 
$2.25 million to mitigate the impact of future flood events. The 
President's fiscal year 2012 budget request for operating requirements 
at Pantex is $649.3 million. Does this figure cover all remaining flood 
repair, recovery, and mitigation efforts required at Pantex?
    Mr. D'Agostino. The Pantex rain event occurred in July 2010, after 
the fiscal year 2011 President's budget had been submitted to Congress. 
NNSA committed $8.8 million in fiscal year 2010 for immediate flood 
recovery efforts. This funding, along with Pantex internal 
efficiencies, addressed the most critical issues faced by the site to 
restoring operations. NNSA continues to evaluate the available fiscal 
year 2011 funding in the RTBF program, and will work to determine the 
best option for addressing the most urgent needs. The President's 
fiscal year 2012 budget request includes $164.8 million for Pantex RTBF 
Operations of Facilities, which is sufficient to fund any remaining 
flood repair, recovery, and mitigation activities.

    48. Senator Cornyn. Mr. D'Agostino, the fiscal year 2012 budget 
request also covers resumption of work on a new 45,000-square-foot 
high-explosives pressing plant at Pantex. Design work for this facility 
was completed in 2009 and then put on hold, and it is my understanding 
that projected completion of this project is now by 2017. What is the 
current timeline for construction, and what is your department doing to 
ensure that no further delays are experienced?
    Mr. D'Agostino. The project completion date is now September 2016. 
An External Independent Review (EIR) has been conducted to validate the 
new cost and schedule and the project's baseline revised per the EIR 
findings. Costs have increased due to the need to add more contingency 
for risk and the added cost escalation due to delay. The United States 
Army Corps of Engineers (USACE) is the Construction Services Manager 
and will manage the cost, schedule and technical performance of this 
project to ensure no further delays and cost overruns are experienced. 
The USACE has received bids for the project on March 1, 2011 and 
expects to award the construction contract in third quarter fiscal year 
2011. The contract will be a firm-fixed price contract with fixed cost 
and completion date.

    49. Senator Cornyn. Mr. D'Agostino, according to the 2009 report by 
the Congressional Commission on the Strategic Posture of the United 
States, ``excessive regulation originating outside the NNSA but within 
a risk-averse DOE was raising cost and hampering production at 
Pantex.'' The report found that two broad attitudes are often cited as 
contributing to excessive regulation: ``the failure of the NNSA and DOE 
to distinguish between what to do (a government function) and how to do 
it (a contractor responsibility),'' as well as the government's 
``tendency to respond to problems by imposing new rules that will 
`guarantee' that the problem does not recur.'' What efforts have the 
NNSA and DOE taken to alleviate this excessive regulation, promote 
production, and reduce costs at Pantex?
    Mr. D'Agostino. In 2009, I established and chaired a Governance 
Board consisting of senior leaders from NNSA and its contractors to 
develop an approach to transforming the way we govern our contractors 
and ourselves. The efforts of the Board resulted in a number of short- 
and long-term actions to drive transformation in governance and 
oversight programs. The ultimate goal of these actions is to streamline 
how NNSA does business and allow resources to be focused and directed 
in a way that maximizes mission accomplishment, while ensuring that 
safety and security are integral components of that mission.
    Upon completion of the governance and oversight transformation 
effort, NNSA expects to have the following:

        <bullet> Clearer roles, responsibilities, and accountability
        <bullet> Stronger Contractor Assurance Systems
        <bullet> Better balanced Federal requirements
        <bullet> More focused, integrated, effective and efficient 
        Federal and contractor oversight systems, and
        <bullet> Improved contractual performance accountability

    The effort to better balance Federal requirements directly 
addresses the concern regarding the ``two attitudes'' cited from the 
2009 report by the Congressional Commission on the Strategic Posture of 
the United States. NNSA has implemented a number of changes to its 
contract requirements to address duplication and redundancy in 
requirements and to eliminate unnecessary prescription. NNSA 
established the expectation that a team of senior managers review 
proposed new requirements or changes to requirements promulgated by 
DOE. As part of its review, the team ensures new or modified 
requirements focus on performance outcomes. The team also helps ensure 
those requirements are not an inappropriate response to addressing a 
performance problem at an individual site. This team of managers has 
worked with other DOE organizations responsible for internal 
requirements and regulations to effect significant change in those 
requirements; many of the changes address the concerns raised in your 
question. However, this is a work in progress as the same pressures and 
attitudes that led to the concerns raised by the Commission still exist 
internal and external to NNSA and DOE.
    DOE has also undertaken initiatives to improve its requirements. In 
2010, the Deputy Secretary initiated DOE's 2010 Safety and Security 
reform effort. This effort is intended to streamline DOE requirements 
in the areas of safety and security. NNSA has worked with DOE on this 
effort. As part of the security reform initiative, and in partnership 
with the DOE's Office of Health, Safety and Security, NNSA has 
completed the initial phase of a Zero-Based Security Review that will 
improve NNSA's ability to implement its nuclear security mission while 
maintaining a robust security posture at all of its sites. These 
reforms will demonstrate to Congress and others that the NNSA 
effectively accomplishes its safety and security requirements in a 
manner that is reasonable, defensible, and consistent across the 
Nuclear Security Enterprise.

                         national laboratories
    50. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, was 
there an assessment made 4 years ago that the W78 should be replaced 
within a decade, meaning that weapon won't begin replacement work until 
6 years after you stated it needs to be replaced?
    Dr. Anastasio. The W78 warhead entered the stockpile in 1980. LANL 
has been monitoring the health of the W78 since then, principally 
through the surveillance program, which includes flight testing. In 
each of the last 15 years, the Laboratory has issued a W78 annual 
assessment report, and the respective Laboratory Directors have issued 
an annual assessment letter that included the W78.
    LANL has been monitoring one particular W78 aging characteristic 
for over a decade. When I became Director in 2006, and annually 
thereafter, I received technical briefings on the health of all the 
warheads and bombs for which LANL is responsible, including the W78. I 
mentioned this aging issue in my first annual assessment letter (2006) 
and updated my comments and assessment each year thereafter.
    In my 2007 annual assessment letter, I recommended that the W78 be 
replaced or enter a comprehensive life extension activity to correct 
this specific aging condition, but I did not specify a timeframe for 
execution.
    Dr. Miller. LANL has been monitoring the W78's aging 
characteristics and has assessed that aging ``has not affected the 
safety, reliability, or performance of the W78 to date;'' however, 
``the condition is progressive and beyond current predictive 
capabilities.'' LANL Director Dr. Michael Anastasio first made this 
assessment about 4 years ago and at that time stated that a life 
extension would be needed within a decade. LLNL has concurred with 
these concerns in our peer review role as part of the annual assessment 
process. Issues identified include material aging and compatibility 
issues, which can impact components within the nuclear explosive 
package (NEP).
    The W78 warhead constitutes the majority of the ICBM leg of the 
triad and has been deployed on the Air Force's Minuteman III for more 
than 31 years. It is beyond its planned service life and requires a 10 
year effort to study and then refurbish the necessary systems. It is 
important to begin the study activities on the W78 LEP in order to 
explore options to extend this warhead's life to address concerns 
identified in surveillance of W78 warheads and reported in annual 
assessments. An important function of the study is to evaluate the 
different approaches available to refurbish the warhead--as were 
outlined in the NPR--and also to assess the impacts of including 
additional safety and security features.
    Dr. Hommert. The technical issue driving the need for a life 
extension of the W78 warhead is associated with the NEP which is the 
design responsibility of LANL. I defer to Dr. Anastasio regarding the 
assessment of the W78 issue and the timelines required for the life 
extension. Regarding Sandia design responsibilities, we perform tests 
and analyses on the non-nuclear components and subsystems each year, 
adding data to the technical basis for assessing whether the 
requirements for the W78 warhead are met. Our current assessment, based 
on 30 years of data collected, is that we see no evidence of 
degradation of the non-nuclear components that would require their 
urgent replacement. However, the Sandia designed electronics in the W78 
warhead are now 30 years old and we believe it would be prudent to 
replace them when a LEP is undertaken for the warhead. The insertion of 
modern non nuclear technologies will likely be required to enable 
surety improvements and flexibility in Nuclear Explosive Package (NEP) 
options.

    51. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what prompted that statement?
    Dr. Anastasio. In my 2007 annual assessment letter, I recommended 
that the W78 be replaced or enter a comprehensive life extension 
activity to correct a specific aging condition, but I did not specify a 
timeframe for execution.
    The basis for that statement in 2007 was my assessment of the 
surveillance and research that had been accomplished. The specific 
aging condition is progressive and must be addressed in the future.
    The basis for that statement in 2007 was my assessment of the 
surveillance and research that had been accomplished. The specific 
aging condition is progressive and must be addressed in the future.
    Dr. Miller. LANL has been monitoring the W78's aging 
characteristics and has assessed that aging ``has not affected the 
safety, reliability, or performance of the W78 to date;'' however, 
``the condition is progressive and beyond current predictive 
capabilities.'' LLNL has concurred with these concerns in our peer 
review role as part of the annual assessment process. Issues identified 
include material aging and compatibility issues, which can impact 
components within the NEP. The classified LANL Annual Assessment 
Letters, starting in fiscal year 2004 through the present (fiscal year 
2010), offer the best detailed classified summary overview regarding 
the recent history associated with the warhead. The W78 warhead is 
already well beyond its planned service and requires a 10-year effort 
to complete the life extension options study and physical refurbishment 
of the warhead.
    Dr. Hommert. Please see my response to QFR #50.

    52. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, has 
your assessment of the W78 changed in the following years?
    Dr. Anastasio. Additional surveillance data and analysis has 
improved the Laboratory's understanding of this condition. However, my 
assessment that the W78 should be replaced or undergo a comprehensive 
life extension activity has not changed.
    Dr. Miller. No, LLNL's assessment has not changed. The W78 warhead 
is beyond its original design lifetime. Material aging and 
compatibility concerns increase as warheads continue to age and 
concerns about other possible changes invariably grow as a warhead type 
exceeds its original design lifetime. Results from surveillance of W78 
units have identified issues associated with material aging and 
compatibility, which have the potential to impact components within the 
NEP. This has resulted in increased attention on this warhead by LANL. 
The classified LANL Annual Assessment Letters, starting in fiscal year 
2004 through the present (fiscal year 2010), offer the best detailed 
classified summary overview regarding the recent history associated 
with the warhead.
    Dr. Hommert. Please see my response to QFR #50.

    53. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, how 
long have you recognized the aging and reliability concerns found in 
the W78?
    Dr. Anastasio. The specific W78 aging issue was first reported in 
an annual assessment letter by then-Director John C. Browne.
    LANL assesses that this aging issue has not affected the safety, 
reliability or performance of the W78 to date.
    Dr. Miller. LANL has been monitoring the W78 aging characteristics 
and has assessed that aging ``has not affected the safety, reliability, 
or performance of the W78 to date;'' however, ``the condition is 
progressive and beyond current predictive capabilities.'' Dr. Anastasio 
first made this assessment about 4 years ago and at that time stated 
the life extension would be needed with a decade. LLNL has concurred 
with these concerns in our peer review role as part of the annual 
assessment process. Issues identified include material aging and 
compatibility issues, which can impact components within the NEP. The 
classified LANL Annual Assessment Letters, starting in fiscal year 2004 
through the present (fiscal year 2010), offer the best detailed 
classified summary overview regarding the recent history associated 
with the warhead.
    Dr. Hommert. Please see my response to QFR #50.

    54. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what is the consequence of additional delays in the start of the LEP 
study, if for example the study does not commence in fiscal year 2011?
    Dr. Anastasio. Delaying the start of the W78 LEP study results in 
delaying the work that will be required to extend the life of the 
system. Within the limited nuclear weapons complex capabilities, delays 
in the W78 LEP schedule will delay future LEPs.
    We have been delaying the start of the W78 life program for several 
years. The specific condition in the W78 is progressive and must be 
addressed in the future. The longer we delay the LEP, the greater the 
risk is to the W78 and the missions that this weapon supports. As I 
mentioned earlier, at the current time, LANL assesses that this aging 
issue has not affected the safety, reliability or performance of the 
W78.
    Dr. Miller. There are a number of potential consequences associated 
with delays in starting the LEP study for the W78 warhead, which would, 
in turn, delay start of the effort to refurbish this vitally important 
weapon system that is already beyond its design life. At the highest 
level, delaying the study will increase the risk of meeting the 
proposed first-production-unit which is currently slated for fiscal 
year 2021. In addition, delays will also put at risk achieving the high 
level goals currently being put forward for the warhead attributes 
associated with this life extension (for example improving warhead 
safety, security, and use control). Delays in initiating the W78 LEP 
study would also impact the ongoing joint Navy and Air Force effort to 
develop a common Arming, Fusing, and Firing assembly for their 
respective reentry vehicles. Delays in the W78 study will also result 
in missing the opportunity to work synergistically with the ongoing 
B61-12 LEP to develop and mature technologies and processes that could 
potentially be used in both warhead life extensions.
    Dr. Hommert. Please see my response to QFR #50.

    55. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, is 
the W78 the most likely candidate for a ``replacement'' LEP?
    Dr. Anastasio. The W78 is the first possible candidate for a 
``replacement'' LEP, as the W76-1 LEP is currently being built, and the 
B61 is not designed as a ``replacement'' LEP. With regards to the W78 
LEP, many options have been proposed as possible solutions for the W78 
LEP, but until the study is complete it is impossible to decide what 
the optimal solution is. LLNL has the responsibility for this LEP. Los 
Alamos will provide a critical analysis of any options that LLNL 
proposes in this process (red-teaming the design).
    Dr. Miller. LLNL looks forward to commencing the study on the W78 
LEP. At this time it would be premature to decide which life extension 
option (refurbishment, reuse, or replacement) is the best technical 
option for the Laboratory to present to leadership in the Departments 
of Energy and Defense.
    Based on direction from the Secretary of Energy and the NNSA 
Administrator, the laboratories will explore all options. With 
information at hand on all options, stockpile decisions will be based 
on U.S. national security and stockpile requirements, informed by our 
best scientific judgment, and consistent with the guidance contained in 
the NPR and the plans outlined in the Stockpile Stewardship and 
Management Plan. I consider it my critical responsibility as a 
Laboratory Director to assure that all options authorized by Congress 
and the President are explored when LEPs option are evaluated.
    Dr. Hommert. Per the national policy guidance in the NPR, the full 
range of options will be considered for the W78 LEP, and a 
``replacement'' approach would require Presidential authorization. The 
final decision on which LEP approach is best for a given warhead is 
based primarily on characteristics of the NEP, and I therefore defer to 
Dr. Miller.

    56. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, can 
you explain why it is important to study the W88 warhead, in terms of 
potential commonality with the W78 LEP?
    Dr. Anastasio. One of the advantages of having a warhead that is 
compatible with both delivery systems (ICBMS and SLBMs) is that it 
allows different options to address potential and or unanticipated 
failures in the stockpile. The laboratories have examined the 
possibility of common adaptable warheads for a variety of applications 
over several decades. The key issue in all these evaluations is ``how 
common do the warheads need to be?''
    The studies indicate that if the goal is to maintain a credible 
deterrent with fewer warheads in the stockpile, stockpile diversity is 
critical. Ideally, the design of the physics packages for the W78 and 
W88 should be different yet able to fit and fly in ``common'' reentry 
bodies.
    Dr. Miller. A high level goal for all future LEPs is to develop 
options that would enable the life-extended warhead to be used in 
multiple delivery platforms. We need to explore if this is a viable 
approach to reducing the number of different warhead types in the 
future stockpile without adversely impacting overall stockpile 
reliability, and if this approach offers the potential to reduce the 
number of hedge (non-deployed) warheads required. For the W78 LEP, this 
goal entails developing options that would enable the resulting warhead 
to be interoperable with (able to be used in) the Air Force Mk12 A and 
the Navy Mk5 reentry vehicles. (The W88 is currently fielded in the Mk5 
Reentry vehicle.) Therefore, this requires the W78 LEP to address the 
life cycle/stockpile-to-target requirements for both of these warheads 
and both delivery vehicles and missile systems.
    Dr. Hommert. The NPR recommends ``initiating a study of LEP options 
for the W78 ICBM warhead, including the possibility of using the 
resulting warhead also on SLBMs to reduce the number of warhead 
types.'' The development of an interoperable warhead that could be 
mated to either an ICBM or SLBM delivery platform would support a hedge 
strategy that includes ``cross-leg'' hedging which would allow desired 
reductions in the size of the overall stockpile. Cross leg hedging 
means that a weapon system from one leg of the triad would be used to 
cover a shortfall created from a systemic defect or problem in a weapon 
system from another leg of the triad.
    A feasibility study of a common Arming, Fuzing, and Firing (AF&F) 
system for the W78/Mk12A and W88/Mk5 warheads was conducted by Sandia 
with excursions that examined extensions of the AF&F for high-surety 
warheads and the existing W87/Mk21 system. This 90-day study, which was 
completed in February 2010, considered enveloped functional and 
environmental requirements that were derived from Air Force, Navy, and 
STRATCOM inputs. While it is not possible to make one AF&F that can be 
used without modification on multiple delivery platforms or reentry 
systems, the study found that significant levels of AF&F commonality 
are possible with existing system architectures and enable additional 
surety features compatible with the existing NEPs and future high-
surety warhead designs. The results of this Sandia study will be 
incorporated into the W78 LEP Phase 6.1 study once it is authorized by 
Congress.

    57. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, is 
there capacity in the enterprise to undertake an LEP on the W80?
    Dr. Anastasio. The complex has limited capacity to execute several 
LEPs at the same time. In addition, several LEPs are needed in the next 
decade. It is critical for the DOD and NNSA to work out the national 
priorities in the context of limited resources. If it is a national 
priority to do the W80 LEP simultaneously with the other LEPs, there 
will be significant cost impacts and likely LEP schedule impacts as the 
nuclear weapons enterprise works towards increasing its capacity.
    Dr. Miller. The current NNSA LEP Plan includes the W80 undergoing a 
life extension in 2030. NNSA continually reviews the scheduling of LEPs 
with the aim of best supporting the U.S. nuclear deterrent.
    Dr. Hommert. The current Stockpile Stewardship and Management Plan 
sustains the W80 in the U.S. stockpile through the end of the next 
decade, with an LEP or another Long-Range Standoff option activity at 
that point in time. If this timing holds, there should be capacity in 
the enterprise to undertake this work. In the meantime, a strong 
surveillance program for the W80 is essential.

    58. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what risks is the United States taking in view of the current status of 
that warhead?
    Dr. Anastasio. On October 1, 2004, the NNSA transferred design 
agency responsibility for the W80 warhead from LANL to LLNL. In May 
2006 Nuclear Weapons Council (NWC) decided to cancel the LEP for the 
W80.
    Dr. Miller. LLNL has certified the W80 for a planned service life 
through 2030, barring any unforeseen issues with the system. Like the 
W78, a life extension of the W80 will require a 10-year effort for 
study of options and refurbishment. If a critical performance issue 
were to be identified, a delay in commencing the life extension could 
affect the status of the system.
    The risk to the stockpile is best mitigated by a balanced and well-
funded SSP, which increases the nuclear weapons enterprise's agility 
and ability to adapt to unforeseen events. The fiscal year 2011 and 
fiscal year 2012 budget increases are positive first steps toward 
revitalizing the nuclear weapons complex necessary to maintain the U.S. 
nuclear deterrent, reversing the recent trend of declining budgets, and 
manage risk. The requested budget increase to the NNSA Weapons 
Activities account balances the funded program of work across the three 
primary areas in the SSP: (1) the science and technology that underpins 
our understanding of an aging stockpile and supports a reinvigorated 
surveillance program, (2) the LEPs that are necessary to keep the 
systems safe, secure and effective; and (3) the modernization of the 
facilities and infrastructure.
    Dr. Hommert. In Sandia's non nuclear component space, concerns 
about technology obsolescence and aging are significant. We have very 
limited data associated with components fielded for more than 30 years. 
Our current experience with the B61 indicates an increasing likelihood 
of degradation and performance impacts as components age.

    59. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
when will the CMRR and UPF be required for the W78 production?
    Dr. Anastasio. Many options have been proposed as possible 
solutions for the W78 LEP, but until the study is complete it is 
impossible to decide what the optimal solution is. CMRR will be 
available to support pit production in TA-55/PF-4 starting no later 
than 2023 if the pit replacement option for the W78 is selected by the 
NNSA and approved and funded by Congress.
    Dr. Miller. The CMRR facility and the UPF are both scheduled to be 
operational in the 2021-2022 timeframe to support production 
requirements. This is fully consistent with the current W78 LEP's 
current production schedule. While it is important that the facilities 
follow the current schedule to meet its targeted FPU of the W78 LEP, it 
is equally important that potential cost growth in facility 
construction does not adversely affect the science and technology that 
underpins stockpile assessment. A balanced and well-funded SSP is 
required to support the deterrent. The requested budget increase for 
the NNSA Weapons Activities account balances the funded program of work 
across the three primary areas in the SSP: (1) the science and 
technology that underpins our understanding of an aging stockpile and 
supports a reinvigorated surveillance program, (2) the LEPs that are 
necessary to keep the systems safe, secure and effective; and (3) the 
modernization of the facilities and infrastructure.
    Dr. Hommert. I defer to Dr. Anastasio and Dr. Miller.

    60. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what are the risks to the stockpile if the facilities follow the 
current schedule?
    Dr. Anastasio. Stockpile risks can be grouped in two areas. First, 
ongoing stockpile stewardship activities (surveillance and 
manufacturing assessments) that are dependent on the chemistry and 
materials capabilities planned for the CMRR nuclear facility and 
currently housed in the existing CMR, a facility that is more than 60 
years old. Second, planned schedules for new facilities are being 
factored into LEP planning such as W78. Given this advanced planning 
risks to the stockpile are currently manageable. However, pit 
production in TA-55/PF-4 at the necessary rate cannot be supported by 
CMRR nuclear facility until 2023.
    Dr. Miller. The risk to the stockpile is best mitigated by a 
balanced and well-funded SSP, which increases the nuclear weapons 
enterprise's agility and ability to adapt to unforeseen events. The 
fiscal year 2011 budget increase is a positive first step toward 
reversing the recent declining budget trends and revitalizing the 
nuclear weapons complex necessary to maintain the U.S. nuclear 
deterrent. The requested budget increase for the NNSA Weapons 
Activities account balances the funded program of work across the three 
primary areas in the SSP: (1) the science and technology that underpins 
our understanding of an aging stockpile and supports a reinvigorated 
surveillance program; (2) the LEPs that are necessary to keep the 
systems safe, secure, and effective; and (3) the modernization of the 
facilities and infrastructure. Funding shortfalls in any one of the 
three primary areas of SSP will likely impact the other elements of 
SSP; hence, affect the deterrent. While it is important that the 
facilities follow the current schedule and are available for the FPU of 
the W78 LEP, it is equally important that potential cost growth in 
facility construction does not adversely affect the science and 
technology that underpins stockpile assessment.
    Dr. Hommert. The Stockpile Stewardship and Management Plan (SSMP) 
assumes the availability of these facilities in the early to mid 2020s. 
If the facilities follow the current schedule, the enterprise will be 
able to execute the stockpile LEPs as documented in the SSMP.

    61. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what are the risks to the stockpile if the facilities are delayed?
    Dr. Anastasio. If the pit replacement option for the W78 is 
selected by the NNSA, and approved and funded by Congress, the risk to 
delays will be determined by the existing pit build capacity. Without 
CMRR's chemistry and analytic capabilities, necessary pit production 
rates in TA-55/PF-4 cannot be supported, delaying the W78 LEP and 
future LEPs.
    Dr. Miller. The risk to the stockpile is best mitigated by a 
balanced and well-funded SSP, which increases the nuclear weapons 
enterprise's agility and ability to adapt to unforeseen events. The 
fiscal year 2011 and the fiscal year 2012 budgets are positive first 
steps toward reversing the recent declining budget trends and 
revitalizing the nuclear weapons complex necessary to maintain the U.S. 
nuclear deterrent. The requested budget increase for the NNSA Weapons 
Activities account balances the funded program of work across the three 
primary areas in the SSP: (1) the science and technology that underpins 
our understanding of an aging stockpile and supports a reinvigorated 
surveillance program, (2) the LEPs that are necessary to keep the 
systems safe, secure and effective; and (3) the modernization of the 
facilities and infrastructure. Funding shortfalls in any one of the 
three primary areas of SSP will likely impact the other elements of 
SSP; hence, affect the deterrent. While it is important that the 
facilities follow the current schedule and are available for FPU of the 
W78 LEP, it is equally important that potential cost growth in facility 
construction does not adversely affect the science and technology that 
underpins stockpile assessment.
    A delay in the CMRR facility and/or the UPF could impact the range 
of options for the upcoming LEPs. While the B61-12 is independent of 
CMRR and UPF construction, a delay in CMRR could have potential impact 
on replacement or reuse design options for W78 LEP. For the W78 LEP, 
the availability of CMRR could affect the W78 LEP's performance margin 
and the potential warhead interoperability between systems like the W78 
and W88. Also, the facilities that CMRR and UPF will replace are more 
than 50 years old, oversized, increasingly obsolete, and costly to 
maintain, and they are safety, security, and environmental concerns.
    Dr. Hommert. The current sequence and timing of the LEPs called for 
in the NPR and documented in the SSMP would not be achievable, and 
would need to be revised. Delays in the LEPs for certain systems could 
impact our confidence in the state of health of the US nuclear 
deterrent.

    62. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, do 
you support the acceleration of the construction of these facilities?
    Dr. Anastasio. Completing these projects sooner reduces risk to 
execution of required life extensions. Continuing to rely on greater 
than 60+ year old facilities to support the Nation's nuclear deterrent 
cannot be sustained.
    Dr. Miller. In the out-years, the uncertainties associated with the 
baselines for the planned LEPs and the construction of large facilities 
are my primary source of concern. Without detailed designs for the CMRR 
facility and the UPF and the corresponding cost analysis, funding 
requirements will remain uncertain. The laboratories and plants are 
working with the NNSA to develop baselines for these projects, but the 
total costs are not yet known. It is critically important to budget for 
adequate contingency in large construction projects to ensure 
sufficient flexibility to accommodate the detailed design issues that 
typically arise in constructing these complex, one-of-a-kind 
facilities. It is equally important to ensure that funding for these 
construction projects does not erode available funding for the science 
and technology activities that underpin the maintenance and assessment 
of the U.S. nuclear deterrent.
    The fiscal year 2011 and the administration's proposed fiscal year 
2012 budget increases are positive first steps toward revitalizing the 
nuclear weapons complex necessary to maintain the U.S. nuclear 
deterrent. The nation's nuclear strategy requires a SSP that is 
balanced, integrated, and sustained over time. The level of investment, 
consistent with planned nuclear warhead reductions, must grow over time 
to capitalize construction of essential new facilities; sustain a 
healthy science, technology, and engineering core; manage the aging 
stockpile; support an increased level of LEP work; and maintain a 
critically skilled workforce. Until the baselines are completed, we 
will not have an accurate and reliable estimation of the resources 
required. It is clear that sustained effort will be necessary to ensure 
the appropriate balance within the program across all of its 
requirements.
    Dr. Hommert. The current schedule is aligned with the life 
extension plans for the stockpile and therefore should be sufficient. I 
don't believe the overall budget profile for the NNSA over the next 
decade will support both the acceleration of these facilities and the 
required work on the stockpile.

    63. Senator Cornyn. Dr. Anastasio, what steps is Los Alamos taking 
to accelerate the construction of the CMRR?
    Dr. Anastasio. The project will be executed in a cost effective and 
phased manner where possible with available funding. For example, we 
plan to execute some site preparation activities such as establishing a 
concrete batch plant while the facility design is finalized. That way, 
construction can begin once the design is approved and the project 
receives authorization and the needed appropriations to begin facility 
construction.

    64. Senator Cornyn. Dr. Anastasio, what is your understanding of 
the timeline for the CMRR to be completed and to be fully operational?
    Dr. Anastasio. Formal direction from NNSA requires that CMRR be 
completed no later than 2020 with operation no later than 2023.

    65. Senator Cornyn. Dr. Anastasio, why are different completion 
dates (2020 and 2023) provided in the Section 1251 report?
    Dr. Anastasio. The 2020 date is for completion of construction. 
Readiness and startup activities leading to full operation of the 
analytical chemistry and material characterization operations is 2023.

    66. Senator Cornyn. Dr. Anastasio, after your retirement, how many 
weapon designers at Los Alamos will have direct nuclear test 
experience?
    Dr. Anastasio. After I retire there will be 8 nuclear weapon 
designers at Los Alamos with nuclear test experience. They range in age 
from 50 to 70 years old and in experience from a single nuclear test to 
being involved in greater than ten nuclear tests. In addition, we have 
10 Laboratory-Affiliate weapon designers (retired staff who work on a 
part-time basis) with nuclear test experience that helps train the next 
generation of designers.

    67. Senator Cornyn. Dr. Anastasio, what are the risks associated 
with the eventual condition when no weapon designers will have 
designed, tested, and deployed a new weapon?
    Dr. Anastasio. I have confidence in our design experts with and 
without nuclear weapons testing experience. The upcoming LEPs provide 
an essential element in continuing to develop new expertise in our 
design staff. I have also worked to develop new tools and methods for 
ensuring our confidence in the stockpile in the absence of new nuclear 
testing opportunities. In addition, the design labs have, for many 
years, instituted a rigorous training program for our incoming 
designers in anticipation of the time when our weapons staff with test 
experience would no longer be available. Another important element to 
ensure the continuing reliability of the stockpile will be in 
maintaining two distinct design laboratories, where we have two 
separate teams; one at each lab, reviewing the annual data will ensure 
good overall confidence in our systems.

    68. Senator Cornyn. Dr. Miller, how many weapon designers at 
Livermore will have direct nuclear test experience?
    Dr. Miller. There are presently 12 active nuclear weapons designers 
at LLNL with direct nuclear test experience. These designers continue 
to make vital contributions to maintaining the stockpile and assessing 
foreign threats. Additionally, there are a handful of LLNL managers 
with direct nuclear test experience who continue to share their 
expertise with the next generation of designers.

    69. Senator Cornyn. Dr. Miller, what are the risks associated with 
the eventual condition when no weapon designers will have designed, 
tested, and deployed a new weapon?
    Dr. Miller. The SSP has been extraordinarily successful in 
developing the tool set required to maintain the stockpile in the 
absence of testing and using those tools to train the next generation 
of stockpile stewards. The program was specifically designed to 
maintain the skills necessary in the absence of nuclear testing. The 
SSP's above-ground experimental facilities, such as the NIF and DARHT, 
not only provide data required for stewardship, but also provide our 
weapons designers with opportunities to carry out complex, integrated 
physics experiments that stress and hone designer judgment as issues 
are investigated or potentially new phenomena are revealed. 
Additionally, judgment is developed through computational simulation. 
Detailed simulations of weapons system performance continue to give new 
insight into weapons physics, often times beyond that available during 
the era of underground nuclear testing.
    Of equal importance is providing adequate opportunity to exercise 
skills in the complete design through production cycle, which is 
essential for training laboratory and production plant personnel. For 
example, the NNSA's assignment of responsibility for the W78 LEP to 
LLNL provides an essential path for maintaining the competency and 
capability of its design and engineering cadre through the exercise of 
an integrated system design/engineering/manufacturing program. Finally, 
involvement in the annual assessment process provides a basis for 
developing and exercising the judgment of new nuclear weapons staff in 
dealing with difficult issues related to nuclear design and 
engineering, in much the same way that the development of nuclear 
weapons and underground testing did.
    The NNSA and the laboratories have made a concerted effort to 
mentor, train and validate the skills of the next generation of the 
Nation's stockpile stewards at a time when scientists and engineers, 
who were trained during the period of extensive weapon development 
programs and nuclear testing, are still available. I am confident in 
the capabilities and competencies of LLNL's workforce. Because of this, 
and the success of the SSP, I believe that the risks associated with 
the eventual condition when there are no weapon designers who have 
designed, tested, and deployed a new weapon are minimal.

    70. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, the 
Strategic Posture Commission led by Secretaries Bill Perry and James 
Schlesinger recommended that DOE, NNSA, the Nuclear Regulatory 
Commission, and the DNFSB be realigned, and that NNSA should be a 
separate agency from the DOE. Has this occurred?
    Dr. Anastasio. No. The Strategic Posture Commission 
recommendations, as outlined in Chapter 6, include the realignment of 
the DOE/NNSA, Nuclear Regulatory Commission and the DNFSB and the 
establishment of NNSA as a separate agency. Implementing these 
recommendations requires actions on the part of Congress in cooperation 
with the executive branch.
    Dr. Miller. Not to my knowledge.
    Dr. Hommert. No, this has not occurred.

    71. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what efforts, if any, have NNSA and DOE taken to streamline Federal 
operations to facilitate laboratory productivity?
    Dr. Anastasio. We continue to work with DOE and NNSA to seek 
improvements in process efficiency and to reduce and streamline Federal 
rules and regulations and their interpretation impacting laboratory 
operations and productivity to ensure the long-term vitality of the 
Laboratory. As the Strategic Posture Commission warned, NNSA has become 
part of the problem, ``adopting the same micromanagement and 
unnecessary and obtrusive oversight that it was created to eliminate'' 
As the Stimson Center recommended in its report (pg 41) Leveraging 
Science for Security A Strategy for the Nuclear Weapons Laboratories in 
the 21st Century ``NNSA should configure its oversight of the 
Laboratories and NTS to ensure performance meets the national security 
priorities within the bounds of budget, policy, and law. The DOE should 
provide oversight in an audit capacity, not in a compliance capacity, 
to minimize unnecessarily intrusive and bureaucratic intervention.''
    Dr. Miller. In December 2009, NNSA Administrator Tom D'Agostino 
launched an Enterprise Re-engineering Reform Initiative aimed at 
dramatically rethinking and redesigning what is widely perceived to be 
a compliance and enforcement-driven relationship between Federal and 
contractor entities in NNSA. The goal is transform to a more 
constructive Federal/contractor partnership using NNSA's effort with 
the Kansas City Plant (KCP) as a model.
    LLNL submitted in June 2010 an Implementation Plan to the NNSA 
Livermore Site Office (LSO) for a governance approach implementing 
aspects of the KCP Oversight Model for Non-Nuclear Operations. 
Considerations included streamlining DOE orders and directives, 
implementation of a Management Assurance System, and changes to the 
Performance Evaluation Plan (used by NNSA to assess each site's 
performance) to focus it on more strategic issues.
    Some progress is being made. The DOE Office of Health, Safety 
intends to streamline 107 directives. A LLNL/LSO Change Control Board 
has been chartered that will determine implementation of changes to DOE 
directives. In addition, our Laboratory has been taking significant 
steps to strengthen its Contractor Assurance System and transform it 
into a fully-functioning Management Assurance System that would serve 
as a means to eliminate Federal-contractor inefficiencies in management 
and controls and reduce fixed costs. We are not yet at a stage where 
the NNSA LSO has significantly modified oversight processes based on 
its use of our Contractor Assurance System.
    Dr. Hommert. Since 2009, DOE, NNSA and Sandia have been working at 
DOE Secretary Steven Chu's direction to reengineer and transform the 
way DOE runs the enterprise and manages its contractors. Reform is 
necessary because the cost of doing business has outpaced the budget. 
Costs are being driven by management by directive, unclear Federal and 
contractor roles and responsibilities, and the government-owned 
contractor-operated (GOCO) contracting mechanism that needs updating.
    To address the problems of overly prescriptive requirements that 
are open to inconsistent interpretation and application, NNSA and the 
contractors have focused reform on: (1) thorough reviews of all 
requirements by Federal/contractor boards; (2) use of voluntary 
consensus standards where they exist and are appropriate; (3) risk-
based tailoring to each work situation; and (4) decisionmaking pushed 
to the lowest appropriate levels.
    At all steps of this process, we are assuring that the referenced 
changes will enable continued improvement in our safety and security 
environments.

    72. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, do 
you have extra layers of administration and expense because of the 
current management structure involving NNSA and DOE?
    Dr. Anastasio. We have still not fully implemented the approach 
where the Federal Government establishes our goals and we find the most 
efficient and effective means of delivering those goals.
    Dr. Miller. Safe, secure, efficient, and environmentally 
responsible work performance is a top priority at LLNL. Our management 
structure and our systems reflect that priority and are designed to 
ensure that our work is performed safely and securely and meets 
environmental quality standards.
    Many aspects of the way we operate are driven by DOE orders and 
directives-often requiring more manpower than is ideally necessary to 
ensure the quality of work performance. We are working with DOE and the 
NNSA to streamline applicable DOE orders and directives without 
compromising operational quality while implementing a Management 
Assurance System that can be used by the NNSA Livermore Site Office to 
modify and streamline oversight processes.
    Dr. Hommert. We do have to meet administrative and management 
requirements at both the DOE and NNSA levels. For the most part, these 
requirements are specific to different components of the organization 
and are addressed accordingly. However, in my view, there is some level 
of redundancy.

    73. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, the 
Strategic Posture Commission also recommended that laboratories be 
recognized for their involvement in the assessment of weapons in ways 
not involving an award fee. Has this recommendation been implemented? 
If so, how?
    Dr. Anastasio. The Strategic Posture Commission recommended that 
Congress and the administration create a formal mechanism (not 
involving awarding fee) to recognize the importance of the involvement 
of the directors of the weapons laboratories in the annual 
certification process. I am not aware of any action to bring this 
recommendation to fruition.
    Dr. Miller. The Commission recommended creation of a formal 
mechanism ``to recognize the importance of the involvement of the 
directors of the weapons laboratories.'' The Annual Assessment of the 
Stockpile is singularly my most important responsibility as director of 
LLNL. It is a responsibility that I--and prior directors--have taken on 
with full diligence and utmost seriousness.
    To my knowledge, no direct action has been taken on the 
Commission's recommendation. However, the importance of my weapons 
assessment responsibilities is properly recognized within the Federal 
Government. I have had access to all necessary audiences on any 
occasion where I have felt it necessary to voice a concern or issue 
about the stockpile. In addition, it is noteworthy that the fundamental 
importance to national security of independent, critical assessments of 
the condition of the Nation's nuclear stockpile by trained, 
knowledgeable experts at the NNSA laboratories was made clear in the 
2010 NPR. This recognition is being supported by proposed necessary 
budget increases. Your continued support for the SSP is a highly 
valuable form of recognition of the importance of the work of the NNSA 
laboratories and their directors.
    Dr. Hommert. The majority of Sandia's fee is fixed rather than 
award fee. While the award fee is associated with the overall 
laboratory performance, and some of the performance measures and 
milestones are associated with our stockpile evaluation and assessment 
responsibilities, in practice, I do not find any conflict between our 
fee structure and the ability to independently conduct the assessment 
of the stockpile. Going forward, I believe it is important to maintain 
our technical independence and that our technical judgment not be 
impacted by fee. Any changes to our fee structure should be carefully 
assessed to ensure appropriate incentives are established that do not 
compromise this technical independence.

    74. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, do 
you worry about the management structure of the laboratories?
    Dr. Anastasio. I do have concerns that in practice, the DOE/NNSA 
structure overseeing management of the Laboratory has room for improved 
efficiency and effectiveness, in balancing between enabling our support 
of technical work activities for our national security science missions 
(and which are aligned with the strategic views of both DOE and NNSA), 
and oversight of our operations. Related to this is the challenge of 
ensuring adequate investment in science, technology, and engineering 
capabilities and facilities that are essential to our mission, but 
extend beyond the near-term needs of the weapons program. This concern 
has also been identified in several previous external studies and 
assessments of the management and oversight structure under which the 
Laboratories function. Some studies, such as the report of the 
Congressional Commission on the Strategic Posture of the United States, 
have suggested profound restructuring. We continue to work with DOE and 
NNSA to seek improvements in process efficiency and to work with them 
and other agencies to ensure the long-term vitality of the Laboratory.
    Dr. Miller. Under the new contract and management structure, the 
Lawrence Livermore National Security, LLC (LLNS) partnership has 
assembled a prestigious Board of Governors consisting of leaders of the 
parent organizations and national experts in science and technology, 
mission, business, operations, and security. Oversight of Laboratory 
performance is maintained through a number of standing committees of 
the Board and regular corporate assessments. The Laboratory Director is 
also the President of LLNS and reports to this Board of Governors. The 
Federal Government through the LLNS Board of Governors has access to a 
broad range of commercial and academic expertise. The Board facilitates 
``reach back'' to the parent organizations for augmenting the talent 
and expertise at the Laboratory when the need arises. Parent 
organizations have organized Assess, Improve, Modernize (AIM) Teams, 
and Functional Management Assessment (FMA) reviews are regularly 
scheduled throughout the year to help drive continuous improvement.
    Over time, this has allowed the Laboratory to more cost effectively 
and efficiently fulfill its mission to provide exceptional science and 
technology to help solve the Nation's most important problems.
    Dr. Hommert. I believe there is an effective management structure 
in place today. Within the construct of the GOCO model, further 
refinements and modernization are required to optimize our 
contributions to the broad set of national security challenges faced by 
our full customer set.

    75. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, has 
there been a change in the emphasis on scientific research and academic 
freedom since the conversion to the for-profit model?
    Dr. Anastasio. Our emphasis on scientific research and academic 
freedom has not changed-it is critical to our mission. Los Alamos' 
national security mission, and its role as the premier national 
security science laboratory, requires a strong emphasis on scientific 
research. We continue to lead the national laboratories in the number 
of peer-reviewed scientific publications, we continue to win a 
significant number of R&D 100 awards each year, and our staff continues 
to be recognized by professional societies for their work. Our annual 
external reviews of our technical capabilities also help us validate 
our strengths and identify any weaknesses. Our mission requires that we 
act first and foremost in the best interests of the Nation, and 
represent our best technical judgments with integrity and objectivity. 
Our internal policies therefore continue to protect academic freedom to 
publish, and to demand intellectual integrity and expect scientific 
objectivity even in the face of possibly competing interests. Without 
scientific integrity, we would fail both ourselves and the Nation.
    Dr. Miller. In my view, the importance of scientific research and 
academic freedom has not been impacted by the change in the 
organization that manages the Laboratory for the Federal Government. 
These remain important cores values of the institution. I highlighted 
in my written testimony some of the many outstanding scientific and 
technical accomplishment made at LLNL in fiscal year 2010. The Lawrence 
Livermore National Security (LLNS) Board of Governors shares my belief 
that the Laboratory's continuing success ultimately depends on the 
strength of its science, technology, and engineering, which in turn, 
depends on the quality of people at the Laboratory and their ability to 
pursue scientific research in the national interest.
    As I also stressed in my written testimony, the national investment 
in the impressive science, technology, and engineering capabilities at 
the NNSA laboratories needs to be carefully nurtured and preserved. My 
concerns are budgetary. If these assets are neglected, they will 
quickly erode and disappear. This issue merits your careful 
consideration as the country faces both very difficult budget decisions 
and a challenging future in a dangerous world.
    Dr. Hommert. Please see my response to QFR #73.

    76. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, do 
you worry about the independence of the laboratories now and in the 
future?
    Dr. Anastasio. The Laboratories remain independent today and must 
in the future, to continue to properly serve the Nation. As I noted in 
my answer to the previous question, our mission requires both a strong 
emphasis on science and to provide out best technical judgments with 
integrity and objectivity independent of possibly competing interests. 
Los Alamos maintains that independence today-from both political and 
commercial interests. I have no concern that this is changing, today. 
Among other things, the presence of the University of California among 
the parent companies in Los Alamos National Security, LLC helps support 
that historical--and vital--tradition. However, retaining this 
independence requires vigilance. It is important that future Congresses 
and administrations recognize the importance to the Nation of the 
independence of the Laboratories and help the Laboratory guard it, for 
it is certainly possible for future decisions on management and 
structure to undermine it.
    Dr. Miller. I do worry about the continuing independence of the 
NNSA laboratories in the future because it is an essential element and 
core strength of the Laboratory--not only for our assessments of the 
safety, security, and performance of the nuclear weapons stockpile and 
certification of changes made to weapons to extend their lifetime, but 
also to ensure the quality of the other vitally important national 
security work we perform.
    Our continuing independence depends on three key factors. First is 
continuing recognition by the executive branch and Congress of the 
importance of the laboratories and their independence. Second, funding 
for the laboratories over the long term must be sufficient for them to 
sustain the scientific skills and technical know-how required to 
competently deal with challenging nuclear weapons issues and merit the 
confidence of the American people in the judgments of our stockpile 
stewards. Finally, the NNSA national laboratories must continue to 
attract and retain top-notch talent to address the major scientific and 
technical challenges of stockpile stewardship and the many national 
security issues facing the U.S. Vigilance is required in each of these 
areas to sustain laboratory independence.
    Dr. Hommert. It is important that the laboratories live up to the 
principles of the FFRDC model by ``operating in the public interest 
with objectivity and independence and to be free from organizational 
conflicts of interest''. In my view, this model needs to be continually 
reinforced and while I believe the national laboratories continue to 
render effective independent advice to the government; constant 
vigilance is required to retain this independence.

    77. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, is 
the Federally Funded Research and Development Center (FFRDC) model 
intact at the NNSA laboratories? If not, what has changed?
    Dr. Anastasio. Under the Federal Acquisition Regulations, an FFRDC 
``meets some special long term research or development need which 
cannot be met as effectively by existing in-house or contractor 
resources'' and ``is required to operate in the public interest with 
objectivity and independence.'' The Laboratories are exemplars for both 
attributes. The FFRDC model is excellent. However, I am concerned that 
our current contractual environment has led to an overemphasis on 
managing the Laboratory as a procurement contract and that this 
constrains the implementation of the FFRDC model at the Laboratories, 
and limits the efficiency and effectiveness with which we can offer 
support to Federal agencies in the way that the FFRDC model intends.
    Dr. Miller. LLNL is a FFRDC, operated as a GOCO entity. The 
paradigm for GOCO model is that the Government tells the contractor 
``what to do,'' and the contractor determines ``how to do it.''
    The GOCO model needs attention. The DOE Secretary, the Deputy 
Secretary and the Under Secretaries have made it a high priority to 
improve the efficiency of the Departmental processes and mechanisms for 
governance. In December 2009, NNSA launched an Enterprise Re-
engineering Reform Initiative aimed at dramatically rethinking and 
redesigning what is widely perceived to be a compliance and 
enforcement-driven relationship between Federal and contractor entities 
in NNSA. We are working with NNSA to identify governance/oversight 
issues and address them with the goal of transforming to a more 
constructive Federal/contractor partnership.
    Dr. Hommert. For the most part, the FFRDC model is intact at the 
NNSA laboratories. However, these laboratories are much more diverse in 
their national security roles than when the FFRDC model was first 
created. There is an interplay between the GOCO and FFRDC models that 
can impact the ability of the laboratories to fulfill their FFRDC 
roles. For these reasons, I believe a re-examination of the model is 
appropriate.

    78. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what is the role of the national laboratories in doing deterrence 
analysis, targeting analysis, model development, analysis validation, 
etc.?
    Dr. Anastasio. The nuclear weapons laboratories bring critical 
technical capabilities to bear on numerous national security problems. 
While the core mission of Los Alamos is assuring the safety, security, 
and effectiveness of the U.S. stockpile, the skills and personnel 
required for this mission also contribute to addressing other national 
challenges. The Laboratory was heavily involved in Cold War deterrence 
modeling and analysis, as well as in assessing weapon effects. Today, 
we are working on deterrence, stability and other related national 
security issues. Los Alamos is also involved in providing detailed 
analysis on nuclear nonproliferation, counter-proliferation, foreign 
weapon intelligence, and event response capabilities. Much of this work 
performed at Los Alamos involves and/or benefits from the development 
of applicable models to help inform decisions. Wherever possible, 
validation tools are also used to increase confidence in the robustness 
of such analyses.
    Dr. Miller. LLNL personnel have supported decisionmaking at the 
highest levels of government since the establishment of the Laboratory. 
LLNL has played a significant support role by providing in-depth 
technical analysis across the full spectrum of the Nation's `Strategic 
Assessment' efforts.
    Generally, a strategic assessment capability consists of three 
broad areas of capabilities:

    (1)  Deterrence Theory. This includes its translation into nuclear 
policy and doctrine. This effort draws on the intellects of our most 
experienced academics, former and current senior policy advisors, and 
former and current senior military officers. Over the years, the 
national effort has been informed by studies conducted at LLNL on the 
impact of systems and technologies that might be deployed in the 
future.
    (2)  Decisionmaking. Background and context support of the 
necessary government decisions is required to turn nuclear policy 
guidance into practical implementation plans. This is the area where 
LLNL's history of integrating science, technology and engineering has 
fundamentally contributed to the assessment of U.S. and foreign nuclear 
weapons systems and capabilities-as well as the impact of potential and 
proposed arms control agreements. Three examples are ICBM basing 
analysis, studies of strategic stability with the deployment of 
ballistic missile defenses, and the analysis of modernization of 
tactical nuclear forces in Europe.
    (3)  Development of execution plans for our nuclear forces. This is 
comprised of direct support to the Nation's nuclear warfighting 
apparatus and involves a myriad of technical analyses. We serve in 
technical advisory roles for such systems as the STRATCOM's S&T 
Advisory group, Red on Blue type exchange studies, and technical issue 
reviews associated with targeting studies such as ``hard and deeply 
buried targets.''

    Dr. Hommert. The 1953 Agreement between the AEC and DOD directs the 
laboratories to perform analyses of weapons effects, target 
interactions, and weapon options. The nuclear weapons laboratories have 
a long history of performing these analyses, often in partnership with 
the DOD. DOD has the lead in weapons effects/target interaction 
analysis methodology while the national laboratories are primarily 
responsible for weapons performance and output modeling.

    79. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what is the status of these capabilities at the laboratories?
    Dr. Anastasio. Los Alamos prides itself on being a national 
resource, where as a trusted advisor for the government, we provide 
technical input and support on a variety of key national security 
issues. As a result of our broad mission space, our national security 
scientific capabilities have grown and strengthened over the past 
several years to new levels (e.g., nonproliferation and 
counterterrorism). Unfortunately, other critical areas have experienced 
significant atrophy, resulting in areas where we are manpower and/or 
resource limited (e.g., radiochemical analysis and assessment, and 
weapon targeting and effects analyses). For now, I remain confident 
that we are able to deliver on the missions we are asked to address 
today, but I am concerned about the future for some of these critical 
programs.
    Dr. Miller. Today, the strategic assessment capability that exists 
at the Laboratory is significantly less than the capabilities we had at 
the height of the Cold War and what continued to exist up through the 
early 2000s. Some of this reduction had begun, understandingly, with 
the demise of the Soviet Union and the halt in the development of new 
nuclear weapons systems. The remaining reductions were a direct result 
of a combination of circumstances: (1) budgetary pressures on the 
nuclear enterprise such that the Laboratory could no longer continue 
this mission-supportive effort as a funded priority; (2) the lack of a 
government agency willing to sponsor and sustain the special skill base 
required for these types of analyses; and (3) the attrition of the high 
caliber, experienced individuals able to lead these types of 
specialized assessments without any replacement planning.
    While LLNL has a number of very talented individuals who can do 
technical analyses, we will have to ``grow'' the necessary skill sets 
of these individuals. They would provide leadership in LLNL's efforts 
to rebuild the Nation's efforts in this critical area. Essentially, if 
we are to develop such a sustainable, focused capability in a short 
amount of time, we would need to ``mentor'' a few handpicked 
individuals drawing on those experienced strategic systems analysts at 
LLNL who have led previous efforts and are either semi-retired but 
still available or about to retire in the next few years. This would 
require a concerted effort that must be planned and executed before the 
opportunity vanishes.
    It is important to note that this is a widely prevalent situation 
for the Nation's Strategic Assessment Capability, and that high-quality 
analyses require an interconnected network of skill sets. The nation 
would need a multi-year commitment from DOD and the NNSA to restore a 
sustainable Strategic Assessment Capability and a coordinated, 
interagency plan on what to specifically refresh, restore, and/or 
refocus.
    Dr. Hommert. At Sandia, these capabilities are strong. We have 
maintained a core group of systems analysts who have the appropriate 
clearances, access to data, and the broad understanding of nuclear 
weapons, weapons effects, target response, and military operations 
required for such assessments. The weapons modeling activity is a core 
activity for the laboratories and has been strongly supported. Sandia's 
recent focus in these efforts has been on supporting both DOD and NNSA 
decisions regarding LEPs, and on maintaining nuclear deterrence with 
the smallest possible number of weapons.

    80. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, how 
have those capabilities been enhanced or decreased over the last 20 
years?
    Dr. Anastasio. As I mentioned in my previous answer, Los Alamos has 
had some capabilities increase over the past 20 years, while others 
have atrophied. Some of our enhanced capabilities include the 
advancement of simulation, modeling, and computational capabilities, 
improved validation supporting not only the weapons program, but also 
nuclear nonproliferation, counter-proliferation, foreign weapon 
intelligence and event response capabilities. One area where skills 
have atrophied includes the tri-laboratory (LANL, LLNL, SNL) efforts on 
targeting analysis and weapon effects modeling. The current expertise 
in these areas resides mainly in increasingly senior staff, whose 
skills are not exercised regularly and whose capabilities must be 
transferred to create the next generation of experts.
    Dr. Miller. Despite the need to deal with a number of new 
technologies and innovations in the strategic area that have strong 
implications for our national security, there has been little 
government agency interest in conducting the type of rigorous 
analytical assessments that have supported decisionmaking in the past. 
This atrophy in capability began with the collapse of the Soviet Union 
and the subsequent peace dividend and was followed by a shift of the 
Nation's focus to conventional wars and countering terrorism. In terms 
of our remaining capabilities, it would be fair to say that current 
capability is largely aimed at support for the warfighter and the 
development of nuclear force execution plans.
    A major concern I have--in addition to the erosion and potential 
loss of our Strategic Assessment Capability--is the fact that we are 
not developing and applying necessary assessment capabilities to 
address the new realities we are beginning to face today from technical 
innovations and potential threats that are lurking just over the 
horizon. For example, we have limited ability to do assessments that 
incorporate advanced conventional capabilities, cyber, space warfare, 
hypersonic and boost glide delivery technologies, and advances in 
stealth and directed energy weapons.
    Dr. Hommert. In the area of weapons modeling, Sandia's capabilities 
have been substantially enhanced over the past 20 years. The Science-
Based SSP strengthened our ability to predict weapon system behavior in 
a variety of environments. This has increased our confidence in 
assessments of the reliability of the stockpile. In the deterrence and 
targeting analysis areas, Sandia's capabilities are longstanding and 
have been enhanced in the last 20 years by the close interaction and 
relationships established with the organizations responsible for 
building the Nation's war plans (e.g., STRATCOM, JFCC Global Strike, 
OSD, DIA, and the military services).

    81. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, is 
there appropriate expertise to assess a potential major shift in U.S. 
nuclear weapon policy?
    Dr. Anastasio. There is a small core group of dedicated individuals 
at Los Alamos with a broad range of experience involving issues related 
to nuclear weapons policy. In 2009 and 2010, this core group provided 
technical guidance on, and input into, the development of the 
government's policy positions for the 2010 NPR, the NPT Review 
Conference, the Nuclear Security Summit, and the New START treaty. 
Often on short timelines, this team helped engage the broader 
scientific capabilities of the laboratory to provide direct assistance 
to the administration on the technical issues involved in these 
important events and documents, helping to enable informed decisions 
that affect the future of U.S. nuclear weapons, nonproliferation and 
arms control policies.
    Dr. Miller. Assessing a major shift in U.S. nuclear weapons policy 
is a very complex undertaking requiring an integrated set of analytical 
skills that includes policy, sociological, and technical expertise. 
LLNL has participated in studies of this character in the past, but 
recent experiences and current capabilities are limited. The strategic 
assessment capability that exists at LLNL is significantly less than 
the capabilities we had at the height of the Cold War and what 
continued to exist up through the early 2000s.
    LLNL has a number of very talented individuals who can do technical 
analyses, but we will have to ``grow'' the necessary skill sets of the 
individuals at the Laboratory that would provide leadership in our 
efforts to support the Nation's efforts to carry out such an 
assessment. Most importantly, an integrated set of analysis 
capabilities--here at the Laboratory or elsewhere--largely does not 
currently exist and would have to be rebuilt. However, key pieces exist 
at LLNL. We can build on technical expertise and capabilities in areas 
such as weapons reliability and effectiveness, weapons enterprise 
production capabilities, issues related to monitoring nuclear weapons 
and their production, technologies and challenges related to 
verification, emerging strategic technologies and threats, and the 
capabilities of other nation states.
    Dr. Hommert. The appropriate expertise does exist to both assess 
the pros and cons of various policy options, as well as assess the 
detailed implications of any given policy. Close interaction and 
coordination among the major stakeholders mentioned previously is 
required. Sandia's contributions stem primarily from our broad 
understanding of nuclear weapons and possible future stockpile 
scenarios, including implications for deterrence policy and the 
nonproliferation and arms control regime.

    82. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
what additional measures are needed?
    Dr. Anastasio. As the Nation continues to rely on a safe, secure, 
and effective nuclear deterrent for its security and that of its 
allies, the national nuclear laboratories play a critical role.
    Included in this role is providing technical support to policy 
makers. One of the concerns at the national laboratories is that the 
set of individuals, which hold both in-depth technical and policy 
capabilities in nuclear weapon policy, is small in number and getting 
older. One of our goals in the coming years will be to engage more 
young laboratory staff in technical/policy issues involved in 
sustaining an effective deterrent, while also addressing broader 
national security issues including nonproliferation and arms control--
and to help these staff develop the experience needed to support future 
policy discussions and decisionmaking. Their informed technical input 
will be critical for the future, especially as it relates to the U.S. 
nuclear weapons stockpile and enterprise, and to the development and 
effective implementation of nonproliferation, nuclear security, 
counterterrorism and arms control monitoring and verification 
capabilities.
    Dr. Miller. The experienced, skilled analysts and integrated set of 
analysis capabilities needed to carry out a thorough assessment of a 
major shift in U.S. nuclear weapons policy largely does not exist--at 
LLNL or elsewhere--and would have to be rebuilt. The nation would need 
a multi-year commitment from DOD and the NNSA to restore a sustainable 
Strategic Assessment Capability and a coordinated, interagency plan on 
what to specifically refresh, restore, or refocus.
    Rebuilding a Strategic Assessment Capability is also important for 
addressing the new realities we are beginning to face today from 
technical innovations and potential threats that are lurking just over 
the horizon. For example, the Nation currently has limited ability to 
do assessments that incorporate advanced conventional capabilities, 
cyber, space warfare, hypersonic and boost glide delivery technologies, 
and advances in stealth and directed energy weapons.
    Dr. Hommert. It will be important for the United States to develop 
a better understanding of future adversaries to maintain deterrence at 
lower stockpile numbers while simultaneously strengthening global non-
proliferation construct. This can be accomplished by more regular and 
robust interagency collaborations that seek to cost-effectively enhance 
analytic capabilities. In addition, we need a stronger emphasis on 
assessments of aging and technology obsolescence as we move forward 
with the modernization of the stockpile.

    83. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, how 
would you rate expertise in nuclear weapons effects analysis?
    Dr. Anastasio. Los Alamos has expert-level capability in certain 
areas, and a lesser level of expertise in other areas. While the number 
of staff with these skills are limited, expert-level capabilities exist 
in definition of the weapons-effect source term (all radiation outputs 
emanating from a nuclear explosion); in the transport of radiation 
(e.g., neutrons, gamma-rays, x-rays) and the radioactivity levels they 
induce; in nuclear forensics; in electromagnetic pulse assessment; in 
air-shock and ground-shock environments; in certain nuclear-explosion 
space environments; and in assessment of nuclear weapon effects on U.S. 
warheads. Los Alamos has some expertise on modeling radiation plume 
dispersal; thermal-pulse environments; and structural damage.
    Dr. Miller. I believe that the integrated set of capabilities to 
perform weapons effects analysis has degraded significantly. Today, the 
skill to perform weapons effects analysis resides in a mere handful of 
people. At LLNL, we continue to be mindful of the importance of 
maintaining the expertise in this essential analysis area within the 
context of limited resources.
    However, it is important to note that with the tools developed by 
the SSP, the ability of the community to significantly advance our 
understanding of nuclear weapons effects has greatly increased. HPC 
advances make it possible to develop and apply far more detailed 
simulations of weapons effects than were possible even a decade ago. 
Tools like the NIF have enormous potential to conduct weapons effects 
tests and to gather detailed data that can be used to validate 
simulation models. In fact, the first campaign of weapons effects 
experiments was performed in 2010. A cadre of critically skilled 
weapons scientists and engineers is available to execute the task 
rebuilding weapons effects analysis capabilities.
    Dr. Hommert. Our nuclear deterrence depends on the capability of 
our stockpile to hold an adversary's assets at risk. To guarantee this, 
nuclear weapons must be designed and built to withstand extreme levels 
of radiation and still function as intended. The laboratories must have 
a deep scientific understanding of how radiation can damage systems and 
be able to model the effects of radiation on our stockpile. We can no 
longer do the testing that was done at the Nevada Test Site or at other 
facilities that are no longer operating, such as the Sandia Pulsed 
Reactor. We are more dependent than ever on our remaining experimental 
facilities and our ability to model effects.
    Our expertise in modeling weapons effects is extensive but fragile. 
This capability depends on scientific expertise in a wide range of 
esoteric subjects, such as electromagnetic effects, shock and 
mechanical response, equation of state of exotic materials, radiation 
transport, radiation damage in semiconductors, high-voltage breakdown, 
nuclear and plasma diagnostics, pulsed-power and reactor technologies, 
density functional theory, and molecular dynamics. In some areas our 
expertise is very robust, but in other areas it depends on just one or 
two people. In a couple of cases we have lost important capability, and 
we are trying to rebuild it. Many of our best scientists are nearing 
retirement, and we are aggressively recruiting people to work on the 
upcoming stockpile refurbishments. It takes some time for newly hired 
staff to become fully effective in working on our unique technologies. 
We face significant technical challenges in understanding the 
performance of aging weapons and in refurbishing the stockpile. Our 
research programs in these areas are essential to supporting the 
stockpile and to training the staff of the future.

    84. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, in 
terms of the connection between stockpile stewardship and assessing the 
targeting value of a weapon, what are the consequences of warhead aging 
and reliability for STRATCOM on targeting, especially at reduced 
stockpile numbers?
    Dr. Anastasio. Intended weapon targeting is factored into the 
Military Characteristics and Stockpile-to-Target sequence requirements 
associated with each type of U.S. weapon system. Weapons must sustain 
the rigors of warhead launch and delivery, and may be intended to fly 
through and survive defended target space (so-called hostile 
encounters). In general, nuclear weapons were designed with margins to 
sustain the rigors of warhead delivery, including hostile encounters. 
Weapon aging can lead to internal weapon changes that reduce those 
margins, which, in principle, can impact STRATCOM targeting options. 
Los Alamos has the capability to assess the impact of weapon aging, as 
well as the rigors of warhead delivery and hostile encounters, in 
evaluating reduced weapon margins. Accordingly, inputs are made 
available to STRATCOM to help inform their decisions on targeting. 
These inputs become more important at reduced stockpile numbers and as 
the stockpile continues to age.
    Dr. Miller. As the number of weapons decrease, the importance of 
optimal selection of targets and reliable weapon performance greatly 
increases. At some point, a fundamental shift in approach will be 
necessary. During the Cold War, with large numbers of weapons and 
targets, consideration of a statistical average of expected weapon 
reliability was sufficient and if a target were especially important, 
more than one weapon could be designated. At much smaller numbers, 
knowledge of the health of each individual warhead becomes increasingly 
important. Such information will require a fundamental change in the 
nature of the surveillance stockpile program and use of technical 
options such as imbedded sensors that would allow assessment on a 
weapon-by-weapon basis rather than reliance on statistical ``average'' 
behavior.
    Dr. Hommert. Today, the U.S. nuclear weapons stockpile is assessed 
to be safe, secure, and reliable. We strive to continuously strengthen 
the scientific underpinnings of our assessments, and thereby improve 
our understanding of the state of health of the stockpile. For the 
future, concerns we have about aging and technology obsolescence 
associated with our non-nuclear components must be addressed through 
the LEPs.

    85. Senator Cornyn. Dr. Anastasio, Dr. Miller, and Dr. Hommert, 
should there be consideration given to increased reliability/
survivability requirements as the stockpile is reduced?
    Dr. Anastasio. Consideration for stockpile reliability and 
survivability requirements is extremely high today, and would remain so 
as the stockpile is reduced.
    Dr. Miller. It is important to ensure the reliability of stockpile 
remains high as the stockpile is reduced. It is equally important that 
the Nation have high confidence in the quality of the weapon 
performance and reliability assessments of the stockpile stewards. A 
balanced and well-funded SSP is key to ensuring the stockpile is safe, 
secure, reliable, and effectively meets evolving military requirements 
and assuring decisionmakers that the weapons scientists and engineers 
making those assessments have the necessary training, skills, and 
ability.
    The fiscal year 2011 budget increase is a positive first step 
toward reversing the recent declining budget trends and revitalizing 
the nuclear weapons complex necessary to maintain the U.S. nuclear 
deterrent. The necessary program of work to create a balanced SSP 
includes: (1) the science and technology that underpins our 
understanding of an aging stockpile and supports a reinvigorated 
surveillance program; (2) the LEPs that are necessary to keep the 
systems safe, secure and effective; and (3) the modernization of the 
facilities and infrastructure. Funding shortfalls in any one of the 
three primary areas of SSP will affect the deterrent, particularly as 
the stockpile is reduced.
    Dr. Hommert. The requirements for stockpile reliability and 
survivability are high today, and should be maintained as the size of 
the stockpile is reduced. As we go forward to reduced numbers, we must 
address aging and technology obsolescence associated with non nuclear 
components to ensure that our stockpile continues to meet these 
requirements.

    [Whereupon, at 4:20 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                           STRATEGIC SYSTEMS

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Nelson and Sessions.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff member present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Christine G. Lang, Hannah I. 
Lloyd, and Brian F. Sebold.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Nelson; and Lenwood Landrum, assistant to 
Senator Sessions.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Nelson. Good afternoon. The Strategic Forces 
Subcommittee convenes today to discuss the strategic systems of 
the Military Services, the bombers, the submarine-launched 
ballistic missiles (SLBM), and the land-based ballistic 
missiles. They'll all be in the inventory of U.S. strategic 
systems for many years, but in smaller numbers. At the same 
time that we're reducing the overall numbers of strategic 
systems, we must also be modernizing them. Most of these 
systems will support U.S. deterrence through 2030.
    To discuss these systems today, we have with us: Lieutenant 
General James M. Kowalski, Commander, Air Force Global Strike 
Command; Rear Admiral Terry J. Benedict, Director, Navy 
Strategic Systems Programs (SSP); Major General David J. Scott, 
Director, Air Force Operational Capability Requirements, Deputy 
Chief of Staff, Force Operations, Plans and Requirements; Major 
General William A. Chambers, Air Force Assistant Chief of Staff 
for Strategic Deterrence and Nuclear Integration; and Brigadier 
General Garrett Harencak, Commander, Air Force Nuclear Weapons 
Center.
    Welcome to all of you here today. We appreciate your being 
here.
    At approximately 3:30 p.m., we'll adjourn here and 
reconvene in a closed session in room 217 of the Senate 
Visitors Center. Lieutenant General Mark D. Shackelford, 
Military Deputy, Office of the assistant Secretary of the Air 
Force for Acquisition, will brief the members of the committee 
on the Air Force plans for the new bomber program.
    Last year the administration completed the congressionally-
directed Nuclear Posture Review (NPR), which set forth the 
nuclear force structure for the next decade. This force 
structure is reflected in the New Strategic Arms Reduction 
Treaty (START) which entered into force in February. Under the 
terms of the treaty, the United States will maintain no more 
than 700 deployed strategic missiles and nuclear-capable 
bombers and no more than 800 non-deployed strategic missile 
launchers and nuclear-capable bombers. While the United States 
has 7 years to come into compliance with the treaty, planning 
is already underway.
    We look forward to hearing from each of our witnesses this 
afternoon about the plans for implementing the New START 
treaty. While reducing the number of delivery systems, they 
must also be sustained, modernized, and eventually replaced. 
Each of the systems today is highly capable, but maintaining 
that capability well into the next decade will take significant 
focus and funding.
    All three of the bombers will need significant 
modernization until the new bomber can replace them. The B-52, 
the oldest of the bomber fleet, will be almost 70 years old 
when it's replaced. While old, the bombers remain formidable, 
as evidenced by recent events in Libya and the ongoing 
deployments in support of the war in Afghanistan.
    The Trident D5 SLBM will continue in production, with 
targeted upgrades, as it transitions from the current ballistic 
missile to the Ohio-class replacement submarine. Planning and 
design for that new submarine is already underway.
    The Minuteman III intercontinental ballistic missile (ICBM) 
has recently been upgraded to last through 2020. To continue to 
be a viable system through 2030, updates will be needed.
    While most of the attention is focused on the delivery 
systems, the infrastructure that sustains these systems is 
fragile and must also be maintained and modernized. The 
support, test, and training equipment, the command and control 
systems, and even the helicopters that provide access to the 
missile fields must all be updated or replaced.
    Since the events of August 2007, when the Air Force 
unknowingly flew nuclear weapons on the wings of a B-52 bomber 
from Minot Air Force Base to Barksdale Air Force Base, the Air 
Force has undertaken significant changes in its management, 
organization, and support of the nuclear enterprise. The 
positions that Lieutenant General Kowalski, Major General 
Chambers, and Brigadier General Harencak now hold were all 
established as the result of that mistake. The Air Force has 
made considerable progress in an effort to ensure that its 
nuclear enterprise is sound.
    We look forward to hearing from each of you about the 
changes that have been made, the progress that has been 
achieved, and the plans to ensure that the progress is 
sustained.
    Now it's my pleasure to turn to the attention of Senator 
Sessions, my good friend and ranking member, for any opening 
comments you may have.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. I just so much 
enjoy working with you and respect you and your knowledge of 
these issues and commitment to America, to the defense of our 
country. I know you deeply share those views.
    I thank the distinguished panel for being with us and your 
service to your country. Given that appropriate policy 
officials couldn't be here today, I appreciate, Mr. Chairman, 
your commitment to hold another committee hearing next month to 
address critical issues regarding the modernization and future 
plans for further potential reductions, and I'm afraid unwise, 
reductions in the size of our nuclear stockpile with the U.S. 
Strategic Command (STRATCOM) and Department of Defense (DOD) 
policy officials.
    Last week's hearing focused on the cost for modernizing the 
nuclear weapons complex. The effort is a critical 
recapitalization program which the administration estimates 
will cost at least $84 billion over 10 years.
    I came up, Mr. Chairman, and I asked about those two 
buildings. They would cost a lot of money. We just had the 
biggest industrial, I think, announcement in America in 
Alabama, Thyssenkrupp steel mill, $5 billion, 3,700 acres, 7 
million square feet under roof, 160 acres under roof, 11 
million cubic yards of Earth moved, twice that for Hoover Dam; 
75,000 pilings laid end to end would stretch from Mobile, AL to 
Houston, TX; 1 million cubic yards of concrete, and much more. 
That was including their equipment, a $5 billion project.
    I think our two buildings that they're talking about were 
$4 or $5 billion each, and I think we need to ask about the 
cost of those buildings as we go forward. We need them, though. 
I really do believe that there's no alternative to modernizing 
our infrastructure at our labs.
    Today's hearing focuses on the triad of nuclear delivery 
vehicles and its modernization, which is estimated to cost more 
than $120 billion over that same period. In sum, for the 
foreseeable future our country must commit itself to 
approximately $20 billion a year to sustain and modernize our 
strategic deterrent. This, I think, is necessary investment. If 
we can make it successful for less, we need to try to do that. 
But we just have to assume this, because we neglected real 
investments in this area for many years.
    I fully agree with the bipartisan Perry-Schlesinger 
Strategic Posture Commission finding that: ``The triad of 
strategic nuclear delivery systems should be maintained for the 
immediate future and this will require some difficult 
investment choices.'' I think that bipartisan commission is 
correct. Characterizing the choices before us as ``difficult'' 
might be an understatement, but one thing that is absolutely 
clear is that the recapitalization of our deterrent will 
require a sustained, smart, and long-term commitment spanning 
future Congresses and administrations.
    I look forward to discussing the overall importance and 
crucial need for this modernization effort. I also look forward 
to discussing the timeline during which these modernization 
efforts must be accomplished, our ability to sustain what we 
currently have, and the steps being taken early on in 
emphasizing the affordability of the systems.
    DOD unfortunately is not immune to the current fiscal 
situation that we find ourselves in. This year we'll spend $3.7 
trillion and we take in $2.2 trillion. Admiral Mullen, the 
Chairman of the Joint Chiefs of Staff, has told us that our 
biggest national security threat is our debt.
    Everybody will be challenged, but there are certain things 
we have to have. We have to have a triad. We have to have 
nuclear deterrence and it needs to be safe and reliable. A 
robust triad of nuclear delivery vehicles is essential and the 
recapitalization is critical to national security.
    One of the biggest unanswered questions in the future is 
the ICBM force. According to section 1251 of the report's 
November 2010 update, the administration intends to begin to 
study what a follow-on ICBM might look like, but it is doing so 
with the concerning caveat, we note. That is, in a way that 
``supports continued reductions in the U.S. nuclear weapons.''
    Recent statements by the President's National Security 
Adviser have shed new light on the administration's intention. 
In his speech before the Carnegie Endowment, Mr. Donilon stated 
``The administration is currently making preparations for the 
next round of reductions''--we've hardly gotten through this 
one, or approved this one, and that DOD will ``review our 
strategic requirements and develop our options for further 
reductions in our current nuclear stockpile.'' He continued to 
mention in that speech the, as he said, the President's 
declared vision for ``achieving peace and security in a world 
without nuclear weapons.'' I'm confident that I won't live to 
see that, unless we do have a second coming.
    Mr. Donilan continued by stating that in meeting these 
objectives the White House will direct DOD to consider 
``potential changes in targeting requirements and alert 
postures.''
    Last month, along with 40 of my colleagues, I sent a letter 
to the President regarding our desire to be consulted on any 
further reduction plans to the nuclear stockpile. The New START 
treaty was only signed a few weeks ago. Yet the administration 
is moving forward in my opinion in a pace that justifies the 
phrase ``reckless,'' pursuing more reductions at an expedited 
and potentially destabilizing pace.
    I am very concerned and I look forward to discussing with 
our witnesses today what guidance and assumptions they have 
been given or told to follow in the design, development, and 
posture for modernizing the triad, and we'll have the policy 
people to discuss at a later date.
    Thank you, Mr. Chairman, for having this hearing and for 
the excellent team of witnesses we have before us.
    Senator Nelson. Thank you, Senator Sessions. I appreciate 
very much your opening comments and look forward to the 
opportunity for questioning.
    We have a large panel this afternoon and limited time. All 
of the prepared statements will be included for the record. 
It's my understanding that Lieutenant General Kowalski, Rear 
Admiral Benedict, and Major General Chambers will be making the 
opening statements. I guess we should start with you, Admiral.

STATEMENT OF RADM TERRY J. BENEDICT, USN, DIRECTOR OF STRATEGIC 
                   SYSTEMS PROGRAM, U.S. NAVY

    Admiral Benedict. Chairman Nelson, Ranking Member Sessions, 
distinguished members of the subcommittee: It is an honor to 
testify before you today representing SSP. SSP's mission is to 
design, develop, produce, support, and protect our Nation's 
sea-based strategic deterrent, the Trident II D5 strategic 
weapon system.
    The recently ratified New START treaty increases the 
dependence on the submarine leg of the triad. The reductions in 
warheads and launchers will result in ballistic missile 
submarines carrying approximately 70 percent of the Nation's 
strategic commitment.
    I have focused on four priorities since returning to SSP: 
nuclear weapons security, the D5 life extension program (LEP), 
the Ohio replacement program, and the solid rocket motor 
industrial base. The first priority I would like to address and 
arguably the most important priority is the safety and the 
security of the Navy's nuclear weapons. Our Marines and Navy 
Master-at-Arms provide an effective and integrated elite 
security force at our two Strategic Weapons Facilities, in 
King's Bay, GA, and Bangor, WA. U.S. Coast Guard units have 
been commissioned at both facilities to protect our Ohio-class 
submarines as they transit to and from their dive points.
    The second priority I would like to discuss is SSP's life 
extension efforts to ensure an effective and reliable sea-based 
deterrent. The D5 weapon system continues to demonstrate itself 
as a credible deterrent and exceeds the operational 
requirements established for the system almost 30 years ago. 
Last month the USS Nevada conducted the 135th consecutive 
successful flight of the D5 system.
    SSP is extending the life of the D5 weapon system through 
an update to all the subsystems: launcher, navigation, fire 
control, guidance, missile, and reentry. These life extension 
efforts will provide the Navy with the system we need to meet 
the operational requirements.
    My next priority and one of the highest Navy priorities is 
the Ohio Replacement Program. To lower development costs and 
leverage the proven reliability of the Trident II D5, the Ohio 
replacement SSBN will enter service with the D5 strategic 
weapon system beginning in 2029.
    Finally, I would like to discuss the importance of the 
solid rocket motor industrial base. The Navy is maintaining a 
continuous production of rocket motors. However, we have faced 
significant cost challenges as both the National Aeronautics 
and Space Administration (NASA) and the Air Force demands have 
declined. We are working with our industry partners, DOD, and 
Congress to sustain the solid rocket motor industrial base and 
find ways to maintain successful partnerships.
    Thank you for the opportunity to testify today and at the 
end of the other two opening statements I would be pleased to 
take your questions, sir.
    [The prepared statement of Admiral Benedict follows:]
             Prepared Statement by RADM Terry Benedict, USN
                              introduction
    Chairman Nelson, Senator Sessions, distinguished members of the 
subcommittee, thank you for this opportunity to discuss Navy's 
strategic programs. It is an honor to testify before you this morning 
representing the Navy's Strategic Systems Programs (SSP).
    SSP's mission is to design, develop, produce, support and protect 
our Navy's sea-based strategic deterrent, the Trident II (D5) Strategic 
Weapon System (SWS). The Trident II (D5) Submarine Launched Ballistic 
Missile (SLBM) represents the Nation's most survivable strategic 
deterrent capability. The men and women of SSP and our industry 
partners remain dedicated to supporting the mission of our Sailors on 
strategic deterrent patrol and our Marines and Sailors who are standing 
the watch ensuring the security of the weapons we are entrusted with by 
this nation.
    It has been 11 months since I assumed command as the 13th Director 
of SSP. This is a relatively small number of incumbents since the 
inception of the program 55 years ago. Since returning to SSP, I have 
focused on four priorities: Nuclear Weapons Security; the Trident II 
(D5) SWS Life Extension Program; the Ohio Replacement Program; and the 
Solid Rocket Motor Industrial Base. Today, I would like to discuss my 
four priorities and why these priorities are keys to the sustainment of 
the Navy's sea-based strategic deterrent and its future viability. I 
will also provide an update on our SSBN force and our flight test 
program.
                        nuclear weapons security
    The first priority I would like to address, and arguably the most 
important priority, is the safety and security of the Navy's nuclear 
weapons. Navy leadership has clearly delegated and defined SSP's role 
as the program manager and technical authority for the Navy's nuclear 
weapons and nuclear weapons security in Secretary of the Navy (SECNAV) 
Instruction 8120.1.
    At its most basic level, this priority is the physical security of 
one of our Nation's most valuable assets. Our Marines and Navy Masters 
at Arms provide an effective and integrated elite security force at our 
two Strategic Weapons Facilities in Kings Bay, GA, and Bangor, WA. U.S. 
Coast Guard Maritime Force Protection Units have been commissioned at 
both facilities to protect our submarines as they transit to and from 
their dive points. These coast guardsmen and the Navy vessels they man 
provide a security umbrella for our Ohio-class submarines. Together, 
the Navy, Marine Corps and Coast Guard team form the foundation of our 
Nuclear Weapons Security Program.
    SSP's efforts to sustain the safety and improve the security of 
these national assets continue at all levels of the organization. On 
October 1, I stood up a new division within SSP responsible for 
overseeing all nuclear safety and security operations, as well as 
managing the future acquisition planning for this mission. SSP 
continues to maintain a safe, reliable, and secure environment for our 
strategic assets as well as focus on the custody and accountability of 
the nuclear assets that have been entrusted to the Navy.
                       d5 life extension program
    The next priority I would like to discuss is SSP's life extension 
efforts to ensure an effective and reliable sea-based deterrent. We are 
executing the Trident II (D5) Life Extension Program in cooperation 
with the United Kingdom (U.K.), under the auspices of the Polaris Sales 
Agreement. I am pleased to report that our longstanding partnership 
with the U.K. remains strong.
    The Trident II (D5) SWS continues to demonstrate itself as a 
credible deterrent and meets the operational requirements established 
for the system almost 30 years ago. We have successfully conducted 135 
consecutive flight tests of the D5 missile and continue to exceed our 
required performance. This record of success demonstrates our Navy's 
ability to respond if called upon. Our allies and any potential rivals 
are assured the U.S. strategic deterrent is ready, credible, and 
effective.
    However, we cannot simply rest on our successes. The Trident II 
(D5) SWS has been deployed on our Ohio-class ballistic missile 
submarines for over 20 years, and is planned for operational deployment 
for at least another 30 years, making it operational longer than any 
other missile system SSP has deployed. We must remain vigilant of age-
related issues to ensure a continued high level of reliability.
    The Navy is proactively taking steps to address aging and 
technology obsolescence. SSP is extending the life of the D5 Strategic 
Weapon System to match the Ohio-class submarine service life and to 
serve as the initial baseline mission payload for the Ohio replacement 
submarine platform. This is being accomplished through an update to all 
the Trident II (D5) SWS subsystems: launcher, navigation, fire control, 
guidance, missile and reentry. Our flight hardware--missile and 
guidance--life extension efforts are designed to meet the same form, 
fit, and function of the original system, in order to keep the deployed 
system as one homogeneous population and to control costs. We will also 
remain in continuous production of energetic components such as solid 
rocket motors. These efforts will provide the Navy with the missiles 
and guidance systems we need to meet operational requirements.
    SSP previously restructured the D5 Life Extension Program to ensure 
sufficient time for additional missile electronics design evolutions. I 
am pleased to report that our restructured program is on track. SSP 
successfully conducted a system Critical Design Review of the missile 
electronics in January 2011. Our life extended guidance system also 
completed its Critical Design Review and is scheduled for its first 
flight test in fiscal year 2012. Our first flight test of a D5 life 
extended missile is scheduled in fiscal year 2013. The Initial 
Operating Capability of the combined missile and guidance systems is 
scheduled in fiscal year 2017.
    Another major step to ensure the continued sustainment of our SWS 
is our SSP Shipboard Integration (SSI) efforts, which utilizes open 
architecture and commercial off-the-shelf hardware. The first increment 
of this update is now being installed throughout the fleet and training 
facilities. To date, installation is complete on four U.S. SSBNs and 
two U.K. SSBNs. This effort is a technical obsolescence refresh of 
shipboard electronics hardware and software upgrades, which will 
provide greater maintainability of the SWS and ensure we continue to 
provide the highest nuclear weapons safety and security for our 
deployed SSBNs. The first end-to-end operational test of the SSI 
Increment 1 was successfully conducted in March 2011 on the USS Nevada 
(SSBN 733).
    To sustain the SWS, SSP is extending the life of the W76 reentry 
system through a refurbishment program known as the W76-1. This program 
is being executed in partnership with the Department of Energy, 
National Nuclear Security Administration. The W76-1 is now in full 
production and has achieved Initial Operating Capability. The W76-1 
refurbishment maintains the military capability of the original W76 for 
approximately an additional 30 years. This program successfully 
incorporated commercial off-the-shelf hardware and other economies to 
achieve Navy component production costs 75 percent less than previous 
nuclear arming, fuzing, and firing systems.
    In addition to the W76-1, the Navy is in the initial stages of 
refurbishing the W88 reentry system. The Navy is collaborating with the 
Air Force to reduce costs through shared technology. This refurbishment 
will reach Initial Operation Capability in the SLBM Fleet in 2018. 
These programs will provide the Navy with the weapons we need to meet 
operational requirements throughout the Ohio service life and the 
planned follow-on platform.
                        ohio replacement program
    My third priority and one of the highest Navy priorities is the 
Ohio Replacement Program. The continued assurance of our sea-based 
strategic deterrent requires a credible SWS as well as the development 
of the next class of ballistic missile submarines. The Navy team is 
taking aggressive steps to ensure the Ohio Replacement Program is 
designed, built and delivered on time with the right capabilities at an 
affordable cost. The Office of the Secretary of Defense (OSD) Defense 
Acquisition Board approved the Ohio Replacement Program Milestone A in 
January 2011 and authorized entry into the Technology Development 
Phase.
    The Navy team has the benefit of leveraging the success of the 
Virginia class build program and the opportunity to implement many of 
those lessons-learned to help ensure we design the Ohio replacement for 
affordability both in terms of the acquisition and life cycle 
maintenance. Maintaining this capability is critical to the continued 
success of our sea-based strategic deterrent now and into the future.
    The Ohio Replacement Program will replace the existing 14 Ohio-
class submarines. To lower development costs and leverage the proven 
reliability of the Trident II (D5) SWS, the Ohio replacement will enter 
service with the Trident II (D5) SWS and D5 life-extended missiles 
onboard beginning in 2029. These D5 life extended missiles will be 
shared with the existing Ohio class submarine for approximately 13 
years until the Ohio-class retires. Maintaining one SWS during the 
transition to the Ohio-class replacement is beneficial from a cost, 
performance, and risk reduction standpoint.
    A critical component of the Ohio Replacement Program is the 
development of a Common Missile Compartment that will support Trident 
II (D5) deployment on both the Ohio class replacement and the successor 
to the U.K. Vanguard Class. The United States and the United Kingdom 
have maintained a shared commitment to nuclear deterrence through the 
Polaris Sales Agreement since April 1963. The United States will 
continue to maintain its strong strategic relationship with the U.K. 
for our respective follow-on platforms, based upon the Polaris Sales 
Agreement. As Director, SSP I am the U.S. executor of this agreement. 
Our programs are tightly coupled both programmatically and technically 
to ensure we are providing the most cost effective, technically capable 
nuclear strategic deterrent for both nations.
    The New START Treaty, which entered into force on February 5, and 
the Nuclear Posture Review (NPR) reinforce the importance of strategic 
submarines and the SLBMs they carry, as the most survivable leg of the 
Triad. The reductions in warheads and launchers will result in 
ballistic missile submarines carrying the majority of the Nation's 
strategic force. Our continued stewardship of the Trident II (D5) SWS 
is necessary to ensure a credible and reliable SWS is deployed today on 
our Ohio class submarines, as well as, in the future on the Ohio 
replacement.
    The Ohio replacement will be a strategic, national asset whose 
endurance and stealth will enable the Navy to provide continuous, 
uninterrupted strategic deterrence into the 2080s. The development of 
this follow-on capability requires the cooperation of the executive 
branch and Congress to deliver an effective sea-based deterrent on time 
with the right capabilities to sustain the most survivable leg of our 
Triad at the right cost for many decades to come.
                   solid rocket motor industrial base
    The fourth priority I would like to discuss is the importance of 
the defense and aerospace industrial base. In particular, the decline 
of the Solid Rocket Motor industry has placed a heavy burden on Navy 
resources. The Navy is maintaining a continuous production capability 
at a minimum sustaining rate of 12 rocket motor sets per year through 
the Future Years Defense Plan. However, we have faced significant cost 
challenges as both the National Aeronautics and Space Administration 
(NASA) and Air Force demands have declined. We will continue to 
experience those cost increases if demand shrinks further in coming 
years.
    Reduced industrial demand has resulted in overhead costs spread 
over a smaller customer base. The Navy's growing percentage of the 
Solid Rocket Motor business base has already resulted in increased unit 
costs. In addition, Trident II (D5) is the only program in production 
of Class 1.1 type propellant. This type of propellant is highly 
energetic and necessary for use in submarines due to volume 
constraints.
    Navy added funding to the budget to address the unit cost increase. 
While these additional funds are essential for the continued production 
of D5 rocket motors, the long-term sustainment of this vital national 
capability must also be addressed.
    We are working with our industry partners, the Department of 
Defense and Congress, to sustain the Solid Rocket Motor industrial base 
and find ways to maintain successful partnerships. The OSD (Industrial 
Policy)-led Interagency Task Force, with membership from Navy, the Air 
Force, OSD along with the Missile Defense Agency and NASA, is 
developing a Solid Rocket Industrial Base Sustainment Plan. SSP is an 
integral part of this process. We look forward to continuing this 
collaborative process to find an interagency solution to maintain this 
crucial national capability.
                             today's force
    The final topic I would like to address is our SSBN force. Our 14 
U.S. Navy SSBNs, 8 of which are homeported in the Pacific and 6 in the 
Atlantic Fleet, continue to provide a credible, survivable and reliable 
sea-based strategic deterrent for our national leadership.
    Last month, the USS Nevada (SSBN 733) successfully conducted her 
Demonstration and Shakedown Operation involving the launch and flight 
test of a Trident II (D5) missile and is now ready to return to 
strategic service. The completion of this test marks the 135th 
consecutive successful flight test of a D5 missile. Therefore, I am 
pleased to report to you the Trident SWS continues to demonstrate 
itself as a credible deterrent and meet the operational requirements 
established for the system almost 30 years ago.
    USS Tennessee (SSBN 734) will soon complete her Engineering 
Refueling Overhaul, enter post availability testing, prepare for her 
Demonstration and Shakedown Operation, and return to the operational 
force in the spring of 2012. Two more of our SSBN submarines are 
undergoing Engineering Refueling Overhauls, which will maintain the 
viability of these platforms through the service life of the Ohio 
class.
    We must continue to be vigilant of age-related issues to ensure the 
high reliability needed for our SWS. With the Trident II (D5) missile 
planned for operational deployment through the service life of the Ohio 
class and as the initial payload on the Ohio replacement, D5 hardware 
will age beyond our previous experience base and will be operational 
almost twice as long as any previous sea-based strategic deterrent. 
Therefore, SSP has adjusted our flight testing philosophy to focus on 
older flight hardware in order to best predict aging characteristics. 
We tested our oldest missile to date from the USS Nevada last month. 
The first and second stage rocket motors were nearly 22 years old.
                               conclusion
    This is an exciting time to be the Director at SSP. The New START 
Treaty reduces both deployed and nondeployed nuclear weapons, which 
will require the United States to continue to rely heavily on the 
survivable capability provided by ballistic missile submarines. The 
ballistic missile submarine is only one leg of the nuclear Triad. Land-
based ICBMs, nuclear capable heavy bombers, and the SSBN force work 
together to provide the total U.S. nuclear deterrent. Each leg of the 
deterrent provides unique capabilities.
    The 2010 NPR also committed to strengthen conventional capabilities 
and reduce the role of nuclear weapons in deterring non-nuclear 
attacks, with the objective of making deterrence of nuclear attack on 
the United States or our allies and partners the sole purpose of U.S. 
nuclear weapons. SSP stands ready to support and participate in future 
Conventional Prompt Global Strike efforts should leadership authorize 
our participation. However, the NPR makes clear that as long as nuclear 
weapons exist, the United States will sustain a safe, secure and 
effective nuclear deterrent. This includes modernizing nuclear weapons 
infrastructure; sustaining the science, technology and engineering 
base; investing in human capital; and ensuring that these goals remain 
a senior leadership focus. As the Navy's primary stakeholder, SSP is 
accountable for the technical oversight, safety, and security of Navy 
nuclear weapons and we understand the vast responsibility entrusted to 
us.
    Our Nation's sea-based deterrent has been a critical component of 
our national security since the 1950s and will continue to assure our 
allies and deter our enemies well into the future. I am privileged to 
represent this unique organization as we work to serve the best 
interests of our great Nation.

    Senator Nelson. General Kowalski.

 STATEMENT OF LT. GEN. JAMES M. KOWALSKI, USAF, COMMANDER, AIR 
          FORCE GLOBAL STRIKE COMMAND, U.S. AIR FORCE

    General Kowalski. Chairman Nelson, Ranking Member Sessions, 
I'm honored to appear before you today for the first time as 
commander of Air Force Global Strike Command, representing 
nearly 24,000 airmen and civilians. With strong support from 
Secretary Donley and General Schwartz, we have pursued three 
parallel efforts: the standup of a new major command, execution 
of current operations in support of our combatant commanders, 
and establishing a culture that embraces the special trust and 
responsibility nuclear weapons require.
    We're now fully engaged on our core organize, train, and 
equip tasks. Our new headquarters is about 81 percent of our 
authorized strength and we've established the organizational 
structure and processes necessary to execute the mission. Our 
work in revitalizing the nuclear enterprise is ongoing, as we 
build upon relationships between all the stakeholders 
representing the Services, the combatant commands, and other 
Federal agencies.
    We established a number of new training programs tailored 
to the nuclear and global strike missions. These programs 
develop expertise throughout the nuclear enterprise, to include 
operations, maintenance, intelligence, and security forces. As 
we worked to equip our forces, we assumed lead major command 
responsibilities for the Minuteman III, UH-1N helicopter, B-2 
and B-52 bombers, air-launched cruise missiles, gravity nuclear 
weapons, and Air Force nuclear command and control.
    As we go forward, I see three major challenges for the 
command. First, we must consolidate the gains of the last few 
years across the nuclear enterprise. We will continue to mature 
our headquarters and be rigorous in the examination of our 
processes. Second, we have to achieve enduring cultural change 
in our nuclear enterprise, while also aggressively supporting 
the current conventional fight. Our bomber forces are more than 
just dual-capable; they are full spectrum. Recent B-2 and B-1 
missions into Libya from bases in the United States show how 
quickly a crisis can develop and how long-range bombers can 
rapidly bring flexible combat power to a joint commander.
    Finally, we must sustain and enhance our current force 
while preparing to meet the challenges of the future. At Air 
Force Global Strike Command we recognize our responsibility to 
be efficient and effective stewards of resources. Our goal is 
to instill a culture that consistently encourages innovation 
and fosters productivity.
    Our central mission remains unchanged: to develop and 
provide combat-ready forces for nuclear deterrence and global 
strike operations in support of the President and the combatant 
commanders.
    Mr. Chairman, I want to thank you and the members of the 
committee again for the opportunity to discuss the status and 
future of Air Force Global Strike Command, and I look forward 
to your questions. Thank you.
    [The prepared statement of General Kowalski follows:]
         Prepared Statement by Lt. Gen. James M. Kowalski, USAF
                              introduction
    Chairman Nelson, Ranking Member Sessions, and distinguished members 
of the subcommittee; I am honored to appear before you today for the 
first time as the Commander of Air Force Global Strike Command, 
representing nearly 24,000 dedicated airmen and civilians.
    I would like to update you on the current status of the command, 
some of our progress since my predecessor, Lieutenant General Klotz, 
last testified in March 2010, and what I see as our central challenges.
                             current status
    On 30 September 2010, Air Force Global Strike Command declared full 
operational capability. As we built this command, the first completely 
new Air Force major command (MAJCOM) in 27 years, the rest of the world 
did not pause. Some of the events that have shaped our development over 
the last year include the Nuclear Posture Review, the New START, and as 
a reminder of our conventional responsibilities, ongoing operations in 
support of U.S. Africa Command.
    Our efforts during the last year to strengthen the nuclear 
enterprise involved three parallel efforts: the methodical stand-up of 
a new major command and headquarters, the disciplined execution of 
current operations in support of U.S. Strategic Command (STRATCOM) and 
the geographic combatant commanders, and the enduring effort to 
establish a culture that embraces the special trust and responsibility 
of nuclear weapons.
    As we approach our planned manpower levels and have the initial 
tasks associated with standing up the Headquarters behind us, we must 
now focus on building the relationships and processes both internal and 
external to the command. We are pleased by the progress the 
headquarters has made in assuming responsibilities for guidance and 
oversight of our forces. We continue to mature our processes in 
developing fiscal guidance and plans within the Air Force corporate 
structure. The connective tissue between organizations within the 
command is getting stronger as the units align to our priorities, 
metrics, and battle rhythm. In declaring full operational capability, 
we closed out 696 specific action items under Programming Plan 09-01 
that ranged from the broad task of establishing the initial Air Force 
Global Strike Command structure to specific tasks such as the 
identification of formal training quotas.
    On any given day we have 1,100 airmen deployed or on standby to 
support STRATCOM in the missile complexes and about another 1,100 
deployed in support of our regional combatant commanders. In addition, 
we stand ready to deploy up to 16 B-2s and 44 B-52s along with a range 
of combat support capabilities to support national taskings.
                air force global strike command progress
    With the completion of initial stand-up activities, we were able to 
fully focus on our strategic master plan and make headway on our goals, 
objectives, and tasks. Although much work remains, I would like to 
share some of the progress we have made in our core areas of organize, 
train, and equip.
               air force global strike command--organize
    Our ongoing efforts to organize the Air Force's newest MAJCOM have 
included standing up the Headquarters, defining our role within the 
nuclear command, control, and communications system (NC3), establishing 
the 69th Bomb Squadron at Minot Air Force Base, the stand-up of General 
Officer Steering Groups in support of each of our weapons systems, 
providing Air Force Office of Special Investigations support to our 
missile convoys, and re-establishing the presence of Intelligence 
Officers in our Missile Wings.
    Standing up the headquarters presented a unique challenge the Air 
Force had not faced in 27 years. We are now operating at 81 percent of 
our authorized strength and we have established the Headquarters 
organizational structure, battle rhythms, metrics, and reviews 
necessary to execute the mission.
    ``Air Force Global Strike Command serves as the lead MAJCOM for 14 
major NC3 systems. In that capacity we provide a clear and strong voice 
for NC3 sustainment and modernization. Additionally, our staff has 
successfully integrated 14 previously dispersed NC3 programs into a 
unified and cohesive Global Strike Command NC3 portfolio. This 
translates into greater command situational awareness and management of 
these vital programs.''
    On 30 June of this year, the 69th Bomb Squadron will declare Full 
Operational Capability under the 5th Bomb Wing at Minot Air Force Base. 
The Air Force activated the 69th in September 2009 to better balance 
operational taskings with the addition of a fourth B-52 squadron, with 
two at Minot and two at Barksdale.
    We have also organized new General Officer Steering Groups (GOSGs) 
dedicated to sustaining each of our assigned weapon systems. These 
GOSGs focus on warfighter concerns, prioritize sustainment initiatives, 
and remove obstacles in order to keep Air Force Global Strike Command's 
assigned weapons systems capable and available. GOSG participation 
includes members of the Headquarters staff, senior representatives from 
Air Force Material Command and the Defense Logistics Agency, leadership 
from each of Air Force Global Strike Command's wings, and the National 
Nuclear Security Administration. Through this steering group process, 
funds and focus have been reprioritized to address issues with aging 
support equipment, diminishing manufacturing resources, supply parts 
support, and parts availability.
    We are now organized to provide the sole Response Task Force for 
any Air Force nuclear incident in the continental United States and 
stand ready to assist the Department of Energy and U.S. Air Forces in 
Europe (USAFE). An aggressive training schedule will culminate with 
participation in our first full scale national response exercise in May 
2012.
    Another organizational initiative is the revitalization of the 
Nuclear Weapons Stakeholder Partnership Meeting. This semi-annual 
meeting is the framework for discussion on specific nuclear weapon 
issues and is a forum for building relationships and trust between 
organizations from the Air Force, Navy, STRATCOM, USAFE, Defense Threat 
Reduction Agency, Department of Energy, and the National Labs. We look 
forward to our next meeting at Barksdale Air Force Base later this 
month.
    Over the course of the past year Air Force Global Strike Command 
and the Air Force Office of Special Investigations (OSI) has teamed up 
to close a 4-year gap in Federal law enforcement support to off-base 
nuclear convoys. Air Force OSI agents have joined our Security Forces 
in the convoy, and provide an important link to local, state, and 
Federal law enforcement.
    Conducting inspections is a critical MAJCOM function, and we have 
made significant progress in this area as well. Over the course of the 
last year, our Inspector General, starting from scratch, built an 86-
person inspection team fully capable of inspecting our bomber and 
missile wings. This team has been able to combine the inspection 
philosophies and instructions from Air Combat Command and Air Force 
Space Command to produce specific Air Force Global Strike Command 
direction for inspections throughout the nuclear enterprise.
    Finally, I am pleased to report that for the first time in nearly a 
decade, we have taken the steps necessary to send Intelligence Officers 
back into Missile Wings. Improving intelligence support to our nuclear 
forces was a key recommendation of the Schlesinger report and will 
enhance missile crew situational awareness, their understanding of 
strategic threats, and the vital role they play in the defense of our 
Nation.
                 air force global strike command--train
    In December 2008, the Report of the Secretary of Defense Task Force 
on Department of Defense (DOD) Nuclear Weapons Management identified 
the need for more nuclear-qualified and experienced personnel. Filling 
positions designated for personnel with nuclear experience is a command 
priority, and tailored training plays a major role in consolidating the 
gains we have made across the nuclear enterprise. Therefore, we 
established a number of programs to build upon the excellent basic 
military training and initial skills training that other Air Force 
organizations provide.
    On 30 March 2009, the Chief of Staff of the Air Force approved the 
creation of an Intercontinental Ballistic Missile Weapons Instructor 
Course (WIC) at the U.S. Air Force Weapons School (USAFWS), Nellis Air 
Force Base, NV. The mission of the ICBM WIC is to produce weapons 
officers to lead weapons and tactics development and provide in-depth 
expertise throughout the ICBM community and the nuclear enterprise. On 
19 December 2010, the USAFWS graduated the first four students from the 
ICBM WIC. Three of these graduates have returned to our ICBM units to 
stand up the first weapons and tactics flights. These weapons officers, 
well versed in the nuclear enterprise, can serve as the lead integrator 
on issues related to operations, maintenance, and security forces at 
the missile units. The ICBM WIC is on track to produce eight graduates 
per year.
    One of our newest programs is an Intelligence Formal Training Unit 
designed to help our unit intelligence teams support the nuclear and 
global strike mission. We will host 5 courses in fiscal year 2011 and 
will train approximately 100 nuclear intelligence professionals to 
fully understand the daily deterrence mission.
    For our security forces, helicopter crews, and convoy drivers, we 
conduct graduate level training at Camp Guernsey in Wyoming and expect 
to expand our investment there over the next few years. We have 
significantly increased our nuclear security training program with 
emphasis on tactical expertise, marksmanship, and small unit 
leadership. This training allows integration of security forces, 
helicopter crews, and maintenance personnel into a cohesive and 
effective security team. Training together as a team, these warfighters 
maximize the capabilities necessary to protect our Nation's most vital 
resources and most powerful weapons. Additionally, we expanded our 
training capacity to include 8th Air Force's nuclear bomber security 
forces alongside the 20th Air Force intercontinental ballistic missile 
security forces in our tactical security training classes.
                 air force global strike command--equip
    Air Force Global Strike Command assumed lead command 
responsibilities for the Minuteman III and UH-1N helicopter weapon 
systems from Air Force Space Command on 1 December 2009, and for the B-
2 and B-52 dual capable bombers from Air Combat Command on 1 February 
2010. Our four major weapons systems are on average, over 40 years old, 
and this includes our ``new'' 22-year-old B-2 bombers.
                              equip: b-52s
    We have been successful in investing in multiple B-52 platform 
improvements to address both modernization and sustainment. The Combat 
Network Communications Technology (CONECT) program is the most 
significant B-52 modernization program since 1980 and will add 21st 
century capability to the aircraft. CONECT ground testing is ongoing at 
Edwards Air Force Base. We have also recently tested a bomber flight 
control software block upgrade that will significantly improve Advanced 
Targeting Pod capabilities and provide the interface to employ 
Miniature Air-Launched Decoys, and have started the Military Standard-
1760 Internal Weapons upgrade program which will enable the carriage of 
8 modernized smart weapons in the bomb bay, such as the Global 
Positioning System-guided Joint Direct Attack Munition, increasing the 
total aircraft load-out from 12 to 20 Precision Guided Munitions.
    In the near-term, the B-52 needs upgrades to its anti-skid system, 
it needs airspace access upgrades such as the Mode S/5 transponder for 
real-time aircraft identification, data, and position, and it needs a 
new radar as the current radar is based on 1950s technology and may be 
unsupportable by 2016. We also need to resolve a safety of flight issue 
with the installation of the MultiMode Receiver 2020 Instrument Landing 
System Receiver that brings the aircraft in compliance for frequency 
modulation immunity, a requirement that previously restricted B-52 
aircraft transiting European airspace and using European airfields.
                              equip: b-2s
    We made significant progress with the B-2 Radar Modernization 
Program during the past year, completing 4 aircraft and bringing the 
fleet total to 12 upgraded aircraft. Air Force Global Strike Command 
increased maintainability of the upgraded radar system by accelerating 
technical data deliveries and by maximizing antenna diagnostic and 
prognostic capabilities through software enhancements. We have also 
completed integration of the Massive Ordnance Penetrator with the B-2 
aircraft, giving the warfighter increased capability against hardened 
and deeply buried targets.
    We made progress in addressing B-2 aircraft parts obsolescence 
issues through weekly teleconferences across the B-2 enterprise to 
track current problem parts and project future parts issues. Improved 
communication, proactive planning, and procurement, as well as new 
logistics models for small fleet management, have decreased the B-2 
monthly non-mission capable supply rate by one third since February 
2010.
    For the B-2, we also must meet national requirements for nuclear 
command and control--the program of record is the extremely high 
frequency satellite communications. This upgrade not only meets nuclear 
requirements, it provides wideband ``net-ready'' beyond-line-of-site 
connectivity for full spectrum operations.
                        equip: uh-1ns and cvlsp
    Bombers are not the only aviation weapons systems vital to our 
mission in Air Force Global Strike Command. The UH-1N (Huey) Helicopter 
has served the Air Force well since 1970, primarily in providing 
missile field support, convoy security, and ferrying missile crews and 
maintenance teams to and from the missile complexes and providing 
aerial security surveillance of remote ICBM facilities. However, 
mission requirements changed in the late 1990s, and again after the 
terrorist attacks on September 11.
    The Air Force currently operates 62 UH-1N aircraft which do not 
meet all of the vertical lift requirements in our missile fields, nor 
in the AF District of Washington. Post-September 11, DOD determined an 
urgent need for vertical lift improvements over the current UH-1N. For 
AF Global Strike Command, the Huey's primary role is to provide a 
robust and agile missile field security capability. Presently, the UH-
1N fleet does not meet missile complex security requirements for 
endurance, speed, and payload. In addition to the UH-1N's clearly 
defined capability gaps, there are not enough UH-1N aircraft to meet 
the security needs for our nuclear enterprise and the missions in the 
Military District of Washington. Finally, the UH-1N's advanced age is 
manifesting itself in the form of airframe cracks. Cracks in the UH-
1N's lift beam area and tail boom assembly present the challenge of 
keeping a 40-year-old aircraft combat mission ready while working 
through the issue of parts availability and obsolescence.
    The risk we assume with the current helicopter is unacceptable and 
the need for a replacement helicopter is both urgent and compelling. As 
lead MAJCOM, we will continue to advocate for the Common Vertical Lift 
Support Platform (CVLSP) to ensure the safety and security of missile 
field operations and to meet the requirement posed by Air Force 
District of Washington continuity of operations and government missions 
for the National Capital Region.
                              equip: icbms
    Turning now to ICBMs, the Minuteman III is congressionally mandated 
to be in service until 2030. We're in a modernization program to reach 
2020, and Air Force Materiel Command is exploring what will be required 
to reach 2030. Since 1962, the Minuteman ``family'' has been updated 
from the MMI, to the MMII, to the MMIII, and there have been upgrades 
and modifications to each of those respective models. We made 
significant strides in the past year toward completing the Propulsion 
Replacement Program, which marks the full deployment of new solid fuel 
stage motors and refurbished flight controls across the entire force to 
extend booster service life through the end of this decade. We will 
reach completion on this major effort when the last two boosters are in 
place this month.
    While the Minuteman missiles have been upgraded and modified, the 
infrastructure supporting these missiles is still early 1960s era 
equipment and we will ensure our reviews include this element of the 
weapon system. Along those lines, we began, with the support of Air 
Force Materiel Command, a depot overhaul program for the fleet of 23-
year-old Transporter Erector Vehicles and silo emplacement vehicles. We 
have established requirements for a Transporter Erector Vehicle 
replacement and have begun development of the new Payload Transporter 
vehicle. The new ICBM Payload Transporter will introduce physical 
security technologies into the reentry system transport vehicle, to 
include advanced security delay features with stand-off command and 
control activation capability. I want to thank Congress for funding 
this program at $117.8 million across the Future Years Defense Program, 
and we should see the first Payload Transporter deliveries in fiscal 
year 2015.
    These handling equipment sustainment efforts will significantly 
enhance the safety and security of daily operations across our three 
ICBM bases and supports modernization and upgrade necessary to extend 
Minuteman III through 2030. Additionally, these efforts will enable the 
Air Force to execute activities required for implementation of New 
START.
                   equip: icbm security improvements
    We have taken a number of steps to provide our security forces with 
the equipment and technology they need to protect and defend our 
Nation's nuclear deterrent.
    Air Force Global Strike Command has purchased 152 armored vehicles 
to better protect our security forces and meet DOD requirements. Some 
of these new armored vehicles have been delivered to our wings, and 
delivery will be complete no later than calendar year 2013.
    We are in the process of fully deploying new Remote Visual 
Assessment (RVA) equipment to assist security forces monitoring of the 
ICBM missile complexes. RVA enhances situational awareness, and helps 
security forces tailor the responding forces in accordance with the 
assessed threat. We are transitioning from a satellite dependent RVA 
system to a terrestrial system that increases both performance and 
responsiveness at a lower long term operating cost. In addition, we are 
modernizing our security sensor systems used to protect our above-
ground weapons storage areas, with completion of the upgrade at Minot 
Air Force Base, ND, this year.
               equip: long-range strike family of systems
    We are strong advocates and partners in the development of a long-
range strike (LRS) family of systems that will provide a visible 
deterrent and global strike capability well into the future. The Air 
Force LRS strategy uses a family-of-systems construct consisting of 
three precision-strike pillars: a long-range strike platform, a long-
range standoff missile, and a conventional prompt global strike 
capability. Both Secretary Gates and Secretary Donley have made a 
commitment to a new nuclear capable, long-range penetrating bomber.
                               challenges
    Air Force Global Strike Command faces three central challenges. 
First, we must consolidate the gains we have made across the nuclear 
enterprise. Second, we must achieve enduring cultural change in our 
nuclear enterprise while also aggressively supporting the current 
conventional fight. Finally, we must sustain and enhance our current 
force while preparing to meet the challenges of the future with 
innovative solutions. I am proud of the progress our airmen have made, 
and as I address these challenges through this testimony, I will share 
my perspective on Air Force Global Strike Command's significant 
accomplishments.
                        consolidating our gains
    Now that we have established the Command and declared full 
operational capability, we must consolidate our gains, sustain 
momentum, and provide stability to the enterprise while continuing to 
pursue improvements. One example is our recent initiative to capture 
and categorize recommendations or findings relating to our nuclear 
alert forces. In partnership with the Air Force Materiel Command, we 
are reviewing studies, assessments, reports, and other documents dating 
back to 1990 to audit the recommendations and follow through with the 
findings that have not been executed, funded, and/or mitigated. Any 
open recommendations will be worked to resolution or prioritized and 
tracked for later action according to fiscal constraints and level of 
risk.
                   sustain conventional capabilities
    Our second challenge is to achieve enduring cultural change in our 
nuclear enterprise while also aggressively supporting the current 
conventional fight. Our bomber forces are more than just dual-capable--
they are full-spectrum. Having both a nuclear and conventional mission 
is not something new for our bomber units. Nuclear capable bombers 
participated in numerous conventional operations from Korea through 
Operation Desert Storm. During the Cold War, the conventional 
employment of bombers was seen as a distraction from the core mission 
of nuclear deterrence. However, since the end of the Cold War, 
providing support to conventional operations has been a core mission 
enhanced by developments in stealth; precision; intelligence, 
surveillance, and reconnaissance; and joint connectivity. Our nuclear 
capable bombers, with enhanced conventional capabilities and training, 
have excelled in Operations Southern Watch, Allied Force, Enduring 
Freedom, Iraqi Freedom, and Odyssey Dawn.
    To help our commanders strike this balance, we executed a year-long 
review of our Designed Operational Capability statements for every unit 
in the command. We ensured that the units' missions, resources, and 
readiness metrics are clearly linked to the combat power or the combat 
support required by the joint warfighter.
    Today, our B-52s and B-2s rotate to Guam to provide continuous 
long-range strike presence and proven combat capability to the 
commander of U.S. Pacific Command. Furthermore, our recent B-2 missions 
into Libya show how quickly a crisis can develop, and how long-range 
bombers can rapidly bring flexible combat power to a joint commander. 
As a command, we must continue to evolve long-range strike as a core 
competency to ensure no adversary has complete freedom of action.
                  preparing for the future challenges
    Finally, we must sustain and enhance our current force while 
preparing to meet the challenges of the future. Sustaining our aging 
platforms and meeting current commitments competes for the resources we 
need to modernize our forces in advance of future threats.
    Secretary Gates has directed a thorough and vigorous scrub of 
military bureaucratic structures, business practices, modernization 
programs, civilian and military personnel levels, and associated 
overhead costs. At Air Force Global Strike Command we recognize our 
responsibility to be efficient and effective stewards of resources. To 
achieve both efficiency and effectiveness requires a commitment to 
creating a climate where productivity improvements--faster, better, 
cheaper--thrive. As Secretary of Defense Gates has said, ``We have not 
seen the productivity growth in the defense economy that we have seen 
and expect from the rest of the economy.''
    This is an opportunity to achieve not just efficiency targets for 
the next few budget cycles, but to institutionalize the processes, 
education, and mindset to encourage, reward, and implement operational 
innovation. Our goal is to instill a culture that consistently 
encourages innovation and to foster airmen for whom productivity 
improvements are second nature. We will ensure they have a command 
structure that allows their ideas to be raised, vetted, and 
implemented. We must be more productive in ways we have not been in the 
past while remaining focused on the daily execution of our missions.
        summary of challenges, special trust, and responsibility
    In conclusion, we have made great strides in the last year, and 
Americans can be proud of what the Airmen assigned to Air Force Global 
Strike Command accomplished since we last testified before your 
committee in 2010. We must now consolidate those gains and continue to 
forge a culture that recognizes the special trust and responsibilities 
of the most powerful weapons in our Nation's arsenal; we must do this 
while aggressively supporting the current fight; and we must sustain 
and enhance our force while preparing for future challenges.
    The existence of Air Force Global Strike command reflects the 
commitment of the Air Force to ensure the United States maintains a 
safe, secure, and effective nuclear deterrent, and the importance of 
the global strike mission.
    Thank you.

    Senator Nelson. Thank you, General.
    General Chambers.

  STATEMENT OF MAJ. GEN. WILLIAM A. CHAMBERS, USAF, ASSISTANT 
      CHIEF OF STAFF FOR STRATEGIC DETERRENCE AND NUCLEAR 
                  INTEGRATION, U.S. AIR FORCE

    General Chambers. Chairman Nelson, Ranking Member Sessions: 
Thank you for the opportunity to discuss your Air Force's 
strategic deterrent forces. Your Air Force nuclear enterprise 
consists of 450 ICBMs, 96 bombers, squadrons of F-16C and F-15E 
dual-capable fighters, and the thousands of dual-capable airmen 
who operate and sustain them. These weapons systems and 
dedicated airmen maintain the credibility of a strategic 
deterrent that requires a long-term visible commitment.
    Continuing to strengthen our nuclear enterprise remains the 
number one Air Force priority. Our Secretary and Chief of Staff 
have ingrained the Air Force's commitment to and are sustaining 
the focus on the nuclear enterprise. My written statement lays 
out their specific strategic guidance and I respectfully 
request that statement be entered into the record. Today I 
simply highlight the following areas: human capital, 
modernizing and recapitalizing, the NPR and New START.
    When the Air Force established reinvigoration of the 
nuclear enterprise as our top priority, we included our most 
precious resource, our airmen, as an integral part of that 
effort. In response, the nuclear and personnel communities 
jointly created an analytical process resulting in a 
comprehensive nuclear enterprise human capital effort which 
lays out the active management steps required to deliberately 
develop airmen and their nuclear expertise.
    From investing in our people to investing in our systems, 
every weapons system in the Air Force's nuclear enterprise is 
undergoing some form of modernizing or recapitalizing. 
Successful deterrence over the next 2 decades requires 
sustaining and modernizing our force structure in a consistent, 
year-by-year deliberate manner.
    During the next 7 years, implementation of the NPR and New 
START will bring a reduction in the role and numbers of nuclear 
weapons in our national security strategy. Our final force 
structure will meet the combatant commander's requirements and 
maintain overall effectiveness of the deterrent force.
    The President's fiscal year 2012 budget request reflects 
the positive steps we are taking to improve this Air Force core 
function. Across the FYDP, Air Force investment in nuclear 
deterrence operations totals $28 billion. The Air Force is 
committed to ensuring this investment results in systems and 
capabilities that best operationalize strategic deterrence for 
our Nation.
    The national military strategy acknowledges our Nation's 
security and its prosperity are inseparable and preventing wars 
is as important as winning them and far less costly. In this 
time of constrained resources, the efficacy of nuclear 
deterrence operations is evident in the fact that for 
approximately 3 percent of the Air Force total obligation 
authority your Air Force continues to deliver the bedrock of 
global strategic stability, providing the ICBM and bomber legs 
of the triad, as well as dual-capable fighter capability 24 
hours a day, 7 days a week, 365 days a year.
    Thank you for this subcommittee's continued support of 
America's Air Force and particularly its support to our airmen 
and the strategic deterrence they provide.
    [The prepared statements of General Chambers, General 
Scott, and General Harencak follows:]
       Prepared Statement by Maj. Gen. William A. Chambers, USAF
                              introduction
    Chairman Nelson, Ranking Member Sessions, distinguished members of 
the subcommittee, thank you for the opportunity to discuss your Air 
Force's strategic deterrent forces.
    In pursuit of the President's vision as outlined in the Nuclear 
Posture Review to ``reduce U.S. nuclear weapons and their role in U.S. 
national security strategy,'' the Air Force takes to heart its 
responsibility to uphold the entirety of his vision and pledge, `` . . 
. [that] as long as nuclear weapons exist, the United States will 
maintain a safe, secure, and effective arsenal, both to deter potential 
adversaries and to assure U.S. allies and other security partners that 
they can count on America's security commitments.'' We employ that 
arsenal to produce strategic deterrence that remains vital at a time 
when our National Military Strategy notes, `` . . . ongoing shifts in 
relative power and increasing interconnectedness in the international 
order indicate a strategic inflection point.'' Maintaining credibility 
of our strategic deterrent requires a long-term, visible commitment to 
our nuclear capabilities.
          continue to strengthen--the air force's #1 priority
    Continuing to strengthen our nuclear enterprise remains the number 
one Air Force priority. A year ago, testimony before this committee 
recounted Air Force efforts to reinvigorate our nuclear enterprise. 
That focus significantly advanced our structure, processes, and 
culture. Our focus now is on making sure those advances endure.
    Since last year's testimony, Air Force Global Strike Command 
(AFGSC), as the first major command stood up in 27 years, is the most 
visible structural change taken to ensure focused operational oversight 
and proper support to U.S. Strategic Command. AFGSC now has full 
operational command of our Intercontinental Ballistic Missile (ICBM) 
and nuclear-capable bomber forces and is continually focused on the 
airmen and their weapon systems that produce strategic deterrence every 
day. Additionally, the Air Force designated Nuclear Deterrence 
Operations as 1 of 12 Service Core Functions to ensure alignment of 
policy and resources. These are just two of the many changes to 
structure, process and culture that reflect a concerted effort to 
institutionalize our reinvigoration initiatives and maintain safe, 
secure, and effective nuclear capabilities.
    The Secretary of the Air Force and Chief of Staff of the Air Force 
articulated strategic guidance to ingrain the Air Forces' commitment to 
sustained focus on the nuclear enterprise.

        <bullet> Strengthen Positive Inventory Control of Nuclear 
        Weapons Related Materiel
        <bullet> Refine Inspection Processes
        <bullet> Fulfill Human Capital Plan to Ensure Appropriate 
        Expertise at All Levels
        <bullet> Modernize and Recapitalize Nuclear Deterrent 
        Capability
        <bullet> Implement New START
        <bullet> Craft a Comprehensive Deterrence and Crisis Stability 
        Vision that Builds on the Nuclear Posture Review

    The initiatives in the President's budget request will build on 
successes achieved since 2008 and enable the Air Force to Continue to 
Strengthen along these Strategic Steps to maintain safe, secure, and 
effective nuclear capabilities.
   strengthen positive inventory control of nuclear weapons related 
                                materiel
    Efforts continue to tighten, assess, and automate accountability 
for Nuclear Weapons Related Materiel through a completely revamped 
Positive Inventory Control process. To improve accountability, 
sustainment activities such as these have been consolidated under a 
vastly revitalized Air Force Nuclear Weapons Center. The Air Force now 
has improved visibility of our worldwide inventories and accountability 
continues to improve.
                      refine inspection processes
    We have seen positive results from the current inspection regime 
across the board. We have reinforced our long-held nuclear standards 
and we will continue to examine the size and scope of the inspections 
required to ``sustain'' excellence, focusing on effectiveness. We will 
continue critical self-inspection, Nuclear Surety Staff Assistance 
Visits, and Nuclear Surety Inspections. The goal is to bolster resolute 
attitudes of exacting compliance and strict adherence to prescribed 
standards with continual self-assessment. We now perform Root Cause 
Analysis on all major write-ups, track them and brief progress of 
corrective actions to Air Force leadership. Senior Air Force leaders 
continue to review inspection results and other key indicators on a 
frequent and recurring basis.
   fulfill human capital plan to ensure appropriate expertise at all 
                                 levels
    When the Air Force established reinvigoration of the Nuclear 
Enterprise as our top priority, we included our most precious resource 
. . . our airmen . . . as an integral part of the effort.
    In response, the nuclear and personnel communities jointly created 
an analytical process resulting in a comprehensive Nuclear Enterprise 
Human Capital Execution Plan. This action plan focuses on synchronizing 
the Air Force's Continue to Strengthen objectives that relate to 
development of airmen and their nuclear expertise.
    As a result of collaborative efforts across all nuclear 
specialties, we have instituted changes to improve the long-term 
professional fitness of our people. Over the past year, we have 
scrutinized our small, critical nuclear career fields, and recognized 
that in this era of small total force numbers and dual capability 
requirements, we must take innovative steps to optimally manage, grow, 
and retain this specialized expertise. As a result, several initiatives 
are now underway that will improve operational effectiveness in these 
critical areas. In addition, the Air Force is testing a new Enlisted 
Developmental Team process starting with the nuclear enterprise, to 
ensure deliberate development of our senior noncommissioned officers to 
create a sustainable leadership bench. We have also moved out 
aggressively to retain nuclear talent, ramping up programs to target 
expertise and critical skills through retention incentives.
    Recently, my organization was designated the Functional Authority 
for the Human Capital performing the Nuclear Deterrent Operations. As 
such, we are responsible for injecting strategic perspective in the 
array of nuclear-related human capital programs. This broadens the 
perspective of the human capital policy arm to the needs of the nuclear 
enterprise career fields, brings attention to some unintended 
consequences of broader policies, and allows for refinements in 
leveraging our skilled dual-capable nuclear airmen.
    These changes allow us to deliberately develop and manage our 
nuclear-capable personnel. Air Force senior leaders have energized 
these efforts through advocacy, continuous, focused attention and 
regular review of nuclear initiatives.
        modernize and recapitalize nuclear deterrent capability
    From investing in our people to investing in our systems, every 
weapon system in the nuclear enterprise is undergoing some form of 
modernization or recapitalization. Successful deterrence requires 
sustaining and modernizing our force structure in a consistent and 
deliberate manner. This is a vital contribution to the long-term 
credibility of our deterrent.
    Air Force funding efforts maintain ongoing investment for the 
Minuteman III and support equipment programs to extend life expectancy 
through 2030, as directed by the 2010 National Defense Authorization 
Act. Ensuring consistent, adequate sustainment of MM III requires an 
investment strategy addressing cryptographic upgrades, ICBM fuze 
refurbishment, and modernizing data transfer technology. Additionally, 
the Air Force and the National Nuclear Security Administration (NNSA) 
plan to start a life extension program for the W78.
    Although a decision on a follow-on ICBM is not needed for several 
years, the Nuclear Posture Review recognized the need for studies to 
inform a decision on Ground-Based Strategic Deterrence beyond 2030. In 
January 2011, AFGSC initiated study efforts appropriate to the early 
stages of the ICBM follow-on. Once these are complete, the study will 
move into a Materiel Solution Analysis (MSA) phase, which will include 
an Analysis of Alternatives (AoA). We plan to complete the MSA phase in 
fiscal year 2014.
    Air Force modernization plans for our current B-52s and B-2 bomber 
fleet continue an effort to maintain a viable force. The B-2 is the 
only aircraft capable of long-range delivery of direct attack munitions 
in an anti-access environment. To ensure the B-2 can continue to 
operate in high threat environments, we have programs to modernize 
communication, offensive, and defensive systems. For the B-52, we have 
programs to modernize and sustain the communication, radar, and weapon 
delivery systems.
    Beyond modernization of existing platforms, we recognize the 
changing threat environment of the future requires improved 
capabilities. To meet that need, the Air Force is programming for a 
long range, nuclear capable, penetrating bomber. This program will 
leverage mature technologies and follow streamlined acquisition 
processes and focus on affordability with unit cost targets informing 
design trades and ensuring sufficient inventory. The program will begin 
in fiscal year 2012 delivering an initial capability in the mid-2020s 
with a planned production of 80-100 bombers.
    The Air Force will sustain the current Air Launched Cruise Missile 
(ALCM) until a follow-on advanced penetrating long-range stand off 
(LRSO) missile capability is fielded. We have multiple service life 
extension programs to ensure viability of the propulsion systems, 
guidance and flight control systems, and warhead arming components. 
Preparation activity began in November 2010. The AoA final report is 
due in May 2012. The Air Force has programmed for research, 
development, test and evaluation over the next 5 years for the 
development of LRSO.
    The Air Force continues to program for a nuclear-capable F-35 to 
modernize the Dual-Capable Aircraft (DCA) fleet. The investment over 
the Future Year Defense Plan (FYDP) for F-35 DCA ensures effective 
transition of this capability from our legacy fleet.
    The B61 Life Extension Program continues to be a top priority. The 
Air Force is committed, with the NNSA, to improve the safety and 
security of the B61 and ensure the Tail Kit Assembly acquisition 
schedule remains on track for a fiscal year 2017 First Production Unit 
delivery. The B61 will remain compatible with current nuclear capable 
platforms to maintain effectiveness against projected target sets for 
years to come. This will also ensure the United States retains the 
capability to forward-deploy non-strategic nuclear weapons in support 
of Alliance commitments.
    The Air Force started the Common Vertical Lift Support Platform 
(CVLSP) program to address capability gap shortfalls in helicopter 
nuclear security support, and Continuity of Government/Continuity of 
Operations missions. The CVLSP program seeks to replace existing UH-1N 
fleet with an off-the-shelf, nondevelopmental aircraft. We are 
currently evaluating acquisition strategies to best meet warfighter 
requirements with a goal of an fiscal year 2015 Initial Operational 
Capability.
    There are many other initiatives required to maintain a safe, 
secure, and effective arsenal. The Air Force will spend approximately 
$1 billion over the FYDP in critical areas, such as Transporter Erector 
Hoists, Weapons Load Trailers, Electronic Systems Test Sets, Weapons 
Storage and Security System (WS3), and Reentry System Test Set cables. 
The Air Force also continues its commitment to maintaining its history 
of safe and secure resource transportation. To this end, AFGSC is 
actively programming to rapidly replace the current Payload-Transporter 
vehicle with a model with improved safety and security features.
  implement the nuclear posture review & new strategic arms reduction 
                                 treaty
    During the next 7 years, implementation of the 2010 Nuclear Posture 
Review (NPR) and New START Treaty (NST) will bring a reduction in the 
role and numbers of nuclear weapons in our national security strategy. 
Under the NPR, the Air Force will remove multiple warheads from its 
ICBMs. Under NST, which entered into force on February 5, 2011, the 
United States and Russia will reduce the number of accountable 
strategic warheads from the current Moscow Treaty warhead limit of 
2,200 to 1,550. Within the treaty's central limits on Strategic 
Delivery Vehicles, the Air Force will reduce the numbers of deployed 
ICBMs and convert some nuclear-capable B-52s to conventional-only 
capability. Final force structure will be based on meeting the 
combatant commander's requirements and maintaining overall 
effectiveness of the deterrent force. We are currently developing 
options to reach the force levels specified in the treaty and have 
initiated the appropriate planning, programming, logistics, engineering 
and environmental studies to support these decisions, inform Congress, 
and meet treaty obligations.
    For its part, the Air Force began formal data exchanges with Russia 
in March. Inspections and exhibitions of bombers and missiles will 
start this month. The Air Force will also begin actions necessary to 
reduce deployed bombers and missiles, convert some nuclear-capable B-52 
bombers to conventional-only capability, and eliminate other assets 
such as, Peacekeeper silos, 564th Missile Squadron silos, and B-52s to 
comply with central treaty limits. These actions must be completed by 
February 2018.
    Global Strike Command will lead the Air Force portion of this 
effort. Lieutenant General Kowalski and his team of dedicated 
professionals are finalizing implementation and compliance plans to 
ensure the safety and security of our nuclear force as we draw down to 
NST mandated levels, all the while preserving the ability to deter 
adversaries, and assure allies and partners.
    In preparing for the new verification regime, the Air Force is also 
working closely with the Office of the Secretary of Defense and U.S. 
Strategic Command.
   craft a comprehensive deterrence and crisis stability vision that 
                  builds on the nuclear posture review
    As we think about providing deterrence in the 21st century, it's 
important to remember that not only is the Cold War over, the post-Cold 
War is over. Airmen who started active duty service after the fall of 
the Soviet Union are now retirement eligible. A generation has passed. 
That does not mean that strategic deterrence and nuclear forces are 
anachronisms. What it does mean is that we need to hit fast-forward on 
how we think about Nuclear Deterrence Operations in the complex 
security environment of today and tomorrow. The 2010 Joint Operational 
Environment declared: ``For the past 20 years, Americans have largely 
ignored issues of deterrence and nuclear warfare. We no longer have 
that luxury.'' Successful strategic deterrence in the 21st century 
requires stability-based analysis that goes beyond traditional numbers-
based assessments to determine optimal deterrence force structure and 
posture. The Air Force is revitalizing deterrence thinking to meet the 
challenges of our complex ``multi-nodal'' security environment.
                               conclusion
    Our ability to enable other nations to achieve their security 
goals, serve as a convener to cooperatively address common security 
challenges, or lastly, act as a security guarantor, preferably with 
partners and allies, but alone if necessary, rests on a foundation of 
U.S. nuclear capabilities and the strategic deterrence they provide. 
Your Air Force is continuing to strengthen our strategic deterrent 
force. This will be a long-term, systematic effort to refine and 
solidify earlier ``reinvigoration'' initiatives and to codify 
institutional changes ensuring safe, secure, and effective nuclear 
capabilities for the Nation.
    The President's budget request reflects the positive steps we are 
taking to improve this Air Force core function. Across the FYDP, Air 
Force investment in Nuclear Deterrence Operations totals $28 billion. 
The Air Force is committed to ensuring this investment results in 
systems and capabilities that best operationalize strategic deterrence 
for our Nation in the multi-nodal security environment we face.
    The National Military Strategy acknowledges, ``Our Nation's 
security and prosperity are inseparable'' and ``Preventing wars is as 
important as winning them, and far less costly.'' In this time of 
limited resources, the efficiency of Nuclear Deterrence Operations is 
evident in the fact that for approximately 3 percent of the Air Force 
Total Obligation Authority, your Air Force continues to deliver the 
bedrock of global strategic stability providing the ICBM and Bomber 
legs of the Triad as well as dual-capable fighter capability 24 hours a 
day, 7 days a week, 365 days a year.
    Thank you for the committee's continued support of America's Air 
Force and particularly to its airmen and their contributions to 
strategic deterrence.
                                 ______
                                 
          Prepared Statement by Maj. Gen. David J. Scott, USAF
    Today, the Air Force flies, fights, and wins in air, space, and 
cyberspace--globally and reliably--as a valued member of our Joint and 
coalition teams. Last year the Air Force conducted more than 45,000 
sorties supporting Operation Iraqi Freedom/New Dawn and almost 101,000 
sorties supporting Operation Enduring Freedom. Just recently, the Air 
Foprce led the way in executing and supporting Operation Odyssey Dawn 
in Libya, flying hundreds of sorties to date. As we continue to 
accomplish our current mission sets and plan for future threats, we 
must remain mindful of the increasing age and costs of operating our 
aging air fleet which is 33.7 years old, on average. Our Air Force 
leadership is scrutinizing programs and budgets to find acceptable 
solutions to meet growing demands that are competing for limited funds.
    Our fleet of 156 bombers remains engaged in today's fight while 
retaining an ability to meet future challenges. Air Force bombers have 
maintained a continuous presence in Southwest Asia since shortly after 
September 11. Bombers have also provided the U.S. Pacific Commander 
with a continuous presence throughout the area of responsibility (AOR) 
since 2004. The Air Force continues its commitment to future long-range 
strike capabilities as part of a comprehensive, phased plan, valued at 
$5.5 billion over the Future Years Defense Program (FYDP), to modernize 
and sustain our bomber force.
                                  b-1
    The B-1 currently provides long-range persistent airpower in direct 
support of NATO/ISAF, U.S. and Afghan troops in three major operations. 
The B-1 also provides real-time intelligence, surveillance and 
reconnaissance with full-motion video, enhanced situational awareness 
and a demonstrable overwatch presence. The Air Force added the SNIPER 
Advanced Targeting Pod capability to B-1 aircraft in summer 2009 to 
provide aircrews with positive identification capability and the 
ability to share video with ground forces. The B-1 has proven to be the 
workhorse of current combat operations, flying the majority of the 
bomber combat sorties in the Central Command AOR. Most recently, two B-
1s launched from Ellsworth AFB, and dropped munitions in Libya in 
support of Operation Odyssey Dawn. With less than 2 days from first 
notice to takeoff, Ellsworth airmen prepared several aircraft and 
hundreds of weapons to provide the combat configuration needed halfway 
across the globe. This is the the first time the B-1 fleet has launched 
combat sorties from the continental United States to strike targets 
overseas. The B-1 is beginning to show its age and requires multiple 
upgrades to maintain critical combat capability. B-1 modernization and 
sustainment programs include the Integated Battle Station program, 
combining Fully Integrated Data Link (FIDL), Vertical Situational 
Display Upgrade (VSDU), and Central Integrated Test System (CITS) 
programs under one installation contract. Four B-1 upgrades are 
required to prevent grounding of the B-1 fleet. The four grounding 
modifications are: VSDU, CITS, Radar Maintainability and Improvement 
Program (RMIP), and the Inertial Navigation System (INS).
    B-1 upgrades are a must, but funding has proved challenging. The 
Air Force has decided that force structure adjustments can provide the 
necessary cost savings that will allow us to keep the B-1 fleet viable. 
As such the Air Force is retiring 6, from an overall force of 66, B-1s 
to fund the 4 grounding modifications plus Fully Integrated Data Link 
through the remainder of the B-1 fleet. This is strictly a programming 
action, taking acceptable (moderate) risk to the overall bomber 
capability requirement. This retirement will not impact current 
operations because real-world taskings will always take priority over 
home-station training missions.
    B-1 aircraft availability rates remained relatively level for 
fiscal year 2002-2007 with a drop in fiscal year 2008 and fiscal year 
2009 primarily driven by modernization efforts. To mitigate manpower 
shortages and reduced maintenance experience levels, B-1 bases have 
been augmented by contract field teams which will continue through 
April 2011. Manning authorizations have been approved but B-1 aircraft 
availability will be affected into the distant future while personnel 
are trained and gain experience. The Air Force places great emphasis on 
sustaining and maintaining the B-1 fleet, ensuring that this key 
capability and keeping it available to support our warfighters.
                                  b-2
    The B-2 has participated in every combat action, including Odyssey 
Dawn, since Operation Allied Force and is pivotal to U.S. Strategic 
Command's plans as well as to U.S. Pacific Command's (PACOM) Continuous 
Bomber Presence to assure allies and support U.S. interests in the 
Pacific. The B-2 Spirit provides a lethal combination of range, 
payload, and stealth. It remains the world's sole long-range, low 
observable dual-role bomber. It is the only platform capable of 
delivering 80 independently targeted 500-lb Joint Direct Attack 
Munitions (GBU-38). It is the only platform capable of carrying the 
developing Massive Ordnance Penetrator; a weapon crucial to our 
capabilities against hardened, deeply buried targets. While B-2 
availability has steadily increased over the past 5 years, in part due 
to enhancements in low observable maintenance such as the highly 
successful Alternate High Frequency Material program, it faces 
increasing need for upgrades to avionics originally designed over 20 
years ago.
    The Extremely High Frequency Satellite Communications and Computer 
Upgrade Program (EHF SATCOM and Computer Upgrade) has three increments. 
Increment 1 upgrades the B-2`s flight management computers and main 
data bus as an enabler for future avionics efforts. Increment 2 
integrates the Family of Beyond-line-of-sight Terminals (FAB-T) along 
with a low observable antenna to provide secure, survivable strategic 
communication, and Increment 3 connects the B-2 into the Global 
Information Grid. Increment 1 of EHF SATCOM and Computer Upgrade is 
beginning procurement this year for fleet installations beginning at 
the end of fiscal year 2013.
    We will finish replacing the B-2's original radar antenna, upgrade 
selected radar avionics and change the radar operating frequency as 
part of the Radar Modernization Program (RMP). Thanks in large part to 
Congressional support, the RMP acquisition strategy was modified to 
include life-of-type component buys to avoid diminishing manufacturing 
source issues during the production run.
    The Department is also investing in B-2 Defensive Management System 
(DMS) modernization to ensure continued survivability. This will allow 
the B-2 to continue operations in more advanced threat environments 
while decreasing the maintenance required to operate the system. The 
DMS faces obsolescence in light of threat system advances and 
diminishing manufacturing sources for critical components. $41 million 
is being invested in fiscal year 2012 with $560 million across the FYDP 
to maintain B-2 penetration capability. We just completed an Analysis 
of Alternatives and are preparing to move towards the technology 
development phase.
                                  b-52
    The B-52 Stratofortress is our Nation's oldest frontline long-range 
strategic bomber with the last airframe entering service in 1962. It 
amplifies the consistent message of long-range U.S. airpower in a 
theater like PACOM where distances drive decisions. Equipped with an 
advanced targeting pod, the B-52 can also provide real-time 
intelligence, surveillance, and reconnaissance with full-motion video, 
enhanced situational awareness, a demonstrable overwatch presence and 
precision joint fires in support of PACOM`s objectives. The Air Force 
has invested in modernization programs to keep the B-52 platform viable 
and operationally relevant. Major B-52 modernizations include the 
Combat Network Communications Technology (CONECT), EHF SATCOM, 
Strategic Radar Replacement (SR2), and the 1760 Internal Weapons Bay 
Upgrade programs. CONECT provides an integrated communication and 
mission management system with machine to machine data link interfaces 
for weapons delivery. The digital infrastructure provided in CONECT is 
the backbone for EHF SATCOM. The EHF SATCOM program integrates the FAB-
T providing assured, survivable two-way strategic command and control 
communications. The SR2 program, starting in fiscal year 2010, 
integrates a modern nondevelopmental radar to address systemic 
sustainment issues, replacing the legacy APN-166 radar. Finally, the 
1760 Internal Weapons Bay Upgrade provides internal J-series weapons 
capability through modification of Common Strategic Rotary Launcher and 
an upgrade of stores management and offensive avionics software. 
Updated with modern technology the B-52 will be capable of delivering 
the full complement of jointly developed weapons and will continue into 
the 21st century as an important element of our Nation`s defenses.
                        long range strike (lrs)
    Our existing bomber force has performed exceptionally well and has 
provided our Nation an unmatched global strike capability. However, 
these systems will eventually reach the end of their service lives. Our 
bomber fleet also faces challenges in the face of advancing threat 
capabilities and emerging Anti Access/Area Denied (A2/AD) environments. 
The Air Force must look ahead to the next generation of long range 
strike capability in order to provide future presidents the ability to 
hold any target at risk, anywhere on the globe.
    On January 6, 2011 the Secretary of Defense announced that the Air 
Force would initiate a new bomber program as the cornerstone of the 
future of our Long Range Strike portfolio for the United States Air 
Force. Our intent is to field a new long-range penetrating bomber to 
join the joint portfolio of deep-strike capabilities. He directed this 
new penetrating bomber would be nuclear capable, and envisioned to 
accommodate both unmanned and manned operations. The SecDef also 
directed the Air Force to procure 80-100 of these new highly survivable 
bombers, which should begin delivery in the mid-2020s. The fiscal year 
2012 President's budget provides funding for the long range penetrating 
bomber program, following an extensive 18 month, OSD-led review of long 
range strike requirements. By leveraging proven technologies and 
streamlining program management during development, the Air Force will 
ensure the new bomber can be delivered before our current fleet goes 
out of service. Though details of the program, including specific 
system performance attributes such as range, payload and speed are 
classified, the total annual budget will be executed by regular 
appropriation of funds, with the Air Force making capability tradeoffs 
as necessary to hold procurement costs down to ensure affordability for 
the full purchase of the program of record. The President's budget 
requests $197 million in fiscal year 2012 and $3.7 billion over the 
FYDP for the new penetrating bomber.
    In the mid-term (2017-2030), we plan to field the new penetrating 
bomber while continuing to develop its capability as the threat and the 
technology mature. Long-term (2031-2050) plans aim to complete fielding 
of the fleet while continuing to evolve the weapon system as the threat 
environment and technology mature. The Air Force LRS strategy provides 
present and future leaders continued and affordable global strike 
options within emerging anti-access area denial environments.
                                closing
    The Air Force stands ready to win today's joint fight and plan for 
tomorrow's challenges. We are committed to working together to 
determine the right procurement, sustainment and retirement strategy to 
remain prepared for the current fight as well as posturing for future 
demands. Dominance of air, space, and cyberspace continues to be 
requisite to the defense of the United States. We appreciate your 
continued support and look forward to working in concert to ensure our 
decisions enable us to strengthen our Air Force to meet future 
requirements.
                                 ______
                                 
        Prepared Statement by Brig. Gen. Garrett Harencak, USAF
    Chairman Nelson, Senator Sessions, and distinguished members of the 
Strategic Forces Subcommittee thank you for this opportunity to discuss 
our continuing improvements to the Air Force's nuclear sustainment 
efforts. As a result of the dedication of our talented team of military 
personnel, civilians and industry professionals, I can attest that the 
Air Force nuclear enterprise is considerably stronger today than at any 
point prior to the Nuclear Weapon Center's establishment in 2006. The 
vitality that we see today represents a reversal in a decades-long de-
emphasis of America's strategic forces that was first documented in 
studies ranging back to 1998. In the years that followed, a series of 
reports called for a single manager for nuclear weapons sustainment, a 
consolidation of management sustainment activity and a unified funding 
strategy. In response to these reports, Air Force Materiel Command 
(AFMC) developed a two-phase strategy to establish a new center 
responsible for nuclear sustainment activities. The first phase was 
completed in March 2006 when the Nuclear Weapons Center was activated. 
AFMC and the Center then began the lengthy task of pulling together the 
fragmented pieces of the Air Force nuclear enterprise. Phase II was 
accomplished in April and May 2008 with the assignment of the first 
flag-level officer as Center commander and the assignment of the 
Intercontinental Ballistic Missile (ICBM) Systems Program Office to the 
Center. Phase III began in February 2009 with the signing of Program 
Action Directive (PAD) 08-05 which directed further integration of the 
enterprise.
    I am pleased to tell you that on January 20, 2011, General Hoffman, 
the AFMC Commander declared that the Air Force Nuclear Weapons Center 
had achieved Full Operational Capability (FOC). This is a measure of 
General Hoffman's confidence that AFNWC has successfully created and 
codified staff best practices and standards, that we are sufficiently 
capable of advocating for the resources necessary to execute our plans, 
that our staff is sufficiently manned and capable and that we have put 
in places processes and procedures that are measurable, repeatable and 
auditable, all contributing to our primary mission: support for the 
warfighter.
    Most assuredly, this does not represent any sort of watershed 
moment in the strengthening of the nuclear enterprise . . . the pursuit 
of the nuclear zero defect culture requires continuous improvement and 
oversight and we still have a long way to go to get to where we want to 
be. The declaration of FOC does, rather, show how far we have come in 
applying common-sense leadership and organizational principles to a 
difficult problem. There can be no letting up, however, on tracking 
down and eliminating remaining problems that confront the enterprise. 
We will continue to perform self-assessments, independent inspections 
and progress reviews to ensure that focus is maintained on critical 
factors that define the health of our strategic deterrent. The Nation 
will not tolerate any less of the stewards of the Air Force's most 
potent weapons.
    In addition to the completion of Phase III of AFNWC's standup and 
declaration of FOC, AFMC and the Air Force as a whole have made 
significant strides in reorganization that have reinvigorated and 
strengthened the nuclear sustainment enterprise. The Air Force vested 
the AFMC Commander as the single four-star officer responsible for 
nuclear sustainment. It is important to note that since the 
inactivation of Strategic Air Command in 1992, no single four-star 
officer had been charged with understanding and articulating the needs 
of the Air Force with regard to nuclear sustainment below the Chief of 
Staff. In contrast, today the Air Force has a one-star officer 
overseeing the day-to-day sustainment issues of the enterprise, while a 
four-star officer keeps the Secretary of the Air Force, the Chief of 
Staff, and the Commander of Air Force Global Strike Command informed 
and engaged in issues involving the sustainment of nuclear weapons and 
the health of the various delivery vehicles and pieces of support 
equipment which comprise the Air Force strategic deterrent. A series of 
recurring reviews, culminating in the Nuclear Oversight Board, chaired 
by the Secretary and Chief of Staff and comprising all Major Command 
(MAJCOM) commanders ensure high-level oversight of trends, developments 
and attention to emergent issues. Additionally, AFMC created a new 
directorate specifically focused on nuclear matters and tasked with 
representing the Command to other MAJCOMs, the Air Staff and the Joint 
warfighter.
    As members of the subcommittee are well aware, a number of studies 
were conducted in the wake of the 2007 and 2008 incidents that brought 
the shortcomings of the Air Force nuclear enterprise into the public 
eye. While the studies revealed a large number of discrete process 
failings, organizational issues, and leadership problems, in the macro 
sense, they all bore out the same root cause: that the focus on 
standards had atrophied over the years and that this root cause ended 
up manifesting itself in three serious ``seams'' that had to be 
addressed immediately. These seams are: (1) a lack of nuclear 
expertise; (2) a lack of nuclear focus; and (3) a lack of authority. 
These seams ``opened'' under the weight of competing priorities and the 
stress of continuous combat operations since 1991. AFNWC has been 
working with its numerous mission partners to close these seams by 
making thoughtful and deliberate changes to the way in which things get 
done in the nuclear enterprise.
    There are three overarching ways in which we as a center are 
working these problems. The first is by enabling collaborative 
partnerships. We realized from the very beginning that, given the large 
number of players in the nuclear arena, we simply cannot have a 
stovepiped view of the enterprise. From other Air Force agencies, such 
as the Air Staff's nuclear directorate, AFMC's nuclear directorate, Air 
Force Global Strike Command, other centers and commands, and the joint 
warfighter, to other government organizations such as the National 
Nuclear Security Administration and beyond to colleges, universities, 
and national laboratories, AFNWC has been working hard cultivating 
contacts and associates. By doing this, we're ensuring that we can meet 
requirements more rapidly, find answers and recruit the right people to 
get the job done for the warfighter and the Nation. One of our most 
vital collaborations is with the newly created office of the Program 
Executive Officer (PEO) for Strategic Systems. The PEO position was 
created in response to specific recommendations made by the Schlesinger 
Report, and has assumed responsibility for the development and 
acquisition of future systems and for modernization efforts while AFNWC 
focuses on day-to-day operations and sustainment. The PEO, Brigadier 
General John Thompson, who reports to the Air Force Service Acquisition 
Executive, Mr. David Van Buren, is colocated with AFNWC at Kirtland Air 
Force Base, NM.
    The second way we're sealing the seams is by improving our ability 
to spot problems and come up with solutions before they become crises. 
As our nuclear stockpile ages, it is becoming apparent that any number 
of serious problems may be waiting around the corner. By using sound 
engineering principles, we are becoming increasingly able to spot 
trends with weapons, delivery systems and their associated support 
equipment and determine practical, effective and timely solutions 
before the problem reaches a critical stage, at which point they become 
difficult and expensive to address. Like other complex systems, our 
nuclear arsenal is dependent upon a vast number of components and 
processes, the failure of any one of which can be very serious for a 
given weapon system. Many of these components have not been updated in 
decades and, while expertly maintained, are not immune to 
deterioration. As former U.S. Strategic Command (STRATCOM) Commander, 
General Kevin Chilton stated in 2008, nuclear weapons, even when 
sitting on the shelf, are chemistry experiments. They are constantly 
changing from chemical reactions inside of them. This extends as well 
to other equipment as well, some of which is affected by wear and tear 
on top of everything else. Metal fatigue, corrosion and chemical 
changes all take their toll. If a weapon, delivery system or a piece of 
support equipment only had to last to the end of its 10-year design 
life before replacement, like much of our equipment was intended to 
have, it wouldn't be as crucial that all these very long term issues be 
taken into account. However, if we extend this to the 30, 40, or 50 
year lives we now expect from our current weapons, it becomes vitally 
important that we understand the relationship between the various 
components and use sound engineering practices to determine the correct 
course of action to maintain reliability and availability for the 
warfighter.
    The third way we're closing the seams is by deliberately 
maintaining a forward-looking view, both in order to be proactive to 
possible problems on the horizon and to ensure that nuclear sustainment 
equities are thoroughly considered in the planning and development of 
future systems. AFNWC is heavily involved in the Long-Range Standoff 
Analysis of Alternatives (AoA) process and is helping lay the 
groundwork for the forthcoming Ground Based Strategic Deterrence AoA. 
We are also working with the PEO for Strategic Systems on acquisition 
and modernization programs for the various systems which make up our 
strategic deterrence force. We are looking to the future in other ways 
as well, reaching out to universities and national laboratories to 
recruit new talent, helping to rebuild the nuclear expertise that has 
been lost in the years of atrophy. Finally, AFNWC is involved in 
ensuring that adequate qualified military personnel are available to 
perform the difficult task of maintaining the arsenal and that they 
have available the necessary equipment and tools to do their job.
    I am a strong advocate of keeping a big picture, strategic view. 
With so many discrete tasks requiring attention, this is sometimes 
difficult. However, it is vital that our perspective be kept broad and 
that we always question what effect changes will have on the health of 
the force. As we have found in the past, there are often second- and 
third-order effects that can result from decisions we make now. 
Decisions such as how reductions for the New START treaty are executed, 
for instance, will have long-term repercussions, for good or ill that 
will continue for decades. We are committed to providing thoughtful 
solutions and advice based on sound engineering and logistical 
principles and always moving no faster what we have termed ``the speed 
of nuclear surety.''
    AFNWC's most important mission is to provide direct support for the 
warfighter, in this case, STRATCOM. To that end, as part of Phase III 
of AFNWC's stand-up, we assumed command of the Air Force's remaining 
five CONUS Weapons Storage Areas (WSAs)--which had previously been 
split between three commands--AFMC, AFSPC, and Air Combat Command 
(ACC). This was done with the goal of standardizing publications, 
procedures and leadership in mind. In addition to this, we created a 
Directorate of Nuclear Surety within AFNWC to work with the WSAs as a 
coherent and integral weapon system. This Directorate recently 
published a detailed study of the Air Force WSAs, further pointing out 
their need for standardization across civil engineering, 
communications, security and safety disciplines. The Nuclear Surety 
Directorate has also brought together WSA stakeholders from across the 
Air Force and Navy in recurring council sessions to deliberately work 
through requirements and to better advocate for needed modernization 
and upgrades.
    In addition to WSAs at CONUS bases, the Air Force Nuclear Weapon 
Center responsibilities include direct support to force providers in 
Europe--the U.S. Air Forces, Europe (USAFE). We manage programs for 
support equipment sustainment in the European Theater, including 
weapons storage vaults and the weapons maintenance truck, both of which 
are vital to the safety, security, and sustainment of the B61. 
Additionally, we are working closely with the AFPEO for Strategic 
Systems on life extension modifications to the B61 to ensure that it 
continues to meet the requirements of USAFE and our NATO allies.
    Furthermore, to ensure that the Air Force's ICBM force remains 
robust and capable through 2030, as required in the National Defense 
Authorization Act for Fiscal Year 2007, we are currently undertaking a 
number of critical actions to sustain today's aging forces. First among 
these is a two-pronged approach to providing sufficient Mk21 fuzes to 
support the warfighter. We have instituted an aggressive screening 
program to identify fuzes requiring few or no repairs. Those which pass 
the screening are returned to the field for installation into the 
Safety Enhanced Reentry Vehicle modified Minuteman III ICBMs. Those 
failing the screening tests become candidates for refurbishment. 
Initial attempts in 2008 to refurbish Mk21 fuzes were unsuccessful, in 
large part due to their level of sophistication and complexity. Our 
two-pronged approach to refurbishment has enlisted the assistance of 
the original manufacturer, which has been successful in demonstrating 
its ability to refurbish the fuze. Additionally, an organic production 
line at Hill Air Force Base is in the process of performing its proof-
of-concept trials and will begin fielding refurbished fuzes in fiscal 
year 2012. Along with the screening process, these two production 
lines, operating simultaneously, will be able to provide enough 
operational Mk21 fuzes to meet initial warfighter requirements in the 
mid-term. We are also working closely with our mission partners at 
Ogden Air Logistics Center which is currently completing their first 
refurbishment cycle for the Mk12A fuze. This refurbishment effort is on 
schedule and meeting production goals. AFNWC is also working with AFGSC 
and the NNSA to ensure that they have our full support in the field of 
testing. By bringing on board a dedicated Center Test Authority (CTA), 
we are not only ensuring that there will be no surprises related to 
ICBM test supportability, but we are also looking to the future to 
ensure that testing requirements are included in AoAs and studies for 
follow-on systems. The value of the CTA had been validated by recent 
cooperative work between the ICBM Systems Division, AFGSC and the ICBM 
Prime Contractor on emergent issues with the Minuteman III Command 
Destruct system. Finally, we are working closely with the PEO/SS on 
requirements and considerations for a joint fuze, which is envisioned 
as a replacement for both the Navy Mk5 fuze and the Air Force Mk12A 
fuze, with the goal of realizing benefits in standardization, 
functionality and cost.
    As I mentioned previously, possibly our greatest challenge is with 
our most important asset--our people. From where we are right now, we 
can see that we are far from healthy with regard to our pool of 
available talent. Years of atrophy have reduced the overall number of 
nuclear-experienced personnel available, and the recent reinvigoration 
of the nuclear enterprise has made competition for the scarce talent 
severe. Additionally, the available personnel are tending to be toward 
the top and bottom of the demographics. We have a number of experienced 
senior level personnel and the Air Force is doing a good job bringing 
in inexperienced but enthusiastic junior people, but we currently lack 
the strong mid-career professionals, both military and civilian, who 
are the backbone of a successful organization. While time and 
experience will resolve this problem eventually, the Air Force has 
embarked on an aggressive program to identify its nuclear experienced 
personnel and to ensure that they are tracked and placed appropriately 
to make the best use of their experience. Furthermore, AFNWC has 
created the Air Force Nuclear Fundamentals Course, which encompasses 
nuclear weapons fundamentals, force structure, nuclear stockpile 
guidance and planning, nuclear surety and the nuclear enterprise. We 
are also working with the Air Staff and Air Force Personnel Center to 
rebuild a strong, well-managed nuclear science and engineering 
workforce. We're trying to ensure that our people receive everything 
they need in order to thrive in the difficult nuclear environment, 
including a solid organization with strong, repeatable processes, 
training, education and meaningful experience as well as the necessary 
support equipment and processes to do the job.
    In closing, I would like to emphasize the hard work and dedication 
of AFNWC's professionals and their efforts to address the most pressing 
concerns in the nuclear enterprise. The American public rightly holds 
its nuclear stewards to the very highest standards, and we will not let 
them down. I would like to thank the committee for the opportunity to 
address these issues and look forward to your questions.

    Senator Nelson. Thank you, General. Thank you all. We'll 
commence a 6-minute round of questions.
    General Kowalski and General Scott, the B-1 and B-2 bombers 
each flew in Operation Odyssey Dawn in Libya. What is your 
assessment of the mission success of each of these bombers and 
did either have any equipment or other problems?
    General Kowalski. Chairman Nelson, the bombers and their 
weapons performed exactly as we expected them to. The crew 
members' performance was superb, and the command and control of 
the operation also was executed very well from organizations 
within the U.S.
    Senator Nelson. General Scott, anything to add?
    General Scott. Sir, I would just add that if you looked at 
the B-1, for the first time in history they flew from the 
States to a target in another nation and then returned, not 
back to the States, but to a point in space. So they flew a 24-
hour sortie. If you remember that particular day where they 
were launching those aircraft 42 hours after they got notified, 
it was in the snow and ice. Those were some pretty tough 
conditions for our young men and women loading those aircraft 
up and getting them airborne to do the mission that they did. 
Sir, it was absolutely flawless.
    Senator Nelson. Thank you.
    Also, to the two of you, the last time the longevity of the 
current fleet was reviewed, all the bombers would begin to 
start retirement around 2035 to 2037. Can you tell us now, what 
is the expected retirement date for the B-52, the B-1, and B-2 
based on current expectations and current projections?
    General Kowalski. All of those bombers, based on longevity 
in terms of the aging and surveillance information that we get 
on the airframes as they go through depot and other studies, 
have them all going out past 2040. The limiting factor on the 
B-2s is the rudder attachment point right now. The limiting 
factor on the B-52s is the upper skin of the wing, and on the 
B-1s it's the lower skin on the wing.
    General Scott. That's absolutely right. In the B-1 fleet, 
we have it from right now structurally out to 19,900 hours. 
That takes it out to the '40s. If we also look at it, by 2018 
we will be doing a fleet viability board and a structural test 
on it to see where we need to go further with that aircraft.
    Senator Nelson. Now, continuing with this, all of the 
current bomber aircraft have modernization programs of varying 
types to try to reach that 2040 point in time. Do we have a 
comprehensive plan developed for each bomber aircraft that 
would help us understand what it's going to take to sustain and 
modernize each bomber so that we can be certain that each 
platform remains capable through that period of time? Is there 
an overall program for each one of the birds?
    General Kowalski. Senator, for both the B-2 and the B-52 
there are existing roadmaps. With the standup of Air Force 
Global Strike Command, we have put into place a larger 
strategic master plan to sort of guide our efforts from our 
mission and vision all the way down to specific tasks to be 
done during any current year. We're in the process right now of 
integrating the roadmaps for the B-2 and the B-52 into that 
strategic master plan so we can track it and work tasks on a 
regular basis.
    Senator Nelson. General Scott, several of the upgrade 
programs are needed to prevent the bombers from being grounded. 
For example, the B-1 had three programs that had to be in place 
this year to prevent grounding. These three programs are the 
central integrated test system, the vertical situation display, 
and the radar modernization improvement program. Are all the 
programs that I've just outlined on track to complete by the 
end of the year to avoid having any grounding?
    General Scott. Sir, they are on track. The end of the year 
is not the timeline. The actual timelines are for these 
specifically, are in 2012 and 2013. But the funding is in place 
for the B-1 to do this. As we look at this, we look at it in 
four different ways: the sustainability, lethality, 
responsiveness, and the survivability. That's how we tie the 
things that the Air Combat Command (ACC) is working on to 
maintain this modernization of this fleet.
    They are on track, but the timelines are in second quarter 
of 2012 and 2013.
    Senator Nelson. General Kowalski, the Global Strike Command 
is now fully operational. Are there any plans to move the B-1 
to Global Strike?
    General Kowalski. Senator, I'm not aware of any plans at 
this time.
    Senator Nelson. Is anybody else aware of any plans to do 
that?
    General Chambers. No, Mr. Chairman.
    Senator Nelson. General Scott, in the fiscal year 2012 
budget request the Air Force has proposed to retire six B-1 
bombers. Could you explain why these bombers are being retired 
and what are the cost savings associated with the retirements?
    General Scott. Mr. Chairman, as we look at our fleet and as 
we look at the entire bomber fleet, we look at how we can 
balance and manage capability and capacity. As we look at the 
modernization pieces that we're doing with the B-1 and as we 
look at these specific aircraft, the six that we're reducing, 
we're not retiring the fleet; we're reducing the number that we 
are. It's to enable us to be able to take those 60 aircraft, 
continue that modernization on time to maintain that combat 
capability that we give to the COCOM commanders.
    Senator Nelson. Do you think that the 60 will be sufficient 
for that by reducing it by 6, or will we be shorting ourselves 
of our capabilities for cost savings?
    General Scott. Sir, the analysis that we have done looking 
at all of the force planning structure and the analytical 
agendas that we have been given show that the 60 will be--with, 
again, as you look across the fleet of the bombers and the 
combat air forces, working with Global Strike Command and ACC--
yes, sir, the total number of bombers is still well within the 
capability of the risks that we accept.
    Senator Nelson. Thank you.
    General Scott. Yes, sir.
    Senator Nelson. Senator Sessions.
    Senator Sessions. Thank you.
    I'll submit some questions to each of you concerning the 
modernization of our strategic deterrent and the cost. I know 
you're wrestling with that and I'd like to have as much 
information as we can as we wrestle with it. I happen to be the 
ranking member on the Budget Committee, which makes all this no 
fun to talk about.
    Let me ask, Admiral Benedict, about the solid rocket motor 
industrial base. Or maybe General Kowalski mentioned that 
earlier. The fiscal year 2012 budget shows an almost 85 percent 
per unit increase, Mr. Chairman, $8.5 million more than the 
cost for the same motors in 2011, for the purchase of the D5 
solid rocket motors. How much of that price is related to the 
cancellation of the Constellation and lack of NASA's decision 
to have a clear path for heavy lift, and what can be done about 
that if that's the problem?
    Admiral Benedict. Yes, sir. We have seen the unit cost 
increase from approximately $10.7 million to approximately 
$19.2 million. Of that, part of it is due to overhead 
increases. We calculate motor costs to be about 60 percent of 
that increase. The other 40 percent is due to requalification, 
material increases, and the retooling in order to continue 
production of the original D5 design.
    We have worked very closely with Lockheed Martin and 
Alliant Techsystems Inc. (ATK), our industry partners, to try 
and mitigate the cost of the uncertainty and the cancellation 
in the NASA programs. We have seen ATK reduce their indirect 
overhead by approximately 24 percent. We have seen ATK reduce 
their current work force by approximately 42 percent.
    In parallel with that, we have taken significant process 
and quality improvements. We estimate savings of about 17,000 
man-hours or about $10 million a year cost avoidance.
    So as we look at this issue today, we have a requirement to 
STRATCOM to continue to provide the survivable strategic 
deterrent. We are the only program today in current production. 
So we are working very closely with the industry partners as 
they try to develop not only a business plan, but understand 
the larger plan for this national capability solid rocket motor 
industry.
    Senator Sessions. Do I understand that the decline in 
numbers of purchases driven by NASA's situation has increased 
the cost? What part of the cost increase do you attribute to 
that?
    Admiral Benedict. Yes, sir. If you look at it in just terms 
of pure volume, NASA is about 70-plus percent of the solid 
rocket motor industry. We're about 20 percent. Another baseline 
point is it would take 10 Trident motors--first, second, and 
third stages--in order to make one solid rocket motor booster 
for the Shuttle. So in pure volume, the NASA decision is one 
that causes the overhead to be spread amongst the remaining 
programs.
    We have worked closely with the Air Force. Their Minuteman 
program is in a smart shutdown. The NASA program is 
significantly ramped down. We are the only strategic program of 
solid rocket motors that are currently in production, so we are 
currently bearing that overhead shift.
    Senator Sessions. Well, we've tried to work on that because 
I think NASA needs to maintain its role, and through our budget 
and other reasons we haven't been able to do that. It's had the 
perverse result of driving up DOD's costs.
    General Kowalski and General Chambers, as I mentioned in my 
opening remarks, the 1251 report that accompanied the New START 
treaty stated that the administration intends to begin to study 
a follow-on ICBM in a way that ``supports continued reductions 
in U.S. nuclear weapons.'' Can you elaborate and provide some 
context for that statement? Do you know precisely what was 
being referred to there?
    General Kowalski. Senator, I'm not sure what's being 
referred to there. In terms of the ground-based strategic 
deterrent, our command is working with headquarters Air Force 
on a capabilities-based assessment and we plan to move to pre-
ICD activities next year.
    Senator Sessions. ``ICD'' is?
    General Kowalski. Initial capabilities document, and 
analysis of alternatives by fiscal year 2013.
    Senator Sessions. Well, could this guidance that you 
conduct this review for the follow-on ICBM in a way that 
supports continued reductions in U.S. nuclear weapons--is it 
possible that such a statement could influence the results that 
you produce, the nature of the study? Have you been directed to 
consider that as you make your study?
    General Kowalski. Senator, the guidance we have right now 
is in the nuclear posture report and that's the guidance that 
we're using for the capability-based assessment.
    Senator Sessions. General Chambers?
    General Chambers. Yes, sir. The exact context of that 
wording is unclear. However, the section 1251 report does 
indicate, of course, that the ground-based leg of the triad the 
Air Force will retain up to 420 ICBMs from a current force of 
450. So the ``up to 420'' is the baseline for the New START 
level of ICBMs, and so the follow-on ICBM uses that as the 
starting point.
    Now, if further policy looks are made at further 
reductions, we are not yet tasked to go any further than that. 
So the ``up to 420'' is our guiding baseline right now.
    Senator Sessions. The problem I want to know is that, here 
we have the report suggesting that anything you say, anything 
you conclude, should support continued reductions. Are you 
prepared to issue a report if you so decide that does not 
recommend reductions? It seems like to me otherwise you're 
having a political interference or a political override of 
military best judgment.
    General Kowalski. The efforts that we're pursuing right now 
in ground-based strategic deterrence won't address the 
policies. It will simply address what we see as the capability 
requirements based on the 2010 nuke posture review.
    Senator Sessions. General Chambers?
    General Chambers. Yes, sir. As General Kowalski indicated, 
the entire material solution analysis phase for this new--for 
this potential Minuteman follow-on, will continue into fiscal 
year 2014. Between now and fiscal year 2014, if there are 
national policy decisions made with regard to force structure, 
I know I'm very confident that my chief of staff will be 
involved in providing military advice to those discussions. But 
they will certainly inform the final force structure number. 
But right now we're starting this study effort with a baseline 
of up to 420.
    Senator Sessions. Well, ultimately the political leaders 
make final decisions on the matter, there's no doubt about it. 
But I would trust that all of you--and I guess I'll ask you to 
state for the record: Do all of you understand it would be your 
duty, if asked in hearings or within DOD, that your duty would 
be to give your best military judgment as to how to best defend 
America, even if it's not in accord with us politicians? 
General Scott?
    General Scott. Yes, sir.
    Senator Sessions. Admiral Benedict?
    Admiral Benedict. Yes, sir.
    Senator Sessions. General Kowalski?
    General Kowalski. Yes, sir.
    Senator Sessions. General Chambers?
    General Chambers. Most definitely, sir.
    Senator Sessions. Well, I just wanted to raise that, 
because sometimes, even in the military, cultures and climates 
get established and people feel like they should try to make 
their judgment comply with what higher officials would like to 
see. But this is so important and so critical, and I appreciate 
your willingness to speak the truth as you see it.
    Senator Nelson. Thank you.
    To comply with the New START treaty, the Air Force will 
draw down the number of nuclear-capable bombers, as has been 
discussed, the number of deployed Minuteman III ICBMs, and the 
Navy will reduce the number of deployed D5 SLBMs. Let's start 
with the bombers. General Scott, the B-1 became a conventional-
only bomber over a decade ago. Nevertheless, they were counted 
under the old START Treaty. Do we know when the efforts will 
begin to modify all the B-1 aircraft so that they're not 
nuclear-capable any more under the new treaty?
    General Scott. Mr. Chairman, I'll start with the answer but 
then I'll pass it to General Chambers as the guy that works the 
treaty.
    Under the old START treaty, all of the B-1s, I think as of 
about a week ago, General Chambers will say, have been 
retrofitted non-nuclear. So under old START they are non-
nuclear. Now, there are some timelines on when we notify the 
Russians, and again I'll let General Chambers follow on with 
that, for the New START inspection process. But currently today 
the B-1s are conventional platforms.
    Senator Nelson. Great.
    General Chambers?
    General Chambers. Mr. Chairman, one of the first provisions 
of the new treaty was to provide the Russian Federation an 
exhibition of a B-1. That has now been completed in compliance 
with the treaty, and that was the last hurdle to converting the 
last B-1. So the entire B-1 fleet has now either been converted 
or eliminated, and thus the Russian Federation now has 60 days 
to confirm that using inspection means. Then some time late 
this summer, early fall, the database for New START will no 
longer reflect B-1s as an accountable nuclear delivery 
platform.
    Senator Nelson. It's my understanding, General Kowalski, 
that all the B-2 aircraft will remain nuclear-capable. Is that 
accurate?
    General Kowalski. Mr. Chairman, yes, that's accurate.
    Senator Nelson. Has there been any decision as to how many 
B-52s will be modified to no longer be nuclear-capable?
    General Kowalski. Mr. Chairman, that conversation is 
ongoing. We expect a decision will be made soon on the force 
structure options.
    Senator Nelson. Has there been a decision as to the actual 
modification that will be needed to remove the B-52 from being 
counted as a nuclear-capable bomber under that New START 
treaty?
    General Kowalski. No, that decision has not been made yet.
    Senator Nelson. Do we have some idea when it may be made?
    General Kowalski. I'd turn that over to General Chambers.
    General Chambers. Mr. Chairman, the conversion method for 
the bomber, for the B-52, has to be reviewed by a body called 
the Compliance Review Group. It's a bilateral group of Russians 
and American specialists. That Compliance Review Group will 
meet later this spring, I believe in the month of May, but we 
can check that for sure.
    The command has given their method of converting and that 
method will be reviewed, and we hope to get a good answer soon.
    Senator Nelson. Okay. If you would, for the record respond 
to us with that information when it's available.
    [The information referred to follows:]

    When is the next CRG to discuss bomber conversion method? How long 
will it take for a decision? What's the CRG membership?

    (1)  Date of the next Compliance Review Group (CRG): CRGs do not 
meet regularly; rather they convene in reaction to Services (or DOD 
Agencies) bringing forward proposed activities that raise issues of 
compliance with arms control treaties. For B-52 conversion, the Air 
Force's aim is to meet the Treaty's requirement to render the converted 
bombers incapable of employing nuclear armaments while simultaneously 
preserving full conventional functionality. We have found that the more 
due diligence we conduct before approaching the CRG, the more rapidly 
they can reach compliance decisions. With this in mind, the Air Force 
is currently fleshing out a proposal for converting some number of 
operational B-52Hs to a non-nuclear role. We currently envision 
approaching the CRG with a thoroughly developed package within the next 
couple of months.
    (2)  How long will it take: Engaging the Compliance Review Group 
marks the beginning of the process leading to a compliance decision. 
Experience reveals that the decision process can sometimes be an 
iterative one. We have seen some issues settled in a matter of weeks to 
months while in some rare cases others have taken years. As a result, 
it can be difficult to predict the point where a decision will be made.
    (3)  CRG membership: The Under Secretary of Defense for Acquisition 
Technology and Logistics is the DOD official responsible for ensuring 
that DOD activities are conducted in compliance with treaties. The 
Under Secretary is supported by Compliance Review Groups--one for each 
treaty. The individual membership may change from treaty to treaty. 
However, the organizational composition remains the same--senior-level 
experts from OSD (Policy), OSD (General Counsel), the Joint Staff, and 
is chaired by OSD(AT&L).

    Senator Nelson. Admiral Benedict, my understanding is that 
the Navy will retain the current number of Ohio-class ballistic 
missile submarines under the New START treaty, and that's 14, 
but will remove missiles from the missile compartment of the 
deployed submarines. Each submarine can carry 24 missiles. How 
many D5 missiles will be removed from each deployed submarine, 
and will this process start soon and how long might it take?
    Admiral Benedict. Yes, sir. The Navy's current planning is 
to remove four missiles per deployed submarine, so we would go 
from 24 to 20. We are currently programmed to do that beginning 
in fiscal year 2015, and we expect that to be accomplished 
within a 2-year timeframe.
    Senator Nelson. General Kowalski, the Air Force plan is to 
reduce to approximately 400 deployed Minuteman III ICBMs from 
the current 450, and my understanding is that each squadron of 
50 missiles is interdependent, but the Air Force is exploring 
options as to how to reduce the number of ICBMs. In other 
words, will a whole squadron be deactivated or will the Air 
Force pick and choose among missiles and among the squadrons?
    General Kowalski. Mr. Chairman, the force structure options 
will be determined soon in terms of the Chief and the Secretary 
looking, reviewing them, and then making their recommendations 
back to the Secretary of Defense.
    Senator Nelson. Because there's some sort interdependence, 
is it going to be possible to take out of the various different 
locations maybe one or two, or do you have to remove an entire 
set at once?
    General Kowalski. The options that we're looking at--as we 
put forward the 1251 report, if you do the math on that you see 
that we end up with about 720. So there's about 20 strategic 
delivery vehicles that we're trying to get--trying to get our 
arms around in terms of how we get from 720 to 700. So whether 
that 20 is bombers or whether that 20 is missiles to go from 
420 down to 400 is what we're wrestling with right now.
    Once we determine what is the best way to get there, then 
there's a follow-on discussion of that. For example, if we do 
decide that it is to go to 400 on the ICBMs, then the decision 
then is do you spread that out among the force? We have 45 
flights of 10 missiles out there in the field right now, so if 
you took one from each that would get you to about 45. Or 
whether you pursue an entire squadron. There are pros and cons 
to both, and that will inform the decision as we go forward 
here in the next few weeks.
    Senator Nelson. Thank you.
    Senator Sessions.
    Senator Sessions. With regard to the solid rocket motors, 
has there been a consideration, Admiral Benedict, of working 
with NASA to try to achieve a reduction in cost per unit as a 
result of more numbers?
    Admiral Benedict. Yes, sir. I met with the director of 
NASA's Huntsville location just last Friday. We have been very 
collaborative with NASA, MDA, and other Office of the Secretary 
of Defense (OSD) groups. OSD industrial policy led the review 
in response to the congressional direction for a report on the 
future of the solid rocket motor industry.
    My understanding as of this morning, that report has been 
approved by Dr. Carter and will be released. We provided an 
interim report last summer on what we believed within the 
Department was the proper path forward for the solid rocket 
motor. The final was just signed this morning, sir. So we have 
been working very collaboratively with all the other solid 
rocket motor users.
    Senator Sessions. Thank you.
    General Chambers, can you tell us about the current status 
of the dual-capable, nuclear-capable variant of the F-35? Is it 
scheduled for the 2017 delivery date still?
    General Chambers. Senator Sessions, the F-35 as a platform, 
of course, is part of the larger F-35 program both for the 
United States and the allies. That program overall is now 
undergoing a technical baseline review. That technical baseline 
review will later this summer and fall probably give us a new 
timeline. The timeline for production and delivery of the F-35 
is going to slip to the right. The amount of time is unknown, 
but that will impact the delivery of that capability with the 
new B61 life extended--B61 Mod 12, to the alliance in Europe.
    Thoroughgoing planning is under way to cover any potential 
gap that this slip may require. Sir, the current mission is 
being fulfilled by F-16s and F-15Es stationed in Europe. Those 
units that conduct that mission continue to conduct it, 
continue fully certified to conduct it. Some portion of those 
airplanes will continue to perform the mission until the F-35 
is ready and fully integrated and deployed to Europe.
    Senator Sessions. Are you not prepared to give us a date of 
the F-35?
    General Chambers. Yes, sir. The F-35 Joint Program Office, 
of course, is working this very hard, and we just know that, 
writ large, the F-35 program is approximating a 2-year slip. 
That doesn't mean that every piece of F-35 capability is going 
to slip to the right 2 years. So we are also very confident 
that the piece of that F-35 development program which calls for 
it to carry a nuclear weapon is still the first block of 
software after the development phase, which is a good thing. 
But the exact date I can't name yet.
    Senator Sessions. Admiral Benedict, according to recent 
press reports the Navy rejected the recommendations of STRATCOM 
to design the next generation of ballistic missile submarines 
with 20 missile tubes instead of opting for only 16 per boat. 
What is the basis for the Navy's decision of 16? I'm sure cost 
is a factor. In what ways will that decision impact overall 
nuclear force structure associated with the command?
    Admiral Benedict. Yes, sir. SSP supported the Navy 
analysis, STRATCOM's analysis, as well as the OSD analysis as 
we proceeded forward and towards the Milestone A decision that 
Dr. Carter conducted based on our input, which was the 
technical input, as the Director of SSP. Other factors were 
considered. As you stated, cost was one of them.
    But as the Secretary, as the CNO, and I think as General 
Kehler submitted in their testimony, given the threats that we 
see today, given the mission that we see today, given the 
upload capability of the D5, and given the environment as they 
saw today, all three of those leaders were comfortable with the 
decision to proceed forward with 16 tubes, sir.
    Senator Sessions. Does that represent your judgment? To 
what extent were you involved in that?
    Admiral Benedict. Sir, we were involved from a technical 
aspect in terms of the capability of the missile itself, what 
we can throw, our range, our capability. Based on what we 
understand the capability of the D5 today, which will be the 
baseline missile for the Ohio Replacement Program, as the 
Director of SSP I'm comfortable with that decision.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Nelson. General Harencak, you have recently assumed 
command of the Nuclear Weapons Center, another organization 
established to address the problems with the nuclear 
enterprise, particularly the incident where a missile nose cone 
was mistakenly shipped to Taiwan mismarked as a battery. I have 
two or three questions that I'd like to ask.
    Do you think you have positive control over all nuclear-
related parts?
    General Harencak. Absolutely, sir. We've made significant 
progress over the years in developing positive inventory 
control (PIC) and merging of databases, and we are absolutely 
positive that we have fixed that problem.
    Senator Nelson. Could you describe what kind of a database 
you've put together to make sure that all the parts are 
accounted for, incoming, outgoing, and in supply?
    General Harencak. What we've developed is what we call PIC 
fusion. What it does is, it merges all of the databases into 
one. We take in-transit databases. We take databases that are 
in base supply, any type of database that may be even 
indirectly under our control or not. For example, we're right 
now beginning to merge the nuclear weapons-related material 
(NWRM), that is ours, that the Department of Energy currently 
holds for us at Pantex and the Kansas City plant, for example. 
So we've merged this. It's been under development. It's a 
constantly evolving system that gives us very, very solid 
visibility on where all this is.
    I might also add that when it comes to actually the nuclear 
weapons themselves, there is one general in the Air Force that 
knows at all times where every weapon is, whether it be in 
storage or in transit, and that is me. We do that through our 
Sustainment and Integration Center (SIC), which is 
headquartered at my headquarters in Albuquerque. It has 
complete control and focus on where everything is.
    Senator Nelson. Much of the maintenance and test equipment 
supporting the missiles and the nuclear weapons is old and 
needs to be replaced. Now that we have knowledge of where 
everything is, do you have any plans to begin replacing the old 
equipment?
    General Harencak. Absolutely, sir. We have spent and plan 
on spending almost $1 billion from 2009 to 2016 on specifically 
ensuring the capabilities are retained through refurbishment 
and repair and getting ahead of the systems. For example, the 
reentry system test tabs, which are cables that have to be 
repaired. We're getting out ahead of them. While we're 
refurbishing, while we're fixing these and getting them out to 
the field as quick as possible, we're also fast-tracking the 
designing and building of replacements.
    So we are very focused on keeping a whole weapons system, 
specifically the Minuteman III, viable through a focused 
sustainment life cycle cradle-to-grave approach.
    Senator Nelson. Thank you.
    General Kowalski, much of the support equipment for the 
missiles, it's very old. What are your plans to address the 
issue of aging equipment, including, for example, the need to 
replace the Vietnam-era helicopters that support the missile 
fields? Are there new helicopters needed, and if so why, and 
can the Air Force replace these helicopters with very little, 
minimal, or no development costs?
    General Kowalski. Mr. Chairman, we're working with the 
system program offices and with the Nuke Weapons Center on a 
lot of the test equipment issues for the ICBM. We also have a 
missile engineering squadron that's currently based at Peterson 
Air Force Base, that does a lot of the facility kinds of 
sustainment for it.
    On the requirements for the helicopters, when the UH-1 was 
introduced it was introduced primarily as a lift platform for 
support. It really wasn't identified as part of the security. 
When we did a series of stressing reviews of the security 
requirements of the missile fields, what was identified was a 
need for a helicopter that could carry more security forces 
members, could get them to launch facilities or convoys faster, 
and which had greater range, and that's what we have been 
working on since the mid- to late-1990s.
    Senator Nelson. From your testimony, it appears that the 
mission for the new helicopters will be missile field support, 
as you've just indicated, and to meet the continuity of 
government needs for the military district of Washington. Is it 
clear that the new common vertical lift support platform will 
support only those two missions and won't serve as a combat 
search and rescue function?
    General Kowalski. I think the acquisition decision has yet 
to be made in terms of the final elements and the strategy to 
go forward. Right now, in the capability document that we had 
put together it is a lift support platform for the missile 
field security, for continuity of ops, continuity of government 
here in Washington, DC, and there is also some platforms that 
are used out in the Pacific.
    Senator Nelson. How many helicopters do you expect might be 
needed to achieve each mission? Do you have a number in mind?
    General Kowalski. Senator, I would probably have to give 
you for the record a precise number. That number is probably 
somewhere between 80 and 100.
    [The information referred to follows:]

    The Air Force needs 42 Common Vertical Lift Support Platform 
helicopters for missile field security and 27 to meet the continuity-
of-government requirements for the Air Force Military District of 
Washington. There are 24 additional helicopters required for Pacific 
Air Forces, Air Force Materiel Command, Air Force Special Operations 
Command, and AETC training and transport needs.

    Senator Nelson. I guess that's everything that I have. 
There's a personnel concern. We should try to address this and 
then I think we can go to the secure location. When you work in 
the nuclear fields, obviously that can be difficult for 
personnel. Do either of you have any challenges bringing young 
airmen and sailors into the nuclear enterprise, and are these 
sought-after assignments or do they just sort of happen? Are 
they actually sought after by young men and women coming into 
the Service?
    General Kowalski. Mr. Chairman, we don't really have any 
issues with getting airmen to join the Air Force and then being 
assigned tasks out in the missile fields. Probably the larger 
challenge that we face is getting our younger airmen, once 
they've reached that decision point, if they have been 
stationed in one of our northern bases where the environment's 
a little bit tougher, the smaller communities around them, they 
tend to leave the Service.
    So we have been very concerned about that. We've been 
watching it very closely in cooperation with headquarters Air 
Force in terms of how do we improve quality of life and things 
up there for them.
    But at the end of the day our airmen really want two things 
from us: they want to know what it is that they have to do and 
they want to know that what they do is important. The Secretary 
and the Chief have established Air Force Global Strike Command. 
I have been to each base at least three times. I've talked to 
these airmen. The functional directors on my staff have been 
out talking to the airmen.
    They get the clear message that what they do is important 
and they also have the clear message about what it is that we 
need them to do. So I think we're making real headway, and we 
see it right now in our younger officers when they get to the 
decision point. Because of the numbers of ICBM missileers that 
we take in, the crew members, we don't need them at about the 
5-year point. A lot of them are allowed to do other things in 
the Air Force. Right now we have more volunteers to stay in the 
ICBM community in the nuclear enterprise than we have spots 
for. So right now that's a good sign on how the enterprise has 
turned around in the last few years.
    Senator Nelson. Thank you for that update. Thank you all 
for your testimony today. We appreciate your being here and 
your service.
    Senator Sessions. Just one question.
    Senator Nelson. Sure.
    Senator Sessions. General Kowalski, or maybe Chambers or 
whoever, the 1251 report stipulated a force structure of up to 
420 ICBMs. That's a reduction of 30. When will the decision be 
made as to what that number will be? Have you decided that?
    General Kowalski. Senator, I expect that decision to be 
made here shortly, within the next 3 months.
    Senator Sessions. Will that allow you appropriate time to 
analyze all the factors necessary?
    General Kowalski. Senator, yes. We have been looking at 
this for about 7 to 9 months already in terms of analyzing the 
costs and working down this path. Then as the Secretary of 
Defense has stated, the entry into force will be toward the end 
of the treaty. What we see right now as we look at the 
different options that we have is that, frankly, the critical 
path to make sure we're in compliance with the treaty is 
eliminating a lot of the phantom silos out there. So there's a 
lot of work to be done out in eliminating the silos.
    But in terms of the force structure decisions, that's not a 
particularly driving force right now.
    Senator Sessions. Thank you.
    Senator Nelson. Again, thank you all.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator E. Benjamin Nelson
               bombers--upgrades and future capabilities
    1. Senator Nelson. General Kowalski and General Scott, the last 
time the longevity of the current fleet was reviewed, all of the 
bombers would begin to start retirements around 2035 to 2037. What is 
the expected retirement date for the B-52, the B-1, and B-2, based on 
current projections?
    General Kowalski and General Scott. The Air Force expects to begin 
retiring legacy bomber platforms once the Long-Range Penetrating Bomber 
(LRPB) achieves Initial Operational Capability (IOC). Until that time, 
the Air Force will continuously assess the overall capacity and 
capability of our combat forces, including bombers, to ensure that the 
overall force is appropriately sized to provide for the Nation's 
defense. Potential legacy bomber retirements as a result of LRPB IOC 
will likely be a mix of B-1s and/or B-52s (numbers and dates to be 
determined). Legacy bomber retirement decisions will be based on 
operational requirements, operating costs, economic service life, and 
treaty compliance mandates. The Air Force plans to maintain the B-2 
fleet to beyond 2040.

    2. Senator Nelson. General Kowalski and General Scott, what are the 
serious life-limiting factors for each aircraft?
    General Kowalski and General Scott. The Structural Service Life for 
each bomber is based on when a key component within the aircraft 
structure reaches the point where further repair is not economically 
viable. Key components are tracked and service life is updated through 
the Aircraft Structural Integrity Program. The current limiting factor 
for the B-52 is the wing upper surface. For the B-1 it is the wing 
lower surface. For the B-2 it is the rudder attach points. All three 
bomber types are currently projected to reach their Structural Service 
life beyond 2040.

    3. Senator Nelson. General Kowalski and General Scott, all of the 
current bomber aircraft have modernization programs of varying types 
underway. Has a comprehensive plan been developed for each bomber 
aircraft to sustain and modernize each bomber to assure that each 
platform remains capable through the projected future life for each 
bomber and to meet the retirement date outlined above?
    General Kowalski and General Scott. Air Force Global Strike Command 
(AFGSC) possesses the B-2 and B-52 dual-capable bombers. These aircraft 
each have plans detailing current and future sustainment and 
modernization requirements. The most recent B-2 Long Range Capability 
Flight Plan is dated November 2009 and addresses sustainment and 
modernization requirements to ensure the platform remains capable 
through 2058. The most recent B-52 Road Map is dated December 2007 and 
outlines sustainment and modernization requirements to ensure the 
platform remains capable through 2040. AFGSC is currently writing 
Bomber Master Plans for both of these platforms. The Master Plans will 
build on these previous plans and provide updated sustainment and 
modification requirements designed to keep the platforms capable 
through their life expectancies. AFGSC will publish these plans later 
this year and look to publish future plans until the new bomber attains 
IOC.
    Air Combat Command (ACC) possesses the B-1 conventional bomber. The 
B-1 Roadmap dated October 2007 addresses sustainment and modernization 
requirements to ensure it remains capable through 2025. The Bomber 
Force Structure Study from February 2008 estimates the structural life 
of the platform out to 2040. ACC and the B-1 Systems Program Office 
(SPO) at Tinker Air Force Base are currently producing a Strategic 
Action and Investment Plan (SAIP) that will update and validate the 
sustainment and modernization efforts for the B-1 to ensure that it 
remains viable through its expected service life of 2040. The SAIP will 
be published later this year.

    4. Senator Nelson. General Scott, several of the upgrade programs 
are needed to prevent the bombers from being grounded. The B-1, for 
example, had three programs that had to be in place this year to 
prevent grounding. These three programs are the Central Integrated Test 
System (CITS), the Vertical Situation Display, and the Radar 
Modernization and Improvement Program (RMIP). Are all these programs on 
track to be completed by the end of the year to prevent grounding?
    General Scott. All three modification programs are on track to 
begin installations early enough in 2012 to prevent grounding. The RMIP 
production contract was awarded on 30 September 2010. First kit 
deliveries begin in the spring of 2012 with the first aircraft 
modification scheduled for June 2012. The CITS program has completed 
development, and the production contract award is projected for June 
2011. The Vertical Situation Display Upgrade (VSDU) program is 
scheduled to begin flight test this summer. Early procurement of 
critical kit parts has been authorized, and the contract award is 
projected for June 2011. Kit deliveries for both CITS and VSDU are 
scheduled to begin in September 2012 with first aircraft installation 
starting in November 12.

    5. Senator Nelson. General Kowalski and General Scott, the Global 
Strike Command is now fully operational. Are there any plans to move 
the B-1 to Global Strike? If not, why not?
    General Kowalski and General Scott. Currently there is no plan to 
move the B-1 from ACC to AFGSC. The decision to transfer only the 
nuclear capable bombers to AFGSC was focused and deliberate, given 
their primary mission of safe, secure, and effective nuclear 
deterrence. Maintaining the B-1 within the ACC portfolio supports ACC's 
tasked role as the lead integrator for the Combat Air Force.

                            b-1 retirements
    6. Senator Nelson. General Scott, in the fiscal year 2012 budget 
request the Air Force has proposed to retire six B-1 bombers. What are 
the cost savings associated with these retirements?
    General Scott. The retirement of six B-1s will provide a total 
fiscal year 2012 savings of $62M in procurement and sustainment 
funding.

    7. Senator Nelson. General Scott, how much of the savings will go 
to each of the B-1, other bombers, and Air Force higher priorities?
    General Scott. The Air Force is reinvesting $33 million in fiscal 
year 2012 into critical B-1 sustainment and modernization programs to 
ensure the health of the remaining fleet. These programs include 
procurement and installation of VSDU and CITS sustainment efforts, 
Fully Integrated Data Link capability upgrade, and procurement of 
critical initial spares for these modifications. The Department applied 
the remainder of the savings from the B-1 reduction to other Air Force 
and Department of Defense (DOD) priorities to include continuing to 
strengthen the nuclear enterprise and investing in Building 
Partnerships.

    8. Senator Nelson. General Scott, will the retirement have any 
impact on the Air Force ability to meet any operational plan or other 
requirements?
    General Scott. The retirement of six B-1 bombers will free up 
funding to modify the remaining B-1 aircraft. The modifications to the 
remaining aircraft will improve their ability to respond to Combatant 
Commander operational taskings and ensure their viability in the 
future.
    Tactical and campaign level analysis conducted by Air Force Studies 
and Analysis has indicated a reduction of six B-1 primary aircraft 
authorizations (three combat coded and three training coded) can be 
taken with limited risk against currently approved Office of the 
Secretary of Defense (OSD) Analytic Agenda scenarios. Cost per flying 
hour and mission capable rate analyses further supported a modest B-1 
reduction as a wise reinvestment strategy geared toward increasing the 
pool of equipment spares and freeing funds to source critical 
sustainment and capability modifications. The Air Force expects to 
achieve an increase in aircraft availability in the near-term as a 
result of these retirements and monies reinvested, in part, to fund 
fleet modernization programs. Funded programs include fully integrated 
data link, vertical situation display, and CITS upgrades, providing a 
capabilities-based bridge to the future Long Range Strike platform.

                            start reductions
    9. Senator Nelson. General Kowalski, Admiral Benedict, and General 
Chambers, the New Strategic Arms Reduction Treaty (START) allows 800 
nondeployed missile launchers and nuclear capable bombers. Has there 
been a decision as to how the 800 nondeployed systems will be 
allocated?
    General Kowalski and General Chambers. The fiscal year 2012 Annual 
Update to the Report Specified in Section 1251 of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010 (Section 1251 Report) 
allocates the 800 total deployed and nondeployed launchers as follows: 
submarine-launched ballistic missiles (SLBM)--280; intercontinental 
ballistic missiles (ICBM)--up to 454; and nuclear capable bombers--up 
to 66. Within the bomber force we will maintain all 20 B-2s as dual 
capable bombers. Up to 700 of these systems may be deployed (as defined 
by the treaty). We are assessing how the nondeployed systems might be 
allocated during the treaty period.
    Admiral Benedict. One of the New START treaty central limits is a 
limit of 800 deployed plus nondeployed ICBM and SLBM launchers and 
deployed plus nondeployed heavy bombers, to be achieved by 7 years 
after entry into force of the treaty. In order to meet this limit, 
current U.S. plans call for a total of 280 deployed plus nondeployed 
SLBM launchers. Of this total, 240 will be deployed launchers (20 
launchers on each of 12 strategically-loaded SSBNs) and 40 will be 
nondeployed launchers (20 launchers on each of 2 SSBNs in extended 
overhaul).

    10. Senator Nelson. General Kowalski, Admiral Benedict, and General 
Chambers, has there been a decision on what constitutes a nondeployed 
missile launcher?
    General Kowalski and General Chambers. Under the New START treaty, 
a silo launcher at an operational ICBM base that does not contain an 
ICBM is considered a nondeployed launcher. In addition, those silo 
launchers at ICBM test ranges and space launch facilities are 
accountable as nondeployed launchers. Plus, all ICBM silo training 
launchers are accountable as nondeployed launchers, of which the Air 
force currently has no launchers that fit this definition. Finally, non 
silo-based fixed launchers of ICBMs and space launch vehicles (i.e., 
``soft-site'' launchers) at any of these facilities are not accountable 
as nondeployed or deployed launchers.
    Admiral Benedict. As defined in the treaty:

          The term ``nondeployed launcher of SLBMs'' means an SLBM 
        launcher, other than a soft-site launcher, that is intended for 
        testing or training, or an SLBM launcher that does not contain 
        a deployed SLBM.

    In simpler terms, a nondeployed SLBM launcher is an accountable 
missile tube that is empty; thus, if the Navy were to remove an SLBM 
from its launcher, the status of that launcher (and the status of the 
SLBM) would change from deployed to nondeployed. A nondeployed SLBM 
launcher is accountable under the New START treaty towards the central 
limit of 800 deployed plus nondeployed ICBM launchers, SLBM launchers, 
and heavy bombers.

                   solid rocket motor industrial base
    11. Senator Nelson. General Chambers, the cost of solid rocket 
motors (SRM) continues to grow. The National Aeronautics and Space 
Administration's decisions to halt the Constellation/Aries programs 
have, as we discussed last year, increased the portion of overhead 
costs borne by DOD. Now that the Air Force has completed Minuteman III 
upgrades and it will be several years before a new engineering effort 
is needed to sustain the Minuteman III through 2030, the Air Force is 
apparently not planning to invest in the SRM infrastructure. What are 
your thoughts on how to ensure the industry has the ability to support 
an additional life extension for Minuteman III and a replacement ICBM 
in the future?
    General Chambers. The Air Force is committed to support the 
industrial base for current and future strategic SRMs needs. The Air 
Force is developing a Minuteman III SRM Modernization concept which 
proposes a modernization program to leverage latest SRM technology 
development into replacement SRMs for MM III (expected need date post-
2020). The proposal would operationally qualify modernized motor 
designs; replace current MM III motors with new SRM technology; utilize 
modern industrial practices; and posture DOD for future SRM 
requirements with transferable technologies. Many of these technologies 
are currently being matured in the ICBM Demonstration and Validation 
Program specifically designed to support industrial base by exercising 
the critical SRM systems engineering and design skills. We believe that 
this Modernization program will be able to provide the needed SRM 
development to sustain the Industry until the time comes for a 
replacement for the current MM III ICBM.

                   long-range nuclear cruise missile
    12. Senator Nelson. General Kowalski, in your prepared testimony 
you talk about the process for fielding a new long range nuclear cruise 
missile, starting with an analysis of alternatives (AoA) that will be 
completed in 2010. What is the assumption on the life of the existing 
nuclear cruise missile?
    General Kowalski. The Air Force has two service life extension 
programs (LEP): one to sustain the air launched cruise missile (ALCM) 
through 2020, which is fully funded; and another to sustain the ALCM 
through 2030, currently being programmed for in the fiscal year 2013 
Program Objective Memorandum (POM).

    13. Senator Nelson. General Kowalski, when does the replacement 
need to be in place?
    General Kowalski. Long-Range Standoff (LRSO) must be in place by 
2030, which aligns with the projected end date for the ALCM service 
LEP.

    14. Senator Nelson. General Kowalski, has there been any discussion 
about the warhead that will be used in the new cruise missile?
    General Kowalski. Recommendations on the specific warhead for use 
in the new cruise missile are being developed by a cross-organizational 
Warhead Working Group with participation from Department of Energy 
(DOE)/National Nuclear Security Administration (NNSA), U.S. Strategic 
Command (STRATCOM), AFGSC, Air Force Nuclear Weapons Center (AFNWC), 
and Air Armament Center. There are several warhead candidates being 
considered, including the W80. Data from the LRSO AoAs will be used to 
help finalize the warhead recommendation. Final recommendations for 
warhead selection will be completed prior to Milestone A, which is 
currently scheduled for the fourth quarter of fiscal year 2013.

                   global strike command--helicopters
    15. Senator Nelson. General Kowalski, much of the support equipment 
for the missiles is very old. What are your plans to address the issue 
of aging equipment, including the need to replace the Vietnam-era 
helicopters that support the missile fields?
    General Kowalski. Support equipment is a critical component of the 
ICBM Master Plan, our overarching planning document for sustaining the 
Minuteman III through 2030. All ICBM support equipment needs are 
prioritized within the Master Plan to support our planning and 
programming process for building the POM submission. Two specific 
examples of support equipment needs highlighted in the Master Plan and 
included in the Future Years Defense Program (FYDP) are replacements 
for the ICBM Payload Transporters and Transporter Erectors. The 17-
year-old Payload Transporter fleet is currently funded in fiscal year 
2011 for replacement with first deliveries projected to begin in fiscal 
year 2015. A program to replace the 21-year old Transporter Erector 
fleet is being considered as part of the fiscal year 2013 POM.
    We intend to replace the UH-1N with the Common Vertical Lift 
Support Platform (CVLSP) with an initial operating capability in fiscal 
year 2015.

    16. Senator Nelson. General Kowalski, why are new helicopters 
needed?
    General Kowalski. The UH-1N does not have the four critical/
fundamental key performance parameters (KPP) of speed, range, 
endurance, or payload capacity for the nuclear security mission or meet 
the continuity of government requirements for the Military District of 
Washington.

    17. Senator Nelson. General Kowalski, when are new helicopters 
needed?
    General Kowalski. Our continued reliance on the UH-1N platform for 
the missile field security results directly in 11 nuclear security 
deviations now. Those deviations will not be resolved until the CVLSP 
is fully fielded in our Missile Wings. Given this compelling need, 
AFGSC is pressing for an initial operating capability of fiscal year 
2015 and an full operational capability (FOC) by fiscal year 2019, with 
FOC for the remainder of the Air Force fleet by fiscal year 2022.

    18. Senator Nelson. General Kowalski, can the Air Force replace 
these helicopters with minimal or no development costs?
    General Kowalski. Yes. The CVLSP program intends to procure a non-
development, off-the-shelf, in-production helicopter that will require 
minimal or no development effort. The CVLSP program currently has $21.7 
million budgeted for RDT&E from fiscal year 2012 through fiscal year 
2014.

    19. Senator Nelson. General Kowalski, from your testimony it 
appears that the mission for the new helicopters will be missile field 
support and to meet the continuity of government requirements for the 
Military District of Washington. Is it clear that the new CVLSP will 
support only those two missions and will not serve a combat search and 
rescue function?
    General Kowalski. The CVLSP program will replace the UH-1N fleet 
that is supporting AFGSC nuclear security support, AFDW continuity of 
government missions, and a variety of other secondary missions, not 
including Combat Search and Rescue (CSAR). CSAR missions are currently 
performed with HH-60 helicopters. There is a separate acquisition 
program to address recapitalization of the HH-60 CSAR fleet.

    20. Senator Nelson. General Kowalski, how many helicopters will be 
needed for each mission?
    General Kowalski. The Air Force needs 42 CVLSP helicopters for 
missile field security and 27 to meet the continuity of government 
requirements for the Military District of Washington. There are 24 
additional helicopters required for PACAF, AFMC, AFSOC and AETC 
training and transport needs.

    21. Senator Nelson. General Kowalski, what is the total number that 
will be purchased?
    General Kowalski. The CVLSP program plans to procure 93 helicopters 
for the various CVLSP missions. This will include 42 helicopters for 
AFGSC nuclear security support, 27 helicopters for the Air Force 
District of Washington continuity of government mission, and 24 
helicopters for training and other CVLSP missions at four other 
MAJCOMs.

    22. Senator Nelson. General Kowalski, when will there be a decision 
on the acquisition strategy for the helicopters?
    General Kowalski. On 12 April 2011, the Secretary of the Air Force 
(SECAF) and Chief of Staff of the Air Force (CSAF) approved a full and 
open acquisition strategy for the CVLSP program. The funding in the 
fiscal year 2011 Appropriation and fiscal year 2012 President's budget 
will support the planned acquisition strategy that seeks to provide an 
IOC in fiscal year 2015.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                           further reductions
    23. Senator Sessions. General Kowalski, General Shackelford, 
Admiral Benedict, General Scott, General Chambers, and General 
Harencak, the President's National Security Advisor recently made 
comments at the Carnegie Endowment that the administration is currently 
``making preparations for the next round of nuclear reductions'' and 
that DOD will ``review our strategic requirements and develop options 
for further reductions in our current nuclear stockpile.'' He continued 
by stating that in meeting these objectives, the White House will 
direct DOD to consider ``potential changes in targeting requirements 
and alert postures.'' What guidance and assumptions have you been given 
or told to follow in the design, development, and posture for 
modernizing the nuclear triad?
    General Kowalski, General Shackelford, General Scott, General 
Chambers, and General Harencak. We have not received further guidance 
or assumptions from DOD. As stated in the fiscal year 2012 Annual 
Update to the Report Specified in Section 1251 of the National Defense 
Authorization Act, ``DOD will invest in its nuclear delivery systems to 
ensure that existing capabilities are adequately sustained with 
essential upgrades and modifications. Additionally, DOD will seek to 
modernize systems to ensure continuing capability in the face of 
evolving challenges and technological developments.''
    Admiral Benedict. Strategic Systems Programs has been tasked to 
extend the life of the Trident II (D5) Strategic Weapon System to match 
the hull life of the Ohio-class submarine and to serve as the initial 
payload of the Ohio Replacement. SSP is extending the life of the W76 
reentry system through a refurbishment program known as the W76-1. This 
program is being executed in partnership with DOE, NNSA. In addition to 
the W76-1, the Navy is in the initial stages of refurbishing the W88 
reentry system. The Navy is collaborating with the Air Force to reduce 
costs through shared technology.

    24. Senator Sessions. General Kowalski, General Shackelford, 
Admiral Benedict, General Scott, General Chambers, and General 
Harencak, in your best military judgment, how prudent is it to begin 
consideration of reductions past the New START levels?
    General Kowalski, General Shackelford, General Scott, General 
Chambers, and General Harencak. It is prudent to begin consideration of 
reductions past the New START levels only to the degree that such 
consideration is based on national strategy. That strategy continues to 
affirm the central role of Deterrence. Deterrence applied to the 
complexities of the 21st century strategic and operational reality 
requires deliberate analysis and planning. Such analysis of 21st 
century requirements for strengthening strategic Deterrence must also 
deliberately include Extended Deterrence and Assurance as a requisite, 
as our reliance on Allies and partners is fundamental.
    National strategy also continues to affirm the efficacy of the 
Triad. Any strategy-based look at further reductions needs to carefully 
assess the effects on the complementary capabilities inherent in the 
three legs of the Triad. Such an assessment will show that 
consideration of further reductions is not accomplished by application 
of mathematical formulae alone, but via thorough analysis of the 
attributes of each leg at lower levels; indeed, fewer warheads and 
fewer platforms can fundamentally alter overall deterrent attributes.
    So, then, the prudence of beginning consideration of reductions 
past New START levels is based on the comprehensive analysis a 
strategy-to-task methodology requires. Such analysis may soon be 
underway, and the Air Force is prepared to fully engage with OSD and 
the combatant commands in providing analytical support and military 
advice.
    Admiral Benedict. Issues involving reductions of nuclear systems 
past the levels specified in the New START treaty is a consideration 
for the executive branch, in consultation with the Office of the 
Secretary of Defense, the Joint Staff and the responsible combatant 
commander, STRATCOM.

              balance between affordability and capability
    25. Senator Sessions. General Kowalski, General Shackelford, 
Admiral Benedict, General Scott, General Chambers, and General 
Harencak, as I mentioned earlier, the modernization and sustainability 
of strategic deterrent is an immense yet critical investment that will 
cost around $20 billion per year for the foreseeable future. Within 
each of your portfolios what steps are being taken to address 
affordability?
    General Kowalski, General Shackelford, General Scott, and General 
Chambers. Our ability to sustain the current systems we have is viable. 
DOD will invest in its nuclear delivery systems to ensure that existing 
capabilities are adequately sustained with essential upgrades and 
modifications. Additionally, DOD will seek to modernize systems to 
ensure continuing deterrent capability in the face of evolving 
challenges and technological developments.
    The Minuteman III will be sustained through 2030. Weapon system 
requirements are continuously reviewed and if sustainment programs not 
previously programmed become  necessary  they  will  be  implemented  
to  ensure  we  meet  the  requirement  `` . . . to maintain a 
sufficient supply of launch test assets and spares to sustain the 
deployed force of such missiles through 2030.'' (ref: H.R. 5122 Section 
139)
    The Air Force plans to maintain heavy bombers for the indefinite 
future to provide long-range conventional and nuclear attack.
    DOD will sustain the current ALCM until a classified follow-on 
capability is fielded.
    Dual-Capable aircraft will continue to carry the B61 gravity bomb. 
The B61 will be sustained through LEPs and the Air Force will provide a 
new tail kit during the LEP. Additionally, the F-35 will be equipped to 
carry the B61.
    Admiral Benedict. A low-rate production continuity procurement 
strategy was extensively reviewed and approved by DOD and Congress. We 
have been in execution for nearly 15 years. This procurement strategy 
has proven successful, based on the demonstrated superb performance of 
the Trident II (D5) weapon system. The Navy submitted a report to 
Congress in December 2002 that detailed the impact of alternative full-
funded procurement strategies and recommended continuation of the 
current production continuity procurement strategy. Continued 
production of critical components represents the best balance of cost 
and risk to extend the life of the D5 missile.
    In addition, examples of other affordability initiatives SSP has 
implemented are:

    (1)  Integrated Support Facility consolidation for missile guidance 
increased efficiency and improved supportability by consolidating the 
missile guidance infrastructure to support the MK6 and deploy MK6LE.
    (2)  Shipboard Electronics Repair Facility established to repair 
and recertify shipboard Strategic Weapons Systems and Attack Weapon 
Systems electronic equipment. A common repair facility has yielded both 
cost avoidance and savings for SSP in the out-years by eliminating 
duplicate repair capabilities across four locations.
    (3)  Moving Navigation efforts to Heath, Ohio, which provides co-
location with the Air Force efforts and also is a lower cost-of-living 
area.

    General Harencak. There can be no doubt that nuclear weapons are 
expensive. Everything about them and their delivery vehicles is 
meticulously designed, over-engineered, and has multiple, redundant 
failsafes. Add to this the fact that many of the weapons and delivery 
vehicles are being sustained well beyond their design lives, and costs 
will inevitably be high. However, one of the Nuclear Weapons Center's 5 
Priorities, as defined in its strategic plan, is entitled ``Ensure 
Resource Stewardship,'' and that is something we take very seriously.
    By using smart engineering and logistics processes, we're 
constantly improving our ability to determine what hardware can be 
refurbished and what must be replaced. As a result, we're planning 
integrated roadmaps and schedules to avoid bottlenecks in production 
that result in higher costs. As we continue to streamline our 
sustainment processes, we're beginning to get a better understanding 
for the effects of advancing or deferring certain sustainment actions, 
which will allow us to plan more efficiently with an eye to reducing 
costs and to ensure that the needs of the warfighter are met.
    In partnership with the AF Program Executive Officer for Strategic 
Systems (AFPEO/SS), we're also looking at innovative teaming 
opportunities to produce needed technology. For example, in the past, 
if an Air Force warhead required a new fuzing assembly, the Air Force 
would foot the entire bill. Now, we're looking at combining efforts 
with Navy SSP in the Integrated ICBM Fuze Program. Since the 
requirements for these fuzes are similar--though not identical--we plan 
to develop a common family of components for the Air Force Mk12A and 
Mk21 reentry vehicles as well as the Navy's MK 5 reentry body. These 
building block components should be adaptable into fuzes for all three 
systems. The savings vice three separate programs should be very 
significant.
    The bottom line is that the Center will do nothing that will 
compromise nuclear safety or security. However, as conscientious 
stewards of the Air Force nuclear arsenal, we are acutely aware of the 
fiscal environment and will continue to seek innovative ways to serve 
the vital goals of meeting warfighter needs, preserving nuclear surety 
and ensuring fiscal responsibility.

    26. Senator Sessions. General Kowalski, General Shackelford, 
Admiral Benedict, General Scott, General Chambers, and General 
Harencak, within each of your portfolios, what is the timeline these 
modernization efforts must be accomplished?
    General Kowalski, General Shackelford, General Scott, General 
Chambers, and General Harencak. The timeline for the below key 
modernization efforts is an estimate and will change as required. 
Current projected delivery dates are:

    1.  B-52 1760 IWB: 2013
    2.  CVLSP: 2014
    3.  B61 LEP: 2017
    4.  Joint Fuze: 2019 (Mk21); 2020 (Mk12A)
    5.  B-2 DMS: 2018
    6.  LRSO: 2023

    Acronyms:

         CVLSP: Common Vertical Lift Support Platform
         DMS: Defensive Management System
         IWB: Internal Weapons Bay
         LEP: Life Extension Program
         LRSO: Long-Range Standoff

    Admiral Benedict. Modernization efforts are occurring now for the 
Trident II (D5) weapon system. The Navy and OSD agreed to extend the 
life of the D5 missile to match the Ohio class submarine service life 
and to serve as the initial payload on the Ohio Replacement based on 
programmatic advantages and the ability to meet effectiveness 
requirements that are derived from the national deterrence strategy. 
The life extension is being accomplished through an update to all the 
Trident II (D5) Strategic Weapons System (SWS) subsystems: launcher, 
navigation, fire control, guidance, missile, and reentry. Our flight 
hardware--missile and guidance--life extension efforts are designed to 
meet the same form, fit and function of the original system, in order 
to keep the deployed system as one homogeneous population and to 
control costs. The Initial Operating Capability of the D5 Flight 
Hardware Life Extension efforts is scheduled in fiscal year 2017. The 
Shipboard Systems efforts are ongoing and will support the baseline 
configuration for the Ohio Replacement Program Strategic Weapon System.

    27. Senator Sessions. General Kowalski, General Shackelford, 
Admiral Benedict, General Scott, General Chambers, and General 
Harencak, within each of your portfolios, what is our ability to 
sustain the systems we currently have?
    General Kowalski, General Shackelford, General Scott, and General 
Chambers. In support of the Secretary of Defense's efficiency 
initiatives, program managers are required to treat affordability as a 
requirement. Specifically, at Milestone A, the Acquisition Decision 
Memorandum (ADM) will contain an affordability target to be treated by 
the program manager as a KPP. At Milestone B, program managers will 
present a systems engineering tradeoff analysis showing how cost and 
risk varies as major design parameters and time to complete are varied.
    Furthermore, new ``Will Cost/Should Cost'' direction will 
incentivize both industry and the program office to aggressively 
scrutinize every element of program cost as they pursue affordability 
solutions to our nuclear deterrence capability requirements.
    Admiral Benedict. The fiscal year 2012 President's budget is 
sufficient to sustain the safety and reliability of the Trident II (D5) 
SWS. However, D5 SWS has just completed 20 years of deployed service 
and is fast approaching its 25-year design life goal. To address aging 
concerns, the Strategic Systems Programs has been tasked to extend the 
life of the Trident II (D5) SWS to match the hull life of the Ohio 
class submarine and to serve as the initial payload of the Ohio 
Replacement. Life extension efforts are being accomplished through an 
update to all the Trident II (D5) SWS subsystems: launcher, navigation, 
fire control, guidance, missile and reentry. These efforts will provide 
the Navy with the SWS needed to meet operational requirements 
throughout the Ohio service life and will serve as the initial SWS on 
the planned follow-on platform.
    General Harencak. Within the AFNWC portfolio, we have the LGM-30G 
Minuteman III ICBM, the AGM-86 ALCM, and support equipment for these 
systems. AFNWC also sustains the support equipment and handling gear 
for gravity bombs and weapons storage areas.
    AFNWC's ability to sustain the Minuteman III ICBM is good. As an 
aging system now 50 years old (the original Minuteman infrastructure 
was emplaced starting in 1961, most of the flight equipment dates from 
the 1970s), there are issues with aging components and infrastructure, 
parts obsolescence, diminishing manufacturing, loss of industrial base, 
and other concerns. However, 50 years of experience has taught us how 
to be good stewards of this system, and we have conducted dozens of 
LEPs over that period. We have developed comprehensive roadmaps that 
show the way for us to sustain this weapon system through 2030 and 
minimize risks. Additionally, the Air Force participates in a robust 
Force Development Evaluation (FDE) program, which includes flight, 
ground and C2 testing to ensure that any weaknesses with a force-wide 
impact are detected as early as possible so that a fix can be planned 
and executed as quickly as possible. We also monitor facility hardness 
to ensure that ICBM infrastructure remains survivable in the event of 
attack. Support equipment is another area that requires constant 
monitoring. Equipment that has worked and been well maintained for 
decades eventually wears out and requires refurbishment or replacement. 
AFNWC is currently working on refurbishing and replacing a number of 
pieces of support equipment that are well past their designed 
lifespans. In many cases, it is becoming increasingly difficult to find 
manufacturers who can build systems and components that can still 
integrate effectively with the Minuteman system. As we continue to look 
at a successor to the Minuteman ICBM, we remain mindful that this 
system has served with unsurpassed reliability for a half-century and 
can continue for some time into the future, though the cost of 
sustaining such an old system will eventually start to increase more 
and more rapidly if modernization of infrastructure, ground equipment 
and flight equipment do not continue.
    Sustainability prospects for the ALCM are also good. As this system 
is significantly newer than the Minuteman ICBM, it has fewer problems 
with disappearing suppliers, industrial infrastructure and obsolete 
technology. We continue to conduct a robust FDE program on ALCM as 
well, and have discovered some issues with aging and/or problematic 
components, which we are in the process of addressing. Additionally, we 
are refurbishing and upgrading some ALCM ground equipment, such as the 
Electronic System Test Set to improve reliability through funding of 
the long term modernization plan, as this test set is crucial to 
sustaining the ALCM through 2030. Though AFNWC is involved in the LRSO 
AoAs to determine the requirements for the successor to the ALCM, we 
fully realize that this system is amply capable of serving through 
2030.
    In addition to the Minuteman and ALCM, AFNWC sustains the loading 
and support equipment for gravity bombs, both in CONUS and overseas. 
We've recently been executing a Service LEP for the Weapons Maintenance 
Truck (WMT) used to sustain gravity bombs in Europe. Prior to AFNWC 
intervention, the WMT was in very poor repair and frequently 
necessitated sharing a single working vehicle between multiple air 
bases, hundreds of miles apart. At this time, each base has its own 
working WMT. Additionally, the Air Force Program Executive Officer for 
Strategic Systems (AFPEO/SS) is working to replace the WMT system 
entirely with a much newer and more capable system (the Secure 
Transportable Maintenance System).
    The bottom line is that AFNWC and its allies in the nuclear 
sustainment business understand what it will take to keep the systems 
in our portfolio going and we will take the necessary steps to preserve 
their surety and effectiveness. This task becomes harder and more 
expensive as the systems continue to age, but there is no point in the 
future we can identify beyond which the systems become unsustainable

                   icbm sustainment and modernization
    28. Senator Sessions. General Kowalski and General Chambers, a 
recent article in the Air Force Times cited a failure review board's 
conclusion that an equipment failure was responsible for the hour-long 
communication outage at F.E. Warren Air Force Base that affected 50 
nuclear missiles last fall. Given the age of the current ICBM 
infrastructure, some have speculated that the incident may be 
indicative of the aging ICBM infrastructure. Do you believe the 
incident is indicative of the aging ICBM infrastructure?
    General Kowalski and General Chambers. No, the Minuteman III Weapon 
System continues to perform as a safe, secure, and effective deterrent. 
Our newest Major Command, AFGSC, conducted an extensive review of last 
fall's event and determined this was an isolated incident and is not 
indicative of age-related systemic problems within the ICBM force. The 
Minuteman III ICBM weapon system alert rate exceeds 99 percent.
    In addition, consistent with the NDAA Section 1251 Report, the Air 
Force, through the leadership of AFGSC, has developed sustainment and 
modernization plans, specified in the ICBM Master Plan, to ensure the 
infrastructure necessary to support and operate our ICBM fleet. We feel 
these plans will meet the challenges required to sustain the MMIII to 
2030.

    29. General Kowalski and General Chambers, do you believe it was an 
isolated incident?
    General Kowalski and General Chambers. Yes, the Minuteman III 
Weapon System continues to perform as a safe, secure, and effective 
deterrent. Our newest Major Command, AFGSC, conducted an extensive 
review of last fall's event and determined this was an isolated 
incident and is not indicative of age-related systemic problems within 
the ICBM force. The Minuteman III ICBM weapon system alert rate exceeds 
99 percent.
    Consistent with the NDAA Section 1251 Report, the Air Force, 
through the leadership of AFGSC, has developed sustainment and 
modernization plans, specified in the ICBM Master Plan, to ensure the 
infrastructure necessary to support and operate our ICBM fleet. We feel 
these plans

    30. Senator Sessions. General Kowalski and General Chambers, how 
confident are you that the Air Force will be able to sustain the 
current ICBM force through 2030?
    General Kowalski and General Chambers. Very confident. The AF is 
committed to sustaining and modernizing the existing Minuteman III ICBM 
system through 2030. The fiscal year 2012 PB request includes 
approximately $1.9 billion of investment funding over the FYDP (fiscal 
year 2012-2016) to extend the existing MM III ICBM weapon system 
through 2030. All aspects of the ICBM Federal and contractor community 
are being exercised and funded to sustain and/or modernize (through 
refurbishment or replacement due to obsolescence and/or diminishing 
vendor base) the MM III ICBM force and associated infrastructure.

    31. General Kowalski and General Chambers, when should a decision 
be made for pursuing the development of a follow-on ICBM?
    General Kowalski and General Chambers. The 2010 Nuclear Posture 
Review stated that studies are needed now to inform a decision on a 
follow-on ICBM. To meet this need, pre-AoA efforts have already begun. 
AFGSC has already initiated a Ground-Based Strategic Deterrent 
Capability Based Assessment (CBA). The CBA supports development of the 
Initial Capabilities Document (ICD) which establishes baseline 
requirements for any future Minuteman III replacement program. The next 
step is the actual AoA which will be accomplished in fiscal year 2013-
2014.
    Once the AoA is completed it will be used to recommend the best 
ICBM follow-on options from a broad range of alternatives. A final 
decision is needed sometime in the fiscal year 2015 timeframe.

                      air launched cruise missile
    32. Senator Sessions. General Chambers, are there any challenges 
associated with sustaining the ALCM until 2030?
    General Chambers. Yes. ALCM faces the common, yet manageable 
challenges you might expect any weapon system to face that is having 
its service life extended. Any system that has been in the inventory 
for more than two decades must manage diminishing manufacturing source 
issues, weapon system reliability concerns and service life extension 
priorities. The Air Force has a robust FDE (flight test), functional 
ground test, analytical condition inspection and aging and surveillance 
program to assist with managing these challenges.

    33. Senator Sessions. General Chambers, the fiscal year 2012 budget 
includes $884 million over the next 5 years for the development of a 
new ALCM. Has the Air Force decided if this new ALCM will be nuclear 
capable at the outset?
    General Chambers. Yes, the Air Force has decided that the new ALCM 
will be nuclear capable at the outset.

    34. Senator Sessions. General Chambers, if nuclear, does the Air 
Force intend to use the W-80, and if so, when would the LEP on the W-80 
have to begin so that it will be available for the new cruise missile?
    General Chambers. The Air Force has decided that the new ALCM will 
be nuclear capable at the outset. Recommendations on the specific 
warhead for use in the new cruise missile, and requisite LEP start date 
are being developed by a cross-organizational Warhead Working Group 
with participation from NNSA, STRATCOM, AFGSC, AFNWC, and AAC. There 
are several warhead candidates being considered, including the W80. The 
Warhead Working Group is also supporting the development of an 
integrated master schedule that will include a required LEP start date. 
Data from the LRSO AoAs will be used to help finalize the warhead 
recommendation. Final recommendations for warhead selection and LEP 
start date will be completed prior to Milestone A, which is currently 
scheduled for the fourth quarter of fiscal year 2013.

                                  b-61
    35. Senator Sessions. General Chambers, what is the current status 
of the Air Force's efforts on the B-61's tail subassembly development 
and overall integration efforts?
    General Chambers. The Air Force is currently preparing for a 
combined Material Development Decision (MDD)/Milestone A Defense 
Acquisition Board, scheduled for the fourth quarter of fiscal year 
2011. Preparations include developing and finalizing technology 
development and acquisition strategies, contracting strategies, 
requirements, and cost estimates. The Air Force is also drafting 
statutory and regulatory documents required for MDD and Milestone A. In 
addition, the Air Force is gathering data from three ongoing concept 
development contracts and has established integration working groups 
that include participation from platform program offices and the DOE/
NNSA.

    36. Senator Sessions. General Chambers, do any challenges currently 
exist in meeting the fiscal year 2017 deadline for the first production 
unit (FPU)?
    General Chambers. Yes, challenges do exist, but both the DOD (Air 
Force) and DOE (NNSA) efforts are on track to meet an fiscal year 2017 
FPU. At this stage of the acquisition program, the primary challenge we 
have identified is synchronizing the DOE and DOD acquisition efforts, 
and emphasis has been placed on communication at all levels. One 
specific forum we have established to ensure communication between the 
Air Force and NNSA is a flag officer level Senior Management Team 
(SMT). The SMT meets monthly to review progress and provide guidance to 
the Air Force and NNSA program management teams.

                   air force replacement helicopters
    37. Senator Sessions. General Kowalski and General Chambers, what 
is the current acquisition strategy for the Air Force procurement of 
the CVLSP, the helicopter replacement program for the current fleet of 
UH-1s?
    General Kowalski and General Chambers. The SECAF and CSAF approved 
a full and open competition acquisition strategy for the CVLSP program 
on 12 Apr 2011. Schedule milestones include request for proposals in 
late fiscal year 2011, contract award in later part of fiscal year 
2012, leading to an IOC in fiscal year 2015. The funding in the fiscal 
year 2011 Appropriation and fiscal year 2012 President's budget request 
is considered adequate to support this acquisition strategy.

    38. Senator Sessions. General Kowalski and General Chambers, will 
this be a new development program or do any current DOD airframes exist 
that could meet requirements at a lower cost?
    General Kowalski and General Chambers. The CVLSP program intends to 
procure a non-development, off-the-shelf, in-production helicopter that 
will require minimal or no development effort. There are helicopters 
currently in production including DOD airframes that could potentially 
satisfy CVLSP requirements.

                      start treaty implementation
    39. Senator Sessions. General Kowalski and General Chambers, what 
is the anticipated cost for Air Force implementation of the New START 
treaty?
    General Kowalski and General Chambers. The Air Force continues to 
evaluate projected cost for implementation of the New START treaty. 
However, until a final decision is made on deployed Air Force strategic 
delivery vehicles, as well as elimination methods for the ICBM silos 
and conversion method for the B-52, an accurate cost is not feasible at 
this time.

    40. Senator Sessions. General Kowalski and General Chambers, what 
is the Air Force plan for meeting New START levels for deployed ICBM 
launchers?
    General Kowalski and General Chambers. Our ICBM planning efforts 
are focused on complying with the limit as dictated in the NDAA Section 
1251 Report of up to 420 deployed ICBM launchers. While a final force 
structure decision has not been made, the Air Force continues to 
analyze several options to meet the New START limits.

    41. Senator Sessions. General Kowalski and General Chambers, the 
1251 report that accompanied the New START treaty stipulated an ICBM 
force structure of up to 420 (a reduction of 30). When will a decision 
on the actual number be made?
    General Kowalski and General Chambers. The Air Force is currently 
working with the Joint Staff to evaluate force structure options and to 
make a final decision on the number of deployed ICBMs and nuclear-
capable bombers. When the actual decision will be made is still to be 
determined.

    42. Senator Sessions. General Kowalski and General Chambers, does 
the Air Force intend to spread reductions across multiple ICBM wings or 
would it be more economical to eliminate a block of silos at an 
individual base? If so, why? If not, why?
    General Kowalski and General Chambers. The Air Force has not made a 
final decision on how reductions in deployed ICBMs would be made across 
the force. Some of the considerations involved in this decision are the 
method of reduction (elimination vs. nondeployed status), ongoing 
modification programs, technical characteristics of the Minuteman III 
weapon system, the conditions of specific launchers and the actual 
number of reductions that have to be made. The Air Force continues to 
evaluate options.

    [Whereupon, at 3:34 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                                Committee on Armed Services
                                                    Washington, DC.

                   BALLISTIC MISSILE DEFENSE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Nelson, Levin, Udall, 
Shaheen, and Sessions.
    Committee staff member present: Mary J. Kyle, legislative 
clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Jessica L. Kingston, research assistant.
    Minority staff member present: Daniel A. Lerner, 
Professional Staff Member.
    Staff assistants present: Hannah I. Lloyd and Breon N. 
Wells.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Nelson; Casey Howard, assistant to Senator 
Udall; Lindsay Kavanaugh, assistant to Senator Begich; and 
Lenwood Landrum, assistant to Senator Sessions.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Nelson. The subcommittee today meets to consider 
the ballistic missile defense (BMD) policies and programs of 
the Department of Defense (DOD) supported in the fiscal year 
2012 budget request. We're pleased to have four distinguished 
public servants as witnesses today and we all appreciate your 
service to our country.
    Dr. Brad Roberts is the Deputy Assistant Secretary of 
Defense for Nuclear and Missile Defense Policy. He's been 
deeply involved in developing missile defense policy and 
strategy, including last year's comprehensive Ballistic Missile 
Defense Review (BMDR). He continues to develop our strategy and 
is also working to ensure the implementation of those policies 
and strategies.
    Lieutenant General Patrick O'Reilly is the Director of the 
Missile Defense Agency (MDA), which is responsible for 
conceiving, developing, testing, building, and delivering an 
integrated and operationally effective ballistic missile 
defense system (BMDS), including its component elements, to the 
Services and combatant commanders.
    Rear Admiral Arch Macy is the Director of the Joint 
Integrated Air and Missile Defense Organization (JIAMDO) at the 
Joint Staff. He has been leading the joint warfighter 
assessment of our missile defense needs and has just completed 
an important study called ``The Joint Capabilities Mix III 
(JCM-III),'' which will help guide our future missile defense 
program and budget decisions. I would note that Admiral Macy is 
planning to retire at the end of this month, so this is likely 
his last hearing with the committee, but at his suggestion, not 
ours. We thank you for your many years of service to the 
Nation, Admiral Macy, and we wish you and your family the very 
best in your future.
    Cristina Chaplain is the Director of Acquisition and 
Sourcing Management for the Government Accountability Office 
(GAO). She and her team have recently completed their annual 
assessment of MDA's progress on the development and acquisition 
of the BMDS, focusing particularly on issues of transparency 
and accountability.
    As the BMDR emphasized last year, BMD is an essential 
national priority to protect the Homeland from the possibility 
of a missile attack from countries such as North Korea and Iran 
and to protect our forward-deployed forces, our allies, and 
partners overseas against the large and growing threat of 
regional missiles. As Admiral Winnefeld indicated last week, 
with our Ground-based Midcourse Defense (GMD) system we're 
ahead of the Homeland threat from North Korea and Iran, and we 
want to keep it that way. Our regional missile defenses, using 
the Phased Adaptive Approach (PAA), are designed to meet the 
existing threat and adapt to future threats.
    Developing effective BMDS is an extremely complex technical 
endeavor. Consequently, it often takes longer than we would 
like. However, it's essential that we develop the systems 
carefully, test them adequately and realistically, and 
demonstrate that they work effectively before we produce and 
deploy them. Lives depend on it.
    BMD is also expensive. This is particularly notable under 
the current constrained budget environment. The fiscal year 
budget request for missile defense is $10.7 billion and the 
planned budget for MDA for fiscal years 2011 through 2016 is 
roughly $52 billion. As GAO notes, the BMDS is the largest 
single acquisition program within DOD. So it's important that 
the administration has a policy that missile defenses must be 
fiscally sustainable and affordable and that we have 
appropriate accountability and transparency for the program.
    Within this context, there are a number of issues we hope 
to discuss today. For example, concerning Homeland defense, 
we're interested to hear about proposed fixes, enhancements, 
and hedging options for the GMD system. We're interested to 
know what the implementation of the European Phased Adaptive 
Approach (EPAA) to missile defense is, to know more about that. 
This includes the development, testing, production, and 
deployment of the planned elements for the EPAA, such as the 
Standard Missile 3 interceptor variants to be deployed with 
each successive phase. We'd also like to learn more about our 
efforts to expand other international cooperation, including 
efforts to cooperate with Russia on missile defense.
    We thank all of you for your contributions to improving 
missile defense and to our security and we look forward to your 
testimony.
    Now it's my pleasure to turn to my ranking member and good 
friend, Senator Sessions, for any opening comments he may have.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. This is an 
important hearing and an important subcommittee. Thank you for 
your leadership. I've enjoyed working with you and respect you 
and your judgment on these issues very highly.
    Today's hearing focuses on the President's 2012 budget for 
the MDA. I'm pleased that the top line of $8.6 billion includes 
a modest increase over last year, but I'm concerned that the 
overall 5-year budget represents a more than $2.2 billion 
reduction below last year's planned future defense budget. So I 
have concerns whether we have the ability to support the full 
cost and on-time delivery of the weapons systems we've invested 
so much in.
    I've long urged that we focus more on the GMD system, the 
only system solely responsible for protecting the Homeland at 
this time. Unfortunately, the budget request continues to 
deprive GMD, I'm afraid, of the resources necessary to provide 
and refine the system.
    General O'Reilly, you tout the improvements of GMD such as 
the emplacement of 30 interceptors and upgrades to the missile 
to Fort Greely area. Those accomplishments are welcome and 
appreciated, but without additional resources, the GMD program 
may not succeed, and the two recent test failures should serve 
as key reminders that more must be done to ensure the 
capability we have works and that it will improve over time. 
I'm confident that the difficulties we are having will and can 
be solved, but we have to spend some time and effort on that.
    I look forward to understanding why you believe you can 
achieve and sustain success in a program that needs more 
attention with a budget that's $1.4 billion below what you said 
you needed in the Fiscal Year 2011 Future Years Defense Plan 
(FYDP). After all the money we've spent on developing this 
program, it's really not the time to take our eye off the ball. 
It really needs to be completed. I think it would just be a 
tragedy if we didn't follow through here after all the decades 
of work.
    The GAO questions the plan for the sustainment and 
modernization of GMD. Last year, GAO reported that DOD ``still 
lacks full knowledge of GMD's capability and limitations'' and 
that, although there is a need to continue development until 
2020, the ``acquisition of major GMD assets is nearly 
complete,'' and that DOD has shifted its focus to ``improving 
its knowledge of GMD's capabilities and improving 
integration.''
    Given the two recent failures, I look forward to discussing 
whether or not we need to look back a bit here and make sure 
we're not ahead of ourselves.
    The Aegis weapon system remains one of our most promising 
capabilities and its legacy of incremental development, 
refinement, and proven design is a cornerstone of its success. 
Last week, MDA awarded its first contracts for the new Aegis 
evolution, the SM-3 Block IIB, and I look forward to hearing 
more about the development plan for the IIB.
    Nonetheless, I remain concerned that the schedule is overly 
optimistic. Development of the SM-3 Block I was an 8-year 
effort for an incremental upgrade of the proven SM-2 Block IV. 
The SM-3 Block IIB concept appears to be a far more significant 
upgrade and, according to some initial descriptions, could 
represent a significant departure from Standard Missile 
variants.
    Furthermore, I question the decision not to include the 
Aegis program office in the early stage development, ignoring 
in my opinion the design philosophy that has epitomized 
success.
    The PAA to missile defense establishes a global framework 
for regional uncertainties. If executed correctly and on time, 
it will represent a good approach that is both relocatable and 
scalable. According to the BMD review, the fourth phase of the 
PAA and SM-3 Block IIB will improve the defense of the 
Homeland. As we are all aware, this layered protection could 
have come earlier with the prior plan that we had from the 
prior administration. However, I agree that defending both 
Europe and the U.S. from Iran with only 10 interceptors was not 
sufficient--it was not going to provide the inventory necessary 
to deter Iranian aggression.
    So I look forward to learning more on the anticipated 
Homeland defense capabilities of SM-3 Block IIB, how they 
compare to the previously planned two-stage GBIs, while the 
two-stage GBI has been designated as a contingency if the 
recent development of IIB takes longer than anticipated.
    The JCM-III study to provide warfighter input on necessary 
global force requirements for sensors, interceptors, and 
launchers has just been finalized. I look forward to hearing 
more about this study.
    Let me close by offering a special thanks to Admiral Macy 
for being here today. I understand you plan to retire this 
month and we congratulate you on your service and thank you for 
your commitment to your country.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Sessions.
    Senator Udall, do you have any opening comments that you 
might like to make?
    Senator Udall. I'm eager to hear from the witnesses.
    Senator Nelson. Senator Shaheen?
    Senator Shaheen. No.
    Senator Nelson. If it's okay with everybody, let's have a 
7-minute round. Is that satisfactory? [No response.]
    General O'Reilly, you know we're more than halfway through 
fiscal year 2011 and DOD is still--oh, excuse me, yes. I guess 
you get a chance to talk first. That doesn't happen often 
enough. But thank you, Richard. Thank you.
    You may even answer the question before I ask it, now that 
I've tipped you off. Will you start first, General O'Reilly?

 STATEMENT OF LTG PATRICK J. O'REILLY, USA, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General O'Reilly. Good afternoon, Chairman Nelson, Ranking 
Member Sessions, other distinguished members of the 
subcommittee: I appreciate the opportunity to testify before 
you today on the MDA's $8.6 billion fiscal year 2012 budget 
request to develop protection of our Nation, our Armed Forces, 
allies, and friends against the continually growing threat, the 
proliferation of increasingly capable ballistic missiles.
    In fiscal year 2012 we propose to continue our enhancement 
and integration of sensor, fire control, battle management, and 
interceptors in the BMDS, to improve the reliability and 
performance of our Homeland defense, and to defeat large raid 
sizes of a growing variety of regional ballistic missiles. By 
the end of fiscal year 2012 we will complete the initial 
fielding of a GMD system for Homeland defense against first 
generation intercontinental ballistic missiles (ICBM) 
potentially being developed by current regional threats. We 
will also continue our initial fielding of regional defenses 
against today's short-, medium-, and intermediate-range 
ballistic missiles that are in direct support of our combatant 
commanders.
    I should note that our fiscal year 2012 budget request was 
predicated on receiving the fiscal year 2011 requested budget. 
Therefore, we will adjust our program accordingly once the 
final fiscal year 2011 budget is approved.
    We have had significant accomplishments over the past year, 
including the conduct of 8 out of 8 planned flight tests using 
13 successful targets, the first flight of a two-stage Ground-
Based Interceptor (GBI), the third successful missile intercept 
by the Japanese Aegis program, a successful low-altitude 
intercept by the Terminal High Altitude Area Defense System 
(THAAD). We destroyed two boosting ballistic missiles with our 
Airborne Laser Testbed; and we proved sufficiently accurate 
missile tracks from two Space Tracking and Surveillance System 
satellites to enable a missile defense intercept without using 
ground radars.
    Additionally, we supported Israel's successful intercept of 
a threat missile earlier last month. We also delivered 25 SM-3 
IA interceptors, began the THAAD interceptor production, 
emplaced the 30th GBI, and completed the upgrade of the early 
warning radar in Thule, Greenland.
    Today, MDA's top priority is to confirm the root cause of 
the most recent GBI flight test failure, then verify the 
resolution of the problem and successfully repeat the previous 
flight test. While the failure review board has only produced 
preliminary results, it is clear more ground testing and an 
additional non-intercept flight test of an upgraded GBI 
exoatmospheric kill vehicle will be required before the next 
intercept.
    For the GMD, in fiscal year 2012 we are requesting funding 
for procuring five new GBIs, completing the construction of the 
GMD Missile Field 2 at Fort Greely, AK, the construction of a 
missile communications system on the east coast of the United 
States, placing Missile Field 1 in a storage mode for possible 
upgrade and operations in the future, and upgrading the early 
warning radar in Clear, AK.
    Today 30 operational GBIs protect the United States against 
a limited ICBM attack launched from current regional threats. 
We closely monitor intelligence assessments with the 
intelligence community and if this capability is determined to 
be insufficient we are developing options to increase the 
number of operational GBIs and accelerate the delivery of new 
sensor and interceptor capabilities.
    DOD is committed to brief Congress soon on our strategy to 
hedge against uncertainties in threat estimates. Additionally, 
I've answered questions in other hearings that I've testified 
to that it is my personal judgment that, in light of the two 
GBI test failures, the need for an additional non-intercept 
test, and the need to repeat the failed test, we will need to 
reassess the total number of GBIs we are procuring and reflect 
that assessment in the President's budget request for fiscal 
year 2013.
    Our execution of the EPAA is on track for meeting the 
timelines outlined by the President in September 2009. For 
phase 1, or our initial capability in Europe, our first Aegis 
ballistic missile ship deployment, the U.S.S. Monterey, is on 
station. The latest command and control system upgrades are 
being installed at the U.S. European Command, and the Army 
Navy/Transportable Radar Surveillance (AN/TPY-2) forward-based 
radar will be available in August for deployment in southern 
Europe by the end of this year.
    Finally, in a few days we will conduct a major test in the 
Pacific to verify the readiness of the phase 1 architecture 
against an intermediate-range ballistic target.
    For phase 2, or our enhanced capability against medium-
range ballistic missiles by 2015, we will conduct the first 
flight test of the next generation Aegis missile interceptor, 
the SM-3 Block IB, this summer and certify the associated 
upgrade of the Aegis fire control system in 2012. The design of 
the adaptation of the Aegis system for land basing, called 
Aegis Ashore, began last summer and the test site will be 
installed in Hawaii in 2013 and flight tested in 2014. The 
installation of the Aegis Ashore in Romania will also occur in 
2014 and be fully operational by 2015.
    For phase 3, or an enhanced capability against 
intermediate-range ballistic missiles by 2018, the SM-3 Block 
IIA interceptor is completing its preliminary design this year 
in support of flight testing in 2015 and deployment in 2018. We 
are preparing the Airborne Infrared sensor for early missile 
tracking using the Air Force's next generation sensor in fiscal 
year 2012, and we will begin the design process of the 
Precision Tracking Space System.
    For phase 4, or medium and intermediate-range and ICBM 
early intercept capability in Europe by 2020, we competitively 
awarded concept design contracts for the SM-3 IIB interceptor 
to three industry teams last week. The SM-3 IIB development 
timeline is consistent with the average development timeline of 
other missile interceptors of its class to ensure a low 
development risk approach.
    While not necessary for the defense of the United States 
against limited attacks by early generation ICBMs, the SM-3 IIB 
will complement the GMD, Aegis, and THAAD systems to greatly 
increase the cost-effectiveness of our missile defenses.
    Beyond PAA phase 4, we are pursuing advanced technologies 
for more effective missile defenses in the future, to develop 
high-energy, compact, lightweight laser technologies.
    Finally, the MDA continues to engage in international 
missile defense projects, studies, and analyses with over 20 
countries and the North Atlantic Treaty Organization (NATO).
    In conclusion, our fiscal year 2012 budget request funds 
the development of BMD capabilities that are flexible, 
survivable, cost-effective, and tolerant of uncertainties of 
intelligence estimates of both nation state and extremist 
ballistic missile threats.
    Thank you, Mr. Chairman, and I look forward to answering 
your subcommittee's questions.
    [The prepared statement of General O'Reilly follows:]
           Prepared Statement by LTG Patrick J. O'Reilly, USA
    Good afternoon, Chairman Nelson, Ranking Member Sessions, other 
distinguished members of the subcommittee. I appreciate the opportunity 
to testify before you today on the Missile Defense Agency's (MDA) $8.6 
billion fiscal year 2012 budget request to develop protection for our 
Nation, our Armed Forces, allies, and friends against a growing 
threat--the proliferation of increasingly capable ballistic missiles. 
We continue to enhance and integrate sensor, fire control, battle 
management, and interceptor systems into the Ballistic Missile Defense 
System (BMDS) to improve the reliability and performance of our 
homeland defense and defeat large raids of a growing variety of 
regional ballistic missiles over the next decade. By the end of fiscal 
year 2012, we will complete the initial fielding of the Ground-based 
Midcourse Defense (GMD) system for homeland defense against first 
generation Intercontinental Ballistic Missiles (ICBMs) potentially 
being developed by current regional threats. We will also continue our 
initial fielding of regional defenses against today's short-range 
(1,000 km or less), medium-range (1,000 to 3,000 km), and intermediate-
range ballistic missiles (3,000 to 5,500 km), or short-range ballistic 
missiles (SRBMs), medium-range ballistic missiles (MRBM), and 
intermediate-range ballistic missiles (IRBMs), respectively.
               fiscal year 2010 accomplishment highlights
    During this past year, we have improved our homeland defense by 
emplacing the 30th Ground Based Interceptor (GBI), upgrading two 
additional GBIs, installing a training node at Fort Greely, AK (FGA), 
and completing a significant upgrade of the Early Warning Radar in 
Thule, Greenland. Additionally, we had a successful two-stage Ground-
Based Interceptor (GBI) booster test and conducted a three-stage GBI 
intercept test where we did not achieve our primary objective, but we 
did demonstrate integrated sensors and command, control, battle 
management, and communication (C2BMC) during the longest range flight 
test to date. During the past year, we also improved our regional 
defenses by converting 2 Aegis BMD ships, delivering 25 SM-3 IA 
interceptors, and increasing the Aegis BMD fleet to 20 operationally 
configured BMD ships. Aegis BMD ships carrying SM-3 IA interceptors are 
currently deployed and on-station in forward operating areas, including 
the USS Monterey as part of the first phase of the European Phased 
Adaptive Approach (EPAA). We also commenced production of Terminal High 
Altitude Area Defense (THAAD) Batteries 3 and 4 and the associated 
interceptors. We accelerated the refurbishment of an AN/TPY-2 radar for 
phase 1 of the EPAA and installed a C2BMC system and prepared a second 
AN/TPY-2 for deployment to U.S. Central Command. Moreover, we 
successfully flew 14 target missions, including a successful intercept 
of a separating MRBM with our Japanese allies using an SM-3 IA 
interceptor (thus completing the first BMD Foreign Military Sales (FMS) 
case), and conducted a successful intercept of a unitary SRBM with 
THAAD. For future capabilities, we demonstrated the ability of the two 
Space Tracking and Surveillance System (STSS) satellites to provide 
stereo, high-fidelity tracking capabilities and transfer tracks into 
C\2\BMC. Our Airborne Laser Test Bed (ALTB) successfully destroyed two 
boosting ballistic missiles. We achieved our goal of demonstrating NATO 
Active Layered Theater Ballistic Missile Defense interoperability with 
the U.S. C2BMC in Joint Project Optic Windmill. Finally, we completed 
U.S. and Israeli Government project agreements on the Arrow 3 Upper 
Tier Interceptor, the David's Sling Weapon System, and an Israeli Test 
Bed. Recently, we supported Israel's successful intercept mission of a 
separating threat missile off the coast of California.
                       enhancing homeland defense
    MDA's top priority is to confirm the root cause of the most recent 
GBI flight test failure, verify the resolution of the problem, and 
successfully repeat the previous flight test. While the Failure Review 
Board has only produced preliminary results, it is clear more ground 
testing and an additional non-intercept flight test of an upgraded GBI 
Exo-atmospheric Kill Vehicle (EKV) will be required before the next 
intercept.
    We are requesting $1.16 billion in fiscal year 2012 in Research, 
Development, Test, and Evaluation (RDT&E) funding for the GMD program 
(including completing the construction of Missile Field 2 at FGA), 
which will complete the initial fielding of the defense of our homeland 
against limited ICBM attacks. In fiscal year 2012, we also will 
continue to upgrade existing GBIs and acquire new GBIs to meet our 
minimum requirement of 26 operational GBIs at FGA, 4 at Vandenberg Air 
Force Base (VAFB), CA, and 22 GBIs for testing, stockpile reliability 
testing, and spares. Key to an effective GBI sustainment program is 
examining the results of flight tests (including the loss of two GBIs 
during recent flight testing) and reliability testing. In parallel, we 
continue GBI component vendor requalifications for the future GBI 
avionics upgrade and obsolescence program. Given the two flight test 
failures and the need for a new non-intercept flight and a repeat of 
the last flight test, we need to assess the procurement quantity of 
additional GBIs as part of the fiscal year 2013 President's budget 
request. The new missile field (Missile Field 2) will replace the 
prototype Missile Field 1, which will be placed in a storage mode for 
possible upgrade for operational use in the future. We will complete 
the construction of a second fire control node at FGA to allow testing 
or exercises to be conducted while simultaneously controlling the 
operational system. In addition to completing the upgrade of our new 
hardened backup power plant at FGA in fiscal year 2011, we will also 
complete the upgrade of the communications system at FGA in fiscal year 
2012. Additionally, we will begin the planning, design and environment 
work for a GBI In-Flight Interceptor Communication System (IFCS) Data 
Terminal (IDT) on the east coast of the United States by 2015. This 
East Coast IDT will enable communication with GBIs launched from FGA 
and VAFB on longer flights, thus improving the defense of the eastern 
United States against potential ICBM threats from the Middle East. We 
also are requesting $177.1 million in RDT&E funding for the Sea-Based 
X-band radar in fiscal year 2012 for software upgrades to improve its 
discrimination capability.
    In addition to GMD upgrades, we are requesting $222.4 million in 
fiscal year 2012 for BMDS Sensors for homeland defense, including 
support of the Upgraded Early Warning Radars (UEWRs) and AN/TPY-2 
radars. Integration of the Thule, Greenland radar in fiscal year 2012 
will make it a fully operational UEWR in the BMDS. We continue to 
upgrade the Clear Early Warning Radar in Alaska for full missile 
defense capability by 2016. In addition, a forward-based AN/TPY-2 X-
band radar will be deployed to southern Europe to provide early 
tracking for both enhanced homeland and regional defense. We will 
continue to upgrade system software to address new and evolving 
threats, including enhancing Exo-atmospheric Kill Vehicle 
discrimination algorithms by 2015, improving GBI avionics, and 
increasing GBI interoperability with the Command and Control, Battle 
Management and Communications (C2BMC) system.
    After last year's successful initial flight of a two-stage GBI, we 
plan to conduct an intercept flight test with a two-stage GBI as a 
potential hedge to allow for a longer intercept window of time if ICBMs 
were launched against the United States from Northeast Asia or the 
Middle East. However, as a consequence of the need to repeat the failed 
three-stage GBI flight tests, we plan to delay the first intercept test 
of the two-stage GBI from fiscal year 2012 to fiscal year 2014. 
Finally, we will continue development of the Standard Missile 3 (SM-3) 
IIB to protect our homeland in the future by having the capability to 
intercept first generation ICBMs within the regions from which they 
were launched.
               hedge for protection of the united states
    Today, 30 operational GBIs protect the United States against a 
medium ICBM raid size launched from current regional threats. If this 
capability is determined to be insufficient for protection of the U.S. 
Homeland based on intelligence estimations of future threats, we have 
options to increase the number of operational GBIs and accelerate the 
delivery of new sensor and interceptor capabilities. The Department is 
committed to brief Congress soon on the results of our ongoing BMD 
analysis and our recommended hedge strategy.
                       enhancing regional defense
    We are also currently deploying our initial missile defense 
capability against SRBMs, MRBMs, and IRBMs. Over the next decade we are 
enhancing this initial capability by developing increasingly capable 
missile defenses that can be adapted to the unique circumstances of 
each combatant command region. In regions where ballistic missile 
threats are a concern, the United States will tailor Missile Defense 
Phased Adaptive Approaches (PAAs) (like the European PAA (EPAA)) to 
plan the establishment of command and control, sensor, fire control, 
and interceptor infrastructures to provide fundamental defenses and 
facilitate the effective surge of transportable missile defense assets 
to their regions when needed.
    The EPAA focuses on addressing missile defense interoperability 
with NATO and our allies and partners as the threat from the Middle 
East is anticipated to increase over the next decade. In November 2010, 
NATO Heads of State and Government agreed to develop an Alliance 
territorial missile defense capability to ``provide full coverage and 
protection for all NATO European populations, territory and forces 
against the increasing threats posed by the proliferation of ballistic 
missiles.'' The United States has committed to provide the EPAA as a 
national contribution to this capability, built on the Active Layered 
Theater Ballistic Missile Defense command and control system, and we 
are encouraging our allies to field and provide national capabilities 
as well.
    Phase 1: Initial SRBM, MRBM, and IRBM Defense in Europe--to be 
completed by the end of 2011. In this phase, our goal is to achieve an 
initial missile defense capability in Europe using the Aegis BMD 3.6.1 
weapon system with SM-3 IA interceptors, forward-based AN/TPY-2 and 
SPY-1 radars, and the C2BMC system at Ramstein Air Force Base, Germany, 
which will improve connections to NATO command and control structures. 
The USS Monterey is at sea today and, when paired with the AN/TPY-2 
radar, will provide initial BMD protection of southern Europe from 
existing SRBM, MRBM, and IRBM threats. While no decision on the 
location of the radar has been made, we expect to meet our 2011 
deployment timeline. Additionally, THAAD batteries will be available 
for deployment in this and subsequent phases. The Army activated a 
second THAAD battery in October 2009, which is scheduled to complete 
training by the end of calendar year 2011. We are requesting $290.5 
million in RDT&E funding to enhance communications and enable THAAD's 
launch-on-sensor network capability, which will allow THAAD to 
intercept threat missiles tracked by many different missile defense 
sensors. We also request $833.2 million for the production of 68 THAAD 
interceptors, 6 launchers, and 1 Tactical Station Group to be delivered 
by fiscal year 2014, and $380.2 million for the production of 2 AN/TPY-
2 radars.
    Phase 2: Enhanced MRBM Defense in Europe by 2015. Our goal in this 
phase is to provide a robust capability against SRBMs and MRBMs by 
launching several different interceptors to engage each threat missile 
multiple times in its flight. This architecture includes the deployment 
of the Aegis BMD 4.0.1/5.0 weapon fire control systems with SM-3 IB 
interceptors at sea and at an Aegis Ashore site in Romania. When 
compared to the current SM-3 IA, the IB will have an improved two-color 
seeker for greater ability to discriminate threat Reentry Vehicles from 
other objects, and it will have improvements to enhance reliability and 
producibility of the SM-3 IB's divert and attitude control system. 
These improvements also provide greater capability against larger sized 
raids. We are requesting $565.4 million for the production of 46 SM-3 
Block IB interceptors to be delivered by fiscal year 2014 and $960 
million for Aegis BMD to fund continued development and testing of the 
SM-3 IB as well as upgrades to Aegis 5.0 fire control software to 
support the operation of the SM-3 IB and IIA interceptors and 
associated flight tests. In fiscal year 2012, we are requesting $306.6 
million to begin acquiring Aegis Ashore Missile Defense Systems (land-
based SM-3) batteries--one for testing at the Pacific Missile Range 
Facility, and one for deployment in Romania by fiscal year 2015. We 
request $364.1 million for the C2BMC program for continued development 
of software and engineering to incorporate enhanced C2BMC capability 
into the C2BMC battle management architecture and enable 
interoperability among the BMDS elements, incorporate boost phase 
tracking, and improve system-level correlation and tracking.
    Phase 3: Enhanced IRBM Defenses in Europe by 2018. The SM-3 Block 
IIA interceptor, being co-developed with the Japanese Government, is on 
schedule to be deployed at the Aegis Ashore site in Romania and at an 
additional Aegis Ashore site in Poland, and at sea, in 2018 to provide 
enhanced protection for European NATO countries from all ballistic 
missile threats from the Middle East. The fiscal year 2012 request for 
SM-3 Block IIA co-development is $424.5 million. Additional BMDS 
improvements during this phase include expanded coordination of missile 
defense fire control systems and improvements to radar discrimination. 
Likewise, beginning with their first launch in 2017, the Precision 
Tracking Space System (PTSS) satellites will detect and track hostile 
ballistic missiles over their entire flight and enable earlier 
engagements to improve homeland and regional defense. Furthermore, the 
deployment of the Airborne Infrared (ABIR) sensor will provide the 
capability to provide early track of large ballistic missile raids from 
forward locations, decreasing the time between the enemy's launch of 
the first ballistic missile and the first launch of a ballistic missile 
defense interceptor.
    Phase 4: Early Intercept Defense in Europe by 2020. The SM-3 IIB 
will provide an early intercept (pre-apogee) capability against MRBMs 
and IRBMs and provide an additional layer for a more enhanced homeland 
defense against ICBMs launched from today's regional threats. In fiscal 
year 2012, we are requesting $123.5 million to fund three industry 
teams to begin concept development of the SM-3 IIB design while MDA 
develops advanced propulsion and lightweight material technologies 
relevant to the SM-3 IIB interceptor. Advanced discrimination 
technologies also will be deployed during EPAA Phase 4 including GMD's 
use of fused data from the entire network of BMDS sensors (including 
enhancements from PTSS and ABIR sensor capabilities) to improve 
homeland defense.
         proving missile defense works through enhanced testing
    In fiscal year 2012, we are requesting nearly $1 billion of RDT&E 
funding for Testing and Targets. In collaboration with the Director, 
Operational Test and Evaluation and the Operational Test Agencies 
(OTAs), MDA updated its Integrated Master Test Plan. The updated test 
plan (version 11.1), consisting of 53 flight tests and 74 ground tests 
from fiscal year 2011 through fiscal year 2016, promotes cost-
effectiveness by conducting fewer, but more complex, flight tests to 
achieve more objectives and enhance the realism of each test.
    It is the Agency's plan to conduct later this month an Aegis BMD 
flight test using an SM-3 IA interceptor using data from the AN/TPY-2 
radar passed through the C2BMC system to intercept an IRBM target. 
Later this summer we will also demonstrate Aegis BMD 4.0.1 fire control 
and the first flight test of the SM-3 IB interceptor. Additionally, we 
will conduct two critical ground tests this year to demonstrate the 
EPAA Phase 1 capability for defending European allies and deployed 
forces from multiple and simultaneous SRBM and MRBM threats.
    We will hold a series of system-level operational flight and ground 
tests to demonstrate the initial capability against SRBMs and MRBMs for 
theater/regional defense as well as planning in fiscal year 2012 the 
first entirely operational test of the defense of the homeland by 2015. 
Each operational test will be conducted as realistically as possible 
and involve multiple targets of different ranges. This is where the 
Agency will test how well these layered defenses work. These tests are 
being planned and will be executed in concert with the BMDS Operational 
Test Agencies and under the oversight of the Department of Defense 
Director for Operational Test & Evaluation.. The BMD system under test 
will be operated by the soldiers, sailors, and airmen assigned to their 
respective missile defense equipment and placed under realistic wartime 
conditions to truly document the capabilities and limitations of the 
system. Finally, in fiscal year 2011, THAAD will execute a near-
simultaneous engagement of an MRBM and SRBM.
                      developing new capabilities
    In fiscal year 2012, we plan to develop BMDS capabilities and 
technologies that can adapt as threats change and are fiscally 
sustainable. Early intercept capabilities enabled by satellites, 
forward based sensors and the SM-3 IIB interceptor will provide 
additional opportunities to kill threat missiles, enlarge protection 
areas, and improve the overall performance of the BMDS.
    After completing all of their original on-orbit testing in 2010, we 
continue to operate the two STSS demonstration satellites to conduct 
cooperative tests with other BMDS elements and demonstrate the 
capability of STSS satellites against targets of opportunity. These 
tests demonstrate the ability of space sensors to provide high 
precision, real-time, tracking of missiles and midcourse objects that 
enable the fire control solutions BMDS interceptors. We are requesting 
$96.4 million for the STSS system in fiscal year 2012. Lessons learned 
from the two STSS demonstration satellites inform PTSS development 
decisions. We are requesting $160.8 million for PTSS in fiscal year 
2012. The PTSS, a new program start in cooperation with Johns Hopkins 
University Applied Physics Laboratory, Navy Research Laboratory, Air 
Force SPACECOM, and industry will use simple designs and mature 
technologies to provide persistent classification and tracking 
capability of enemy ballistic missiles for areas of the globe that have 
ballistic missile activity. PTSS project scope includes the delivery of 
PTSS ground segments and the launch of the first two PTSS spacecraft in 
fiscal year 2017.
    In fiscal year 2012, we are requesting $46.9 million for the ABIR 
program. The ABIR program will provide a capability to track large 
ballistic missile raids with an airborne forward-based sensor, 
decreasing the time between the enemy's launch of the first ballistic 
missile and the first launch of a ballistic missile interceptor. 
Initially, we will integrate a sensor from the Multi-spectral Targeting 
System family of infrared sensors onto an MQ-9 Reaper Remotely Piloted 
Vehicle to prove that we can enable Aegis fire control solutions with 
forward-based airborne assets. In fiscal year 2012, using platforms and 
operators supplied by the Air Force, and working closely with the Navy, 
we propose to demonstrate the ability to provide external cueing, 
sensor performance, and timely and accurate ballistic missile tracking. 
Our objective is to integrate the ABIR sensor into a pod that can be 
attached universally to the wing of a variety of aircraft. 
Additionally, in fiscal year 2012 we are enhancing our command and 
control capability to handle larger threat missile raid sizes and 
leverage airborne and space sensor missile tracking data networks. We 
will continue our development and testing of a multi-sensor application 
(ABIR and space sensors) tasking and signal processing capability that 
will provide data with sufficient quality to enable Aegis, THAAD, and 
GMD fire control solutions for launching interceptors.
    In fiscal year 2012, we are requesting $96.3 million for Directed 
Energy Research ($92.6 million for ALTB). Following the successful 
shoot downs of liquid-fueled and solid-fueled boosting ballistic 
missile targets with an airborne laser in fiscal year 2010, the 
Assistant Secretary for Defense Research and Engineering designated the 
ALTB as a science and technology test bed for high power laser research 
and development. In fiscal year 2012, we are teaming with the Air 
Force's Research Laboratory to use the ALTB for testing advanced 
directed energy technologies and conducting beam propagation and 
lethality testing. A primary objective of our directed energy program 
is to continue our partnership with Lawrence Livermore National 
Laboratory to develop Diode Pumped Alkaline-gas Laser System 
technology, which offers great potential for high efficiency, 
electrically-driven, compact, and light-weight high energy lasers for a 
wide variety of missions of interest to MDA and the Department of 
Defense.
                       international cooperation
    As stated in the 2010 Ballistic Missile Defense Review, developing 
international missile defense capacity is a key aspect of our strategy 
to counter ballistic missile proliferation. In Europe, we remain 
committed to working with our NATO allies to make NATO lower layer 
missile defense assets interoperable with U.S. upper-tier missile 
defense assets deployed under the EPAA through NATO's territorial 
missile defense capability. In East Asia, we are improving missile 
defenses through bilateral relationships. In the Middle East, we 
continue to work with long-term partners and pursue strengthened 
cooperation with other countries that have expressed interest in 
missile defense. MDA is currently engaged in missile defense projects, 
studies and analyses with over 20 countries, including Australia, the 
Czech Republic, Denmark, France, Germany, Israel, Japan, Kuwait, NATO, 
Poland, Romania, Saudi Arabia, South Korea, the United Arab Emirates, 
and the United Kingdom.
    MDA continues its close partnership with Japan on the SM-3 IIA 
interceptor (Japan is leading the development efforts on the SM-3 IIA 
second and third stage rocket motors and the nosecone), studying future 
architectures, and supporting that nation's SM-3 IA flight test 
program. We also continue collaboration with Israel on the development 
and employment of several missile defense capabilities that are 
interoperable with the U.S. BMDS. Last month, at a U.S. test range off 
the coast of California, the Arrow Weapon System successfully 
intercepted a target representative of potential ballistic missile 
threats facing Israel today. We are requesting $106.1 million for 
Israeli Cooperative Programs (including Arrow System Improvement and 
the David's Sling Weapon System) in fiscal year 2012. We are working 
with our partners from the United Arab Emirates on the development of a 
FMS case for the THAAD system that would represent the first sale of 
this capability.
    Additionally, MDA is actively engaged with the Russian Federation 
through three missile defense working groups led by the State 
Department, Office of the Secretary of Defense, and the Joint Staff. We 
are optimistic from the outcomes of both the NATO Russia Council 
meeting at Lisbon and the U.S. bilateral working groups that we will 
make meaningful progress this year in cooperating with the Russian 
Federation on missile defense, including considering leveraging the 
combined early warning and surveillance radars of both countries.
                               conclusion
    Our fiscal year 2012 budget funds completing the initial deployment 
of SRBM, MRBM, IRBM, and ICBM defenses while meeting the warfighters' 
near-term missile defense development priorities. Subsequently, we will 
build on that initial capability with the long-term goal of creating an 
international and enhanced network of integrated BMD capabilities that 
is flexible, survivable, affordable, and tolerant of uncertainties of 
estimates of both nation-state and extremist ballistic missile threats.
    Thank you, Mr. Chairman. I look forward to answering the 
committee's questions.

    Senator Nelson. Thank you, General, and I want to make it 
clear that we'll insert all your prepared statements in the 
record, so if you are able to summarize, as General O'Reilly 
did, that would be good. Thank you.
    Dr. Roberts.

   STATEMENT OF BRADLEY H. ROBERTS, Ph.D., DEPUTY ASSISTANT 
  SECRETARY OF DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY

    Dr. Roberts. Thank you, Chairman Nelson, Ranking Member 
Sessions, members of the subcommittee. I'm grateful for the 
opportunity to be here today and look forward to your 
questions. I just have a brief oral statement. The written 
statement begins with a review of the scope and conclusions of 
the BMDR, with the hope that that might be of general interest 
to this subcommittee. But my focus here today is on the key 
issues that have emerged in our dialogue as we have shifted 
from the phase that was policy development to policy 
implementation.
    From my perspective, there have been four main issues in 
discussion between us of a policy kind. The first relates to 
developments in the threat. In the missile defense review we 
made a commitment to closely monitor developments in the threat 
and to assess our defense investment priorities in light of new 
information about the threat. Of course, in the last year we've 
had a lot of new information that simply reconfirms the fact 
that we have an accelerating development of threat, both 
quantitatively and qualitatively, and this new information has 
simply reinforced the commitment, our commitment as reflected 
in the missile defense review, to a balanced approach that 
ensures that we continue to improve protection of the Homeland 
while at the same time accelerating regional protection.
    The second main issue that's been of continuing discussion 
among us relates to Homeland defense. In the missile defense 
review we made the commitment to firstly continue to improve 
our GMD of the Homeland in order to, in your words, stay ahead 
of the threat as it develops, and to keep ahead over the long 
term. But we made a related commitment to be well-hedged, and 
we've had some continuing discussion about what that means.
    I would emphasize that we made a series of commitments in 
the last budget and some new commitments in the current budget 
to take steps to continue to improve the performance of the GMD 
system. Enhanced performance of the system can add future 
capability in meeting quantitative and qualitative threat 
developments clearly.
    But the focus of discussion has been about the hedge. What 
is it, first of all, we seek to hedge against? In shorthand, 
it's the appearance of a second generation threat before we're 
ready for it. Now, what does that mean? The posture we have 
today is one that has us well-protected against the initial 
ICBMs that might be deployed by states like North Korea and 
Iran, that are few in number, relatively slow, and lack 
sophisticated countermeasures. Against this threat we have the 
current posture of 30 GBIs and the expected enhancements to 
come in the defense of the Homeland with the future deployment 
in the 2020 timeframe of SM-3 IIB.
    The hedge problem is what happens if we have a number of 
ICBMs deployed by states like North Korea, Iran, or 
sophisticated ICBMs with sophisticated countermeasures before 
the availability of the SM-3 IIB to enhance the protection of 
the Homeland? For that problem, we have already taken steps to 
hedge, as reflected in the BMDR, principally providing 
additional silos into which we could place additional GBIs if 
required to do so. This year we took the additional step of 
mothballing rather than decommissioning some additional number 
of silos so that when that's implemented we would have the 
ability to increase from 30 to 44, roughly 50 percent, the 
number of GBIs as a part of the hedge posture. We've also 
committed to maintaining development of the two-stage GBI as a 
part of this hedge.
    The question that we've been engaged with now internally in 
DOD for a few months is what more do we need to do to ensure 
that the hedge posture is sufficient to deal with the possible 
threat developments in the timeframe before 2020? As we've 
stated in various venues, we're committed to bring that work 
forward to you as soon as our Secretary is satisfied that it's 
complete, and we expect to do so soon.
    The third topic of continuing discussion between us has 
been on implementing the PAA. Our attention has naturally been 
attracted to Europe because this is the approach that attracted 
the most political discussion and required the biggest push 
over the last year politically. But this is a global approach 
to the regions and one that has to be tailored to each of the 
regions.
    In a general summary, General O'Reilly has already given 
you good detail on the technical aspects of this. But our first 
priority in implementing PAA is to ensure that we are growing 
the capabilities that are available that are relocatable and 
flexible and adaptive to the different security environments. 
So we've been ramping up procurement in order to meet the 
rising demands of the combatant commands (COCOMs), and 
politically we've been working within the multilateral 
framework at NATO, bilaterally with our allies in East Asia and 
elsewhere, to define needed next steps.
    Lastly, the fourth issue I'd like to touch on relates to 
expanding international cooperation. This is again a global 
agenda from our perspective, but our focus here today, I think, 
is on Russia. You've posed some specific questions there. We 
believe, as I think you do, in the potential benefits of 
cooperation with Russia. We believe also in the potential 
risks.
    We see the benefits as potentially significant for the 
United States, for the European security environment, and for 
NATO, but also for Russia. We're mindful of the challenges. We 
reject cooperation that would in any way limit our missile 
defenses. You know the shorthand: NATO will defend NATO, but 
Russia will defend Russia, and we will seek to reinforce each 
other's defense where there's mutual benefit in doing so.
    We will not compromise essential technologies. There's no 
discussion of sharing hit-to-kill with Russia. We have made 
clear that cooperation will require successful conclusion of 
the defense technology cooperation agreement. This has been 
under discussion with Russia since it was proposed by the Bush 
administration in 2004. We've also made it clear that any 
classified information that's required for discussion with the 
Russians on this topic would only be discussed after thorough 
review under our national disclosure policy.
    So we hope that we're being mindful of the risks while 
being clear about the opportunities. We're working two parallel 
paths: the NATO-Russia Council pathway with Russia, where we 
are exploring the possibility of cooperative systems in defense 
of common spaces, where we've resumed the theater missile 
defense cooperation that was being pursued under the Bush 
administration and where we're developing a joint analysis for 
a future framework of cooperative activities.
    Bilaterally, we're also working to pursue parallel work on 
a joint analysis in order to better understand the capabilities 
we would each contribute and on the defense technology 
cooperation agreement.
    With that, let me close my opening remarks and look forward 
to your questions.
    [The prepared statement of Dr. Roberts follows:]
                 Prepared Statement by Dr. Brad Roberts
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, thank you for the opportunity to testify on the 
Department's ballistic missile defense (BMD) programs. BMD is a key 
strategic issue for the United States and I look forward to testifying 
and answering your questions about our policies and plans.
               the 2010 ballistic missile defense review
    A year has passed since the Obama administration released its 
review of BMD policy. It is important to recall that this was the first 
ever comprehensive review of BMD policy and that it was undertaken with 
congressional direction in order to inform our national debate about 
policies, strategies, plans, and programs. As we continue to work 
within the framework set out in that report, it is useful here to 
recall its main elements.
    The review began with an assessment of the ballistic missile 
threat. Among its key findings were the following:

        <bullet> The threat is increasing both quantitatively and 
        qualitatively and is likely to continue to do so over the 
        coming decade.
        <bullet> Several States are developing nuclear, chemical, and/
        or biological warheads for their missiles and may attempt to 
        use the resulting capabilities for military advantage in 
        conflict but also to coerce States near and far.
        <bullet> Regional actors such as North Korea and Iran continue 
        to develop long-range missiles that will be threatening to the 
        United States. There is some uncertainty about when and how 
        this type of intercontinental ballistic missile (ICBM) threat 
        to the U.S. Homeland will mature.
        <bullet> But there is no uncertainty about the existence of 
        regional missile threats. They are clear and present and 
        increasing at a particularly rapid pace.
        <bullet> Although confident predictions about the future of the 
        threat are difficult to make, there are some clear trends. 
        These include the progress from short- to longer-range missiles 
        and an increasingly open market in technologies, materials, and 
        expertise. There is also the troubling possibility that non-
        state actors might acquire weapons of mass destruction and the 
        means to deliver them.

    We drew two key conclusions from this threat analysis. First, U.S. 
defense investments must be balanced in a way that enables the 
effective defense of the U.S. homeland and of U.S. forces, allies, and 
partners overseas in both the near and long term. Second, our defensive 
capabilities must be adaptable to unexpected threat developments. 
Threats may mature more rapidly or more slowly than predicted, may 
appear in unexpected locations, or may involve novel technologies or 
concepts of operations. It is essential that the United States be well 
hedged and has a strong posture against unpredicted threat 
developments.
    The Review identified the administration's main policy priorities.

    1.  The United States will continue to defend the homeland from 
limited ballistic missile attack. These efforts are focused on 
protecting the homeland from a ballistic missile attack by a regional 
actor such as North Korea or Iran. The U.S. Homeland is currently 
protected against limited threats and possesses a capacity to counter 
the projected threats from these States. But the United States must 
maintain this advantageous position as the threat matures. Through our 
continued commitment to maintain and develop the Ground-based Midcourse 
Defense (GMD) system, the United States seeks to dissuade such States 
from developing an ICBM, deter them from using an ICBM if they develop 
or acquire such a capability, and defeat an ICBM attack by States if 
deterrence fails.
    2.  The United States will defend against regional missile threats 
to U.S. forces, while protecting allies and partners--and enabling them 
to defend themselves. Regional approaches must be tailored to the 
unique deterrence and defense requirements of each region, which vary 
considerably in their geography, in the history and character of the 
threat, and in the military-to-military relationships on which to build 
cooperative missile defenses. The review reflected our commitment to 
strengthen regional deterrence architectures with missile defense. It 
also set out the phased adaptive approach to regional missile defense. 
It is phased in that it will incorporate improving U.S. capabilities as 
they become available. It is adaptive in that it is tailored to unique 
regional requirements and opportunities. Because the demand for missile 
defense assets within each region over the next decade will exceed 
supply, we must focus on developing capabilities that are mobile and 
relocatable.
    3.  Before new capabilities are deployed, they must undergo testing 
that enables assessment under realistic operational conditions. This 
commitment reflected our assessment that it is no longer necessary to 
pursue a high-risk acquisition strategy that simultaneously develops 
and deploys new systems. The Integrated Master Test Plan announced in 
June 2009, and updated every 6 months since, reflects the Missile 
Defense Agency's new approach.
    4.  New capabilities must be fiscally sustainable over the long 
term. This commitment reflects our leadership's assessment that tough 
decisions must be made to ensure the long-term viability of the 
investment program. As such, we are pursuing lower-cost interceptors 
and enabling early intercepts to minimize the inventory required to 
negate a missile launch. The more constrained fiscal environment has 
only reinforced our sense of resolve on this matter.
    5.  BMD capabilities must be flexible enough to adapt as threats 
change. This conclusion derives from the threat assessment described 
above.
    6.  The United States will seek to lead expanded international 
efforts for missile defense. This is essential to the implementation of 
the phased, adaptive approach to regional missile defense. More 
broadly, it supports the objective of creating an environment in which 
the development, acquisition, deployment, and use of ballistic missiles 
by regional adversaries can be deterred.
            ballistic missile defense review implementation
    Over the last year, our focus has shifted from policy formulation 
to policy implementation. In the continuing executive-legislative 
discussion of implementation, four key issues have emerged, and I will 
address each in turn.

    1.  Monitoring the threat: the Ballistic Missile Defense Review 
(BMDR) expressed a commitment to maintain a strong focus on threat 
developments and to rigorously assess defense planning in light of new 
information. What have we learned?
    2.  Protecting the Homeland: the BMDR expressed a commitment to 
continue to improve the GMD system in order to maintain the currently 
advantageous offense-defense balance against limited strikes, and to be 
well hedged against threat developments. What additional steps are 
needed at this time?
    3.  Pursuing phased adaptive regional missile defense: the BMDR 
expressed a commitment to deploy the phased adaptive approach in Europe 
and apply the approach in East Asia and the Middle East. How much 
progress has been made?
    4.  Seeking expanded international cooperation: the BMDR expressed 
a commitment to lead expanded international efforts for missile 
defense. This includes a commitment to work to establish a cooperative 
BMD relationship with Russia. What opportunities and challenges have 
emerged?
                         monitoring the threat
    The last year has brought abundant confirmation that the threat is 
continuing to grow quantitatively and qualitatively. A central focus 
remains on Iran and North Korea as sources of potential threat to the 
United States and to our allies. In addition, a number of States are 
developing or acquiring Anti-Access/Area Denial capabilities such as 
anti-ship cruise missiles or anti-ship ballistic missiles. These 
capabilities are intended to deny our forces access to key regions, and 
to blunt the operations of forces that do deploy forward.
    Iran already possesses the largest inventory of ballistic missiles 
in the Middle East, and is developing more of them. In addition to its 
growing missile and rocket inventories, Iran is boosting the lethality 
and effectiveness of those stockpiles, through accuracy improvements, 
new submunitions, and salvo launch capabilities. Furthermore, Iran's 
Simorgh space-launch vehicle shows that Iran is making the 
technological progress needed for the development of an ICBM.
    Iran also shows continued interest in pursuing its nuclear-related 
programs, though the Obama administration's economic sanctions program 
has clearly begun to bite more deeply than the present regime might 
have expected. Although we do not know if Iran will eventually decide 
to build nuclear weapons, the prospect of a nuclear-armed Iran is 
deeply concerning to the United States and the global community, and 
there is a risk that Iran's continued efforts along these lines may 
prompt neighboring States to pursue national nuclear programs.
    North Korea is modernizing every aspect of its deployed missile 
forces--including short-, medium-, and intermediate-range systems. It 
has reinforced its long-range artillery forces near the DMZ with a 
substantial number of mobile ballistic missiles that could strike 
targets in South Korea, Japan, and U.S. bases in the Pacific. North 
Korea has not successfully tested an ICBM, but we expect it to continue 
to test-launch missiles, including the Taepo Dong-2 (TD-2). With 
further TD-2 tests, North Korea may develop an ICBM capable of reaching 
the United States. In addition, Pyongyang has a long history of 
ballistic-missile proliferation, and likely will continue to market and 
potentially export missile technologies to a number of countries--
including Iran and Syria.
    North Korea's nuclear-weapons program only increases our concerns 
about that nation's missile capability. According to the Director of 
the Defense Intelligence Agency, ``The North may now have several 
plutonium-based nuclear warheads that it can deliver by ballistic 
missiles and aircraft as well as by unconventional means.''
    The ballistic-missile threat from North Korea is especially 
relevant in light of recent provocative behavior by the regime. A 
multinational Joint Civilian-Military Investigation Team concluded that 
a North Korean midget submarine sank South Korea's naval corvette 
Cheonan on March 26, 2010 near the contentious Northern Limit Line in 
the West Sea, causing the loss of 46 South Korean sailors. Then, in the 
first attack against a civilian-inhabited area since the Korean War, 
North Korea shelled Yonpyong Island on November 23, killing two South 
Korean marines and two civilians.
    These assessments reinforce the administration's commitment to a 
balanced approach that continues to improve the defense of the homeland 
while also accelerating protection against regional threats.
                         defending the homeland
    As noted above, the BMDR expressed a commitment to continue to 
improve the GMD system in order to maintain the currently advantageous 
offense-defense balance against limited strikes, and to be well hedged 
against threat developments. What additional steps are needed at this 
time?
    The assessment that the United States is currently protected 
against limited strikes derives from the strength of the current 
posture against the current threat to the homeland. Today, the United 
States is protected against limited ICBM attacks as a result of 
investments made over the past decade in the GMD system. Thirty Ground-
Based Interceptors (GBIs) are now deployed to defend the homeland. To 
enable successful intercepts by these missiles, radars are now in place 
in Alaska, California, Greenland, and the United Kingdom. They are also 
deployed at sea aboard Aegis destroyers and cruisers, at Shariki, 
Japan, and in the form of the Sea-based X-band radar. These 
capabilities are enabled by a sophisticated command and control 
infrastructure. Looking to the future, this posture will provide 
continued protection against initial ICBM deployments.
    The commitment to continue to improve the GMD system is reflected 
in a number of ongoing activities and in the associated fiscal year 
2012 budget. We continue to:

        <bullet> Test and upgrade the system to increase reliability 
        and survivability
        <bullet> Develop and upgrade Ballistic Missile Defense System 
        sensors
        <bullet> Procure GBIs (in fiscal year 2012, we will procure 
        five more)
        <bullet> Implement GBI refurbishment and reliability 
        sustainment programs (in order to sustain the fleet for another 
        two decades)
        <bullet> Upgrade GMD Fire Control ground system software
        <bullet> Enhance the Command, Control, Battle Management and 
        Communications system to handle larger raid sizes
        <bullet> Develop and deploy new sensors in a variety of 
        settings--including forward bases in Europe, unmanned vehicles 
        in the skies, and platforms in space
        <bullet> Develop early-intercept concepts to help defeat 
        countermeasures and reduce the inventory required to negate 
        missile launches

    Additionally, we are developing the Standard Missile-3 (SM-3) Block 
IIB for deployment against future IRBM and ICBM threats in the regional 
defense architectures (as discussed further below), which is an 
important part of the long-term defense against future ICBM threats to 
the homeland.
    The performance of the GMD system will also be strengthened with 
new investments that will result in better sensor information reaching 
the GBI during its flight. The fiscal year 2012 budget includes new 
funding for an In Flight Interceptor Communications System Data 
Terminal on the East Coast and for upgrades to the Early Warning Radars 
at Clear, AK, and Cape Cod, MA. Looking to the longer term, the 
administration is also investing to develop next generation missile 
defense capabilities. This includes continued work to research the 
potential of directed energy systems for missile defense.
    We are sustaining these commitments even as the Department has 
identified efficiencies and cuts as a result of government-wide budget 
limitations.
    These capability enhancements will contribute significantly to 
preservation of the currently advantageous posture of the United States 
against limited strikes if or as ICBM threats develop from Iran and 
North Korea, or other regional threats. But they may not be enough. The 
United States must also be well hedged against the possibility that 
threats might evolve more rapidly than planned capability enhancements. 
It must also be well hedged against the possibility that those 
capability enhancements may be delayed for technical reasons. After 
all, development programs involve inherent technical risk.
    To strengthen the U.S. hedge posture, the administration has taken 
the following steps:

        <bullet> Construction of Missile Field 2 at Fort Greely, AK, is 
        being completed in a 14-silo configuration to accommodate a 
        contingency deployment of eight additional GBIs if needed.
        <bullet> Six GBI silos at Missile Field 1 at Fort Greely are 
        being mothballed instead of decommissioned, allowing their 
        return to service within 2 years if necessary; and
        <bullet> Testing and assessment of a two-stage Ground-Based 
        Interceptor is continuing in order to preserve future 
        deployment options.

    The administration is considering additional steps to strengthen 
the U.S. hedge posture. We have been studying threat developments, 
future capabilities, and deployment options for a range of scenarios. 
We have been evaluating the deployment timelines associated with 
fielding additional capabilities with an eye to enabling rapid 
responses to triggering events. Our objective is to enable aggregate 
improvements that increase probability of kill, raid capacity, and 
battle space. This work involves a significant amount of classified 
information from both the intelligence community and the system 
developers. We have committed to brief this subcommittee on the results 
in a classified setting in the next several weeks.
    A key issue of continuing congressional interest is the role of the 
two-stage GBI in the hedge strategy. The BMDR explicitly recognized 
this role. The classified analysis addresses this matter directly, as 
well as the continued role of GBIs more generally. DOD will ensure that 
it preserves the capacity to provide additional GBIs to missile field 
two and possibly missile field one should such decisions be taken in 
the future. As General O'Reilly said in his testimony before the House 
Armed Services Committee on March 31, several of the assumptions we 
used to arrive at a total purchase of 52 GBIs are no longer valid, 
primarily due to test failures and the need for additional testing. 
Some increased number of GBIs that will be necessary, but we must 
conclude the investigation of the most recent test failure before we 
can make a determination about the number of additional GBIs that will 
be required. The decision to procure five additional GBIs, together 
with the ongoing refurbishment program, will keep GBI production lines 
warm for several years. This in effect provides us with additional 
decision time to procure additional GBIs without letting the production 
lines go cold.
           pursuing phased adaptive regional missile defense
    The BMDR expressed a commitment to deploy the phased adaptive 
approach (PAA) in Europe and apply the approach in East Asia and the 
Middle East. How much progress has been made? In brief, the progress 
has been significant.
Required Capabilities
    To support PAA implementation, we are procuring a pool of missile 
defense assets that will allow us to address current regional threats 
and surge missile defenses into troubled regions in a time of 
political-military crisis. To date, MDA has delivered two THAAD 
batteries and seven AN/TPY-2 radars. By the end of fiscal year 2012, a 
total of 29 Aegis ships will have BMD capability and there will be a 
total of 15 U.S. PAC-3 battalions. The fiscal year 2012 budget 
continues the procurement of additional THAAD batteries, forward-based 
radars, as well as the conversion of additional Aegis ships, and SM-3 
interceptors. This commitment to additional regional capabilities will 
allow for increasingly robust regional architectures over the decade.
Europe
    The BMDR set out the main elements of the application of the phased 
adaptive approach in Europe. The European Phased Adaptive Approach 
(EPAA) is phased to incorporate improving U.S. capabilities and 
adaptive to the particular geopolitical landscape of Europe. The Obama 
administration is committed to the deployment of all four phases. 
Toward that end, it has begun to deploy initial capabilities. It has 
also developed a diplomatic strategy with allies and partners in 
Europe.
    The first deployment of EPAA capabilities came on March 7 when the 
guided missile cruiser USS Monterey, carrying SM-3 Block IA 
interceptors, deployed to Europe. This deployment is supported by other 
decisions within a comprehensive force management process, led by the 
Joint Staff, that adjudicates competing requirements from the combatant 
commands.
    We are currently in discussions with potential host nations for the 
deployment of an AN/TPY-2 forward-based radar to southeastern Europe. 
While no decision has been made, we expect to meet our 2011 deployment 
timeline. Looking ahead to Phase 2 in 2015 and the deployment of land-
based SM-3 interceptors in southeastern Europe, Romania has agreed to 
host the site. Looking further ahead to Phase 3 in 2018, Poland has 
agreed to host the second land-based SM-3 site.
    Within the North Atlantic Treaty Organization (NATO), considerable 
progress has also been achieved. This past November at the Lisbon 
Summit, NATO's leaders took the unprecedented step of deciding to 
pursue full coverage and protection for the Alliance's populations, 
territories, and forces in Europe against ballistic missile attacks. 
NATO also decided at Lisbon to expand its existing missile defense 
command and control backbone--the Active Layered Theater Ballistic 
Missile Defense--to encompass territorial missile defense, which will 
make current and future Alliance missile-defense assets interoperable. 
These decisions send a strong signal that NATO will not allow itself to 
be defenseless against ballistic missile coercion or attack.
Other Regions
    The same basic approach is being pursued in East Asia and the 
Middle East, but in a way that is tailored to the existing foundations 
of cooperation and unique regional requirements. Capabilities will be 
phased in as they become available for deployment, but in a manner 
adapted to specific regional circumstances.
    In East Asia, a strong foundation of missile defense capabilities 
and cooperation already exists. The U.S. deploys Aegis BMD-capable 
ships in the region. Japan has a layered missile defense system that 
includes Aegis BMD ships with SM-3 interceptors, PAC-3 fire units, 
early-warning radars, and a command-and-control system. Japan also 
hosts an AN/TPY-2 radar. U.S. and Japanese forces regularly train 
together and have successfully executed simulated cooperative BMD 
operations. We are also engaged in cooperative development of the next 
generation SM-3 Block IIA interceptor, which is projected to enter 
service in 2018.
    Australia participates in our Trilateral Missile Defense Forum with 
Japan, and takes part in the Nimble Titan missile-defense exercise 
series hosted by U.S. Strategic Command. Australia is also acquiring 
ships that would be compatible with U.S. Aegis BMD systems, should they 
choose to pursue that capability.
    With South Korea, we have engaged in bilateral missile-defense 
cooperation discussions and have recently signed a Terms of Reference 
and an agreement that will enable our two nations to carry out a 
requirements analysis so that South Korea can make informed decisions 
about the utility of any future BMD program.
    One of the key differences between East Asia and Europe is the 
absence of a multilateral alliance framework based on collective 
defense. Thus our plans to strengthen the regional missile defense 
architecture have had to be built on the foundations of bilateral 
cooperation and a variety of security interests and perceptions.
    The administration has also sought dialogue with China on BMD, with 
little success. We have sought to explain U.S. intentions and 
capabilities and also to better understand China's concerns that such 
defenses might negate China's strategic deterrent. We have also sought 
to convey longstanding U.S. concerns about the pace and scope of 
China's current military modernization efforts, which encompass a wide 
range of advanced air, air-defense, naval, missile, space and 
cyberspace capabilities. We believe that such a dialogue could help to 
reduce mistrust, enhance mutual understanding, and broaden cooperation. 
China deploys a limited but growing number of conventionally armed, 
medium-range ballistic missiles, and it likely is nearing deployment of 
a medium-range anti-ship ballistic missile. It has more than 1,000 
conventional short-range ballistic missiles opposite Taiwan for a 
variety of precision-strike missions. China is also forming more 
missile units, upgrading some older missile systems, and developing 
methods to penetrate missile defenses.
    In the Middle East as in East Asia, the absence of a multilateral 
security framework means that the regional approach must be built on 
the foundation of bilateral relationships.
    In the Persian Gulf, the United States maintains a robust mix of 
missile-defense assets to protect our troops and facilities in the 
region. We have built a series of bilateral missile defense agreements 
with the Nations of the Gulf Cooperation Council (GCC) to address the 
regional ballistic missile threat from Iran. U.S. Central Command 
continues to work on establishing air defense and missile defense 
architectures for the GCC nations. In addition, the United States has 
approved the sale of Patriot and THAAD systems to the United Arab 
Emirates. We are also working with Saudi Arabia to refurbish its 
Patriot systems and recertify the interceptors for those systems.
    We have also taken steps to ensure that Israel will remain capable 
of countering the full range of Iranian ballistic missile threats that 
may emerge. In doing so, we have built on a longstanding relationship 
with Israel on BMD. In addition to conducting major missile-defense 
exercises over the last several years, the United States and Israel 
meet regularly and coordinate extensively on a range of missile-defense 
programs, including the Arrow weapon system and a new program for 
defeating short-range ballistic missiles, known as David's Sling, as 
well as various other shared plans and operations.
    In both East Asia and the Middle East, new capabilities will be 
phased in as appropriate to address regional threats, and as they 
become available through the comprehensive joint force management 
process identified above. This will help to ensure that the 
requirements of the different combatant commands are met in a 
responsible manner as additional asserts become available.
Seeking Expanded International Cooperation
    The BMDR expressed a commitment to lead expanded international 
efforts for missile defense. The intent here is global--to work with 
allies and partners generally to strengthen cooperation. A key priority 
is to establish a cooperative BMD relationship with Russia. Significant 
opportunities have emerged, along with some challenges.
    Our pursuit of missile defense cooperation with Russia occurs 
against the backdrop of broader changes in U.S.-Russian relations. Over 
the past year, there has been important progress in these relations 
such as ratification and entry into force of the New START Treaty, the 
joint pressure applied to Iran's nuclear program, and new steps to 
strengthen the NATO-Russia Council. Russia's leaders have accepted 
proposals from the United States and NATO to pursue cooperation on 
missile defense to enhance our common security against common threats 
and as part of the broader re-set of U.S.-Russia relations.
    Cooperation with Russia on missile defense would be significant for 
a number of reasons. Cooperation could offer tangible security benefits 
to Europe, Russia, and the United States in the form of stronger 
protection against missile threats than would be possible if pursued 
separately. Most significantly, by beginning missile defense 
cooperation now, Russia, the United States and NATO will gain 
information, experience, and confidence that will strengthen strategic 
stability and help to shape and bring closer together our security 
strategies.
    Officials from the Department of Defense and Russian Ministry of 
Defense have been working to initiate a joint analysis of opportunities 
for enhanced missile defense cooperation. In addition to our bilateral 
efforts, NATO and Russia agreed to resume missile defense cooperation, 
and to study ways in which we might cooperate on territorial missile 
defense in Europe.
    As President Obama has stated, we are pursuing BMD cooperation 
``even as we have made clear that the system we intend to pursue with 
Russia will not be a joint system, and it will not in any way limit 
United States' or NATO's missile defense capabilities.'' NATO alone 
will be responsible for defense of NATO territory, just as Russia 
should be responsible for defense of Russian territory. We would 
operate our respective systems independently but cooperatively, in a 
way that reinforces their performance without putting them at risk.
    A requirement for the safeguarding of sensitive information in 
support of cooperation is a Defense Technology Cooperation (DTC) 
Agreement, which will provide the legal framework for undertaking 
cooperative efforts. The proposed DTC Agreement (which we began to 
negotiate in 2004) contains an annex that addresses the sharing of 
classified information. But this on its own will not constitute 
authorization to provide classified information to Russia. Exchange of 
classified information with Russia would still be subject to U.S. 
National Disclosure Policy and the associated careful review, just as 
it is with other partners.
    Expectations for cooperation with Russia are running high, but it 
is important to be realistic about both the opportunities and 
challenges ahead. That said, I do believe we have an opportunity for 
meaningful cooperation that will enhance the security of the United 
States, our NATO allies, and Russia.
                               conclusion
    A year after release of the BMDR, implementation is well launched. 
Capabilities are in place to protect the homeland from limited attack, 
and steps are being taken to continue to improve those capabilities. 
Capabilities are also in place to protect U.S. forces, their families, 
and our allies from regional attacks, and the first steps have been 
taken to implement the phased adaptive approach. We have put in place 
investment programs aligned with our policy priorities.
    We have also tried to put in place the political foundations for a 
long-term commitment by the United States in this area, building on the 
important work of our predecessors. Missile defense is a long-term 
challenge that requires sustained support from a succession of 
administrations and Congresses. As Secretary Gates has argued, ``The 
protection of the United States from the threat of ballistic missile 
attack is a critical national security priority. The threat to our 
deployed military forces and to our allies and partners is growing 
rapidly. This threat has significant implications for our ability to 
project power abroad, to prevent future conflicts, and to prevail 
should deterrence fail.''
    I am grateful for the opportunity to be here today to make our case 
for your support and I look forward to your questions.

    Senator Nelson. Thank you.
    Admiral Macy.

  STATEMENT OF RADM ARCHER M. MACY, JR., USN, DIRECTOR, JOINT 
  INTEGRATED AIR AND MISSILE DEFENSE ORGANIZATION, THE JOINT 
                             STAFF

    Admiral Macy. Thank you, sir. Good afternoon, Mr. Chairman, 
ranking member, and members of the subcommittee. I appreciate 
the opportunity to testify on the JIAMDO and our contribution 
to BMD. Let me also take a moment here to thank you both for 
your comments on my behalf, and I very much appreciate your 
attention and the opportunity to work with this subcommittee 
over the last 2 years. It's been truly a pleasure.
    JIAMDO supports the Chairman of the Joint Chiefs of Staff, 
the Joint Staff, and the combatant commanders. Our mission is 
to identify and coordinate joint requirements for air defense, 
cruise missile defense, and BMD to support the development of 
solutions, to deliver capabilities for the warfighter. We 
provide expertise, analysis, planning, and coordination across 
the combatant commanders and the Services in a number of vital 
efforts relative to both air threat and BMD. These include 
advocating for the warfighters' desired air and missile defense 
capabilities, where we facilitate COCOMs and Services' 
collaborative efforts to identify and develop operational 
concepts, joint requirements, system interoperability, and 
operational architectures for integrated air and missile 
defense.
    We provide support to the Commander, U.S. Strategic Command 
(STRATCOM), in his role as the air and missile defense 
integrating authority. We provide support for, and interaction 
with, other elements of the Joint Staff for global force 
management of the high-demand, low-density BMD assets and 
systems.
    We represent the United States to NATO for matters of air 
and missile defense policy and planning, and we conduct 
assessment, analysis, and validation of integrated air and 
missile defense capabilities to inform both warfighter planning 
and system development and acquisition.
    The Chairman has directed JIAMDO to be at the intersection 
of the requirements processes for air defense and BMD and to 
act as an integration mechanism for harmonizing both common and 
differing needs across multiple services, platforms, and 
systems. Several recent JIAMDO key activities in BMD capability 
development highlight this integration responsibility. These 
include follow-on efforts from the BMDR, initial steps in 
fielding the EPAA, and conducting the JCM-III study that the 
chairman referred to earlier.
    During the BMDR, completed approximately a year ago, I was 
one of the three co-directors of the review, which holistically 
assessed U.S. BMD policy and strategy. Since that time, JIAMDO 
serves as a nexus within the Joint Staff for tracking and 
enabling implementation of the recommendations and 
characteristics of the BMDR report and, critically, providing 
support to the COCOMs and the interagency in fulfilling the 
goals of that review.
    These efforts have included examining how BMD capability 
needs fit into DOD's global force management processes to 
apportion, allocate, and assign BMD elements in a process to 
adjudicate competing COCOM requirements.
    As the Director of JIAMDO, I am the U.S. representative to 
the NATO Air Defense Committee, responsible for addressing air 
and missile defense-related issues in NATO and for drafting and 
coordinating U.S. positions. In this role, I have the privilege 
of working with the NATO staff and member countries to discuss 
the application and implementation of the PAA in Europe and the 
potential for regional missile defense capability in a NATO 
context.
    As was mentioned already, the first BMDS element deployment 
in support of phase 1 EPAA capability occurred on March 7 of 
this year when the cruiser USS Monterey deployed to Europe. Two 
weeks ago, the permanent representatives to the North Atlantic 
Council, the NATO Military Committee, the NATO Air Defense 
Committee, and other NATO senior policy and technical 
committees and international staff received tours and 
demonstrations aboard the ship during a port call on Antwerp. 
For the rest of this year, Monterey will spend the spring and 
summer helping to develop, test, and verify the command and 
control processes, the data pathways, tactics, techniques, and 
procedures necessary for the phase 1 capability to become 
operational later this year.
    In the course of this, two areas have become clear in my 
dealings with the allied nations. First is the criticality of 
being able to integrate partner nations into the missile 
defense architecture and structure through networking. This 
builds coalition unity and provides other nations the 
opportunity to actively participate in both their own defense 
and a larger collaborative defense, and results in shared 
responsibility and costs.
    Second is the value of satellite systems, such as the STSS, 
to provide a means to rapidly increase the level of protection 
in designated areas or extend protection to an undefended area. 
This is an unprecedented level of flexibility and 
responsiveness for combatant commanders to offer their allied 
partners should the need arise.
    Finally, as was mentioned, JIAMDO recently completed the 
base case in the third of a series of air and missile defense 
inventory sufficiency analyses called the JCM-III study, to 
examine the implications and opportunities for the PAA to our 
overall capability for BMD. This study has been reviewed by 
DOD. We're in the process of briefing the base case results to 
appropriate parties, including this committee, and we are 
continuing the analytic efforts of JCM-III to examine a number 
of excursions and alternatives that we have developed.
    The JCM-III study assesses warfighters' requirements for 
BMD elements for the Homeland and for each of the European, 
Central, and Pacific Commands' areas of responsibility (AOR) as 
the commanders anticipate using BMD capabilities within their 
overall operational planning. Working with the COCOMs, the 
Services, and the MDA, we looked to understand how many 
interceptors, launchers, and sensors were needed to counter 
various future scenarios and, most critically, the effect those 
numbers had on warfighting capability. We took into account how 
the COCOMs intend to employ the BMD elements, their desire for 
a layered defense, what the threats are, and generally how the 
threat will be expected to be employed.
    The significant level of warfighter and developer 
involvement in the process gives us a high level of confidence 
in the results. It also shows that the development programs are 
correctly focused on warfighters' desires for forward-based 
airborne and satellite systems that enable earlier intercepts, 
larger engagement areas, more shot opportunities, and increased 
effectiveness against countermeasures.
    You may remember that we previously conducted JCM-I in 2005 
and 2006 and JCM-II in 2007 and 2008. These focused on the 
number of interceptors that might be required under different 
scenarios against specific threats. There are three main 
differences between these earlier studies and JCM-III.
    First, JCM-III examines all the elements of the regional 
BMDS, including sensor systems, launcher systems, and 
interceptors, whereas the previous studies looked only at 
interceptors.
    Second, JCM-III examines performance against threat 
ballistic missiles that employ a range of countermeasures. We 
had not done this previously.
    Third, as I have previously noted, JCM-III is a study of 
warfighting sufficiency rather than inventory acquisition 
objectives. We examine the ability of the application of PAA 
architectures in the different AORs of the COCOMs and for the 
defense of the Homeland to determine how BMDS contributes to 
their overall plan to deter aggressors and, if necessary, to 
end enemy ballistic missile attacks should they occur. We do 
not attempt to simply answer how much to buy. We give 
alternatives to the warfighter on how to achieve his overall 
warfighting goals.
    The specific study results cannot be discussed in this open 
forum, but I'm prepared to discuss the classified results in a 
closed session following our time this afternoon or at another 
time at the subcommittee's convenience or that of the 
individual Members.
    Overall, JIAMDO continues to provide the Joint Staff and 
the combatant commanders a linchpin resource for the 
development, refinement, planning, and fielding of, among other 
things, BMD for our Homeland, our deployed forces, citizens, 
partners, and friends overseas.
    Thank you, Mr. Chairman and Mr. Ranking Member for the 
opportunity to testify. I look forward to answering your 
questions.
    [The prepared statement of Admiral Macy follows:]
             Prepared Statement by RADM Archer M. Macy, USN
    Thank you, Chairman Nelson, Senator Sessions, and distinguished 
members of the subcommittee. I appreciate the opportunity to testify. 
It is an honor and pleasure to join Dr. Roberts, LTG O'Reilly, and Ms. 
Chaplain to discuss ballistic missile defense (BMD) and inform you how 
the Joint Staff and the Joint Integrated Air and Missile Defense 
Organization (JIAMDO) contributes to this important mission area.
joint integrated air and missile defense organization as a part of the 
                              joint staff
    As a reminder, JIAMDO supports the Chairman of the Joint Chiefs of 
Staff, the Joint Staff, and the combatant commanders. Our mission is to 
identify and coordinate joint requirements to support efforts 
developing air defense, cruise missile defense, and BMD solutions for 
the warfighter.
    We are a Chairman's Controlled Activity tailored to provide current 
operational expertise in air and missile defense and our members are 
drawn from across the Services. The background and experience of these 
military experts allows them to relate at an operational level with the 
warfighter and enables them to translate operational needs into 
requirements documents, analysis and study activities, and 
demonstrations.
      joint integrated air and missile defense organization's key 
               contributions to ballistic missile defense
    In support of the Chairman and the Joint Staff, JIAMDO provides 
expertise, analysis, planning, and coordination across the combatant 
commanders and the Services in a number of vital efforts relative to 
BMD. These include participating in, and following up on the results 
of, the Ballistic Missile Defense Review (BMDR) that concluded last 
year; support for BMD weapon system fielding processes; support to U.S. 
Strategic Command (STRATCOM) as the Air and Missile Defense Integrating 
Authority; support for and interaction with other elements of the Joint 
Staff for Global Force Management of High Demand/Low Density BMD assets 
and systems; representing the United States to North Atlantic Treaty 
Organization (NATO) for matters of air and missile defense policy and 
planning; and Integrated Air and Missile Defense Assessments and 
Analysis. I'll address each of these briefly, but first I'd like to 
discuss JIAMDO and the Combatant Commands (COCOMs).
    A key part of our contribution is advocacy for the COCOMs. JIAMDO 
is focused on ensuring the Department is delivering capabilities that 
support COCOM operational plans and address their air and missile 
defense gaps. We assist the COCOMs in the Department's annual 
Capability Gap Assessment process that addresses their critical 
warfighting capability gaps in their Integrated Priority Lists that 
identify risk in accomplishing their specific Unified Command Plan 
missions. In addition to JIAMDO's role in the Joint Staff capabilities 
processes, we have liaison personnel at U.S. Central Command (CENTCOM), 
U.S. European Command (EUCOM), STRATCOM, Joint Forces Command, U.S. 
Pacific Command (PACOM), U.S. Northern Command (NORTHCOM), U.S. North 
American Aerospace Defense Command, and U.S. Forces, Japan. The liaison 
provides a direct link between JIAMDO and the COCOMs as they work air 
and missile defense issues day-to-day for both the hosting command and 
JIAMDO.
Ballistic Missile Defense Review
    JIAMDO had four key roles in the BMDR. As the Director of JIAMDO, I 
was one of the three directors of the review; other JIAMDO personnel 
served as co-chair of the Programmatic Process and Execution Working 
Group; led the Requirements Issue Team; and served in the Directorate 
of Activities. In short, JIAMDO played a central role in the 
development of the BMDR. Subsequent to the completion of the Review, we 
have continued to work with the offices of the Under Secretary of 
Defense for Policy, the Under Secretary of Defense for Acquisition, 
Technology and Logistics, the Missile Defense Agency (MDA), the Joint 
Staff, and members of the Interagency as we develop and advance the 
principles and policies for BMD, such as the Phased Adaptive Approach 
(PAA), that were enumerated in the BMDR report.
Ballistic Missile Defense Elements System Fielding
    The fielding plan for new missile defense systems developed by MDA 
identified a need for the department to develop a process to transition 
and transfer those systems from MDA to the Services. JIAMDO worked 
closely with Service staffs and MDA to develop business rules and 
processes to handle this, and was the lead to take the new process to 
the Joint Requirements Oversight Council (JROC) for approval.
Support to the Air and Missile Defense Integrating Authority
    STRATCOM is designated the Air and Missile Defense Integrating 
Authority (AMD IA) and serves as the COCOMs' representative for air and 
missile defense. JIAMDO is formally tasked to provide operational 
expertise and analytic support to the AMD IA as it documents BMD 
requirements to MDA. Currently, we are assisting in developing the 
expanded Prioritized Capability List that will provide transparency and 
insight for Service developers and MDA for missile defense, and a 
common requirements view for senior decisionmakers.
JIAMDO and Global Force Management
    JIAMDO is also assisting the Joint Staff J-3 to formalize the 
inclusion of Missile Defense in the Global Force Management Process to 
address the force sourcing and mitigation options for BMD assets. This 
would assure that, like other high demand/low density assets, missile 
defense is included in the assignment, allocation, and apportionment 
process to adjudicate competing COCOM requirements.
JIAMDO and the North Atlantic Treaty Organization
    Closely associated with COCOM relationships are the NATO 
responsibilities of JIAMDO. The Director, JIAMDO is the U.S. 
Representative to the NATO Air Defense Committee (NADC), responsible 
for addressing air and missile defense related issues in NATO. The 
Director's unique position allows insight into policy and military 
issues from both a U.S. and Alliance point of view, and enables the 
United States to understand and address tactical level integration of 
allies and partners in analysis and studies, and during the development 
of employment concepts. In this regard I have had the privilege of 
working with the NATO staff and appearing before the North Atlantic 
Council to discuss the application of the PAA in Europe and the 
potential for regional missile defense capability in a NATO context. 
Most recently, the NADC led the senior policy and technical committees 
from NATO Headquarters on tours and demonstrations on the Aegis BMD 
ship USS Monterey (CG 61).
Integrated Air and Missile Defense Assessments and Analysis
    A concurrent responsibility for JIAMDO is assessing and validating 
operational concepts and architectures, and helping COCOMs and Services 
define and refine air and missile defense requirements. This is 
performed primarily through studies and analyses, modeling and 
simulation, and the conduct of wargames. Study activities vary from 
inventory analysis to examinations of surveillance coverage and options 
for various mixes of surveillance sensors. JIAMDO recently completed 
the third of a series of quantitative performance analyses, the Joint 
Capability Mix III (JCM III) Study, to determine the warfighter 
requirements for elements of the BMD System required for BMD; I will 
discuss this in some more detail later in my testimony.
    A centerpiece of JIAMDO's analysis is the Nimble Fire modeling and 
simulation activity. Nimble Fire is a classified operator-in-the-loop 
simulation where Air Force, Navy, Marine Corps, and Army operational 
personnel come together to simulate the execution of joint air and 
missile defense missions. The events are structured to allow 
operational personnel to employ their systems and forces as they deem 
appropriate and the data we obtain is used to define and refine 
capability gaps, requirements, concepts, and in some instances 
employment techniques. It is a fully functional joint architecture 
capable of executing current and future concepts with operationally 
representative positions for Aegis, Patriot, Airborne Warning and 
Control System, E-2, F/A-18, F-15, F-22, and JLENS among others. The 
simulation can conduct distributed operations to U.S. and overseas 
military locations and annually executes a combined air, cruise 
missile, and BMD event in conjunction with MDA's Missile Defense 
Integrated Operations Center simulation at Colorado Springs. Analysis 
events are based on COCOM war plans and routinely have participants 
from the commands in the operational positions. Results are out-briefed 
to the COCOMs as well as the Services and agencies. Nimble Fire is a 
one-of-a-kind capability that has proven to be invaluable in analyzing 
concepts and requirements.
    JIAMDO also provides analytical support and coordinates COCOM 
participation and input into two of the premier BMD wargames, Nimble 
Titan and the Ballistic Missile Defense System (BMDS) Wargame. Nimble 
Titan is sponsored by STRATCOM and led by the Joint Force Component 
Command, Integrated Missile Defense (JFCC IMD). It is a policy and 
military wargame designed to assess and evaluate coalition and allied 
participation in missile defense. U.S. and international missile 
defense experts from both ministries of foreign affairs and ministries 
of defense take part in the events. Eight nations currently 
participate, with more countries to be added in 2012. Insights from 
these wargames allow the U.S. and its partners to identify potential 
policy and military issues such as command and control, information 
sharing, and coalition decisionmaking. The BMDS Wargame, sponsored by 
MDA, is a U.S.-only classified tactical level simulation that brings 
together warfighters and developers to collaboratively examine the 
optimal employment of the future BMDS. This wargame explores areas such 
as shot doctrine, sensor control, interceptor inventory management, and 
force employment. JIAMDO leverages findings from these events to 
support other analyses, and used the shot doctrine developed during the 
BMDS wargame in the models for the JCM studies.
    The Department has recognized that air and missile defense is a 
complex mission area and has committed to joint warfighting. JIAMDO is 
part of that commitment and we are working hard to ensure that 
warfighter needs are met. I would next like to discuss the PAA for BMD 
as mentioned earlier.
                  the phased adaptive approach concept
    The concept of a PAA to missile defense was an outgrowth of the 
BMDR, which took a holistic look at the different aspects of our 
missile defense strategy and its programs. These ranged from trends in 
threat development, U.S. missile defense technology development, 
operational fielding needs and opportunities, and capability 
requirements from COCOM war plans. The particular focus of PAA is the 
regional missile threat coming from short-, medium-, and intermediate-
range ballistic missiles and is responsive to both congressional 
direction, and the warfighters' needs, to place more emphasis on these 
types of threats. In short, it is a more effective and efficient 
approach to missile defense. I think it is important to emphasize here 
that the PAA is not an acquisition program, or a single plan to be 
applied unchanged across all areas of the globe. It is a conceptual 
approach to providing BMD capability for our deployed forces, allies 
and partners, and additional capability for homeland defense, in 
different regions, circumstances and times.
    The recently completed NATO Summit of Heads of State and 
Governments at Lisbon adopted the new Strategic Concept for NATO, which 
explicitly affirms that, in the face of `` . . . the proliferation of 
ballistic missiles, which pose a real and growing threat to the Euro-
Atlantic area,'' the Alliance will ``develop the capability to defend 
our populations and territories against ballistic missile attack as a 
core element of our collective defence, which contributes to the 
indivisible security of the Alliance.'' We view this as a ringing 
affirmation of the priority to develop missile defense for our European 
NATO allies and our deployed forces.
    I would like to point out that although there has been significant 
focus and discussion on Europe, the PAA is much more than just the 
defense of Europe. The PAA concept provides the United States with an 
enhanced capability to respond to regional threats worldwide, no matter 
where they emerge, and to strengthen defense of the Homeland. It also 
provides us with the flexibility to tailor the type and size of that 
response by being able to adapt to the threats, partners' capabilities, 
and geography of each region. The PAA is ``phased'' to advances in our 
own technical and operational capabilities for BMD, and it is 
``adaptive'' to trends and advances in potential adversary threats. The 
European version of the PAA has four phases based upon projected 
advances of our technical capabilities; however, in other COCOM's areas 
of responsibility (AOR) the number and timing of individual phases will 
vary based upon their unique circumstances. The geographic COCOMs are 
developing plans for phases for each AOR, with the European PAA 
currently being the most advanced.
    The PAA has not resulted in a wholesale change in what the 
Department had previously planned to develop, but it does adjust the 
timing and quantity of some of the systems. A key enabler for this 
flexibility is the structured and disciplined approach to development 
and fielding of the BMDS. MDA is providing the Department with an 
impressive array of very capable systems that give us the freedom to 
maneuver and adapt to different and changing environments and threats. 
To fully capitalize on this range of capabilities, the Joint Capability 
Mix studies help guide decisions on maximizing COCOM capabilities and 
provide senior leaders with a risk-relevant assessment based on 
operational plans. This is a critical effort, particularly in light of 
the need to maximize every dollar spent. I would now like to address 
the operational benefits of the PAA.
            operational benefits of phased adaptive approach
    As has been noted before, Congress and our warfighters have said 
the most pressing threat for our deployed forces today is the 
increasing number of Short-Range Ballistic Missiles (SRBMs) and Medium 
Range Ballistic Missiles (MRBMs). Without going into classified 
details, suffice it to say that the sheer number and types of these 
threats grows daily and the Nation needs to find a way to deal with 
them. The PAA addresses these issues head on. The United States cannot 
afford to build the number of launchers, interceptors, and sensors it 
would take for each COCOM to have his own dedicated BMDS capability 
that can address all the potential strikes that could be launched. What 
the PAA provides instead, is a balanced investment that has the 
capacity to engage the range of threats; can be tailored to the 
geography, political circumstances, capabilities of regional partners; 
and has the flexibility to rapidly deploy more assets where and when 
they are needed.
european paa phase i (2011) initial short-range ballistic missiles and 
          medium-range ballistic missiles capability in europe
    European PAA Phase I is focused on the near-term essentials to go 
against the SRBM and MRBM threats. We are already giving the overseas 
combatant commanders more of what we already have by increasing the 
number of Patriot interceptors to complement the existing inventory of 
Patriot and Aegis with Standard Missile-3 (SM-3). The European PAA 
Phase I will also add SM-3 Block IA. This is a simple and direct 
operational counter. As the threat grows, we increase the number of our 
defensive interceptors. While this is workable to a point, it rapidly 
becomes unaffordable as the threats continue to grow in numbers over 
time.
    To break out of the spiral of trying to match the threat missile-
for-missile, the European PAA Phase I also begins the introduction of 
operational leverage by placing a forward-based AN/TPY-2 radar in 
Southern Europe. The addition of this AN/TPY-2 radar will allow the 
combatant commander to use Aegis to launch interceptors against 
ballistic missiles tracked by either the ship itself or the AN/TPY-2 
radar. This significantly increases the size of the area that can be 
defended, and we will examine this architecture in a live intercept 
test mission in the near future. Phase I also includes the Command, 
Control, Battle Management and Communications (C2BMC) upgrade to the 
air operations center at Ramstein Air Base, Germany. C2BMC controls the 
AN/TPY-2 and also ties it and any Aegis ships into our command and 
control structure in Europe. C2BMC is a major operational leverage 
point for PAA because it provides the pathway for data exchange 
throughout a theater and from a theater to the Homeland.
    The first BMDS element deployment in support of Phase I European 
Phased Adaptive Approach (EPAA) capability occurred on March 7, of this 
year when the USS Monterey (CG 61) deployed to Europe. Monterey will 
spend this spring and summer helping to develop, test, and verify the 
command and control processes, data pathways, tactics, techniques, and 
procedures necessary for the Phase I capability to become operational 
later this year.
    This phase is also concurrent with efforts to enhance our 
capability for Homeland defense with early warning radar upgrades, 
adding more Ground-Based Interceptors (GBIs) in Alaska, and developing 
improved GBIs. In the instance of the European PAA the radar tracks 
from the AN/TPY-2 in Southern Europe will be provided to NATO for 
defense of the territory and populations of the European members of the 
Alliance, and will be used by the United States to provide early 
tracking information to enhance our Homeland defense assets. This 
linkage enables very efficient management of radar data and missile 
engagements. C2BMC will ensure threats are detected, tracked, and 
efficiently engaged. It will both prevent inadvertent 
``overengagement'' where too many shots are taken at an incoming 
threat; and the worse alternative, ``underengagement'' where no shots 
are taken, because each shooter is operating independently. The 
operational bottom line on Phase I is that it gets us greater ability 
to engage the SRBM and MRBM threats, and just as important, it begins 
fielding a netted sensor and weapons infrastructure.
     european paa phase ii (2015) enhanced mrbm defense in europe
    Phase II of the European PAA further embodies operational 
innovation. From a developmental point of view, the introduction of 
Aegis with SM-3 IB interceptors and AN/TPY-2 radars gives us expanded 
capability against MRBMs. We also significantly increase the size of 
area that can be defended. The true operational innovation in this 
phase comes from the increasing use of integrated and networked systems 
and the concept of placing SM-3 on land in Romania as a part of Aegis 
Ashore.
    Aegis Ashore is a shift away from forward based GBIs in fixed 
launch sites, to a relocatable land-based Aegis radar with land-based 
SM-3 IB interceptors. This approach provides all the engagement range 
and capability of an Aegis ship but without the requirement to keep a 
ship in a fixed location for extended periods of time, nor the cost of 
maintaining the rest of the multi-mission capability of an Aegis 
warship. Operationally this allows a combatant commander to provide 
long-term coverage for his assets or allies, establish a presence, and 
have a visible deterrent in theater. Similarly, a land-based SM-3 
system can be augmented with Aegis warships and other BMDS assets to 
provide a very robust defense if the situation warrants. This is a very 
operationally responsive concept for the combatant commanders.
    A more significant development beyond deployment of a new weapon 
system is the operational leverage gained from the improvements in the 
SM-3 Block IB interceptor. The SM-3 IB seeker's discrimination 
capability improves its performance during intercepts. The SM-3 IB will 
be deployed with Aegis Ashore and Aegis ships at sea. Because the 
missile seeker has been improved, both Aegis at sea and on land will be 
able to launch on remote sensor data (for example, using data from one 
of the land based radars). The operational impact of this concept is 
not obvious until you understand that the SM-3 missile has a fly-out 
range that goes well beyond where the Aegis radar can detect. The 
establishment of networks combined with the ability to use remote 
sensor data enables a combatant commander to take full advantage of the 
SM-3 range and reach out to extremely long ranges to engage targets. 
Operationally, this equates to a much larger defended area and a 
greater number of defended assets with the same force structure. The 
ability to use multiple weapons systems, and particularly systems that 
are not in the immediate area, does several things. First, it prevents 
an enemy from being able to tell which assets are being defended. 
Second, it makes it impossible to determine ahead of time which 
defensive systems have a shot at an incoming missile. Lastly, it 
prevents an adversary from being able to take down our defenses by 
targeting a single node. I would summarize Phase II as the transition 
phase where we move from classic concepts of single asset employment to 
a modern networked concept.
  european paa phase iii (2018) enhanced irbm defense in europe and 
           phase iv (2020) early intercept defense in europe
    European PAA Phases III and IV add significant operational 
capability and continue to leverage and build on the netted 
infrastructure of the earlier phases. The key capability in Phase III 
is the addition of the SM-3 IIA, to be deployed in Poland, which will 
expand the defended area against MRBMs and Intermediate Range Ballistic 
Missiles (IRBMs). SM-3 IIA will be fielded with both Aegis ships and 
land-based SM-3 systems. Phase IV adds SM-3 IIB to our Aegis Ashore 
sites which will be capable of engaging potential future ICBMs from 
today's regional ballistic missile threats. This is the first 
capability beyond GBIs to defend against ICBMs, and provides enhanced 
defense of the Homeland. The SM-3 IIB also adds the ability to 
intercept MRBMs and IRBMs earlier in their flights which allows the 
warfighter to thin out large raid sizes, and suppress the use of 
countermeasures by engaging a missile before they are deployed. Phases 
III and IV will both continue the use of netted employment and its 
inherent advantages.
    At the completion of Phase IV, Commander EUCOM will have multiple 
defensive capabilities across the entire ballistic missile threat 
regime from SRBMs to ICBMs. It's worthwhile at this point to contrast 
the European PAA with the previous approach for defense of Europe to 
further illustrate the operational impact. Under the previous GBI 
approach we could defend portions of Europe, but the primary benefit 
was defense of the U.S. Homeland. Under EPAA we defend increasing areas 
of Europe, enhance defense of the Homeland, and develop capabilities 
that can be deployed worldwide. So operationally, PAA does much more 
than support a specific combatant commander, it provides capabilities 
that can be employed by every combatant commander. This is major step 
forward in protection for the United States and its allies and 
partners.
    Before I leave the operational discussion of the EPAA Phases, I 
wanted to reinforce the point that BMD, such as we embody in the EPAA, 
is not an isolated mission but part of a larger campaign against an 
adversary. Fundamentally, the BMDS is not, and cannot be, the sole 
method by which we defend ourselves against the threat or use of 
aggressor ballistic missiles. Many potential aggressors already have 
larger threat missile inventories than we have, or expect to have, 
numbers of interceptor missiles. BMDs can prevent an adversary from 
winning the fight with the first wave of the attack, limit damage to 
friendly forces and civilians, and provide time for our other elements 
of national and military power to be brought to bear to end the 
conflict. Further, the possession of a capable BMD such as provided by 
the EPAA, assists in deterring potential aggressors from the use of 
ballistic missiles, as they have to contemplate that they will not be 
successful in achieving their aims from the use of these weapons.
                  analysis supporting paa development
    The analytic efforts that JIAMDO leads are used to support 
operational planning by the warfighters, and support the resources and 
acquisition communities in research and development, production, 
budget, and programming decisions on missile defense. We have recently 
completed the base case of the JCM III to examine the implications and 
opportunities of the PAA as an element of our overall capability for 
BMD. The study has been reviewed by the Department; we are in the 
process of briefing the results to appropriate parties including this 
committee; and, we are continuing the analytic efforts of JCM III to 
examine a number of excursions and alternatives that we have developed. 
The study results cannot be discussed in this open forum, but I will 
discuss the process used at this point. I am prepared to discuss the 
classified results in a closed session following our time this 
afternoon, or at another time at the committee's convenience or that of 
some of the members.
    Building a BMD capability is a blend of determining what the right 
technology is, how many of each system is acquired, and how are the 
elements to be applied in different contexts of threat, geography, and 
international political and military environments of allies and 
partners. In operational terms this gets shortened to ``how much PAA do 
we need, and where?'' A simple phrase, but a very complex problem.
    We previously conducted JCM I in 2005-2006 and JCM II in 2007-2008. 
These focused on the number of interceptors that might be required 
under different scenarios against specific threats.
    There are three main differences between these earlier studies and 
JCM III:
    First, JCM III examined all the elements of the regional BMD 
system, including sensors systems, launcher systems, and interceptors, 
whereas the previous studies only looked at interceptors.
    Second, JCM III examined performance against threat ballistic 
missiles that employed a range of countermeasures; we had not done this 
previously.
    Third, JCM III has been a study of warfighting sufficiency rather 
than inventory acquisition objectives. We examined the ability of the 
application of PAA architectures in different AOR of the combatant 
commanders to determine how BMDS contributed to their overall plan to 
deter aggressors and, if necessary to end enemy ballistic missile 
attacks should they occur. We do not attempt to simply answer how much 
to buy; we give alternatives to the warfighter to best achieve his 
overall goals.
    I would also like to spend a couple of minutes discussing the study 
methodology. In order to determine force needs at this level of 
granularity, we had to take into account how the COCOMs intend to 
employ them, what the threats are, and generally how the threat will be 
expected to be employed. COCOMs provided operational employment 
information, to include asset laydowns and shot doctrine. For system 
performance, we went to the experts at MDA. The analysis was executed 
by JIAMDO in conjunction with representatives from CENTCOM, EUCOM, 
PACOM, STRATCOM, NORTHCOM, MDA, the Services, and the Office of the 
Secretary of Defense Cost Assessment and Program Evaluation. The 
significant level of warfighter and developer involvement in the 
process is why we have such a high level of confidence in the results. 
The results have been briefed to the JROC, the Missile Defense 
Executive Board, and finally to the Deputy Secretary of Defense's 
Advisory Working Group. I have included a graphic on the Senior Review 
Group of the study to illustrate the inclusive approach we use for our 
analysis.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      european phased adaptive approach and north atlantic treaty 
                              organization
    As I mentioned earlier, NATO has just taken the decision that BMD 
is `` . . . a core element of our collective defence.'' In both my role 
as the Director of JIAMDO, and as the U.S. head of delegation to the 
NADC, I have spent a significant amount of time discussing the EPAA 
with various allies and friends throughout Europe. The United States is 
not building a missile defense system in isolation. Our allies are 
appreciative of our efforts to include them in our discussions and 
explain our missile defense concepts and approaches. The EPAA concept 
and implementation provides the opportunity for allies and partners 
across the globe to participate with and alongside U.S. systems. Not 
only is this the right thing to do, it is a very effective and 
efficient approach to missile defense that allows all participants to 
leverage the investment the other nations are making. The recent MDA 
demonstration of C2BMC with NATO's Active Layered Theatre Ballistic 
Missile Defence is a premier example of the right approach to follow.
    Now that NATO has made the decision, the U.S. BMDS capabilities of 
the European PAA will constitute our national contribution to this 
mission. We will work closely within the Alliance to craft the 
appropriate command and control structure to provide for the effective 
defense of ourselves and our partners from ballistic missile threats in 
the region.
                                summary
    The Department is investing a significant portion of its budget in 
missile defense and the PAA is providing the necessary framework to 
ensure it is invested effectively and wisely. The PAA is shaping the 
integration and networking of our systems across the COCOMs, Services, 
and allies which is the correct path to successful and effective 
missile defense. We have established a solid process and analytic 
approach to monitor and guide the implementation of the PAA and expect 
to develop and field the phases in the most operationally effective and 
cost efficient manner possible.
    Thank you for the opportunity to testify. I look forward to 
answering your questions.

    Senator Nelson. Thank you, Admiral.
    Ms. Chaplain.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Nelson, Ranking Member Sessions, and 
members of the subcommittee: Thank you for inviting me to 
discuss accountability and transparency for the BMDS. As you 
noted earlier, the BMDS is DOD's largest single acquisition 
program. It is also likely the most challenging, not only 
because of the inherent technical challenges involved with the 
missile defense mission, but because of the wide range of 
assets involved, the global nature of the system, and the need 
for a high degree of integration and jointness.
    While the inherent risks are substantial, intense early 
schedule pressures driven by presidential directive exacerbated 
acquisition risks, as they required MDA to take on a high 
degree of concurrency in development. That concurrency 
continues. More recently, budgetary pressures have further 
challenged MDA. A faster pace of acquisition and development 
activity often comes with a higher price tag. Yet, fiscal 
conditions require DOD to reexamine all of its programs with an 
eye toward achieving greater cost efficiencies and savings.
    Taken together, these conditions create a high risk 
environment for the MDA and thus call attention to the need for 
strong oversight, accountability, and transparency. Yet, the 
flexibilities given to MDA in order to field initial capability 
quickly have made accountability and transparency elusive. Our 
testimony and report detail the differences between the BMDS 
and DOD's largest acquisition programs. I would just like to 
highlight a few.
    First, while other large programs have been required to 
create baselines and report variances once they enter into the 
engineering and manufacturing development cycle, until recently 
MDA has not been required to do so for pieces of the missile 
defense system.
    Second, while other programs must obtain approval of a 
higher level acquisition executive before making changes to 
their baselines, MDA does not. In fact, the Director of MDA 
serves as both approving acquisition executive and as the 
program manager.
    Third, while other programs must obtain independent life 
cycle cost estimates, MDA does not.
    Fourth, while other programs must complete initial 
operational test and evaluation before proceeding beyond low 
rate initial production, MDA does not.
    This broad flexibility enabled MDA to make decisions faster 
than other acquisition programs and to be more agile. But from 
an oversight and decisionmaking perspective, there were 
considerable disadvantages. The lack of baselines for BMDS 
along with high levels of uncertainty about requirements and 
program cost estimates effectively set the missile defense 
program on a path to an undefined destination at an unknown 
cost.
    I'm pleased to report, however, that the MDA has recently 
made significant strides in increasing transparency and 
accountability. Specifically, in the last year MDA established 
resource, schedule, test, operational capacity, technical, and 
contract baselines for several BMDS components. MDA also 
identified three phases where baselines are approved to help 
ensure the appropriate level of knowledge is obtained before 
acquisitions move from one phase to the next.
    In addition, MDA implemented a process under which product 
development and initial production baselines can be jointly 
reviewed by MDA and the military Service senior leaders, as a 
number of missile defense systems are expected to eventually 
transition to the Services for operation. These improvements 
were made subsequent to recent improvements to test planning to 
better link testing to models and simulations needed to assess 
performance and to extend test planning into the future.
    Given the breadth, scope, and complexity of the systems 
involved in the missile defense mission and the wide range of 
stakeholders and gaps in past data, these improvements were not 
easy achievements. Significant progress has been made. 
Nevertheless, there is still much work ahead to ensure 
oversight and management data is clear, complete, accurate, and 
reliable. My statement and our report detail improvements that 
are needed, particularly in the areas of cost reporting and 
testing.
    Moreover, improvements to oversight reporting should be 
complemented by other actions, including stabilizing the 
approach to acquisition efforts, improving transparency and 
accountability for the EPAA, and lastly embracing knowledge-
based acquisition practices that ensure programs complete 
developmental activities before proceeding in production, that 
test plans are stabilized and adequately reported, and that 
targets used for testing are reliable, available, and 
affordable.
    This concludes my statement and I'm happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain follows:]
                Prepared Statement by Cristina Chaplain
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee: I am pleased to be here today to discuss the transparency 
and accountability progress made by the Department of Defense's (DOD) 
Missile Defense Agency (MDA). MDA has been charged with developing and 
fielding the Ballistic Missile Defense System (BMDS), a system expected 
to be capable of defending the United States, deployed troops, friends, 
and allies against ballistic missiles of all ranges in all phases of 
flight. The BMDS is DOD's single largest acquisition program--spending 
between approximately $7 billion to $9.5 billion per year--to develop 
and field nine elements and supporting efforts. The system's 
architecture includes space-based and airborne sensors as well as 
ground- and sea-based radars; ground- and sea-based interceptor 
missiles; and a command and control, battle management, and 
communications system to provide the warfighter with the necessary 
communication links to the sensors and interceptor missiles.
    In fulfilling this charge, MDA began delivering an initial 
defensive capability in 2004. In meeting this challenge, MDA was 
afforded much more flexibility than DOD's other major weapons programs. 
However, this flexibility also introduced transparency and 
accountability challenges that persisted after the 2004 date for 
initial capability. Today, I will highlight significant progress that 
MDA has recently made to strengthen accountability and transparency and 
also the shortfalls that still need to be addressed in order to further 
strengthen MDA's oversight posture and ensure new capabilities are 
fiscally sustainable for the long term.
    Since 2002, the National Defense Authorization Acts have mandated 
that we prepare annual assessments of MDA's ongoing cost, schedule, 
testing, and performance progress.\1\ In March 2011, we issued our 
report covering MDA's progress toward achieving its goals during fiscal 
year 2010 as well as its efforts to improve transparency, 
accountability, and oversight.\2\ My statement today will focus on the 
issues covered in that report. We conducted this performance audit from 
March 2010 to March 2011 in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our fmdings and conclusions based on our audit objectives. 
Additional information on our scope and methodology is available in the 
issued report.
---------------------------------------------------------------------------
    \1\ National Defense Authorization Act for Fiscal Year 2002, Pub. 
L. No. 107-107, Sec. 232(g) (2001); Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005, Pub. L. No. 108-375, Sec. 233 
(2004); National Defense Authorization Act for Fiscal Year 2006, Pub. 
L. No. 109-163, Sec. 232; John Warner National Defense Authorization 
Act for Fiscal Year 2007, Pub. L. No. 109-364, Sec. 224 (2006); and 
National Defense Authorization Act for Fiscal Year 2008, Pub. L. No. 
110-181, Sec. 225.
    \2\ GAO, Missile Defense: Actions Needed to Improve Transparency 
and Accountability, GA0-11-372 (Washington, DC: March 24, 2011).
---------------------------------------------------------------------------
 acquisition flexibility given to mda has downsides for oversight and 
                             accountability
    MDA is a unique agency with extraordinary acquisition flexibility 
and a challenging mission, however while that flexibility has helped it 
to rapidly field systems, it has also hampered oversight and 
accountability.
    Over the years, Congress has created a framework of laws that makes 
major defense acquisition programs accountable for their planned 
outcomes and cost, gives decisionmakers a means to conduct oversight, 
and ensures some level of independent program review. Application of 
many of these laws is triggered by the phases of the Department of 
Defense's acquisition cycle, such as entry into engineering and 
manufacturing development. Specifically, major defense acquisition 
programs are generally required by law and policy to do the following:

        <bullet> Document program parameters in an acquisition program 
        baseline that, as implemented by DOD, has been approved by the 
        Milestone Decision Authority, a higher-level DOD official prior 
        to the program's entry into the engineering and manufacturing 
        development phase.\3\ The baseline provides decisionmakers with 
        the program's best estimate of the program's total cost for an 
        increment of work, average unit costs for assets to be 
        delivered, the date that an operational capability will be 
        fielded, and the weapon's intended performance parameters.
---------------------------------------------------------------------------
    \3\ 10 U.S.C. Sec. 2435 requires an approved program baseline 
description for major defense acquisition programs before the program 
enters system development and demonstration, production and deployment, 
and full rate production. The system development phase of the DOD 
acquisition cycle is now known as the engineering and manufacturing 
development phase.
---------------------------------------------------------------------------
        <bullet> Once approved, measure the program against the 
        baseline, which is the program's initial business case, or 
        obtain the approval of a higher-level acquisition executive 
        before making changes.
        <bullet> Obtain an independent life-cycle cost estimate prior 
        to beginning engineering and manufacturing development, and/or 
        production and deployment.\4\ Independent life-cycle cost 
        estimates provide confidence that a program is executable 
        within estimated cost.
---------------------------------------------------------------------------
    \4\ 10 U.S.C. Sec. 2434.
---------------------------------------------------------------------------
        <bullet> Regularly provide detailed program status information 
        to Congress, including information on cost, in Selected 
        Acquisition Reports.\5\
---------------------------------------------------------------------------
    \5\ 10 U.S.C. Sec. 2432.
---------------------------------------------------------------------------
        <bullet> Report certain increases in unit cost measured from 
        the original or current program baseline.\6\
---------------------------------------------------------------------------
    \6\ 10 U.S.C. Sec. 2433, also known as ``Nunn-McCurdy''.
---------------------------------------------------------------------------
        <bullet> Covered major defense acquisition programs and 
        subprograms are required to complete initial operation test and 
        evaluation before proceeding beyond low-rate initial 
        production.\7\ After testing is completed, the Director for 
        Operational Test and Evaluation assesses whether the results of 
        the test confirm that the system or components are effective 
        and suitable for combat.
---------------------------------------------------------------------------
    \7\ 10 U.S.C Sec. 2399 requires completion of initial operational 
test and evaluation of a weapon system before a program can proceed 
beyond low-rate initial production. According to DOD policy, low-rate 
initial production is intended to result in completion of manufacturing 
development in order to ensure adequate and efficient manufacturing 
capability and to produce the minimum quantity necessary to provide 
production or 1production-representative articles for initial 
operational test and evaluation, establish an initial production base 
for the system; and permit an orderly increase in the production rate 
for the system, sufficient to lead to full-rate production upon 
successful completion of operational (and live-fire, where applicable) 
testing.

    When MDA was established in 2002, it was granted exceptional 
flexibility in setting requirements and managing the acquisition, in 
order that its BMDS be developed as a single program, using a 
capabilities-based, spiral upgrade approach to quickly deliver a set of 
integrated defensive capabilities. This decision deferred application 
of DOD acquisition policy to BMDS until a mature capability is ready to 
be handed over to a military service for production and operation. 
Because the BMDS program has not formally entered the DOD acquisition 
cycle, application of laws that are designed to facilitate oversight 
and accountability of DOD acquisition programs and that are triggered 
by phases of this cycle, such as the engineering and manufacturing 
development phase, has also effectively been deferred. This gives MDA 
unique latitude to manage the BMDS and it enabled MDA to begin 
delivering an initial defensive capability in 2004. However, the 
flexibility also came at the expense of transparency and 
accountability.
    Specifically, a BMDS cost, schedule, and performance baseline does 
not have to be established or approved by anyone outside MDA. Recent 
laws have created some baseline-related requirements for parts of the 
BMDS.\8\ In addition, while most major defense acquisition programs are 
required by statute to obtain an independent verification of cost 
estimates, MDA has only recently developed cost estimates for selected 
assets and plans to work with the DOD Office of the Director for Cost 
Assessment and Program Evaluation to develop independent cost estimates 
for more MDA elements. Further, assessments of a system's suitability 
and effectiveness in combat have only been accomplished, with 
limitations, for the currently deployed Aegis BMD weapon system. The 
limited amount of testing completed, which has been primarily 
developmental in nature, and the lack of verified, validated, and 
accredited models and simulations prevent the Director of Operational 
Test and Evaluation from fully assessing the effectiveness, 
suitability, and survivability of the BMDS in annual assessments. MDA 
has agreed to conduct an operational flight test in 2012.
---------------------------------------------------------------------------
    \8\ National Defense Authorization Act for Fiscal Year 2008, Pub. 
L. No. 110-181, Sec. 223(g); Ike Skelton National Defense Authorization 
Act for Fiscal Year 2011, Pub. L. No. 111-383, Sec. 225.
---------------------------------------------------------------------------
    As we concluded in a prior report, having less transparency and 
accountability than is normally present in a major weapon program has 
had consequences.\9\ The lack of baselines for the BMDS along with high 
levels of uncertainty about requirements and program cost estimates 
effectively set the missile defense program on a path to an undefined 
destination at an unknown cost. Across the agency, these practices left 
programs with limited knowledge and few opportunities for crucial 
management oversight and decisionmaking concerning the agency's 
investment and the warfighter's continuing needs. At the program level, 
these practices contributed to quality problems affecting targets 
acquisitions, which in turn, hampered MDA's ability to conduct tests as 
planned.
---------------------------------------------------------------------------
    \9\ GAO, Defense Acquisitions: Missile Defense Transition Provides 
Opportunity to Strengthen Acquisition Approach, GA0-10-311 (Washington, 
DC. Feb. 25, 2010).
---------------------------------------------------------------------------
      numerous strategy changes have exacerbated transparency and 
                       accountability challenges
    MDA has employed at least three strategies to acquire and deploy 
missile defense systems, which has exacerbated transparency and 
accountability challenges. From its inception in 2002 through 2007, MDA 
developed missile defense capability in 2-year increments, known as 
blocks, each built on preceding blocks intended to enhance the 
development and capability of the BMDS. However, there was little 
visibility into baseline costs and schedules associated with the 
systems that comprised the blocks or how the blocks addressed 
particular threats.
    In response to our recommendations, in December 2007, MDA announced 
a new capabilities-based block structure intended to improve the 
program's transparency, accountability, and oversight. Instead of being 
based on 2-year time periods, the new blocks focused on fielding 
capabilities that addressed particular threats. Because the new block 
structure was not aligned to regular time periods, multiple blocks were 
under way concurrently. This approach included several positive 
changes, including a DOD commitment to establish total acquisition 
costs and unit costs for selected block assets, including only those 
elements or components of elements in a block that would be fielded 
during the block and abandoning deferrals of work from one block to 
another.
    MDA was still transitioning to this new capabilities-based block 
approach when the Director, MDA terminated it in June 2009. According 
to MDA, this was done in order to address congressional concerns 
regarding how to structure MDA's budget justification materials. This 
termination marked the third acquisition management strategy for the 
BMDS in the prior 3 years and effectively reduceo transparency and 
accountability for the agency. The agency then began to manage BMDS as 
a single integrated program but planned to report on cost, schedule, 
and performance issues by each element within the program.
    Changing the acquisition strategy is problematic because each time 
it is changed, the connection is obscured between the old strategies' 
scope and resources and the new strategy's rearranged scope and 
resources. This makes it difficult for decisionmakers to hold MDA 
accountable for expected outcomes and clouds transparency of the 
agency's efforts.
    We also reported in December 2010 that the adoption of the European 
Phase Adaptive Approach (PAA) for deploying missile defense assets has 
limitations in transparency and accountability.\10\ Specifically, we 
reported that DOD made progress in acquisition planning for technology 
development and systems engineering and testing and partial progress in 
defming requirements and identifying stakeholders but had not yet 
developed a European PAA acquisition decision schedule or an overall 
European PAA investment cost. We found that the limited visibility into 
the costs and schedule for the European PAA and the lack of some key 
acquisition management processes reflect the oversight challenges with 
the acquisition of missile defense capabilities that we have previously 
reported. We concluded that for the European PAA, the flexibility 
desired by DOD is not incompatible with appropriate visibility into key 
aspects of acquisition management. Moreover, as DOD proceeds with the 
European PAA acquisition activities, it is important for Congress and 
the President to have assurance that the European PAA policy is working 
as intended and that acquisition activities are cost-effective. We made 
recommendations also in January 2011 regarding the development of life-
cycle cost estimates and an integrated schedule for the acquisition, 
infrastructure, and personnel activities to help identify European PAA 
implementation risks.\11\ DOD partially concurred with the first 
recommendation and fully concurred with the second.
---------------------------------------------------------------------------
    \10\ GAO, Missile Defense: European Phased Adaptive Approach 
Acquisitions Face Synchronization, Transparency, and Accountability 
Challenges, GAO-11-179R (Washington, DC: Dec. 21, 2010).
    \11\ GAO, Ballistic Missile Defense: DOD Needs to Address Planning 
and Implementation Challenges for Future Capabilities in Europe, GA0-
11-220 (Washington, DC: Jan. 26, 2011).
---------------------------------------------------------------------------
    prior gao recommendations and congressional actions to improve 
                    transparency and accountability
    Congress has taken action to address concerns regarding the 
acquisition management strategy, accountability, and oversight of MDA. 
For example, in the National Defense Authorization Act for Fiscal Year 
2008, Congress required MDA to establish acquisition cost, schedule, 
and performance baselines for each system element that has entered the 
equivalent of the engineering and manufacturing development phase of 
acquisition or is being produced or acquired for operational 
fielding.\12\ Most recently, the Ike Skelton National Defense 
Authorization Act for Fiscal Year 2011 requires the Secretary of 
Defense to ensure that MDA establishes and maintains an acquisition 
baseline for each program element of the BMDS.\13\
---------------------------------------------------------------------------
    \12\ Pub. L. No. 110-181, Sec. 223(g).
    \13\ Pub. L. No. 111-383, Sec. 225.
---------------------------------------------------------------------------
    Since our first MDA report in 2004, we have made a series of 
recommendations to improve transparency and accountability, many of 
which are designed to adapt the key transparency and accountability 
features already embedded in the DOD acquisition regulation and apply 
them to MDA. Some of our key recommendations include:

        <bullet> Establishing and reporting to Congress costs and unit 
        costs, including development costs in unit costs, including 
        sunk costs in cost estimates, reporting top-level test goals, 
        obtaining independent cost estimates and taking steps to ensure 
        the underlying cost estimates are high quality, reliable, and 
        documented reporting variances.
        <bullet> Improving transparency by requesting and using 
        procurement funds instead of research, development, testing and 
        evaluation funds to acquire fielded assets.
        <bullet> Strengthening the test program by establishing 
        baselines for each new class of target in development, 
        including sufficient schedule and resource margin, including 
        spare test assets and targets, and strengthening the role of 
        the Director, Operational Test and Evaluation in assessing 
        missile defense progress.
        <bullet> Implementing a knowledge-based acquisition strategy 
        \14\ consistent with DOD acquisition regulations, and ensure 
        that items are not manufactured for fielding before their 
        performance has been validated through testing.
---------------------------------------------------------------------------
    \14\ A knowledge-based acquisition approach is a cumulative process 
in which certain knowledge is acquired by key decision points before 
proceeding.
---------------------------------------------------------------------------
 mda has recently made significant progress in increasing transparency 
                           and accountability
    DOD has committed to take action on many of these recommendations. 
While agreeing with our recommendations to enhance baseline reporting, 
there are differences in MDA's perspectives on such issues as sunk 
costs and changes in unit cost.
    In 2010, MDA made significant progress in implementing some of 
these recommendations by fmalizing a new baseline phase review process 
in which the agency set detailed baselines for several BMDS elements, 
or portions of elements, for the first time. Specifically, MDA 
established resource, schedule, test, operational capacity, technical, 
and contract baselines for several BMDS components. It reported these 
to Congress in its June 2010 BMDS Accountability Report.
    MDA also identified three phases of development where baselines are 
approved-technology development, product development, and initial 
production phases-and specified the key knowledge that is needed at 
each phase. MDA officials stated that they expect that aligning the 
development efforts with the phases will help to ensure that the 
appropriate level of knowledge is obtained before the acquisitions move 
from one phase to the next.
    In another key step, approval of the product development and 
initial production baselines will be jointly reviewed by the Director 
of MDA and the respective service acquisition executive, as a number of 
missile defense systems are expected to eventually transition to the 
military services for operation. In addition, in regard to these new 
phases, the agency established a process for approving baselines. As a 
result of MDA's new baseline phase review process, its 2010 BMDS 
Accountability Report is more comprehensive than its 2009 report.
    MDA also undertook a new approach to testing in recent years to 
address our prior findings. In March 2009, we reported that MDA's 
Integrated Master Test Plan--its test baseline--was not effective for 
management and oversight because it was revised frequently, only 
extended through the following fiscal year and was not well integrated 
with other key aspects of testing such as target acquisitions.\15\ In 
addition, the BMDS Operational Test Agency identified several 
limitations in the previous BMDS test program, including unaccredited 
models and simulations, flight test artificialities, and inadequate 
modeling of some environmental conditions.. Congress also expressed 
concern with MDA's test approach. For example, in the National Defense 
Authorization Act for Fiscal Year 2008 conference report, conferees 
noted that MDA failed to ensure an adequate testing program and that 
its test and targets program needed to be managed in a way that fully 
supported high-priority near-term programs.
---------------------------------------------------------------------------
    \15\ GAO, Defense Acquisitions: Production and Fielding of Missile 
Defense Components Continue with Less Testing and Validation Than 
Planned, GA0-09-338 (Washington, DC: March 13, 2009).
---------------------------------------------------------------------------
    We reported last year that MDA extensively revised the test plan to 
address these concerns.\16\ MDA's new approach now bases test scenarios 
on modeling and simulation needs and extends the test baseline to cover 
the Future Years Defense Program which allows for better estimation of 
target needs, range requirements, and test assets. Also, as part of its 
new test plan, MDA scheduled dedicated periods of developmental and 
operational testing, during which the system configuration will remain 
fixed to allow the warfighter to carry out training, tactics, 
techniques, and procedures for developmental and operational 
evaluation. Additionally, the new test plan is expected to provide 
sufficient time after test events to conduct a full post-test analysis. 
As we reported last year, these improvements are important because BMDS 
performance cannot be fully assessed until models and simulations are 
accredited and validated and the test program cannot be executed 
without meeting its target needs.
---------------------------------------------------------------------------
    \16\ GA0-10-311.
---------------------------------------------------------------------------
    These steps represent significant progress in providing a better 
foundation for managing and overseeing the missile defense system. 
Given the breadth, scope, and complexities of systems involved in the 
missile defense mission and the wide range of stakeholders and gaps in 
past data, these were not easy achievements. Nevertheless, there is a 
significant amount of work ahead to ensure oversight and management 
data is clear, complete, accurate, and reliable. Specifically:

        <bullet> We found that the cost baselines that have been 
        established are not clear, consistent and complete nor are they 
        based on high quality estimates and therefore we remain unable 
        to assess cost progress for the 8th year until MDA develops 
        high-quality, reliable cost estimates. For example, we found 
        that the unit cost baselines and the baselines for portions of 
        and sometimes all the life cycle costs reported to Congress did 
        not provide clear, consistent, and complete information. We 
        also assessed the 12 life cycle cost estimates that were the 
        basis for these baselines and found that half did not support 
        the baselines and the other half were insufficient to be 
        considered high-quality, reliable cost estimates.
        <bullet> Our assessment of the schedule baselines determined 
        that we could not compare the asset delivery schedule to the 
        prior year's baseline because MDA has stopped reporting a 
        comprehensive list of planned asset deliveries.
        <bullet> Finally, we found the test baseline to be well 
        documented. However, because it is success oriented, any 
        problems encountered in executing the plan can cause ripple 
        effects throughout remaining test events. The frequent changes 
        that continue to occur undermine the value of the test baseline 
        as an oversight tool.
  rapid pace of fielding assets makes transparency and accountability 
                          even more important
    Over the past 10 years, we have conducted extensive research on 
successful programs and have found that successful defense programs 
ensure that their acquisitions begin with realistic plans and baselines 
prior to the start of development. We have previously reported that the 
key cause of poor weapon system outcomes, at the program level, is the 
consistent lack of disciplined analysis that would provide an 
understanding of what it would take to field a weapon system before 
system development begins. We have reported that there is a clear set 
of prerequisites that must be met by each program's acquisition 
strategy to realize successful outcomes. These prerequisites include 
establishing a clear, knowledge-based, executable business case for the 
product. An executable business case is one that provides demonstrated 
evidence that: (1) the identified needs are real and necessary and can 
best be met with the chosen concept; and (2) the chosen concept can be 
developed and produced within existing resources--including 
technologies, funding, time, and management capacity. Knowledge-based 
acquisition principles and business cases combined are necessary to 
establish realistic cost, schedule and performance baselines. Without 
documented realistic baselines there is no foundation to accurately 
measure program progress. Our work has shown that when agencies do not 
follow a knowledge-based approach to acquisition, high levels of 
uncertainty about requirements, technologies, and design often exist at 
the start of development programs. As a result, cost estimates and 
related funding needs are often understated.
    MDA has begun to institute some key aspects of a knowledge-based 
approach to acquisition as we noted. Moreover, in its Ballistic Missile 
Defense Review, DOD emphasized that it is no longer necessary to pursue 
a high-risk acquisition strategy that simultaneously develops and 
deploys new systems. However, we continue to identify and report on 
areas of high levels of acquisition risk associated with the rapid pace 
of fielding assets. We see this effect most pronounced in three key 
areas--testing, the Aegis Ashore program and the Ground-based Midcourse 
Defense (GMD) program.

        <bullet> Testing and Targets: As in previous years, failures 
        and delays in testing have continued to delay the validation of 
        models and simulations used to assess BMDS performance. Target 
        availability was a significant, though not the only, driver to 
        the test plan delays. Since 2006, we have reported that target 
        availability has delayed and prompted modifications to planned 
        test objectives. This trend continued in 2010. We reported this 
        year that five tests scheduled for fiscal year 2010 were 
        canceled because of a moratorium on air launches of targets. 
        The moratorium was imposed following the failure of an air 
        launched target participating in MDA's December 2009 Theater 
        High Altitude Area Defense (THAAD) flight test. A failure 
        review board investigation identified the rigging of cables to 
        the missile in the aircraft as the immediate cause of the 
        failure and shortcomings in internal processes at the 
        contractor as the underlying cause. Additionally, target 
        shortfalls contributed to delays in flight tests, reduced the 
        number of flight tests, and altered flight test objectives.
          Another area of risk related to targets identified in this 
        year's report is MDA's extended use of an undefmitized contract 
        action to acquire targets from its incumbent prime targets 
        contractor.\17\ This action, signed in April 2010, asked the 
        prime contractor to build a new type of medium-range air-
        launched target. The contract action initially included three 
        targets; the quantity was then increased to five targets in 
        September 2010. The current ``not-to-exceed'' level for the 
        contract action is $496 million. MDA has allowed this 
        undefinitized contract action to continue for an extended 
        period. According to MDA officials, the delay in defmitization 
        is due to changes in its requirements for the targets, and they 
        anticipate definitization in July 2011, by which time the 
        contract action will have remained undefinitized for about 450 
        days. MDA officials stated that this new acquisition was to 
        obtain a second procurement source for air-launched targets 
        following the December 2009 THAAD flight test failure. The 
        extended use of undefinitized contract actions has previously 
        been identified by GAO and others as risky to the government. 
        Because contracting officers normally reimburse contractors for 
        all allowable costs they incur before definitization, 
        contractors bear less risk and have little incentive to control 
        costs during this period. The government also risks incurring 
        unnecessary costs as requirements may change before the 
        contract is definitized.
---------------------------------------------------------------------------
    \17\ To meet urgent needs, DOD can issue undefinitized contract 
actions, which authorize contractors to begin work before reaching a 
final agreement on contract terms. Undefinitized contract action means 
any contract action for which the contract terms, specifications, or 
price are not agreed upon before performance is begun under the action. 
Department of Defense Federal Acquisition Regulation Supplement 
217.7401(d).
---------------------------------------------------------------------------
        <bullet> Aegis Ashore: Aegis Ashore is MDA's future land-based 
        variant of the ship-based Aegis BMD. It is expected to track 
        and intercept ballistic missiles in their midcourse phase of 
        flight using Standard Missile-3 (SM-3) interceptor variants as 
        they become available. However, while Aegis BMD has 
        demonstrated performance at sea, these demonstrations used the 
        currently fielded 3.6.1 version of Aegis BMD with the SM-3 IA 
        interceptor, not the newer variant of the Aegis operating 
        system and new interceptor that Aegis Ashore will use. Aegis 
        Ashore is dependent on next-generation versions of Aegis 
        systems--Aegis 4.0.1 and Aegis 5.0--as well as the new SM-3 IB 
        interceptor, all of which are currently under development. 
        Moreover, a series of changes are required to further modify 
        these new variants of Aegis BMD for use on land with Aegis 
        Ashore. These modifications include changes to the Vertical 
        Launching System; suppression or disabling of certain features 
        used at sea; design, integration, and fabrication of a new 
        deckhouse enclosure for the radar, and potential changes to the 
        SM-3 IB interceptor. Changes to those existing Aegis BMD 
        components that will be reused for Aegis Ashore may reduce 
        their maturity in the context of the new Aegis Ashore program, 
        and new features will require testing and assessment to 
        demonstrate their performance. MDA plans to make production 
        decisions for the first operational Aegis Ashore before 
        conducting both ground and flight tests. We concluded in this 
        year's report that it is a highly concurrent effort, with 
        significant cost, schedule, and performance risk.
        <bullet> Ground-based Midcourse Defense: GMD is a ground-based 
        defense system designed to provide combatant commanders the 
        capability to defend the homeland against a limited attack from 
        intermediate, and intercontinental-range ballistic missiles 
        during the midcourse phase of flight. The GMD consists of a 
        ground-based interceptor--a booster with an Exoatmospheric Kill 
        Vehicle on top--and a fire control system that receives target 
        information from sensors in order to formulate a battle plan. 
        GMD continues to deliver assets before testing has fully 
        determined their capabilities and limitations. The Director, 
        MDA testified on March 31, 2011 that he considers the GMD 
        interceptors essentially prototypes. In the urgency to deploy 
        assets to meet the Presidential directive to field an initial 
        capability by 2004, assets were built and deployed before 
        developmental testing was completed. During the ongoing 
        developmental testing, issues were found that led to a need for 
        retrofits. GMD intercept tests conducted to date have already 
        led to major hardware or software changes to the interceptors--
        not all of which have been verified through flight testing. In 
        addition, manufacturing of a new variant called the Capability 
        Enhancement II is well underway and more than half of those 
        variants have already been delivered although their capability 
        has not been validated through developmental flight tests. To 
        date, the two flight tests utilizing this variant have both 
        failed to intercept the target. According to MDA, as a result 
        of the most recent failure in December 2010, deliveries of this 
        variant have been halted. Again, because of the urgency to 
        deploy some capability, limited work was undertaken on long-
        term sustainment for the system which is critical to ensure the 
        system remains effective through 2032. In September 2010, MDA 
        finalized the GMD Stockpile Reliability Program Plan, a key 
        step in developing the knowledge needed to determine the 
        sustainment needs of the GMD system.
                        concluding observations
    This year MDA has made significant strides in providing a better 
foundation for Congress and others to assess progress and hold senior 
leadership accountable for outcomes. Undoubtable progress has been made 
in terms of implementing new acquisition reviews and reporting detailed 
baselines, but critical gaps remain in the material reported, 
particularly the quality of the underlying cost estimates needed to 
establish baselines. We look forward to continuing to work with DOD and 
MDA in addressing these gaps and further strengthening the 
underpinnings for sound oversight. Moreover, as we have recommended 
previously, improvements to oversight reporting should be complemented 
by knowledge-based acquisition approaches that ensure programs complete 
developmental activities before proceeding into production; that test 
plans are stabilized and adequately resourced; and that targets used 
for testing are reliable, available, and affordable. Given the breadth 
and scope of the European Phased Adaptive Approach it is also important 
that Congress have assurance that this policy is working as intended 
and is cost-effective.
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Senator Nelson. Thank you.
    I guess now I get to ask a question. General O'Reilly, as I 
was starting to say, and I think you began to address it, being 
more than halfway through fiscal year 2011 and DOD still 
operating under a continuing resolution at fiscal year 2010 
funding levels, can you tell us what the impacts on your 
missile defense program has been on operating under the 
continuing resolution (CR), and will you be able to mitigate 
some of those impacts if Congress passes a year-long funding 
resolution with most of the fiscal year 2011 defense 
appropriation levels soon?
    General O'Reilly. Thank you, sir. The impact of the CR, 
series of CRs, for 2011 on the MDA's program has been 
significant. One area, for example, is the GMD system, which 
the President had requested a $324 million increase in fiscal 
year 2011 over fiscal year 2010, so we're still operating at 
the fiscal year 2010 position. That is significant when it 
comes to construction, for example, of the GMD system in 
Alaska. We're approaching the construction season, where most 
of the work is done, and if we were not able to get a budget 
this week I would be in a significantly diminished position in 
order to hire the construction crews on time and we could 
perhaps lose most of the year's construction.
    The mitigation to that is, if it does look like and if we 
do receive a budget for fiscal year 2011 I will be able to 
accomplish about 80 percent of the construction I was 
intending. But I must tell you that across our programs the CRs 
have prevented us from starting new starts for fiscal year 
2011, such as our satellite programs that were to support EPAA, 
and they have caused a tremendous inefficiency in allowing 
contracts to only move forward, very large contracts, for 
several weeks at a time.
    So the combined impact is a significant inefficiency and a 
reduction in, now with this budget, how much I can accomplish 
over the remaining months of this fiscal year. I do believe I'm 
going to have to readjust what I intended to accomplish in 
fiscal year 2012 because the budget was received in April and 
before all of the funding will be received will be many weeks 
later than that.
    Senator Nelson. Thank you.
    I see we're joined by the chairman of the Senate Armed 
Services Committee, Senator Levin. Senator Levin, would you 
have any comments you'd like to make?
    Chairman Levin. I would have questions later on, but 
Senator Shaheen was here first, so please go in the regular 
order. Thank you, though.
    Senator Nelson. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    You all have alluded to the current budget situation that 
we're facing and clearly it's going to affect everyone across 
the board. As you look at the budget situation, can you talk 
about how you expect to be able to keep programs on track? 
Specifically--I guess this goes to you, General O'Reilly, and 
perhaps Dr. Roberts--can you talk about the balance between 
development and testing versus deployment and what potential 
risks there are if you misjudge on one side or the other?
    General O'Reilly. Senator, I will start first. As far as 
the budget impacts are, as I said, they're very significant 
across the board. In some cases where we've just lost at least 
half a year's worth of program and we will not--for example, 
the start of my satellite surveillance program, our new 
program--we will now be allowed our new start at the end of 
this week if we receive a budget, which is more than half a 
year. I don't believe we're going to be able to catch up on 
that time.
    So in some cases we can't. In other cases, with production 
lines and so forth, we will try to acquire larger lots of 
supplies and accelerate the production line on some of our 
interceptors. But again, I don't believe we're going to be able 
to mitigate the total impact of the CRs this year. So what we 
set out to accomplish in 2011, some of it's going to have to 
occur in 2012.
    As far as the balance between testing and development, we 
have taken a look several years ago at all of the data that was 
required for testing in order to do two things: one, to confirm 
for the operational test agencies, independently confirm, that 
missile defense systems are suitable and operationally 
deployable and effective. The second reason is to support the 
accreditation of our models and simulations. Our testing is so 
expensive--a typical GMD test can cost $300 million. So to 
fully test its full operational capability, especially against 
large raid sizes of missiles, it's critical that we have 
independent verification of our models and simulations which 
our combatant commanders will use.
    So we have set out and restructured our programs to ensure 
that every new deliverable product has gone through a testing 
regime sufficient for the operational test agencies to make an 
independent assessment, are they ready.
    The penalties we can see in the approach for GMD, for 
example: I can understand why we fielded GMD as quickly as we 
did, but we will still be testing some of the original 
fundamental operations of the system for many years. As we 
discover that we need to upgrade the system because of 
something we found in flight testing, we will go back and 
refurbish the missiles we have. So that's why we've started a 
stockpiling of missiles to do that. But that is much more 
expensive than to completely qualify, what we call, for 
production all of our systems on the ground before we go into 
flight testing.
    But I understand why we did it in GMD. We have a strategy 
to increase over time the reliability of the system through 
testing. But we will not approach that, nor have we, as a 
result of the BMDR for the rest of our systems.
    Senator Shaheen. So when you do those independent 
verifications of your models, since we're not actually testing 
in real time, do you have any evidence that there's ever a 
problem?
    General O'Reilly. Senator, there are two levels where we 
find problems, actually three. The first is in the component 
testing on the ground. To the greatest extent possible, we 
replicate the performance of the missile components on the 
ground as if they were flying. We do that hundreds of times. It 
occurs in very severe environments. That's our first confidence 
level that these components work right.
    In our latest GMD test, we did find we had a failure mode 
that could not be replicated on the Earth and that's why I am 
going to request an additional test to verify we fixed it. The 
Earth's gravitation is one problem with testing it on the 
ground, and literally the rotation of the Earth. These are very 
sensitive items and you must be in flight testing, and the 
frequencies and shocks that we can replicate on the ground are 
limited, even with our best capabilities, our best facilities.
    So one of the problems is until you're into flight testing 
you can't totally replicate on the ground. But you can do a 
lot.
    Second is to integrate the system in extensive ground 
testing. We do it in laboratories and then we repeat it 
actually in the field with the soldiers, sailors, and airmen 
operating the system, and we simulate threats on the system and 
we run those hundreds of times in order to gain a confidence 
level. But the Director of Operational Test and Evaluation--and 
each Service has its own independent operational test agency--
makes the final assessment on my products, not the MDA, so that 
there's some independence.
    Senator Shaheen. Thank you.
    In competing for some of the scientists and engineers that 
we're going to need for the future to continue the work of the 
MDA and also for DOD, are you comfortable that the current 
budget actually supports our ability to recruit and train the 
scientists and engineers and mathematicians that we're going to 
need? I have an ulterior motive in asking this question because 
I think we're not doing enough to train the folks in the 
science, technology, engineering, and mathematics subjects that 
we're going to need for the future to continue to lead this 
country, and obviously in your agency there's a critical need 
for people with those degrees and training.
    General O'Reilly. Ma'am, I couldn't agree more. Senator, 
our issue with qualified young engineers and scientists has 
been increased or exacerbated by the 2005 Base Realignment and 
Closure Act. We moved our technical workforce from Washington, 
where I had over 3,000 engineers. I will now have 300 people 
here by the end of September. We moved those to Huntsville, AL, 
and Colorado Springs and Dahlgren, VA.
    The problem was the average age of my workforce was 49, so 
most of them were not willing to move. So I needed to hire over 
1,000 engineers. We went to the universities and there were two 
aspects that we observed. One, I think it takes personal 
engagement. I have personally engaged with universities, as 
well with the chairman, out on trips. We've gotten a tremendous 
response from that.
    Two is, unfortunately, the economy. For every engineering 
position I have had as we hire the college graduates, we have 
had between 18 to 26 highly qualified applicants for every 
position. So the MDA as a consequence, unintended, of the 
economy, we've received tremendously qualified applicants. The 
average person we receive has over a 3.8 average. 40 percent 
are master's degrees or Ph.Ds.
    But I do spend a lot of time in the universities, also with 
research. Key to this is investing in research with the faculty 
members so they in fact can talk to the students and the 
postdocs and they can see opportunities in government such as 
this.
    Finally, I have outreach to historically black colleges and 
universities because our agency had 12 percent minorities, but 
in the engineering field 2 years ago, .3 percent of our 
engineers were minorities. Today it's 4 percent. So it may not 
seem like a lot, but it took a significant amount of effort to 
reach that.
    So in all of those areas, Senator, I couldn't agree more. 
The young folks really respond to personal energy and personal 
appearances and that's what I have been pursuing.
    Senator Shaheen. I'm out of time, but how many women?
    General O'Reilly. In some universities over 70 percent of 
the engineering students are women, and that's reflected today. 
In the group that we have hired since I first mentioned, over 
40, I believe it's 42 or 44 percent are women engineers. So we 
previously had less than 10 percent--significant growth in that 
area, too.
    Senator Shaheen. So what's the final number? Where are you 
at today?
    General O'Reilly. We have hired 380 new college graduates 
in the last 2 years. What I'm trying to do is prevent a 
demographic bump again in my organization. So we hire 100 at 
the end of every semester, to smooth out the demographics.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman, for letting me go over.
    Senator Nelson. Thank you, Senator.
    Senator Sessions.
    Senator Sessions. Thank you.
    General O'Reilly, as I mentioned in the opening statement, 
after two recent test failures it's clear that GMD is in need 
of some additional resources. More I think is needed to ensure 
the capability that we have works to the advanced degree that 
you'd like it to operate at.
    I would first note--see if I'm correct--that the initial 
guidance system's kill vehicles have performed ably and I 
believe 20 of those are in the ground today and you believe are 
capable of defeating the kind of incoming missiles likely to be 
received from an Iran or North Korea; is that correct at this 
point in time?
    General O'Reilly. I can't get into the actual number of 
that configuration, but our original configuration, yes, sir, 
we have had five flight tests and three intercepts out of three 
attempts and have found no indication of the type of problem we 
found in the newest version, where we have failed twice.
    Senator Sessions. The new version was designed to be even 
more sophisticated to deal with more sophisticated threats; is 
that correct?
    General O'Reilly. Yes, sir. It had more accurate guidance 
instrumentation on board.
    Senator Sessions. So it's going to take some effort to get 
that under control. I think you've indicated you need more 
interceptors to facilitate the kind of realistic testing that 
you believe is necessary. Is that correct?
    General O'Reilly. Yes, sir. Before the first generation of 
GBI, we flew a test where we did not have an intercept, and I'm 
asking for another test in order to verify that we've resolved 
the problems on this latest interceptor version.
    Senator Sessions. Could you give an estimate of what that 
test might cost, say one test?
    General O'Reilly. Sir, since it does not involve a target, 
the cost would be primarily of the interceptor, which would be 
around $70 million, and then an additional $30 to $40 million 
of support for that test. So it's approximately $100 million 
for that test.
    I have also, sir, determined that we're going to need 
significant ground testing of at least $50 to $100 million more 
on the ground, again to verify that we have absolutely resolved 
this problem.
    Senator Sessions. We've had such a long and basically 
successful effort to establish the capability to defend the 
United States against a missile attack, we don't need to stop, 
allow our adversaries to develop more sophisticated missiles, 
and then all of our efforts have been not productive.
    So you would say that it does make sense that we continue 
to develop the more sophisticated capabilities that the threats 
may pose to us in the years to come?
    General O'Reilly. Yes, sir. I would agree with, for example 
as Admiral Winnefeld said, to stay ahead of the threat.
    Senator Sessions. Dr. Roberts indicated that the threat is 
qualitatively and quantitatively advancing, I believe.
    Now, with regard to this money that's going to be needed, 
maybe $250 million you just referred to, where do you plan to 
get that and how can you obtain that?
    General O'Reilly. Sir, for this year I've had to stop the 
production of seven GBIs in production because we don't want to 
go forward until we've absolutely assured we've identified and 
resolved this design issue that's caused the most recent 
failure. So I am proposing to divert the funding that we would 
have had to build those seven interceptors and to do more 
refurbishments and to support this ground testing, than we had 
originally planned.
    Senator Sessions. So that looks to me like you're robbing 
Peter to pay Paul, and it raises the fundamental question, of 
does this budget give you enough money to keep the program on 
track and actually fix the failures. I know that you have 
difficulties. All of us in Congress, the White House, and the 
Secretary of Defense are saying watch spending, try to contain 
spending, and we all believe in that, trust me.
    However, when we've done this much work and we're down to 
maybe $40 billion more has been spent on this project and we've 
hit a difficulty, we need to be able to go forward with it and 
we don't need to stop short of the number of interceptors we 
need in the ground and prepared.
    So I guess my question is, in your personal professional 
opinion--and we ask you for that--do you have enough money to 
keep this program on track and to fix the challenges from the 
GMD system?
    General O'Reilly. Sir, for fiscal year 2011 and for fiscal 
year 2012, because I have had to stop the production of the 
current GBIs and I am diverting that funding to fixing this 
problem and I'm using funding that was reserved for a flight 
test next year of the two-stage interceptor, which will have to 
move another year----
    Senator Sessions. That will push the two-stage interceptor 
back.
    General O'Reilly. Sir, without additional funding in fiscal 
year 2013 and beyond, there will need to be a delay of about a 
year of our overall flight test program that we were trying to 
complete by 2017. So that's one way to do it.
    Right now, sir, I have the funding I need to address this 
problem because I've stopped my production line.
    Senator Sessions. That has costs and ramifications also.
    So I guess what I would say, Mr. Chairman, is that the DOD 
budget is tight. Just looking at the basic numbers on the MDA 
budget, DOD gets an increase as requested by the President, I 
think, in the House. But you have a reduction of, I estimate, 
about 5 percent in MDA's budget request; is that correct?
    General O'Reilly. Sir, for fiscal year 2012 it's $48 
million higher than fiscal year 2011, and fiscal year 2011 was 
$324 million higher than fiscal year 2012. So for this budget 
it's actually higher than last year.
    Chairman Levin. You mean fiscal year 2010?
    General O'Reilly. I'm sorry. I meant 2010. Fiscal year 2010 
to fiscal year 2011 was $324 million higher than fiscal year 
2010.
    Senator Sessions. I think we should take a note here how 
alert the chairman is over here.
    General O'Reilly. Yes, sir.
    Chairman Levin. I apologize.
    Senator Sessions. Somebody is watching the store. You get 
an A, Mr. Chairman. I'm asking the questions. I wasn't 
following that--I wasn't that quick.
    Chairman Levin. I didn't mean to interrupt.
    Senator Sessions. No, you do a fabulous job of keeping up 
with things.
    General O'Reilly. Sir, I do believe in the near term, for 
fiscal year 2011 and 2012, however, as I've said before----
    Senator Sessions. Next year you begin to bite. 2013, the 
budget is less than originally projected, is it not, the 5-
year?
    General O'Reilly. Yes, sir. Across the following 5 years, 
two things. First, we're finishing the heavy construction over 
fiscal year 2012. So the remainder of the work is focused on 
interceptors, flight testing, and upgrades. So that accounts 
for about half of it.
    The other half is the efficiencies we're approving, sir. We 
have not reduced what we intended to accomplish, even though 
there's $2.4 billion less in the MDA budget. We have identified 
all of the steps we're taking so they can be accounted for and 
it will be evident we're either achieving it or we're not, 
these efficiencies, for the same amount.
    Senator Sessions. Excuse me. You just noted, though, that 
you're delaying the two-stage testing and you're stopping the 
production of your interceptors. Both of those will add costs 
to the future.
    We can talk more about where we are financially. I applaud 
you for the efficiencies that you've found, but I think there's 
no doubt, with the unfortunate failures of these tests, that 
it's going to hit our budget more than we expected, and we 
really need to see what we can do to keep your already-reduced 
plans from putting us in a situation we don't want to be in.
    Senator Nelson. Thank you.
    Chairman Levin.
    Chairman Levin. Thank you, Mr. Chairman.
    You say you stopped the production of the interceptors. I 
thought it was the kill vehicles which you've stopped 
production on.
    General O'Reilly. Sir, it is the kill vehicles. I can't 
deliver the interceptor without the kill vehicles.
    Chairman Levin. No, that's fine. But you said the 
production of the interceptors and I think you meant kill 
vehicles; is that correct?
    General O'Reilly. That part of the interceptor, yes, sir, 
the kill vehicles.
    Chairman Levin. On the funding issue, you're stopping 
production not to save money, but because you want to do 
testing first to make sure that what you produce will work; is 
that fair?
    General O'Reilly. That's absolutely the case, sir. We did 
not anticipate this failure, and especially when it happened 
when the budget was already developed. So that was not to save 
any money. It is solely driven by we need to confirm the design 
works before we go back into production.
    Chairman Levin. I totally agree with that philosophy, 
because I think you should know whether something works before 
it's produced and deployed, and there's been too many times 
where we've deviated from that course in the past, particularly 
in missile defense, for my comfort level.
    But you're satisfied. Let me ask the other witnesses too. 
Do you all agree that it makes sense to not produce further 
kill vehicles until we have corrected the problem, so that when 
we do produce them we know that they're going to properly 
behave? Admiral, would you agree with that?
    Admiral Macy. Absolutely, sir. It was one of the basic 
results of the BMDR that we would, if you will, fly before we 
buy. We would ensure that to the best of our ability within 
costs of testing and modeling and simulation that we would 
understand the performance of the systems. So when they are 
fielded, from my perspective representing the warfighter, I 
have confidence in their level of performance. So that I can 
build my operational plans to meet the need.
    Chairman Levin. Dr. Roberts, do you have any difference 
with that?
    Dr. Roberts. Ditto.
    Chairman Levin. Now, General, last year I believe you 
displayed some frustration with the quality of some 
contractors' work, and you and I discussed the need to improve 
the MDA contracts to try to get more protection for the 
government against defects, which would require some defects 
clauses in the contracts.
    Have you made any progress towards including defects 
clauses in the contracts?
    General O'Reilly. Sir, we've worked with industry to get 
their feedback. I've worked with the leaders, the chief 
executive officers, of the major aerospace corporations and 
asked them for their ideas and help on this, so that it is most 
effective, these clauses.
    The clause that we're looking at is not to indemnify 
industry from trying to achieve an unprecedented technical 
goal. That is the reason why we have cost-plus contracts. 
Unfortunately, when we find a failure mode that was caused by a 
quality, what we refer to as a quality escape--they didn't 
follow their own processes, their supervisors didn't catch it, 
and ultimately it caused a defective product--that's also today 
under our contracts protected by a cost-plus contract. It's the 
cost just went up.
    An example is the first of the two GMD failures was caused 
because of a quality problem, and no matter how much additional 
money we added that wouldn't have resolved the root cause of 
that problem.
    So where I am today is looking at the fee and looking at 
the profit that we're providing contractors and having the 
ability to go beyond the limited scope that we currently have 
in our award fees for quality control and extending it to a 
much greater pool of award fee money, even past-awarded money, 
so that the government can be compensated for egregious errors 
in quality control.
    Chairman Levin. I hope you'll pursue that. As I understand 
it from our conversations, that first flight failure was due to 
a lock wire, if I have the right word, not being in place; is 
that accurate?
    General O'Reilly. That is accurate, sir.
    Chairman Levin. It was not where it was supposed to be?
    General O'Reilly. Yes, sir.
    Chairman Levin. Now, that is not something that the 
government should be losing money over as far as I'm concerned. 
I agree with you that you want the industry to be creative and 
if things fail because there's design problems and because 
we're taking risks, that's fine. That's what research is all 
about. But if you have a plan that says the lock wire, whatever 
that is, has to be here and instead it was put over here and we 
have a missile test failure because of that, that's a totally 
different deal as far as I'm concerned.
    There is a role for cost-plus. We use it much too much, and 
I commend, by the way, Senator McCain and others on this 
committee for really joining in an effort to go after cost-plus 
contracts where they shouldn't be cost-plus. But I'm very much 
troubled by this. When you have a missile failure, a test 
failure, and it costs hundreds of millions of dollars and it's 
because something was not put in the right place according to 
the plan, then I think that the taxpayers should not be paying 
for that, and I hope you'll pursue that approach that you're 
using vigorously.
    Do I have time? I don't know.
    Senator Nelson. Go ahead.
    Chairman Levin. I'd like to talk to you, Admiral, about the 
PAA to missile defense in Europe. As I understand it, you are 
responsible for assessing missile defense capability 
requirements of the combatant commanders. I believe that, after 
input from the combatant commanders, the Joint Chiefs 
unanimously recommended the PAA to missile defense in Europe. 
If that's true so far, can you tell us why from a warfighter 
perspective the military benefits of the EPAA to missile 
defense make sense?
    Admiral Macy. Thank you, Senator. Yes, it makes sense 
because it provides us two opportunities. The first is an 
opportunity in time and the second is an opportunity in 
planning.
    In the role of time, the PAA allows us to address the 
closer threat to Europe, the threat of medium-range, and 
intermediate-range missiles coming from the Middle East, 
whereas previously we did not have a method to do so prior to 
2017 at the earliest with the so-called third site plan, which 
because of physics also would have had some limitations in 
defending some of the parts of Europe, those more to the south.
    The PAA, being phased to our own technologies and adapted 
to the threat, gave us a way in which to organize our thoughts 
and our plans to take advantage of the near-term capabilities 
that are present in Aegis and in THAAD, developed by MDA, to 
address those near-term threats to Europe. So that's a time 
issue. Basically, we can address the threats to Europe much 
sooner than we would have been able to.
    The second is in the flexibility and the capability of the 
system. It allows us to adapt to changes that may appear in 
enemy intent and the emergence of threats from another area. We 
have done most of our planning for threats coming from one 
particular country or set of countries and part of the region. 
If another were to develop this capability, it would allow us 
to adjust faster.
    It would allow us to increase or decrease the capability 
based on the amount of threat. It allows us opportunities for 
partners to take part in the missile defense of Europe by 
having more opportunities for ways in which they can connect 
with our system and come up with an allied approach. Whereas 
previously it was a unitary system linked to the homeland 
defense BMD capability and there was not a real practical way 
to have the partners involved.
    So we have flexibility in capability, we have flexibility 
in the alliance, and we have the opportunity to address threats 
on a more timely basis.
    Chairman Levin. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Nelson. Thank you, Chairman Levin.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Welcome to all of you. Thank you for being here today.
    Let me start with this. As we develop active defense 
networks to counter advanced ballistic missiles, deployed 
American forces and some of our allies, as we know all too 
well, are faced with the threat of low-tech rockets and 
missiles. Some of these weapons don't require a lot of 
technical knowledge for the user. They can be launched from the 
backs of pickup trucks and they're easily hidden.
    How do we strike a balance between countering complex 
systems and those that are basically flying improvised 
explosive devices (IED)?
    Admiral Macy. Senator, that falls into the, if you will, 
larger realm of which I am responsible, which is integrated air 
and missile defense (IAMD), where we look at the defense of the 
Homeland, of own forces and partner forces from all threat 
objects arriving in the atmosphere, regardless of source. So we 
look at the IAMD architecture, the IAMD capability, across the 
board to address that.
    We have an IAMD operational architecture, a formal way of 
looking at what decisions and information are there made at 
each stage in that process, who has to make them, and who they 
have to provide it to. This has been done in a very rigorous 
and organized fashion, in accordance with the operational 
architectural framework.
    We coordinate with program providers across the spectrum of 
air and missile defense at the program level, how they fit into 
that operational architecture, and how they address these 
issues. Recently we've had a number of discussions with the 
Army in particular on countering rockets, artillery, and mortar 
issues, and what needs to be done, what are the requirements, 
what are the current capabilities, and what are the shortfalls.
    We serve, as I said earlier, at the nexus of how this is 
done within DOD. We participate with the Services in their 
development of classic air defense systems through the joint 
capabilities process, and we participate with STRATCOM, who has 
the responsibility as the air and missile defense integrating 
authority to look at those requirements across the spectrum of 
threat.
    In the BMD world, we look at the prioritized capabilities 
list, the achievable capabilities list, that's generated by 
STRATCOM with the combatant commanders, and the dialogue that 
goes on with MDA over the programs that General O'Reilly is 
asked to provide.
    So we are the nexus across that span of questions from 
rockets, artillery, mortars, long-range rockets, short-range 
ballistic missiles, manned bombers, fighter aircraft, et 
cetera. I don't know if that answers your question, but that's 
how we try to put it together, then integrate both solely 
service programs--Army air defense, Navy air defense, Air Force 
air defense capabilities--with joint programs, how they work 
together.
    We conduct a number of studies on that, one of the most 
significant being a series of exercises known as Nimble Fire, 
where in a classified environment we can bring together the air 
defense capabilities of all of the Services and see how they 
interact. We've been involved in all of these discussions that 
we've had here today.
    Senator Udall. I may want to follow up with some additional 
questions for the record.
    General, did you have anything to add, or Dr. Roberts?
    General O'Reilly. Sir, in my charter it does not cover the 
very short-range rockets you referred to. So I develop 
typically a Scud threat and beyond. I have been asked by 
Congress and we do co-manage some Israeli programs that are 
short-range, such as the David's Sling. But even what you're 
referring to is more in the realm of the Iron Dome system, 
which was not part of our development, but I have been watching 
that and I have seen it's been successful in its recent 
deployment against very short-range rockets.
    Admiral Macy. Senator, I'd like to add, if I may, sir, that 
I'm frankly very proud of the very close liaison between my 
staff and that of MDA, where we look at these intersections 
very closely to understand where there are opportunities for 
exchange of information, exchange of data and capabilities.
    So it's not that one part of JIAMDO is doing air defense 
and another part is doing ballistic missiles. We are very 
closely integrated with MDA as well as with the service 
engineers. We understand this is a spectrum of capability.
    Senator Udall. It's hard to see it being a threat in a 
broad-based way to our forces, but General O'Reilly mentioned 
the situation in Israel and I think that that has political 
elements as well as military elements, and the political 
elements can affect the military situation and the stability in 
the region. The more we develop the capacity to counter flying 
IEDs, in some ways the better.
    I'll follow up with some additional questions on cost and 
so on. I want to use the second half of my time, if I have some 
left, to turn to GAO. Ms. Chaplain, you're here, and thank you 
for your good work. You talked about some aspects of MDA's 
flexible acquisitions process that create what the report 
describes as ``down sides'' for oversight and accountability. I 
know that DOD concurred with some of the GAO recommendations 
and that MDA has made some significant progress. But there are 
some recommendations that DOD still disagrees with, and I'd 
like you just to discuss those, if you would, and then give 
General O'Reilly a chance to respond.
    Ms. Chaplain. Yes, there were some disagreements. Our 
recommendations focused on where we thought MDA could further 
improve the reporting that it had started. One issue, for 
example, was with regard to sunk costs for targets, and we 
believe those sunk costs should be reported and pretty clear, 
and MDA only partially agreed with that. They didn't feel like 
that would fit the way they want to report targets and that 
it's difficult to report some of the heritage costs in targets.
    But our concern was even MDA sunk costs weren't reported 
and we felt that they need to be, and to the extent the other 
costs can be or cannot be found that needs to be disclosed.
    We also had some partial disagreements on the way testing 
is planned. We encouraged MDA to make test plans more 
realistic. There are often failures in testing and a lot of 
rework going on. We thought maybe some additional time and 
resources should be built into the plan, and they only 
partially agreed with that recommendation. I think it's just 
part of the issues involved with testing. As General O'Reilly 
said, they're very expensive tests to conduct and it might 
require more resources upfront.
    But our goal is to avoid a lot of the rework that goes 
along with a test plan that's not fully stabilized yet.
    Senator Udall. Thank you.
    I think my time has expired, so, General O'Reilly, I'll 
have you respond for the record, if I might, so that Senator 
Shaheen can ask some questions.
    I would just add that when I was a businessman I on the one 
hand loved seeing my auditors and on the other hand I wasn't 
all that happy to see my auditors. So thank you for what you 
do. I know General O'Reilly and I have had some conversations 
and he takes seriously your insights and has made some real 
improvements and is notably and understandably proud. I look 
forward to your responses for the record. I did want to yield 
so Senator Shaheen can ask her questions.
    Thank you.
    Senator Nelson. Thank you, Senator.
    [The information referred to follows:]

    Ms. Chaplain raised two issues, one regarding reporting sunk costs 
of targets and one on adding additional time and resources to execute 
our test programs. I will respond to both.
    Target sunk costs are not reported in MDA program baselines. 
Targets are developed in support of separate and distinct Ballistic 
Missile Defense System (BMDS) test events and do not follow a 
traditional DOD weapon system procurement process. As the test program 
adjusts, the quantity of targets in the baseline adjusts as well. 
Additionally, each target is inherently a test article and no two are 
truly identical. As such, there is not a clear quantity of targets to 
be procured over the lifecycle in order to amortize the non-recurring 
engineering costs.
    MDA strives to reuse previously developed and procured strategic 
missile components in our targets program, so including all sunk costs 
would not accurately reflect program costs. Accordingly, MDA uses the 
costs incurred or planned during the Future Years Defense Program to 
calculate unit costs.
    The Integrated Master Test Plan (IMTP) is defined well enough over 
a 6-year period to provide a reasonable baseline from which target 
needs can be defined and targets can be procured.
    With respect to the second issue raised by Ms. Chaplain, MDA builds 
available schedule and resource margin into the test baseline in order 
to stabilize, to the extent possible, the test program and minimize 
rework in test planning and execution.
    MDA continuously evaluates the availability and allocation of test 
resources to ensure all components of the test program (e.g., range 
availability, target availability, range safety systems, data 
collection assets, et cetera) are synchronized. MDA thoroughly analyzes 
all test results (successes and failures) to ensure test objectives 
were met. When analysis determines an objective was not fully met, it 
is assessed for inclusion in a future test event. This continuous 
evaluation allows MDA to re-allocate resources based upon test results, 
priorities, and warfighter requested capabilities. The IMTP has defined 
flight and ground test plans, at both the system and element levels, 
that can be adjusted based upon emerging test results or changing 
warfighter requirements. Test delays, accelerations, cancellations, and 
additions are analyzed using established MDA processes to update the 
IMTP and maximize the use of planned test events for additional data 
collection.

    Senator Nelson. Dr. Roberts, you in your testimony referred 
to the hedge options. It's my understanding that DOD has been 
planning to implement a number of these hedge capabilities and 
I understand that DOD is currently conducting an analysis. Do 
you have some idea of when this analysis of the hedge options 
would be finished, and is it possible that you would brief us 
at the time that you have those options analyzed and under 
consideration?
    Dr. Roberts. Yes, we're committed to brief you as soon as 
we have the Secretary's review and decisions in this area. 
Frankly, we expected that to be by now. We thought we'd have 
more to say in this hearing about the hedge. But of course, 
other events have intervened and we expect within a matter of a 
few short weeks.
    Senator Nelson. General O'Reilly, are you confident that 
the MDA will be able to deploy additional GBIs at the eight 
extra silos at Fort Greely in a timely manner if DOD chooses to 
do so?
    General O'Reilly. Sir, we're going to need to complete the 
additional missiles that are currently stopped in production in 
order to do that. As soon as we have those completed, we will 
have at that point, I believe, over 10 missiles additional for 
those 8 silos, sir. So I will get back to you on the record the 
exact delivery dates for those remaining missiles.
    [The information referred to follows:]

    Pending the outcome of the Failure Review Board, once the 
corrections to the missiles are made, MDA will prioritize repair of 
both emplaced missiles and Ground-Based Interceptors (GBIs) in 
production. While no decision has been made to fill additional silos in 
Missile Field 2, if directed to do so, eight additional GBIs will be 
available for emplacement by the end of fiscal year 2015.

    Senator Nelson. Okay, thank you.
    Admiral Macy, can you explain how DOD assesses how many 
missile defense interceptors are required to meet the needs of 
the combatant commanders? I presume it's not as simple as 
planning to have at least two interceptors for each adversary 
ballistic missile so we can shoot at every missile. But if you 
could help us understand how the COCOMs and the military view 
the actual role of missile defense and the force structure that 
they need.
    In other words, how does missile defense fit into the 
larger picture of a COCOM's missions and capabilities?
    Admiral Macy. Yes, sir. I'm looking forward to addressing 
that. To begin with, it's important to note that BMD capability 
as we have been talking about it today is not an isolated 
mission. As you pointed out, it's on the warfighters' planning. 
It's part of a larger campaign against an adversary.
    I shorthand it sometimes that BMD does not defend you 
against ballistic missiles. Ballistic missiles are an action 
taken by an adversary for a political result. BMD provides part 
of the national capability to deal with that potential threat 
or to deal with the event should it occur.
    So what BMD allows us to do is to prevent the adversary 
from winning the fight with the first wave. What it does is to 
provide the requisite level of protection for critical forces 
and nodes and capabilities sufficient for the combatant 
commander to bring all the other elements of national power to 
bear to get the enemy to change his behavior, because in the 
end that's what you're trying to do, is to change the enemy's 
behavior.
    The goal is not to just simply sit there and keep taking 
incomings. As you pointed out, it's not practical. The number 
of threat missiles in the world already exceeds our inventory 
and will continue to do so. So buying missiles equal to twice 
the number is just not practical.
    So what we look for and what we have done in the JCM-III 
study is to look at that from a warfighting perspective: How 
long can BMD capability provide the requisite level of 
protection to those critical assets that the combatant 
commander has identified so that he can take other steps 
necessary to change the enemy's behavior, to stop the enemy's 
use of ballistic missiles?
    That's from an operational perspective. From a planning 
perspective, demonstrating that having sufficient capability 
may assist in deterring the enemy from contemplating the use of 
ballistic missiles, knowing that he will not be successful in 
his initial attacks, and he can remain confident that the 
reaction of the United States is going to be significantly more 
than simply defending against the incoming.
    Senator Nelson. How does the Joint Staff allocate the 
number of missile defense systems to the various combatant 
commanders, who I'm sure are competing to one degree or another 
for those assets?
    Admiral Macy. Yes, sir. It's a safe bet that each of them 
has a list which is a little bit longer than the one I have.
    It is part of our global force management process, which is 
our formal process to assess the operational plans and 
requirements of each combatant commander, to understand the 
risks and the rewards of allocating them different 
capabilities. This is true across the board, whether it's BMD 
ships, whether it's long-range bombers, whether it's infantry 
brigades, for their different needs.
    We have an ongoing process through the Global Force 
Management Board to understand their needs and their 
requirements, to balance across the forces what we have 
available, and to use that information to essentially do two 
things. One is to feed back through the Secretary to the 
development community and the budget community what we need to 
increase because we assess the overall risk as being too high 
and, until we have those, to give to the Secretary that 
information he needs to make the decision on what risks he's 
going to take and where he's going to take them.
    Last year we looked very carefully at the issue of BMD 
forces with the Global Force Management community. We are 
folding that into the community. STRATCOM is currently leading 
an effort among the three COCOMs plus U.S. Northern Command to 
understand how all of their different plans fit together and to 
understand how we would apportion and allocate forces in the 
near term and over time as we get more capability to each one 
of those.
    Senator Nelson. So at the end of the process, is it the 
Secretary who makes the decision or is it brought to the 
Secretary's attention and the Secretary either assents or 
dissents to it?
    Admiral Macy. Every deployment order is a decision by the 
Secretary in his role on behalf of the President as the command 
authority, whether it's for a ship or for a brigade. We have a 
process that goes on every week. It's called the Dep Ord Book. 
It's the Deployment Order Book, where the movement of forces, 
the reassignment of forces, goes through a review process among 
the COCOMs, goes through the Joint Staff, is reviewed by the 
Chairman in his role of providing military advice, and then is 
presented to the Secretary, and he literally signs off each 
page. His initials go on: ``yes'', ``no'', or ``come see me''.
    Senator Nelson. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I just have a final question. I was interested in the back 
and forth around Israel's Iron Dome and David's Sling program 
and the Arrow program, because I had the opportunity to visit 
Israel last summer and be briefed by their director of the 
missile defense program on those systems. I actually think we 
should take a lesson in terms of naming our systems. I think 
theirs are quite descriptive.
    But what I was interested in is, you mentioned that the 
Iron Dome technology was Israeli and I know that we contribute 
to the work that's being done there, so I wonder if you could 
talk about what we have learned from the technology that's been 
developed and how much of that is shared and whether we are 
actually incorporating any of that into what we're doing here.
    General O'Reilly. Senator, actually the Iron Dome is one of 
the few Israeli programs that's totally developed by them. So 
we do not have a sharing agreement with them. David's Sling, we 
provide 50 percent of the funding and they provide 50 percent 
of the resources. Our companies, such as Raytheon, work with 
that development so that they have the proprietary rights and 
the information rights to develop that type of capability 
should we want David's Sling. The same with Boeing on Arrow 3. 
Those two programs, in which we are investing approximately 
half of the resources, we do not--first of all, our industry 
team is working on those programs, so they see the details of 
the technology, and we have the rights to that technology. 
There are certain limitations, but all that is pre-agreed to 
prior to the start.
    But in the Iron Dome, that is not a MDA program. I have 
been asked to provide funding out of my budget for the 
procurement of Iron Dome. So we're ready to follow the guidance 
of Congress in that regard. But I don't participate in the 
actual management or the development of that capability. But 
I've reviewed it.
    Senator Shaheen. Where are we in terms of the procurement? 
There has been a request from Congress, but have we done 
anything on that?
    General O'Reilly. Senator, I need this year's budget, 
fiscal year 2011. It's in the fiscal year 2011 budget, $205 
million for the MDA for the procurement of that for Israel.
    Senator Shaheen. If we do contribute to that, what would we 
learn from that and will we be able to take advantage of any of 
the procurement efforts?
    General O'Reilly. Once we have the budget, I will begin 
that process. But we have not begun that, those agreements with 
the--and the office in Israel that you were referring to, they 
also were not responsible for the development of Iron Dome. 
That office, we work together closely every day. So this is 
something we're going to have to determine ahead of time of the 
agreements. That hasn't occurred yet.
    Senator Shaheen. So who developed the Iron Dome technology?
    General O'Reilly. I know the company is Rafael and I've 
been out there. I've seen their testing. It's very impressive 
for what it can do.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    Ms. Chaplain, when GAO makes recommendations for MDA to 
improve its program management, DOD formally indicates its view 
of those recommendations. I believe in response to 
recommendations in your report in March, DOD either agreed or 
partially agreed with all your recommendations. Your report and 
your testimony indicate that MDA has made significant progress 
in improving the accountability and transparency of its 
programs.
    If MDA implements the recommendations in your report, how 
far will it have come toward what you would consider an 
acceptable level of transparency and accountability?
    Ms. Chaplain. If they implemented all the recommendations, 
they will have come a very long way in getting the things that 
we want to see for accountability and transparency. There are 
some actions that need to be taken that shouldn't be taken 
lightly. One thing we're looking for, for example, are 
independent cost estimates (ICE) and MDA has just started that 
process. So that's going to take some time.
    Another thing we're looking for is backing cost estimates 
with all the data and documentation you need to trace and 
verify them and to really understand them in an easy way. That 
wasn't present this round. I think they'll be more present the 
next round.
    Along with the transparency and accountability of just what 
they report to Congress, we would like to see a few other 
things happen. One is just stabilizing the acquisition 
approach. We've had three different ways of reporting on 
progress for the missile defense system and each time we change 
those ways it becomes very difficult for us to go backwards and 
track costs back in time and schedule and progress.
    We'd also like to see some of the things we recommend 
extend to the efforts like EPAA, where we can learn more about 
costs and schedule within that effort. Then we'd also like to 
see the structure and the clarity of MDA's budget request 
improve as well.
    So there's more beyond just what you see on paper, but I 
think if everything that we're asking for in this round is 
implemented it will be just a huge amount of progress that's 
been made.
    Senator Nelson. Thank you.
    General O'Reilly, have you determined what or how many of 
the recommendations you may be seeking to implement?
    General O'Reilly. Senator, we believe GAO has accurately 
captured the challenges which missile defense has to operate 
in, but at the same time--the management challenges. At the 
same time, we are on a path to accomplish the ICE. As she has 
said, there's been recent changes. I've made most of those 
changes, to enhance the baseline reporting.
    This was the second year we've done it in a row. This 
year's report that we submitted to Congress wasn't taken into 
account. The delivery was after this GAO audit was done. We 
believe that has each year more enhanced accuracy and the level 
of detail they're looking at.
    The one area in which we disagree with the GAO's 
recommendation--Ms. Chaplain just referred to it before--is in 
the area of our targets. We feel that we reuse--because we have 
to find intermediate-range and ICBM-type targets, instead of 
buying brand-new targets. We go out and work with the Air Force 
and the Navy and we identify retired missiles, and then we 
modify those missiles and make them into a target.
    Now, the cost of the original missile we don't believe 
accurately reflects the cost to MDA of achieving that target. I 
know GAO looks at it as the cost to the government, but those 
missiles were bought for a particular reason, they were 
retired, and we've taken them out of retirement. We do agree 
with GAO we should capture all of the costs of modifying those 
missiles, but there's a difference there that we're still in 
discussions with the GAO on.
    Senator Nelson. In that regard, I know that you've changed 
some of your acquisition requirements and contracting 
requirements now where you get competitive bidding for 
contracts. Could you tell us a little bit about what you've 
been doing there and maybe some of the cost savings that the 
agency has achieved?
    General O'Reilly. Sir, of our $2.4 billion that was 
identified in efficiencies by MDA this year, almost a half a 
billion was due to the way in which we acquire contractor 
support for government agencies or government staff. In the 
past, we used to hire--we determined and told our contractors 
how many engineers we needed and of what seniority and what 
were the particulars of the resources we wanted these companies 
to provide us to augment our staffs. Instead, we're taking a 
different approach. We define the task that we want these 
companies to provide for us and we leave it up to the companies 
to determine the seniority and number of engineers.
    We do this in a competitive fashion, so they know they're 
competing for cost, schedule, and performance of their 
competitors, against their competitors. This year we've 
identified so far over $100 million in savings because of the 
way that contractors have proposed. It may be an equal amount 
of personnel or it may be even more, but it might be fewer 
senior engineers that cost more, more mid-level, and then some 
junior engineers, which industry has told me in the past the 
way we were contracting was preventing them from literally 
hiring and developing a new generation of engineers.
    So this has worked quite effectively for us, sir. We do 
have about $30 billion more of contracts over the next 5 years 
which we are looking to compete.
    Senator Nelson. General O'Reilly, given the two failed GMD 
flight tests, you're planning to conduct two more flight tests 
to verify the solution for the problem encountered in the test, 
and you've indicated that you will need some additional GBIs 
for the GMD test program, but that number hasn't yet been 
determined. I understand that you plan to assess the need for 
additional GBIs after the flight tests verify and demonstrate 
the solution to the GBI problem we've been discussing.
    Is that correct? Since the GBI production line will remain 
open for several years and the refurbishment and target 
programs will also keep that production line busy, we'll have 
several years in which to decide how many additional GBIs are 
needed. In other words, we don't need to decide that this year; 
is that assumption accurate?
    General O'Reilly. Yes, sir. We believe that through this 
failure review board process one of the outcomes will be what 
is the right number and the strategy for testing GBI 
reliability in the future. We already have a program that we 
plan over the next 10 years to test over 900 components off the 
missiles that are currently in the missile fields as we 
refurbish, as you say. But we will reassess what additional 
testing is needed beyond that.
    Senator Nelson. This is to both General O'Reilly and Dr. 
Roberts. Your prepared statements discuss a number of planned 
enhancements to the existing GMD system to increase the 
capability to defend the Homeland over the coming decade. 
General O'Reilly, can you summarize the enhancements briefly 
and describe the degree to which they are expected to improve 
our defenses and over what period of time are we looking?
    General O'Reilly. Sir, there are several studies that are 
being done independently and they all indicate that--one of 
them, including Admiral Macy's study that he just finished--one 
of the key indicators to the effectiveness of missile defense 
is not actually the number of interceptors--you do need a 
certain amount--but it is the sensor system and our ability to 
discriminate objects and determine which is the reentry vehicle 
(RV) with enough certainty in order to affect your firing 
doctrine, how many missiles are you going to shoot at that 
cluster of objects?
    All missiles when they're launched have associated objects 
that come with them--upper stages, shrouds, other components 
that come off the missile during powered flight. So we have to 
have the ability to determine where is the RV to hit it. Those 
types of upgrades to the sensor systems, as I've mentioned, 
Clear, AK, those algorithms will have a significant impact on 
our capability.
    Also, the East Coast communications system will, in fact, 
significantly enhance the protection of the United States 
because we can communicate with the GBI late in flight before 
it has to intercept any threat that's coming from the Middle 
East.
    Those are, the ability to discriminate, the ability to use 
our new sensors like our satellite systems and even our 
forward-based airborne platforms and forward-based radars, 
those totally combined give us a very early track, and with the 
SM-3 IIB we would be able to intercept. Our cost estimate of 
that interceptor is about $15 million, so it's very cost-
effective for the first layer of defense for Homeland defense. 
It doesn't replace the GMD system, though, that still is 
necessary.
    Senator Nelson. Dr. Roberts, how do you see these GMD 
enhancements fitting into our overall missile defense strategy?
    Dr. Roberts. To go back to your opening formulation, we're 
ahead of the threat of limited strikes from states like North 
Korea and Iran, and we want to make sure that we stay ahead. A 
part of that is on the quantitative side. We want to be sure 
that we have the ability to provide sufficient interceptors, a 
sufficient number to match the requirement.
    But we often forget the qualitative side, and we can 
significantly enhance the performance of the current system and 
prepare it for substantially enhanced performance when the SM-3 
IIB becomes available to us. So we see these capabilities 
enhancements as essential. They are separate from the hedge, 
meaning these are things we're going to do in any case because 
they're important to staying ahead, and the hedge involves a 
set of things that we might want to do that are in addition, in 
the case of a more early emergence of capabilities that would 
overwhelm the GMD system.
    Senator Nelson. In that regard, my colleague, Senator 
Sessions, was raising questions about the budget for what I 
would call the out years, from 2013 on, and raised a question 
about whether or not that was sufficient funding for that 
period of time. Dr. Roberts, do you have any thoughts about how 
you might respond to that?
    Dr. Roberts. You had two good answers from the same 
military advisers that we listen to in Policy on this topic. We 
are satisfied that the budgets as projected are sufficient to 
our purpose. We don't see any opportunity for additional 
savings.
    We have a clearly emerging threat in the regions. We have 
the challenge of staying ahead in the defense of the Homeland. 
We have future technologies that we'd like to be invested in to 
ensure that we remain competitive over the very long term. We 
have a testing program that we've all accepted needs to be 
robust and sustained over the long term. There's no significant 
opportunity there for additional savings.
    So Policy clearly has the view that there are not 
significant new savings to be realized in the BMD budget if 
we're committed to the policy principles articulated in the 
BMDR.
    Senator Nelson. General O'Reilly, do you have any thoughts 
you'd like to share?
    General O'Reilly. Senator, as Dr. Roberts laid out, our 
current budget, the question that Senator Sessions was 
referring to, it was aimed at efficiencies. We're still 
intending to accomplish the same scope, and we've done this in 
a way that's auditable to determine are we more efficiently 
buying this capability. It was not determined nor is it our 
intent to reduce the amount of work that we plan to do in 
fiscal year 2011.
    As Dr. Roberts was saying, the hedge strategy would be 
additional, if we executed those hedges, would be beyond what 
was in our current budget.
    Senator Nelson. So we would have to increase the budget at 
some point down the road to take into account these additional 
efforts at defense?
    General O'Reilly. If those efforts are turned on, yes, it 
would require additional funding.
    Senator Nelson. My final question is, is there anything we 
should have asked that we didn't ask?
    General O'Reilly. No, sir.
    Senator Nelson. Very politic.
    Thank you very much, all of you, and thank you for your 
service to our country. We appreciate it.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                        phased adaptive approach
    1. Senator Levin. Dr. Roberts, General O'Reilly, and Admiral Macy, 
in September 2009, the President announced his decision to accept the 
unanimous recommendation of the Secretary of Defense and the Joint 
Chiefs of Staff to pursue the Phased Adaptive Approach (PAA) to missile 
defense in Europe. He described each of the four phases of the PAA, 
including the planned deployment timeframe for each phase. As explained 
in the Ballistic Missile Defense Review (BMDR), it is U.S. policy that 
``before new capabilities are deployed they must undergo testing that 
enables an assessment under realistic operational conditions against 
threat-representative targets to demonstrate that they can reliably and 
effectively help U.S. forces accomplish their mission.'' Do you each 
agree that this central fly-before-you-buy policy criterion should be 
applied to each phase of the European PAA (EPAA), so that we have 
confidence that the systems will work before we deploy them, and so 
that we only deploy systems that have demonstrated that they will work?
    Dr. Roberts and Admiral Macy. The fly-before-you-buy policy as 
outlined in the BMDR should and will be applied to each phase of the 
EPAA. The EPAA was specifically designed to take advantage of 
capability developments as they became operationally available, which 
includes realistic testing of the systems as they are fielded.
    General O'Reilly. A key tenet of the BMDR is to sufficiently test 
the capabilities and limitations of a missile defense system before we 
begin procurement, or fly-before-we-buy.

               future contract improvement opportunities
    2. Senator Levin. General O'Reilly, you have indicated that future 
Missile Defense Agency (MDA) contracts will provide opportunities for 
increasing value and protection to the taxpayer, including through 
increased competition and enhanced contract terms to protect against 
defects or other unsatisfactory contractor performance. What are your 
plans and objectives for improving these future MDA contracts, and what 
enhancements do you expect to achieve, in terms of savings or other 
enhancements?
    General O'Reilly. MDA awards contracts for hardware and services 
using both competitive and noncompetitive procedures. We continually 
look at our existing contracts and all new requirements for future 
competition opportunities. By conducting market research, we are able 
to define the extent to which system components or services can be 
competed in the future. Where necessary, we plan to obtain technical 
data under existing contracts to facilitate future competition. 
Additionally, MDA has implemented a competitive procurement strategy 
for the acquisition of our advisory and assistance service support 
requirements. This support is obtained using competitively awarded task 
orders under multiple award contracts. We are committed to ensuring 
maximum competition is planned for and considered in all acquisitions.
    To address recent unsatisfactory contractor performance, MDA has 
developed a draft contract provision, titled ``Contractor 
Accountability for Quality.'' This provision will allow MDA to reduce 
or even eliminate the amount of performance incentive fee awarded when 
our prime and subcontractors fail to follow their own best practices, 
internal processes, or accepted industry standards which then result in 
quality problems. We intend to include this provision for the first 
time in the Ground-based Midcourse Defense Development and Sustainment 
Contract. We plan to incorporate a contract provision holding 
contractors accountable for quality in all applicable MDA contracts.

                      counterfeit electronic parts
    3. Senator Levin. General O'Reilly, the committee has initiated an 
investigation into the presence of counterfeit electronic parts in the 
defense supply chain. MDA has taken steps to mitigate the risk of 
counterfeit electronic parts finding their way into our missile defense 
systems. From MDA's perspective, how serious is the problem of 
counterfeit electronics?
    General O'Reilly. MDA recognizes the seriousness of counterfeit 
electronic parts in the defense supply chain and has developed an 
effective process to identify and remove them. Specifically, to date 
MDA has experienced six instances of counterfeit parts within our 
supply chain which is made up of thousands of unique parts and 
materials provided by hundreds of suppliers providing hundreds of 
assemblies. One of the counterfeit part incidents required a recall of 
49 mission computer assemblies which necessitated the removal of 
approximately 800 parts from inventory. Counterfeit electronic parts in 
the defense supply chain can affect overall system quality and 
reliability if not properly addressed.

    4. Senator Levin. General O'Reilly, what national security risks 
result from the presence of counterfeit electronic parts in the 
Department of Defense's (DOD) supply chain?
    General O'Reilly. The predominant risk is reduced reliability and 
availability of weapon systems due to the failures related to 
counterfeit parts and materials. A counterfeit part may pass all 
production testing. However, it is possible that the part was damaged 
during unauthorized processing (e.g., removing the part from a previous 
assembly, or sanding the surface in order to place a new part number) 
causing the deployed system to fail. Similarly, reliability may be 
affected because a counterfeit part may be near the end of its useful 
life when it is installed. Should any mission critical component fail, 
that system fails and national security is impacted.
    A more insidious risk is the potential for access or the ability to 
disable a weapon system or communication network through malicious 
circuits embedded in counterfeit devices. Testing for this type of 
defect is extremely difficult.

    5. Senator Levin. General O'Reilly, many of our defense systems 
rely on parts that are no longer in production, forcing agencies to 
purchase them from places other than the original manufacturer. What 
steps has MDA taken to ensure that their sources of supply for obsolete 
parts are trustworthy?
    General O'Reilly. Understanding and controlling the source of parts 
and materials is critical in reducing the counterfeit part risk. Our 
MDA Parts, Materials, and Processes Mission Assurance Plan (PMAP) 
requires parts and materials for new or modified mission and safety 
critical hardware to be purchased only from the original manufacturer 
or an authorized distributor. MDA realizes that there are cases when 
obsolete parts are no longer available from the original manufacturer 
or an authorized distributor. In these cases, MDA PMAP requires that 
the contractor justify the reason why an authorized source was not 
available and provide a plan for verifying authenticity of the part. 
MDA Policy Memo #50, released in June 2009, extended these requirements 
to also include heritage mission and safety critical hardware.

    6. Senator Levin. General O'Reilly, has MDA adopted any policies or 
procedures to mitigate the risk of counterfeit electronic parts that 
DOD should consider adopting?
    General O'Reilly. MDA established requirements for mitigating 
counterfeit parts dating back to October 2006. At this point, MDA's 
requirements sufficiently mitigate the risk of counterfeit parts. There 
are other standards that are being developed. For instance, SAE is 
currently developing a comprehensive standard. MDA is participating in 
its development. DOD may want to look at all the standards and 
determine how such requirements should be imposed.

                missile defense cooperation with russia
    7. Senator Levin. Dr. Roberts, your prepared testimony states that, 
``a key priority is to establish a cooperative [ballistic missile 
defense] relationship with Russia. Significant opportunities have 
emerged, along with some challenges.'' You also state that you believe 
``we have an opportunity for meaningful cooperation'' that will enhance 
security. Why do you believe such missile defense cooperation would be 
in our security interests, and do you believe it could send an 
important signal to Iran that the United States and Russia are both 
opposed to its developing nuclear weapons and long-range missiles?
    Dr. Roberts. Cooperation with Russia in our missile defense efforts 
would send an important signal to Iran that Russia and the United 
States are working together to counter the acquisition, deployment, and 
use of ballistic missiles. Effective Ballistic Missile Defenses (BMD), 
including a potential U.S.-Russia cooperative architecture, can also 
devalue Iran's ballistic missile arsenal by reducing its confidence 
that an attack would be successful. This would help undergird a broader 
strategic objective: to strengthen deterrence in key regions through 
the integrated and innovative use of military and nonmilitary means 
that adapt regional deterrence architectures to 21st century 
requirements.

    8. Senator Levin. General O'Reilly, your prepared testimony states 
that you are, ``optimistic . . . that we will make significant progress 
this year in cooperating with the Russian Federation on missile 
defense.'' Why are you optimistic, and what sort of cooperation do you 
anticipate?
    General O'Reilly. We continue to support expert dialogue on 
cooperative efforts with the Russian Federation whose surveillance 
radars would enhance our ability to monitor ballistic missile 
development and flight testing in Southwest Asia. There are 
opportunities for us to cooperate in sharing our sensor data, our 
future research and development, and our command and control activities 
and exercises in order to build confidence between both sides that 
we're not threatening each other, but we are building ourselves a 
defense against the proliferation of these missiles.

          defense technology cooperation agreement with russia
    9. Senator Levin. Dr. Roberts, your prepared testimony describes 
the administration's effort to conclude a Defense Technology 
Cooperation Agreement (DTCA) with Russia as a ``requirement for the 
safeguarding of sensitive information in support of cooperation'' on 
missile defense. Please describe the role and purpose of such a DTCA, 
and why you believe such an agreement would be necessary to permit 
missile defense cooperation with Russia.
    Dr. Roberts. To facilitate greater cooperation with Russia, we need 
to conclude a DTCA, which will be beneficial not only for missile 
defense cooperation, but for cooperation in other areas, such as 
counterterrorism.
    We have made clear to Russia that we must complete a DTCA in order 
to undertake more extensive BMD cooperation. The DTCA will contain an 
annex that addresses the exchange of classified information. Even with 
a DTCA in place, a National Disclosure Policy review will still be 
required to provide classified information to Russia.

                       national disclosure policy
    10. Senator Levin. Dr. Roberts, you indicated that, in the context 
of possible missile defense cooperation, the United States would not 
share classified information with Russia unless and until we have 
conducted a National Disclosure Policy review. Please describe what 
such a review entails and how it would protect our information.
    Dr. Roberts. The DTCA will provide a legal framework to support 
defense technology cooperation between DOD and the Russian Federation 
Ministry of Defense for projects (classified or unclassified) to 
include missile defense and counter-improvised explosive device 
projects.
    All projects involving classified information that will be 
undertaken with the Russian Federation under the DTCA will require 
review and approval by the interagency National Disclosure Policy 
Committee (NDPC). An exception to the National Disclosure Policy must 
be authorized prior to the release of any information on a program 
involving classified information. Exceptions to the National Disclosure 
Policy may be authorized personally by the Secretary of Defense or his 
Deputy or the NDPC.
    NDPC reviews result in well-coordinated and informed interagency 
decisions regarding the types and level of classification of military 
information and projects authorized for disclosure, as well as specific 
conditions and limitations to be applied when sharing classified 
information and technology with a foreign government.
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
                          flight test failures
    11. Senator Nelson. General O'Reilly, the Ground-based Midcourse 
Defense (GMD) system currently has 30 Ground-Based Interceptors (GBI) 
deployed to provide defense of the Homeland against limited missile 
attacks from countries such as North Korea and Iran. However, the last 
two flight tests of the system failed to intercept the target. Can you 
explain what happened, what you are doing to fix this problem, and 
whether these test failures affect the deployed interceptors?
    General O'Reilly. For FTG-06 in January 2010, the Exoatmospheric 
Kill Vehicle (EKV) lost attitude control during the acquisition phase 
and failed to intercept the target. The failure was traced to an EKV 
quality control problem, a missing lockwire on an attitude control 
system thruster. Corrective action, manufacturing, and inspection 
procedures have been modified and there was not a recurrence of this 
problem in the two subsequent flight tests: BVT-01 in June 2010 and 
FTG-06a in December 2010. This issue impacts both CE-I and CE-II 
interceptors; however, records and photographic evidence have been 
reviewed for every delivered GBI to support a comprehensive risk 
assessment and no other instances were identified.
    During FTG-06a in December 2010, the EKV lost track of the target 
during the discrimination phase and failed to intercept the target. The 
failure investigation is ongoing and final determination of root cause/
corrective action has not been made. However, GMD is developing/testing 
multiple potential corrective actions and plans to validate the 
correction during the next flight test (non-intercept test FTN-01) in 
fiscal year 2012. Preliminary indications are that the failure is 
unique to the CE-II GBIs. Testing and analysis that the original 
deployed interceptors are not affected by the failure mode seen in FTG-
06a is underway.

    12. Senator Nelson. General O'Reilly, will you brief this committee 
when the Failure Review Board has completed its review and you have 
decided on a plan for how to fix the problem?
    General O'Reilly. Yes.

                        phased adaptive approach
    13. Senator Nelson. Admiral Macy, it appears that some view the PAA 
as a specific system or architecture, with a fixed number of assets and 
capabilities. However, as explained in the BMDR, it appears more like a 
strategy or an approach than a system or architecture. Can you provide 
your view of whether the PAA is an approach to missile defense or a 
specific system architecture?
    Admiral Macy. The PAA is not a specific system architecture or 
acquisition program. It is a conceptual approach that provides BMD 
capability for our deployed forces, allies, and partners, and 
additional capability for Homeland defense, in different regions, 
circumstances, and times. The PAA provides a balanced investment with 
the capacity to engage the range of threats that can be tailored to the 
geography, political circumstances, and capabilities of regional 
partners. It also has the flexibility to rapidly deploy more assets 
where and when they are needed.

    14. Senator Nelson. Dr. Roberts, you helped develop the policy and 
strategy for the PAA. What is your view?
    Dr. Roberts. I agree with Admiral Macy that the PAA is not a 
specific system architecture or acquisition program. It is a conceptual 
approach that provides BMD capability for our deployed forces, allies, 
and partners, and additional capability for Homeland defense, in 
different regions, circumstances, and times. The PAA provides a 
balanced investment with the capacity to engage the range of threats 
that can be tailored to the geography, political circumstances, and 
capabilities of regional partners. It also has the flexibility to 
rapidly deploy more assets where and when they are needed.

    15. Senator Nelson. Ms. Chaplain, as explained in the BMDR, DOD 
developed the EPAA as a regional policy approach for missile defense of 
Europe, not as a specific acquisition program. Can you explain why the 
Government Accountability Office (GAO) seems to be evaluating this 
policy approach as if it were a new major defense acquisition program?
    Ms. Chaplain. At the request of the House Armed Services Committee, 
GAO conducted a broad assessment of DOD's planning for implementation 
of the EPAA policy. Although we understand that the EPAA is a policy 
approach, not an acquisition program, it is an investment in a subset 
of MDA's systems requiring coordination and technical integration to be 
deployable in the European region, and to meet the timelines set out in 
the policy. In our view this represents a significant acquisition 
challenge. The criteria we applied in our assessment, however, 
represent sound management principles for guiding complex, highly 
integrated efforts. They reflect DOD's acquisition guidance as well as 
the Office of Management and Budget's guidance for capital programming 
across Federal agencies, particularly as it relates to bringing 
together and synchronizing multiple development efforts. We continue to 
believe these acquisition management principles serve as a useful, 
appropriate, and beneficial standard to assess DOD's EPAA acquisition 
activities. Importantly, these six principles are not just acquisition 
principles, they reflect general management principles for any major 
initiative: Identify what you need; identify the players and their 
roles; put together a plan with timeframes; ensure the pieces of the 
initiative are organized for success; test your assumptions; and 
determine how much it's going to cost to see the initiative to 
completion.

         decision timeframe for more ground-based interceptors
    16. Senator Nelson. General O'Reilly, you have indicated that you 
believe there will be a need for additional GBIs because of the two 
failed GBI flight tests last year. You stated that you plan to complete 
two additional flight tests to confirm and demonstrate that MDA has 
properly diagnosed and corrected the problem encountered in the most 
recent flight test failure. The second verification flight test, 
designated FTG-06b, is not expected to take place until late 2012, 
which means during fiscal year 2013. You have also stated that after 
you have studied the results of that second verification flight test, 
then you will assess the need for any additional number of GBIs, and 
any additional elements for the test and sustainment plan for the GMD 
system. During the hearing, you acknowledged that--because the GBI 
production line will remain open for several years--we have several 
years to decide how many additional GBIs we might need. Given this 
plan, is it correct to understand that your assessment and 
recommendations about additional GBIs would not be completed until 
sometime during fiscal year 2013, and could be ready for inclusion in 
the budget request for fiscal year 2014?
    General O'Reilly. Successful ground testing of the EKV 
modifications to resolve the previous flight test issues could be 
successfully concluded this fall. Based on those results, the PB13 
request will reflect whether we propose additional procurement of GBIs 
at that time. The non-intercept flight test in the winter of 2012 and 
intercept in summer of 2013 will inform congressional budget 
deliberations. If these tests are delayed or unsuccessful, Congress 
will be in an informed position to delay the request for additional 
GBIs beyond the fiscal year 2013 budget request.

    17. Senator Nelson. Dr. Roberts, does this notional schedule fit 
within our GMD enhancement strategy and plans?
    Dr. Roberts. Several of the assumptions we used to arrive at a 
total purchase of 52 GBIs are no longer valid, primarily due to test 
failures and the need for additional testing. Some increased number of 
GBIs will be necessary, but we must conclude the investigation of the 
most recent test failure before we can make a determination about the 
number of additional GBIs that will be required. Based on the outcome 
of the investigation, the PB13 request will reflect whether we propose 
additional procurement of GBIs at that time.

            significance of nato decision on missile defense
    18. Senator Nelson. Dr. Roberts, last November at the Lisbon 
Summit, the North Atlantic Treaty Organization (NATO) decided to adopt 
missile defense of NATO Europe as a core mission. As part of this 
decision, NATO decided to expand its missile defense command and 
control system, endorsed the U.S. plan for the EPAA to missile defense, 
and invited Russia to cooperate with NATO on missile defense. Can you 
tell me your view of the significance of NATO's decision, and how it 
could benefit security in Europe?
    Dr. Roberts. I believe the Lisbon decision reflects NATO's 
determination to remain the world's premier defense alliance by 
adapting to new challenges. Allies recognized that a new threat to our 
homelands comes primarily from non-traditional sources such as 
ballistic missile and WMD proliferation. Therefore, NATO's decision to 
pursue a territorial missile defense capability is a key step that 
sends a clear message--NATO is serious about responding to new threats, 
and is willing and able to pursue critical capabilities to counter 
those threats.

    19. Senator Nelson. Admiral Macy, you are the U.S. military 
representative to the NATO Air Defense Committee and you have worked 
closely with NATO on the new missile defense plan. What steps is NATO 
taking to implement the new plan?
    Admiral Macy. NATO is fully engaged in incorporating territorial 
missile defense of Europe. Per the decisions from the Lisbon Summit, 
November 2010, NATO has made the decision that missile defense is ``its 
core task of collective defence'' and our allies are appreciative of 
our efforts to include them in our discussions regarding our missile 
defense concepts and approaches. Now that NATO has made the decision, 
the BMDS capabilities resident within the EPAA will constitute our 
national contribution to the mission of collective defense. 
Implementing the EPAA provides the opportunity for NATO to contribute 
national systems and participate alongside the United States, and it is 
a very effective and efficient approach to NATO missile defense that 
allows all participants to leverage the investment other nations are 
making. The recent MDA demonstration of the Command, Control, Battle 
Management, and Communications (C\2\BMC) system interfacing with NATO's 
Active Layered Theater Ballistic Missile Defense (ALTBMD) program is a 
premier example of this implementation. In addition, NATO has committed 
to expand the ALTBMD program from beyond the protection of NATO 
deployed forces to also protect NATO European populations, territory, 
and forces. Finally, the alliance is increasing its participation in 
missile defense exercises progressing from simply observing to active 
participation in the Nimble Titan 2012 exercise. We will work closely 
within the alliance to craft the appropriate command and control 
structure to provide for the effective defense of our forward deployed 
forces, allies, and our partners from missile threats in the region.

               standard missile-3 block iib schedule risk
    20. Senator Nelson. General O'Reilly, DOD plans to deploy a new 
variant of the Standard Missile-3, the Block IIB, on land in 2020 for 
Phase 4 of the EPAA to missile defense. This interceptor is intended to 
defend Europe against medium-, intermediate-, and long-range missiles, 
and to supplement the GMD system for additional defense of the Homeland 
against intercontinental ballistic missiles (ICBM) from North Korea or 
Iran. Your agency awarded contracts in early April to three companies 
to help define the concept and development plan for the new missile, 
through the end of 2013. Consequently, there is not even a design yet 
for this interceptor. In addition, MDA is just starting to develop new 
technology needed for the missile, and the Aegis BMD program office is 
not expected to manage the program until 2013. Given these 
considerations, how confident are you that this new missile will be 
ready to deploy in 2020, and how will you manage schedule risk?
    General O'Reilly. I am confident that we will deploy the SM-3 Block 
IIB interceptor in the 2020 timeframe to support Phase 4 of EPAA. The 
SM-3 Block IIB schedule is based on recent government experience 
developing similar successful missile defense interceptor programs. 
Product development for SM-3 Block IIB spans 7 years, beginning in 
third quarter fiscal year 2013 and continuing through initial 
operational capability (IOC) in 2020. The time between product 
development and a production decision for this program is 5\1/2\ years. 
This development to production decision timeline is consistent with the 
average of BMD interceptors including Patriot, THAAD, SM-6, and SM-3 
Block IB as reported by GAO (see attached).
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Concept Definition and Program Planning contracts we recently 
awarded to three potential SM-3 Block IIB development prime contractors 
add a broad industry analysis to further inform our schedule 
projections. Each contractor is conducting missile trade studies to 
define SM-3 Block IIB concepts, challenges, and program plans for 
Product Development. For the next 2 years we are executing technology 
risk reduction efforts to mature key interceptor components that 
increase performance and potentially reduce cost. Specifically, we are 
investing now with multiple vendors in kill vehicle divert and attitude 
control systems, upper stage propulsion, focal plane arrays, and 
lighter weight structures and materials to reduce inert mass. These 
investments reduce risk in key technology areas to further minimize our 
Product Development schedule risk.

                     gao view of aegis ashore risk
    21. Senator Nelson. Ms. Chaplain, the Aegis Ashore program planned 
for deployment in Europe is based on the existing Aegis BMD program. As 
your prepared statement notes, and as the Director of Operational Test 
and Evaluation has also stated, the Aegis BMD program is the most 
mature in terms of development and operational suitability. If the 
Aegis Ashore program is based on the most mature existing Aegis BMD 
system, can you explain why GAO believes the Aegis Ashore program still 
has a degree of developmental risk?
    Ms. Chaplain. While Aegis Ashore is being developed out of the 
Aegis BMD program, it is not based on the configuration that has been 
tested and is deployed today, which is the 3.6.1 Aegis Ballistic 
Missile Defense System (BMDS) with the Standard Missile 3 Block 1A. The 
high levels of risk we see are based on the commitment to produce the 
weapon system before the design is proven through ground and flight 
testing. This commitment increases the chances for discovering issues 
with the hardware and software that could lead to costly redesign, 
rework, and doubts about the performance of the system.
    The Aegis Ashore will use the new 4.0.1 and 5.0 systems currently 
in development, and the new version of the interceptor also in 
development. Yet MDA has decided to commit to procure the system 
starting in 2012, well before results of ground and flight testing are 
available. We have repeatedly found in our reviews of major 
acquisitions that basing commitments, such as the decision to 
manufacture systems for operational use, should be based on 
demonstrated knowledge. One key step before that commitment is 
demonstrating a production representative system in a realistic 
environment. That will not occur until 2014 when the test version 
demonstrates the ability to successfully launch and engage a target. 
However, in order to meet the schedule that requires the Aegis Ashore 
to be operational by 2015, manufacture must begin in 2012.
    We discuss additional acquisition risks related to Aegis Ashore in 
Appendix IV of our March 26, 2011 report (GAO-11-372).

                 impact of epaa radar on gmd capability
    22. Senator Nelson. General O'Reilly, there has been discussion of 
the importance of a forward-deployed AN/TPY-2 radar in Phase 1 of the 
EPAA for the defense of Europe. However, that radar would also improve 
the performance of the GMD system to defend the United States. Can you 
tell me how that radar would enhance the GMD system, and how 
significant that improvement would be?
    General O'Reilly. [Deleted.]

    23. Senator Nelson. Dr. Roberts, would you consider this radar 
deployment to be an enhancement of the GMD system, even though it is 
placed in a regional missile defense context?
    Dr. Roberts. Yes, the deployment of a forward-based radar in 
southern Europe improves the missile defense protection of both Europe 
and of the United States.

                   u.s.-israeli cooperative programs
    24. Senator Nelson. General O'Reilly, for the cooperative missile 
defense programs we are developing jointly with Israel, you have 
established a joint program management structure including 
representatives from both nations. Has this joint program management 
structure worked as you had hoped it would?
    General O'Reilly. The joint management structure implemented in the 
two most recent U.S.-Israeli cooperative Project Agreements (Upper Tier 
and David's Sling) is working as expected. Older agreements for 
programs such as the Arrow System Improvement Program did not specify 
joint management practices. This created a potential problem where MDA 
was informed of progress and actions after the fact, and without 
performance metrics. In the newer agreements, visibility and 
accountability have increased through the establishment of program 
baselines, configuration control boards, jointly-defined and approved 
Knowledge Points, and joint decision authority for major program 
decisions (e.g., contract issuance, concurrence to proceed with test 
events, and design review entrance and exit criteria). These practices 
have all contributed to better U.S. understanding of progress, 
challenges, and risk to both schedule and resource planning for these 
programs.

    25. Senator Nelson. General O'Reilly, in the past, you expressed 
concern that the Arrow-3 interceptor being developed jointly by the 
United States and Israel had high technical and schedule risk. What is 
your current assessment of the level of technical and schedule risk in 
the Arrow-3 program, and has the program met its required knowledge 
points?
    General O'Reilly. While significant progress has been achieved in 
the Arrow-3 development program, I believe that my original assessment 
of high technical and schedule risk is still valid. Of the 20 Knowledge 
Points, 6 of 7 planned have been successfully accomplished thus far. 
One Knowledge Point related to the booster motor was not met due to a 
static test failure, and the re-design and re-test is in progress. As 
we have proceeded into more complex component ground tests leading up 
to the first flight test, additional technical issues have surfaced. 
These technical issues are driving slight schedule delays (first 
quarter so far) for the first flight test, but there is very little 
schedule margin to be able to accommodate any additional issues. The 
remainder of the schedule through IOC declaration is also success-
oriented with no room for error. Execution of the first flight test at 
the end of this year will be a major program milestone from which 
additional technical and schedule assessments will be made.

                     development of sensor systems
    26. Senator Nelson. General O'Reilly, MDA is developing two sensor 
systems to improve tracking and interception of large numbers of 
regional missiles. These systems are the Airborne Infrared (ABIR) and 
the Precision Tracking Space System (PTSS). The ABIR would be an 
unmanned aerial vehicle, and the PTSS is a satellite system. Can you 
explain the role of these two systems, and whether you believe they 
would both be necessary--or if one of them would be sufficient?
    General O'Reilly. While the PTSS provides the most cost-effective 
and assured comprehensive coverage of the Northern Hemisphere, I 
believe both systems, ABIR and PTSS, are necessary for the success of 
the BMDS.
    PTSS is planned because it offers the advantages of assured access 
to the greatest regions of threat launch activity and provides 
persistent tracking coverage of ballistic missiles over their entire 
flight. Because of Space Tracking and Surveillance System (STSS) 
demonstrations and our work with the SBIRS community, we believe that 
the technological basis for satellite-to-shooter engagements is 
available today. PTSS post-boost and midcourse tracking accuracies are 
suitable for any of our BMDS interceptors to achieve a high probability 
engagement over the widest possible geometries. The estimated annual 
O&M costs of a globally deployed PTSS constellation is $75 million/
year.
    ABIR is being demonstrated now because of the flexibility that UAV-
based systems have to rapidly extend sensor coverage and battle space 
beyond fixed radar sites outside the PTSS coverage of the Northern 
Hemisphere, provide early ascent phase tracking, and integrate readily 
with the existing Service infrastructures and BMDS network. Further, 
while today's sensors are useful and complementary to the BMDS radars, 
advanced ABIR sensors will significantly improve tracking accuracies, 
threat identification, and timeliness of reporting to the regional 
shooter. The estimated annual O&M cost of an ABIR Combat Air Patrol 
(CAP) of 3 aircraft is greater than $56 million per CAP. Of note, ABIR 
will require overflight permission from countries required for viewing 
access.
    Both of these systems promise improvements to the warfighter in 
earlier and higher confidence threat awareness and ability to address 
the highest priority ballistic missile threats. Given the actual annual 
O&M costs to operate an AN/TPY-2 radar of more than $50 million per 
year per radar and the requirement for Host Nation basing agreements to 
locate a radar in a region of interest, the PTSS is a critical system 
for affordable, unrestricted, and responsive missile defense in the 
future. The PTSS provides persistent broad earth coverage and ABIR 
provides flexible regional surge capability.

    27. Senator Nelson. Admiral Macy, can you give me a military 
perspective on the importance of these two systems to our future 
missile defense capability?
    Admiral Macy. The ABIR sensor and the PTSS are vital to the future 
BMDS. Both systems will enhance the combatant commanders' ability to 
defend against ballistic missiles by increasing their capability and 
capacity to counter these threats. Any further discussions of the 
importance of these systems and the contribution that they make must be 
conducted in a classified setting.

    28. Senator Nelson. Admiral Macy, do you view them as both being 
necessary to the capabilities that the combatant commanders will need?
    Admiral Macy. The capabilities of the ABIR system and PTSS will be 
vital to the combatant commanders' future ability to defend against 
ballistic missiles. Any further discussions of the importance of these 
systems and the contribution that they make must be conducted in a 
classified setting.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                            an/tpy-2 program
    29. Senator Shaheen. General O'Reilly, the forward deployment of 
AN/TPY-2 radars will be fundamental to the success of the EPAA and will 
be important in meeting the combatant commands' (COCOM) needs for 
regional missile defense around the globe. In your written testimony, 
you note several accomplishments with respect to the AN/TPY-2 program, 
including the refurbishment of an AN/TPY-2 radar for phase 1 of the 
EPAA as well as the preparation of a second radar for deployment to 
U.S. Central Command (CENTCOM). You also note that the fiscal year 2012 
budget request includes support for additional AN/TPY-2 radars. Is DOD 
currently planning for the possibility of a multi-year procurement of 
the AN/TPY-2 radar and what would be the reasoning behind such a 
decision?
    General O'Reilly. MDA is evaluating the merits of a multi-year 
production procurement for AN/TPY-2 radars. This strategy reflects 
DOD's initiative to identify efficiencies that reduce costs of 
delivering warfighting capability. No decisions have been made at this 
time due to considerations of obsolescence changes and the need for 
subsequent testing prior to proposing a multi-year procurement.

    30. Senator Shaheen. General O'Reilly, would you anticipate cost 
savings to accrue from a multi-year procurement of the AN/TPY-2 radar?
    General O'Reilly. MDA anticipates there would be cost saving from a 
multi-year procurement. We are evaluating the merits of a multi-year 
production for AN/TPY-2 radars. This strategy reflects DOD's initiative 
to identify efficiencies that reduce costs of delivering warfighting 
capability. No decisions have been made at this time due to 
considerations of obsolescence changes and the need for subsequent 
testing prior to proposing a multi-year procurement.

    31. Senator Shaheen. General O'Reilly, are you confident that the 
current AN/TPY-2 development plans are adequate to match our COCOM 
near-term requirements as well as the requirements of the EPAA?
    General O'Reilly. MDA remains confident that current AN/TPY-2 
capability, increased quantities, and delivery timelines included in 
the budget will provide the warfighter the capability to address near 
term emerging threats and the EPAA.

    32. Senator Shaheen. General O'Reilly, do you anticipate that any 
of the emerging challenges faced by our COCOMs will require additional 
development in the near-term?
    General O'Reilly. Depending on how and when the challenges emerge, 
MDA has options for additional near-term development of the AN/TPY-2. 
We conducted a 2010 summer study to evaluate investment options in 
response to challenging scenarios. The study concluded that while 
additional development to the AN/TPY-2 was not expected to be 
necessary, several investment options could add operational margin to 
help improve defense against an uncertain threat including dynamic 
resource management and debris mitigation.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                east coast missile defense data terminal
    33. Senator Gillibrand. General O'Reilly, I appreciated your 
testimony that an east coast interceptor communication terminal for the 
GMD system will significantly enhance the security of the United States 
by improving defense of the east coast against a potential future 
missile threat from North Korea or Iran. I understand that Fort Drum in 
New York is under consideration as the site for such a terminal. Can 
you explain why you are pursuing this new capability and why Fort Drum 
would be a good site for the data terminal?
    General O'Reilly. An east coast interceptor communications terminal 
improves the ability of the GMD system to defend the east coast of the 
United States by providing data updates to Ground-Based Interceptors 
(GBI) launched from Fort Greely, AK, and Vandenberg Air Force Base, CA, 
later in flight, thus increasing its probability of engagement success. 
The performance region was determined based upon current projections of 
the threat capability by 2015 and on the planned BMDS architecture in 
the same timeframe. Fort Drum, NY, was selected because it is within 
the required performance region and previous site surveys, 
environmental assessments, and use permits are already in place.

    34. Senator Gillibrand. Dr. Roberts, how does this planned east 
coast missile defense data terminal fit into the planned enhancements 
you mentioned for the GMD system?
    Dr. Roberts. An east coast interceptor communications terminal 
improves the ability of the GMD system to defend the east coast of the 
United States by providing data updates to GBIs launched from Fort 
Greely, AK, and Vandenberg Air Force Base, CA, later in flight, thus 
increasing its probability of engagement success.

    35. Senator Gillibrand. Admiral Macy, from a military perspective, 
would this east coast data terminal provide a useful improvement to our 
Homeland missile defense capability?
    Admiral Macy. A data terminal on the east coast would improve our 
overall defense capability by providing better information to the GBIs 
in flight. This data terminal will enable communication with GBIs 
launched from Alaska and California on longer flights that will improve 
the defense of the eastern United States against potential ICBM 
threats.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                      future budget affordability
    36. Senator Sessions. Ms. Chaplain, it seems quite clear that there 
will not be enough money in future budgets to cover the costs of the 
weapon system programs currently underway. In your opinion, is MDA's 
current portfolio of acquisition programs affordable at the funding 
level set forth in the President's fiscal year 2012 and Future Years 
Defense budgets?
    Ms. Chaplain. Judgments about affordability need to be made in the 
context of the overall DOD budget, the Nation's priorities, and 
reliable cost data. I can only comment on the last point. We have 
reported that MDA's cost estimates are not yet reliable or credible nor 
do they meet our criteria for high quality estimates. Our March 2011 
report details where cost estimates need to improve and how.

                  phase 1 of phased adaptive approach
    37. Senator Sessions. Dr. Roberts, General O'Reilly, and Admiral 
Macy, what is the current status for deployment of Phase 1 of the PAA 
to missile defense in Europe?
    Dr. Roberts and Admiral Macy. The first BMDS element deployment in 
support of Phase 1 of the EPAA capability occurred on March 7 of this 
year when the USS Monterey (CG 61) deployed to Europe. Monterey will 
spend this spring and summer helping to develop, test, and verify the 
necessary command and control processes, data pathways, tactics, 
techniques, and procedures. In addition, the C\2\BMC upgrade to the air 
operations center at Ramstein Air Base, Germany has been installed to 
control the AN/TPY-2 forward based radar and connect it and any Aegis 
ships into our command and control structure in Europe. Finally, 
negotiations are continuing to finalize plans to locate and operate the 
AN/TPY-2 radar in support of the EPAA.
    General O'Reilly. USS Monterey CG 61, Aegis BMD 3.61 with SM-3 
Block 1A missiles is currently deployed in theater. AN/TPY-2 radar is 
currently undergoing refurbishment and is on schedule to be available 
to MDA on August 31, 2011, with a proposed movement date of September 
20, 2011. C\2\BMC systems are available and scheduled to deploy on 
August 31, 2011. Current schedule meets test program timelines. A 
critical EPAA phase 1 milestone was achieved in March 2011 when an 
IRBM-range target was intercepted in the Pacific by a SM-3 IA 
interceptor using the current Aegis fire control system and the EPAA 
forward based AN/TPY-2 and command and control architecture. Finally, 
negotiations are continuing to finalize plans to locate and operate the 
AN/TYP-2 radar in support of the EPAA.

    38. Senator Sessions. Dr. Roberts, General O'Reilly, and Admiral 
Macy, do you foresee any obstacles for meeting full deployment of Phase 
1 by the end of the year?
    Dr. Roberts. We have already deployed the USS Monterey as part of 
the sea-based missile defenses that are part of Phase 1 of the EPAA.
    While I do not see any insurmountable obstacles, there may be 
challenges to reaching a host-nation agreement and deploying the AN/
TPY-2 radar by the end of the year. However we still intend to deploy 
the radar as part of Phase 1 of the EPAA.
    General O'Reilly. We are awaiting host nation agreement to field 
the AN/TPY-2 in support of Phase 1.
    Admiral Macy. In order to achieve full deployment of Phase 1 by the 
end of the year, a host nation agreement must be achieved to support 
deployment of the AN/TPY-2 radar. Once this host nation agreement is 
obtained and deployment preparations begin, we will have better 
fidelity on when full deployment will actually occur. At this time, 
there are no obstacles that cannot be overcome, however, full 
deployment of Phase 1 may be delayed.

    39. Senator Sessions. Dr. Roberts, General O'Reilly, and Admiral 
Macy, what is the current status of basing negotiations for the 
forward-based radar in southern Europe?
    Dr. Roberts. We are currently in discussions with potential host 
nations for the deployment of an AN/TPY-2 forward-based radar to 
southern Europe. No final host-nation decision has been made.
    General O'Reilly. MDA provides programmatic and technical support 
for basing negotiations. Current status of basing negotiations is more 
authoritatively addressed by OSD(P) and the Department of State.
    Admiral Macy. The current status of basing negotiations is best 
addressed by OSD(P) and the Department of State.

    40. Senator Sessions. Dr. Roberts, General O'Reilly, and Admiral 
Macy, in order to consider Phase 1 fully deployed by the end of 2011, 
when must a basing decision be made for the radar in southern Europe?
    Dr. Roberts and General O'Reilly. We expect that the deployment of 
the radar will take several months from the time that a basing decision 
is made. The actual timeline may vary due to the specific basing 
agreements and legal arrangements associated with the deployment.
    Admiral Macy. While we are already inside the window of the optimal 
deployment timeline, it is still technically possible to achieve a 2011 
deployment given a favorable host nation decision, rapid approval of 
the necessary legal framework, strong and active host nation support, 
and selection of a prepared site that requires little to no additional 
development to accommodate the radar.

   european phased adaptive approach transparency and accountability
    41. Senator Sessions. Dr. Roberts, General O'Reilly, Admiral Macy, 
and Ms. Chaplain, according to a recent GAO report, ``DOD has not fully 
implemented a management process that synchronizes European Missile 
Defense acquisition activities and ensures transparency and 
accountability.'' Without these key metrics, the ability to conduct 
effective oversight is greatly impeded. Given that each of the four 
phases of the PAA are closely tied to concrete timeframes, what tools 
will be used to ensure that planned capabilities are delivered on time?
    Dr. Roberts and General O'Reilly. The tools the MDA uses to ensure 
on time delivery of the PAA planned capabilities include an Integrated 
Master Schedule (IMS), the BMDS Specification, the Integrated Master 
Test Plan (IMTP), the MDA budget, and the program baselines from the 
contributing BMDS component programs.
    BMDS component programs use six baselines for each system element 
being developed. These include a Technical Baseline, Operational 
Capacity Baseline, Test Baseline, Schedule Baseline, Resource Baseline, 
and Contracts Baseline. Critical milestones are captured in each, and 
specifically in the schedule and technical baselines including key 
events such as planned capability delivery in support of the EPAA.
    The MDA Baseline Execution Review (BER), Technology Baseline Review 
(TBR), and Development Baseline Review (DBR) are the tools used to 
ensure that planned capabilities are being developed and delivered on 
time. These baselines are reviewed monthly to monitor program 
performance and ensure alignment with the schedule for delivering the 
PAA. The MDA Director conducts quarterly BERs. MDA annually provides 
the BMDS Accountability Report (BAR) to Congress which contains 
detailed information on all of the baselines for each MDA program.
    Admiral Macy. As the programmatic and technical lead for 
acquisition and development in support of the EPAA, the tools necessary 
to deliver these planned capabilities on time is more authoritatively 
addressed by MDA.
    Ms. Chaplain. Given the extent of acquisition activity associated 
with implementing the EPAA, GAO believes that the following basic 
acquisition management tools and principles should be used to ensure 
that the EPAA effort can be successfully implemented. We found MDA had 
partially adopted these principles as described below.

        <bullet> Well-defined requirements - DOD and MDA continue to 
        define architectures, systems, and quantities needed to 
        accomplish the missile defense mission set across the four 
        phases. We have reported over the years that stable 
        requirements are necessary to fully understand and plan for 
        successive steps in the acquisition process, such as 
        development and testing. As the series of acquisitions 
        supporting the EPAA proceeds, we believe a clear business case 
        is important to inform tradeoffs leadership may have to accept 
        among cost, schedule, and performance to deliver capability 
        within desired EPAA phase timeframes.
        <bullet> Stakeholders and decisionmakers identified and roles 
        defined - DOD and MDA's acquisition management and oversight 
        process is structured around reviewing and approving activities 
        of individual missile defense elements through a phased 
        decision process. It remains unclear whether, how, and which 
        various bodies reviewing MDA acquisitions are specifically 
        reviewing the overall progress in acquiring integrated 
        capability for EPAA phases within the timeframes called for by 
        that approach. We continue to believe top level reviews of EPAA 
        acquisitions would be useful.
        <bullet> Integrated schedule and decision reviews - DOD and MDA 
        manage and oversee MDA acquisitions through several mechanisms 
        including the Missile Defense Executive Board (MDEB) and its 
        associated subcommittees. It remains unclear whether the MDEB 
        has a management or oversight role in acquisition 
        decisionmaking related to EPAA specifically.
        <bullet> Integrated planning for technology development and 
        system engineering - MDA's planning efforts for development and 
        system engineering reflect the interdependencies of the BMDS 
        elements and the integrated performance expected under the 
        EPAA. Executing these development plans remains challenging 
        under the EPAA deployment schedule.
        <bullet> Integrated testing - MDA's test plan is structured 
        around the PAA, and includes plans to test key capabilities 
        expected as part of EPAA. The twice-yearly process of updating 
        the test plan facilitates the participation of a wide variety 
        of stakeholders in MDA's testing approach; however while the 
        test plan itself is sound, we continue to have concerns about 
        the plan's executability. MDA's practice of eliminating or 
        deferring important developmental and operational tests limits 
        knowledge available for management decisions.
        <bullet> Integrated view of financial commitment - We continue 
        to believe that a life cycle cost estimate for the subset of 
        capabilities to be deployed as part of EPAA would help to 
        ensure that DOD's investment decisions are fully informed.

    42. Senator Sessions. Dr. Roberts, General O'Reilly, Admiral Macy, 
and Ms. Chaplain, has MDA developed a life-cycle cost estimate for the 
EPAA?
    Dr. Roberts. The EPAA is a capability deployment approach and not 
an acquisition program, and therefore it does not have a life cycle 
cost estimate. EPAA is the phased deployment of individual BMDS 
capabilities as those capabilities are developed, tested, produced, and 
deployed within the BMDS architecture. MDA produces life cycle cost 
estimates for the individual BMDS acquisition programs that comprise 
the EPAA and other deployments globally. MDA can provide the cumulative 
deployment costs of the EPAA and the lifecycle costs of the individual 
elements that comprise the Joint Staff deployment plans of each COCOM. 
Due to its adaptive nature, no fixed inventory can be established for 
EPAA due to the possibility that differing regional security 
environments may require the surging of missile defense capabilities 
into other regions.
    General O'Reilly. EPAA itself is a capability deployment approach 
and not an acquisition program, and therefore it does not have a life 
cycle cost estimate. EPAA is the phased deployment of individual BMDS 
capabilities as those capabilities are developed, tested, produced and 
deployed within the BMDS architecture. MDA produces life cycle cost 
estimates for the individual BMDS acquisition programs that comprise 
the EPAA and other deployments globally. We can provide the cumulative 
deployment costs of the EPAA and the lifecycle costs of the individual 
elements that comprise the Joint Staff deployment plans of each COCOM. 
Due to its adaptive nature, no fixed inventory is established for EPAA 
vice the simultaneous deployment needs of other COCOMs.
    Admiral Macy. The EPAA is not a system for which a single life-
cycle cost estimate can be developed. Rather, the EPAA is a framework 
that provides an adaptable strategy for missile defense in Europe. 
While some components within this framework possess life-cycle costs 
that can be readily attributable to EPAA (e.g., Aegis Ashore), many of 
the components that have dual or multi-use purposes (e.g., Aegis ships) 
cannot.
    Ms. Chaplain. MDA has not developed a life-cycle cost estimate for 
the EPAA. While MDA did produce an informal estimate in the fall of 
2009, it does not reflect the current EPAA architecture. As we reported 
in January 2011, DOD has not developed and does not plan on developing 
EPAA life-cycle cost estimates because it considers EPAA an adaptive 
approach that will change over time. However, best practices for cost 
estimating include methods for developing valid cost estimates even 
with such uncertainties. These estimates could serve as a basis for DOD 
and Congress to assess the goal of fielding affordable and cost-
effective BMDs as well as determine if corrective actions are needed. 
We therefore recommended in January 2011 that DOD develop a life-cycle 
cost estimate for EPAA.

    43. Senator Sessions. Dr. Roberts, General O'Reilly, Admiral Macy, 
and Ms. Chaplain, now that the Joint Staff has completed its Joint 
Capabilities Mix III (JCM III) study, shouldn't MDA have a better 
understanding of the total costs associated with the deployment of the 
architecture envisioned for Europe?
    Dr. Roberts. The JCM III results are a useful component for 
developing the total costs associated with the deployment of the 
architecture envisioned for Europe. However, the study did not include 
deployment costs in its assessments.
    While the results of the JCM III are not sufficient for MDA to 
establish the total cost of the architecture envisioned for Europe, its 
findings will be helpful as we determine future missile defense needs.
    General O'Reilly. MDA considers the JCM III results as a useful 
component of our developing the total costs associated with the 
deployment of the architecture envisioned for Europe. However, the 
study did not include deployment costs in its assessments. Furthermore, 
the radar location in Europe that JCM III assumes may still change due 
to political considerations. Any changes in radar basing would impact 
the number and deployment costs of interceptors as well as the 
deployment costs of the radars themselves.
    The JCM III study shows the capability of the currently funded PAA 
against intel-based threats, and analyzes improvements that could be 
achieved with increased resources. The study made a number of 
assumptions about system track correlation and weapons system 
deconfliction, hit assessment, and C\2\BMC capability that are still 
under development. In addition, the study did not factor in the 
platform costs of fielding the number of ABIR systems employed in their 
analysis.
    While the results of the JCM III are not sufficient for MDA to 
establish the total cost of the architecture envisioned for Europe, we 
will support the study as it moves to the next phase and incorporate 
its findings into our cost estimation.
    Admiral Macy. The JCM III study was a qualitative performance 
analysis to determine the warfighters' requirements for elements of the 
BMD System required for BMD. This study focused on warfighting 
sufficiency rather than inventory acquisition objectives by examining 
the application of architectures to deter aggressors and end enemy 
ballistic missile attacks should they occur. JCM III did not attempt to 
simply answer how much to buy, but rather give alternatives to the 
warfighter to best achieve their overall goals. As such, JCM III 
provides utility to senior leaders on resourcing and allocation 
decisions, not total costs.
    Ms. Chaplain. DOD should have a better understanding of the total 
costs associated of EPAA after completion of JCM III. DOD has not 
briefed GAO on the study. Given that DOD, led by the Joint Staff, has 
used the JCM III study to examine all elements of the regional BMDS, to 
examine the performance against threat ballistic missiles that employed 
a range of countermeasures, and to identify alternatives that the 
warfighter can employ to best achieve his overall goals, the results of 
the study should yield additional information needed to better 
understand costs associated with each phase of the EPAA. As we reported 
in January 2011, the Joint Staff-led JCM III along with a U.S. 
Strategic Command study should help to better define force allocation 
and quantity needs for PAA in Europe and other regions. It is clear, 
however, that DOD faces a management and operational challenge since 
there is greater demand for missile defense assets than there will be a 
supply of those assets.
    Best practices for cost estimating include methods for developing 
valid cost estimates even with the uncertainties associated with EPAA 
architectures. These estimates could serve as a basis for DOD and 
Congress to assess the goal of fielding affordable and cost-effective 
BMDs as well as determine if corrective actions are needed. However, we 
reported in January 2011 that DOD needs to determine whether the EPAA 
schedule is realistic and achievable, to identify potential problems, 
and to analyze how changes will affect the execution of this effort.

                             sm-3 block iib
    44. Senator Sessions. General O'Reilly, as I mentioned in my 
opening statement, I am concerned that the schedule for development and 
deployment of the SM-3 IIB is overly optimistic. How confident are you 
that the SM-3 IIB will be delivered by 2020 for Phase 4 of the PAA?
    General O'Reilly. I am confident that we will deploy the SM-3 Block 
IIB interceptor in the 2020 timeframe to support Phase 4 of EPAA. The 
SM-3 Block IIB schedule is based on recent government experience 
developing similar successful missile defense interceptor programs. 
Product development for SM-3 Block IIB spans 7 years, beginning in 
third quarter fiscal year 2013 and continuing through IOC in 2020. 
Within that interval, 5\1/2\ years is projected between the product 
development and production decisions. This time allocation is 
consistent with the average of typical BMD interceptors including 
Patriot, THAAD, SM-6, and SM-3 Block IB as reported by the GAO.
    Concept Definition and Program Planning contracts we recently 
awarded to three potential SM-3 Block IIB development prime contractors 
add a broad industry analysis to further inform our schedule 
projections. Each contractor is conducting missile trade studies to 
define SM-3 Block IIB concepts, challenges, and program plans for 
Product Development. For the next 2 years we are executing technology 
risk reduction efforts to mature key interceptor components that 
increase performance and potentially reduce cost. Specifically, we are 
investing now with multiple vendors in kill vehicle divert and attitude 
control systems, upper stage propulsion, focal plane arrays, and 
lighter weight structures and materials to reduce inert mass. These 
investments reduce risk in key technology areas to further minimize our 
product development schedule risk.

    45. Senator Sessions. General O'Reilly, what is the anticipated SM-
3 IIB capability against ICBMs from Iran?
    General O'Reilly. [Deleted.]

    46. Senator Sessions. General O'Reilly, do you agree with the Aegis 
weapons system development philosophy of incremental development, 
refinement, and proven design? If so, why did you decide to not involve 
the Aegis program office in early SM-3 IIB development efforts?
    General O'Reilly. The MDA fully supports a development philosophy 
of incremental development, refinement, and proven design. The Aegis 
program office has been involved with the SM-3 Block IIB program. The 
SM-3 Block IIB program office employs 12 full-time Aegis BMD personnel 
to support Aegis Weapon System integration and program planning 
activities. Following the proven technology approach of the current 
family of SM-3 interceptors, the program currently falls under the 
leadership of the MDA Program Executive for Advanced Technology because 
the Block IIB is currently in the Technology Development Phase. As in 
our Navy/BMDO Terrier Lightweight Exo-Atmospheric Projectile (LEAP) 
technology demonstration program which developed the technical concepts 
used in today's SM-3 family of interceptors under the management of our 
Technology Directorate, we will prove the fundamental kill vehicle and 
booster technology was ready for product development. As with the 
original LEAP program, the SM-3 IIB program takes advantage of MDA's 
advanced technology efforts to develop new concepts in propulsion, 
lightweight materials, and sensors to reduce the risk associated with 
achieving the velocity and divert capabilities necessary for the SM-3 
Block IIB. After these concepts and technology mature over the next 2 
years, the program will then shift to product development and will 
transition under full Aegis BMD Program Office management in fiscal 
year 2013.

                       mda oversight by congress
    47. Senator Sessions. General O'Reilly, responses to requests for 
information from MDA have never been slower. Countless requests from 
both personal offices and committee staff take weeks and in many 
instances months for responses. Are you aware of this? If so, how do 
you intend to ensure that requests from Congress are responded to in a 
timely manner?
    General O'Reilly. My Deputy Director and I personally review all 
responses to congressional questions. To respond effectively to 
congressional inquiries, MDA coordinates closely with the Services, the 
combatant commanders, and the Office of the Secretary of Defense (AT&L, 
Policy, and the Comptroller) to ensure our answers are accurate, 
consistent with DOD objectives, and our programs are executable. This 
past year has been more challenging due to uncertainty of fiscal year 
2011 funding.
    However, I fully concur that MDA should respond more rapidly to 
congressional inquiries. I recently completed a congressional response 
process review with my senior executive staff. As a result, we have 
improved our internal processes for responding to congressional 
inquiries by elevating questions to the attention of our senior 
executive leaders and increasing visibility of the staffing process 
within our command group.

    48. Senator Sessions. Ms. Chaplain, I understand that GAO has had 
issues with MDA transparency and timely responses to requests for 
information. Is this true? If so, have you requested that MDA improve 
access to information necessary for conducting effective oversight?
    Ms. Chaplain. GAO has experienced issues with MDA's timely 
responses to our requests for information. We reported in 2010 that we 
experienced significant delays in obtaining information from MDA. 
During that audit, MDA did not always provide GAO staff with 
expeditious access to requested documents and articles of information, 
which delayed some audit analysis and contributed to extra staff hours. 
We reported in 2011 that we again experienced significant delays in 
obtaining information from MDA. In early 2011, MDA's Director agreed to 
meet with GAO in an effort to improve our access to data and our 
working relationship. These efforts have produced new guidance on 
access which has been signed by both MDA and GAO and we are currently 
beginning to implement the guidance as we begin our new missile 
defense-related engagements. We see the guidance as a positive step 
forward, although it is too soon yet to see significant outcomes from 
its implementation. Improved access to information will be vital to 
ensuring we are in a position to assist Congress as it oversees MDA's 
missile defense efforts.

                    precision tracking space system
    49. Senator Sessions. General O'Reilly, this committee is painfully 
aware of the troubles associated with space system acquisition. What is 
your acquisition strategy for the PTSS and why do you feel you are 
better suited than Air Force Space Command to execute this strategy?
    General O'Reilly. PTSS is to be developed as an integrated part of 
the BMDS. This will require extensive participation of all BMDS 
elements as the preliminary design is developed. While the Air Force 
Space Command is a critical partner in the PTSS development, the PTSS 
development phase must also have involvement of Federally Funded 
Research Laboratories (Johns Hopkins Applied Physics Laboratory, MIT 
Lincoln Laboratory, Naval Research Laboratory, Space Dynamics 
Laboratory, and Sandia National Laboratory); dedicated Service Cells of 
the Air Force and Navy; and an industry-partnered Integrated System 
Engineering Team (Ball Aerospace, Boeing, Lockheed Martin, Northrop 
Grumman, Orbital Sciences, and Raytheon). These PTSS stakeholders will 
develop non-proprietary, government-owned intellectual property to 
enable full and open competition for industry to produce the PTSS. 
FFRCs are well-suited to perform this technical management role for MDA 
and Air Force Space Command.
    MDA's charter is to develop and test all missile defense 
capabilities, including but not limited to missiles and radars. The 
development of space-based remote sensing, and the integration of the 
data into BMD fire-control loops, are integral to the MDA's development 
of early intercept capability. MDA is better able to lead the systems 
engineering and testing between the BMDS elements, including PTSS, 
prior to making production decisions. To support this strategy, the MDA 
and the Air Force Space and Missile Systems Center agree to assign Air 
Force personnel to the MDA's programs (included the PTSS program).

    50. Senator Sessions. Ms. Chaplain, DOD space programs are a part 
of your GAO portfolio. Do you have any concerns with MDA's acquisition 
of space systems?
    Ms. Chaplain. Our concerns about space acquisitions extend across 
DOD. As I recently testified before this subcommittee, despite the 
significant investment in space, the majority of large-scale 
acquisition programs in DOD's space portfolio have experienced problems 
during the past two decades that have driven up costs by hundreds of 
millions and even billions of dollars, stretched schedules by years, 
and increased technical risks. To address the cost increases, DOD 
altered its acquisitions by reducing the number of satellites it 
intended to buy, reducing the capabilities of the satellites, or 
terminating major space system acquisitions. Moreover, along with the 
cost increases, many space acquisitions have experienced significant 
schedule delays--of as much as 9 years--resulting in potential 
capability gaps in areas such as missile warning, military 
communications, and weather monitoring. These problems have been 
evident in Air Force, Navy, and MDA space programs. However, as I 
testified, the Air Force and the Office of the Secretary of Defense 
have taken a wide range of actions to prevent them from occurring in 
new programs.
    We have not performed an in-depth review of the PTSS in particular 
nor of MDA's broader capability to acquire space systems. An assessment 
of MDA's capability to acquire space systems may be worthwhile given 
the broader concerns we have identified of a shortage of space 
acquisition expertise within DOD.
    Further, an in-depth review of PTSS may also be worthwhile given 
issues we highlighted in our March 2011 report. As we reported in 
March, we have concerns regarding the PTSS program's optimistic 
schedule. MDA has developed an optimistic PTSS acquisition approach to 
field an operational constellation by fiscal year 2018. The agency 
plans to conduct prototyping efforts beginning in fiscal year 2011 and 
launch two prototype satellites in fiscal year 2015. MDA also plans to 
launch a minimum of seven additional satellites by fiscal year 2018. We 
are concerned about this compressed schedule because it took MDA about 
8 years to refurbish and develop its predecessor--the two demonstration 
STSS satellites--which launched in 2009 and took almost 15 months after 
launch to reach full operational capability. PTSS intends to develop 
and launch two prototype satellites in approximately 5 years and 
subsequently launch seven operational satellites in approximately 3 
years.
    We also reported that delays in fielding a PTSS constellation in 
fiscal year 2018 would significantly affect the implementation of the 
PAA to defend Europe and the United States against regional ballistic 
missile attacks. MDA discovered that there were sensor coverage gaps in 
its ability to acquire and track large ballistic missile raid sizes, 
intercept ballistic missiles earlier in their trajectories, assess 
intercept attempts in real time, and launch additional interceptors, if 
necessary. Currently, the sensor systems of the BMDS consist of radar 
sensors, such as SBX and AN/TPY-2. According to MDA, infrared 
satellites such as PTSS would have advantages over terrestrial radars 
because they can limit the affect of weather conditions, eliminate the 
need for host nation agreements, and observe ballistic missile launches 
occurring in remote locations. In addition PTSS is being designed to 
track large missile raid sizes soon after launch to enable earlier 
intercepts. Such capabilities would alleviate sensor coverage gaps and 
reduce the need for terrestrial sensors.

                          acquisition reforms
    51. Senator Sessions. General O'Reilly, 1 of the 23 principal 
actions outlined in Dr. Carter's September 2010 Better Buying Power 
memo was mandating affordability as a requirement for new weapon 
programs. How is MDA determining what is affordable?
    General O'Reilly. The MDA performs government cost estimates on all 
BMDS component programs to create a basis for affordability reviews. 
BMDS component programs that require an Under Secretary of Defense 
(Acquisition, Technology, and Logistics) production decision typically 
have an Office of the Secretary of Defense (Cost Assessment and Program 
Evaluation) Independent Cost Estimate conducted to support the 
decision. All BMDS component programs are reviewed by a MDA Director-
level program change board to prioritize activities within the BMDS and 
within individual BMDS component programs. Affordability initiatives 
from the program manager, program executive staff, and functional staff 
are applied at this time. These reviews form the basis for the 
overarching MDA budget request and ultimately determine what each of 
the BMDS component programs are provided to execute their programs.

    52. Senator Sessions. General O'Reilly, how will programs be held 
accountable for meeting affordability targets?
    General O'Reilly. BMDS component programs are reviewed quarterly at 
the MDA Director-chaired BERs. BERs review all six baselines to include 
the Resources Baseline (the Resource Baseline includes cost and 
affordability). Any changes to baselines must be approved by the 
program manager, program executive, and functional manager responsible 
for the baseline to ensure integration with other BMDS component 
programs and other baselines. The program manager must account for any 
variations from the baselines, and significant variations are reported 
to Congress in the annual BAR.

    53. Senator Sessions. General O'Reilly, will affordability targets 
be reported to Congress in the BAR?
    General O'Reilly. Yes.

                            israeli programs
    54. Senator Sessions. General O'Reilly, the fiscal year 2012 budget 
included a $5 million efficiencies-related reduction for Israeli 
missile defense cooperative programs. I understand that this reduction 
is below the funding level agreed to by the United States and Israel. 
Is that correct?
    General O'Reilly. The agreement allows for each partner to execute 
in accordance with its own national laws and regulations, and those 
obligations are subject to availability of funds. Thus, the agreement 
allowed for U.S. efficiency directives to be implemented on our Israeli 
cooperative programs. $5.0 million in savings was identified in U.S.-
Israel Cooperative Programs in fiscal year 2012 through a refined test 
approach. For example, the completion of U.S.-based flight testing in 
2011 (Caravan-2), and the decision to move additional planned flight 
testing (Caravan-3) to Israel, reduced U.S. test planning and personnel 
requirements in fiscal year 2012. Thus, the original objectives and 
scope of U.S. contribution to these Israeli programs will be met.

                   two-stage ground-based interceptor
    55. Senator Sessions. Dr. Roberts and General O'Reilly, while the 
two-stage GBI has been designated as a contingency in the event 
development of the IIB takes longer than anticipated, I remain 
concerned that DOD has yet to identify a serious hedging strategy for 
testing and potential deployment. If it is determined that the SM-3 IIB 
will not be technologically feasible in time for a 2020 deployment, how 
much time would be needed to deploy the two-stage GBIs in its place?
    Dr. Roberts. The hedge strategy is in the process of being 
developed and refined. We have committed to brief this committee on the 
results once it has been approved by the Secretary of Defense. The 
hedge strategy will include a discussion of hedge options to mitigate 
the effect of a delay to the SM-3 IIB interceptor.
    General O'Reilly. The hedge strategy is under development and will 
be briefed to Congress by the Office of the Secretary of Defense once 
it has been approved by the Secretary of Defense. Hedge strategy 
decision timeline triggers include both the threat assessment and SM-3 
IIB developmental progress. The hedge strategy will include timelines 
for deployment.

    56. Senator Sessions. Dr. Roberts and General O'Reilly, has the 
administration outlined a plan that ties two-stage GBI procurement and 
basing agreements with the schedule and technological milestones for 
the SM-3 IIB?
    Dr. Roberts. DOD is reviewing its hedge strategy, including 
ensuring a sufficient hedge to a potential delay to the SM-3 IIB 
interceptor. DOD is committed to briefing Congress as soon as the 
Secretary has approved the hedging strategy.
    General O'Reilly. As Dr. Roberts stated in his testimony, DOD is 
reviewing what more needs to be done to ensure the hedge posture is 
sufficient to address the possible threat developments in the timeframe 
before 2020. DOD is committed to briefing Congress as soon as the 
Secretary has approved the hedging strategy.

    57. Senator Sessions. Dr. Roberts and General O'Reilly, how will 
delaying the test for the two-stage GBI next year to pay for corrective 
measures related to the two recent three-stage GBI test failures impact 
the availability of the two-stage as a hedge to the SM-3 IIA and IIB?
    Dr. Roberts and General O'Reilly. The repeat of FTG-06a will 
consume a majority of the resources previously estimated for funding 
FTG-08 (the first intercept test of a two stage GBI). There are two 
remaining two-stage flight tests necessary prior to a two-stage GBI 
deployment decision, FTG-08 and FTG-17. FTG-08 has been delayed by 2 
years from the second quarter of fiscal year 2012 until the fourth 
quarter of fiscal year 2014. FTG-17, with upgraded avionics, is delayed 
from the third quarter of fiscal year 2016 to the fourth quarter of 
fiscal year 2019. However, we could accelerate flight testing if it is 
deemed necessary.
    The repeat of FTG-06a will consume a majority of the resources 
previously estimated for funding FTG-08 (the first intercept test of a 
two stage GBI). There are two remaining two-stage flight tests 
necessary prior to a two-stage GBI deployment decision, FTG-08 and FTG-
17. FTG-08 has been delayed by 2 years from the second quarter of 
fiscal year 2012 until the fourth quarter of fiscal year 2014. FTG-17, 
with upgraded avionics, is delayed from the third quarter of fiscal 
year 2016 to the fourth quarter of fiscal year 2019. If a threat change 
was to dictate an earlier need, we could accelerate flight testing to 
accommodate.

    [Whereupon, at 4:23 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MILITARY SPACE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:04 p.m. in 
room SD-106, Dirksen Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Nelson and Sessions.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Daniel A. Lerner, 
professional staff member; and Michael J. Sistak, research 
assistant.
    Staff assistants present: Christine G. Lang, Hannah I. 
Lloyd, and Brian F. Sebold.
    Committee members' assistant present: Ann Premer, assistant 
to Senator Ben Nelson.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Nelson. I call this hearing to order. My good 
friend, Ranking Member Senator Sessions, is on his way, but 
they've suggested we go ahead and start, given the fact that 
we're interrupted by a vote and the White House.
    I'd like to welcome all of you this afternoon and our many 
witnesses. Today we meet to discuss military space programs. 
Often there is little appreciation or understanding either in 
the Senate or in the general public of the advantages that 
space systems provide the U.S. military, the Intelligence 
Community (IC), and our economy in general. Somehow a satellite 
flying over a football game just isn't the same as a flyover by 
a B-2. It just hasn't gotten there yet.
    We as a Nation would be greatly diminished without our 
space assets. Thank you for your commitment and dedication to 
space and I look forward to a good discussion today.
    Our witnesses this afternoon are: Ambassador Gregory L. 
Schulte--we welcome you to your new position, Deputy Assistant 
Secretary of Defense for Space Policy; Dr. John A. Zangardi, 
Deputy Assistant Secretary of the Navy for Command, Control, 
Communications, Computers, Intelligence, Information 
Operations, and Space. Is there anything left? [Laughter.]
    Dr. Zangardi. No, sir, there is not. [Laughter.]
    Senator Nelson. All right.
    General William L. Shelton, USAF, Commander, Air Force 
Space Command (AFSPC), we welcome you. Lieutenant General Susan 
J. Helms, USAF, Commander, AFSPC, Strategic Command, Joint 
Functional Component Commander for Space (JFCC Space); 
Lieutenant General Richard P. Formica, USA, Commander, U.S. 
Army Space and Missile Defense Command/Army Forces Strategic 
Command (ASMDC/ARSTRAT); Rear Admiral David W. Titley, USN, 
Oceanographer and Navigator of the Navy and Director, Maritime 
Domain Awareness and Space; Major General John E. Hyten, USAF, 
Director, Space Programs, Office of the Assistant Secretary of 
the Air Force for Acquisition; and Ms. Cristina T. Chaplain, 
Director, Acquisition and Sourcing Management, Government 
Accountability Office (GAO).
    First, congratulations, as I said, are in order for the 
successful launch of the Space-Based Infrared System (SBIRS) 
GEO-1 last Saturday. This satellite is years behind schedule 
and substantially over budget, but it's finally in orbit.
    General Shelton, this is your first opportunity to testify 
before the subcommittee since your confirmation as the new 
Commander of AFSPC. Welcome.
    I'd also like to note that we have included Lieutenant 
General Formica in our hearing today representing the Army's 
small but growing interest in space. General Formica may not 
think it's small, but by comparison some others do. We've not 
had the Army testify on space issues in many years and we look 
forward to hearing from you today.
    Finally, Lieutenant General Helms, congratulations on your 
induction last week to the Astronaut Hall of Fame.
    This past year has been a very active one in the space 
community. The first Advanced Extremely High Frequency (AEHF) 
satellite was launched in August, although as a result of a 
failure in the satellite propulsion system it is not yet in its 
proper orbit. We would appreciate any update on the satellite's 
progress. As I understand it, AEHF-1 is supposed to be in the 
right orbit by later this summer.
    The first Global Positioning System (GPS)-3F satellite 
launched just after our hearing last year and the second one 
should launch later this year, this summer even. The first 
Space-Based Space Surveillance (SBSS) satellite launched in 
September. Operational Response Satellite 1 (ORS-1) should 
launch in June and TacSat-4 will also launch later this summer. 
Both of these satellites are awaiting resolution of a launch 
vehicle issue. Of course, the SBIRS launched last week. Quite a 
year of firsts.
    As we all know so well, the Air Force and Navy have 
struggled for many years with their satellite programs and, 
while it appears that the many design, development, and 
manufacturing issues are mostly resolved, it's been a long and 
expensive process. The question we have is, what are the 
lessons learned that can be applied to future programs?
    One satellite program is not out of the woods, however, and 
that is the Defense Weather Satellite System (DWSS), the 
successor to National Polar-orbiting Operational Environmental 
Satellite System (NPOESS). Even though the NPOESS program was 
cancelled a year ago, the acquisition plan for the much-needed 
DWSS is not finished. We'd like to know the schedule for this 
program and when there will be an acquisition decision.
    While the Navy appears to have solved the technical 
problems with the antenna on the Mobile User Objective 
Satellite (MUOS), a communications satellite which just last 
year was about 11 months late, with a launch date of September 
of this year. I now understand that MUOS is approximately 21 
months late and will not even be delivered until mid-next year. 
In the mean time, the Navy just put the fifth satellite on 
contract. We'll be anxious to hear, learn, and discuss more 
about this delay as well.
    The Air Force has two proposals on the table this year. One 
is to look at block buys of satellites starting with AEHF 
satellites 5 and 6. The second proposal is to look into a 
commitment to buy at least eight booster cores per year for the 
Evolved Expendable Launch Vehicle (EELV). This would entail a 
much-needed restructuring of the EELV contract and a better 
understanding of the actual launch costs. We look forward to a 
thorough discussion of the very successful, but expensive, 
EELVs.
    The final issue is the space industrial base. From rocket 
motors and engines to the smallest satellite parts, the supply 
base is getting smaller. We'd like to hear your thoughts on how 
to strengthen this industrial base.
    We have a large panel today, so I will conclude and ask 
Senator Sessions for his comments. What I'm hopeful is that our 
panelists know that we have to leave at 3:20 p.m., we have a 
vote at 3 p.m., and for a late-breaking meeting to the White 
House. You've submitted prepared statements, they will be 
included in the record. If we could maximize the time and, very 
briefly, identify your highest priority in about 2 minutes.
    Ambassador Schulte, we'll begin with you. Then Zangardi, 
Shelton, Helms, Formica, Titley, Hyten, and Chaplain. Thank 
you. Ambassador.

    STATEMENT OF HON. GREGORY L. SCHULTE, DEPUTY ASSISTANT 
             SECRETARY OF DEFENSE FOR SPACE POLICY

    Ambassador Schulte. Mr. Chairman, thank you for the 
opportunity to testify this afternoon. In February, Secretary 
Gates and Director of National Intelligence Clapper submitted 
to Congress a first-ever National Security Space Strategy 
(NSSS). This new strategy starts with dramatic changes in 
space, a domain that remains vital to our national security, 
but that is increasingly congested, contested, and competitive.
    In the face of these challenges, this new strategy seeks to 
protect the strategic advantages that we derive from space 
while also protecting the domain itself and the industrial base 
that is so important to our capabilities there. My prepared 
statement summarizes the strategy. I would like to focus 
briefly on three important aspects: first, promoting 
responsible use of space; second, partnering with other 
countries; and third, deterring attacks on our space systems.
    Promoting the responsible use of space is one of the new 
strategy's key approaches. A more cooperative, predictable 
environment enhances our national security and discourages 
destabilizing behavior. The United States is leading by 
example. We are preparing to begin providing pre-launch 
notifications of our space launches, just as we have notified 
ballistic missile launches in the past.
    U.S. Strategic Command (STRATCOM) has signed agreements 
with some 23 satellite operators across the world to share data 
and warnings of possible collisions. The United States is also 
looking to promote international transparency and confidence-
building measures for space. With that in mind, we are 
currently evaluating the European Union's (EU) proposed 
International Code of Conduct for Outer Space Activities. Our 
preliminary review suggests that such a code could provide a 
positive approach to promoting responsible space--responsible 
behavior, but the administration has not yet made a final 
determination on the code or changes that would be necessary 
for us to accept it, and the Department of Defense (DOD) is 
assessing its operational impact.
    Partnering with other countries is another key approach of 
the new strategy. Partnerships allow us to benefit from the 
growing space capabilities of allies and other countries, to 
make our space systems more diverse and resilient, and to 
improve our ability to operate in coalition. As an important 
step in that process, we are looking at transitioning 
STRATCOM's Joint Space Operations Center (JSpOC) into a 
combined space operations center with allies.
    Another good example of partnership is the Wide-Band Global 
satellite communications (SATCOM). Australia has bought into 
the constellation and the Air Force is negotiating with other 
allies to also buy in. This expands the number of satellites, 
adds coverage and resiliency, and shares the cost, a welcome 
benefit at a time of budget constraints.
    The new strategy also reflects a new multi-layered approach 
to deterring attacks on our space systems, which is important 
as space becomes increasingly contested. The first layer of 
deterrence is the establishment of norms of responsible 
behavior, as I discussed. The second layer of deterrence is the 
establishment of international coalitions so that an attack on 
the capability of one becomes the attack on the capability of 
many.
    The third layer of deterrence is increasing our resilience 
and capacity to operate in a degraded environment. The fourth 
layer of deterrence is a readiness and capability to respond in 
self-defense and not necessarily in space.
    In conclusion, Mr. Chairman, DOD has adopted a new space 
strategy to protect the national security advantages that we 
derive from a domain that is increasingly congested, contested, 
and competitive, and we look forward to working with you and 
Congress in implementing this strategy.
    Thank you.
    [The prepared statement of Ambassador Schulte follows:]
          Prepared Statement by Ambassador Gregory L. Schulte
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, thank you for the opportunity to testify on Department of 
Defense (DOD) space policy. I am honored to join my distinguished 
colleagues from the Army, Navy, Air Force and the Government 
Accountability Office (GAO). Today, I am pleased to discuss the 
recently released National Security Space Strategy (NSSS).
    Maintaining the benefits afforded to the United States by space is 
central to our national security. Space systems allow our warfighters 
to see with clarity, communicate with certainty, navigate with 
accuracy, and operate with assurance. However, an evolving strategic 
environment increasingly challenges U.S. space advantages. The current 
and future strategic environment is driven by three trends--space is 
increasingly congested, contested, and competitive.
    Space is increasingly congested. Growing global space activity and 
testing of China's destructive anti-satellite system have increased 
congestion in important areas in space. DOD tracks approximately 22,000 
manmade objects in orbit, of which 1,100 are active satellites. Another 
area of increasing congestion is the radiofrequency spectrum. As many 
as 9,000 satellite communications transponders are expected to be in 
orbit by 2015. As more transponders are placed in service, the greater 
the probability of radiofrequency interference. This congestion is 
complicating space operations for all those that seek to benefit from 
space.
    Space is increasingly contested in all orbits. Potential 
adversaries are seeking to exploit perceived space vulnerabilities 
through a range of counterspace threats that may deny, degrade, 
deceive, disrupt, or destroy space assets and supporting infrastructure 
from widely available jamming technology to highly-sophisticated, 
kinetic anti-satellite weapons. As more nations and non-state actors 
develop counterspace capabilities over the next decade, threats to U.S. 
space systems and challenges to the stability and security of the space 
environment will increase. Irresponsible acts against space systems 
could have implications beyond the space domain, disrupting worldwide 
services upon which the civil and commercial sectors depend.
    Space is increasingly competitive. More than 60 nations and 
government consortia currently operate satellites. Although the United 
States maintains an overall edge in space capabilities, the U.S. 
competitive advantage has decreased as market-entry barriers have 
lowered. Some U.S. suppliers are at risk due to inconsistent 
acquisition and production rates, long development cycles, and a more 
competitive foreign market. A decrease in specialized suppliers further 
challenges U.S. abilities to maintain assured access to critical 
technologies, avoid critical dependencies, inspire innovation, and 
maintain leadership advantages. All of these issues are compounded by 
challenges in recruiting, developing, and retaining a technical 
workforce.
    However, the challenges of a congested, contested, competitive 
environment also present the United States with opportunities for 
leadership and partnership. The recently released joint DOD and 
Intelligence Community NSSS charts a path for the next decade to 
respond to the current and projected space strategic environment.
    The NSSS seeks to maintain and enhance the national security 
benefits the United States derives from its activities and capabilities 
in space while addressing and shaping the strategic environment and 
strengthening the foundations of our space enterprise. The strategy 
identifies three U.S. national security space objectives: strengthen 
safety, stability, and security in space; maintain and enhance the 
strategic national security advantages afforded to the United States by 
space; and energize the space industrial base that supports U.S. 
national security. Achieving these objectives will ensure our military 
continued access to space-based assets national security purposes.
    The United States will retain leadership in space by strengthening 
our space capabilities and improving our collaboration with others 
worldwide. Leadership cannot be predicated on declaratory policy alone. 
It must build upon a willingness to maintain strategic advantages while 
working with the international community to develop collective norms, 
share information, and collaborate on capabilities. Thus the United 
States will pursue a set of five interrelated strategic approaches to 
meet our national security space objectives and enhance U.S. leadership 
in space, as outlined in the NSSS.
          promote responsible, peaceful, and safe use of space
    The United States will promote the responsible, peaceful, and safe 
use of space as the foundational step to addressing the congested and 
contested space domain. A more cooperative, predictable environment 
enhances U.S. national security and discourages destabilizing crisis 
behavior. The United States will encourage responsible behavior in 
space and will support development of data standards, best practices, 
transparency and confidence-building measures, and norms of behavior 
for responsible space operations. The United States will consider 
proposals and concepts for arms control measures if they are equitable, 
effectively verifiable, and enhance the national security of the United 
States.
    With increasing congestion in the space domain, efforts to develop 
and share situational awareness can help bring order to the congestion 
and prevent mishaps, misperceptions, and mistrust. DOD will continue to 
improve the quantity and quality of the space situational awareness 
(SSA) information it obtains and, in coordination with other government 
agencies, will seek to establish agreements with other nations and 
commercial firms to enhance spaceflight safety for all parties. DOD is 
also pursuing opportunities to expand sharing of space situational 
awareness data to increase transparency and cooperation in the domain. 
U.S. Strategic Command (STRATCOM) has entered into agreements with 23 
companies, including both launch providers and satellite owners and 
operators, to improve spaceflight safety.
    The United States is pursuing a number of initiatives to promote 
the responsible use of space. In keeping with the new strategy and the 
President's National Space Policy, we are currently evaluating the 
European Union's (EU) proposed international Code of Conduct for Outer 
Space Activities as a pragmatic first set of guidelines for safe 
activity in space. We are also discussing the Code with other space-
faring countries, including our key allies, as well as Russia, China, 
and India. The administration has not made a final determination on the 
EU proposal, and DOD is assessing its operational impact. However, our 
preliminary assessment finds it a positive approach to promoting 
responsible behavior in space, enhancing our national security in the 
process.
    Promoting transparency for responsible space operations will 
enhance the security of the United States by singling out those actors 
who seek to disrupt peaceful uses of outer space. As a concrete step 
towards transparency, DOD recently revised its pre-launch notification 
policy to include space launch vehicles in addition to ballistic 
missile launches. DOD will continue to work with the Department of 
State and other departments to promote responsible behavior worldwide 
that will help ensure the long-term sustainability of the space 
environment.
                provide improved u.s. space capabilities
    Ensuring U.S. capabilities are developed and fielded in a timely, 
reliable, and responsive manner is critical for military forces to plan 
and execute effective operations. Improving our acquisition processes, 
energizing the U.S. space industrial base, enhancing technological 
innovation, and deliberately developing space professionals are 
critical enablers to maintaining U.S. space leadership.
    The United States seeks to foster a space industrial base that is 
robust, competitive, flexible, healthy, and delivers reliable space 
capabilities on time and on budget. International advances in space 
technology have put increased importance on reforming U.S. export 
controls to ensure the competitiveness of the U.S. space industrial 
base while addressing technology security. Secretary Gates has actively 
called for an overhaul of our export control system. Reforming export 
controls will facilitate U.S. firms' ability to compete in the 
international marketplace for capabilities that are, or will soon 
become, widely available globally, while strengthening our ability to 
protect the most significant U.S. technology advantages. The NSSS 
reaffirms the necessity of these reforms and echoes the National Space 
Policy's call for giving favorable consideration for export of those 
items and technologies that are generally available on the global 
market, consistent with U.S. national security interests.
    We are exploring innovative acquisition strategies for buying 
spacecraft, with a focus on block buys. As part of the Secretary of 
Defense's broader efficiency initiatives, our goals are to: (1) reduce 
unit cost for ``production ready'' satellites; (2) enable the 
Department to acquire these systems more efficiently and affordably; 
and (3) stabilize production including the industrial base. Our 
innovative acquisition strategy will include full-funding of two 
satellite classes--Advanced Extremely High Frequency (in fiscal year 
2012) and Space Based Infrared System (in fiscal year 2013)--through 
the use of advance appropriations. We ask for your support of this 
approach.
  partner with responsible nations, international organizations, and 
                            commercial firms
    The United States will pursue additional opportunities to partner 
with responsible nations, international organizations, and commercial 
firms to augment the U.S. National Security Space Posture. Decisions on 
partnering will be consistent with U.S. policy and international 
commitments and will consider cost, protection of sources and methods, 
and effects on the U.S. industrial base. U.S. military personnel will 
ensure the appropriate review and release of classified information to 
enhance partner access to space information.
    With our allies, we will explore the development of combined space 
doctrine that endorse and enable the collaborative sharing of space 
capabilities in crisis and conflict. DOD is already exploring 
transforming STRATCOM's Joint Space Operations Center into a Combined 
Space Operations Center operated with international partners. A 
Combined Space Operations Center will allow our allies to work side-by-
side with U.S. commanders, integrating a coalition approach to space 
into our day-to-day operations. DOD, in conjunction with the State 
Department and other appropriate U.S. Government agencies, will work to 
expand mutually beneficial agreements with key partners to utilize 
existing and planned capabilities that can augment U.S. national 
security space capabilities. Wideband Global Satellite Communication is 
a good example--Australia has joined the constellation and other allies 
are looking at doing the same. A larger, more international 
constellation adds resilience and augments our space-based capabilities 
and forces a potential aggressor to contemplate attacking space systems 
used by a coalition of countries instead of one country.
    We will explore sharing space-derived information as ``global 
utilities'' with partnered nations. We will continue to share SSA 
information to promote responsible and safe space operations and will 
pursue enhanced sharing of other space services such as missile warning 
and maritime domain awareness. We will explore the establishment of a 
collaborative missile warning network to detect attacks against our 
interests and those of our allies and partners.
    Strategic partnerships with commercial firms will be pursued in 
areas that stabilize costs and improve the resilience of space 
architectures upon which we rely. Such partnerships enhance national 
security capabilities by providing opportunities to host national 
security payloads on commercial spacecraft or by offering innovative 
opportunities to buy or lease capabilities on-orbit. In an era of 
limited resources, the DOD will develop space systems only when there 
is no suitable, cost-effective commercial alternatives or when national 
security needs dictate. We will also actively promote the sale of 
capabilities developed by U.S. companies to partner nations. Such 
capabilities could then be integrated into existing U.S. architectures 
and networks through arrangements that enhance and diversify U.S. 
capabilities.
prevent and deter aggression against space infrastructure that supports 
                         u.s. national security
    The United States is pursuing a multilayered approach to prevent 
and deter aggression against U.S. and allied space systems that support 
our national security. The Department seeks to enhance its capability 
to dissuade and deter the development, testing, and employment of 
counterspace systems and prevent and deter aggression against space 
systems and supporting infrastructure that support U.S. national 
security.
    Many elements of this strategy contribute to this approach. DOD 
will: support diplomatic efforts to promote norms of responsible 
behavior in space which may dissuade and impose international costs on 
irresponsible behavior; pursue international partnerships that 
encourage potential adversary restraint; improve our ability to 
attribute attacks; strengthen the resilience of our architectures to 
deny the benefits of an attack; and retain the right to respond, should 
deterrence fail.
    SSA will continue to be a top priority, as it decreases the risk 
that an adversary's action could occur without warning or attribution. 
We are working with the Director of National Intelligence to improve 
our intelligence posture--predictive awareness, characterization, 
warning, and attribution, to improve our understanding of activities in 
the space domain. When combined with efforts to promote responsible 
behavior, such transparency will facilitate the quick identification of 
actions that threaten U.S. interests.
    Furthermore, the United States will deny adversaries meaningful 
benefits of attack by improving protection and strengthening the 
resilience of our architectures. Partnerships as well as alternative 
U.S. Government approaches such as cross-domain solutions, hosted 
payloads, responsive options, and other innovative solutions, can 
deliver capability, should our space systems be attacked. This also 
will enable our ability to operate in a degraded space environment.
    Finally, the United States is developing a range of options to 
deter, and if necessary, defeat efforts to interfere with U.S. or 
allied space systems consistent with the inherent right of self-defense 
and other longstanding principles on international law. Such options 
could include necessary and proportional responses outside of the space 
domain.
   prepare to defeat attacks and to operate in a degraded environment
    Notwithstanding our efforts to deter, some actors may still pursue 
counterspace actions as a means of achieving military or political 
advantage. Our military capabilities must be prepared to operate 
through a degraded environment and attacks targeted at our space 
systems and supporting infrastructure. We must deny and defeat an 
adversary's ability to achieve its objectives.
    As DOD invests in space capabilities, it will include resilience as 
a key criterion in evaluating alternative architectures. Resilience can 
be achieved in a variety of ways, to include cost-effective space 
system protection, cross-domain solutions, hosting payloads on a mix of 
platforms in various orbits, drawing on distributed international and 
commercial partner capabilities, and developing and maturing responsive 
space capabilities.
    To enhance resilience, DOD will continue to develop mission-
effective alternatives, including land, sea, air, and space-based 
alternatives for critical capabilities currently delivered primarily 
through space-based platforms. In addition, DOD will seek to establish 
relationships and agreements whereby we can access partner capabilities 
if U.S. systems are degraded or unavailable. We will be prepared to use 
these capabilities to ensure the timely continuity of services in a 
degraded space environment.
    Preparing for attacks must extend to the people and processes 
relying on space information, operating our space systems, and 
analyzing space-derived information. Ensuring that our servicemen can 
operate effectively during an attack on our space assets reduces the 
benefit of attack. DOD is also developing exercises and training to 
ensure our ability to access the requisite capabilities and 
information, from space or through cross-domain solutions, in the event 
of interference with space capabilities.
                               conclusion
    Our strategy requires active U.S. leadership enabled by an approach 
that updates, balances, and integrates all of the tools of U.S. power. 
DOD, in coordination with other departments and agencies, will 
implement this strategy by updating guidance, plans, doctrine, 
programs, and operations to reflect the new strategic approach.
    DOD included initial steps towards implementing the strategy in its 
fiscal year 2012 budget and will use the coming year to lay the 
foundation for changes in fiscal year 2013 and beyond. DOD looks 
forward to working closely with Congress, industry, and allies to 
implement this new strategy for space.

    Senator Nelson. Thank you.
    Dr. Zangardi.

    STATEMENT OF JOHN A. ZANGARDI, Ph.D., DEPUTY ASSISTANT 
  SECRETARY OF THE NAVY FOR COMMAND, CONTROL, COMMUNICATIONS, 
   COMPUTERS, INTELLIGENCE, INFORMATION OPERATIONS, AND SPACE

    Dr. Zangardi. Good morning, Mr. Chairman. Thank you very 
much for giving me the opportunity to testify this afternoon on 
issues of space.
    The Navy continues to provide narrow-band SATCOM for U.S. 
forces worldwide through the legacy Ultra-High Frequency (UHF) 
Follow-On (UFO) constellation. We will continue to lease 
commercial UHF services to supplement existing capacity as 
required in support of the warfighter. The Navy looks forward 
to the first on-orbit capability of Satellite No. 1 of the MUOS 
in 2012. As subsequent MUOS satellites are delivered to replace 
the fragile UFO constellation, it is critical that the Navy 
remain postured to provide uninterrupted UHF SATCOM services 
for the warfighter, including preserving the ability to launch 
MUOS satellites as they are delivered, in order to mitigate a 
loss of UFO satellite on-orbit.
    Sir, that completes my statement. Thank you.
    [The joint prepared statement of Admiral Titley and Dr. 
Zangardi follows:]
    Joint Prepared Statement by RADM David W. Titley and Dr. John A 
                                Zangardi
                              introduction
    Mr. Chairman, distinguished members of the subcommittee, we are 
honored to appear before you today to address the Navy's space 
activities. Successful Naval operations in the 21st century demand 
increased global situational awareness and proficiency in the areas of 
intelligence, cyber defense, ballistic missile defense, information 
management, and space. To achieve this primacy, the Chief of Naval 
Operations (CNO) directed the realignment of his staff a year ago to 
bring all Navy information-related capabilities and systems under a 
single resource sponsor--the Deputy Chief of Naval Operations for 
Information Dominance. In the area of space, the OPNAV N2/N6 
Information Dominance Directorate has established a single focal point 
to oversee Navy's space related policies, programs, requirements, 
investments, and resourcing. Fleet Cyber Command/U.S. Tenth Fleet, 
established over a year ago to be the Navy's operational lead for 
information and cyberspace, continues to execute Navy's space 
operations today.
    Our maritime strategy demands a flexible, interoperable and secure 
global communications capability to support the command and control 
requirements of highly mobile, geographically dispersed U.S., joint, 
and coalition forces. Our satellite systems provide a decisive 
advantage to our deployed forces across the broad spectrum of military 
operations, from peacetime engagements to humanitarian relief efforts 
to major combat operations. The Navy relies upon space-based 
capabilities to achieve information dominance over potential 
adversaries and enable commanders to exercise effective command and 
control at all warfare levels and across multiple information enclaves 
in all domains.
                        navy space requirements
    The Navy's interests in space include communications, intelligence, 
surveillance, reconnaissance, positioning, navigation, timing, missile 
warning, meteorology, and oceanography capabilities. The Navy continues 
to engage with the other Services and our interagency partners to 
ensure that all of our space equities, interests, and requirements are 
well understood so that the combatant commanders and Navy's operating 
forces have the space capabilities they need to succeed in their 
missions.
    The Navy remains critically dependent on space to conduct not only 
its wartime mission, but also its core capabilities of forward 
presence, deterrence, sea control, power projection, maritime security, 
humanitarian assistance, and disaster response. Space capabilities are 
vital to our Nation's maritime operations and are foundational to our 
ability to operate in a networked and dispersed manner. As the recently 
signed Navy Space Strategy states, space provides the ultimate crow's 
nest for maritime operations.
    The Navy's mission of ensuring the security of our citizens at home 
and abroad requires a global reach and persistent presence. Our ability 
to conduct missions of mercy or rapidly deploy decisive combat power, 
in concert with the other Services and our coalition partners, depends 
on assured space capabilities with inherent flexibility and 
responsiveness to support our worldwide responsibilities. In accordance 
with the National Space Policy and National Security Space Strategy 
(NSSS), commercial and foreign partner capabilities have become 
increasingly useful in bridging the gap between requirements and 
capabilities. The Navy will continue to work with the commercial sector 
and foreign partners to explore options that address multiple maritime 
mission requirements. Decisions to exploit these partnerships, though, 
must include consideration of the information assurance risks inherent 
in the capabilities being employed. Further, these decisions must be 
based on feasibility and affordability assessments and cost, benefit, 
and risk analysis.
    Due to the long lead times involved in fielding complex space 
programs, it is essential that Navy requirements and maritime missions 
are factored into the pre-launch design and planned on-orbit operation 
of future satellite acquisitions. The Navy is actively engaged with key 
national and joint space-related organizations to ensure current and 
future Navy needs in space are identified and incorporated. Further, we 
welcome the opportunity to participate in the recently chartered 
Defense Space Council as a senior-level forum to discuss Navy space 
equities with the Office of the Secretary of Defense, the Intelligence 
Community, and the Services who are represented at the Secretary and 
Under Secretary level.
                         navy space investments
    Nearly 50 percent of Navy's current fiscal contributions to space 
remains dedicated to the acquisition, development and management of the 
Ultra High Frequency (UHF) Follow-On (UFO) and Mobile User Objective 
System (MUOS) communications satellite systems. The remainder is 
predominantly apportioned to acquisition of the various satellite 
receiver terminals and equipment for Navy units, and space-based 
navigation, oceanography, and meteorology.
    Additionally, the Navy invests in space-related Science and 
Technology/Research and Development efforts that address maritime-
related capability gaps critical to the successful execution of our 
Nation's maritime strategy. In this fiscally-constrained environment, 
investments have been modest.
    The Navy depends on space capabilities now, and expects the demand 
for space capabilities to grow in the future, especially in the area of 
satellite communications (SATCOM). The Navy's major space segment 
responsibility to the joint community is the UHF narrowband SATCOM 
constellation. Today this constellation consists of eight UFO 
satellites, two residual Fleet Satellites (FLTSAT), one Leased 
Satellite (LEASAT-5), and leased capacity on SKYNET-5C. MUOS will begin 
to replace these systems in May 2012. Based on evolving warfighting 
concepts, UHF SATCOM requirements are expected to grow, and MUOS, as 
designed, will support those requirements.
                      mobile user objective system
    The increasing joint demand for SATCOM access at ever-higher data 
rates requires moving beyond current legacy UHF satellite capabilities. 
MUOS will help satisfy those demands when initial operational 
capability is reached in fiscal year 2012. The first satellite in the 
planned constellation of four operational satellites, with one on-orbit 
spare, is now scheduled for on-orbit capability in May 2012. 
Previously, Navy planned for the first MUOS satellite to achieve on-
orbit capability in December 2011; however, the launches of several 
higher priority spacecraft have dictated a primary launch date in 
February 2012. Over the past year, the MUOS program made significant 
progress completing electromagnetic interference testing of spacecraft 
#1, propulsion and satellite bus mating of spacecraft #2, and 
development of the ground infrastructure required to support MUOS 
launch. MUOS program performance continues to support a Fall 2011 
launch should a date become available. Navy's fiscal year 2012 budget 
submission continues our investment in MUOS to replace the aging UFO 
constellation.
    MUOS will support Unified Commands and Joint Task Force Components, 
Department of Defense (DOD) and non-DOD agencies, and our coalition 
partners by providing worldwide tactical narrowband netted, point-to-
point, and broadcast voice and data services in challenging 
environments, including double-canopy foliage, urban environments, high 
sea states, and all weather conditions. MUOS will carry two distinct 
payloads. The legacy UHF payload will provide the capability of a UFO 
satellite, while a new UHF waveform payload will significantly increase 
the number of accesses while also increasing available throughput to 
the warfighter.
    MUOS will be the common denominator for future command and control, 
enhancing the capability to communicate from the tactical edge to 
theater headquarters. MUOS will allow more comprehensive and 
coordinated support to regional engagement efforts, providing the 
capability to synchronize actions with other Services and agencies. 
This capability will be realized through the fielding of MUOS capable 
Joint Tactical Radio System terminals and by upgrading existing legacy 
UHF software programmable terminals.
                            delivering muos
    The timely delivery of MUOS is a high priority for Navy, and we 
recognize both our responsibility and commitment to providing this 
vital warfighting capability to all our DOD, Intelligence Community and 
Interagency partners. The delay in delivery of the MUOS system, coupled 
with the age and fragility of the current UHF satellite constellation, 
has our full attention and focus.
    Navy has taken several proactive steps to minimize the operational 
impact if a gap in UHF satellite availability occurs. We have completed 
a payload reconfiguration on UFO satellite Flight 11 that significantly 
increased the number of available channels. We completed this action at 
no cost and with very low risk to the spacecraft. A recent modification 
to the frequency plan on FLTSAT 8 allowed us to optimize the UFO 
satellite Flight 7 and provide two additional channels at no cost. 
Additionally, the Navy continues to lease supplemental UHF resources 
from two commercial satellite systems, LEASAT and SKYNET. Our total 
mitigation efforts to date are providing the equivalent capacity of an 
additional UFO satellite. Navy has also explored options using 
commercially hosted payloads, but all possible material solutions would 
not address potential near term gaps. We will keep these options in 
reserve if their use becomes necessary.
    We are also continuing efforts to make more efficient use of our 
currently available satellite resources. The Integrated Waveform (IW), 
a software upgrade to UHF SATCOM tactical terminals and control system, 
completed operational testing and is currently being deployed. IW will 
optimize our use of UHF satellite channels by doubling the number of 
accesses that can be supported by a single 25 kHz channel. DOD has also 
signed a Memorandum of Understanding with the Australian Ministry of 
Defense (MOD) for use of channels on an Australian-hosted payload 
covering the Indian Ocean region. In exchange, the United States will 
provide the Australian MOD use of equivalent UHF SATCOM accesses in the 
Pacific Ocean region commencing in 2018. Finally, we are exploring the 
use of TACSAT-4, an Office of Naval Research and Naval Research 
Laboratory co-led development that supports Operationally Responsive 
Space Office efforts. TACSAT-4 may provide a very limited operational 
capability when it reaches on-orbit capability later this summer.
                      environmental remote sensing
    The Navy provides DOD with global atmospheric modeling, and global 
and regional ocean modeling. We rely on partnerships with the Air 
Force, and civil and international agencies to meet our space-based 
environmental sensing requirements. Meeting these requirements is 
critical to the execution of missions that enhance safe, effective 
military operations. For our future, the Navy is engaged in defining 
the requirements for the DOD Defense Weather Satellite System and the 
National Oceanic and Atmospheric Administration's Joint Polar Satellite 
System, which will together satisfy a large portion of the Navy's 
environmental sensing requirements over the next 15 years.
    In support of the new National Space Policy, the Navy is adopting a 
new strategy to meet its unique space-based ocean altimetry 
requirements. We have deferred procurement of the Navy Altimeter 
satellite (GEOSAT follow-on) until fiscal year 2016 with full 
operational capability achieved in fiscal year 2021. In the interim, 
the Navy is seeking to enter partnerships with civil and international 
agencies to satisfy our altimetry requirements.
                  positioning, navigation, and timing
    The Navy continues to rely upon the Air Force's Global Positioning 
System (GPS) to meet the vast majority of our positioning, navigation, 
and timing (PNT) requirements. The Navy intends to award a contract 
this year for the GPS-based PNT service which will modernize our aging 
shipboard PNT systems and provide enhanced PNT assurance by 
implementing jam-resistant antennas, a Selective Availability Anti-
Spoofing Module, and a foundation for future M-code implementation. The 
Navy is also investigating the impact of a GPS-challenged environment 
on maintaining synchronized timing across our full suite of combat and 
communications systems.
    The Navy is continuing the technology development phase of the 
Joint Milli-Arcsecond Pathfinder Survey satellite, transitioning from 
Science and Technology to a major acquisition category program, which 
will update the DOD star catalog to meet positioning and orientation 
accuracy requirements for the next several decades.
             intelligence, surveillance, and reconnaissance
    A robust architecture of signals and geospatial intelligence 
systems to meet current and emerging requirements remains crucial to 
successful maritime operations. It is imperative that Intelligence, 
Surveillance, and Reconnaissance capabilities be funded and fielded in 
sufficient quantity and capacity to sustain continuity of essential 
space-based intelligence data throughout the maritime domain. 
Accordingly, we fully support Office of the Director of National 
Intelligence collaboration with combatant commands and Services to 
ensure emerging requirements are adequately supported by future 
Intelligence Community collection systems.
    These intelligence, surveillance, and reconnaissance capabilities 
are indispensable contributors to maritime domain awareness. As the 
Nation continues to develop and field these and future capabilities, 
persistent coverage in the maritime domain remains a key requirement. A 
constrained fiscal environment will no doubt make this challenging, 
but, in accordance with the National Space Policy and NSSS, emerging 
capabilities are being explored with our coalition and commercial 
partners in an effort to reduce costs while increasing capability.
                        commercial space systems
    Commercially provided systems provide the ability to augment, but 
not replace, existing national and military systems. These commercial 
capabilities have become increasingly useful in bridging the gap 
between requirements and capabilities. The Navy has used commercial 
communications satellites since the early 1990s to augment bandwidth 
requirements not fully satisfied by military communications satellites. 
Technical advances in the commercial sector provide opportunities for 
rapid capability implementation not only for communications, but in 
other mission areas as well, such as safety of navigation and 
intelligence, surveillance, and reconnaissance. The Navy continues to 
work with the commercial sector to explore options to address multiple 
maritime mission requirements, and we continue to field systems, such 
as Commercial Broadband Satellite Program terminals, to fully leverage 
available commercial capability. Potential cost savings and capability 
supplementation should continue to be evaluated for all commercially-
provided space-based capabilities at every opportunity.
                              space cadre
    Our Navy equities, requirements, operations, and management of 
space resources are the responsibility of a small but agile corps of 
space professionals that make the Navy's use of space possible. The 
Navy's Space Cadre is comprised of approximately 1,350 Reserve, civil, 
and active duty service personnel from all warfighter designators and 
communities, and is a key component of the DOD's 15,000 military and 
civilian space professionals. Part of our Total Workforce strategy is 
to ensure that fully qualified Navy Space Cadre personnel are 
consistently assigned to our most critical and influential space 
billets. This strategy requires the Navy to continue to recruit and 
retain a talented and highly skilled workforce to fill vital space 
leadership positions now and into the future. We continue to assign 
personnel with a proven capacity to represent unique Navy requirements 
for space systems in the joint acquisition processes at the National 
Reconnaissance Office. To enable us to do this more efficiently, we are 
developing specific career progression plans to actively manage space 
experts' individual career paths to ensure that Navy and joint space-
related assignments complement and enhance career progression and 
promotion opportunities while infusing naval operational expertise back 
into the space community.
                               conclusion
    In closing, we would like to reiterate that space capabilities will 
continue to be critical to our Nation's success in the maritime domain. 
We operate in an increasingly dynamic and challenging global 
environment, demanding additional capability and more capacity to 
operate in a networked but geographically dispersed fashion. A robust 
space layer is essential to providing the Nation's soldiers, sailors, 
airmen, and marines with the situational awareness and force capacity 
to operate, fight, and succeed in a myriad of missions.
    Navy is leaning forward in the use, advocacy, and development of 
space capabilities. We are building and fielding the necessary space-
based systems across multiple mission areas and the plan we have 
submitted will deliver the future space-based capabilities within the 
fiscal constraints of the budget.
    Thank you for the opportunity to share our efforts with you today. 
Continued support from this subcommittee and Congress is deeply 
appreciated.

    Senator Nelson. Thank you.
    General Helms.

 STATEMENT OF LT. GEN. SUSAN J. HELMS, USAF, COMMANDER, JOINT 
 FUNCTIONAL COMPONENT COMMAND FOR SPACE, U.S. STRATEGIC COMMAND

    General Helms. Good afternoon, Chairman Nelson. I am 
honored to appear before you as STRATCOM's Commander for JFCC 
Space. This is my first opportunity to come before you as the 
Commander and I look forward to working with you and the other 
subcommittee members to enhance the United States' standing as 
a global leader in space.
    It's an honor to represent the more than 3,000 soldiers, 
sailors, airmen, and marines of JFCC Space, as well as our 
exchange officers from Australia, Canada, and the United 
Kingdom. These men and women form a tireless and innovative 
Joint Force supporting our warfighters 24 hours a day, 365 days 
a year.
    Operating within an increasingly congested, contested, and 
competitive space environment requires strategically 
reexamining our processes, planning flexibility, improving 
awareness of the space environment, and expanding collaboration 
efforts with all spacefaring nations and corporations. 
Correctly adapting our operations will allow JFCC Space to 
continue to provide the following capabilities to the Joint 
Force: Unmatched position, navigation, and timing information; 
missile warning and missile defense; communications, 
intelligence, surveillance, reconnaissance (ISR) support; and 
technical intelligence and characterization of the operational 
environment.
    In today's strategic world, JFCC Space is at the forefront 
of defending our ability to operate freely within space. We 
continue to search out better ways to support those in harm's 
way. We will continue to develop and employ systems to enhance 
our comprehensive space situational awareness. We will strive 
to strengthen our relationships with allied and industry space 
partners, ensuring our global capabilities remain available for 
those requiring them.
    You can be proud of the soldiers, sailors, airmen, and 
marines of JFCC Space. I thank the subcommittee for your 
continued support as we work to preserve and enhance our space 
capabilities for our Nation.
    Thank you, sir.
    [The prepared statement of General Helms follows:]
          Prepared Statement by Lt. Gen. Susan J. Helms, USAF
    Chairman Nelson, Senator Sessions, and members of the subcommittee, 
I am honored to appear before you as U.S. Strategic Command's 
(STRATCOM) Commander of the Joint Functional Component Command for 
Space (JFCC Space). This is my first opportunity to come before you as 
the Commander for JFCC Space and I look forward to working with you to 
enhance the United States standing as a global leader in space.
    It's an honor to represent the more than 3,000 soldiers, sailors, 
airmen, and marines of JFCC Space. In addition to our active duty 
military members, JFCC Space has more than 1,000 National Guard, 
Reserve unit members and Individual Mobilization Augmentees, as well 
as, exchange officers from Australia, Canada, and the United Kingdom. 
These men and women form a tireless and innovative Joint Force, working 
hard to provide position, navigation, and timing information; missile 
warning and missile defense; communications; intelligence, 
surveillance, and reconnaissance support; and technical intelligence 
and personnel recovery to our warfighters 24 hours a day, 365 days a 
year.
    The space environment has become increasingly congested, contested 
and competitive. Operating within space is correspondingly more 
uncertain than ever in our past. Addressing the changes in the 
environment requires strategically rethinking our processes, 
integrating extra flexibility in our planning, improving our awareness 
of the space environment and expanding our collaboration with all space 
faring nations and corporations. Correctly adapting our operations 
within the space environment before we are required to respond to an 
unforeseen circumstance will allow JFCC Space to continue to provide 
space capabilities to our Joint Force throughout these uncertain times.
    One of our premier responsibilities is to deliver space effects to 
the Joint Force. As the most prevalent space effect delivered by my 
operators, we have continued to operate and improve the most widely 
used space capability on the planet, the global positioning system 
(GPS) constellation. In January we completed the first phase of our 
``Expandable 24'' operation, the largest satellite repositioning effort 
in GPS program history. This two phase operation repositioned three 
satellites to optimize GPS coverage for terrain-challenged 
environments, such as cities and the mountains and valleys of 
Afghanistan. We also began operations of the newest GPS variant, the 
GPS IIF, which will add a second civilian safety-of-life signal and 
provide more robust signal availability for military users.
    Our Overhead Persistent Infrared (OPIR) capabilities in space are 
the stalwart to providing critical ballistic missile warning to field 
commanders and national leaders. At least 20 nations currently have 
nuclear, biological or chemical weapons, and the technology to deliver 
them over long distances. According to intelligence estimates, during 
the next 10 years, additional countries will develop the technology and 
capability to launch intercontinental ballistic missiles at the United 
States. Our detection systems provide both strategic warning for 
intercontinental ballistic missile (ICBM) and space launches as well as 
tactical warning for shorter-range ballistic missile launches. Space 
based missile warning satellites are able to provide continuous global 
coverage. These systems are capable of providing missile warning to the 
Joint Force and coalition partners in the event of a short-range 
ballistic missile attack. In addition, deployed units throughout the 
world provide Geographic Combatant Commanders the means of receiving 
missile warning data direct from the Defense Support Program (DSP) 
constellation for their area of responsibility. Space OPIR continues to 
ensure missile threats are detected and reported in a timely fashion 
but the technology continues to advance and we are constantly finding 
new ways to provide better battlespace awareness and technical 
intelligence to the ground commanders beyond our foundational ballistic 
missile warning mission. The Space-Based Infrared System (SBIRS) in its 
highly elliptical orbit (HEO) gives significant coverage over the 
northern hemisphere for infrared detection and technical intelligence 
gathering. We can now detect and report, in near real-time, natural and 
man-made infrared events. The quality of data provided by SBIRS HEO is 
a key part in our ability to characterize launches and predict threats 
within minutes. Following its operational acceptance, the first SBIRS 
in its geosynchronous orbit will give us the ability to paint a picture 
for national leadership of new foreign technology development and 
proliferation information. This capability is so significant that the 
SBIRS community is developing a pre-certified use plan to get valuable 
information to the Joint Force as soon as practical.
    These space based sensors are only one portion of our missile 
warning capability. Ground-based radars provide warning by detecting, 
tracking and counting individual objects in a missile attack early in 
their trajectory. Several of the ground based radars are integrated 
into the Ballistic Missile Defense System used by the Missile Defense 
Agency to improve midcourse sensor coverage by providing critical early 
warning, tracking, object classification and cueing data.
    Information technologies have truly revolutionized our capability 
to operate globally. From combat operations to humanitarian assistance, 
we use military satellite communications every day. In addition to GPS 
and OPIR capabilities, JFCC Space provides to the Joint Force 
protected, wideband and narrowband satellite communication 
capabilities.
    Protected communications make possible the ability to command and 
control forces and support national decisionmakers in a contested 
communications environment, including the high end nuclear environment.
    Wideband satellite communication provides automatic Digital 
Network/automatic Secure Voice Communications, Secret Internet Protocol 
Router Network and Joint Worldwide Intelligence Communication System 
access from space. Additionally wideband communications include relays 
for Defense Message System, Defense Switched Network, Diplomatic 
Telecommunication Service Communications and real-time Unmanned Aerial 
Vehicle video for ground mobile forces.
    In the category of narrowband communications, our ultra-high 
frequency follow-on (UHF) satellite system, is the space-based portion 
of the Department of Defense (DOD) communication system that enables 
reliable communications among aircraft, ships, submarines, ground 
stations and the presidential command network as well as a multitude of 
joint and allied users. UHF satellite communications is a primary 
enabler for distributed command and control, critical for dispersed 
maritime operations, and provides critical communications for 
humanitarian assistance and disaster relief efforts such as the Haitian 
and Japanese earthquake. DOD provided more than 20 UHF satellite 
communications channels dedicated for supporting tsunami relief efforts 
in Japan.
    JFCC Space is forging ahead in our efforts to provide new, 
operationally responsive space effects to the Joint Force. We are 
actively engaged with Air Force Space Command and STRATCOM in 
developing the concepts and command relationships that may allow us to 
quickly transition rapid development capabilities to operational use. 
For example, the TACSAT-3 satellite has an experimental, hyper-spectral 
imagery payload that has shown great promise in support for ground 
troops as well as in disaster relief and recovery operations. We are 
also working with Service partners to deploy the Operational Responsive 
Space (ORS)-1, a small spacecraft that will supply urgently-needed 
imagery to Central Command.
    Day to day, JFCC Space tasks our space based assets to provide 
standard space support to the Joint Force. We maintain a close and 
dedicated relationship with each theater's Space Coordinating Authority 
(SCA). Through the SCA relationship JFCC Space is proactively postured 
to rapidly adapt to changing mission requirements based on combatant 
commander's changing needs. JFCC Space, through the Joint Space 
Operations Center (JSpOC), coordinated specific support to the U.S. 
response to the March 11 earthquake and tsunami in Japan and ongoing 
coalition military operations over Libya. These efforts include using 
data from the hyperspectral sensor on TACSAT-3 to help contain the 
damage at the Fukushima Daiichi Nuclear Power Plant. In support of the 
North Atlantic Treaty Organization's Operation Unified Protector, JFCC 
Space tailors theater missile warning coverage, strike assessment and 
technical intelligence support for coalition forces protecting Libyan 
civilians and civilian-populated areas.
    Space situational awareness (SSA) is the cornerstone of JFCC Space 
operations and the space surveillance network (SSN) is the workhorse of 
our SSA. The data provided by the space surveillance network are 
analyzed at the JSpOC by a collection of military and civilian 
analysts. These analysts keep track of what satellites are active, 
predict when pieces of debris or satellites will re-enter the 
atmosphere or collide, and provide vital information to decisionmakers 
about when a payload can be safely launched. Over the past 2 years, we 
have increased daily conjunction screening at the JSpOC from 110 
primary satellites to all active satellites (over 1,100). Due to this 
increase in number of satellites screened, we have seen conjunction 
warning notifications increase from 5 to up to 25 per day, up 46 
percent from 2009 and we have had a corresponding increase in our 
interaction with commercial and foreign government space operators. 
Information sharing with commercial and foreign entities is now a 
routine occurrence executed via a formalized process within JFCC Space. 
We currently have data sharing agreements with 23 commercial and 
foreign partners.
    However, we still suffer from an aged and limited sensor network to 
gather our most important SSA resource: orbital observations. Many of 
our SSN sensors operate on a one-object-at-a-time system and a majority 
of the SSN sensors are not networked with one another. The Continental 
United States (CONUS)-based space fence and our Eglin SSN sensor are 
currently the only machine-to-machine network between SSN radars. These 
networked sensors are resulting in 30,000 observations per year that 
would otherwise go undetected due to sensor limitations with Eglin's 
space surveillance fence. We could see a huge benefit to our SSA 
through greater machine-to-machine networking between our SSN sensors. 
The CONUS-based space fence can detect and observe multiple objects at 
one time and contributes more observations to our network than any 
other sensor. Additionally, we have considerable gaps in coverage in 
the southern hemisphere. Placement of a space fence in the southern 
hemisphere will improve our coverage considerably. Another sensor that 
will improve our capability is the Space-Based Space Surveillance 
(SBSS) satellite launched in September. This sensor operates from 
space, free of boundaries, borders, or atmospheric effects to distort 
or obscure viewing. With a potential capability to track objects much 
smaller in size than what our older sensors can track, SBSS will detect 
significantly more objects in orbit and produce a corresponding 
increase in the volume of SSA data. Current analytic and processing 
capacity in the JSpOC is not sufficient to exploit the full capacity of 
this or other future sensors. This shortfall is driving an urgent need 
to upgrade JSpOC systems. The JSpOC Mission System (JMS) is the Air 
Force's program of record for solving this problem and ensuring the 
JSpOC is properly equipped to handle the mission is part of my service 
function as commander of 14th Air Force.
    The JMS is planned to replace our legacy command and control 
systems designed in the 1980s and fielded in the 1990s. We are working 
closely with the acquisition team to prioritize our mission 
requirements. In the months ahead we intend to employ an early JMS 
release that will significantly enhance our ability to understand the 
space situation with an integrated operating picture, as well as the 
ability to respond to a dynamic space environment. We will continue to 
build upon this initial capability to ensure our operators on the JSpOC 
floor have the tools, and the infrastructure, they need to accomplish 
the mission.
    We cannot properly equip the JSpOC without addressing our current 
facilities and the need for modern infrastructure to house the state of 
the art command and control system and the JSpOC personnel. Today the 
JSpOC performs its operational mission from a converted missile 
assembly building. Over 50 years old and designed for an entirely 
different purpose, the building presents significant challenges towards 
meeting our integrated space operations mission. Successful integration 
with U.S. and coalition forces, as well as commercial partners will 
depend upon a future military construction project for new facilities 
designed specifically for space command and control.
    SSA is not only an understanding of the physical objects within 
space but also includes characterizing disruptions to services provided 
by satellite signals transmitted through space. JFCC Space provides the 
capability to monitor the service quality of U.S. and coalition 
satellite communications systems in order to detect interference which 
may ultimately be determined to be either unintentional incidents or 
purposeful acts. When an interference event is detected, JFCC Space 
receives support from other elements of STRATCOM to geolocate the 
source of interference. In these efforts, we continue to build on the 
early successes of current programs leading to the development of new 
systems to be deployed later this year in order to conduct 
electromagnetic interference detection in different frequencies and 
different locations throughout the world. These efforts support broader 
U.S. Government efforts--in cooperation with civil, commercial, and 
foreign partners--to identify, locate, and attribute sources of radio 
frequency interference, and take necessary measures to sustain the 
radiofrequency environment in which critical U.S. space systems 
operate.
    Consistent with the President's National Space Policy and the 
National Security Space Strategy, we are working with the Department of 
State to expand our current partnerships and develop new partnerships 
through transparency and cooperation with partners and allies, 
including industry partners. The United States will continue to promote 
safe and responsible space operations both for ourselves and with other 
space faring nations and industry partners. Our leadership in the 
development of best practices and bilateral and multilateral 
transparency and confidence building measures to encourage responsible 
actions in, and the peaceful use of, space, is of critical importance. 
As the National Space Policy states, it is the shared interest of all 
nations to act responsibly in space to help prevent mishaps, 
misperceptions, and mistrust.
    A Combined Space Operations concept is a starting place and we will 
work with our closest allies to flesh out and mature the concept toward 
mutually supportive goals. The concept must be expandable and 
tailorable to allow the flexibility to incorporate partners beyond our 
own U.S. Government agencies and closest allies.
    As resources permit, we plan to continue expanding the SSA 
information and services we offer. In coordination with the Department 
of State and civilian departments and agencies, we intend to enter into 
SSA Sharing agreements with foreign governments and international 
organizations, and build upon our bilateral space cooperation dialogues 
with key allies and partners. These dialogues have already resulted in 
agreements in principle for SSA cooperation between DOD and its 
counterparts in Australia, Canada, and France. SSA Sharing agreements--
combined with ongoing discussions on SSA cooperation with other allies 
as well as the European
    Space Agency and European Union--will put us on a path to improve 
collective awareness of the space domain and work to preserve its 
advantages for all.
    Space operations continue to evolve rapidly and JFCC Space is at 
the forefront of defending our ability to operate within space. We 
continue to search out better ways to support Joint Forces around the 
globe, especially those in harm's way. We will continue to develop and 
employ systems to enhance our comprehensive SSA. We will strive to 
strengthen our relationships with allied and industry space partners, 
ensuring our global capabilities remain available for those requiring 
them. You can be proud of the soldiers, sailors, airmen, and marines of 
JFCC Space. I thank the committee for your continued support as we work 
to preserve and enhance the critical space capabilities of our Nation.

    Senator Nelson. Thank you.
    General Formica.

STATEMENT OF LTG RICHARD P. FORMICA, USA, COMMANDER, U.S. ARMY 
SPACE AND MISSILE DEFENSE COMMAND/ARMY FORCES STRATEGIC COMMAND

    General Formica. Good afternoon, Mr. Chairman, and again 
thank you for your ongoing support of our soldiers, civilians, 
and families. I appear today as the Commander of the Army's 
Space and Missile Defense Command and Army Forces Strategic 
Command. I'm honored to testify before this committee. You've 
been a strong supporter of the Army and the key capabilities 
that space affords our warfighters and we value your continued 
support.
    My purpose today is to inform the committee about the Army 
as a user of space capabilities, to summarize the Army's space 
strategy and policy, and to discuss the space capabilities 
provided by the Army. These are provided in more detail in my 
written statement which was prepared and provided for the 
record. I'll briefly summarize those three, sir.
    As a user of space capabilities, the Army depends on 
position, navigation, timing, communications, ISR, assured 
missile warning, and weather. The space-based services are 
critical enablers to our forces and assured access to space-
based capabilities is a critical element in the Army's ability 
to shoot, move, and communicate. While we may face localized 
tactical disruptions, our Army does not want to face a day 
without space-based capabilities.
    The Army's space policy and strategic plan provide our 
priorities and equities for space capabilities and forces. Our 
focus is on leveraging DOD and national space assets in 
partnership with the joint community to provide assured access 
of space-based capabilities in support of full-spectrum 
operations.
    The Army provides critical space capabilities for the 
combatant commanders and to the warfighter. In our space role, 
we have three core tasks: providing trained and ready space 
forces and capabilities to combatant commanders and to the 
warfighter; building future space forces; and researching, 
developing, testing, and integrating future space capabilities.
    Our command is uniquely organized in the Army to perform 
these three tasks, with operations, capability development, and 
materiel development functions. We are also geographically 
well-positioned in Huntsville, AL, and Colorado Springs, CO, to 
capitalize on the tech bases there. Our space capabilities are 
positioned in 14 other locations around the globe to accomplish 
these 3 core tasks.
    In conclusion, the Army is critically dependent upon the 
capabilities that space brings to the battlefield and seeks 
assured access to those capabilities. I appreciate the 
opportunity to speak on these important matters and I look 
forward to your questions.
    Thank you.
    [The prepared statement of General Formica follows:]
           Prepared Statement by LTG Richard P. Formica, USA
                              introduction
    Mr. Chairman, Ranking Member Sessions, and distinguished members of 
the subcommittee, thank you for your ongoing support of our soldiers, 
civilians, and families, as well as the opportunity to testify before 
this panel. This marks my first appearance before the Strategic Forces 
Subcommittee of the Senate Armed Services Committee, a body that has 
been a strong supporter of the Army and the key capabilities that space 
affords our warfighters. Your continued support is important as we 
pursue our joint efforts to provide critical space capabilities in 
support of our Nation, our fighting forces, and our allies.
    In my current assignment, I wear three hats: first, as the 
commander of the U.S. Army Space and Missile Defense Command, I have 
Title 10 responsibilities to train, maintain, and equip space and 
missile defense forces for the Army. Second, as the Army Forces 
Strategic Command, I am the Army Service Component Commander (ASCC) to 
the U.S. Strategic Command (STRATCOM) charged with the responsibility 
for planning, integrating, and coordinating Army forces and 
capabilities in support of strategic missions. Third, I serve as 
STRATCOM's Commander of the Joint Functional Component Command for 
Integrated Missile Defense (JFCC-IMD) in order to leverage the 
capabilities and skill sets of U.S. Army Space and Missile Defense 
Command/Army Forces Strategic Command (ASMDC/ARSTRAT).
    In my role here today as the Commander of ASMDC/ARSTRAT and the 
ASCC to STRATCOM, I am honored to testify before you with these 
distinguished witnesses--all providers of critical space capabilities 
to the warfighter and as essential contributors to the joint space 
planning process and our Nation's continued advances to effectively 
operate in space. Within the Army, space operations and space-related 
activities are pursued as an enterprise and are not the exclusive 
domain of the ASMDC/ARSTRAT or any other single branch or functional 
proponent.
    My purpose today is to outline the Army as a user of space 
capabilities; to articulate the Army's space strategy and policy; and 
to inform the committee about the Army as a provider of space 
capabilities.
                the army as a user of space capabilities
    As America's principal land force, our Army must be organized, 
trained, and equipped to provide responsive and sustained combat 
operations in order to fight as a joint team and to respond, as 
directed, to crises at home and abroad. Geopolitical uncertainties and 
nearly a decade of continuous combat have necessitated a high degree of 
operational adaptability. The Army's Operating Concept identifies six 
warfighting functional concepts that contribute to operational 
adaptability: mission command, movement and maneuver, intelligence, 
protection, fires, and sustainment. Space-based capabilities leveraged 
and employed across the Army Space enterprise enable each of these 
warfighting functions. Simply put, space-based capabilities are 
critical elements to the Army's ability to shoot, move, and 
communicate.
    The Army is reliant on space-based systems, such as global 
positioning satellites, communication satellites, weather satellites, 
and intelligence collection platforms. They are critical enablers to 
our ability to plan, communicate, navigate, and maintain battlefield 
situational awareness, engage the enemy, provide missile warning, and 
protect and sustain our forces. For example, the Army is dependent on 
the DOD's Defense Weather Satellite System capabilities to meet its 
military weather forecasting requirements. The Army continuously works 
with the Air Force to define our requirements in order to ensure future 
warfighters have access to essential weather data. Most of these 
services are so well integrated into weapon systems and support 
processes that Soldiers are unaware of the space connection. This 
seamless integration is due in large part to the coordination and 
cooperation of space professionals at the Air Force Space Command, 
STRATCOM's Joint Functional Component Command for Space, the Navy, the 
Army, and other Department of Defense (DOD) and joint agencies.
    The Army's unrelenting dependency on space-based capabilities 
requires active participation in defining space-related capability 
needs. The identified needs serve to ensure necessary joint force 
structure, systems, and concept of operations are developed and 
acquired, thereby enabling the land force to conduct the full range of 
military operations now and in the future.
    Ensuring tactical and assured access to space is our focus--
reassuring the requisite capabilities and effects are delivered to the 
tactical warfighter on time, every time demands that our space 
capabilities and architectures become more resilient against attacks 
and disruption. We must ensure that our Army does not face a day 
without space and space-related capabilities.
               the army's space policy and strategic plan
    The Army Space Policy, most recently updated in 2009, focuses on 
the operational and tactical needs of land forces and assigns space 
related Army organizational responsibilities. It follows implemented 
DOD space policies and procedures, reestablishes objectives for Army 
space, and continues the Army Space Council. The Army's Space Policy 
outlines four broad space related objectives:

        <bullet> To maximize the effectiveness of current space 
        capabilities in support of operational and tactical land 
        warfighting needs.
        <bullet> To influence the design, development, acquisition, and 
        concepts of operation of future space systems that enable and 
        enhance current and future land forces.
        <bullet> To advance the development and effective use of 
        responsive, timely, and assured joint interoperable space 
        capabilities.
        <bullet> To seamlessly integrate relevant space capabilities 
        into the operating force.

    The Army recently drafted its Army Space Strategic Plan, which is 
in final coordination with the Chief of Staff of the Army. This 
document is shaped by national level guidance, such as the National 
Space Policy and the National Security Space Strategy. The draft plan, 
coupled with the Army's Space Policy, outlines the Army's space 
enterprise path for strategic planning, programming, and resourcing.
    The essence of our space strategy and the guiding vision of the 
Army space enterprise are to assure access to resilient and relevant 
space-enabled capabilities to ensure Army forces can conduct full 
spectrum operations. To achieve this, our draft space strategy rests on 
three tenets that link Army strategic planning and programming for 
space to the guidance in national and DOD space policy and strategy. 
The three essential tenets are:

        <bullet> To enable the Army's enduring mission by providing 
        requisite space-enabled capabilities to support current 
        operations, as well as future transformation efforts.
        <bullet> To leverage existing DOD, national, commercial, and 
        international space-based capabilities.
        <bullet> To pursue cross-domain solutions to create a resilient 
        architecture to mitigate threats, vulnerabilities, and assure 
        access to critical capabilities needed to sustain land force 
        operations.

               the army--a provider of space capabilities
    The Army is a provider of space capabilities. Historically, our 
greatest investment in space capabilities has been in the ground 
segment--the integration of space capabilities into operational forces 
through command and control systems, communication terminals, and 
intelligence feeds. However, due to the critical importance of space 
capabilities, the Army has strengthened and broadened its investment to 
include exploitation of national and strategic space capabilities, 
defensive counterspace, leveraging the capabilities of space to enhance 
missile defense systems, and training and development of space 
professionals and space enablers.
    In 2012, the Army plans to invest approximately $500 million in 
pursuing space and space-related activities, evolving from a position 
of simply exploiting strategic space-based capabilities to a position 
where the Army is fully integrated into the planning, development, and 
use of theater-focused operational and tactical space applications.
    ASMDC/ARSTRAT is the Army's space proponent, and coordinates with 
the Army Intelligence and Signal communities, STRATCOM, and other 
members of the joint community to bring space-based capabilities to the 
warfighter. ASMDC/ARSTRAT is at the forefront--providing trained and 
ready space forces and capabilities to the combatant commanders and the 
warfighter and building future space forces. Aside from delivering and 
integrating space products and trained professionals to joint 
warfighter operations, ASMDC/ARSTRAT also conducts space mission 
related research and development activities. I would like to highlight 
our space provider role within three core tasks: providing trained and 
ready space forces and capabilities to the combatant commanders and the 
warfighter; building future space forces; and researching, developing, 
testing, and integrating future space capabilities.
Providing Trained and Ready Space Forces and Capabilities
    Over 1,100 soldiers and civilians serving with ASMDC/ARSTRAT's 1st 
Space Brigade provide access to products and services that are 
essential in all phases of combat operations. The brigade's three 
battalions, comprised of Active, National Guard, and Reserve soldiers, 
support combatant commanders by providing satellite communications, 
space operations, missile warning, and forward deployed space support 
teams. These Space Operations Officers, along with members of the 
Army's Space Cadre, directly influence the execution of strategic 
operations in support of tactical level ground maneuver forces. Their 
principal duties include planning, developing, resourcing, acquiring, 
integrating, and operating space forces, systems, concepts, 
applications, or capabilities in any element of the DOD space mission 
areas.
    During the 1990s, realizing the essential need of space 
professionals, the Army created Functional Area (FA) 40--Space 
Operations Officers--within our commissioned officer corps. ASMDC/
ARSTRAT is the Army's personnel developer for FA 40 officers. The 
approximately 300 FA 40s serve in Army, joint, and DOD commands and 
organizations across all echelons--tactical, operational, and 
strategic. The Army's Space Cadre, initiated in 2007, is comprised of 
both military and civilian personnel who represent the Army's interests 
in space operations, policy, science and technology, and acquisition. 
The Cadre consists of soldiers and civilians from a wide variety of 
branches, career fields, disciplines, and functional areas.
    As part of the DOD overarching effort, the Army has integrated 
Space Operations Officers into the Office of the Secretary of Defense, 
the Joint Staff, the Air Staff, the North American Aerospace Defense 
Command, the Air Force Space Command, and other space focused 
organizations and academic institutions. In each of these 
organizations, personnel not only provide the Army perspective of space 
related capabilities, they articulate requirements from an operational 
standpoint in the joint and combined environments. A summary of the 
critical space capabilities provided by Army's space professionals is 
highlighted below.

        <bullet> Army Space Support Teams: During operations, including 
        those in Afghanistan and Iraq, the ASMDC/ARSTRAT's Army Space 
        Support Teams continuously provide space-based products and 
        services to combatant commanders and other international 
        government agencies. The teams are on-the-ground space experts, 
        pulling key commercial imagery, forecasting the impact of space 
        weather, and providing responsive space support to their units. 
        Just last month, 3 new teams deployed to theater to provide 
        their capabilities for the next 9 months--60 teams have now 
        provided invaluable on-the-ground responsive expertise to 
        combatant commanders and the warfighter in Afghanistan and 
        Iraq.
        <bullet> Satellite Communication Support Centers: ASMDC/ARSTRAT 
        provides and operates the DOD's Regional Satellite 
        Communications Support Centers and Wideband Satellite 
        Communications Operations Centers, located both in the United 
        States and overseas. These centers are the regional management 
        hubs for a majority of the DOD's satellite communications 
        capabilities, providing reliable and responsive support. In 
        close partnership with our Air Force and Navy partners, we 
        ensure essential communications lifelines are available to our 
        ground, air, and sea forces, as well as the diplomatic corps 
        around the world.
        <bullet> Friendly Force Tracking: Situational awareness is 
        particularly vital given the challenges of conducting 
        operations in urban areas. As the Army has the greatest number 
        of warfighters and systems to track on the battlefield, our 
        Friendly Force Tracking assets help deliver timely situational 
        awareness and identify friendly forces during combat. In 
        support of Operation Tomodachi, we provided the friendly force 
        tracking architecture that enabled the U.S. Forces Japan and 
        the U.S. Pacific Command to see its ground support elements via 
        a common operational picture.
        <bullet> Ballistic Missile Early Warning: Critical to the Joint 
        Force Commander's theater force protection, the Army provides 
        ballistic missile early warning and missile defense support 
        from within the theater or region. The 1st Space Brigade's 
        Joint Tactical Ground Stations (JTAGS) Detachments, operated by 
        Army personnel, monitor enemy missile launch activity and other 
        infrared events of interest and share the information with 
        members of the air and missile defense and operational 
        communities. Presently, our JTAGS Detachments are forward-
        stationed across the globe, providing assured missile warning 
        to theater commanders and joint warfighters.
        <bullet> Geospatial Intelligence Support: The Army, as an 
        operational element of the National System for Geospatial-
        Intelligence, provides geospatial intelligence production in 
        direct support of the combatant commands. The Army's space and 
        intelligence experts perform exploitation of a variety of 
        commercial, civil, and DOD imagery data derived from space and 
        airborne sources. Current support includes providing imagery to 
        U.S. Africa Command in support of contingency operations in 
        Libya, as well as imagery and exploitation products to U.S. 
        Pacific Command regarding the extent of damage to the Fukushima 
        nuclear power site in Japan. Additionally, they aid in the 
        exploration of emerging spectral system technologies and in 
        transitioning new capabilities to the warfighter.
        <bullet> Operations Reach-back Support and Services: The ASMDC/
        ARSTRAT Operations Center, located at Peterson Air Force Base 
        in Colorado Springs, CO, provides reach-back support for our 
        space experts deployed throughout the operational force and 
        allows us to reduce our forward-deployed footprint. This center 
        maintains constant situational awareness of deployed elements, 
        continuously responds to requests for information, and provides 
        the essential reach-back system of connectivity with technical 
        subject matter experts.
        <bullet> Tactical Exploitation of National Capabilities: The 
        Army Special Program Office is the Army focal point for the 
        exploitation of national intelligence, surveillance, and 
        reconnaissance assets and products through the Tactical 
        Exploitation of National Capabilities program. The Army is 
        fully integrated into the National Reconnaissance Office and 
        the Intelligence Community and has numerous deployed units 
        providing support throughout the intelligence battalions and 
        brigades.
        <bullet> Strategic Space Surveillance: The Army also operates 
        facilities and assets that are of upmost importance to 
        advancing the Nation's use of space. The U.S. Army Kwajalein 
        Atoll/Reagan Test Site (RTS), located in the Marshall Islands, 
        is a national asset that provides unique capabilities to 
        monitor objects in deep space. The RTS maintains a vigilant 
        watch, providing critical space situational awareness and 
        contributing to a variety of missions.

Building Future Space Forces
    The Army uses established and emerging processes to document its 
space-based needs and pursue Army and joint validation of its 
requirements. This disciplined approach helps ensure limited resources 
are applied where warfighter operational utility can be most 
effectively served. We continue to pursue and develop the necessary 
adaptability across the Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel, and Facilities (DOTMLPF) to 
mitigate threats and vulnerabilities while sustaining land force 
operations. Within the DOTMLPF combat development arena, the Army has 
focused tremendous efforts on the development of our space 
professionals. For example, the Army Space Personnel Development Office 
develops policies, procedures, and metrics for the Army Space Cadre and 
executes the life-cycle management functions of FA 40 Space Operations 
Officers ensuring the Army has trained personnel to meet national 
security space needs. Without well-trained and motivated Army soldiers 
and civilians, we cannot maintain our advantage on the battlefield that 
our Nation's space superiority affords us.
    To properly train space professionals, the Army developed the Space 
Operations Officer Qualification Course and the Army Space Cadre Basic 
Course. These two courses provide the necessary foundation for the 
Space Cadre. The Army also leverages the high-quality space training 
developed and administrated by the Air Force. Finally, numerous space 
officers complete additional post-graduate studies at the Naval 
Postgraduate School, accredited civilian institutions, and training 
with industry. The Army is committed to growing, training, developing, 
tutoring, and advancing space professionals.
Researching, Developing, Testing, and Integrating Future Space 
        Capabilities
    The Army is an instrumental joint partner in addressing tomorrow's 
space requirements to ensure land warfare dominance. Each year, the 
Army plans and programs funding for space related technology research 
and development. Despite the current and projected resource constrained 
environment, the Army recognizes the need to prioritize, leverage, and 
invest in promising space research and development technologies. I 
would like to briefly highlight three technology endeavors that have 
potential to provide space support to the ground warfighter.

        <bullet> Space and Missile Defense Command--Operational 
        Nanosatellite Effect: To achieve enhanced capabilities for the 
        warfighter from space, an approach that holds great promise is 
        the deployment of constellations of very small satellites into 
        low earth orbit. The Space and Missile Defense Command-
        Operational Nanosatellite Effect is an initiative to meet 
        specific Army space related operational needs via the use of 
        nanosatellites. The Army recently built eight, nine-pound 
        satellites for use in a technology demonstration. The first of 
        these nanosatellites was placed into low earth orbit last 
        December. This marked the first launch of an Army designed and 
        manufactured satellite in more than 50 years. The primary 
        objective was to receive data from a ground transmitter and 
        relay that data to a ground station. The demonstration was 
        successful and offers evidence that the means may be available 
        to provide the Army--the largest user of space data--with an 
        ability to economically provide non-line of sight sensor data 
        from non-permissive environments to remote located soldiers.
        <bullet> Kestrel Eye: Kestrel Eye is an Army endeavor to 
        manufacture a small imaging satellite that will provide near 
        real-time, medium resolution imagery to the tactical 
        warfighter. Since its manufacturing costs will be relatively 
        inexpensive, Kestrel Eye may have the ability to be robustly 
        deployed into orbit, providing a potential solution to present 
        existing imagery needs to tactical forces. The satellite is 
        designed for operational theater command capabilities, 
        providing dedicated space-based support to the tactical 
        commander. Kestrel Eye is scheduled for its initial launch in 
        2012.
        <bullet> Vertical/Horizontal Integration of Space Technologies 
        and Applications: We are successfully progressing in a 
        technology demonstration to integrate space-based data into our 
        ground forces at the tactical level. The Vertical/Horizontal 
        Integration of Space Technologies and Applications (VISTA) 
        provides the capability to seamlessly distribute relevant space 
        developed products and services to all levels of Army battle 
        command--from corps and theater needs to the specific needs of 
        individual warfighters. The capability to identify what 
        specific pieces of space-developed information are relevant to 
        individual warfighters is a key component of VISTA's support 
        capability.
                               conclusion
    The Army is dependent upon the capabilities that space brings to 
the battlefield--space is the ultimate high ground. Space capabilities 
continue to be inextricably linked to warfighting. In present and 
future conflicts, we rely on and advocate for space products and 
services provided by the DOD, other government agencies, our allies and 
coalition partners, and commercial entities to shoot, move, and 
communicate. The Army will continue to provide trained and ready space 
forces and capabilities to the combatant commanders and the warfighter, 
build future space forces, and research, develop, test, and integrate 
future space capabilities. Fully integrated capabilities will provide 
depth, persistence, and reach capabilities for commanders at the 
strategic, operational, and tactical levels. Assured space systems and 
well-trained and experienced space professionals significantly reduce 
the fog, friction, and uncertainty of warfare. The Army depends on 
space for everything we do in our military operations. This committee's 
continued support is essential in enabling us to maintain and further 
improve our space capabilities and provide the best-trained space 
professionals to combatant commanders. The courageous warfighters that 
serve to protect the safety and welfare of our Nation deserve nothing 
less.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
committee members may have. Secure the High Ground and Army Strong!

    Senator Nelson. Senator Sessions, what we've done is we've 
started the 2-minute comments summarizing their testimonies. We 
have three more, so then we're open for your opening comments.
    Admiral Titley.

   STATEMENT OF RADM DAVID W. TITLEY, USN, OCEANOGRAPHER AND 
NAVIGATOR OF THE NAVY, DIRECTOR, MARITIME DOMAIN AWARENESS AND 
                             SPACE

    Admiral Titley. Good afternoon, Mr. Chairman, Senator 
Sessions. I'm honored to appear before you today on behalf of 
our Nation's sailors to address your Navy's space activities. 
The Navy is critically dependent on space to meet our maritime 
strategy's demands for a flexible, interoperable, and secure 
global communications capability to support the command and 
control requirements of highly mobile, geographically 
dispersed, U.S., joint, and coalition forces.
    Our Navy's interests in space include communications, ISR, 
positioning, navigation, timing, missile warning, and 
meteorology and oceanography capabilities.
    The Navy expects the demand for space capabilities to grow 
in the future, especially in the area of space communications. 
Our major space contribution to the joint community is the UHF 
narrowband SATCOM constellation. Beginning in 2012, the new 
system, MUOS, will begin to replace those legacy UHF systems.
    Timely delivery of MUOS is a high priority for the Navy and 
our fiscal year 2012 budget submission continues our investment 
in this vital warfighting capability.
    In closing, sir, I would like to reiterate that space 
capabilities will continue to be critical to our Nation's 
success in the maritime domain. As the recently-signed Navy 
space strategy states: ``Space provides the ultimate crow's 
nest for maritime operations.''
    Thank you, sir, and I look forward to answering any 
questions you or Senator Sessions may have.
    Senator Nelson. Thank you.
    General Hyten and then General Shelton.

  STATEMENT OF MAJ. GEN. JOHN E. HYTEN, USAF, DIRECTOR, SPACE 
 PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE 
                        FOR ACQUISITION

    General Hyten. Chairman Nelson, Senator Sessions, it's an 
honor for me to be here today representing the thousands of men 
and women involved in the Air Force space acquisition business. 
It is undeniable that the Air Force has experienced significant 
challenges controlling cost, schedule, and performance in our 
space acquisition programs over the last decade. We acknowledge 
this and we understand that we must improve our acquisition 
practices to both continue to deliver the critical capabilities 
our warfighters need while at the same time achieving better 
value for the taxpayers. Mission assurance remains fundamental 
to what we do, but not at any cost.
    We believe we've taken important steps to recapture space 
acquisition excellence. We are finally finishing the 
development phase of many of our programs, delivering new 
capabilities, and moving into more stable production. We are 
placing new and additional emphasis on efficient space 
procurement that includes new acquisition strategies for 
acquiring space and launch vehicles included in our fiscal year 
2012 budget submission.
    We are working to stabilize funding requirements and 
personnel to ensure programs are more affordable, executable, 
and delivered as planned. This is hard work and it's going to 
take time for these changes to have measurable impact on 
performance. Nonetheless, we're confident that the space 
acquisition community is moving in the right direction and 
creating a fundamentally different space acquisition culture.
    Again, let me express my thanks and appreciation to the 
members and staff of this subcommittee for your continued and 
dedicated support of our space capabilities. More importantly, 
thanks to our soldiers, sailors, airmen, and marines. I also 
look forward to answering your questions, sir. Thank you very 
much.
    Senator Nelson. Thank you, General.
    [The prepared statement of General Hyten follows:]
          Prepared Statement by Maj. Gen. John E. Hyten, USAF
                            i. introduction
    Chairman Nelson, Senator Sessions, distinguished members of the 
subcommittee; I'm honored to be in front of you to discuss a 
challenging but exciting topic: space acquisition. I'm also honored to 
be with these leaders of the National Security Space Enterprise 
including members of other Services, displaying the inherent joint 
nature of space. This subcommittee oversees some of the most important 
aspects of our national security--nuclear weapons, ballistic missile 
defense, and our space programs. I want to thank you for everything 
that you do for our airmen and, specifically, our space cadre.
                  ii. challenges in space acquisition
    It is well documented that the Air Force has experienced 
significant challenges controlling cost, schedule, and performance of 
space acquisition programs over the last decade. We were often 
criticized for ``over reaching'' on space programs. The developmental 
systems promised giant single-step leaps in technology, but often over 
ran program budgets and failed to meet requirements in a timely manner. 
I acknowledge these challenges as areas where the Air Force needs to 
improve our acquisition practices to deliver better capabilities to the 
warfighter while achieving better value for the taxpayer. We have not 
ignored these challenges; rather, we have taken important steps to 
recapture space acquisition excellence.
    Over the last year, the Air Force made both structural and 
strategic changes improving space acquisition. Structurally, my Space 
Directorate was recently moved back under the Air Force Assistant 
Secretary for Acquisition better aligning space acquisition policies 
and programs with those of the greater Air Force. This move 
consolidates all Air Force programs under one Service Acquisition 
Executive providing better oversight of the full Air Force acquisition 
portfolio. The new organization also optimizes total obligation 
authority and allows greater funding flexibility to manage all Air 
Force systems. Air Force acquisition can now provide an integrated, 
balanced Service position toward our investments in weapon systems 
acquisitions.
    In addition, we are placing new and additional emphasis on 
Efficient Space Procurement that includes new acquisition strategies 
for acquiring space and launch vehicles in the fiscal year 2012 PB. One 
element, the Evolutionary Acquisition for Space Efficiency (EASE) 
approach for procuring satellites employs the following key tenets: 
block buys of satellites, fixed-price contracting, stable research and 
development investment, and a modified full funding approach. Block 
buys and fixed-price contracts are key tenets to bring satellite unit 
costs down and reinvest realized savings in research and development 
for next generation capabilities. The modified funding approach enables 
affordability of the block buys by funding the satellite procurement 
over multiple years--specifically, under EASE, we plan to fully fund 
our satellite procurements by using advance appropriations. The Air 
Force envisions implementing the EASE approach to drive down costs, 
improve stability in the fragile space industrial base, and invest in 
advanced technology development and critical capabilities to lower risk 
for future programs. We appreciate the dialogue we've already had with 
your staff on EASE and look forward to working with the committee 
further, as needed.
    The National Security Space enterprise couldn't reach space without 
our reliable launch capability. The Evolved Expendable Launch Vehicle 
(EELV) launch systems have a record of unparalleled success since the 
first launch in 2002. The Air Force recently completed the 40th 
consecutive successful launch of EELV, demonstrating our continuing 
commitment to assured access to space. In a separate and distinct 
acquisition strategy, the Air Force is proposing a block buy approach 
for the EELV program. If approved, the National Security Space 
enterprise would commit to block buys of at least eight launch vehicle 
cores per year to stabilize launch industrial base production rates and 
control launch cost. We will also support competition from vendors with 
proven capabilities. Our revised EELV acquisition strategy will include 
a new entrant approach that we are coordinating with the National 
Reconnaissance Office and National Aeronautics and Space 
Administration. Future competition could further drive cost savings and 
enhance the domestic industrial base and our operational flexibility. 
However, we must still closely scrutinize mission assurance practices 
to ensure we are safely and reliably getting our valuable space assets 
to orbit.
    In both strategies, the Air Force is working to stabilize funding, 
requirements, and personnel to ensure programs are more affordable, 
executable, and delivered as planned. Again, we want to attain better 
capabilities for the warfighter while achieving better value for the 
taxpayer.
         iii. completed development and launch of space systems
    Despite the challenges encountered in space program development, 
our resilient workforce has persevered ensuring the warfighter receives 
greater capability in key mission areas. Over the past year, we have 
completed development of essential, first-of-their-generation systems. 
Just last week, we achieved the launch of the first Space Based 
Infrared System (SBIRS) Geostationary Earth Orbit (GEO) satellite to 
enhance our Overhead Persistent Infrared capability. The SBIRS GEO 
system will provide improved infrared capabilities with a faster 
revisit scanning rate and greater sensitivity than the legacy Defense 
Support Program system. Moreover, with a taskable staring capability, 
it will provide higher fidelity and persistent coverage for areas of 
interest.
    Last September, we launched the Space-Based Space Surveillance 
(SBSS) Block 10 system to enhance awareness of deep space objects of 
interest for safety of flight, threat detection, and warning. SBSS 
Block 10 significantly improves the timeliness of data on space objects 
in transit to deep space orbits. This satellite is currently in 
operation and is exceeding performance expectations, demonstrating 
excellent focus, high stability, and superb photometric sensitivity.
    This past August, the Air Force launched the first Advanced 
Extremely High Frequency (AEHF) satellite. While we encountered initial 
issues with the propulsion system, the team revised the orbit-raising 
plan and has been successful in executing this plan to achieve the 
required on-orbit design life. The AEHF team's dedication and resolve 
is a testament to government and industry space team cooperation. AEHF 
satellites accommodate ten times the throughput and greater than five 
times the data rate of the current Military Strategic and Tactical 
Relay II Satellite Communication System.
    Finally, in May 2010, we launched the first of 12 Global 
Positioning Satellite (GPS) IIF satellites that will broadcast a third 
civil signal, in addition to legacy signals provided. These satellites 
will sustain a healthy, but aging, GPS constellation providing 
ubiquitous position, navigation, and timing capabilities for military 
and civil users.
                   iv. modernizing our mission areas
    While the Air Force provides new space capability for the joint 
warfighter today, we are keeping an eye on the needs of the future and 
developing the next generation systems to meet those requirements. For 
example, the GPS III program is progressing on schedule to deliver the 
first IIIA satellite in 2014. The next generation of GPS will deliver 
significant enhancements including better anti-jam capabilities, a 
Galileo-compatible L1C civil signal, and improved accuracy, 
availability and integrity. The GPS IIIA program received its Milestone 
C approval in January 2011, following a very successful Critical Design 
Review--2 months ahead of schedule. The program office is also 
advancing the Next Generation Control Segment and Military GPS User 
Equipment programs.
    Regarding defense space weather, the DOD approved a plan to modify 
the existing National Polar-orbiting Operational Environmental 
Satellite System contract to procure two Defense Weather Satellite 
System spacecraft for the early-morning orbit, with the first launch 
planned for 2018. This system will replace the Defense Meteorological 
Satellite Program in the early-morning orbit, ensuring continuity of 
detailed overhead weather imagery and sensing information.
    In the space situational awareness mission area, the Air Force 
awarded two Space Fence contracts early in 2011 for Phase A development 
leading to a Preliminary Design Review in early 2012. Ultimately, the 
Space Fence will replace the Air Force Space Surveillance System, which 
is rapidly becoming unsustainable. The two ground-based radar sites 
comprising the Space Fence will provide timely information on launch 
detection, maneuvers and breakups to support protection of space 
assets. We are also seeking international cooperation on the Space 
Fence program through establishment of a space situational awareness 
(SSA) partnership with Australia to jointly employ and operate a site 
in Australia. This partnership will establish a foundation for 
continuing nation-to-nation cooperation.
    Similar to efforts on the Space Fence program, the Air Force is 
taking steps on international partnerships in our Wideband Global 
SATCOM (WGS). In addition to providing critical communications 
capabilities, WGS has also become the keystone for international 
cooperation measures in space, with our Australian allies funding WGS-6 
in return for a portion of the overall bandwidth. In accordance with 
the National Security Space Strategy, the Air Force is pursuing other 
international agreements to further expand space-based communication 
capability through the procurement of a ninth WGS satellite.
    Finally, as discussed earlier, we are proposing the EASE strategy 
for procurement of AEHF satellites five and six in fiscal year 2012 and 
SBIRS GEO satellites five and six in fiscal year 2013. These 
procurements will enhance our protected communications and overhead 
persistent infrared mission areas, respectively.
            v. fundamentally changing the way we do business
    To effectively modernize our space systems, the Air Force must 
fundamentally change the way we do business in space acquisition and 
incorporate these changes into our strategies going forward. We have 
already made adjustments by adopting a ``Back to Basics'' approach to 
space system procurement, which ensures more rigorous systems 
engineering and program management enacted early in development and 
maintained throughout its lifecycle. ``Back to Basics'' focuses on: 
mission success through clear and achievable requirements; disciplined 
systems engineering; proven technology; and appropriate resourcing. The 
Air Force has also implemented the Acquisition Improvement Plan to 
establish an experienced, skilled, empowered, and accountable 
workforce, and ensure proper requirements and adequate and stable 
funding. Improvement of acquisition processes and training of our 
personnel is essential to the success of space system development.
    As we incorporate these changes, it is critical that space 
acquisition professionals gain a better understanding of the business 
principles behind system development and procurement. Mission assurance 
is fundamental, but not at any cost. Not only do we have a 
responsibility to the warfighter in achieving better capability, we 
also have an equal responsibility to the taxpayer in achieving better 
value. Striking that balance is essential to acquiring affordable 
systems for the future. These fundamental shifts in acquisition 
perspective require a considerable culture change in our space 
acquisition workforce. It will take time for these changes to have 
measured impact on performance, but I'm confident the space acquisition 
community is moving in the right direction.
                             vi. conclusion
    The Air Force has been, and continues to be, committed to achieving 
excellence in space acquisitions. Our effort in refining acquisition 
practices and proposing efficiency initiatives coupled with our work to 
modernize and recapitalize the space inventory exemplifies our 
dedication to supporting the Nation's national security space 
objectives. The Air Force fiscal year 2012 budget reflects that 
commitment as we seek to maintain critical space capabilities for our 
Nation and our warfighters.
    I am grateful for the continued and dedicated support of the space 
capabilities we provide for this Nation and the service of each member 
of this committee. I look forward to answering your questions.

  STATEMENT OF GEN. WILLIAM L. SHELTON, USAF, COMMANDER, AIR 
                      FORCE SPACE COMMAND

    General Shelton. Mr. Chairman, Senator Sessions, it's a 
true honor for me to appear before you today as the Commander 
of AFSPC. I'm also honored to appear with these distinguished 
witnesses, and I'd like to also publicly congratulate Susan 
Helms on her induction into the Astronaut Hall of Fame. Her 
people launched SBIRS last Saturday and then shortly after that 
she was inducted into the Hall of Fame, so all around not a bad 
Saturday for the Helms household. I'm fortunate to have this 
talented officer and role model in my command.
    In AFSPC, I am privileged to lead over 46,000 Active Duty, 
Guard, and Reserve airmen, government civilians, and 
contractors who deliver space and cyberspace capabilities 
around the world for our Nation. AFSPC space and cyberspace 
capabilities are integral to the joint fight. Our professionals 
work extremely hard to continually ensure excellence and 
mission success in global combat as well as humanitarian 
operations, ranging from Afghanistan and Libya to Japan.
    I thank the committee for your continued and steadfast 
support of AFSPC and the capabilities we provide for this 
Nation. I look forward to your questions. Thank you, sir.
    [The prepared statement of General Shelton follows:]
          Prepared Statement by Gen. William L. Shelton, USAF
                              introduction
    Mr. Chairman, Senator Sessions, and distinguished members of the 
subcommittee, it is my honor to appear before you today as the 
Commander of Air Force Space Command (AFSPC).
    I am privileged to lead over 46,000 Active Duty, Guard, and Reserve 
airmen; government civilians; and contractors delivering space and 
cyberspace capabilities around the world for our Nation. The men and 
women of AFSPC accomplish our mission at 84 worldwide locations, yet we 
operate in domains where borders are often indiscernible. AFSPC space 
and cyberspace capabilities are integral to the Joint fight and our 
professionals continually ensure excellence and mission success.
    Based on the unique responsibilities of the Command, I have 
established three priorities. First, AFSPC must support the Joint 
fight. We are focused on supporting our deployed compatriots with our 
best efforts, and we will not fail them. Second, we must address space 
system costs and deliver capabilities on time and on budget. In a very 
constrained budget environment, it is essential that we drive down 
costs to maximize our buying power. Finally, for the purposes of 
organizing, training and equipping, we must operationalize and 
normalize cyberspace to conduct Air Force operations. Cyberspace cuts 
across the spectrum of military operations; therefore, it is imperative 
that Airmen understand the special requirements and operational 
considerations of cyberspace. As the lead Air Force Major Command for 
cyberspace, we will continue to work with other Major Commands to 
ensure we have the same level of rigor which has served the Air Force 
well in air and space.
    I look forward to a strong and mutually supportive working 
relationship with the subcommittee as we seek to deliver critical space 
and cyberspace capability to our forces. Likewise, I am committed to 
working with our space and cyberspace partners, including U.S. 
Strategic Command (STRATCOM), U.S. Cyber Command (CYBERCOM), the 
National Reconnaissance Office (NRO) and the National Aeronautics and 
Space Administration (NASA), to advance our collective interests.
              moral obligation to support the joint fight
    I strongly believe we have a moral obligation to do everything in 
our power to provide outstanding support to our brothers and sisters in 
arms who are in harm's way. Whatever we can do operationally, whatever 
we can procure that would make their task easier and bring them home 
safely, we will pursue. In that vein, AFSPC has many capabilities which 
are central to today's fight, and we are posturing these systems to be 
even more capable in the future. The President's fiscal year 2012 
budget requests $12.1 billion for AFSPC to field and operate vital 
space systems and critical cyberspace capabilities.
Positioning, Navigation, and Timing (PNT)
    As stewards of the world's ``gold standard'' for PNT information, 
AFSPC is significantly improving the Global Positioning System (GPS) 
for military and civilian users alike. This past January, we completed 
the first of a two-phased operation called ``Expandable 24,'' the 
largest satellite repositioning effort in GPS program history. This 
operation was planned and executed under the outstanding leadership of 
Lieutenant Colonel Mike Manor, Captain Dan Highlander, and Captain 
Blake Hajovsky of the second Space Operations Squadron (SOPS) at 
Schriever Air Force Base (AFB), CO. Each phase repositions three 
satellites to optimize terrestrial coverage of the constellation for 
terrain-challenged environments, such as cities and the mountains and 
valleys of Afghanistan.
    The second and final phase of this operation is already underway 
and it is scheduled for completion this summer.
    The fiscal year 2012 budget request of $1.7 billion (Operations and 
Maintenance [O&M]; Research, Development, Test and Engineering [RDT&E]; 
Procurement; and Military Personnel [MILPERS]) also will advance PNT 
capability by procuring and launching upgraded satellites (GPS IIF and 
GPS III), funding a significant upgrade to the operational control 
segment (OCX) and building new Military GPS User Equipment (MGUE). GPS 
III, OCX and MGUE will improve user collaboration, incorporate an 
effects-based approach to operations and establish a net-centric ground 
architecture, thereby accelerating the mission application of 
positioning and timing information.
    Last May, AFSPC launched the first of 12 GPS IIF satellites, which 
provides improved timing technology, a more jam-resistant military 
signal and a higher-powered civilian signal. Captains Vivian Elmo and 
Linda Gostomski, both from our GPS Reserve Associate Unit, 19 SOPS, 
Schriever AFB, CO, led the way as integrators of contractor, booster, 
satellite vehicle and ground network teams to ensure a successful 
launch and on-orbit checkout of this new capability.
Military Satellite Communications (MILSATCOM)
    The demand for satellite communications continues to grow as 
warfighters increasingly depend on information relayed from space, 
especially for today's distributed operations in this era of 
information-enabled warfare. This past June, the first block of 
Wideband Global SATCOM (WGS) satellites became fully operational with 
the acceptance of WGS-3. Launches of the next block of WGS satellites 
(4-6) are planned for 2011-2013, with funding for WGS-6 coming from 
Australia. This partnership is an example of the international 
cooperation envisioned in the National Space Policy and National 
Security Space Strategy. The fiscal year 2012 request includes $481.5 
million (RDT&E and Procurement) for WGS to meet combatant commander 
requirements to deliver voice, data, and imagery, as well as full 
motion video from Remotely Piloted Aircraft (RPA).
    The first satellite in the next generation of protected and 
survivable MILSATCOM, our Advanced Extremely High Frequency (AEHF) 
satellite, was launched last August. Compared to its predecessor, 
Milstar, AEHF will soon provide a 10-fold throughput increase in 
secure, jam-resistant communications for national leaders and combatant 
commanders, as well as support for our international partners including 
Canada, the Netherlands, and United Kingdom.
    While the launch was perfect, a spacecraft propulsion system 
anomaly left AEHF-1 well short of its intended geosynchronous (GEO) 
orbit. A team of experts from the Space and Missile Systems Center 
(SMC), led by Lieutenant General Tom Sheridan and Mr. Dave Madden, 
developed a plan to innovatively use the remaining much smaller 
thrusters to save this vital asset. The team worked around the clock 
addressing the immediate need to conserve fuel, developing the recovery 
plan and demonstrating the recovery could be done safely and 
effectively. Thanks to the outstanding engineering and hard work of 
these space professionals, the AEHF-1 orbit is progressing toward 
geosynchronous altitude and we expect to begin initial testing later 
this year. The budget includes $974.5 million (RDT&E and Procurement) 
in fiscal year 2012 to fund AEHF.
Overhead Persistent Infrared (OPIR)
    Data from the legacy Defense Support Program (DSP), as well as the 
highly elliptical orbit (HEO)-based Space Based Infrared System (SBIRS) 
sensors, provides real-time missile warning and missile defense 
information to national decisionmakers and commanders. Last year, we 
provided the U.S., coalition members and our allies assured warning for 
over 200 missile launches and 4,500 special infrared (IR) events, a 150 
percent increase over 2009. This is due, in part, to the vastly 
improved battlespace awareness capability of the latest HEO payloads. 
To further assist Geographic Combatant Commanders, and in cooperation 
with STRATCOM, we substantially improved our missile warning reporting 
criteria, thanks to the herculean efforts of Captain Christopher 
Castle, First Lieutenant Michael Mariner and Technical Sergeant Michael 
Johns of the 2d Space Warning Squadron, Buckley AFB, CO. This new 
criteria will provide more timely and accurate warning information to 
our entire force.
    The 40th anniversary of the DSP was celebrated in 2010. This 
constellation provides outstanding service to the Nation and Captains 
Barry Croker and Zach Lehmann are creatively finding ways to extend the 
lives of these satellites. They led a team of professionals who have 
developed a series of new system procedures to wring every last drop of 
capability from these assets. The team's actions already are credited 
with forestalling disposal of one of these valuable satellites.
    While DSP has a long history of proven strategic, operational and 
tactical value, we are entering the era of SBIRS GEO, the replacement 
for DSP. Each SBIRS GEO has a staring infrared sensor to allow 
detection of dimmer, faster burning missiles and more accurate missile 
launch and impact point predictions, as well as a scanning sensor that 
covers an entire hemisphere in its field of view. The fiscal year 2012 
budget request includes $1.22 billion (O&M, RDT&E, Procurement and 
MILPERS) to continue the development of additional OPIR capability.
Operationally Responsive Space
    The Operationally Responsive Space (ORS) philosophy seeks to 
rapidly deliver warfighter-demanded capability at reduced cost through 
innovative acquisition approaches with shorter timelines. Last June, 
TacSat-3, a hyperspectral imaging satellite, transitioned from an Air 
Force Research Lab experiment to a warfighter-taskable, Department of 
Defense (DOD)-operated, system in support of Combatant Commands 
(COCOMs) worldwide. TacSat-3 support of the Haitian earthquake recovery 
efforts and the Deepwater Horizon oil spill demonstrated the value of 
hyperspectral imagery, and it is now being used by COCOMs to support 
daily operations. Leading these efforts is Lieutenant Colonel Darren 
Johnson, from the Headquarters AFSPC ORS Division, who deployed to 
Afghanistan as Chief, International Security Assistance Force Space 
Operations. His experience with TacSat-3 expedited theater usage of 
this unique space-based imager for improved location and targeting of 
threats to coalition forces in harm's way.
    The next ORS satellite on the horizon, currently scheduled to 
launch later this spring, is ORS-1 which will support U.S. Central 
Command's (CENTCOM) multispectral imagery needs. The fiscal year 2012 
budget request includes $86.5 million (RDT&E) to develop these ORS 
systems.
Weather
    As part of the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) restructure, AFSPC will support Joint forces 
by developing the Defense Weather Satellite System (DWSS), a fiscal 
year 2012 request of $444.9 million (RDT&E). The acquisition of DWSS 
will maximize NPOESS-developed capabilities to best preserve program 
schedules and reduce costs. DWSS will replace the military's weather 
workhorse, the Defense Meteorological Satellite Program (DMSP), now in 
its sixth decade. We will continue to leverage longstanding 
partnerships with the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA) and NASA as we develop the morning 
orbit satellite to accompany their Joint Polar Satellite System's 
afternoon orbit satellite, on which both defense and civil users rely.
    Currently, DMSP is operated at the NOAA Satellite Operations 
Facility in Maryland with a backup control station operated by 6 SOPS, 
a Reserve unit at Schriever AFB, CO. This blended partnership works 
well for all parties. As an example, in January, an emergency situation 
at NOAA required activation of the backup unit. Within an hour, Major 
Jeremy Edwards and his crew--on hot standby--mobilized and assumed full 
command of all DMSP satellites, continuing delivery of critical 
environmental intelligence information to worldwide forces.
Space--Contested, Congested, and Competitive.
    Space Situational Awareness (SSA)
    As the National Security Space Strategy states, ``space is becoming 
increasingly contested, congested and competitive.'' In light of these 
challenges to the space domain, we must maintain adequate resiliency of 
space capabilities to ensure space-based information delivery and 
access for Joint forces and allies. Foundational to our ability to 
``operate through'' the growing threats is SSA, which is enabled by the 
fusion of Space Surveillance Network (SSN) sensor information at the 
Joint Space Operations Center (JSpOC). Behind the scenes providing this 
capability daily are Space Event Duty Technicians, like Staff Sergeant 
Adrian Cervantes, ensuring the accuracy of the SSA data by working 
closely with fellow space, cyber and intelligence operators. In 2010, 
the JSpOC routinely tracked over 22,000 space objects, an approximately 
10 percent increase in objects from the previous year. Each week JSpOC 
conducts over 7,000 space object conjunction (collision potential) 
screenings which are critically important to the 23 commercial and 
agency partners in the SSA Sharing Program. Last year, there were 126 
collision avoidance maneuvers, a 180 percent increase over 2009, the 
year of the very unfortunate Cosmos and Iridium satellite collision.
    Our ability to maintain leadership in SSA depends on SSN 
modernization and adding increased SSA capability to track smaller 
objects, increase timeliness of revisit rates and mitigate coverage 
gaps. Replacing the Air Force Space Surveillance System, which employs 
a 1960's era Very High Frequency radar, is important to this overall 
objective. The Space Fence and its S-band radar capability will 
significantly aid the detection of smaller objects and provide uncued 
tracking of space objects.
    Last September, the first operational launch of a Minotaur IV 
delivered the Space Based Surveillance System to orbit, the first 
dedicated on-orbit SSA satellite, which provides us the capability to 
track an object, day or night, without weather interference. The 
satellite's first image was taken in October by a team of SMC, one SOPS 
and seven SOPS (Reserve Associate Unit) personnel as part of planned 
calibration and characterization activities, and the initial data is 
superb. Another new potential SSN contributor is the Defense Advanced 
Research Projects Agency's (DARPA) Space Surveillance Telescope (SST), 
based in New Mexico, which is currently undergoing extensive testing. 
SST has the potential to provide AFSPC with new capability to detect 
and track faint space objects at geosynchronous distance.
    Foundational to all the space surveillance architecture 
improvements is ensuring that we have the processing and data fusion 
capabilities to conduct SSA. The JSpOC Mission System, with a fiscal 
year 2012 budget request of $122.1 million (O&M, RDT&E, and 
Procurement) will replace legacy technology with improved data 
processing, integration, visualization and exploitation capabilities. 
Without the capability to receive, process, fuse, and exploit the data 
we receive from SSA sources, we will not meet the challenges of an 
increasingly congested and contested space environment.
    Space Protection Program (SPP)
    SPP continues to inform the national space community by raising 
awareness of space threats and system vulnerabilities, as well as 
identifying material and non-material solutions to mitigate those 
threats. The Air Force's fiscal year 2012 budget request is for $9.8 
million (RDT&E) to continue this work to gain architectural insights 
for the future. Through several analytical studies, SPP provided AFSPC 
and NRO leadership significant recommendations and mitigation options 
to protect space assets. For instance, Lieutenant Colonel Gary Samson 
led an analysis and software demonstration activity which illustrated 
how some immediate operational changes could reduce the effects of 
known threats and regain reconnaissance mission capability. Another 
study, led by Lieutenant Colonel Dan Bates, provided several 
recommendations to sustain PNT capabilities in a contested environment. 
SPP's analytical work also supports real world events, exercises and 
wargames. Finally, SPP supports national efforts to develop policy, 
strategy and architecture options across the national security space 
community.
    Schriever Wargame 2010
    The Schriever Wargame series generates leadership insights in 
contested space and cyberspace environments. The most recent iteration, 
Schriever Wargame 2010, brought together military and civilian experts 
from more than 30 government agencies. Under the leadership of 
Lieutenant Colonel Joe Wurmstein, Headquarters AFSPC Wargaming Branch 
Chief, and Major Jim Pedersen, the Game Director, this version focused 
on space and cyber deterrence, escalation control, response options, 
policy, planning, and national command relationships and authorities. 
The wargame featured expanded international and industry participation, 
including Australia, Canada, Great Britain, a North Atlantic Treaty 
Organization observer cell and cyber industry representation. As AFSPC 
prepares for the next iteration in 2012, we will use a comprehensive 
approach to gain additional insights, integrating instruments of 
national power to deter, prevent, and contain conflict.
Space Innovation and Development Center
    The SIDC, as the name implies, is our center for space and cyber 
innovation. Among other responsibilities, it is home to the Air Force 
Tactical Exploitation of National Capabilities, which works to deliver 
game-changing increases in capability for the joint fight. Other Space 
Innovation and Development Center (SIDC) projects include on-demand 
commercial Synthetic Aperture Radar distribution to warfighters, 
distribution of fifth generation aircraft data into legacy fighter 
aircraft and C2 platforms, and a prototype Data Integration and Fusion 
Center (DIFC) capable of providing a robust common operating picture to 
COCOM decision-makers by fusing multiple sources of non-traditional and 
national level information.
X-37B
    Several AFSPC organizations supported DOD's first-ever operational 
space plane mission, the X-37B Orbital Test Vehicle (OTV). Through 
lessons learned from the first flight, the SIDC's 3rd Space 
Experimentation Squadron has identified concepts of employment, 
training, education and technical skill sets required for future X-37B 
operations. Also crucial to this success was First Lieutenant Gordon 
Barnhill of the 45th Launch Support Squadron at Patrick AFB, FL, who 
was the launch site's lead engineer and developer of ground-breaking 
procedures for the launch and landing of this unique space plane. 
Additionally, the Western Range Team at Vandenberg AFB, CA, developed 
and tested new procedures for X-37B pre-recovery operations. Mr. Dennis 
Pakulski, the Chief Mission Engineer, applied both ingenuity and 
experience to replace 658 steel runway plates that posed a danger to 
the X-37's landing gear. Captain Dariusz Wudarzewski, the Range 
Operations Commander, led more than 250 landing team members and 
provided the complex final recommendation for ``clear to land'' for the 
safe return of the OTV after nearly 8 months of successful on-orbit 
operations. The second launch of the X-37B took place March 5.
Air Force Satellite Control Network (AFSCN)
    The AFSCN is our capability to receive mission data and control 
many of our Nation's satellites. In fiscal year 2010, the AFSCN 
conducted over 150,000 satellite contacts, supported 21 launches and 39 
vehicle emergencies. The fiscal year 2012 budget requests $328 million 
(O&M, RDT&E and Procurement) for AFSCN. The AFSCN recently underwent a 
major upgrade, replacing decades-old communication and switching 
equipment, and upgrading communication circuits to handle Internet 
Protocol traffic. Considerable downtime over a 4-day period was 
required to make these changes. First Lieutenant David Rothzeid of 
SMC's Satellite Control and Network Systems Division orchestrated the 
outages site-by-site, working with multiple organizations and 
contractors to ensure the network could maintain its average 450 per 
day satellite contact rate during the transition.
Electromagnetic Spectrum Management
    In 2010, the Air Force Frequency Management Agency, Alexandria, VA, 
was redesignated the Air Force Spectrum Management Office (AFSMO) to 
better reflect the broader responsibilities of that organization. 
Colonel Brian Jordan, the AFSMO Commander, is the strategic thinker and 
visionary dealing with the difficult challenges that accompany 
preserving access for essential Air Force capabilities. The backbone of 
information flow is the electromagnetic spectrum which is the common 
link among networks, sensors, weapon systems, commanders and combat 
forces. In the Presidential Memorandum, Unleashing the Wireless 
Broadband Revolution, issued on June 28, 2010, Federal agencies were 
directed to cooperate in the effort to locate 500 megahertz of Federal 
and non-Federal spectrum suitable for wireless broadband use. As a 
result of the memorandum and at the direction of the Department of 
Commerce's National Telecommunications and Information Administration, 
AFSMO will lead the Air Force's evaluation of the 1755-1850 megahertz 
spectrum sought by wireless companies to determine if it can be made 
available without harming critical capabilities.
    This spectrum is used by a wide array of critical Air Force 
systems, including precision guided munitions, airborne telemetry 
systems, RPAs and the C2 of numerous satellite systems, including GPS. 
As the Air Force designs, tests and deploys new or modified systems, 
spectrum management is of paramount importance to supporting the joint 
fight.
Silent Sentry
    Since 2005, Operation Silent Sentry, a capability initially 
designed for a 120-day demonstration, has provided CENTCOM with 
spectrum monitoring for electromagnetic interference (EMI) of satellite 
communications in the AOR. Spearheaded by personnel from the 16th Space 
Control Squadron (SPCS), Peterson AFB, CO, and its collocated Reserve 
Associate 380 SPCS, this nine-person team is instrumental in detecting 
and geo-locating sources of EMI events--both intentional and 
unintentional--including monitoring of RPA satellite links used for C2 
and mission data. The current deployment team is led by Lieutenant 
Colonel Blake Jeffries (16 SPCS) and Master Sergeant Scott Westfall 
(380 SPCS).
In-Theater Space Professionals
    Many of our space professionals have deployed to critical positions 
in the CENTCOM Area of Responsibility (AOR) to ensure timely space 
support is available to the warfighter. Included in this group is the 
Director of Space Forces (DIRSPACEFOR). The DIRSPACEFOR, currently 
Colonel Dave Buck, brings senior-level space perspective and harnesses 
the expertise of our mid-level space professionals who are integrated 
in theater units, directly supporting Joint and coalition forces. 
Additionally, the DIRSPACEFOR reaches back to the Joint Functional 
Component Command for Space and the JSpOC at Vandenberg AFB, CA, for 
access to all DOD space forces.
    Captains Aaron Cochran and Peter Norsky are just two examples of 
these mid-level theater space professionals, in this case assigned to 
the 504th Expeditionary Air Support Operations Group. They provide 
critical forward-based space expertise enabling integration of space 
capabilities into air and ground operations in Kandahar and Mazar-e-
Sharif, Afghanistan. Their presence allows expert knowledge transfer to 
tactical users, including Army brigades and battalions, Joint Terminal 
Attack Controllers and other battlespace owners.
Space and Cyberspace Capabilities at Red Flag
    Another milestone for AFSPC is tactical level integration of space 
and cyber capabilities with traditional air capabilities at the Air 
Force's premier training exercise, Red Flag, held at Nellis AFB, NV. 
Recently, a space officer was designated the overall mission commander 
during one of the exercise days--a Red Flag first. Captain Warren 
Riner, 76th SPCS, Peterson AFB, CO, led a multi-faceted air, space and 
cyberspace force, which highlighted the diverse, yet synergistic, 
mission capabilities of the Air Force. Captain Riner's team was also 
responsible for all air, space and cyberspace nonkinetic capability 
integration during all exercise missions. I believe this is the future 
of our force: seamless integration of multiple capabilities, where the 
result is greater than the sum of the parts.
                       control space system costs
    AFSPC is implementing significant changes as part of the Air 
Force's ``Recapture Acquisition Excellence'' priority. From 
requirements definition to contracting to hard-nosed program 
management, we must work to reduce our space system acquisition costs. 
In cooperation with the Office of the Secretary of Defense, the Air 
Force is redefining acquisition strategies for buying military 
satellites. Anticipated savings will allow for research and development 
investment for future performance improvements and to lower cost of 
follow-on systems. We will closely collaborate with the Headquarters 
Air Force acquisition staff to implement this new strategy for the next 
blocks of AEHF and SBIRS satellites. We look forward to working with 
Congress to obtain the necessary legislative authorities to execute 
this strategy and achieve our vision.
    The record of successful national security launches since 1999 is 
truly remarkable. Nevertheless, we treat each launch as if it were our 
first, applying sound mission assurance principles to ensure success. 
Unfortunately, the space launch industrial base is very fragile, 
resulting in significantly increased costs of the Evolved Expendable 
Launch Vehicle (EELV) program. To arrest this cost growth, we are 
implementing a new launch vehicle purchasing strategy. Our plan is to 
commit to an annual production rate of launch vehicles, alongside the 
NRO, with block buy procurement. We believe this will provide 
predictability, economic order quantity opportunities and a more stable 
industrial base, thereby lowering overall costs. A team of acquisition 
and launch experts, including NRO, NASA, and industry partners, is 
developing an improved approach to maintaining EELV's outstanding 
mission success record while controlling costs and providing more 
operational flexibility. The Air Force request for EELV is $1.76 
billion (RDT&E and Procurement) in fiscal year 2012.
    A Letter of Intent and Memorandum of Understanding signed by the 
Air Force, NASA and the NRO commits the organizations to closer 
coordination in the acquisition of launch vehicles, liquid-fueled 
engines for boosters and upper stages, and the development of launch 
bases and ranges. This is recognition of the continued need for 
collaboration to help assure the Nation's access to space, especially 
in a challenging fiscal environment for all the agencies involved.
    operationalize and normalize cyberspace for air force operations
    As the Air Force's lead Major Command for cyberspace, AFSPC is 
making significant strides in leveraging existing resources, applying 
appropriate lessons learned and new processes, and working toward 
increasing our effectiveness within cyberspace for 21st century 
military operations. Using this approach, we have rapidly developed the 
organizational structure, C2, career field management, education and 
training, and technical capabilities in cyberspace. Last October, 
Twenty-Fourth Air Force (24 AF) achieved Full Operational Capability 
status and in December was designated Air Forces Cyber to signify its 
role as the Air Force's operational component to CYBERCOM.
    We are applying lessons learned from the Space Professional 
Development Program to build a counterpart cyberspace program. The 
focus of the Cyberspace Professional Development Program is to build 
21st century cyberspace warriors with a mindset and skill set tailored 
to operational roles. Last year, we produced our first graduates from 
Undergraduate Cyberspace Training, Cyber 200 and Cyber 300 classes, 
forming the beginnings of a highly trained cyber force.
    Cyberspace integration into the Joint fight is beginning to take 
shape. A recent milestone was the integration of RPA mission assurance 
efforts, also called ``cyber escort missions,'' into the operations 
section of the CENTCOM Air Tasking Order. This signifies the first 
major, sustained employment of cyber capability into day-to-day air 
operations. Lieutenant Colonel Gerald Ramsey, who is assigned to the 
624th Operations Center, Lackland AFB, TX, currently leads one of the 
first deployments of the Cyberspace Operations Liaison Element (COLE) 
to the CENTCOM AOR. The COLE ensures cyber effects are fully integrated 
into contingency planning efforts from initial planning through 
execution. The COLE also provides mission assurance, exercise planning 
and development, and cyber intelligence support to joint operations.
    Our 689th Combat Communications Wing (689 CCW) already is fully 
integrated in warfighter support. Last year, the 689 CCW deployed 700 
Airmen to 54 locations, highlighted by establishing initial 
communications capability on four bare bases in hostile areas. 
Additionally, they provided support to homeland defense and disaster 
relief efforts, including Secret Service support and crucial 
involvement in humanitarian and disaster relief operations in Haiti and 
Chile. Staff Sergeant Alexander Yessayan, a combat communication 
specialist, received the Air Force Combat Action Medal and Army Combat 
Action Badge for his heroic actions in defending his Provincial 
Reconstruction Team against a Taliban ambush while in Afghanistan. 
Major Noland Greene, Commander of the 34th Combat Communications 
Squadron, led a 47-member team of cyber warriors to Shindand Air Base, 
Afghanistan, where they built and operated a network that provided all 
required communication services for the Army at this forward operating 
base.
    While AFSPC and 24 AF have swiftly reached significant cyberspace 
milestones, much work remains. Our top priority is to consolidate into 
a single Air Force network. This single network will be a major step 
toward achieving real-time situational awareness, allowing better 
defense of the network, and facilitating efficient enterprise solutions 
for the Air Force. This will standardize and simplify delivery of 
services to our force, thereby reducing operations and maintenance 
costs.
    In addition to terrestrial network consolidation, the Air Force 
Network Integration Center leads the Single Integrated Network 
Environment (SINE) initiative. Under the leadership of Lieutenant 
Colonel Patrick Dunnells, SINE is an overarching framework for how the 
Air Force will provide seamless information flow across terrestrial, 
air and space domains. Information flow among domains is critical for 
efficient and effective mission accomplishment and SINE is a path 
forward to provide resilient, risk-mitigated infrastructure for 
increased operational reliability, availability, C2 and situational 
awareness.
    AFSPC's cyberspace portfolio request is for $1.9 billion in fiscal 
year 2012. Approximately $1.2 billion of this request is for operations 
and maintenance and over $700 million is allocated for developing 
additional capability. Operationalizing and normalizing the cyberspace 
mission for the Air Force is in its nascent stages, but beginning to 
take root as we build a strong foundation
    with deliberate speed and thought. These efforts will enhance the 
asymmetric advantages of our Joint forces and provide the vehicle for 
synergistic benefits through integration of air, space and cyberspace.
                          afspc professionals
    The talented men and women of AFSPC and the families who support 
them are essential to achieving the Command's three priorities. We have 
trained and ready Airmen who deliver for the joint fight every single 
day in technically demanding domains. I strongly believe the continued 
development of our space and cyberspace professionals is key to our 
future. Last year we broke ground on the new $14.4 million Space 
Education and Training Center, which will give a permanent, on-base 
residence for the National Security Space Institute (NSSI) and Advanced 
Space Operations School (ASOpS). Each year, ASOpS provides advanced 
training to more than 1,600 DOD space professionals, while NSSI, the 
Air Force's space professional development school, provides unique 
education to approximately 800 space professionals from all Services. 
Again in compliance with the new National Space Policy, this year the 
NSSI will provide its first course offerings to our Australian, British 
and Canadian international partners.
    In addition to the training we provide for our people, a 
professional, non-discriminatory environment creates the opportunity 
for all to achieve their full potential. We steadfastly support the Air 
Force's Sexual Assault Prevention and Response program and its role in 
fostering a healthy unit environment. AFSPC is proud of our bystander 
intervention video, shared AF wide, which captures the experience of 
Airman First Class Edward Todd of the 21st Dental Squadron, Peterson 
AFB, CO. The video recreates how he applied his training to assist a 
young woman in a dangerous situation, averting a potential assault. 
Further, I believe a focus on the resiliency of our people is 
foundational to developing a wellness culture that combats not only 
suicides, but alcohol and substance abuse, and other self-destructive 
behaviors. We are working hard to provide education and training to 
raise the resiliency of our entire command, thereby providing better 
tools to our people as they deal with the stressors of daily life.
Total Force Enterprise
    The contributions of our Reserve and Guard forces to the Joint 
fight simply cannot be overstated. In AFSPC, the Air Reserve Component 
(ARC) comprises approximately 40 percent of our Airmen. Space and 
cyberspace operations require high-caliber individuals with in-depth 
technical skills. As many AFSPC missions are 24x7 and deployed-in-
place, the ARC can augment active duty units as part-time force 
multipliers providing needed technical expertise, especially in cyber 
where industry is currently leading innovation. The ARC enables a 
superb intersection of military and civilian experience, which is 
mutually beneficial to both active duty and ARC Airmen in our Command.
                               conclusion
    Significant technological advances in space and cyberspace have 
transformed the way we conduct military operations--and even the way we 
live our daily lives. Recognizing the mandate to keep pace with this 
high rate of change, AFSPC will proceed with a sense of urgency as we 
deliver global capabilities, which are so crucial in this age of 
information-enabled warfare. We will focus on our three priorities: 
support the joint fight, get control of the costs of space programs, 
and operationalize and normalize cyberspace for Air Force operations. 
Above all, our workforce of highly trained and motivated professionals 
will continue to produce excellence, global and beyond.
    I consider it a deep personal honor to command AFSPC, and again, I 
appreciate the opportunity to appear before the subcommittee to 
represent my Command.

    Senator Nelson. Thank you, General.
    Ms. Chaplain.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you, Mr. Chairman. Our focus at GAO is 
on acquisition oversight. If I have to sum up my remarks very 
quickly, I would just say that space acquisition has been 
broken, it is being fixed, but more needs to be done. I just 
want to spend a few minutes telling you what's on our watch 
list in terms of what needs to be done. I want to say that a 
lot of credit should go to both the Air Force and DOD for the 
actions they have been taking, and they are all detailed in our 
statement.
    First, there are some major programs that face considerable 
schedule pressures and schedule risks. Although they are 
attempting to incorporate best practices, it's still unknown at 
this time the extent that these practices can shorten the 
schedules by years.
    Second, many of the systems on the ground that support 
space activities and that enable satellite capabilities to be 
used, are still facing a high degree of acquisition risk. These 
include ground systems like the operational control segment 
(OCX) program for GPS, user terminals for the AEHF system, some 
of the sensors involved with space situational awareness, and 
the control system for space situational awareness, known as 
the JSpOC mission system (JMS), which is the linchpin in that 
mission and it's very critical that it be done successfully.
    Third, while there's been a number of organizational 
changes made over the past year, it's just unclear at this 
point how they'll shake out and whether they'll really 
streamline oversight and strengthen it for space acquisitions.
    Fourth, there's more organizations involved in space now. 
You have the Missile Defense Agency (MDA) taking on a new major 
program, the Army is taking on some space efforts, and you need 
to balance this with the dwindling workforce. There's key areas 
of space expertise that have been decreasing in recent years. 
There's a question as to how we have that capability, is it 
being stretched too far across DOD.
    Lastly, there's just budget pressures that we all know are 
out there. At the same time, space is very costly. The question 
going forward is: can we still start new major efforts or is 
that going to be unaffordable? When we do start them, are we 
going to be pressured to take shortcuts, including testing and 
important mission assurance activities?
    That's just what's on our list for this year. I thank you.
    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement by Cristina T. Chaplain
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee:
    I am pleased to be here today to discuss the Department of 
Defense's (DOD) space acquisitions. Each year, DOD spends billions of 
dollars to acquire space-based capabilities to support current military 
and other government operations, as well as to enable DOD to transform 
the way it collects and disseminates information. Despite the 
significant investment in space, the majority of large-scale 
acquisition programs in DOD's space portfolio have experienced problems 
during the past two decades that have driven up costs by hundreds of 
millions and even billions of dollars, stretched schedules by years, 
and increased technical risks. To address the cost increases, DOD 
altered its acquisitions by reducing the number of satellites it 
intended to buy, reducing the capabilities of the satellites, or 
terminating major space system acquisitions. Moreover, along with the 
cost increases, many space acquisitions have experienced significant 
schedule delays--of as much as 9 years--resulting in potential 
capability gaps in areas such as missile warning, military 
communications, and weather monitoring. These problems persist; 
however, the Air Force and the Office of the Secretary of Defense have 
taken a wide range of actions to prevent them from occurring in new 
programs.
    My testimony today will focus on: (1) the status of space system 
acquisitions, (2) results of our space-related reviews over the past 
year and the challenges they signify, (3) the efforts DOD has taken to 
address causes of problems and increase credibility and success in its 
space system acquisitions as well as efforts currently underway, and 
(4) what remains to be done. Notably, DOD has acknowledged the 
acquisition problems of the past and recognizes the need for better 
management of the acquisition process and oversight of its contractors. 
More important, several high-risk space programs appear to have finally 
resolved technical and other obstacles and have started to or are close 
to beginning to deliver capability. However, other space acquisition 
programs--including the Global Positioning System (GPS) IIIA and Mobile 
User Objective System (MUOS)--continue to face challenges in meeting 
their cost and schedule targets and aligning the delivery of space 
assets with the ground and user systems needed to support and take 
advantage of new capability. Moreover, it may take years for 
acquisition improvements to take root and produce benefits that will 
enable DOD to realize a better return on its investment in space. 
Importantly, DOD has taken steps to decide how to best organize, lead, 
and support space activities. But more may be needed in light of the 
wide range of stakeholders and past issues with diffuse leadership.
    The work that supports this statement was performed in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives. Additional details on our scope and 
methodology are provided in appendix II.
            status of space acquisitions: challenges persist
    A longstanding problem in DOD space acquisitions is that program 
and unit costs tend to go up significantly from initial cost estimates, 
while in some cases the capability that was to be delivered goes down. 
Figure 1 compares original cost estimates and current cost estimates 
for the broader portfolio of major space acquisitions for fiscal years 
2010 through 2015. The wider the gap between original and current 
estimates, the fewer dollars DOD has available to invest in new 
programs. As shown in the figure, cumulative estimated costs for the 
major space acquisition programs have increased by about $13.9 billion 
from initial estimates for fiscal years 2010 through 2015, almost a 286 
percent increase. The declining investment in the later years is the 
result of mature programs that have planned lower out-year funding, 
cancellation of several development efforts, and the exclusion of space 
acquisition efforts for which total cost data were unavailable (such as 
new investments).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    When space system investments other than established acquisition 
programs of record--such as the Defense Weather Satellite System (DWSS) 
and Space Fence programs--are also considered, DOD's space acquisition 
investments remain significant through fiscal year 2016, as shown in 
figure 2. Although estimated costs for selected space acquisition 
programs decrease 21 percent between fiscal years 2010 and 2015, they 
start to increase in fiscal year 2016. According to current DOD 
estimates, costs for two programs--Advanced Extremely High Frequency 
(AEHF) and Space Based Infrared System (SBIRS) High--are expected to 
significantly increase in fiscal years 2017 and 2018. The costs are 
associated with the procurement of additional blocks of satellites and 
are not included in the figure because they have not yet been reported 
or quantified.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Figures 3 and 4 reflect differences in total program and unit costs 
for satellites from the time the programs officially began to their 
most recent cost estimates. As figure 4 shows, in several cases, DOD 
has increased the number of satellites. The figures reflect total 
program cost estimates developed in fiscal year 2010.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Several space acquisition programs are years behind schedule. 
Figure 5 highlights the additional estimated months needed for programs 
to launch their first satellites. These additional months represent 
time not anticipated at the programs' start dates. Generally, the 
further schedules slip, the more DOD is at risk of not sustaining 
current capabilities. For example, delays in launching the first MUOS 
satellite have placed DOD's ultra high frequency communications 
capabilities at risk of falling below the required availability level.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Some Acquisition Programs Appear to Have Overcome Problems, but Other 
        Programs Still Susceptible to Cost and Schedule Overruns
    DOD had longstanding difficulties on nearly every space acquisition 
program, struggling for years with cost and schedule growth, technical 
or design problems, as well as oversight and management weaknesses. 
However, to its credit, it continues to make progress on several of its 
high-risk space programs, and is expecting to deliver significant 
advances in capability as a result. The Missile Defense Agency's (MDA) 
Space Tracking and Surveillance System (STSS) demonstration satellites 
were launched in September 2009. Additionally, DOD launched its first 
GPS IIF satellite in May 2010 and plans to launch the second IIF 
satellite in June 2011--later than planned, partially because of 
system-level problems identified during testing. It also launched the 
first AEHF satellite in August 2010--although it has not yet reached 
its final planned orbit because of an anomaly with the satellite's 
propulsion system--and launched the Space Based Space Surveillance 
(SBSS) Block 10 satellite in September 2010. DOD is scheduled to launch 
a fourth Wideband Global SATCOM (WGS) satellite broadening 
communications capability available to warfighters--in late 2011, and a 
fifth WGS satellite in early 2012. The Evolved Expendable Launch 
Vehicle (EELV) program had its 41st consecutive successful operational 
launch in May of this year.
    One program that appears to have recently overcome remaining 
technical problems is the SBIRS High satellite program. The first of 
six geosynchronous earth-orbiting (GEO) satellites (two highly 
elliptical orbit sensors have already been launched) was launched in 
May 2011 and is expected to continue the missile warning mission with 
sensors that are more capable than the satellites currently on orbit. 
Total cost for the SBIRS High program is currently estimated at over 
$18 billion for six GEO satellites,\1\ representing a program unit cost 
of over $3 billion, about 233 percent more than the original unit cost 
estimate. Additionally, the launch of the first GEO satellite 
represents a delay of approximately 9 years. The reasons for the delay 
include poor government oversight of the contractor, unanticipated 
technical complexities, and rework. The program office is working to 
rebaseline the SBIRS High contract cost and schedule estimates for the 
sixth time. Because of the problems on SBIRS High, in 2007, DOD began a 
follow-on system effort, which was known as Third Generation Infrared 
Surveillance (3GIRS), to run in parallel with the SBIRS High program. 
DOD canceled the 3GIRS effort in fiscal year 2011, but plans to 
continue providing funds under the SBIRS High program for one of the 
3GIRS infrared demonstrations.
---------------------------------------------------------------------------
    \1\ The $18 billion does not include the cost of two replenishment 
sensors, which the Air Force does not include as part of the SBIRS High 
baseline.
---------------------------------------------------------------------------
    While DOD is having success in readying some satellites for launch, 
other space acquisition programs face challenges that could further 
increase cost and delay delivery targets. The programs that may be 
susceptible to cost and schedule challenges include MUOS and the GPS 
IIIA program. Delays in the MUOS program have resulted in critical 
potential capability gaps for military and other government users. The 
GPS IIIA program was planned with an eye toward avoiding problems that 
plagued the GPS IIF program and it incorporated many of the best 
practices recommended by GAO, but the schedule leaves little room for 
potential problems and there is a risk that the ground system needed to 
operate the satellites will not be ready when the first satellite is 
launched. Additionally, the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) was restructured as a result of 
poor program performance and cost overruns, which caused schedule 
delays. These delays have resulted in a potential capability gap for 
weather and environmental monitoring. Furthermore, new space system 
acquisition efforts getting underway--including the Air Force's Joint 
Space Operations Center Mission System (JMS) and Space Fence, and MDA's 
Precision Tracking and Surveillance System (PTSS)--face potential 
development challenges and risks, but it is too early to tell how 
significant they may be to meeting cost, schedule, and performance 
goals.
    Table 1 describes the status of these efforts in more detail.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        results of gao space-related reviews over the past year
    Over the past year, we have completed reviews of sustaining and 
upgrading GPS capabilities and commercializing space technologies under 
the Small Business Innovation Research program (SBIR),\2\ and we have 
ongoing reviews of: (1) DOD space situational awareness (SSA) 
acquisition efforts, (2) parts quality for DOD, MDA, and the National 
Aeronautics and Space Administration (NASA), and (3) a new acquisition 
strategy being developed for the EELV program. These reviews, discussed 
further below, underscore the varied challenges that still face the DOD 
space community as it seeks to complete problematic legacy efforts and 
deliver modernized capabilities. Our reviews of GPS and space 
situational awareness, for instance, have highlighted the need for more 
focused coordination and leadership for space activities that touch a 
wide range of government, international, and industry stakeholders; 
while our review of the SBIR program highlighted the substantial 
barriers and challenges small business must overcome to gain entry into 
the government space arena.
---------------------------------------------------------------------------
    \2\ GAO, Global Positioning System: Challenges in Sustaining and 
Upgrading Capabilities Persist, GAO-10-636 (Washington, DC, Sept. 15, 
2010) and Space Acquisitions: Challenges in Commercializing 
Technologies Developed under the Small Business Innovation Research 
Program, GAO-11-21 (Washington, DC: Nov. 10, 2010).

        <bullet> GPS. We found that the GPS IIIA schedule remains 
        ambitious and could be affected by risks such as the program's 
        dependence on a ground system that will not be completed until 
        after the first IIIA launch. We found that the GPS 
        constellation availability had improved, but in the longer 
        term, a delay in the launch of the GPS IIIA satellites could 
        still reduce the size of the constellation to fewer than 24 
        operational satellites--the number that the U.S. Government 
        commits to--which might not meet the needs of some GPS users. 
        We also found that the multiyear delays in the development of 
        GPS ground control systems were extensive. Although the Air 
        Force had taken steps to enable quicker procurement of military 
        GPS user equipment, there were significant challenges to its 
        implementation. This has had a significant impact on DOD as all 
        three GPS segments--space, ground control, and user equipment--
        must be in place to take advantage of new capabilities. 
        Additionally, we found that DOD had taken some steps to better 
        coordinate all GPS segments, including laying out criteria and 
        establishing visibility over a spectrum of procurement efforts, 
        but it did not go as far as we recommended in 2009 in terms of 
        establishing a single authority responsible for ensuring that 
        all GPS segments are synchronized to the maximum extent 
        practicable.\3\ Such an authority is warranted given the extent 
        of delays, problems with synchronizing all GPS segments, and 
        importance of new capabilities to military operations. As a 
        result, we reiterated the need to implement our prior 
        recommendation.
---------------------------------------------------------------------------
    \3\ GAO, Global Positioning System: Significant Challenges in 
Sustaining and Upgrading Widely Used Capabilities, GAO-09-325 
(Washington, DC: Apr. 30, 2009).
---------------------------------------------------------------------------
        <bullet> Small Business Innovation Research (SBIR). In response 
        to a request from this subcommittee, we found that while DOD is 
        working to commercialize space-related technologies under its 
        SBIR program by transitioning these technologies into 
        acquisition programs or the commercial sector, it has limited 
        insight into the program's effectiveness.\4\ Specifically, DOD 
        has invested about 11 percent of its fiscal years 2005-2009 
        research and development funds through its SBIR program to 
        address space-related technology needs. Additionally, DOD is 
        soliciting more space-related research proposals from small 
        businesses. Further, DOD has implemented a variety of programs 
        and initiatives to increase the commercialization of SBIR 
        technologies and has identified instances where it has 
        transitioned space-related technologies into acquisition 
        programs or the commercial sector. However, DOD lacks complete 
        commercialization data to determine the effectiveness of the 
        program in transitioning space-related technologies into 
        acquisition programs or the commercial sector. Of the nearly 
        500 space-related contracts awarded in fiscal years 2005 
        through 2009, DOD officials could not, for various reasons, 
        identify the total number of technologies that transitioned 
        into acquisition programs or the commercial sector. Further, 
        there are challenges to executing the SBIR program that DOD 
        officials acknowledge and are planning to address, such as the 
        lack of overarching guidance for managing the DOD SBIR program.
---------------------------------------------------------------------------
    \4\ The Small Business Innovation Development Act of 1982, Pub. L. 
No. 97-219, established the SBIR program to stimulate technological 
innovation, use small businesses to meet Federal research and 
development needs, foster and encourage participation by minority and 
disadvantaged persons in technological innovation, and increase 
private-sector commercialization of innovations derived from Federal 
research and development.
---------------------------------------------------------------------------
         Under this review, most stakeholders we spoke with--DOD, prime 
        contractors, and small business officials--generally agreed 
        that small businesses participating in the DOD SBIR program 
        face difficulties transitioning their space-related 
        technologies into acquisition programs or the commercial 
        sector. Although we did not assess the validity of the concerns 
        cited, stakeholders we spoke with identified challenges 
        inherent to developing space technologies; challenges because 
        of the SBIR program's administration, timing, and funding 
        issues; and other challenges related to participating in the 
        DOD space system acquisitions environment. For example, some 
        small-business officials said that working in the space 
        community is challenging because the technologies often require 
        more expensive materials and testing than other technologies. 
        They also mentioned that delayed contract awards and slow 
        contract disbursements have caused financial hardships. 
        Additionally, several small businesses cited concerns with 
        safeguarding their intellectual property.
        <bullet> Space Situational Awareness (SSA). We have found that 
        while DOD has significantly increased its investment and 
        planned investment in SSA acquisition efforts in recent years 
        to address growing SSA capability shortfalls, most efforts 
        designed to meet these shortfalls have struggled with cost, 
        schedule, and performance challenges and are rooted in systemic 
        problems that most space system acquisition programs have 
        encountered over the past decade. Consequently, in the past 5 
        fiscal years, DOD has not delivered significant new SSA 
        capabilities as originally expected. Capabilities that were 
        delivered served to sustain or modernize existing systems 
        versus closing capability gaps. To its credit, last fall the 
        Air Force launched a space-based sensor that is expected to 
        appreciably enhance SSA. However, two critical acquisition 
        efforts that are scheduled to begin development within the next 
        2 years--Space Fence and JMS--face development challenges and 
        risks, such as the use of immature technologies and planning to 
        deliver all capabilities in a single, large increment versus 
        smaller and more manageable increments. It is essential that 
        these acquisitions are placed on a solid footing at the start 
        of development to help ensure that their capabilities are 
        delivered to the warfighter as and when promised. DOD plans to 
        begin delivering other new capabilities in the coming 5 years, 
        but it is too early to determine the extent to which these 
        additions will address capability shortfalls.
         We have also found that there are significant inherent 
        challenges to executing and overseeing the SSA mission, largely 
        because of the sheer number of governmentwide organizations and 
        assets involved in the mission. This finding is similar to what 
        we have reported from other space system acquisition reviews 
        over the years. Additionally, while the recently issued 
        National Space Policy assigns SSA responsibility to the 
        Secretary of Defense, the Secretary does not necessarily have 
        the corresponding authority to execute this responsibility. 
        However, actions, such as development of a national SSA 
        architecture, are being taken that could help facilitate 
        management and oversight governmentwide. The National Space 
        Policy, which recognizes the importance of SSA, directs other 
        positive steps, such as the determination of roles, missions, 
        and responsibilities to manage national security space 
        capabilities and the development of options for new measures 
        for improving SSA capabilities. Furthermore, the recently 
        issued National Security Space Strategy could help guide the 
        implementation of the new space policy. We expect our report 
        based on this review to be issued in June 2011.
        <bullet> Parts quality for DOD, MDA, and NASA. Quality is 
        paramount to the success of DOD space systems because of their 
        complexity, the environment they operate in, and the high 
        degree of accuracy and precision needed for their operations. 
        Yet in recent years, many programs have encountered 
        difficulties with quality workmanship and parts. For example, 
        DOD's AEHF protected communications satellite has yet to reach 
        its intended orbit because of a blockage in a propellant line. 
        Also, MDA's STSS program experienced a 15-month delay in the 
        launch of demonstration satellites because of a faulty 
        manufacturing process of a ground-to-spacecraft communication 
        system part. Furthermore, NASA's Mars Science Laboratory 
        program experienced a 1-year delay in the development of the 
        descent and cruise stage propulsion systems because of a 
        welding process error. We plan to issue a report on the results 
        of a review that focuses specifically on parts quality issues 
        in June 2011. We are examining the extent to which parts 
        quality problems are affecting DOD, MDA, and NASA space and 
        missile defense programs; the causes of these problems; and 
        initiatives to detect and prevent parts quality problems.
        <bullet> EELV acquisition strategy. DOD spends billions of 
        dollars on launch services and infrastructure through two 
        families of commercially owned and operated vehicles under the 
        EELV program. This investment allows the Nation to launch its 
        national security satellites that provide the military and 
        intelligence community with advanced space-based capabilities. 
        DOD is preparing to embark on a new acquisition strategy for 
        the EELV program. Given the costs and importance of space 
        launch activities, it is vital that this strategy maximize cost 
        efficiencies while still maintaining a high degree of mission 
        assurance and a healthy industrial base. We are currently 
        reviewing activities leading up to the strategy and plan to 
        issue a report on the results of this review in June 2011. In 
        particular, we are examining whether DOD has the knowledge it 
        needs to develop a new EELV acquisition strategy and the extent 
        to which there are important factors that could affect launch 
        acquisitions.
    dod has taken and is taking actions to address space and weapon 
                          acquisition problems
    DOD continues to work to ensure that its space programs are more 
executable and produce a better return on investment. Many of the 
actions it has been taking address root causes of problems, though it 
will take time to determine whether these actions are successful and 
they need to be complemented by decisions on how best to lead, 
organize, and support space activities.
Causes of Acquisition Problems and Best Practices for Avoiding Them
    Our past work has identified a number of causes of the cost growth 
and related problems, but several consistently stand out. First, on a 
broad scale, DOD has tended to start more weapon programs than it can 
afford, creating a competition for funding that encourages low cost 
estimating, optimistic scheduling, overpromising, suppressing bad news, 
and for space programs, forsaking the opportunity to identify and 
assess potentially more executable alternatives. Programs focus on 
advocacy at the expense of realism and sound management. Invariably, 
with too many programs in its portfolio, DOD is forced to continually 
shift funds to and from programs--particularly as programs experience 
problems that require additional time and money to address. Such 
shifts, in turn, have had costly, reverberating effects.
    Second, DOD has tended to start its space programs too early, that 
is, before it has the assurance that the capabilities it is pursuing 
can be achieved within available resources and time constraints. This 
tendency is caused largely by the funding process, since acquisition 
programs attract more dollars than efforts concentrating solely on 
proving technologies. Nevertheless, when DOD chooses to extend 
technology invention into acquisition, programs experience technical 
problems that require large amounts of time and money to fix. Moreover, 
when this approach is followed, cost estimators are not well positioned 
to develop accurate cost estimates because there are too many unknowns. 
Put more simply, there is no way to accurately estimate how long it 
would take to design, develop, and build a satellite system when 
critical technologies planned for that system are still in relatively 
early stages of discovery and invention.
    Third, programs have historically attempted to satisfy all 
requirements in a single step, regardless of the design challenges or 
the maturity of the technologies necessary to achieve the full 
capability. DOD has preferred to make fewer but heavier, larger, and 
more complex satellites that perform a multitude of missions rather 
than larger constellations of smaller, less complex satellites that 
gradually increase in sophistication. This has stretched technology 
challenges beyond current capabilities in some cases and vastly 
increased the complexities related to software. Programs also seek to 
maximize capability on individual satellites because it is expensive to 
launch them. Figure 6 illustrates the various factors that can break 
acquisitions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Many of these underlying issues affect the broader weapons 
portfolio as well, though we have reported that space programs are 
particularly affected by the wide disparity of users, including DOD, 
the intelligence community, other Federal agencies, and in some cases, 
other countries, U.S. businesses, and citizens. Moreover, problematic 
implementation of an acquisition strategy in the 1990s, known as Total 
System Performance Responsibility, for space systems resulted in 
problems on a number of programs because it was implemented in a manner 
that enabled requirements creep and poor contractor performance--the 
effects of which space programs are finally overcoming. We have also 
reported on shortfalls in resources for testing new technologies, 
which, coupled with less expertise and fewer contractors available to 
lead development efforts, have magnified the challenge of developing 
complex and intricate space systems.
    Our work--which is largely based on best practices in the 
commercial sector--has recommended numerous actions that can be taken 
to address the problems we identified. Generally, we have recommended 
that DOD separate technology discovery from acquisition, follow an 
incremental path toward meeting user needs, match resources and 
requirements at program start, and use quantifiable data and 
demonstrable knowledge to make decisions to move to next phases. We 
have also identified practices related to cost estimating, program 
manager tenure, quality assurance, technology transition, and an array 
of other aspects of acquisition program management that could benefit 
space programs. These practices are highlighted in appendix I.
Actions to Improve Space and Weapon System Acquisitions
    Over the past several years, DOD has implemented or has been 
implementing a number of actions to reform how space and weapon systems 
are acquired, both through its own initiatives as well as those 
required by statute. Additionally, DOD is evaluating and proposing new 
actions to increase space system acquisition efficiency and 
effectiveness. Because many of these actions are relatively new, or not 
yet fully implemented, it is too early to tell whether they will be 
effective or effectively implemented.
    For space in particular, DOD is working to ensure that critical 
technologies are matured before large-scale acquisition programs begin, 
requirements are defined early in the process and are stable 
throughout, and system design remains stable. DOD also intends to 
follow incremental or evolutionary acquisition processes versus 
pursuing significant leaps in capabilities involving technology risk 
and has done so with the only new major satellite program undertaken by 
the Air Force in recent years--GPS IIIA. DOD is also providing more 
program and contractor oversight and putting in place military 
standards and specifications in its acquisitions. Additionally, DOD and 
the Air Force are working to streamline management and oversight of the 
national security space enterprise. For example, all Air Force space 
system acquisition responsibility has been aligned to the office that 
has been responsible for all other Air Force acquisition efforts, and 
the Defense Space Council--created last year--is reviewing, as one of 
its first agenda items, options for streamlining the many committees, 
boards, and councils involved in space issues. These and other actions 
that have been taken or are being taken that could improve space system 
acquisition outcomes are described in table 2.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    At the DOD-wide level, and as we reported last year, Congress and 
DOD have recently taken major steps toward reforming the defense 
acquisition system in ways that may increase the likelihood that weapon 
programs will succeed in meeting planned cost and schedule 
objectives.\5\ In particular, new DOD policy and legislative provisions 
place greater emphasis on front-end planning and establishing sound 
business cases for starting programs.\6\ For example, the provisions 
require programs to invest more time and resources to refine concepts 
through practices such as early systems engineering, strengthen cost 
estimating, develop technologies, build prototypes, hold early 
milestone reviews, and develop preliminary designs before starting 
system development. These provisions are intended to enable programs to 
refine a weapon system concept and make cost, schedule, and performance 
trade-offs before significant commitments are made. In addition, DOD 
policy requires establishment of configuration steering boards that 
meet annually to review program requirements changes as well as to make 
recommendations on proposed descoping options that could reduce program 
costs or moderate requirements. Fundamentally, these provisions should 
help (1) programs replace risk with knowledge and (2) set up more 
executable programs. Key DOD and legislative provisions compared with 
factors we identified in programs that have been successful in meeting 
cost and schedule baselines are summarized in table 3.
---------------------------------------------------------------------------
    \5\ GAO, Defense Acquisitions: Strong Leadership Is Key to Planning 
and Executing Stable Weapon Programs, GAO-10-522 (Washington, DC: May 
6, 2010).
    \6\ In December 2008, DOD revised its acquisition instruction--
Department of Defense Instruction 5000.02, Operation of the Defense 
Acquisition System. The Weapon Systems Acquisition Reform Act of 2009, 
Pub. L. No. 111-23, was enacted May 22, 2009.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Furthermore, the Ike Skelton National Defense Authorization Act for 
Fiscal Year 2011, signed into law on January 7, 2011, contains further 
direction aimed at improving acquisition outcomes, including, among 
other things, a requirement for the Secretary of Defense to issue 
guidance on the use of manufacturing readiness levels (including 
specific levels that should be achieved at key milestones and decision 
points), elevating the role of combatant commanders in DOD's 
requirements-setting process, and provisions for improving the 
acquisition workforce.\7\
---------------------------------------------------------------------------
    \7\ Pub. L. No. 111-383.
---------------------------------------------------------------------------
    While it is too soon to determine if Congress's and DOD's reform 
efforts will improve weapon program outcomes, DOD has taken steps to 
implement the provisions. For example, in December 2009, the department 
issued a new implementation policy, which identifies roles and 
responsibilities and institutionalizes many of the requirements of the 
Weapon Systems Acquisition Reform Act of 2009. DOD has also filled 
several key leadership positions created by the legislation, including 
the Directors for Cost Assessment and Program Evaluation, Developmental 
Test and Evaluation, Systems Engineering, and Performance Assessments 
and Root Cause Analyses. To increase oversight, the department embarked 
on a 5-year effort to increase the size of the acquisition workforce by 
up to 20,000 personnel by 2015. Furthermore, the department began 
applying the acquisition reform provisions to some new programs 
currently in the planning pipeline. For example, many of the pre-
Milestone B programs we reviewed this year as part of our annual 
assessment of selected weapon programs planned to conduct preliminary 
design reviews before going to Milestone B, although fewer are taking 
other actions, such as developing prototypes, that could improve their 
chances of success. With respect to space system acquisitions, 
particularly GPS III--DOD's newest major space system acquisition--has 
embraced the knowledge-based concepts behind our previous 
recommendations as a means of preventing large cost overruns and 
schedule delays.
    Additionally, the Office of the Secretary of Defense and the Air 
Force are proposing new acquisition strategies for satellites and 
launch vehicles:

        <bullet> In June of last year, and as part of the Secretary of 
        Defense's Efficiencies Initiative,\8\ the Under Secretary of 
        Defense for Acquisition, Technology and Logistics began an 
        effort to restore affordability and productivity in defense 
        spending. Major thrusts of this effort include targeting 
        affordability and controlling cost growth, incentivizing 
        productivity and innovation in industry, promoting real 
        competition, improving tradecraft in services acquisition, and 
        reducing nonproductive processes and bureaucracy. As part of 
        this effort, the Office of the Secretary of Defense and the Air 
        Force are proposing a new acquisition strategy for procuring 
        satellites, called the Evolutionary Acquisition for Space 
        Efficiency (EASE), to be implemented starting in fiscal year 
        2012. Primary elements of this strategy include block buys of 
        two or more satellites (economic order quantities) using a 
        multiyear procurement construct, use of fixed-price 
        contracting, stable research and development investment, 
        evolutionary development, and stable requirements. According to 
        DOD, EASE is intended to help stabilize funding, staffing, and 
        subtier suppliers; help ensure mission continuity; reduce the 
        impacts associated with obsolescence and production breaks; and 
        increase long-term affordability with cost savings of over 10 
        percent. DOD anticipates first applying the EASE strategy to 
        procuring two AEHF satellites beginning in fiscal year 2012, 
        followed by procurement of two SBIRS High satellites beginning 
        in fiscal year 2013. According to the Air Force, it will 
        consider applying the EASE strategy--once it is proven--to 
        other space programs, such as GPS III. We have not yet 
        conducted a review of the EASE strategy to assess the potential 
        benefits, challenges, and risks of its implementation. 
        Questions about this approach would include the following:
---------------------------------------------------------------------------
    \8\ In May 2010, the Secretary of Defense announced the Defense 
Efficiencies Initiative to increase efficiencies, reduce overhead 
costs, and eliminate redundant functions in order to improve the 
effectiveness of the DOD enterprise. The goal is to apply savings from 
this initiative to force structure and modernization.

                <bullet> What are the major risks incurred by the 
                government in utilizing the EASE acquisition strategy?
                <bullet> What level of risks (known unknowns and 
                unknown unknowns) is being assumed in the estimates of 
                savings to be accrued from the EASE strategy?
                <bullet> How are evolutionary upgrades to capabilities 
                to be pursued under EASE?
                <bullet> How does the EASE acquisition strategy 
                reconcile with the current Federal and DOD acquisition 
                policy, acquisition and financial management 
                regulations, and law?

        <bullet> The Air Force is developing a new acquisition strategy 
        for its EELV program. Primarily, under the new strategy, the 
        Air Force and National Reconnaissance Office are expected to 
        initiate block buys of eight first stage booster cores--four 
        for each EELV family, Atlas V and Delta IV--per year over 5 
        years to help stabilize the industrial base, maintain mission 
        assurance, and avoid cost increases. As mentioned earlier, we 
        have initiated a review of the development of the new strategy 
        and plan to issue a report on our findings in June 2011. Given 
        concerns raised through recent studies about visibility into 
        costs and the industrial base supporting EELV, it is important 
        that this strategy be supported with reliable and accurate 
        data.
 additional actions leadership, organization, and support may still be 
                                 needed
    The actions that the Office of the Secretary of Defense and the Air 
Force have been taking to address acquisition problems listed in tables 
2 and 3 are good steps. However, more changes to processes, policies, 
and support may be needed--along with sustained leadership and 
attention--to help ensure that these reforms can take hold, including 
addressing the diffuse leadership for space programs. Diffuse 
leadership has had a direct impact on the space system acquisition 
process, primarily because it has made it difficult to hold any one 
person or organization accountable for balancing needs against wants, 
for resolving conflicts among the many organizations involved with 
space, and for ensuring that resources are dedicated where they need to 
be dedicated. This has hampered DOD's ability to synchronize delivery 
of space, ground, and user assets for space programs. For instance, 
many of the cost and schedule problems we identified on the GPS program 
were tied in part to diffuse leadership and organizational stovepipes 
throughout DOD, particularly with respect to DOD's ability coordinate 
delivery of space, ground, and user assets. Additionally, we have 
recently reported that DOD faces a situation where satellites with 
advances in capability will be residing for years in space without 
users being able to take full advantage of them because investments and 
planning for ground, user, and space components were not well 
coordinated.\9\ Specifically, we found that the primary cause for user 
terminals not being well synchronized with their associated space 
systems is that user terminal development programs are typically 
managed by different military acquisition organizations than those 
managing the satellites and ground control systems.
---------------------------------------------------------------------------
    \9\ GAO, Defense Acquisitions: Challenges in Aligning Space System 
Components, GAO-10-55 (Washington, DC: Oct. 29, 2009).
---------------------------------------------------------------------------
    Recent studies and reviews examining the leadership, organization, 
and management of national security space have found that there is no 
single authority responsible below the President and that authorities 
and responsibilities are spread across the department.\10\ In fact, the 
national security space enterprise comprises a wide range of government 
and nongovernment organizations responsible for providing and operating 
space-based capabilities serving both military and intelligence needs.
---------------------------------------------------------------------------
    \10\ Institute for Defense Analyses, Leadership, Management, and 
Organization for National Security Space: Report to Congress of the 
Independent Assessment Panel on the Organization and Management of 
National Security Space (Alexandria, VA, July 2008), and House 
Permanent Select Committee on Intelligence, Report on Challenges and 
Recommendations for United States Overhead Architecture (Washington, 
DC, Oct. 2008).
---------------------------------------------------------------------------
    While some changes to the leadership structure have recently been 
made--including revalidating the role of the Secretary of the Air Force 
as the DOD Executive Agent for Space, disestablishing the Office of the 
assistant Secretary of Defense for Networks and Information Integration 
and the National Security Space Office, and aligning Air Force space 
system acquisition responsibility into a single Air Force acquisition 
office--and others are being studied, it is too early to tell how 
effective these changes will be in streamlining management and 
oversight of space system acquisitions. Additionally, while the 
recently issued National Space Policy assigns responsibilities for 
governmentwide space capabilities, such as those for SSA, it does not 
necessarily assign the corresponding authority to execute the 
responsibilities.
    Finally, adequate workforce capacity is essential for the front-end 
planning activities now required by acquisition reform initiatives for 
new weapon programs to be successful. However, studies have identified 
insufficient numbers of experienced space system acquisition personnel 
and inadequate continuity of personnel in project management positions 
as problems needing to be addressed in the space community. For 
example, a recent Secretary of the Air Force-directed Broad Area Review 
of space launch noted that while the Air Force Space and Missile 
Systems Center workforce had decreased by about 25 percent in the 
period from 1992 to 2010, the number of acquisition programs had 
increased by about 41 percent in the same time period.\11\ 
Additionally, our own studies have identified gaps in key technical 
positions, which we believed increased acquisition risks. For instance, 
in a 2008 review of the EELV program, we found that personnel shortages 
in the EELV program office occurred particularly in highly specialized 
areas.\12\ According to the EELV program office and Broad Area Review, 
this challenge persists.
---------------------------------------------------------------------------
    \11\ Institute for Defense Analyses, Launch Broad Area Review 2010 
(BAR-X) (Alexandria, VA, June 2010).
    \12\ GAO, Space Acquisitions: Uncertainties in the Evolved 
Expendable Launch Vehicle Program Pose Management and Oversight 
Challenges, GAO-08-1039 (Washington, DC: Sept. 26, 2008).
---------------------------------------------------------------------------
                           concluding remarks
    DOD is working to position itself to improve its space system 
acquisitions. After more than a decade of acquisition difficulties--
which have created potential gaps in capability, diminished DOD's 
ability to invest in new space systems, and lessened DOD's credibility 
to deliver high-performing systems within budget and on time--DOD is 
starting to launch new generations of satellites that promise vast 
enhancements in capability. In 1 year, DOD has or expects to have 
launched newer generations of navigation, communications, SSA, and 
missile warning satellites. Moreover, given the Nation's fiscal 
challenges, DOD's focus on fixing problems and implementing reforms 
rather than taking on new, complex, and potentially higher-risk efforts 
is promising. However, challenges to keeping space system acquisitions 
on track remain, including pursuing evolutionary acquisitions over 
revolutionary ones, managing requirements, providing effective 
coordination across the diverse organizations interested in space-based 
capabilities, and ensuring that technical and programmatic expertise 
are in place to support acquisitions. DOD's newest major space system 
acquisition efforts, such as GPS IIIA, DWSS, JMS, Space Fence, and the 
follow-on to the SBSS will be key tests of how well DOD's reforms and 
reorganizations have positioned it to manage these challenges. We look 
forward to working with DOD to help ensure that these and other 
challenges are addressed.
    Chairman Nelson, Ranking Member Sessions, this completes my 
prepared statement. I would be happy to respond to any questions you or 
other members of the subcommittee may have at this time.
                      contacts and acknowledgments
    For further information about this statement, please contact 
Cristina Chaplain at (202) 512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="30535851405c51595e537057515f1e575f461e">[email&#160;protected]</a> Contact 
points for our Offices of Congressional Relations and Pubic Affairs may 
be found on the last page of this statement. Individuals who made key 
contributions to this statement include Art Gallegos, assistant 
Director; Kristine Hassinger; Arturo Holguin; Rich Horiuchi; Roxanna 
Sun; and Bob Swierczek.
  appendix i: actions needed to address space and weapon acquisition 
                                problems
Before undertaking new programs
    Prioritize investments so that projects can be fully funded and it 
is clear where projects stand in relation to the overall portfolio.
    Follow an evolutionary path toward meeting mission needs rather 
than attempting to satisfy all needs in a single step.
    Match requirements to resources--that is, time, money, technology, 
and people--before undertaking a new development effort.
    Research and define requirements before programs are started and 
limit changes after they are started.
    Ensure that cost estimates are complete, accurate, and updated 
regularly.
    Commit to fully fund projects before they begin.
    Ensure that critical technologies are proven to work as intended 
before programs are started.
    Assign more ambitious technology development efforts to research 
departments until they are ready to be added to future generations 
(increments) of a product.
    Use systems engineering to close gaps between resources and 
requirements before launching the development process.
During program development
    Use quantifiable data and demonstrable knowledge to make go/no-go 
decisions, covering critical facets of the program such as cost, 
schedule, technology readiness, design readiness, production readiness, 
and relationships with suppliers.
    Do not allow development to proceed until certain thresholds are 
met--for example, a high proportion of engineering drawings completed 
or production processes under statistical control.
    Empower program managers to make decisions on the direction of the 
program and to resolve problems and implement solutions.
    Hold program managers accountable for their choices.
    Require program managers to stay with a project to its end.
    Hold suppliers accountable to deliver high-quality parts for their 
products through such activities as regular supplier audits and 
performance evaluations of quality and delivery, among other things.
    Encourage program managers to share bad news, and encourage 
collaboration and communication.
                   appendix ii: scope and methodology
    In preparing this testimony, we relied on our body of work in space 
programs, including previously issued GAO reports on assessments of 
individual space programs, common problems affecting space system 
acquisitions, and DOD's acquisition policies. We relied on our best 
practices studies, which comment on the persistent problems affecting 
space system acquisitions, the actions DOD has been taking to address 
these problems, and what remains to be done, as well as Office of the 
Secretary of Defense and Air Force documents addressing these problems 
and actions. We also relied on work performed in support of our annual 
weapons system assessments, and analyzed DOD funding estimates to 
assess cost increases and investment trends for selected major space 
system acquisition programs. The GAO work used in preparing this 
statement was conducted in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.

    Senator Nelson. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I sincerely apologize for not being able to be here when 
the hearing started. I want to thank all of our witnesses for 
being here.
    Let me start by congratulating the Air Force for the 
successful launch of the first SBIRS. The long-anticipated 
launch of this first of a kind, state-of-the-art satellite is a 
significant accomplishment and I congratulate the Air Force 
upon this major milestone.
    I don't need to remind our witnesses of the many challenges 
that led to the 9-year delay or the estimated $11.5 billion 
increase in total program cost. We just have to insist that DOD 
reverse that trend, as we go forward, that's been taking place 
over 2 decades. Maybe GAO can help. We must ensure that the 
taxpayers' money is spent wisely and that capabilities are 
delivered without delay or extra expense.
    As DOD, and in particular the Air Force, enters a new era 
of space acquisition driven by decreasing budgets, and we will 
have some of that, we'll try to protect the military as much as 
we can. We know space assets cannot be eliminated from our 
future budgets. Some might think so, but they cannot. Our whole 
infrastructure, as the chairman knows, and communications 
systems are space-based that are so critical to DOD, we can't 
allow that to be eroded.
    Being on the Senate Budget Committee, I have to tell you a 
lot of people are in denial about how serious our financial 
condition is. We're borrowing 40 cents of every dollar we 
spend, that cannot and will not continue. I would just share 
that with you. All of you are committed to the kind of 
procurement programs and expense reductions that help us 
strengthen our capabilities.
    I'm pleased that GAO has joined us and look forward to 
hearing their latest assessment of space acquisition efforts. 
In the past GAO has expressed a number of valid concerns over 
cost overruns, schedule slips, and capability gaps. In the 
fiscal year 2012 budget, the Air Force announced its intent to 
change the way it procures our multi-billion dollar space 
capabilities, and I look forward to GAO's comments on that.
    The fiscal year 2012 budget marks a fundamental shift for 
defense space. I appreciate that the Air Force has been working 
to ensure that its space programs are more executable and 
produce a better return on investment. However, I am concerned 
that some of this refocusing has come at the expense of needed 
investments in future technologies. The lack of sufficient 
technology risk reduction is a key reason we often experience 
cost overruns. Without that appropriate level of investment, we 
risk exacerbating the cycle of schedule slips, cost overruns, 
and credibility gaps.
    With the release of the NSSS, DOD and the IC have proposed 
a framework for responding to the current and projected 
strategic space environment. The NSSS aptly characterizes the 
congested, contested, and competitive nature of the space 
domain.
    However, I have significant concerns regarding the 
administration's stated intention of pursuing proposals and 
concepts for arms control measures. Since the release of the 
NSSS in February, it appears the administration is planning to 
go forward and maybe sign the EU Code of Conduct for Outer 
Space Activities.
    According to recent comments by Ambassador Schulte, the 
Deputy Assistant Secretary, who I thank you for joining us 
today, DOD has tentatively concluded that the EU Code of 
Conduct should be adopted and is consistent with the Obama 
administration's policy interests. I'm uncomfortable with these 
comments and have a number of questions.
    Any pursuit of a multilateral arms control agreement on 
space capabilities could have a number of highly damaging 
implications for our national security interests. To date, the 
administration has not consulted with the Senate on its intent, 
nor shared any specific provisions. Furthermore, it remains 
unclear if the administration has the authority to enter into 
such agreement without advice and consent.
    Mr. Chairman, this is an excellent panel. Thank you for 
convening it and thank you for your leadership and commitment 
to the defense of America. It's an honor for me to work with 
you.
    Senator Nelson. Thank you, Senator Sessions. I feel 
likewise. We've worked on so many different things for so long; 
it's a pleasure to continue to do so.
    I thought what we might do is have 6-minute rounds.
    General Shelton, you assumed command of the AFSPC in 
January. On a broad basis, what do you see as your greatest 
challenges? What did you see when you took your 
responsibilities? What was the greatest challenges that you 
could see out there?
    General Shelton. Senator, there's probably three things 
that I have established as top priorities. First, is to 
continue to support the joint fight and continue to support our 
brothers and sisters in harm's way. Second, is to get control 
of the cost of space programs, and you both have talked some 
about that, and we are at that work mightily. Third, is to 
operationalize and normalize the cyberspace domain within the 
Air Force. Those are the three things that we've been focused 
on at the top level.
    Senator Nelson. What plans do you have, on item number 2, 
to get control over the costs, which is one of the things that 
is foremost in our minds as we deal with budgetary issues?
    General Shelton. Yes, sir. A couple of things. First, is to 
do a better job of writing the requirements, such that we are 
not pushing the state-of-the-art of the technology, but rather 
that we accept very mature technologies. SBIRS is a very good 
case in point, we pushed pretty hard on the state-of-the-art 
and we ended up with long development timelines, over cost, and 
certainly over schedule.
    Second, I would tell you, is to manage the kinds of 
contracts that we write. We have in the past gone with much 
more of a development approach, as opposed to acquiring with a 
fixed-price approach. Where government has shared the cost with 
the contractor, now we want the contractor to identify the cost 
upfront such that we can be much more deterministic in how we 
develop our cost estimates.
    Senator Nelson. General Shelton, in some recent remarks at 
the National Space Symposium, you discussed the growing problem 
of space debris. You mentioned that the Air Force tracks 
approximately 20,000 objects, most of which is debris, and 
there are probably 10 times more objects that are too small to 
track at the same time, any one of which could be lethal to a 
satellite.
    I'd note that when China tested its anti-satellite weapon 
in 2007, space debris increased by as much as 25 percent. The 
collision of two satellites in 2009 added even more debris.
    Is there any possibility to remove some of that debris? For 
instance, we've heard of proposals to use a laser to remove 
that debris. Is there any other concept that's technologically 
possible that you might think of or that we might be able to 
develop? If it were feasible to have it, who would pay for it? 
Not just the United States, I would hope, but others who have 
contributed.
    If it can't be removed and we're faced with it, what indeed 
are the options? One of the concerns, of course, is that more 
debris increases the chances of a collision that, oddly enough, 
creates more debris. Perhaps you can share your thoughts on 
that?
    General Shelton. Senator, you're exactly right. Debris 
begets debris, just from a probabilistic point of view. We have 
not found a way that is either technically nor economically 
viable to eliminate debris. What we have done, both nationally 
and internationally, is encouraged the conduct of space 
operations in a way that it minimizes debris. As we launch new 
satellites, as we reach end of life on satellites, we think 
about disposal of those satellites. We think about mitigation 
and minimization of debris. We're encouraging others across the 
world to do the same.
    Senator Nelson. General Helms, to protect satellites you 
have to know what you're protecting them from. Improving space 
situational awareness, including the ability to detect and 
determine interference, is one of your major responsibilities. 
Obviously, there are many sensors that provide or could provide 
space situational awareness data. One of the problems, however, 
is the computer system that the JMS that utilizes this data to 
provide meaningful information, is old and no longer is able to 
handle the available data.
    Upgrading this system has proven to be an acquisition 
challenge. Do you have, and if you do, what's your vision for 
how this system should work in the future?
    General Helms. Thank you, Mr. Chairman. Yes, we do have a 
vision, and you're exactly right. The Space Defense Operations 
Center system is currently the capability that we use in order 
to track objects in space, including our satellite operations 
and pieces of debris. We have a sensor suite that's all over 
the world, that contributes to a catalogue and allows us to 
have knowledge of what is going on in space.
    The system on which that catalogue resides is aging 
rapidly. It's pretty much past its design life. It will become 
unsustainable due to the nature of the computer system that it 
rides on. This JMS capability is, in effect, a critical 
capability that we need to get in order to continue to do the 
mission that I'm responsible for, which is to have space 
situational awareness of all objects in space.
    The vision is that, first, we get that replacement in a 
timely manner so that we don't have a gap, which I would call 
an absolutely critical gap, between what we have today and 
being able to sustain what we have today, and then bring 
something on board that replaces it.
    Second, we need to have a vision of an open architecture. 
What I mean by that is there are sensors that we have in JFCC 
Space, but there are also other sensors that are available, 
potentially through the MDA, for example. If we set this up 
right, we'd have an open architecture that will, in effect, 
allow us to leverage the exposure of sensor data from all over 
the world, not just from my own sensors, but from others' as 
well.
    If we build a system with an open architecture such as 
that, then what we will have is a multiplying capability that 
will allow us to bring more capability to bear, to fuse data, 
and to watch the space environment.
    Third, the JMS capability would bring interface to the 
space professionals. Right now, they're faced with lines of 
text. I've seen the products myself. It's very cumbersome to 
work with. It slows them down. They have to use sneakernet, as 
we call it, in order to manage the knowledge that's necessary 
to understand what's happening in the space environment.
    If we were to be able to put some user interfaces in front 
of them that were more pictorial and much more comprehensive 
than what we're working with today, as is envisioned with the 
JMS capability, my young space professionals will take off. 
They will become much more sophisticated. They are really 
sharp. What they need is to have their creativity unleashed.
    The way that the JMS capability is envisioned will allow 
that to happen. We will have some pretty amazing forces at work 
here to try to understand what's happening in the domain as we 
acknowledge it as congested, competitive, and contested.
    Thank you.
    Senator Nelson. Thank you, General.
    Senator Sessions.
    Senator Sessions. Thank you.
    Ambassador Schulte, as I mentioned in my opening remarks, I 
am concerned about the EU Code of Conduct for Outer Space 
Activities. Can you tell us whether the administration intends 
to inform Congress prior to signing any multilateral 
commitments in space activities?
    Ambassador Schulte. The headline that came out of my speech 
in Colorado Springs was: ``Pentagon tentatively okays EU 
code.'' That headline was wrong. I trust that never happens 
here.
    Let me step back and explain what we're trying to achieve, 
where we are, and try to address some of the concerns that you, 
Senator, and at least 36 other Senators have raised, too. The 
national space policy from the President says, as you 
mentioned, we will consider arm control in space. It sets out 
three criteria: It has to be effectively verifiable, it has to 
be equitable, and it has to serve our national security 
interest.
    So far we haven't found an arms control agreement that does 
that. There's one on the table. It's been proposed by Russia 
and China. We have declared it, not very politely, but we've 
said it's fundamentally flawed because it's not verifiable and 
it's not clear it would even capture a lot of the Chinese 
counter-space systems that worry us.
    Instead of pursuing arms control at this point, we're open 
to it, we're looking at what we call transparency and 
confidence-building measures, voluntary measures to encourage 
responsible use of space.
    The one such set of measures that we are currently 
evaluating is the proposal from the EU, its proposed Code of 
Conduct for Outer Space Activities.
    Senator Sessions. Let me tell you my concern, and I've seen 
this for a number of years since I've been in the Senate. We 
have, in space, the most capable program in the world by far. 
We've advanced further technologically, in development, and 
actual deployment of systems than anyone else. Agreements, 
codes of conduct, tend to constrain our military. Our military 
is fundamentally configured so it depends on space capability.
    I would be a bit nervous, am a bit nervous, and want to 
examine carefully whether or not through some agreement we've 
constricted our ability to effectively defend our interests.
    Let me ask you a few questions and see if you can answer 
them briefly, and if you can I'd appreciate it. Has the AFSPC 
or STRATCOM reviewed and provided an assessment at this date to 
the draft code of conduct?
    Ambassador Schulte. Senator, in DOD, we are currently 
conducting an operations assessment of the EU code to see what 
the impact would be. Our goal isn't to constrain ourselves. We 
think we act pretty responsibly in space. The goal is to try to 
constrain new emergent space powers, to ensure they adopt 
procedures that would, for example, mitigate the creation of 
debris and avoid mishaps and instability in space.
    The goal of the IC and DOD is to protect our national 
security equities. We also, as the strategy says, have a stake 
in a domain in which others are operating that's a bit more 
predictable. We want to encourage other countries to apply the 
same type of standards that we do in space.
    Senator Sessions. Would there be any impact such as this in 
such an agreement, would there be anything that would impact a 
U.S. decision to deploy missile defense interceptors of any 
sort in space?
    Ambassador Schulte. Sir, the EU code is about behavior in 
space, it's not about capabilities in space. It would not, for 
example, prohibit the deployment of space-based interceptors. 
Now, if somebody wanted to do that and they're going to create 
a lot of debris by doing so, we might say that's a bad 
approach. But it doesn't prohibit deployment of space-based 
interceptors.
    Senator Sessions. As a practical matter, would it or could 
it impede our ability to do that?
    Ambassador Schulte. No, sir, not as we understand it.
    Senator Sessions. Is there anything in it that would impact 
the development, test, or deployment of an anti-satellite 
weapon such as the one successfully used in the 2008 Operation 
Burnt Frost?
    Ambassador Schulte. Sir, it would not do that. It doesn't 
constrain capabilities; it constrains behavior. In fact, 
Operation Burnt Frost, and I was in Vienna at the time and we 
did very well there, not just from a technical standpoint, but 
from a diplomatic standpoint, we showed how we were acting 
responsibly to minimize debris. In fact, the draft EU code as 
it now stands would allow such operations in the future.
    Senator Sessions. Would it impact, in any way, the 
research, development, testing, or deployment of a kinetic 
defensive system in outer space, one that could take out a 
satellite and let's say we're in an area of hostilities. 
There's a satellite that's providing intelligence information 
that places our military personnel at risk. Is there anything 
that would in any way impact our research, development, and 
testing of such a kinetic defense system in outer space?
    Ambassador Schulte. No, sir. It would discourage any 
activities that, again, would create a lot of debris.
    Senator Sessions. But it would be hard under our current 
technology to destroy a satellite that's spying on our 
military. Would this agreement keep us from doing that?
    Ambassador Schulte. Senator, actually there are many ways, 
that we can't discuss entirely here, to neutralize another 
satellite, and you can certainly do it without creating a lot 
of debris.
    The other thing I should mention, sir, if I could, is 
that----
    Senator Sessions. I'm not sure that I'm totally sold on 
that, that you can necessarily impact all satellites without 
creating debris. Are you sure that's accurate?
    Ambassador Schulte. Sir, we could go into another session 
for that, certainly the Chinese, for example, are looking at 
ways of neutralizing satellites that don't create a lot of 
debris.
    The other thing that----
    Senator Sessions. Looking at it and doing it are two 
different things. Excuse me; go ahead.
    Ambassador Schulte. Sir, I just wanted to mention, the code 
is voluntary, it can be put aside if you have to. It's not a 
treaty. It's not legally binding. It also is full of references 
to the inherent right of self defense, and you can imagine at 
DOD we appreciate that. It allows actions to be taken for self 
defense.
    As General Kehler told another panel recently, we see it as 
largely consistent with our operations plans, with our current 
practice, but we are doing a detailed assessment.
    Senator Sessions. What are your plans about advising and 
briefing Congress on this before anything is signed?
    Ambassador Schulte. Sir, I would actually defer to the 
Department of State (DOS) about how to handle that with 
Congress. Having said that, though, in response to the letter 
that you and many of your colleagues signed, there was a 
response. We offered briefings to your staff. I'm happy to come 
meet with you separately on this. We understand that many have 
concerns about this and we're prepared to come and talk to you 
about them.
    Senator Sessions. Are Russia and China involved in these 
discussions?
    Ambassador Schulte. Russia and China are interesting. The 
two countries that are most nervous about the EU code are 
Russia and China. Part of that is because they see the code as 
a competitor to the arms control agreement that they've 
proposed, which we've found as fundamentally flawed. They've 
been a little bit reluctant to look at the code.
    As they see more and more countries looking at the code 
they're thinking, gee, maybe we should look at this, too. We 
have encouraged them to consider it, making clear we haven't 
made a final decision. Again, we see this as a possible way to 
get the Russians and the Chinese to act more responsibly.
    Only if we sign the code along with the EU, otherwise it's 
meaningless. We want to get the Russians and the Chinese into 
this type of framework. We want to get the Indians in there and 
we want to get Brazil. Again, the goal is in many ways to 
export the best practices that we use, to other parts of the 
world, to create a more predictable space environment, while 
still protecting our defense equities.
    Senator Sessions. We've spent billions of dollars to 
produce a fabulous SATCOM network that is a critical part of 
our defense structure. I would hate to see us take any action 
that would neutralize any part of that capability we've 
invested so much to achieve.
    Thank you.
    Ambassador Schulte. Thank you, sir.
    Senator Nelson. Thank you, Senator.
    General Formica, the Army is heavily dependent on space 
systems for much of what you do, particularly in theater. This 
subcommittee is worried about disconnects between the equipment 
that enables the warfighter to utilize space systems, 
particularly GPS and communications, and the satellites 
themselves. Improved capability is on orbit, but the equipment 
is not fielded. Do you see this as an issue for the Army? What 
are your thoughts?
    General Formica. Senator, thank you. As you said, the Army 
is invested in space capabilities and requires them in order to 
function our operating forces in theater and around the world. 
We are dependent on GPS SATCOMs, among others. Having reliable 
ground systems and being able to push those down to the lowest 
level is important to us and it is a capability that is 
something that needs to be developed and that we count on.
    Senator Nelson. In your statement, you mention the Army 
space support teams. Apparently these teams play a vital 
function in providing space support to commanders in the field. 
In your view, do these teams have all the support they need or 
do they need additional support or access to information?
    General Formica. Senator, again, thank you for the 
question. The Army space support teams and the space support 
elements which go at the various levels of Army commands and 
our operational forces are an essential part of our space 
cadre. We manage over 300 space professionals as part of the 
space cadre and they are well-trained. They train in a joint 
environment. They train not only at schools that we've 
developed at Space and Missile Defense Command, but we rely on 
the Air Force National Strategic Space Institute for some of 
the advanced training that these space professionals get. They 
go to the Navy Postgraduate School and other advanced civil 
schooling. They're very well-trained.
    We've deployed now our 60th Army space support team 
rotation in support of forces in Iraq and Afghanistan. They 
provide reachback capability to those forces to access the 
space capabilities that our joint forces provide. They are a 
very essential part of what it is we do. We maintain the 
capability to continue that rotation. They get the support that 
they need, and they're clearly a capability that operational 
commanders seek when they get ready to deploy.
    Senator Nelson. Thank you.
    Dr. Zangardi and Admiral Titley, as I mentioned in my 
opening statement, last year the first MUOS satellite was 
expected to launch in September of this year. Now it looks like 
the first satellite will not launch until mid-2012. In your 
prepared statement you indicate that there's an issue with 
scheduling the launch. Is that the only reason for the delay, 
and what is the cost of the delay, both in terms of dollars and 
operational capacity?
    Dr. Zangardi. Yes, sir. Thank you for the question, sir. We 
project that the launch will occur in February 2012. We've been 
provided with a launch slot and that was firmed up a few months 
ago. The on-orbit capability for the first space vehicle of 
MUOS will be available in May 2012.
    As far as the cost for that delay, we'll have to take that 
as a question for the record. I'm not prepared to answer that 
today.
    [The information referred to follows:]

    In March 2011 the assignment of Mobile User Objective Satellite 
(MUOS) 1 to a February 2012 launch slot was finalized by the Air Force 
as the earliest slot available since higher-priority National 
Aeronautics and Space Administration missions had been assigned to 
August 2011 and November 2011 launch slots. Current Ultra-High 
Frequency (UHF) Follow-On (UFO) availability models project that the 
UFO constellation will meet its availability requirement beyond MUOS 1 
On-Orbit Capability in May 2012, so no impact to operational capacity 
is expected. The program incurred an additional cost of approximately 
$3.7 million due to the extension of contractor program management and 
system engineering effort for 4.5 months.

    Senator Nelson. Okay. Is there any danger that that program 
might experience a Nunn-McCurdy breach?
    Dr. Zangardi. Sir, in my view, and having talked with the 
program manager extensively before coming here, our view is 
that it will not at this point in time.
    Senator Nelson. Is there anything that could cause that to 
happen that you're aware of?
    Dr. Zangardi. Sir, at this time there's nothing that I'm 
aware of that could cause that. That does not preclude the 
possibility that something can occur, because, as we know, 
space is very complicated.
    Senator Nelson. Admiral Titley, how do you approach this 
from your perspective?
    Admiral Titley. Yes, sir, Senator. Thank you for the 
question. As we look at the amount of UHF capability that is in 
orbit today and how between a combination of some legacy Fleet 
Satellite Communication Systems, some leased satellites, and 
some Skynet as well as our UFO constellation, we believe that 
we will have in excess of 70 percent of that constellation 
still available by the time that the first MUOS bird achieves 
on-orbit capability in May 2012.
    There's a number of reasons for that. STRATCOM has worked 
very hard along with the UFO program office. We have been able 
to squeeze more capability out of the existing constellation. 
We're careful on how we reprioritize. We've been careful with 
how we've used the leases. That has us to the point where we 
believe we will have again in excess of 70 percent of our 
capacity, which is the benchmark, by the time MUOS No. 1 
achieves on-orbit capability.
    Thank you, sir.
    Senator Nelson. What are your thoughts about a potential 
Nunn-McCurdy breach?
    Admiral Titley. I would just echo Dr. Zangardi's comments 
there, sir. From my perspective, I have not seen anything from 
the program briefs that at this point in time trigger that 
concern. As Dr. Zangardi said, this is something you always 
have to keep watching for.
    Senator Nelson. Thank you.
    Senator Sessions.
    Senator Sessions. General Shelton, Ambassador Schulte, and 
Ms. Chaplain, over the 5-year Future Years Defense Program 
budget for 2012, the cost for space launch vehicles has risen. 
Last year the budget called for 26 launch vehicles from fiscal 
year 2012 to fiscal year 2016 at a cost of $6.4 billion. This 
year's budget for the same time period reduces the number of 
launch vehicles by three, but the cost appears to have risen 
from $6.4 billion to $9.8 billion. That's three less rockets, 
but a $3.4 billion increase in cost.
    How much of this price increase is related to the 
cancellation of the National Aeronautics and Space 
Administration's (NASA) Constellation program, which I know is 
some of it, and a lack of a clear NASA pathway for heavy lift? 
Would you comment on that?
    Ambassador Schulte. Senator, I'd be glad to. First, we need 
to start with an economic order quantity buy of piece parts for 
the rockets that started with the beginning of the EELV 
program. When we first started that program, we thought we were 
going to have a very robust commercial launch market. The 
vendors went out, bought a lot of parts, and got good deals on 
the buys of those parts. We are entering the end of those parts 
and it's time to buy new.
    We're buying smaller quantities. A lot of the vendors that 
we used before are no longer in business. In terms of the cost 
of upper stages, individual components that go on larger 
components, those prices have increased, as well as the engines 
for the rockets themselves.
    As we go through with this new strategy to buy eight 
rockets per year, five for DOD, three for the National 
Reconnaissance Office, we will try to bring those costs down by 
going at it with a much more fixed-price mindset and again get 
back to an economic order quantity capability for the United 
Launch Alliance, our launch provider, and get down to lower 
costs as much as we can.
    This is just a relatively small market that we're in here 
and it's just very difficult to contain the costs, but we're 
working hard at it.
    Senator Sessions. The Air Force is dependent and required 
to provide the entire support now that NASA has reduced its 
play, participation, and consumption, NASA used to consume 70 
percent of this capability. Has that impacted the price for the 
Air Force?
    Ambassador Schulte. Senator, you're talking about the solid 
rocket capability?
    Senator Sessions. Right.
    Ambassador Schulte. We're not a big player in the big solid 
rocket business. That's the business of the strategic programs 
of the Air Force and the Navy, the strategic missile programs. 
In the space launch business we use liquid propulsion.
    Senator Sessions. Ms. Chaplain, would you like to comment 
on that, please?
    Ms. Chaplain. Yes. Specifically about the engines, their 
effect on price, and what's going on in the NASA Constellation 
program. I do believe the engine prices are supposed to be 
increasing because there is a lot of uncertainty of what NASA's 
going to do in terms of the Constellation program and that 
could be factoring into the prices considerably.
    When will we know what NASA's going to be doing? It should 
be this year, but there's still a lot of unknowns about how 
NASA's going to answer its own authorization requirements. The 
Senate Commerce Committee laid out an architecture that it 
desires to see and NASA has not come back yet and answered how 
they're going to answer that architecture.
    We still have uncertainty and until that certainty comes 
it's likely that those engine prices are going to be higher.
    Senator Sessions. I agree. I talked to one of the Chief 
Executive Officers involved in this said the number one thing 
going on in our supply base right now is uncertainty, and 
really it's uncertainty on what NASA is going to do. So we're 
trying to work on that problem.
    Let me ask this. In their mark of the National Defense 
Authorization Act for Fiscal Year 2012, the House Armed 
Services Committee chose not to fund MDA's request for $160.8 
million for the Precision Tracking Space System (PTSS). I 
talked to General O'Reilly about that and he is concerned that 
this is a decision that could increase costs.
    Ms. Chaplain, the MDA programs are part of your GAO 
portfolio. Do you have any concerns with the MDA's strategy for 
PTSS or MDA leading the acquisition of a major space system?
    Ms. Chaplain. A couple months ago in our MDA report we 
reported on the PTSS program along with all the other MDA 
systems, and it's still fairly early in the program. We did 
note that the program is adopting some practices that we like 
to see in space programs, one being that they want to build 
prototypes before operational satellites.
    Senator Sessions. In other words, DOD would basically build 
the prototypes and own the proprietary data, the patents or the 
rights to procure?
    Ms. Chaplain. Yes. They would be working with the U.S. 
Naval Research Laboratory and the Johns Hopkins Applied Physics 
Lab up the road, the two labs, to build prototype satellites. 
It's unclear whether the prototypes are going to be what the 
operational satellites are going to end up being. It's also 
something else we're trying to pursue as to the extent to which 
the schedules for developing the prototypes overlap the 
operational satellite schedules; are we giving enough time 
there to actually learn from the prototypes and feed that into 
the subsequent effort by contractors?
    The other thing MDA has been trying to do that we thought 
was good, is keep requirements simple for PTSS. There are 
pressures and ideas for other things that PTSS could do.
    We do have a concern about capability in terms of managing 
the large space program at MDA in terms of broader workforce 
issues across DOD and are we stretching the space workforce and 
the acquisition capability for space a little too thin. We 
haven't reported on that issue and we haven't done enough 
exploration about what MDA has versus what the Air Force has to 
be able to make reasonable comparisons.
    Senator Sessions. Mr. Chairman, I would just say that it's 
possible the House didn't have all the information that's 
necessary on this system. General O'Reilly suggests that it 
could actually save a lot of money and get more capability.
    General Shelton, do you have any thoughts about that, 
briefly?
    General Shelton. Senator, I talked to General O'Reilly just 
before coming over here and by what he has shown me it looks 
like a very capable system. Certainly not my area, but in terms 
of the way he described the capability and what it brings to 
missile defense and potentially to space situational awareness 
as well, it looks like a very valuable capability.
    Senator Sessions. Thank you. It may be that we can work 
together to determine what would be the best thing to do, 
because a satellite could do more than other systems at less 
cost.
    General Formica. Senator Sessions, would it be appropriate 
for me to comment?
    Senator Sessions. Please.
    General Formica. I actually speak from my operational 
perspective as STRATCOM's JFCC for Integrated Missile Defense. 
I can't speak to the programmatics of the PTSS. I will leave 
that to General O'Reilly. But the operational implications of 
having PTSS or a capability like that is the ability to defend 
against larger raid sizes. It has increased capability. It 
would reduce our reliance on terrestrial-based radar systems 
which require host nation basing agreements, or even airborne 
platforms that require air space. It's a persistent satellite-
based contributor to the missile defense and would provide 
quality control tracking data that we would need.
    It is a viable capability and there are operational 
implications to not having it. Again, I'll defer the 
programmatic discussions to General O'Reilly.
    Senator Sessions. Briefly, he indicated that it has 
exceeded your expectations when you started with that program 
technologically?
    General Formica. We know that the Space Tracking and 
Surveillance System, which is its predecessor capability, was 
recently successful in being able to transmit data during the 
flight test mission-15 a couple weeks ago.
    Senator Nelson. Thank you, Senator Sessions. I have to go 
to the White House following the vote, but I'll be glad to 
leave this open and it will be in your very capable hands.
    Senator Sessions. Thank you. I appreciate this panel. I 
might have a question or two and then we'll wrap it up.
    Senator Nelson. That sounds fine.
    Senator Sessions. Thank you, and make sure you figure a way 
to balance that budget, and not on the backs of the military.
    Senator Nelson. I'll do my best.
    Senator Sessions [presiding]. Thank you.
    General Shelton, in January the Deputy Secretary of Defense 
voiced significant concerns to the Chairman of the Federal 
Communications Commission (FCC) regarding the FCC's provisional 
authorization of LightSquared's new wireless broadband proposal 
and the potential for interference with GPS signals, which our 
DOD relies on in a lot of different ways.
    Secretary Lynn states that there's a ``strong potential for 
interference to these critical national security systems,'' and 
that ``DOD strongly recommends the FCC defer final action until 
proper interference analysis and mitigation studies can be 
conducted.''
    Do you agree with the concerns expressed by Secretary Lynn 
and what are the national security implications if we have 
interference problems?
    General Shelton. Senator, at the time he signed that letter 
and a subsequent letter in March, we had analytical data from 
an equipment manufacturer and some of the information that our 
program office in Los Angeles had been able to gather. We have 
since conducted actual testing using LightSquared's equipment, 
civil, commercial, and military GPS receivers at Kirtland Air 
Force Base. Although the data is still being analyzed, I would 
tell you that the empirical data appears to be consistent with 
the analytical data.
    Yes, sir, we have concerns for commercial, civil, and 
military applications.
    Senator Sessions. People with a GPS in their car could have 
problems also?
    General Shelton. Yes, sir.
    Senator Sessions. We have to look at these things as we go 
forward and I think it's very appropriate to ask FCC to look at 
it hard.
    I realize the vote time is winding down. I thank all of you 
for your service. We believe in what you do. People do not 
appreciate the extent to which our space capabilities help sea, 
air, and land teams, unmanned aerial vehicles, Army squad 
leaders all over the world, and Navy ships and capabilities. 
It's an extraordinary thing that this Nation has accomplished. 
No nation in the world has ever achieved so much in this 
regard. It costs a good deal, but it saves a lot of money too 
in a lot of different ways in making our military more capable 
and requiring less support.
    Thank you for your attendance. We will be submitting some 
written questions and I hope that you'll be able to answer 
those within the time required. Thank you.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator E. Benjamin Nelson
                        protecting space assets
    1. Senator Nelson. General Helms, to protect satellites, you have 
to know what you are protecting them from. Improving space situational 
awareness (SSA), including the ability to detect and determine 
interference, is one of your major responsibilities. There are many 
sensors that provide or could provide SSA data. One of the problems, 
however, is the Joint Space Operations Center (JSpOC) Mission System 
(JMS), that utilizes this data to provide meaningful information is old 
and no longer able to handle the available data. Upgrading this system 
has proven to be an acquisition challenge. What is your vision for how 
this system should work?
    General Helms. My vision for the JMS is that information technology 
be a modern, scalable, service-oriented architecture that is capable of 
collecting, processing, displaying, and disseminating data across 
multiple security levels. Information technology should be able to 
receive and transmit data to and from current and future military, 
commercial, and allied sources to enable rapid, proactive 
decisionmaking and effective operations.
    To do this effectively JMS should be designed on an open 
architecture with an efficient, user-definable interface. Information 
technology should be easily expandable in terms of capacity, 
throughput, and storage. Its interfaces with all space systems and 
current and future SSA sensors should be efficient and effective. 
Finally, JMS must be net-centric to enable distributed operations, 
rapid dissemination of information, and continuity of operations.
    To achieve this, the acquisition process must allow for rapid 
identification, development, testing, integration, and operation of new 
capabilities to address emerging threats and to support current, 
future, and unanticipated future missions. Close collaboration with the 
user is key. The legacy systems have been primarily focused on 
integrating space surveillance metric track data. JMS, as a modern, 
flexible, and extensible platform, should be able to incorporate 
additional intelligence and non-Space Surveillance Network data to 
enhance the JSpOC's ability to collaborate with mission partners to 
identify and characterize threats interfering with U.S. space assets.

    2. Senator Nelson. General Shelton, you recently made a decision to 
take a pause in developing a new JMS, and move the acquisition 
responsibility to the Space and Missile Systems Center. What was your 
reasoning behind that decision and what impact does this have on new 
operating capability?
    General Shelton. The combination of the JMS program cost estimate 
growth to $1 billion or more and the required sustainment of legacy 
systems until 2019 levied an unacceptable risk to space operations and 
the Air Force Space Command (AFSPC) budget. In January 2011, the Office 
of the Secretary of Defense for Acquisition, Technology, and Logistics 
(OSD AT&L) directed an Independent Program Assessment (IPA) of the 
program. Although the IPA found the operational needs and system 
requirements compelling, information technology found the current 
acquisition strategy and approach inadequate. The IPA made several 
recommendations including a revised acquisition strategy and the 
extension of the prototyping phase to provide critical capabilities and 
reduce the risk for an agile information technology strategy.
    The IPA results provided an opportunity for a strategic pause, and 
the Air Force and the Office of the Secretary of Defense (OSD) 
evaluated potential courses of action that would incorporate the IPA 
recommendations. The result is an approach that fully leverages 
multiple prototype development efforts while capitalizing on the 
initial JMS service-oriented architecture and user-defined operational 
picture. This approach will provide early-use capability, allow JMS to 
provide more timely space effects, and utilize new data sources 
quicker. Information technology allows decommissioning of the legacy 
SSA systems soonest, avoiding an extended legacy sustainment bill. 
Finally, information technology establishes rigorous systems 
engineering and test and training processes early, enabling successful 
rapid integration.
    In evaluating the JMS course of action, information technology was 
also determined the Space and Missile Systems Center (SMC) was best 
suited to conduct this acquisition. Among SMC's core competencies is 
SSA which is the foundation of the capabilities we must deliver in JMS. 
The impact is key mission capability delivered to the warfighter 
sooner.

    3. Senator Nelson. General Hyten, in your view is the acquisition 
system simply not structured to buy a new JMS, and if not, what has to 
change?
    General Hyten. Air Force leadership agrees with the 2009 Defense 
Science Board (DSB) Task Force report on the Acquisition of Information 
Technologies that there are challenges associated with acquiring agile 
information technology under the current Department of Defense (DOD) 
5000.02 acquisition policy. The DSB concluded that, ``The conventional 
DOD acquisition process is too long and too cumbersome to fit the needs 
of the many systems that require continuous changes and upgrades--a 
reality driven by the short half-life of commercial information 
technology, supportability of hardware (which is often a commodity), 
software applications, and operational requirements.''
    DOD is progressing toward developing a new acquisition process for 
information capabilities (as initially described in the November 2010 
report to Congress titled, ``A New Approach for Delivering Information 
Technology Capabilities in the Department of Defense''), that embraces 
the tenets of section 804, paragraph (b) of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010, to include: (1) early 
and continual involvement of the user; (2) multiple, rapidly executed 
increments or releases of capability; (3) early, successive prototyping 
to support an evolutionary approach; and (4) a modular, open-systems 
approach. A new policy designed with these tenets in mind will provide 
DOD and the Air Force the flexibility to develop agile information 
technology while providing the foundation and structure to ensure 
programmatic success and fiscal responsibility.
    In January 2011, OSD AT&L directed an IPA of the JMS program. 
Although the IPA found the operational needs and system requirements 
compelling, information technology found that the JMS acquisition has 
not incorporated agile information technology acquisition practices.
    JMS is being restructured to better implement these concepts and 
has been reassigned to Program Executive Office (PEO) Space at SMC. SMC 
is synergistically aligned with AFSPC and 14th Air Force and has the 
requisite space domain expertise. They will be better poised to 
successfully develop this critical space capability in the timeframe 
necessary to migrate off the increasingly unsustainable legacy systems.

    4. Senator Nelson. General Helms, as the Joint Functional Component 
Commander for the U.S. Strategic Command (STRATCOM), you work with 
commercial space companies and other countries to share SSA data. You 
mentioned in your statement that there are now 23 data sharing 
agreements in place. How is the data sharing working in practice, is 
information technology valuable, is the data reliable, are you seeking 
additional agreements, and are there any implementation problems?
    General Helms. As of 1 June 2011, we have 24 signed SSA Sharing 
Agreements. The program is working very well. Companies with agreements 
submit data requests directly to Joint Functional Component Command for 
Space (JFCC Space), and if the request is consistent with national 
security interests and we have the resources available, we provide the 
information to the company. Additionally, as an emergency service, we 
provide all global operators with alerts when there will be a close 
approach between their satellites and other objects. Data sharing is 
invaluable to our space operations. It has improved our SSA, increased 
our capabilities, and resulted in greater cooperation between allied, 
coalition, and commercial partners. Our partnerships have allowed us to 
better understand domestic and international commercial space 
operations and processes to include satellite status, orbit maneuver 
plans, and launch windows and parameters; information that would have 
been almost impossible to get without these agreements in place. These 
agreements will be even more important as space becomes more congested, 
competitive, and contested. For example, companies notify us of planned 
maneuvers and launches which enables us to proactively posture sensors 
for tracking and understand a change in status before it occurs, rather 
than reacting to events. This program is extremely valuable as an 
example of U.S. leadership and international confidence-building.
    Data reliability is good and getting better. We receive operator 
information, compare it to our own, and incorporate the useful 
information. Demand for SSA sharing services is growing. We are 
currently talking with two additional interested companies and we will 
begin entering agreements with international governments once we 
receive Department of State (DOS) and DOD approval.

    5. Senator Nelson. General Helms, there are many other sensors that 
could provide SSA data that are not currently incorporated to the 
JSpOC. AFSPC is providing a small amount of operational support to an 
array of radio receivers to determine if these privately owned 
receivers could provide additional SSA. Could you look into these and 
provide your thoughts?
    General Helms. The Allen Telescope Array (ATA) is capable of 
providing SSA data that could supplement current sensors, track 
transmitting satellites without disruption from the sun or most 
weather, and provide a ``special event'' RF observation capability. Air 
Force Tactical Exploitation of National Capabilities has successfully 
demonstrated that the ATA can provide position data on transmitting 
satellites and conduct secure direct-to-disk observations. We are 
always interested in ways to improve our SSA capabilities and the 
surveillance network. We support AFSPC desire to further assess ATA 
through a military utility assessment to determine the benefit it could 
provide to SSA and whether such a capability could be provided in a 
cost effective manner.

                 mobile user objective system satellite
    6. Senator Nelson. General Helms, as I mentioned in my opening 
statement, last year the first Mobile User Objective System (MUOS) 
satellite was expected to launch in September of this year, now 
information technology looks as if the first satellite will not launch 
until mid-2012. If the launch of the first MUOS is late solely as a 
result of congestion in the launch schedule, what is the plan to manage 
the schedule?
    General Helms. Satellite vehicles are assigned launch slots as 
early as 24 months in advance. If they fail to meet these slot dates, a 
backup will be scheduled in its place and the satellite vehicle will 
have to compete for subsequent launch slots based on booster 
availability and national priorities.
    The MUOS-1 launch was delayed when the satellite vehicle did not 
complete thermal vacuum testing on time, a major processing milestone. 
Launch slot priority was given to a mission more likely to meet the 
launch slot date. Unfortunately, the next two launch slots support 
National Aeronautics and Space Administration's (NASA) two inter-
planetary missions scheduled to launch from Cape Canaveral Air Force 
Station with fixed launch windows and no launch opportunity between the 
two missions. The length of MUOS-1 delay is based on booster 
availability and national priorities rather than congestion.
    MUOS-1 is currently scheduled for the February 12, 2012, Atlas V 
launch slot.

    7. Senator Nelson. General Helms, how are launch priorities 
determined?
    General Helms. The quarterly Current Launch Schedule Review Board 
integrates a wide range of inputs to determine the Current Launch 
Schedule (2 year schedule). Inputs are received from AFSPC, the Federal 
Aviation Administration (FAA), NASA, National Reconnaissance Office 
(NRO), STRATCOM, Constellation Sustainment Assessment Teams (CSAT) and 
other organizations who have spacecraft preparing to launch. Launch 
priority is then based on all inputs, national priorities, and 
satellite/launch vehicle readiness to meet assigned launch dates.

                      acquisition lessons learned
    8. Senator Nelson. Ms. Chaplain, you and your colleagues at the 
Government Accountability Office (GAO) have spent many years following 
space acquisition programs. As most of these challenging programs are 
on the cusp of operations, what are the lessons learned from years of 
late and over budget programs?
    Ms. Chaplain. Key lessons on acquiring space systems have been 
learned the hard way over the past decade. These lessons mirror many of 
the best practices identified in our prior reports. Principally, 
information technology is vital that programs start with as much 
critical knowledge on requirements, technology, schedule, and cost as 
possible, and that they not be allowed to move into more complex phases 
of development without demonstrating that defined levels of knowledge 
have been attained. Most of the programs that have experienced 
significant delays and overruns lacked critical knowledge at the start 
and throughout. Another key lesson is that programs be set up in 
achievable increments versus revolutionary advances. In other words, 
not every military satellite initially needs to serve all the needs of 
multiple communities. Lastly, while acquisition ``reform'' and adopting 
``commercial'' practices intuitively seem like the right things to do, 
DOD has learned that information technology needs to stay knowledgeable 
and involved in its acquisition efforts and provide adequate oversight. 
Many of the problems we have identified in the past decade can be 
linked back to reform initiatives that loosened oversight, quality 
standards, and government involvement. Table 1 highlights practices we 
have recommended that could benefit space programs.
Table 1: Actions Needed to Address Space and Weapon Acquisition 
        Problems
    Before undertaking new programs:
        <bullet> Prioritize investments so that projects can be fully 
        funded and information technology is clear where projects stand 
        in relation to the overall portfolio.
        <bullet> Follow an evolutionary path toward meeting mission 
        needs rather than attempting to satisfy all needs in a single 
        step.
        <bullet> Match requirements to resources--that is, time, money, 
        technology, and people--before undertaking a new development 
        effort.
        <bullet> Research and define requirements before programs are 
        started and limit changes after they are started.
        <bullet> Ensure that cost estimates are complete, accurate, and 
        updated regularly.
        <bullet> Commit to fully fund projects before they begin.
        <bullet> Ensure that critical technologies are proven to work 
        as intended before programs are started.
        <bullet> Assign more ambitious technology development efforts 
        to research departments until they are ready to be added to 
        future generations (increments) of a product.
        <bullet> Use systems engineering to close gaps between 
        resources and requirements before launching the development 
        process.
    During program development:
        <bullet> Use quantifiable data and demonstrable knowledge to 
        make go/no-go decisions, covering critical facets of the 
        program such as cost, schedule, technology readiness, design 
        readiness, production readiness, and relationships with 
        suppliers.
        <bullet> Do not allow development to proceed until certain 
        thresholds are met--for example, a high proportion of 
        engineering drawings completed or production processes under 
        statistical control.
        <bullet> Empower program managers to make decisions on the 
        direction of the program and to resolve problems and implement 
        solutions.
        <bullet> Hold program managers accountable for their choices.
        <bullet> Require program managers to stay with a project to its 
        end.
        <bullet> Hold suppliers accountable to deliver high-quality 
        parts for their products through such activities as regular 
        supplier audits and performance evaluations of quality and 
        delivery, among other things.
        <bullet> Encourage program managers to share bad news, and 
        encourage collaboration and communication.

    Source: GAO.

    9. Senator Nelson. Ms. Chaplain, do you see these lessons being 
applied to new programs, such as the Defense Weather Satellite System 
(DWSS)?
    Ms. Chaplain. In general, DOD is working to ensure that critical 
technologies are matured before large-scale acquisition programs begin, 
requirements are defined early in the process and are stable 
throughout, and system design remains stable. DOD also intends to 
follow incremental or evolutionary acquisition processes versus 
pursuing significant leaps in capabilities involving technology risk 
and has done so with the only new major satellite acquisition program 
undertaken by the Air Force in recent years--GPS IIIA. DOD is also 
providing more program and contractor oversight and putting in place 
military standards and specifications in its acquisitions. 
Additionally, DOD and the Air Force are working to streamline 
management and oversight of the National Security Space Enterprise. 
Regarding DWSS, we have not conducted a detailed review of the 
development effort to determine the extent to which lessons learned are 
being applied.

               future for operationally responsive space
    10. Senator Nelson. Ambassador Schulte and General Shelton, the 
Operationally Responsive Space (ORS) Office has had several successful 
space efforts, including TACSAT-3, demonstrating the military utility 
of small satellites to the warfighter. Two more small satellites, 
TACSAT-4 and ORS-1, should be launching shortly. What are your views on 
the future utility of small satellites from an operational and a policy 
perspective?
    Ambassador Schulte. Small satellites can play a role in making our 
space architectures more resilient and in providing tailored 
capabilities to the warfighter, goals that help fulfill several 
strategic approaches in the National Security Space Strategy (NSSS). 
Resilient architectures contribute to deterring aggression against 
space infrastructure that supports U.S. national security, and provide 
a means to operate in a degraded environment should deterrence fail. 
One approach to improve resilience is to disaggregate specific missions 
or payloads, and satisfy requirements by flying multiple smaller 
satellites. Smaller, more responsive space capabilities also improve 
our ability to operate in a degraded environment by enabling the DOD to 
respond quickly to urgent needs or reconstitute a capability after it 
is lost. Small satellites can also help address the challenges of our 
space industrial base, providing a steady requirement for many smaller 
satellites spread over many years and offering opportunities to 
incorporate new technologies and innovations rapidly.
    General Shelton. As you mentioned, the TACSAT-3 spacecraft built by 
the Air Force Research Laboratory has demonstrated the military utility 
of a hyper-spectral imaging sensor. We believe that both the Naval 
Research Laboratory TACSAT-4 and ORS Office/AFSPC ORS-1 spacecraft will 
provide unique capabilities to the warfighter and useful data regarding 
small spacecraft performance.
    The National Space Policy (NSP) directs DOD to develop and exercise 
capabilities and plans for operating in and through a degraded, 
disrupted, or denied space environment. We need to think about new ways 
to field our future satellite constellations in terms of higher 
resiliency and increased assurance. Smaller satellites may be one 
approach to the problem. There may be other creative ways to 
disaggregate capabilities or distribute sensors and networks to provide 
adequate space capabilities. Many applications, such as communications, 
navigation, or missile warning, require a constellation of spacecraft 
to provide persistent global coverage. In the future, a strategy of 
greater distribution of spacecraft constellations, responsive launch 
for critical capabilities and/or on-orbit spares may provide needed 
resilience in a contested space environment.

    11. Senator Nelson. General Formica, the Army has been putting a 
lot of effort into small satellites, including a small satellite called 
Kestrel Eye. What is driving this attention on small satellites?
    General Formica. Space capabilities are required for the Army to 
shoot, move, and communicate. Small satellites have the potential to 
provide responsive and cost effective alternatives to augment existing 
space capabilities. With the changing nature of ground warfare, this 
added capability would provide the potential for persistent 
communications and intelligence, surveillance, and reconnaissance to 
warfighters at the tactical level, including those in remote locations.

                            export controls
    12. Senator Nelson. Ambassador Schulte, the International Traffic 
in Arms Regulations restrictions on the export of space-related 
technologies, many of which are global commodities today, have had a 
negative impact on the U.S. space industrial base--especially on lower-
tier suppliers. The new NSSS acknowledges this situation and states the 
need for export control reform. What is the status of these export 
control reforms?
    Ambassador Schulte. On May 6, 2011, DOS and DOD transmitted a joint 
interim report to Congress in response to section 1248 of the NDAA for 
Fiscal Year 2010. The ``Risk Assessment of United States Export Control 
Policy'' report is a conservative starting point for transferring 
satellites and related items from the United States Munitions List 
(USML) to the Commerce Control List (CCL). It recommends that, under 
certain conditions, commercial communications satellites, systems, 
subsystems, and components be controlled on the CCL. In addition, the 
report recommends that the President be provided with the authority to 
determine the export licensing jurisdiction of satellites and related 
components, which are currently required by statute to be on the USML.
    A more comprehensive assessment of controls on satellites, related 
items, and technology is currently underway, as part of the 
administration's Export Control Reform (ECR) initiative. DOD, with its 
interagency partners, is expected to complete this review of USML 
Category XV, Spacecraft Systems and Associated Equipment, by July 2011. 
The draft will include recommendations for what items should remain on 
the USML and what items can be moved to the CCL. No items controlled on 
the USML by statute will be moved off that list unless and until the 
authority to do so is provided by Congress.
    We expect to provide the final section 1248 report to Congress 
later this year, based on the findings from the ECR initiative. 
Implementation of the interim report's recommendations would represent 
a significant step forward in export control reform for satellites, 
which we hope will boost U.S. content in foreign satellites, increase 
opportunities for partnering with foreign manufacturers, and help 
energize the U.S. space industrial base.

                 space science and technology strategy
    13. Senator Nelson. Dr. Zangardi and Admiral Titley, the NDAA for 
Fiscal Year 2010 directed the Secretary of Defense and the Director of 
National Intelligence to develop a Space Science and Technology (S&T) 
Strategy, which was recently delivered to Congress. Is the Space S&T 
Strategy being used by the Navy to guide or inform investments in space 
systems?
    Dr. Zangardi and Admiral Titley. Yes, the Office of Naval 
Research's and Naval Research Laboratory's current space capability 
development efforts are focused on the following DOD Space S&T Strategy 
goals: (1) Satellite Communications including communications-on-the-
move; dedicated/theater controlled, space-enabled tactical 
communications; enhanced flexibility and resilience in challenged 
environments; and support to ISR collection platforms (e.g., TACSAT-4 
communications satellite (scheduled to launch 27 September 2011)); (2) 
Intelligence, Surveillance, and Reconnaissance (ISR) including 
increased persistence of space-based ISR and improved cross-cueing for 
space-based assets (e.g., Detection and Fusion of Remote Sensors Future 
Naval Capabilities Initiative)); and (3) Space Environmental Monitoring 
including improved understanding and awareness of the Earth-to-Sun 
environment; improved space weather forecast capabilities and tools to 
predict operational impacts; and improved space weather forecasting and 
enabling real-time threat warning (e.g., a Space Weather Discovery and 
Invention Initiative.) These efforts illustrate the Navy's application 
of this strategy as a tool to guide its space S&T initiatives and 
investments.

    14. Senator Nelson. General Shelton and General Hyten, is the Space 
S&T Strategy being used by the Air Force to guide or inform investments 
in space systems?
    General Shelton and General Hyten. The report was completed less 
than 2 months ago and is still being reviewed by our organizations. Air 
Force inputs were primarily provided by the Air Force Research 
Laboratory and they were consistent with the outputs from yearly S&T 
reviews conducted by the Air Force Space Command Commander, the Air 
Force Research Laboratory Commander, and the Space and Missile Systems 
Center Commander.

    15. Senator Nelson. General Formica, is the Space S&T Strategy 
being used by the Army to guide or inform investments in space systems?
    General Formica. Yes, the Space S&T Strategy is being used by the 
Army to guide our investments in space systems. The strategy captures 
and reflects the guidance set forth to the Army outlined in the NSP and 
the NSSS regarding priorities and investment strategies for space.

    16. Senator Nelson. Ambassador Schulte, do you know who in DOD will 
be responsible for oversight of the execution of the strategy?
    Ambassador Schulte. The Assistant Secretary of Defense for Research 
and Engineering is responsible for oversight of the execution on the 
Space S&T Strategy.

                              space launch
    17. Senator Nelson. General Hyten, what is the Air Force plan to 
reduce launch costs, and rethink how launch vehicles are purchased, 
particularly the Evolved Expendable Launch Vehicle (EELV)?
    General Hyten. The recently appointed Air Force PEO for Space 
Launch is crafting a new EELV acquisition strategy that supports a 
minimum production rate by implementing a lot-buy approach to procuring 
launch vehicles. This strategy also includes a ``new entrant'' approach 
to allow for near-term opportunities and future competition in all lot 
buys. The Air Force, NRO, and NASA are working together to develop and 
publish a coordinated strategy for certification of new entrants, 
targeted to begin in fiscal year 2013. Key elements of the strategy are 
an initial Atlas V and Delta IV lot buy of sufficient size to ensure 
economic order quantity prices and a steady launch vehicle production 
rate. An AF/NRO study team and the Broad Area Review 2010 recommended 
an annual minimum production rate of eight launch vehicle cores plus 
associated upper stage engines, payload fairings, and solid rockets to 
sustain our spacelift industrial base. With lot buys, a steady 
production rate, and a ``new entrant'' approach, we believe launch 
costs can be controlled.

    18. Senator Nelson. Ms. Chaplain, GAO has an ongoing review of the 
development of the new EELV acquisition strategy. When will this review 
be completed and do you have any preliminary thoughts on how to reduce 
launch costs?
    Ms. Chaplain. We plan to issue a report on the results of our EELV 
review in July 2011. In this review we are examining whether DOD has 
the knowledge and information technology needs to develop a new EELV 
acquisition strategy and the extent to which there are important 
factors that could affect launch acquisitions. Given concerns raised 
through recent studies about visibility into costs and the industrial 
base supporting EELV, information technology is important that this 
strategy be supported with reliable and accurate data. Without such 
data, efforts to manage launch costs may not be effective. 
Additionally, deficiencies in the space acquisition workforce in 
general and those in the Air Force's Launch and Range Systems 
Directorate in particular, increase the challenge of implementing the 
new strategy effectively.

    19. Senator Nelson. General Shelton and General Helms, what do you 
see as the advantages and disadvantages to having new launch providers?
    General Shelton. There are two advantages: (1) new providers may be 
able to bring innovative approaches that result in lower costs, and (2) 
creating competition in space launch. The disadvantage we have 
identified thus far is that the launch market may not be sufficiently 
robust to support multiple providers at efficient production levels.
    General Helms. The advantages of a new provider for space launch 
are innovative approaches with lower costs. Additionally, competition 
provides incentive for current providers to find ways to lower costs. 
At any point in time, a more experienced provider will be perceived to 
have a matured reliability advantage over a less experienced launch 
provider. If a new launch provider experiences ``growing pains'' while 
establishing its position in the launch business, it may expose the 
government to unique schedule, cost, and performance risk.

    20. Senator Nelson. General Shelton and General Helms, what are the 
general performance objectives and goals that you would want to see 
from an operational perspective to ensure that a new launch provider 
can successfully launch a satellite?
    General Shelton. Our current requirements documents state that a 
launch provider must be able to meet the range of lift requirements to 
launch national security payloads and demonstrate launch vehicle 
reliability of 98 percent or better. The launch vehicle must adhere to 
standard interface specifications to enable spacecraft to fly on the 
new rocket without being redesigned, and it must be able to launch from 
both the east coast and the west coast. We are evaluating new entrant 
criteria to encourage competition and allow a path for new launch 
providers to certify readiness for national security missions.
    General Helms. Our requirements are specified in the EELV 
operational requirements document. For example, a new provider must be 
able to meet the variety of lift requirements to launch national 
security payloads and demonstrate launch vehicle reliability of 98 
percent or better. The launch vehicle must adhere to the EELV standard 
interface specification to enable spacecraft to fly on the new rocket 
without being redesigned and be able to launch from both coasts.
    As a goal, the new provider should be able to deliver lower cost 
launches and bring long-term stability to Air Force launch services.

                    defense weather satellite system
    21. Senator Nelson. General Hyten, in February 2010, the President 
restructured the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) weather satellite program. This decision 
directed the acquisition and development of separate military and civil 
weather satellite programs for the Air Force and the National 
Oceanographic and Atmospheric Administration (NOAA), rather than the 
joint NPOESS program. NPOESS had experienced technical problems that 
had resulted in cost and schedule increases and had a management 
structure that was not workable. The Air Force plans to acquire the 
DWSS to satisfy military weather requirements, and the NOAA will 
acquire the Joint Polar Satellite System (JPSS). Both NOAA and the Air 
Force will continue to use a shared common ground system to address 
weather and environmental requirements. The DWSS program is expected to 
launch two satellites with the first launch in 2018. What is the status 
of the DWSS effort?
    General Hyten. The DWSS program is proceeding according to last 
year's plan. The Air Force retained the NPOESS prime contractor, 
Northrop Grumman Aerospace Systems (NGAS) and modified the contract for 
DWSS development. This restructured contract was awarded on 24 May 
2011. The Air Force also transitioned the NPOESS climate sensors and 
the common ground system from the NPOESS contract to NOAA/NASA to 
support development on the JPSS contracts.
    DWSS is the result of a presidentially-directed restructure, not an 
NPOESS termination, and is consequently bound to the NPOESS acquisition 
baseline for annual acquisition reports to Congress. As a result, the 
restructure led to a significant Nunn-McCurdy breach of the NPOESS 
Program Acquisition Unit Cost. This breach was detailed in the 15 April 
2011 NPOESS Selected Acquisition Report (SAR) and a 29 April 2011 
notification to Congress by the Secretary of the Air Force.
    This year the Air Force and NGAS are focused on early development 
of the two DWSS satellites, finalizing contract restructure efforts, 
and completing the transition of non-DOD payloads to NOAA/NASA for 
JPSS. DWSS development activities will ramp-up considerably over the 
next year. Significant planned efforts in 2012 include continued 
spacecraft redesign to a smaller and lighter bus, continued development 
of the two primary sensors--the Visible/Infrared Imager Radiometer 
Suite and Microwave Imager Sounder--and development of algorithms to 
satisfy DOD-specific requirements in the common ground system. 
Following Milestone-B approval by the Defense Acquisition Executive in 
early 2012, the contractor will conduct the Preliminary Design Review 
in late 2012.
    The DWSS program is still on track to launch the first DWSS 
spacecraft no earlier than 2018.

    22. Senator Nelson. General Hyten, we have heard that a major 
program review of DWSS has been postponed indefinitely because of 
scheduling issues. What is the status of and schedule for the program 
review?
    General Hyten. The DWSS Program Review Defense Acquisition Board 
(DAB) was replaced by a program update to the Defense Acquisition 
Executive, Dr. Carter, which was held on 31 March. This update provided 
Dr. Carter with a summary of the program's annual SAR delivered to 
Congress on 15 April and also addressed acquisition schedule, contract 
status, and sensor design.

    23. Senator Nelson. Ambassador Schulte, Earth environmental 
monitoring, weather sciences, and related technologies were not 
included in the 2011 Space S&T Plan. Do you know why these technologies 
were omitted?
    Ambassador Schulte. Historically, the vast majority of DOD S&T 
programs that address meteorological and atmospheric issues have not 
been considered a part of the Space S&T domain. However, future Space 
S&T strategies will more clearly identify significant space-specific 
S&T goals in Earth environmental monitoring, weather sciences, and 
related technologies.
    The Space S&T Strategy's ISR core mission area incorporates DOD-
funded S&T for sensors, electronics, and modeling, including 
terrestrial, atmospheric, and space weather. These S&T efforts support 
development of future technology options that address military needs in 
the ground, air, and space operational domains, including monitoring of 
seismic activity, typhoons, and the coastal ocean environments.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                  air force space acquisition proposal
    24. Senator Sessions. General Shelton and Major General Hyten, the 
Air Force has proposed an efficiency initiative to adopt a new method 
for acquiring satellites called Evolutionary Acquisition for Space 
Efficiency (EASE). We have recently heard that the Assistant Secretary 
of Defense for AT&L does not believe that the use of multiyear 
contracts to procure additional Advanced Extremely High Frequency 
(AEHF) assets is appropriate at this time. We understand, however, that 
AT&L is considering other, more conservative block buy approaches that 
may be more appropriate for buying high technology-risk military 
satellites. In pursuing this contracting strategy, what sort of 
accountability does the Air Force intend to place on the prime 
contractor of these satellite systems?
    General Shelton and General Hyten. The best approach for 
accountability under EASE is the fixed-price, incentive fee contract. 
Once the contract is negotiated and put into action, the government's 
obligation is limited. Government liability is constrained if the 
contractor experiences problems directly related to the contractors' 
responsibilities within the scope of the contract. Contract penalties 
for unmet milestones or premature failure in on-orbit performance will 
also apply. Along with these provisions we hope to bring improved 
industrial base stability that will help avoid the conditions that have 
contributed to past cost overruns.
    In addition, designating block buys as Subprograms will provide 
congressional insight into actual space vehicle block costs. The 
resulting visibility ensures Air Force and DOD accountability to the 
costs and funding requirements to which they committed at the block 
Milestone Decision.

    25. Senator Sessions. General Shelton and Major General Hyten, 
given AEHF-1 has yet to reach its operational orbit and won't do so 
until August, why should Congress write the check now for two more 
until we know if the satellite works and can meet its intended 
requirements?
    General Shelton and General Hyten. The AEHF program requirements 
are solid, the design is stable and mature, and the experienced 
government and contractor team is in place. We are making great 
progress on AEHF-1 orbit raising having reached the third of a four-
phase revised orbit raising strategy and expect to have a full 14-year 
mission life. Once in the proper orbit, AEHF-1 checkout will commence 
verifying that AEHF-1 can meet its intended requirements. In addition, 
AEHF-2 is in storage awaiting launch, and AEHF-3 and -4 are in various 
stages of production. The block buy of AEHF-5 and -6 will comprise a 
smooth continuation of the production line. Design maturity and 
stability lend well to a fixed-price contracting strategy for future 
production. If, for some unexplained reason, we discover unforeseen 
problems with AEHF-1, we believe they will be resolved before any final 
decisions are made concerning the production of AEHF-5 and -6.

    26. Senator Sessions. General Shelton and Major General Hyten, 
shouldn't the Air Force be required to demonstrate the reliability of 
these systems before asking Congress to authorize buying these assets 
in bulk?
    General Shelton and General Hyten. AEHF-1 is scheduled to reach GEO 
by October 2011 and commence the 6-month on-orbit checkout process. 
Barring any schedule changes, the Air Force will complete AEHF-1 on-
orbit checkout by April 2012 and will have proven satellite 
reliability. The Air Force does not plan to award the AEHF-5 and -6 
block buy contract before April 2012.

    27. Senator Sessions. Ms. Chaplain, has the GAO reviewed the Air 
Force EASE strategy?
    Ms. Chaplain. While we have not yet fully assessed the EASE 
strategy, this new approach appears to offer various benefits, such as 
ensuring technologies are mature and requirements are stable, accruing 
cost savings from economic order quantities, supporting the industrial 
base, and reducing the workload burden on government acquisition 
program offices. However, the strategy also appears to pose several 
challenges, including the potential to limit competition and 
innovation, as well as developing accurate and reliable cost and 
schedule estimates for acquiring state-of-the-art satellites so that a 
fixed-price contracting strategy can be successfully employed. An 
overarching architecture could help implement and ensure the EASE 
strategy meets future needs. Additionally, a knowledgeable workforce 
would be essential for effectively implementing the strategy and 
developing adequate insight into costs and industrial base 
capabilities.

    28. Senator Sessions. Ms. Chaplain, do you have any concerns, 
particularly about the use of multiyear contracts, to buy high 
technology-risk military satellites?
    Ms. Chaplain. Spreading the high procurement costs of satellites 
over several years should help to stabilize space system acquisition 
funding needs. However, the use of advance appropriations in 
conjunction with multi-year contracting would commit future budget 
authority for these procurements and thus tend to limit flexibility in 
future Congress' budget decisionmaking. For this reason, we remain more 
concerned with the use of advance appropriation than the use of 
multiyear contracts.

    29. Senator Sessions. Ms. Chaplain, what other acquisition 
strategies should the Air Force consider that can both depressurize the 
appropriated funding vis-a-vis increasingly expensive satellite 
programs, but also allow the Air Force to procure high-risk space 
assets responsibly and in a way that allows for robust and meaningful 
congressional oversight?
    Ms. Chaplain. Similar to major satellite acquisitions, the Navy's 
major ship acquisitions are characterized by high cost items and low 
quantities. In some instances, the Navy procures its high cost ships by 
spreading procurement costs over multiple years without utilizing 
advance appropriations. A similar approach may be beneficial and 
applicable to procuring high cost satellites. Additionally, a strategy 
that calls for constellations of smaller and less technically complex 
satellites--such as single-mission satellites with shorter planned 
lifespans--could help DOD meet cost goals, bolster the space industrial 
base, allow capabilities to be fielded faster, and facilitate 
constellation sustainment in case of a launch or unexpected on-orbit 
failure. Finally, enterprise planning across the space acquisition 
programs portfolio could also significantly help normalize the spikes 
and valleys in space funding. Efforts under these scenarios would allow 
for robust and meaningful congressional oversight.

  space situational awareness: joint space operations center mission 
                                 system
    30. Senator Sessions. General Shelton and Lieutenant General Helms, 
one of your top priorities is the development of a modern SSA system 
for analyzing and monitoring activity in space. I am concerned that the 
traditional defense acquisition process is not optimal for the 
development of software-based service-oriented architectures like the 
one envisioned for the JSpOC management system. I understand that 
recently you decided to reevaluate the acquisition strategy for this 
program. What is the current status of the JSpOC management system?
    General Shelton. In January 2011, OSD/AT&L directed an IPA of the 
JMS program. Although the IPA found the operational needs and system 
requirements compelling, it found the JMS acquisition had not 
incorporated agile information technology acquisition practices.
    The IPA recommended a revised acquisition strategy which included 
the extension of a prototyping phase to reduce the risk. The Air Force 
has now embarked on an approach that fully leverages multiple current 
prototype development efforts while capitalizing on the initial JMS 
service-oriented architecture capabilities. This approach will provide 
early-use capability, utilize new data sources quicker, and allow 
decommissioning of the legacy SSA systems soonest. Finally, it 
establishes rigorous systems engineering, test and training processes 
early, enabling successful rapid integration.
    We are now in the process of transferring program responsibility to 
the SMC to implement this prototyping approach for more rapid delivery 
of mission capability to the warfighter.
    General Helms. In January 2011, OSD/AT&L directed an IPA of the 
program. Although the IPA found the operational needs and system 
requirements compelling, it found the current DOD acquisition policy, 
and therefore the JMS acquisition, has not properly incorporated agile 
information technology acquisition practices. The IPA recommended DODI 
5000.2 (Operation of the Defense Acquisition System) be amended to 
reflect the Information Technology Box concept and incorporate DOD's 
section 804 response to Congress for agile acquisition.
    In addition, the IPA recommended a revised acquisition strategy 
including the extension of the prototyping phase to reduce the risk for 
an agile information technology strategy. To comply, the Air Force is 
proposing an approach that fully leverages multiple prototype 
development efforts while capitalizing on the initial JMS service-
oriented architecture and user-defined operational picture already at 
the JSpOC. This approach will provide early-use capability, utilize new 
data sources quicker and allow decommissioning of the legacy SSA 
systems soonest. Finally, it establishes rigorous systems engineering 
and test and training processes early, enabling successful rapid 
integration.
    AFSPC is now in the process of transferring program responsibility 
to the SMC to implement this prototyping approach to more rapidly 
deliver mission capability for the JSpOC.

    31. Senator Sessions. General Shelton and Lieutenant General Helms, 
what is the expected timeline and cost?
    General Shelton. We will transition off of legacy SSA core 
processing systems by the end of fiscal year 2014. The schedule for the 
remaining JMS capabilities is now being developed.
    The total cost of the new rapid prototyping approach is expected to 
be less than the previous approach. We are finalizing the detailed 
program baseline and acquisition strategy.
    General Helms. We hope to transition off of legacy SSA core 
processing systems by the end of fiscal year 2014. The schedule for the 
remaining JMS capabilities is now being developed.
    The new rapid prototyping approach, as informed by the OSD directed 
IPA, is expected to cost significantly less than the previous approach. 
At this time, detailed program baseline and acquisition strategy are 
still being finalized.

    32. Senator Sessions. Ms. Chaplain, does GAO have any thoughts or 
insights on the JMS acquisition strategy?
    Ms. Chaplain. We have not reviewed the latest changes to the JMS 
acquisition strategy resulting from the recently-conducted IPA. 
However, in our review of the acquisition effort last year, we raised 
several concerns about the then-current draft JMS acquisition strategy 
including the following:

        <bullet> The potential for deferring requirements could be an 
        oversight consideration given the Air Force's history of 
        consistently deferring requirements in previous attempts to 
        upgrade information technology systems that support SSA.
        <bullet> The JMS acquisition was not adopting an incremental 
        approach--the effort instead consisted of a single increment 
        delivered in a series of releases--as exemplified by its plans 
        to proceed without knowledge of all critical technologies and 
        deferral of other planning activities. This lack of knowledge 
        could result in unanticipated costs and other programmatic 
        risks to the acquisition effort.
        <bullet> The program planned to award a contract for developing 
        a high accuracy catalog without first conducting limited 
        development or developing prototypes. The high accuracy catalog 
        is foundational for most JMS capabilities and is intended to be 
        a net-centric data repository of information about earth-
        orbiting objects.
        <bullet> Support for use of a service-oriented architecture was 
        relatively new under DOD policy and the practice was not yet 
        widely used--although service-oriented architectures offer 
        significant benefits, they also pose integration and 
        information assurance challenges.

                            quality control
    33. Senator Sessions. Ambassador Schulte, Dr. Zangardi, General 
Shelton, Lieutenant General Helms, Lieutenant General Formica, Rear 
Admiral Titley, Major General Hyten, and Ms. Chaplain, contractor 
quality issues have had significant impacts on major defense space 
programs over the years. In your opinion, what more can be done to 
address quality control?
    Ambassador Schulte. Energizing the space industrial base is one of 
the three strategic objectives of the NSSS. This includes working with 
the Intelligence Community and our industrial base partners to 
revalidate current measures and implement new ones, where practicable, 
to stabilize program acquisition more effectively, and to improve our 
space acquisition processes. Stabilizing our acquisition programs will 
allow prime contractors and suppliers to work over the long-term to 
increase quality. Suppliers will tend to provide higher quality where 
there is longevity to a production run.
    DOD also needs to engage the supplier community more strategically 
about far-reaching issues concerning the industrial base. The existing 
Space Industrial Base Council is intended to serve this purpose and 
will be used to address this and other supplier issues as needs arise.
    Dr. Zangardi and Admiral Titley. Navy's primary space 
responsibility is the procurement, sustainment, and operation of DOD's 
Ultra-High Frequency (UHF) communications satellites. While fulfilling 
this responsibility, it has been Navy's experience that a majority of 
the systems that comprise the current UHF constellation have operated 
well beyond their design lives. The satellites and their sub-systems 
are well engineered, so the Navy can't comment on negative impacts from 
quality control problems. Navy space programs leverage lessons learned 
from other space programs and utilize numerous proven quality control 
mechanisms that conform to industry standards. The Navy Communications 
Satellite Program Office along with our contractors are fully engaged 
in ensuring Navy space programs continue to produce high quality 
systems.
    General Shelton and General Hyten. The Air Force, as a whole, 
continues to move away from the Total System Performance Responsibility 
(TSPR) approach to acquisition embraced in the mid-1990s. The crux of 
the TSPR approach was to transfer government tasks to the contractor in 
order to gain efficiencies by taking full advantage of the contractor's 
overall management approach and commercial best practices with minimal 
government oversight. As a result of minimizing that government 
oversight, critical acquisition and engineering skills within the Air 
Force atrophied resulting in less and less ability to provide quality 
oversight.
    Today, the Air Force is aggressively improving its acquisition 
corps, to include focus on the systems engineering discipline. Robust 
up-front systems engineering, detailed design reviews, and continuous 
risk analysis and mitigation will design quality into the system from 
the beginning, rather than solely relying on quality control officials 
to validate checklist compliance during final production and 
integration. Robust systems engineering and acquisition oversight of 
contractor performance during the engineering phase will lead to the 
quality product we require for the warfighter.
    We also believe stable production runs underwritten by stable 
funding will benefit the industrial base and enhance quality.
    General Helms. I believe there are a few ways we can improve 
quality control. First, we can increase contractor financial 
responsibility for poor quality control of subcontractor work. Second, 
provide contractor greater predictability for orders and production 
enabling the contractor to retain expertise. Third, we should make 
award fees large enough to incentivize contractor behavior. Finally, 
more block buy purchases with smaller steps in technologies will avoid 
large technological leaps that are complex and costly.
    General Formica For the government to achieve improved quality 
control, we must focus our efforts on strong quality assurance programs 
and enhanced contractor oversight. We must increase our collaborative 
efforts with quality assurance specialists to ensure that appropriate 
quality clauses and provisions are included in contracts. Additionally, 
the government should assess and build its organic capability to 
effectively measure and validate contractor quality and procure 
essential technical data for effective contractor oversight.
    Ms. Chaplain. Over the years, we have identified practices related 
to technology transition, quality assurance, and other acquisition 
program management approaches that could benefit space programs. 
Approaches that could improve the quality of space systems acquisitions 
include:

        <bullet> Improving quality systems engineering.
        <bullet> Holding suppliers accountable to deliver high-quality 
        parts for their products through such activities as regular 
        supplier audits and performance evaluations of quality and 
        delivery.
        <bullet> Providing effective oversight during the development 
        process.
        <bullet> Providing an adequate workforce capacity for the 
        front-end acquisition planning activities.
        <bullet> Capturing manufacturing knowledge in a timely manner.

    DOD has developed policies that address the need for adopting 
commercial quality standards, using good systems engineering practices, 
and overseeing supplier quality. However, DOD still has difficulty 
acquiring high-quality weapon systems in a cost-efficient and timely 
manner. While many problems are caused by poor prime contractor 
practices related to systems engineering, manufacturing, and supplier 
quality, an underlying cause lies in the fact that DOD typically 
assumes most of the financial risk associated with development of 
complex systems. Moreover, risks associated with this situation are 
exacerbated because DOD generally enters into development contracts 
without demonstrated knowledge or firm assurance that requirements are 
achievable, which too often result in inefficient programs and quality 
problems.

    34. Senator Sessions. Ms. Chaplain, I understand that GAO has 
conducted comprehensive quality review on contractor quality. Could you 
please share some of your findings and recommendations?
    Ms. Chaplain. We were asked by the Committee on Oversight and 
Government Reform, Subcommittee on National Security, Homeland Defense 
and Foreign Operations, to assess: (1) the extent to which parts 
quality problems are affecting DOD and NASA space and missile defense 
programs; (2) the causes behind these problems; and (3) initiatives to 
prevent, detect, and mitigate parts quality problems. We reviewed 21 
space and missile programs at DOD and NASA that were, as of October 
2009, in development, projected to be high cost, and had demonstrated 
through a critical design review that the maturity of the design was 
appropriate to support proceeding with full scale fabrication, 
assembly, integration, and test. Each program provided a list of the 
top 5 to 10 parts, materials, or processes problems, as defined by that 
program, affecting that program's cost, schedule, or performance. In 
addition, they provided an explanation of the root cause and 
contributing factors that may have led to each problem reported. 
Through our discussions with agency officials, we were able to obtain 
information on working groups and initiatives to prevent, detect, and 
mitigate parts quality problems. At this time, we are unable to discuss 
our specific findings and recommendations given that the report is in 
draft and not final. We expected to issue the report in mid-June 2011, 
at which time we will provide you with a copy.

    [Whereupon, at 3:13 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                          FRIDAY, JUNE 3, 2011

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                       Bellevue, NE

                         U.S. STRATEGIC COMMAND

    The subcommittee met, pursuant to notice, at 11:33 a.m. in 
Bellevue Public Schools/Offutt Air Force Base, Welcome Center, 
1600 Highway 370, Bellevue, NE, Senator E. Benjamin Nelson 
(chairman of the subcommittee) presiding.
    Committee member present: Senator Nelson.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Staff assistant present: Hannah I. Lloyd.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Nelson; and Chad Kreikemeier, assistant to 
Senator Shaheen.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Nelson. The Senate Armed Services Subcommittee on 
Strategic Forces will come to order at this time.
    General Kehler, welcome. It is a pleasure to be with you 
here in Bellevue today, just up the road from Offutt Air Force 
Base, the historic home of the Strategic Air Command (SAC) and 
today the home of the U.S. Strategic Command (STRATCOM) and the 
Fighting 55th.
    I also want to acknowledge and welcome two retired military 
leaders, Lieutenant General Bob Hinson and Vice Admiral Bob 
Bell, who are close advisors to me and continue to serve this 
community and the Nation. You may know that Vice Admiral Bell 
retired after 37 years in the Navy and then was President and 
CEO of the Greater Omaha Chamber of Commerce from 1988 until 
2001. Lieutenant General Hinson, prior to his retirement, as 
did Admiral Bell, served as Vice Commander of the Air Force 
Space Command and also served as Deputy Commander of STRATCOM.
    In 2001 they, along with other leaders in the community, 
established the Military Support Coalition to champion Offutt 
Air Force Base, the Fighting 55th, and STRATCOM. For many years 
before that, however, they worked to improve and support 
Offutt. We are certainly grateful that the military service 
brought both of these officers to Omaha and the community kept 
them.
    The command has a proud history, dating back to its Cold 
War roots. Since the creation of STRATCOM in 1992, the reach 
and breadth of the command has continued to grow, particularly 
following the merger of STRATCOM with U.S. Space Command 
(SPACECOM) in 2002.
    Today STRATCOM is truly a global command. Today its 
missions include nuclear deterrence, protecting space, 
thwarting cyber attacks, global strike, combating weapons of 
mass destruction (WMD), overseeing missile defenses, providing 
real-time battlefield intelligence, and more. It is probably 
safe to say that STRATCOM plays one of the most important but 
perhaps not one of the best known roles in America's national 
security.
    General Kehler, this is your second appearance before the 
Senate Armed Services Subcommittee on Strategic Forces, but 
your first opportunity to discuss the full scope of the command 
and its activities. Although you assumed your responsibilities 
of this command just a little over 4 months ago, you are not 
new to these issues and most of your career has been involved 
with strategic and space systems. You are not new to the 
command, having previously served as Deputy Commander. Maybe I 
should say welcome back and welcome home.
    But before we begin today, I would also like to recognize 
the men and women who serve around the world as members of the 
military services in support of STRATCOM and their families as 
they support and enable their loved ones to carry out the wide 
range of important global missions.
    The global strike responsibilities have been repeatedly 
demonstrated in Afghanistan and Iraq. The B-2, the B-52, and 
the B-1 bombers have all rotated through Iraq or Afghanistan, 
providing large amounts of ordnance where and when needed. The 
B-1 has been able to do double duty by providing both ordnance 
and intelligence.
    With the stand-up of the new U.S. Cyber Command, which is 
part of STRATCOM, there is now a military force to protect and 
defend military cyber assets and to respond to a cyber attack 
on the United States when and if necessary. This is a 
significant challenge. The Department of Defense (DOD) is 
targeted for thousands of cyber attacks per month. Some 
estimates range as high as 5,000 attacks per month.
    STRATCOM also manages the unmanned aircraft such as Global 
Hawks, Reapers, and Predators that help the forces in 
Afghanistan gather intelligence and see over the next hill or 
mountain. These unmanned aircraft stay in the air for hours and 
constantly provide eyes in the sky and the fire power necessary 
to track and, if needed, attack Taliban and others who are 
attacking U.S. and NATO forces.
    STRATCOM is also responsible for implementing the New 
Strategic Arms Reduction Treaty (START) with Russia, the New 
START treaty, which the Senate ratified this past December. 
This new treaty will reduce the number of deployed strategic 
nuclear weapons and non-deployed nuclear delivery systems that 
each country has. We look forward to hearing your thoughts on 
implementing this important new treaty.
    The U.S. military remains a superior military force due in 
large part to the advantages and capabilities that the military 
and other national security space systems provide. This 
advantage is not a secret, and others are constantly trying to 
reduce that advantage. STRATCOM is responsible for protecting 
those satellites and finding whoever it is that is trying to 
interfere with those satellites.
    Space is also full of space debris, junk that moves around 
in space and that can damage our space satellites. STRATCOM is 
responsible for keeping track of these objects and providing 
advanced warning so the junk does not collide with the 
satellites. In 2009, unfortunately a dead Russian satellite 
collided with a U.S. commercial communications satellite. The 
two satellites broke apart from the impact and, unfortunately, 
created even more space debris. STRATCOM also provides warning 
information to the National Aeronautics and Space 
Administration (NASA) to protect the astronauts on the Space 
Station from space debris. Even the Space Station has had to 
change its location on several occasions to avoid that space 
debris.
    The most important role of the STRATCOM is to maintain a 
safe, secure, and reliable nuclear deterrent. Maintaining the 
nuclear deterrent is an everyday event at STRATCOM.
    There is also another piece to deterrence for which 
STRATCOM is also responsible, and that is preventing states and 
non-state actors from acquiring nuclear weapons, materials, and 
technologies. This equally important mission is one that is 
often not well understood by the public or even Congress for 
that matter, but one that is growing.
    Finally, STRATCOM is the responsible command for ensuring 
that missile defenses are militarily effective. As missile 
capabilities of countries such as Iran and North Korea grow, 
the threat to deployed U.S. forces and allies in these regions 
also grows. The United States has begun, in cooperation with 
NATO, a missile defense program that will protect our troops 
and our allies from existing and anticipated regional missile 
threats, including those from Iran.
    So it is a pleasure for me to be here and to welcome all of 
you to be able to listen to and discuss these issues and all of 
the work of STRATCOM. General Kehler, your prepared remarks and 
statement will be included for the record.
    Before your opening remarks, I just wanted to thank Hannah 
Lloyd, our subcommittee staff assistant, and your staff, 
General Kehler, for all their hard work organizing the hearing 
today. We do not get the chance to do many field hearings, as 
they require a little extra preparation being outside of 
Washington, but I do honestly believe they are important as 
part of our transparent government and the opportunities that 
we have to explain to the American public what, in fact, 
STRATCOM in this case does for our national defense.
    General Kehler, I welcome your opening remarks.

   STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Kehler. Good morning, Mr. Chairman, and thank you 
on behalf of STRATCOM and the Offutt Air Force Base community. 
We appreciate this opportunity to appear before the 
subcommittee again and discuss STRATCOM's missions, 
responsibilities, and requirements.
    On a personal note, Marge and I are very happy to be back 
in Omaha and Bellevue and part of the Offutt Team again. As you 
say, we get tremendous support from the local communities here, 
and I will say a word about that in just another minute.
    There is a reason for that and that reason is that the 
Bellevue and Omaha and Offutt communities share more than 143 
years together, beginning with the establishment of what was 
called Sherman Barracks back in 1868 which later became Fort 
Omaha and continued with the building of Fort Crook in 1894. Of 
course, I live in a set of quarters that were completed in 
1896. It has been occupied by, I think at last count, 62 
leaders that have been assigned here throughout those 
intervening years. Those quarters have been continuously 
occupied for all that time.
    Of course, Fort Crook added Offutt Field to its purview in 
1924 which eventually became Offutt Air Force Base.
    Other important milestones include--we, of course, had 
heavy bomber production for World War II which began in the 
1939-1940 timeframe; SAC headquarters, which was established 
here in 1948; the 55th Strategic Reconnaissance Wing, which was 
established here in 1966, which became the present day 55th 
Wing in 1991; the stand-down of SAC and establishment of 
STRATCOM as a joint command initially in 1992; transition of 
Global Weather Central into the Air Force Weather Agency in 
1997; and of course, the new STRATCOM after merging with 
SPACECOM in 2002.
    I would like to take just a minute to introduce some of 
STRATCOM's Team Offutt partners whose leaders are with us 
today. Brigadier General Don Bacon is here. He is the commander 
of our host unit, the 55th Wing. He took command there in March 
and leads the second largest wing in the United States Air 
Force. As I said, the Fighting 55th is our host wing. It 
operates 48 aircraft from locations around the world. They 
conduct essential reconnaissance, command and control, treaty 
verification, presidential support, and airlift missions.
    Last March, Don's command passed 7,500 consecutive days 
deployed in support of U.S. Central Command (CENTCOM) 
operations. That is a tremendous milestone. They did all of 
this while providing great host unit support for all of Team 
Offutt's people, our families, and the retirees that make Omaha 
home.
    Colonel Bob Russell is also with us this morning. He 
commands the Air Force Weather Agency. That includes 1,400 
Active Duty, Reserve, civilian, and contract people that are at 
locations around the world. Through its groups in 
observatories, the agency provides global weather products and 
services, including space weather support to the Air Force, 
Army, Special Operations, Intelligence Community, and other DOD 
activities. Notably he claims no credit for the increased rain 
that has fallen in Nebraska that are causing some worries as we 
are thinking about the potential for flooding, and our 
sympathies are with those that are having to deal with those 
problems right now.
    Of course, our three organizations are all successful and 
these two commanders would say the same thing that I say about 
this. We are successful because of the extraordinary men and 
women we are privileged to lead.
    So I would like to recognize four of STRATCOM's enlisted 
members who represent the best of America's soldiers, sailors, 
airmen, and marines. From the U.S. Army, Sergeant Ralph Pohlman 
who was the 2010 STRATCOM Soldier of the Year; from the U.S. 
Navy, Petty Officer 2nd Class, Erica Bushell, the STRATCOM 2010 
Junior Sailor of the Year; Tech Sergeant Alicia Maharaj, the 
STRATCOM Mid-Tier Enlisted Person of the Year; and from the 
U.S. Marine Corps, Sergeant Kelly Nielson, STRATCOM's Joint 
Functional Component Command for Global Strike Marine of the 
Year.
    Senator Nelson. Excuse me. Let us have them stand and let 
us give them a round of applause.
    General Kehler. Yes, please. [Applause.]
    So together, Team Offutt's 35,000 Active Duty warriors, 
civilians, reservists, contractors, dependents, and retirees 
share deep bonds with Omaha, Bellevue, and the communities 
throughout Eastern Nebraska and Western Iowa. As I said, for 
well over 140 years, our heartland neighbors have opened their 
arms to welcome our warriors, our families, and our children, 
which is an interesting side note to where this hearing is 
located today, one of the unique facilities in my experience in 
36 years of military service now where a community has actually 
dedicated its educational institutions to the support of our 
military children and how welcome that is as our people 
struggle with these often moves and the conflict that that 
shows. I think that says something about Bellevue and the great 
support that we get from the community here.
    In addition, community support and care for our wounded 
warriors has always been important, and today it has a new and 
greater sense of emphasis and is an important resource for 
commanders at every level. On behalf of Team Offutt, and 
especially to anyone who ever hosted a young service member in 
your home on a holiday, mowed the lawn of a deployed service 
member, cared for our wounded warriors, reached out to a new 
family on the block, or just visited with a deployed member's 
spouse, I want to say we owe you a very deep and very heartfelt 
thanks. This bond that we have with this community--as I say, 
the roots are deep and they go back a very long time.
    In this challenging era of protracted conflict, constant 
change, and enormous complexity, the demands on our 
servicemembers and their families are great. You may never know 
how much your many acts of kindness means to those of us who 
are blessed to receive them, but we are very grateful.
    Indeed, today's Armed Forces face a significantly different 
operating environment than in the past. This is a modern 
operating environment that is characterized by extraordinary 
technological advances, rapid changes in the number and type of 
actors, and hybrid combinations of strategies, tactics, and 
weapons. We operate in a complex, dynamic, and uncertain 
environment that demands focused effort, flexible approaches, 
and innovative responses. We must think strategically, plan 
with flexibility, assess comprehensively, and share information 
in unprecedented ways.
    STRATCOM's mission is to detect, deter, and prevent attacks 
against the United States and our allies and to join with the 
other combatant commands to defend the Nation should deterrence 
fail. At subordinate commands, task forces, and bases around 
the globe, more than 54,000 Active Duty, Reserve, National 
Guard, and civilian members of our team execute this mission 
every day.
    STRATCOM's mission priorities and responsibilities are 
complex and far-reaching, and we have five priorities that 
guide our work.
    First, we are to deter nuclear attack with a safe, secure, 
and effective deterrent force. Our men and women operate the 
Nation's strategic deterrent forces 24 hours a day, 365 days a 
year. They also produce the Nation's nuclear employment plans 
that provide the President with credible response options to 
deter attack and achieve national security objectives should 
deterrence fail. Today we are working closely with the Office 
of the Secretary of Defense, the Joint Staff, and the Services, 
as you said, Mr. Chairman, to implement both the Nuclear 
Posture Review (NPR) and the New START treaty. In particular, 
we are working to implement the treaty's provisions safely, 
securely, efficiently with the right resources and the right 
timeline and with the right force structure.
    The administration's 10-year plan for investment in our 
nuclear capabilities, as reflected in the President's budget, 
is absolutely essential. As affirmed by the 2010 NPR, we must 
sustain and modernize the nuclear weapons complex, the triad of 
nuclear forces, our human capital, and key supporting command/
control/communications and ISR capabilities. Mr. Chairman, we 
appreciate Congress' strong support in fiscal year 2011 and we 
urge full funding again as you consider the fiscal year 2012 
President's budget proposal.
    Our second priority is to partner with other combatant 
commands to win today's fight. Ongoing operations demand our 
full commitment, and in partnership with other combatant 
commands, we are working to improve plans, procedures, and 
capabilities to address regional problems, including the 
development, proliferation, and delivery of WMD and to bring 
unity of effort, especially where problems and capabilities 
requirements cross geographic boundaries.
    Our third priority is to respond to new challenges in 
space. As you pointed out, sir, space is increasingly 
contested, congested, and competitive, and its importance goes 
far beyond national security. We must ensure uninterrupted 
access to space and space-based capabilities, improve our 
awareness of objects and activities in space, and enhance the 
protection and resilience of our most important systems.
    Our fourth priority is to build cyberspace capability and 
capacity. In cyberspace, our greatest challenge is to improve 
our ability to operate and defend DOD's networks at cyber 
speed, to make sure our vital activities can continue even in 
the face of attempts to deny or disrupt, something that happens 
thousands of times every day.
    With our subunified command, U.S. Cyber Command, we are 
working hard to improve organizations and relationships, 
enhance network situational awareness and protection, increase 
technical capacity, and develop the human capital we need as we 
look to the future.
    Finally, fifth, we must prepare for uncertainty. Today's 
adversaries and tomorrow's potential challengers closely watch 
our actions, our plans, and our capabilities to understand our 
values, our operations, and our vulnerabilities. These actors 
are not static, and combined with environmental, economic, and 
other factors, these potential adversaries could present 
surprising and asymmetric conventional, digital, or WMD 
challenges against which we must constantly be vigilant.
    Tying together this range of truly global responsibilities 
and associated capabilities must be a reliable and assured 
national command, control, and communication capability from 
the President to the nuclear forces and across the range of 
military capabilities. Our current systems require investment 
to ensure reliability and to address looming capability gaps. A 
new STRATCOM and control complex and nuclear command and 
control node at Offutt Air Force Base is the center of our 
nuclear C3 plans for the future. STRATCOM operates a unique 
national command and control capability, and today's complex 
command center and IT systems lack the capability and capacity 
to support our missions in the long term.
    Sir, again, we appreciate your support and the 
subcommittee's support for the President's request for funding 
in fiscal year 2012 for this new nuclear and national command 
and control node.
    So in conclusion, sir, the Active Duty, Reserve, National 
Guard, and civilian members of STRATCOM's team perform their 
difficult mission with remarkable skill and dedication. I am 
proud to be associated with them and look forward to working 
with you and the subcommittee as we address these important 
national security issues.
    Again, we appreciate the opportunity to appear in front of 
the subcommittee. We especially appreciate the opportunity to 
do so right outside our gate in Bellevue. With that, sir, I 
look forward to your questions.
    [The prepared statement of General Kehler follows:]
           Prepared Statement by Gen. C. Robert Kehler, USAF
    Chairman Nelson, Senator Sessions, and members of the subcommittee, 
thank you for the opportunity to present my views on U.S. Strategic 
Command's (STRATCOM) missions and priorities. I am especially pleased 
to have this hearing here in Nebraska, just down the road from 
STRATCOM's headquarters and Offutt Air Force Base. We have a great team 
here and throughout our distributed command. Today is an important 
opportunity to showcase STRATCOM's Active Duty, Reserve, National 
Guard, and civilian members, who are standing watch this very minute at 
locations across the country and around the globe. They truly exemplify 
the best of today's joint force. I look forward to discussing the 
command's missions with you today, especially our role in the Nation's 
nuclear command, control, and communications (NC3) architecture and 
essential NC3 capability requirements.
    America's strategic forces proudly continue their longstanding role 
as the foundation of our national security posture. The President of 
the United States has assigned STRATCOM the responsibility to detect, 
deter, prevent, and defeat attacks against the United States, its 
territories, possessions and bases, and to employ appropriate force to 
defend the Nation should deterrence fail. The Command's specific 
mission responsibilities include planning, synchronizing, advocating, 
and employing capabilities to meet the Nation's strategic deterrence, 
space operations, cyberspace operations, information operations (IO), 
global strike, missile defense, intelligence, surveillance, 
reconnaissance (ISR), and combating weapons of mass destruction (CWMD) 
objectives. We conduct these activities in close coordination with 
other combatant commands around the world. Today, I would like to 
describe the strategic context in which we operate and STRATCOM's 
priorities for addressing our many challenges.
                           strategic context
    The national security landscape continues to be marked by 
protracted conflict, constant change, and enormous complexity. While 
war remains a difficult struggle between human beings, today's 
operating environment is significantly different than those we 
experienced in the past. The number and type of actors (state, non-
state, terrorist, criminal) are rapidly changing, and the distinction 
between combatants and non-combatants is less clear. Friend and foe 
alike can span global distances in seconds through space and 
cyberspace, and technological advances allow adversaries to cross 
traditional geographic and military boundaries with ease. Adversaries 
seek advantages by using asymmetric means to find and exploit our 
vulnerabilities and to defeat our advanced capabilities in air, sea, 
space, and cyberspace. At the same time, these adversaries wield hybrid 
combinations of capabilities, strategies, and tactics and operate in 
the shadows to present us with ambiguous indications and situations. 
Rapid technological evolution and the wide civil availability of 
formerly advanced military capabilities have also reduced .entry 
costs,. making available completely new weapons and enabling actors to 
access capabilities that would not have been available to them in the 
past without significant investment. Indeed, surprise may be our 
deadliest foe, because it can make our plans ineffective, our training 
irrelevant, and, therefore, our organizations vulnerable.
    The need to foster strategic stability and deter strategic 
conflict, ensure uninterrupted capabilities from and access to space 
and cyberspace, respond to traditional and non-traditional threats, and 
deal with surprise in an era of rapid technological advances presents 
STRATCOM with significant challenges. Of the threats we face, weapons 
of mass destruction clearly represent the greatest threat to the 
American people, particularly when pursued or possessed by violent 
extremists or state proliferators. The potential of nuclear 
uncertainties in unstable regions adds special significance to this 
concern.
    At the same time, today's fiscal environment will pose additional 
challenges regarding the means and manner with which we address the 
difficult global, strategic landscape. Last year, Secretary of Defense 
Robert Gates challenged us to foster an efficient ``culture of saving'' 
throughout the Department of Defense (DOD). The resulting review 
emphasized our responsibility to maximize both mission effectiveness 
and taxpayer value. STRATCOM's exhaustive assessment of our missions 
identified some functions that we could reduce, consolidate with other 
DOD organizations, or eliminate in favor of higher priority operational 
requirements. We are now evaluating these initiatives with the DOD 
leadership and will realign resources as directed at the conclusion of 
this assessment.
    In summary, the challenges are great, the choices are hard, and 
there is no textbook solution.
                               priorities
    The 21st century security environment demands fast, comprehensive 
awareness, strategic thinking, flexible planning, decentralized 
execution, rapid innovation, and an unprecedented emphasis on sharing 
information. In this environment, STRATCOM has been uniquely organized 
and positioned to shape and employ global capabilities to deter, 
enable, and, when needed, join with the other combatant commands to 
fight and win the ever changing joint fight.
    First and foremost, we must guarantee a safe, secure, effective, 
and ready nuclear deterrent force. As affirmed by the 2010 Nuclear 
Posture Review (NPR), sustaining and modernizing the nuclear weapons 
complex, the triad of nuclear forces, the human capital, and key 
supporting command/control/communications (C3) and intelligence/
surveillance/reconnaissance (ISR) capabilities is essential to retain 
confidence in the deterrent's long-term credibility, provide tools to 
combat proliferation, and assure our scientific and innovation edge.
    Next, in full partnership with the other combatant commands, we 
must improve our plans, procedures, and capabilities to address trans-
regional problems. Ongoing operations demand our full commitment, and 
STRATCOM's activities both enable and support joint operations around 
the world. The Command's work to synchronize and advocate for missile 
defense, ISR, electronic warfare, and combating WMD plans and 
capabilities helps bring unity of effort and flexible capabilities to 
trans-regional operations. Whether providing space-based communications 
or position, navigation, and timing (PNT) information, rapidly 
transmitting data around the world, or ensuring tested, capable missile 
defenses or other globally significant capabilities are developed, 
positioned, and optimally managed, STRATCOM is instrumental in winning 
today's dynamic joint fight.
    Finally, we must continue to improve our capabilities and operating 
concepts in the important civil and national security areas of space 
and cyberspace. Ensuring uninterrupted access to space and space-based 
capabilities, improving our awareness of objects and activities in 
space, integrating their effects with all operational phases, improving 
space access, protection, and resilience, and expanding our planning 
and implementation for partnership operations requires that we continue 
our investment and that we demand acquisition results. For cyberspace, 
we must enhance network protection and mature our organizations, 
capabilities, workforce, and partnerships to ensure effective 
operations.
                          strategic deterrence
    In today's complex security environment, the concept of strategic 
deterrence must encompass strategies to deter adversaries and dissuade 
competitors across the full range of their capabilities. We must 
consider actors and capabilities in aggregate, not in a vacuum, a need 
that highlights the importance of a better understanding of 
adversaries' values, motivators, capabilities, intentions, and 
decisionmaking processes. Not every potential adversary has or seeks 
nuclear weapons, and modern deterrence requires broad coordination, 
tailored strategies, effective capabilities, international cooperation, 
and focused capabilities like conventional prompt global strike.
    Still, STRATCOM's first priority is to deter nuclear attack on the 
United States, our allies, and our partners. Last year, the Quadrennial 
Defense Review (QDR), the NPR, and the New Strategic Arms Reduction 
Treaty (New START) discussions produced an important national consensus 
that affirmed the necessity of the United States' nuclear deterrent and 
the funding required to sustain it. The president has pledged that the 
United States will maintain a safe, secure, and effective nuclear 
deterrent as long as nuclear weapons exist. STRATCOM is now committed 
to implementing New START and to advocating for planned investment in 
the deterrent force. The updated ``1251 Report'' submitted in February 
of this year outlines both DOD and Department of Energy nuclear funding 
requirements through fiscal year 2021. While budget estimates will be 
refined as major program baselines evolve, these important investments 
must begin immediately. I very much appreciate Congress' strong fiscal 
year 2011 support and urge you to fully fund the President's request in 
fiscal year 2012.
Nuclear Enterprise
    The fiscal year 2011 and 2012 budget requests reverse several years 
of downward trend in nuclear enterprise funding. These budgets provide 
investments in the facilities, equipment, and personnel dedicated to 
sustaining and managing the Nation's nuclear weapons, as well as to 
dismantling weapons no longer needed. To emphasize the importance of 
this investment and to better understand the conditions, urgent needs, 
and impending challenges across the complex. I made visiting each lab 
and production facility a high priority upon taking command, and to 
date I have visited all three nuclear weapons laboratories and most 
other related facilities--with plans to complete these visits soon.
    The men and women of America's nuclear weapons complex perform 
uniquely difficult, highly technical, and demanding work. As our 
stockpile ages well beyond each weapon's originally designed lifespan, 
robust stockpile surveillance and assessment programs will enable 
strategic deterrence and stability at New START force levels. Weapon 
safety, reliability, and performance may change in ways we cannot fully 
predict, and surveillance activities permit confidence and continued 
stockpile certification without nuclear testing. Dedicated surveillance 
and life extension studies constitute the best means of informing the 
President and Congress of our nuclear weapons' health, status, and 
requirements. The NPR's case-by-case approach to studying and selecting 
from the full range of life extension options (refurbishment, reuse, 
and, if needed, replacement) ensures the best future for our stockpile.
    Today, a narrow window is available to synchronize weapon 
sustainment efforts for the W76-1 and B61 (full scope) life extension 
activities--cost-effectively introducing improved safety and security 
features, avoiding a second B61 nuclear refurbishment in the 2020s, and 
potentially reducing the stockpile by consolidating four legacy B61 
variants into a single weapon. In addition, a Nuclear Weapons Council 
study of W78 Intercontinental Ballistic Missile (ICBM) and W88 
submarine-launched ballistic missile life extension program options 
will examine opportunities to use modular fuze components and develop a 
possible common warhead, potentially reducing costs and supporting 
long-term capability sustainment. These and future actions that 
evaluate ways to reduce warhead numbers and types through stockpile 
commonality and flexibility offer the opportunity to continue 
accomplishing our strategic deterrence mission while also achieving the 
goal of a smaller, more efficient stockpile.
Strategic Delivery Vehicles
    The NPR also affirmed the continuing need for the nuclear triad, 
which provides the President with multiple options for a variety of 
scenarios. The value of the triad lies in its flexibility and 
responsiveness to the changing world environment and in its ability to 
hedge against technical failure, geopolitical change, or a breakthrough 
in another nation's capabilities. America's strategic forces require 
continued investment to ensure their future capability, and STRATCOM is 
actively engaged with our Service partners to define and advocate for 
necessary nuclear force modernization and recapitalization programs.
Intercontinental Ballistic Missiles
    The widely dispersed and responsive Minuteman III ICBM force 
provides high readiness, low operating costs, and sovereign basing with 
multiple aim points that complicate adversary targeting. The Air Force 
is successfully concluding decade-long efforts to enhance safety and 
security and to sustain the Minuteman force through 2020. The Air Force 
is also evaluating requirements to sustain the force through 2030. 
STRATCOM supports these programs and is working with the Air Force on a 
Capabilities Based Assessment and pre-analysis of alternatives 
activities that begin to define options for a follow-on land-based 
strategic deterrent beyond 2030.
Submarine-Launched Ballistic Missiles
    Ohio-class SSBNs provide an assured and highly survivable response 
capability, and the highly accurate Trident II D5 strategic weapon 
system continues to exceed the demanding operational reliability 
standards established almost 30 years ago. By the time they begin to 
retire in 2027, the Ohio-class SSBNs will have served for more than 40 
years. The Navy completed an Ohio-class follow on platform AoA and, 
with STRATCOM, continues to refine specific replacement requirements. 
STRATCOM fully supports Navy efforts to maintain the current fleet, 
fund the necessary research and development for its replacement, and 
sustain the Trident II D5 ballistic missile and associated 
infrastructure to satisfy future deterrent requirements. For example, 
current infrastructure at Naval Base Kitsap-Bangor, WA lacks sufficient 
Explosive Handling Wharf (EHW) capacity to meet growing missile 
handling requirements. A second Pacific EHW wharf at Naval Base Kitsap-
Bangor, WA, is essential to long-term SSBN readiness.
Bombers
    America's B-2s and B-52s ensure that the President has visible and 
flexible conventional and nuclear global strike and deterrence options. 
Affirming their critical deterrent role, the nuclear-capable bomber 
force transitioned to STRATCOM's day-to-day operational control in 
2010. STRATCOM now has a far stronger voice in balancing this unique, 
dual-capable nuclear and conventional bomber force's day-to-day 
readiness, training, and operational employment. While the Air Force 
continues to sustain mission-critical systems, it will also soon begin 
developing a new long-range, dual-capable penetrating bomber. Coupled 
with the development of a new bomber, two additional capabilities will 
ensure the viability of the air-breathing leg of the Triad for decades 
to come. Air Force investments will sustain the Air Launched Cruise 
Missile through 2030 (or until a suitable replacement is fielded), 
ensuring standoff capability for the long term. Further, the bomber 
force must be supported by a fleet of new aerial refueling tankers to 
extend their range and assure the bombers' strategic and extended 
deterrence roles. STRATCOM supports Air Force progress toward ensuring 
the long-term health of the airborne component of our strategic 
capability.
Nuclear Command, Control, and Communications
    A reliable, assured C3 capability from the President to the nuclear 
forces is fundamental to an effective strategic deterrent. National 
leaders, commanders, ISR assets, and strategic forces must share 
assured linkages to confidently understand and effectively address 
nuclear mission demands. Current systems require investments to ensure 
reliability and address looming capability gaps in our National 
Leadership Command Capability.
    A new Strategic Command and Control Complex and Nuclear C3 node at 
Offutt Air Force Base, NE, is at the center of our nuclear C3 plans. 
The fiscal year 2012 budget seeks a first increment of $150 million to 
begin replacing the aging and fragile Curtis E. LeMay building and 
colocated facilities. Today's building, command center, and computer 
systems took shape long before the IT revolution and now lack the 
capacity to support current mission demands. The buildings' systems 
strain to support numerous computer and communication systems, and the 
spaces occasionally experience serious heating and cooling problems, 
electrical failures, and other outages. For example, in December 2010 
and January 2011, two water pipe ruptures caused significant system 
outages and dislocated staff for several days, although the Command 
remained capable of performing its missions due to extraordinary 
workarounds and the remarkable efforts of the dedicated staff and a 
small army of outside emergency help.
    Prior to defining the current requirement, STRATCOM--in 
consultation with the Army Corps of Engineers and the Air Force--
evaluated sustaining the status quo, renovating the existing facility, 
or engaging in new construction. The evaluation concluded that new 
construction offered the most operationally efficient solution to 
support STRATCOM's missions, operations, and nuclear C3 needs. The new 
facility will ensure an EMP-protected, flexible, sustainable, reliable, 
and collaborative environment with an infrastructure that meets the 
security challenges of today and tomorrow.
Conventional Prompt Global Strike
    A limited, credible, conventional Prompt Global Strike (PGS) 
capability would provide the President with an important deterrent 
option in some strategic scenarios. Today, we still lack the ability to 
rapidly deliver conventional effects against fleeting or geographically 
isolated targets, allowing a potential adversary to establish a 
sanctuary using mobility and strategic depth. Research, development, 
test, and evaluation projects continue making progress, and I ask you 
to continue supporting these PGS efforts.
International Engagement
    Deterring and dissuading nuclear threats in today's national 
security environment also requires careful attention to international 
relationships. While the specter of global nuclear war may be more 
remote than decades ago, the possibility for miscalculation between 
nuclear-armed states remains a perilous threat to global security. As 
noted in the NPR, ``Enduring alliances and broad-based political 
relationships are the foundation of strategic stability and security.'' 
Indeed, many nuclear-armed states are important partners in combating 
proliferation. New START lowers the maximum number of U.S. and Russian 
strategic offensive arms, restores an important, confidence-building 
verification regime, and provides opportunities to continue military-
to-military engagement. China's willingness to consider and study 
Secretary Gates' proposal for a strategic security dialogue represents 
an important avenue for growth between our two militaries in this area 
as well. STRATCOM will continue to support DOD, Department of State, 
and geographic combatant command activities to develop stable and 
cooperative relations with other responsible nuclear powers and will be 
prepared to provide advice on other arms control measures that could 
encompass a greater range of weapons.
                                 space
    Throughout the 20th century, the United States and other countries 
developed and exploited the space domain's extraordinary potential, 
including changing how we navigate, communicate, and understand our 
world. However, the domain is increasingly congested, contested, and 
competitive. Guaranteeing mission assurance through adequate Space 
Situational Awareness (SSA), resilience, and critical-asset protection 
is essential. The new National Space Policy, signed by the President, 
and the National Security Space Strategy (NSSS), co-signed by the 
Secretary of Defense and Director of National Intelligence, emphasize 
the need to continue developing resilient capabilities which will 
improve our ability to satisfy combatant commanders' requirements for 
uninterrupted ISR, expanded military satellite communications, and PNT 
support. Implementing the NSSS will position the national security 
space enterprise to shape and strengthen the space domain's safety, 
stability, and security; to maintain and enhance U.S. advantages in 
space; to energize the U.S. industrial base by engaging a broad range 
of partners; to prevent and deter aggression; and to improve 
sustainability, acquisition, and flexibility of U.S. space 
capabilities.
Situational Awareness
    SSA is central to mission assurance and increasingly important. As 
part of its SSA mission, STRATCOM now tracks more than 22,000 orbiting 
objects. Approximately 1,100 of these objects are active satellites, 
but the remaining debris litter a variety of orbits and threatens both 
critical systems and human spaceflight. While space surveillance is 
improving, we do not yet have robust, assured, and real-time 
situational awareness of the orbital domain. Current and future 
investments should expand data integration, sharing, and exploitation; 
improve object detection, identification, and tracking; and advance our 
ability to characterize potential collisions (conjunctions). Notably, 
the proposed Space Fence promises to expand detection capacity more 
than tenfold from just two or three locations outside the continental 
United States and to construct a more comprehensive orbital picture. 
Increasing the number of objects tracked will be largely useless, 
however, without corresponding improvements in data integration and 
exploitation technologies. As part of its SSA mission, the Joint Space 
Operations Center (JSpOC) must also be prepared to identify and 
attribute purposeful space system interference and provide timely 
recommendations to address the interference. Without space situational 
awareness of the orbital domain, link segment, and supporting ground 
infrastructure, any plans for resilience, mission assurance, 
augmentation, and reconstitution will have a weak underpinning. 
STRATCOM fully supports funding for both the JSpOC Mission System (JMS) 
and planning and design work for a modern JSpOC facility that will 
facilitate a generational leap from static displays to automated, real-
time visual conjunction analyses--improving our ability to protect 
critical space-based assets and maintain our free access to and use of 
space. In addition, technology will soon allow us to link multiple 
sensors together in a single network that will meet the needs of many 
users.
Cooperation
    As a global domain, space and space-based capabilities operate 
irrespective of geographic or military boundaries. As more nations join 
the space-faring ranks each year and the number of objects in earth 
orbit grows, the need to establish norms of behavior and to improve the 
cooperation and collaboration among responsible space users grows as 
well. Our objective is to sustain a safe, stable, and secure space 
domain while maintaining the national security advantages space systems 
provide. U.S. efforts to share SSA data represent an important step 
toward greater international space cooperation, which should eventually 
help to integrate sensors and data from allies and partners worldwide 
and ultimately move towards a combined space operations center.
    Today, the STRATCOM SSA sharing community includes more than 41,000 
users in 141 countries. Our efforts promote the safe and responsible 
use of space by providing satellite operators with highly accurate 
predictions of close approaches between space objects for every 
satellite operator. Since the Secretary of Defense delegated his 
authority to enter into agreements with commercial entities to the 
STRATCOM Commander last September, we have concluded 23 agreements and 
are processing others. Each partner and each agreement signifies an 
operational relationship that can yield important exchanges, perhaps 
someday leading to a broad, international partnership for space 
situational awareness. STRATCOM fully supports expanded planning and 
implementation for space partnership operations among allies, coalition 
partners, and commercial interests and will work with our partners in 
the DOD and elsewhere to help review proposals to establish normalized 
behavior.
Space-Based Capabilities
    Enabling better situational awareness will improve the overall U.S. 
space posture; however, long-term, uninterrupted capability from space 
requires equal dedication to protection, resilience, augmentation, and 
reconstitution of assets in space, supported by timely design and 
development, cost-effective acquisition, and high-confidence space 
launch. Today's operating forces rely on space capabilities throughout 
the kill chain and beyond. Putting already stressed space capabilities 
that allow the joint force to navigate, communicate, see the 
battlefield, and strike under all conditions in the kill chain places 
those same valuable capabilities on any potential adversary's target 
list. STRATCOM fully supports DOD efforts to improve resilience and 
increase the protection of key space assets.
Launch
    Reliable space capabilities also require an assured ride to orbit. 
Evolved Expendable Launch Vehicles (EELVs) are the DOD's primary launch 
vehicles and the sole U.S. vehicles for much of the national security 
manifest. STRATCOM supports further Air Force investments in this and 
other programs that will assure our access to space. Additionally, 
improvements in manifest and scheduling processes and investments 
designed to sustain and ensure national launch facilities' availability 
for future demand will maximize synergies between launch management and 
national priorities.
Industrial Base Concerns
    Beneath our national security space requirements lies the need for 
a stable, responsive, and innovative national industrial base. Since 
the space age began, we have rarely been so reliant on so few 
industrial suppliers. Many struggle to remain competitive as demand for 
highly specialized components and existing export controls reduce their 
customers to a niche government market. Careful interagency planning 
that more tightly defines and oversees requirements, supported by 
stable budgets and production rates will help sustain a national 
industrial base essential to commercial users, military space, and the 
strategic deterrent. The retirement of the Space Shuttle and other 
changes at NASA also injected significant concern into the solid rocket 
motor industrial base--an industry we cannot afford to lose. 
Substantial weakening of this capability would impede current strategic 
system sustainment and follow-on development. While industry 
adjustments are inevitable, DOD, in consultation with NASA and other 
agencies, is working to sustain the solid rocket motor industrial base 
to ensure we retain right-sized, cost-efficient, and viable design, 
development, and production capabilities. STRATCOM supports these 
important DOD efforts to improve program stability, increase the 
quantity and quality of the acquisition workforce, strengthen clarity 
and articulation in the requirements process, and stimulate scientific 
and technological advancements.
                               cyberspace
    Last fall in Foreign Affairs, Deputy Secretary of Defense William 
Lynn noted that, ``Every day, U.S. military and civilian networks are 
probed thousands of times and scanned millions of times.'' Like space, 
cyberspace capabilities have rapidly become critical but also 
increasingly vulnerable. Cyberspace's pervasive presence, high 
importance, difficulty of attribution, and low cost of entry highlight 
some of our challenges. Combined with a growing, global reliance on 
cyberspace and its hosted capabilities, this constant evolution 
challenges mission assurance efforts--particularly as the threat moves 
from exploitation to disruption. Ensuring reliable, sustainable 
networks, freedom of access, and freedom of maneuver is not just a DOD 
problem. This is a national security problem. Assuring access demands 
sustained, resilient, and flexible approaches to maturing our defense 
capabilities, our capacity, and our cooperative relationships within 
and beyond the U.S. Government.
Capabilities
    The most important asset any commander can have is robust, up-to-
date situational awareness. Cyberspace is dynamic, and specific threats 
require specific countermeasures. The Maginot Line failed because it 
was static and the defense failed to anticipate and address 
technological and tactical changes. .After the fact. detection and 
attribution don't work in cyberspace today either. The offense always 
has a strong advantage, overwhelming, subverting, or defeating static 
defenses. Continued advances in system and organization teamwork, 
coupled with the development and deployment of information-based 
capabilities and intelligence-driven sensors that .see. intrusions and 
can respond at equivalent speed is essential. Driven by strong, capable 
organizations, dynamic, agile, and informed capabilities that 
comprehend the network and mitigate threats at the boundary will 
significantly strengthen defense of DOD networks.
    In response to the growing threat, last year the DOD established 
U.S. Cyber Command (CYBERCOM) at Fort Meade, MD as a subunified command 
to STRATCOM. STRATCOM delegated responsibilities to CYBERCOM to 
coordinate, plan, synchronize, and execute cyberspace operations in 
order to better defend DOD networks and to support other combatant 
commanders. We must accelerate the acquisition of comprehensive, shared 
cyber awareness tools to expand opportunities to secure critical 
information, reduce points of vulnerability, and develop responses to 
ensure warfighter access to essential information systems.
    Capacity. Today, operators at CYBERCOM and its subordinate Service 
components work to defend against and attribute numerous information 
network intrusion attempts. The cyber workforce is growing, but our 
organizations and capabilities must also grow to keep pace with ongoing 
operations. STRATCOM is working with CYBERCOM to improve the cyber 
awareness of every DOD member with access to an information system, 
strengthen organizations, resolve roles/responsibilities, expand 
partnerships, build technological and human capacity for full-spectrum 
cyberspace operations, and integrate cyber capabilities into every 
commander's plans and operations. Recruiting adequately trained and 
equipped cyber warriors is challenging, but fortunately young Americans 
grow up learning and adapting to new technological platforms from a 
young age. Service cyber career paths are still being developed, and 
these critical, technical skills need both time to develop and 
sustained investment to prevent their atrophy. Sustained force 
development emphasis and investment is essential. The U.S. is also home 
to the world's premier educational and commercial information 
technology entities. We must continue to capitalize on this capacity 
and partner with these organizations on our requirements and to spur 
domestic math and science interest. Doing so will help develop, expand, 
and sustain a base of cyber expertise and adapt DOD personnel processes 
to attract, develop, and retain the cyber professionals necessary to 
protect critical DOD infrastructure and preserve U.S. freedom of action 
in cyberspace.
Cooperation
    Cyber defense must include a wide range of partners. After all, 
this is truly a national security issue, making interagency and allied 
partner engagement and information sharing essential to a robust 
defense. Military operations depend on the broader U.S. information 
technology infrastructure, and defending military networks will net 
fewer benefits if the wider civilian infrastructure remains at much 
greater risk. The Department of Homeland Security (DHS) is ultimately 
responsible for coordinating the protection of the ``.gov'' and 
domestic ``.com'' domains, but DOD has much to offer in terms of 
intelligence and technical support. The DOD-DHS Memorandum of 
Understanding signed last fall lays important groundwork for enhanced 
cooperation, mutual support, and synchronized operations.
                         winning today's fight
    In strategic deterrence, space, and cyberspace, STRATCOM both 
operates forces and supports the full range of military operations. The 
broad scope of our responsibilities and trans-regional capabilities is 
clearly woven into the fabric of today's operations. Winning the fight, 
whether we are either a supported command or are supporting the 
geographic combatant commands, is something our team strives to do each 
and every day. However, STRATCOM also has responsibilities to 
integrate, synchronize, and advocate for other capabilities with trans-
regional impact, and we are dedicated to partnering with other 
combatant commands to improve the warfighting effectiveness of these 
capabilities.
Information Operations
    Consistent with our mission to improve strategic joint 
capabilities, STRATCOM participated in a 2010 Secretary of Defense 
directed Strategic Communication (SC) and IO Front-End Assessment, 
designed to evaluate and recommend improvements for DOD roles, 
missions, definition, management, and resources for SC and IO. As a 
result of the assessment, STRATCOM will reorganize the Joint 
Information Operations Warfare Center (JIOWC) at Lackland AFB, TX. 
Existing JIOWC resources and missions not specific to electronic 
warfare will be realigned to the Joint Staff, and STRATCOM will remain 
the DOD lead for Electronic Warfare (EW).
Electronic warfare
    The electromagnetic spectrum spans almost every modern 
technological convenience. While operational plans normally assume 
unfettered spectrum access, this assumption is not assured. Changing 
industry standards, global growth of civilian devices, military 
bandwidth requirements, and disruptive or destructive adversary 
electronic warfare capabilities all threaten to pinch or sever the 
shrinking electromagnetic links between national security platforms and 
the operating forces that rely on them.
    Recognizing future threats, potential limitations, urgent 
warfighter needs, and the need for unified DOD advocacy, JIOWC 
completed several Joint Requirements Oversight Council (JROC) tasks to 
examine capability gaps and solutions for emerging electromagnetic 
spectrum threats. The National Defense Authorization Act for Fiscal 
Year 2010 required DOD to develop an EW strategy, submitted to Congress 
last year. That EW strategy concluded that we must move beyond the 
traditional understanding of EW by combining it with other kinetic or 
non-kinetic capabilities to increase U.S. combat effectiveness and 
achieve electromagnetic spectrum superiority. STRATCOM is planning to 
establish a Joint Electronic Warfare Center to advocate for and support 
DOD Joint EW capability requirements, resources, strategy, doctrine, 
planning, training, and operational support.
Missile Defense
    The Ballistic Missile Defense System (BMDS) exists to meet 
combatant commands' theater defense needs and to provide for the 
limited defense of the United States. Working with geographic combatant 
commands and the Missile Defense Agency (MDA), our efforts focus on 
building tailored, regional missile defense architectures using the 
concept of a Phased Adaptive Approach (PAA) and on meeting urgent 
warfighter capability needs. STRATCOM's work provides a comprehensive 
assessment of the fielded BMDS's suitability and effectiveness and 
combines warfighter needs for air, cruise missile, and ballistic 
missile defense capabilities to inform programmatic actions and guide 
future R&D investment priorities.
    At the 2010 Lisbon Summit, North Atlantic Treaty Organization NATO 
allies affirmed the PAA for missile defense as a means to address the 
continued qualitative and quantitative growth of global ballistic 
missile programs. The Allies also invited the Russian Federation to 
participate in missile defense cooperation. As a strategy, PAA applies 
to several geographic combatant commands, and STRATCOM's current 
challenge is to make sound, analytically-based recommendations to 
balance limited BMD assets worldwide. The European PAA's four phases of 
increasing capability are designed to defend against existing and near-
term threats posed by short- and medium-range ballistic missiles and to 
build up defenses against long-range ballistic threats over time as 
those threats mature. As stated during the New START debate, the U.S. 
will not agree to any ballistic missile defense limitations or 
constraints and indeed intends to continue developing and deploying 
systems consistent with U.S. interests. The U.S. missile defense 
program is not designed to counter the strategic forces of Russia or 
China, but rather to address limited ballistic missile threats such as 
those posed by Iran and North Korea.
    As various regional PAAs develop, STRATCOM will continually re-
evaluate the standing Global Integrated Missile Defense Concept of 
Operations and other acquisition, deployment, basing, and employment 
plans for missile defense capabilities between and across all areas of 
responsibility. Our analysis will ensure that the joint warfighters' 
requirements receive deliberate management and readiness structures to 
ensure timely, flexible deployment, employment and redeployment of 
tested, understood BMD capabilities during and after crises.
    Consistent with the Ballistic Missile Defense Review, new 
advancements and allied technologies must be made interoperable with 
existing systems, including required improvements in discrimination 
capabilities essential to the efficient employment of limited missile 
defense resources.
Intelligence, Surveillance, and Reconnaissance
    Timely, useable situational awareness and intelligence analysis is 
essential to all military operations. Airborne, submarine, and space-
based ISR capabilities all provide key indications and warning 
information to commanders facing an array of traditional adversaries, 
nontraditional threats, and challenging intelligence problems. For the 
past decade, ISR efforts focused primarily on meeting the expanding 
demand in the U.S. Central Command (CENTCOM) area of responsibility. As 
overseas contingency operations change, DOD must carefully examine 
force requirements to ensure we organize, train, and equip a balanced 
force across the range of requirements, including anti-access 
environments and New START verification. An objective, multi-domain, 
capabilities-based architecture that improves the ability to identify 
requirements across geographic boundaries and the range of potential 
threats is essential to appropriately balancing risk against necessary 
programmatic, budgetary, and acquisition decision points.
    STRATCOM's ISR efforts achieved significant resource efficiencies 
and shaped ISR capability decisions through initiatives like the ISR 
Force Sizing Construct project, the High Altitude Transition study, the 
Synoptic Operational Area Reconnaissance Study, and the Mobile Nuclear 
Air Sampling Study. STRATCOM also successfully advocated for a critical 
CENTCOM ISR capability--designed and executed in approximately 30 
months and at a lower cost than traditional acquisition processes. The 
Services and Intelligence Community must continue to strive for better 
integration in order to reach greater efficiencies--not only for the 
collection platforms themselves but also across the still-limited 
processing, exploitation, and dissemination architecture needed to 
transform collections into actionable intelligence.
Combating Weapons of Mass Destruction
    Another mission area requiring sustained attention is CWMD, since 
the pursuit of WMD by violent extremists and their proliferation to 
additional states remains the primary threat to the United States, our 
allies, and our partners. STRATCOM received the responsibility to 
synchronize DOD CWMD activities in 2005 and has made discouraging, 
detecting, deterring, and, if necessary, defeating these threats a 
priority for theater operations and strategic deterrence. Some actors 
seek nuclear, biological, or chemical weapons to coerce their neighbors 
or to deter U.S. intervention in regional conflicts. Others may seek 
such weapons to use them in terrorist attacks or as weapons of war. 
Diffuse networks of non-state entities, secretive state sponsors, shell 
corporations, and terrorist-financed transactions challenge our 
intelligence organizations to develop comprehensive, accurate, and 
actionable assessments that enable global CWMD. STRATCOM continues to 
pursue further national CWMD capability improvements with interagency 
partners to coordinate CWMD objectives, plans, and activities.
    Among current and future CWMD enhancements are technological 
improvements to detect, analyze, and assess WMD developments. The 2010 
QDR affirmed the need to enhance National Technical Nuclear Forensics 
capabilities which, along with accurate intelligence and other 
information, support nuclear threat attribution and may thereby deter 
those considering the diversion, transfer, development, or use of 
nuclear weapons, improvised nuclear devices, radiological dispersal 
devices, and other nuclear or radiological threats. In the past year, 
the STRATCOM Center for CWMD (SCC WMD) embedded Proliferation Security 
Initiative activities within U.S. Africa Command, CENTCOM, and U.S. 
Southern Command exercises and supported planning and funding efforts 
to expand exercise participation and training synchronization across 
geographic combatant commands. Finally, SCC WMD collaboratively 
operates the Interagency Combating Weapons of Mass Destruction Database 
of Responsibilities, Authorities, and Capabilities (INDRAC) System with 
the Defense Threat Reduction Agency. INDRAC provides a strategic level 
information reference resource to inform CWMD operations, planning, 
advocacy, training, and exercises across the government.
    In the 2010 QDR, the Secretary of Defense directed DOD to establish 
a Joint Task Force Elimination Headquarters to ``better plan, train, 
and execute WMD-elimination operations . . . with increased nuclear 
disablement, exploitation, intelligence, and coordination 
capabilities.'' Last December, Secretary Gates tasked STRATCOM to 
execute this task and stand up a Standing Joint Force Headquarters for 
Elimination of WMD with ``standing exploitation and intelligence cells 
in order to plan, train for, and execute global WMD elimination 
operations.'' STRATCOM is currently analyzing the requirements 
necessary to implement the Secretary's direction.
                               conclusion
    Great challenges lie ahead of the United States and STRATCOM, but 
so too do great opportunities. The Command is dedicated to being an 
effective steward of taxpayer resources while maintaining a strategic 
force structure ready and able to deter aggression, preserve U.S. 
freedom of action, and defeat adversaries when necessary. The 
uncertainty inherent in today's complex, multi-domain security 
environment requires that we summon our best efforts to develop and 
deploy the plans, systems, and forces needed to sustain America's 
deterrent, ensure unfettered access to and through space and 
cyberspace, and win the dynamic joint fight. I look forward to working 
with Congress as we pursue these priorities together, and I appreciate 
your support and counsel in the months and years ahead. Thank you again 
for the opportunity to be here today, and welcome back to Nebraska and 
the Bellevue-Offutt community.

    Senator Nelson. Thank you very much, General.
    The advantage of being the only member here is I get to ask 
all the questions. I do not have to share the time with anybody 
else. So there is an advantage. It was not why I thought we 
ought to do it here, but it is certainly an added benefit.
    Thank you for your very thoughtful comments, and I do have 
a couple of questions.
    In your prepared statement, you described the mission of 
STRATCOM and it includes the responsibility to foster strategic 
stability and, as you have said, ensure uninterrupted 
capabilities from and access to space and cyberspace, respond 
to both traditional and nontraditional threats, and deal with 
surprise in an era of rapid technological advances as we talked 
about this morning, a very complex but related set of missions.
    Now that you have been in your new responsibilities as 
commander, what are the three most difficult challenges that 
you see in being able to fulfill these missions?
    General Kehler. Mr. Chairman, the first challenge that I 
would continue to highlight is this dramatically different 
operating environment that we find ourselves in today. I think 
my colleagues in the other combatant commands would share my 
assessment of this. I do not think we have ever seen an 
operating environment like today's. When we look at the range 
of activity that we are engaged in around the world today, when 
we look at the complexity of the national security environment 
that we find ourselves engaged with today, when we look at the 
differences for us--for example, when we talk about space and 
cyberspace, items that we have talked about in military 
planning for years about distances and time do not mean the 
same thing when you can span global distances through space and 
cyberspace in milliseconds.
    When we talk about boundaries--and typically we have 
focused on geographic areas as areas of interest for our 
military activities--those boundaries are not the same when we 
talk about space and cyberspace.
    When we talk about asymmetric challenges to us--and those 
come frequently in space and cyberspace. This ambiguity--actors 
can act in cyberspace and you never know who they are or you do 
not know for quite some time until you do the forensics and 
discover who someone was when they were actually doing some 
criminal activity, for example, in cyberspace.
    So the changed operating environment is one of the toughest 
challenges that we face.
    The second one with aging systems, in particular, is to 
ensure the level of readiness that we need to meet those 
challenges in this new operating environment. We find that 
continued investment is required certainly across the nuclear 
enterprise. We have testified to that before, as you well know. 
The President's budget contains requests to continue our 
investment in the existing forces that we have for strategic 
deterrence, as well as the support and command and control, as 
well as the weapons complex that underpins all of it.
    In addition to that, I am equally concerned about aging 
weapons systems today. We were very gratified with the 
selection by the Air Force of a new tanker and the ability to 
move forward there. We are very gratified that Congress has 
given us approval to move forward with a replacement to the 
Ohio-class submarine. We have been very encouraged by decisions 
inside DOD in the proposal now to Congress to go forward with a 
new bomber platform. In the meantime, we have to make sure that 
we are sustaining those platforms that are out there to include 
our space systems, to include the new area that we have for 
cyberspace.
    Finally, the third challenge that I have that I think about 
every day is preparing for and responding to surprise. Surprise 
can be particularly decisive when it involves things like space 
and cyberspace potentially or the nuclear world, for example. 
This is where our concern about combating WMD, not just 
maintaining this strategic stability we have with Russia, for 
example, but combating WMD and especially WMD in the hands of 
violent extremists or state proliferators are things that we 
must pay attention to.
    I have other concerns but those are the top three that keep 
me awake at night. Significantly, by the way, when people ask 
if anything keeps me awake at night, nothing operational keeps 
me awake at night because of the magnificent people that you 
see here with me today. Once the missions are in their hands, I 
stop worrying about it. It is all the things that I am supposed 
to do to make sure that they have the tools that they need that 
keep me awake.
    Senator Nelson. Thank you.
    You made reference to the fact that the President's budget 
request includes the money to start construction of a new 
headquarters for STRATCOM. I think you gave us some indication 
why this is an important investment as part of our national 
security. Could you maybe expand on that just a little bit?
    General Kehler. Mr. Chairman, STRATCOM performs a unique 
mission among the Nation's military forces. We occupy a unique 
place, not only a unique physical place, but we occupy a unique 
operational place in our Nation's defense infrastructure. We 
have a unique location here in terms of our abilities to 
conduct planning, in terms of our capability to do national 
level command and control of our strategic deterrent forces, in 
the ability for us to pull together the pieces of our strategic 
deterrent with our space activities, with our cyberspace 
activities, with our national nuclear defense activities, to 
pull all of those pieces together to perform a uniquely 
important job.
    The facilities that we perform that job from today were 
designed in the early 1950s, constructed in the middle 1950s, 
and are much like we were talking earlier this morning. The 
multiple electronic devices that you bring into your house 
today or have carting around, in my case in my car--I have a 
lot of different things that I carry around with me. Those have 
all come along pretty late, and yet none of my infrastructure 
in my home supports any of that. I have more of those plug-in 
power strips around my house, for example, than I do have 
anything else. So that is one example of the facility that we 
have here not supporting the mission demands any longer.
    Power is an issue for us. Cooling air is an issue for us. 
We have essentially cobbled together over the years a number of 
systems on top of systems. We find ourselves in a position here 
where, if we are not careful, we have created a very vulnerable 
place from either a simple accidental problem with the 
infrastructure to other more significant problems dealing with 
cyber threats and other things.
    Our assessment has been that for this unique mission we 
need to go back and reconstruct a new command and control 
facility, and while we tend to look at that as a building, the 
building surrounds it. What is important here is what goes in 
the building and the building that is built to support it. So 
we have made a budget request that is working its way through 
your committee and others to essentially bring the 
infrastructure here to the point where it matches now the 
mission responsibilities that we have been given.
    Senator Nelson. If a terrorist, for example, were able to 
obtain nuclear materials, plutonium or uranium, build an 
improvised nuclear device, and blow that device up in a U.S. 
city, obviously, the devastation would be significant. First, 
what is STRATCOM's role in making sure that this does not 
happen? Second, if it does happen, what is STRATCOM's role in 
responding to that kind of an event?
    General Kehler. Sir, one of the mission responsibilities 
that STRATCOM has is what we would call collectively combating 
WMD. As I said in my opening remarks, the current national 
security strategy says very clearly that the most significant 
threat that we are facing today is WMD in the hands of a 
violent extremist or in the hands of a state proliferator, 
which is why we are so concerned about North Korea and Iran, 
for example.
    STRATCOM has been given planning responsibilities to be the 
synchronizer, if you will, for the global planning that goes on 
in every one of our combatant commands, to include U.S. Special 
Operations Command (SOCOM). We are given the responsibility to 
sit, if you will, at the top of the pyramid and make sure that 
all of the plans fit together. The problem is not unique to 
STRATCOM. I think if you had the other combatant commanders 
here, which you have done, I know, in your subcommittee at some 
length and in front of the full committee, every one of the 
geographic combatant commanders stated their concerns about 
proliferation of WMD. It is a concern for all of the combatant 
commanders today.
    Our responsibility is to make sure that all the plans fit 
together. And we host some planning conferences, which does not 
sound as important as what it is, where we make sure that all 
of the combatant commands have the appropriate plans in place 
to both detect such activity, track it, if necessary, and then 
offer the President alternatives for how to deal with that if 
it should ever arise, all the way up to and including U.S. 
Northern Command (NORTHCOM) which would have the responsibility 
to assist civil authorities in dealing with the horrible 
scenario that you laid out for us.
    We also have responsibility to work with the Joint Staff 
and the Chairman of the Joint Chiefs of Staff and the 
interagency to make sure that our activities are coordinated 
along with those of law enforcement, the Intelligence 
Community, and other parts of our Government to make sure that 
we are all focused on this issue with the attention that it 
deserves.
    Had we been having a conversation here 20 years ago and you 
said to me, ``point out to me the number one plan that is on 
the top shelf in your office,'' I would have pulled out our 
nuclear deterrence master plan, and I would have said, ``here 
it is. This is the number one most important thing that we are 
doing today.''
    If you ask me today, I would say there are two plans up 
there. One would be the nuclear deterrence plan, which always 
has to be there in my view, but the other would be a plan 
called ``combating WMD.'' It is our plan to pull these pieces 
together to make sure that we are in the position, even though 
we do not have a lot of the forces that would be used to deal 
with such a problem, that we are in a position that we have the 
appropriate plans in place and we have either deterred or 
dissuaded or prevented that kind of thing from happening to 
begin with.
    Senator Nelson. Thank you.
    You have touched on this by mentioning North Korea, but let 
us say countries like North Korea and Iran proliferate WMD, as 
well as the delivery systems such as missiles. Is there 
anything in particular that you do in connection with 
proliferating countries as opposed to, let us say, a terrorist 
or an effort at an attack?
    General Kehler. For counterproliferation, sir, we are part 
of a big team that is an intergovernmental team. In fact, that 
team extends outside DOD into the rest of our U.S. Government 
and from there through state and other means to our allies and 
friends around the world as well.
    To effectively counter the proliferation of either 
ballistic missiles or WMD is a hierarchy of steps that we take. 
Beginning with treaties, international legal arrangements, 
norms of behavior, all of those things that would typically 
fall in the Department of State's realm are complemented by 
things that would fall within the Intelligence Community's 
realm, within DOD's realm, and then ultimately at the combatant 
commander level a series of plans that we could offer to the 
President if he chose to take action in response to 
proliferation.
    The real objective here is to dissuade it or deter it or 
prevent it. Those actions are underway through a variety of 
means. Of course, you are well familiar with your former 
colleagues, Senator Nunn and Senator Lugar, the actions that 
have gone on there that have been counterproliferation to try 
to secure WMD materials around the world, the treaty structure 
that has surrounded some of these activities as well, and then 
beyond that, ultimately the activities that would go on in the 
regional combatant commands and then in STRATCOM, SOCOM, and 
elsewhere to be supportive of whatever other steps might need 
to be taken.
    Senator Nelson. Maybe you could help us understand a little 
bit about how the Missile Defense Agency (MDA) actually works 
and how there would be coordination through STRATCOM and MDA to 
protect against any kind of an attack, but in the event that 
there were an attack, how that could work.
    General Kehler. Mr. Chairman, first of all, our U.S. 
missile defense system is a global system. The national part of 
this is aimed at a small, very limited number of missiles that 
would be launched against the United States from one of these 
smaller state actors. Specifically, our orientation today is on 
North Korea where they have both demonstrated that they have 
the capability to produce a nuclear weapon and they have 
demonstrated in a very aggressive way their ability to field 
ballistic missiles that today are capable--they have not yet 
put all the pieces together--of reaching our allies in the 
western Pacific as well as ultimately the testing that they are 
doing on longer-range missiles that eventually will have the 
capability to reach the United States.
    Our missile defense system today that is oriented for 
national defense is intended to deal with that problem and, 
hopefully, it is a part of our overall effort to dissuade that 
kind of activity on the part of the North Koreans from having 
them put all those pieces together eventually.
    It also, though, is oriented toward those that are 
considering going forward here, Iran, for example.
    It is not oriented against Russia and China with larger, 
far more sophisticated arsenals. The way we maintain stability 
there, although we do not consider either Russia or China an 
enemy, with their capabilities is through the arms control and 
stability, confidence-building transparency measures that we 
have going on elsewhere, and then ultimately through our 
strategic deterrent force which is still there and sized and 
shaped to be that stabilizing force and deterrent force, vis-a-
vis both Russia and China.
    So we work very closely with the MDA. We set the 
requirements for national missile defense. We do the assessment 
of its military utility. We are working very carefully with 
NORTHCOM that would have the responsibility to use that system 
under the direction of the President and Secretary of Defense 
if that were ever necessary, and we pull all of the combatant 
commanders together to make sure that the needs of the 
warfighters are being met, in particular, now that we have a 
good start and an effective system in place for national 
missile defense, to begin to orient that missile defense system 
now on where the very large threat and real threat is to our 
forces and our allies, and that is at the feeder level, which 
is why we have begun to focus as intensely as we have on the 
feeder-related pieces of this.
    Senator Nelson. Our goal is, obviously, to make sure that 
others know what we can do to prevent their being successful in 
attacking us. If they understand that we can deter, we can 
prevent, deflect any effort on their part, hopefully then that 
dissuades them from trying to go forward and spend additional 
time trying to find ways to further defeat our defensive 
system.
    Do you think that we have been successful in some respects 
at least? I understand North Korea is controlled by a very 
unusual person who does not seem to deal with reality the same 
way the rest of us do. But apart from that, do you think that 
we perhaps have been able to dissuade some of the other 
countries from looking at trying to defeat our systems of 
defense?
    General Kehler. It is hard to say, Mr. Chairman. There are 
two things I would say.
    First, I believe in the assessment that we have done on our 
limited defensive posture that we have for the Nation today, I 
believe that is an effective system, and I believe that system 
would work as advertised in response to a limited threat. So, 
number one, the credibility of how others would view it, I 
think, is linked to the assessments that we have made about its 
potential effectiveness. I believe that it is to the point 
where our assessment of this from a military standpoint is that 
it is effective for the purpose that it is intended. That does 
not mean that it would be capable of responding to some 
overwhelming strike. It could not do that, and yet that is why 
we also still retain offensive weapons to make this a package 
of things that we would use for deterrence purposes.
    The second point I would make is we do not see one-size-
fits-all deterrence any longer. We think that deterrence is a 
combination of things. Missile defense is one piece of that. 
Offensive forces is another piece of that. Our conventional 
forward forces is another piece of that. Our ability to command 
and control is another piece of that. So there are lots of 
pieces that make up the deterrence equation.
    I believe that any potential adversary, certainly nation 
states, take those factors into account in their 
decisionmaking. They wind up making their decisions based upon 
lots of things. It is hard to tell why the North Korean 
Government makes the decisions that it makes sometimes, but we 
assume some amount of rationality to other actors out there at 
the nation state level. My view is that all of them take this 
into account. How effective it is depends on their own 
assessment of benefit/risk/reward, and all the things that they 
will go through and the behavior that we will see based upon 
their own decision calculus. But I believe very firmly that 
they all take all of these issues into account when they are 
making those decisions.
    Senator Nelson. As you indicated, STRATCOM is responsible 
for implementing the New START treaty with Russia. Your 
predecessor, General Chilton, was a strong advocate for the 
treaty. The treaty has now been ratified by the Senate. It is 
in place. Can you give us your thoughts on how effective you 
think this treaty may be and what our objectives will be in 
reducing mutually the arms race and hopefully stop the 
proliferation in the world of the arms race?
    General Kehler. Yes, sir. First of all, I too am a firm 
supporter of the New START treaty. The Senate did ratify it. It 
has entered into force in February. We have 7 years to 
implement the provisions of the treaty. However, we are moving 
out to implement those provisions. A number of things are 
already underway. We have exchanged data with the Russians. We 
have done other things. There have been some preliminary 
inspections done. There have been some demonstrations and 
expositions, if you will. So a number of steps are underway.
    We have not yet made final decisions on what our force 
structure will look like within the treaty limits. The treaty 
does not require us to do anything other than meet its limits, 
1,550 operational warheads, 700 deployed operational launchers, 
up to 800 deployed and non-deployed. How we structure our force 
remains to be seen, and that decision process is underway both 
inside the combatant command here, inside the Joint Staff, as 
the Chairman is working his way through all of this, ultimately 
en route to discussion with the Secretary of Defense and 
ultimately en route to a discussion with the White House over 
how we should structure our forces.
    So we are moving forward. I think the single, most valuable 
thing about the treaty is that it does, in fact, place limits 
on those weapons that threaten the United States of America 
most significantly and most immediately. So that was a very 
positive step.
    A second very positive step is the fact that we have a 
treaty with the Russians at all. I think that what that does is 
it creates a dialogue with the Russians. We have found that to 
be a useful dialogue from well before the end of the Cold War. 
We have found that that is helpful for transparency reasons. It 
forces us to deal with one another on all kinds of levels, and 
it, in fact, allows us to continue this pathway that we have 
been on with the Russians since before the end of the Cold War, 
which is to reduce the overall number of weapons in a way that 
promotes stability and yet continues to allow us to have the 
strategic deterrent force that we think we need to meet our 
deterrence objectives. I see all of those as positives, and we 
see this as a positive way forward to work the implementation 
details as we decide what that force structure should 
ultimately look like.
    Senator Nelson. I think there were a lot of questions 
raised during the debate on the floor of the Senate about the 
treaty, whether or not there would be enough nuclear weapons 
for our offense and defense. So I guess the question is are 
there enough for our mutually assured destruction given what 
Russia will have and what we have, which is not our goal, but 
there was some concern that we are getting down to maybe a 
manageable level but an unsafe and insecure level.
    General Kehler. Sir, I do not think we are unsafe or 
insecure at all given the levels in the New START treaty. I 
would not characterize this any longer as mutually assured 
destruction. That means a lot of things.
    Senator Nelson. It is still something to think about.
    General Kehler. Yes, sir. That means a lot of things to a 
lot of people.
    What I would say is that at this force level that I am 
confident that we can meet our deterrence objectives. The force 
level that was agreed to and the assessments that were made 
which were prior to my time but which I fully agree with--those 
assessments were made based upon a series of deterrence 
objectives that have been in place for quite some time. The 
next step is to go back and look, and the NPR said that we 
would do this. Once the New START treaty has been put into 
force, now the question is, what is next. So we have begun to 
work with the rest of DOD and others to think our way through 
what is next.
    Senator Nelson. There was also a question about whether or 
not this would, in the words of President Reagan, permit us to 
trust but verify, and being able to have a certain level of 
verification was, in fact, part of what this treaty was about. 
So are you comfortable with the ability that we have to verify 
what Russia is doing as they would have the ability to verify 
what we are doing, as I described it, looking under each 
other's hood of the vehicle to see what is there?
    General Kehler. Yes, sir. I am comfortable with this. I 
believe that the verification mechanism that was put in place 
for this treaty fits the treaty. There was some discussion 
about whether this verification process would have fit the last 
treaty, and the answer is it would not have but it does fit 
this one and I am comfortable with it, with the provision, of 
course, that we continue to source those verification methods 
to include the national technical means that we use to help us 
enforce the verification provisions of the treaty.
    Senator Nelson. Turning to the area that I think a lot of 
people are paying close attention to or beginning to learn 
about, cyberspace, you referred to the Cyber Command as being a 
subunified command under STRATCOM. Maybe you could help us 
understand exactly what a subunified command is. We are all 
trying to learn how to speak the military language. I do not 
know that I have mastered it all, but I am trying to learn more 
about it.
    General Kehler. Sir, I can just say as an aside, the 
military people in here have not mastered it all, I can 
guarantee you. [Laughter.]
    We stand up a subunified command when there is a specific 
mission responsibility that requires focused attention is, I 
think, the best way to say it. For example, U.S. Forces-Korea 
is a subunified command to the U.S. Pacific Command. We stood 
that up years ago because there is such a unique set of 
challenges associated with what is still a standoff, of course, 
on the Korean Peninsula that we felt it was necessary to put a 
separate senior officer in charge of worrying about that every 
day, 24 hours a day.
    We did the same thing for U.S. Forces-Japan some years ago, 
and we have done that from time to time over the years when a 
specific issue was significant enough, required such detailed 
activities and awareness and specific responses that it 
required the full-time attention of a senior officer every day.
    That is what we have done in this case with cyberspace. We 
have stood up U.S. Cyber Command as a subunified command. It is 
commanded by a four-star officer, General Keith Alexander, of 
the U.S. Army. He wears another hat as well as the Director of 
the National Security Agency. The headquarters is at Fort Mead. 
That is a center of gravity for this kind of activity for the 
Nation that we have charged him. In fact, we have delegated the 
responsibilities that are given to STRATCOM to operate and 
defend DOD's networks. We have delegated those responsibilities 
to him, and what we find is the uniqueness of cyberspace 
demands that kind of attention where we have made, I believe, 
very good progress. Certainly we have a long way to go but we 
have made very good progress.
    The other thing this does is it gives a specific focal 
point for the rest of the government to interact with when they 
are talking about how do we do cyberspace business as a 
complete government. It also gives a way to reach out to 
commercial. As you well know, sir, the Department of Homeland 
Security (DHS) retains responsibilities here for defending the 
Nation's critical infrastructure, to include the cyberspace 
critical infrastructure. What we are trying to work our way 
through with Cyber Command is not how do we completely reinvent 
the role of the U.S. military related to cyberspace, but how do 
we apply our traditional military activities to cyberspace. 
That is everything from defense support of civil authorities to 
protecting our own DOD activities to conducting military 
operations.
    So Cyber Command is in the thick of all of that 
conversation. We are, of course, working with them from 
STRATCOM. In fact, yesterday we spent an entire day, both 
staffs together, back at Cyber Command headquarters outside of 
Washington. I think that putting a subunified command together 
for this subject at this time has been exactly the right thing 
to do.
    Senator Nelson. Statistics are now showing that criminals 
engaging in cyber crime make more money today in that cyber 
crime than via the drug trade for the first time. Obviously, we 
have to deal with criminal efforts in cyber or terrorist 
activity that could be criminal but for a different purpose not 
necessarily for profitability but to try to destroy our 
networks to adversely impact us.
    In working with DHS, how does this work? If you are not 
reinventing the wheel, trying to work with DHS, which would be 
concerned primarily, not entirely, with terrorists but with 
cyber crime, how do you distinguish or how do you divide up 
those responsibilities or follow up after they are discovered?
    General Kehler. Sir, first of all, those relationships are 
still being established. There has been a memorandum of 
agreement signed between DHS and DOD that lays out an initial 
relationship between the two departments. I think it is 
important to note that the Department of Justice (DOJ), for 
example, is a key player in all of this as well. There are 
other Federal departments that are also key players in here, 
and so the question is really one of relationships across the 
entire Federal Government.
    But let us take the DHS example for a second. Our friends 
in NORTHCOM and Admiral Sandy Winnefeld who commands that 
command today--we have worked through a series of relationships 
that allow him to do what we would call defense support for 
civil authorities. He supports DHS in the physical world in 
many ways whether it is from wildland fire fighting, whether it 
is flood activities, whatever it is where DHS turns to DOD and 
says, ``I need help, you have unique capabilities, unique tools 
that we need, unique manpower, unique training, whatever it 
happens to be, and we need that to support civil authorities 
and their activities.'' This is the same set of lanes in the 
road, if you will, that we need to carve out with DHS for 
cyber. It is different in that cyber is a different animal for 
us to deal with, but I am confident--and I think we are all 
confident--that we can establish those relationships.
    You asked how would we respond. In some cases, those 
relationships are in place today, and we have ways to respond. 
In other cases, they are not. If you listen to the 
conversations that go on from our Deputy Secretary of Defense 
and others, I think we would all acknowledge today that there 
is much more to do to position the Nation to be able to deal 
with cyberspace in terms of the amount of activity that we see 
from all different directions.
    But I think the final point I would make here is very 
significantly, in some cases things that happen in cyberspace, 
while the press headlines might use the word ``attack,'' when 
the word ``attack'' is used for people like us with uniforms 
like these, that means something to us that is not always 
necessarily the same thing we mean when we talk about attacks 
in cyberspace. In some cases, as you pointed out, those are 
criminal activities and best handled by our criminal activity 
handlers, whether that is the Federal Bureau of Investigations 
or whether that is local law enforcement or whether that is the 
State patrol or whatever, whether it is DOJ. Those are the 
kinds of questions that we are asking ourselves to make sure 
that we are not wanting to pick up the phone and call DOD for 
the wrong reasons.
    Senator Nelson. This is sensitive because I am going to 
make reference to China. There have been a lot of penetrations 
of U.S. Government and industrial computer systems with data 
theft that have been traced back to China, and while it is not 
possible to determine with certainty that these attacks are 
coming from or directly directed by the Chinese Government, the 
evidence over a number of years might cause some people to draw 
that conclusion. But at a minimum, if these attacks are not 
sponsored or officially sanctioned by the Chinese Government, 
it appears to most of us that the Chinese Government has done 
little or nothing to stop them, almost reminiscent of 
intellectual property theft as well.
    Is this something that is being looked at? I know it is a 
very delicate sort of a question, but is this something that is 
being looked at right now militarily? If you can even answer 
that in this environment.
    General Kehler. Sir, what I would say is about a week and a 
half ago, maybe 2 weeks ago, the White House released a 
document. I may get the title a little bit wrong, but I think 
it is called ``The International Strategy for Cyberspace.'' I 
think that is what it was called. If it was not called that, 
that is close.
    One of the highlights of that document is the idea that 
everyone will have to behave responsibly in cyberspace, that 
there is some expectation that to get the benefit out of 
cyberspace, that people will behave responsibly. I think that 
gets to your point here, that there needs to be responsible 
behavior at all levels.
    I will not comment on the specifics of any country, et 
cetera, because the other thing that you pointed out with your 
question is how difficult it is to determine who is doing what 
in cyberspace. Ambiguity is almost a hallmark of people's 
behavior in cyberspace. That is not a bad thing because we all 
want our privacy, of course. But it provides us with some 
difficult problems in trying to attribute behavior to various 
actors out there. So that is going to be a problem for us, I 
think, to work our way through for quite some time to come.
    Senator Nelson. Is that something that we could gather as a 
group of countries who have this capability as governments? We 
recognize there are private citizens located all around the 
world that have the capabilities that sometimes astound us that 
individuals would develop those levels of capability. But is 
that something where you think we might, as we have with the 
New START treaty, enter into some sort of an agreement with 
other countries where it is actual signatories to try to police 
that back home, wherever we possibly can, whether it is our 
country or another country?
    General Kehler. Mr. Chairman, I do not know what the 
mechanism would be, nor would I suggest a mechanism to do it. 
But I would say that the new national strategy suggests that we 
need to band together in some way as some type of a community 
of nations to make sure that our behavior is consistent with 
what our objectives are for the Internet, which is free and 
open activity for everybody.
    The interesting thing here is going to be, I think, whether 
by engaging nation states, you have everyone that you need in 
such an agreement. If you think about some of the issues we 
have seen in the last several years, there have been a couple 
of cases where we have non-nation states accusing nation states 
of bad behavior. So you have companies accusing nations; 
nations accusing companies. This is going to be very 
interesting, I think, for policymakers to sort out who you 
include in these kinds of agreements, which is why I think the 
strategy for cyberspace was pretty insistent on this idea that 
everyone has to behave responsibly.
    Senator Nelson. There is the distinction that we talked 
about between that that is just criminal for profit type 
efforts versus terrorists or nation state efforts that are the 
equivalent of spying to try to access our secrets and inveigle 
their way into our systems.
    General Kehler. Yes, sir. Vandalism, criminal activity, 
espionage, military activity, all of those things are happening 
in there at some level, and sorting all that out is one of our 
big challenges.
    Senator Nelson. I mentioned and you mentioned as well space 
debris. Can you give us some relative understanding of how much 
stuff is up there? Obviously, we think of space as being 
unlimited and we think about it as expanding the globe. How 
congested and contested is space right now with all that 
debris?
    General Kehler. I think two things that I have seen that 
have been really dramatic changes in my time on Active Duty, 
one was, of course, the end of the Cold War and the reduction 
of our nuclear forces. The other has been the change in space 
from the start of the Space Age which, of course, I was not on 
Active Duty for, but from the late 1950s to today, how much the 
nature of our space activities has changed, how much our 
reliance has changed on those space things, how much the 
participants have changed, and how much the number of manmade 
objects has changed.
    So if I just focus on the objects for a second, I think in 
1957 there was one manmade object on orbit. Today we are 
sitting here in 2011 and there are well over 20,000 manmade 
objects. About 1,000 of those are active satellites. So 19,000-
plus pieces of debris of one kind or another. That is those 
things that we can see, some sized around a softball or so 
larger. Our estimates are that there are probably 10 times that 
amount of debris that is smaller than what we actually actively 
would look at on a case-by-case basis. So pretty soon we are 
talking about a lot of objects here.
    You would say big space, little object theory, but you have 
to think about this, that there are some places on orbit that 
are more crowded than others, that are more desirable than 
others, not unlike driving. There are a lot of cars that 
transit Nebraska, but most of them are on the interstate, I 
would hazard a guess, and a lot of them go through the 
intersection out here of I-80 and 480. So that is the same 
thing on orbit, that there is a lot of stuff up there but it is 
channeled in certain places, and in some places it goes through 
intersections.
    So that in and of itself is a risk, first, to human space 
flight, and we put a protective observation bubble, if you 
will, around the Space Station and human space flight. Second, 
we put an observation bubble, if you will, around our active 
satellites, and then we are in agreements with others around 
the world to provide that kind of service for them as well.
    The final thing about this that makes it so potentially 
damaging is the speed at which things are traveling on orbit. 
Even though they are small objects, they are going at a very 
high speed, and therefore impacts cause a tremendous amount of 
damage. When you are talking about things moving at 17,000 
miles an hour, for example, collisions that occur at those 
speeds--that is faster than .30-06 round, by the way, that 
would go down range. Those kinds of speeds are particularly 
damaging if you talk about the unintended collision.
    Senator Nelson. In addition to worrying about space debris, 
we also have to be concerned about our adversaries perhaps 
trying to bring down or jam our satellites. What are we doing 
in a general sense to protect against having somebody, another 
country or a bad operator, find a way to effectively render 
inoperative one of our military satellites?
    General Kehler. Sir, the threat to our space capabilities 
is real. The threat that we are concerned about is 
predominantly a ground-based jamming threat, for example, GPS. 
GPS, as universally used as it is, is essentially in its 
orbital component a radio transmitter. It does not transmit at 
particularly high power, and so it is not a terribly difficult 
signal to jam, if you have the right pieces of equipment in 
place. So jamming is one of the issues.
    We see the development of jammers in militaries around the 
world. We know Sadaam Hussein in the early days of Operation 
Iraqi Freedom actually operated GPS jammers. They were not 
effective. He did not have many of them and they were not used 
particularly well. They were not employed effectively, and 
ultimately they were taken out.
    But we see a proliferation of jammers. We see satellite 
communications jamming. Sometimes we see that today in an 
unintentional way because the frequency spectrum is getting 
more crowded, but we have also seen it in an intentional way as 
well.
    Then, of course, we have seen the demonstration by the 
Chinese and we had seen years ago the demonstration of anti-
satellite weapons by the Russians. So we know that those types 
of capabilities exist out there in the world and we have to be 
mindful of those. So we are taking a number of steps.
    At some level, some of this is an engineering solution.
    We have to design the satellites differently. In some 
cases, they are pretty well protected today from a lot of 
things, but they are not protected against everything. We get 
into difficulty in determining what those other satellites that 
are on orbit--what is their real purpose? They can all look 
like communications satellites, but that may not be their 
purpose. So we have a better job that we have to do in 
situational awareness so we get advance warning of things that 
could happen, and then we can take some additional protective 
steps. In some cases, we have not put much in the way of 
protective steps in place. Resilience in the capability will 
come maybe from airborne platforms or elsewhere instead of 
space.
    Senator Nelson. There is a certain amount we can do to 
protect. Whatever we do can in some way or another be defeated 
if the other side develops the capacity to do that. We cannot 
protect anything and everything.
    General Kehler. No, we cannot. Resilience is the ultimate 
way to take care of these vulnerabilities. That is true in 
cyberspace as well. But ultimately mission assurance, which 
means that you can operate through something even in the face 
of duress of some kind, and then resilience, multiple ways to 
get the job done, is really the way that we are ultimately 
trying to get at these vulnerabilities.
    Senator Nelson. This question is about our men and women in 
uniform who are part of the STRATCOM. On any given day, how 
does STRATCOM support our troops in, let us say, Afghanistan?
    General Kehler. Sir, I tell my colleagues in the other 
combatant commands--and I actually believe this firmly--that 
there is no military operation that goes on out there that is 
not being impacted by STRATCOM in some way. The number one 
example is GPS. There is not a military activity that is going 
on out there somewhere today that is not impacted or touched 
somehow by GPS. Satellite communications is another one that 
there is either voice traffic or data going over satellite 
communications somewhere in the world right now in large 
volumes that is supporting military activities. We are 
providing the networks over which their data and communications 
are flowing. We are providing a strategic umbrella, I believe, 
a deterrent umbrella over top of them. We are ensuring that the 
missile defensive capabilities that they need are in place and 
effective. We are taking steps with them to combat WMD. We can 
provide expertise forward when they need expertise. We can 
provide other planners that go forward to conduct, for example, 
global strike operations.
    Let me use a couple of examples here. You asked about 
Afghanistan. The reason I believe that we can operate the way 
we do in Afghanistan is because of space and cyberspace. It 
allows our troops to navigate with accuracy. It allows them to 
communicate with certainty. It allows them to strike with 
precision. It allows them to do those kinds of things that have 
essentially become the American way of warfare in a place like 
Afghanistan. It allows troops to operate in geographically 
dispersed locations, which we do in Afghanistan. It allows us 
to put forward operating locations in places where their only 
communications might be through satellite communications means. 
It allows us to fly remotely piloted aircraft using a 
combination of cyberspace and space so that you do that half a 
world away. All of those things are either provided by the 
Service components of STRATCOM or somehow planned via a global 
synchronization effort through STRATCOM.
    Finally, in the early stages of the Libyan operations, 
STRATCOM conducted, on behalf of U.S. Africa Command, global 
strike operations as well.
    I believe we have a supporting role that we live every 
single day with those forward commanders that are out there. We 
are touching them in ways that they do not really realize we 
are touching them in. We are also helping to manage the global 
intelligence, surveillance, and reconnaissance assets that they 
are relying on every minute of every day.
    I feel very proud of the men and women of STRATCOM and what 
they do not only when we are supported in our efforts to deter 
the strategic end of the spectrum, but also in the supporting 
activities that they put out to support what they would call 
the warfighters. I think you would find that if you went around 
and talked to any STRATCOM assigned people today in any of our 
operating locations, they would say that they are there for 
that. So I am very proud of them.
    Senator Nelson. I think the American public is probably 
fascinated with the unmanned aerial vehicles and the way in 
which they operate. Could you give us maybe a little bit of an 
overview of how you can operate a machine halfway around the 
world with precision and that it does not have to be operated 
like a model airplane with a local control right on the ground 
close to the vehicle?
    General Kehler. Yes, sir. Well, actually it does.
    It is both.
    Senator Nelson. Yes, it can be both ways, but it does not 
have to be.
    General Kehler. Right.
    The way I think about it, sir, is I split it into two 
pieces. One is actually flying the aircraft itself. The other 
is operating the sensors or the systems that are on the 
airplane.
    So to do the airplane operations in the immediate vicinity 
of the airfield, we do it a lot like a model airplane. There is 
somebody there in the local vicinity to get it airborne and 
bring it home when it is on final approach, if you will. But 
the whole rest of that operation is being flown remotely. The 
vehicle itself is being flown by a pilot who is remote, and 
sitting next to that pilot is a sensor operator or a mission 
operator of one kind or another. That is all being done through 
cyberspace. It is all being done through a network. It is all 
being done through a combination of things, by the way, which 
is some military pieces, but mostly it is commercial pieces. 
There is probably a commercial satellite link that is involved 
in there somewhere. There may be some commercial fiber optic 
that is involved in there somewhere which, by the way, 
reinforces with us why the nature of cyberspace is largely in 
the civil and commercial domain when we use it. We are talking 
about protecting ourselves in cyberspace. A very interesting 
point of contact between DOD and the other departments and 
commercial industry is in just that kind of a thing for just 
that kind of a purpose, for example, flying remotely piloted 
aircraft.
    That is the way it is done. It is done from places that are 
relatively small rooms. I know you have seen some of them and 
been with the crews that do that. What strikes me is if they 
are flying over Afghanistan, if you enter a shelter with them 
and close the door behind you, you do not know where you are. 
After a while you forget that you are in the United States 
somewhere. You are not in Afghanistan with them. You are not 
where the vehicle is. After a while, I think the mindset that 
the people have that do this is the same.
    That goes all the way out to the tactical level. There are 
some smaller vehicles that are flown at the tactical level. 
There are some that are actually flown like model airplanes 
from some person forward on the ground who is doing almost the 
same thing that we did as kids, but they have sensor packages 
on them that allow them to see and perceive things that are out 
there that might be threats.
    I think it is a remarkable testament to space and 
cyberspace that we do those things today.
    Senator Nelson. It is a little bit like science fiction. 
There is no fiction to it but there is a lot of science 
associated with it.
    This question relates to the fact that STRATCOM is very 
technically oriented and requires a lot of dependence on 
scientists and engineers and other people with a high degree of 
technical specialty. Are we seeing enough young people and 
others in the educational system today who are taking that kind 
of background coursework to fill the needs that we are going to 
have tomorrow and the next day and the day after that for the 
kind of capacity that STRATCOM has in the future that is not 
that very far ahead?
    General Kehler. No, sir, I do not think we are seeing 
enough. It may very well be that if we were to visit the major 
universities around the country--and certainly we have had a 
little bit of this conversation with the University of 
Nebraska--I think you would find that they are producing high 
quality engineering students, and I think you would find that 
every one of our major engineering schools around the country 
are producing high quality engineering students and I think you 
would find that they are producing maybe significant numbers of 
them. I think you would find that of those numbers, the 
percentage who stay in the United States and enter the national 
security business is way too small. So there are interesting 
issues here with recruiting, with retention, with making sure 
that we have identified what skills we need, and making sure 
that we have put in place the incentives, I think, for people 
to enter the national security business and stay there when it 
is a little more difficult to do that.
    NASA is shifting its directions and is in a period where we 
are coming to the end of the Space Shuttle. There is going to 
be a period of time here as they are reorienting to go off and 
do some other things.
    I think it is going to be a challenge for us to attract and 
retain the kinds of people that we need. Cyberspace is another 
one of those areas and particularly when there is highly 
competitive demand on people to go to industry as well. So I 
think educating them, keeping them, going back to the secondary 
education as well and then post-secondary is something that is 
very concerning for us.
    Senator Nelson. It is something that obviously we need to 
work on because if we do not have the workforce coming into the 
command, we are not going to be able to continue the command as 
it is or we will have to structure it differently and that is 
not in anybody's best interest. So I hope that we can keep 
pushing to get that kind of effort and capacity growing. 
Otherwise we will not have any seed corn and we definitely have 
to have that.
    General Kehler. Yes, sir.
    Senator Nelson. STRATCOM is responsible for, as we talked 
about, the intelligence, surveillance, and reconnaissance, or 
as it is referred to in military terms, ISR. We know that ISR 
played a role in the successful raid that took out Osama bin 
Laden. Can you talk about any kind of support that STRATCOM 
might have provided in that mission?
    General Kehler. Sir, not really.
    Senator Nelson. You can say that we had some involvement. 
You just do not have to say what it is.
    General Kehler. We did have some involvement. We provide 
involvement across the board to the activities in CENTCOM all 
the time. So most of what we do for ISR, anyway, in those 
forward areas is planning and recommendations on what assets 
they should get. How they use them and what they are using them 
for is not always apparent to us.
    Senator Nelson. That is my final question. Is there 
anything that I did not ask that I should have asked?
    General Kehler. No, sir. Thank you for the opportunity to 
appear again.
    I will say again in closing, on behalf of the men and women 
of STRATCOM, we certainly appreciate the support of Congress. 
We appreciate the support of the entire Senate Armed Services 
Committee and your support and your subcommittee, in 
particular. These are difficult issues and you know and I know 
both that there will be fiscal pressures as the President's 
budget works its way through.
    I would just make one final advocacy comment about the need 
to sustain the funding that is in the President's budget, 
particularly for these critical items related to sustaining our 
nuclear forces, the nuclear infrastructure that backs them up, 
the command and control systems that we have in place, our need 
to increase both our space and cyberspace situational awareness 
and the investments that are there to do that, the investments 
that we have in place to sustain our force.
    Then finally, I would remind all of us again that those 
steps that you all have taken to support the men and women who 
actually are the heart and soul of what we do--the hardware is 
one thing. But it is not the hardware that ultimately is 
important. It is the men and women that are in STRATCOM and 
throughout the rest of our military. So the support that we 
have for them I would continue to advocate in the strongest 
possible way.
    Other than that, sir, thanks for the opportunity.
    Senator Nelson. Thank you, General Kehler, for your very 
candid remarks and responses to questions. Thank you and the 
men and women of STRATCOM for their service to our country, to 
wish you and all of them the very best and to thank the young 
men and women who are here with us, as well as the Fighting 
55th and the ``Weather Command'' as well.
    The colonel was quick to point out that it is the Chaplain 
who is responsible for the rain. [Laughter.]
    So thank you so very much.
    I also want to thank the staff here at this wonderful 
facility, once again, for hosting one of our field hearings. We 
thank you.
    We thank all who are here and hope that you have perhaps 
some idea, if not a better idea, of the role of STRATCOM which 
we are all so proud is located here in this part of our 
wonderful State. We hope that we will be able to continue to 
have hearings of this kind for transparency and for 
enlightenment to the men and women who are relying on this kind 
of protection for our national defense and the taxpayers who 
continue to support them. Thank you all.
    The hearing is adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
